<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-156]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-156
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2918/S. 1294

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2010, AND FOR OTHER PURPOSES

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-308                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             Architect of the Capitol (except House items)
                    Government Accountability Office
                       Government Printing Office
                          Library of Congress
                          Office of Compliance
                      United States Capitol Police
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                     BEN NELSON, Nebraska, Chairman
MARK PRYOR, Arkansas                 LISA MURKOWSKI, Alaska
JON TESTER, Montana                  THAD COCHRAN, Mississippi
DANIEL K. INOUYE, Hawaii               (ex officio)
  (ex officio)
                           Professional Staff
                             Nancy Olkewicz
                    Carolyn E. Apostolou (Minority)
                        Sarah Wilson (Minority)

                         Administrative Support

                              Teri Curtin


                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Thursday, April 23, 2009

U.S. Senate:
    Office of the Secretary......................................     1
    Sergeant at Arms and Doorkeeper..............................    71
United States Capitol Police.....................................   100

                         Thursday, May 7, 2009

Architect of the Capitol.........................................   157
Office of Compliance.............................................   170

                         Thursday, May 21, 2009

Government Accountability Office.................................   227
Government Printing Office.......................................   235
Congressional Budget Office......................................   239

                         Thursday, June 4, 2009

Library of Congress..............................................   261
  


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, Tester, and Murkowski.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        SHEILA DWYER, ASSISTANT SECRETARY OF THE SENATE
        CHRIS DOBY, FINANCIAL CLERK


                opening statement of senator ben nelson


    Senator Nelson. The subcommittee will come to order.
    First of all, good afternoon, everyone, and welcome. We are 
glad to have you here. We meet this afternoon to take testimony 
on the fiscal year 2010 budget requests for the Secretary of 
the Senate, the Senate Sergeant at Arms, and the U.S. Capitol 
Police.
    This is my first hearing as chairman of this subcommittee, 
and I look forward to working closely with my ranking member, 
Senator Murkowski, and the other members of the subcommittee, 
Senator Pryor and Senator Tester, who we hope will be able to 
join us before we are concluded.
    And I must admit I was surprised having this be my first 
opportunity as the chairman to see an overall request for the 
legislative branch totaling $5 billion, or a 15 percent 
increase over the current year. So needless to say, I look 
forward to working with all of the legislative branch agencies 
on ways that we can help try to reduce these numbers.
    I understand that this subcommittee, for example, received 
an 11 percent increase in fiscal year 2009, but I hope that we 
don't expect double-digit increases this year.
    I also want to welcome our three witnesses today. Nancy 
Erickson, who is Secretary of the Senate. Nancy, we are glad to 
have you here. Terry Gainer, Senate Sergeant at Arms. Terry, 
thank you for being here. And Chief Phillip Morse of the 
Capitol Police. Chief, we are very happy to have you here, and 
Chief Nichols with you as well and Gloria Jarmon.
    I want to first acknowledge the dedication and hard work of 
all of your staff. The Senate isn't an easy place to work, and 
we take a lot for granted here. But we do owe a debt of 
gratitude to all of you for keeping the Senate running safely 
and smoothly on a daily basis. And to the extent that it 
doesn't, I assure you it is not your fault.
    And Chief Gainer, I note with sadness the passing of one of 
your valued staff, Steve Mosley, after a dedicated 32-year 
career with your agency. The entire Senate community joins you 
in mourning the loss of this outstanding individual and 
dedicated public official. We were grateful for his dedication 
and commitment to this institution. I know you may want to make 
a statement about that just a little bit later.
    But first, I want to welcome you, Nancy. We are pleased to 
have you here this afternoon. We are anxious to hear your 
testimony. Among many others on your staff, I want to 
especially acknowledge Chris Doby of the Disbursing Office for 
his fine work.
    Your office is requesting a budget of $27.8 million, which 
is an increase of roughly $1.7 million, or 7 percent above the 
current year. I look forward to hearing about the specifics of 
your request.
    Chief Gainer, the Sergeant at Arms request for 2010 totals 
$243.5 million, a 10 percent increase over fiscal year 2009. I 
realize that your request is laden with technology upgrades for 
the Senate community, which tend to be expensive, and I look 
forward to discussing those with you just a little later.
    And finally, Chief Morse, the fiscal year 2010 Capitol 
Police budget request totals $410 million, or 34 percent over 
the enacted fiscal year 2009 level, and I realize also that the 
bulk of your increase is related to the radio project and the 
Library of Congress police merger. But that is a fairly 
significant and perhaps even massive increase. So I want to 
discuss these and other issues with you today.
    And Chief Morse, in closing, I would like to congratulate 
you on the clean opinion your agency received on your 2008 
financial statements. Your agency has obviously come a long 
way, and we appreciate getting to this point. And we on this 
subcommittee appreciate your personal efforts and the efforts 
of your chief administrative officer, Gloria Jarmon.
    Now I would like to turn to the ranking member of the 
subcommittee, my good friend Senator Murkowski, for her opening 
remarks.


                  STATEMENT OF SENATOR LISA MURKOWSKI


    Senator Murkowski. Well, thank you, Mr. Chairman.
    And I look forward to working with you on the issues that 
face us as we deal with the legislative branch appropriations. 
We have not had an opportunity to do much work together. So I 
am sure that this is the beginning of a long and fine 
relationship and look forward to that.
    But I also appreciate hearing your comments this morning as 
we work to address the needs of the legislative branch. I think 
it is important that we exercise fiscal discipline and that we 
lead by example. And I think that that is very key for us all.
    I want to welcome our witnesses as well. The Secretary of 
the Senate Nancy Erickson, Sergeant at Arms Terry Gainer, Chief 
Phillip Morse, their deputies Sheila Dwyer, Drew Willison, Dan 
Nichols, the Senate financial clerk Chris Doby, and the Capitol 
Police chief administrative officer Gloria Jarmon.
    We had had some meetings scheduled earlier in the week that 
I had to cancel because I am still working on a little bit of a 
knee issue, but we will have plenty of opportunity to spend 
quality time together and I look forward to that.
    I do appreciate the very good work that you and your staffs 
do, the parliamentarians, the legislative professionals, many 
working very, very late nights here in the Senate, the police 
officers who protect the Capitol complex, the Sergeant at Arms 
employees that ensure that our mail is safe, the folks who 
develop the emergency plans, the doorkeepers, the phone 
operators, the technology specialists, and there are just so 
many that you can't even mention, all those who make this place 
operate smoothly.
    Your agencies contributed a great deal in the last year to 
many, many important events, including the Presidential 
Inauguration, the opening of the Capitol Visitor Center (CVC), 
and yet you did all this while still maintaining the day-to-day 
functions. And I think that speaks highly of you, and we 
appreciate all of your efforts there.
    Now the chairman has mentioned the legislative branch 
request for fiscal year 2010, a total of over $5 billion, an 
increase of nearly 15 percent over fiscal year 2009. And I, 
too, am looking forward to hearing about and understanding more 
the needs of the legislative branch agencies. But as I have 
just stated, I do believe that we here in the legislative 
branch should serve as a model for the rest of Government. I am 
not convinced that a 15 percent increase does set a good 
example.
    So I would like to look at those ways that we can, through 
prioritization and just working together, figure out how we set 
that better standard. I will be honest with you. I am one who 
questions the need for continued growth in the size of 
legislative branch agencies. I would like to explore some of 
these concerns today and through the process.
    But again, Mr. Chairman, I look forward to the opportunity 
to work with you to meet the needs of these very, very 
important agencies. And while we do this, we will tighten our 
belts where possible.
    So thank you so much.
    Senator Nelson. Well, it seems like we are going from 
tight, tighter, to perhaps tightest.
    I turn now to my friend Senator Pryor and ask if he might 
have any opening remarks.
    Senator Pryor. Thank you, Mr. Chairman.
    I will just submit my statement for the record because I am 
ready to go ahead and hear from the witnesses.
    Thank you for your leadership, as well as the ranking 
member. Thank you as always. You all do great work around here.
    Thank you.
    Senator Nelson. Appreciate it.
    [The statement follows:]

                Prepared Statement of Senator Mark Pryor

    Thank you Chairman Nelson and Ranking Member Murkowski for holding 
this hearing concerning the budget requests for the Secretary of the 
Senate, the Senate Sergeant at Arms, and the United States Capitol 
Police.
    I look forward to having the opportunity to work with my colleagues 
on this subcommittee to consider the budget requests put forward by 
organizations within the Senate and the Legislative Branch of 
Government.
    As this subcommittee works toward producing the 2010 Legislative 
Branch Appropriations bill, I want to work to keep the Legislative 
Branch of government operating efficiently and as wise stewards of the 
taxpayers' money.
    I thank the Honorable Nancy Erickson, Secretary of the Senate; the 
Honorable Terrance W. Gainer, Senate Sergeant at Arms; and Phillip D. 
Morse, Sr., Chief of the United States Capitol Police, for testifying 
today before the subcommittee.
    I look forward to hearing your testimony and having the opportunity 
to ask questions.

    Senator Nelson. Now we will begin with the witnesses and, 
if we could, keep the opening statements perhaps to about 5 
minutes, and then that will give us more time for questions. 
So, Ms. Erickson, we will start with you. And then we will hear 
from Terry Gainer and then Chief Morse.
    Nancy.

                  SUMMARY STATEMENT OF NANCY ERICKSON

    Ms. Erickson. Chairman Nelson, Senator Murkowski, and 
Senator Pryor, I appreciate this opportunity to provide 
testimony. I ask that my statement, which includes our 
department reports, be submitted for the record.
    With me today is Sheila Dwyer, the assistant secretary, and 
Chris Doby, the Senate financial clerk, who is no stranger to 
your subcommittee staff.
    Our budget request for fiscal year 2010 is $27,790,000, of 
which $25,790,000 is salary costs and $2 million is operating 
costs, which is the same level of operating funds we received 
for the current fiscal year. Our department leaders have 
demonstrated wise stewardship of our financial resources in a 
way that has maximized the services we provide to the Senate.
    Since 1789, when the Senate first convened in Federal Hall 
in New York City, the Secretary of the Senate has been tasked 
with legislative, administrative, and financial 
responsibilities to support the Senate. For me, there is no 
more notable moment for our office this year than the tribute 
paid to Dave Tinsley, the chief legislative clerk and director 
of our legislative floor staff, who retired from the Senate 
after 32 years of public service.
    The moving statements of Majority Leader Reid and 
Republican Leader McConnell were followed by a standing ovation 
by the full Senate. I believe the well-earned tribute to Dave 
Tinsley was also recognition of the other public servants in my 
office who work effectively behind the scenes to support this 
institution, its members, and its staff. I am very proud of 
their work.
    I am confident that our legislative department with its 
cadre of veterans and eager new hires will continue to serve 
the Senate in an exemplary manner. During fiscal year 2010, 
they will continue to focus on cross-training, evacuation 
exercises, and continue discussions with the House clerk, the 
Government Printing Office, and the White House on the 
transmittal of legislation in an emergency to bring life to our 
continuity of operation plans (COOP) and ensure chamber support 
under any circumstance.
    Our administrative departments provide a variety of 
services to the Senate, ranging from the Senate library, which 
is now led by a woman for the first time in its 138-year 
history, to the Senate page school whose faculty provide an 
excellent education to our Senate pages, beginning at 6:15 a.m. 
each day.
    As the subcommittee knows, for 17 years, our stationery 
room has effectively managed the $1.5 million Metro subsidy 
program for the Senate. Metro's recent transition to electronic 
smart benefits has opened new opportunities to better serve the 
Senate community, and the stationery room hopes to meet the 
requests of our customers by investing in technology that will 
provide an e-commerce option for Senate offices.
    In fiscal year 2007, the Senate gift shop initiated a 
program to require certification by vendors to address 
potential instances of lead in children's products and jewelry. 
Following passage of the Consumer Product Safety Improvement 
Act of 2008, thanks to Senator Pryor, the gift shop has 
increased its program to evaluate its products and ensure 
compliance with the new heightened standards and bans of the 
act.
    Webster, the Senate's internal Web site, was launched in 
1995, and I am pleased to report that our goal to redesign the 
site to better serve Senate users has been accomplished with 
the site's other stakeholders.
    Collaborative planning began almost 2 years ago between our 
staff and the Architect of the Capitol's staff to commemorate 
the 100th anniversary of the Russell Senate Office Building, 
which was completed in 1909. Their efforts produced a wonderful 
publication, a Web site on Senate.gov, exhibits, informational 
kiosks, commemorative merchandise in the Senate gift shop, as 
well as the first-ever comprehensive survey of the Senate's 
inventory of historic Russell furniture.
    I know that transparency is important to this subcommittee, 
and I would like to bring attention to the Office of Public 
Records, which was given an enormous responsibility to 
implement the Honest Leadership and Open Government Act, or 
HLOGA, resulting in substantial changes to the Lobbying 
Disclosure Act. The frequency of reporting doubled from semi-
annually to quarterly, and HLOGA required mandatory electronic 
filing.
    This past year, the office implemented the bill's final 
filing requirement, known as section 203, which requires 
lobbyists to semi-annually report their political contributions 
to Members as well as contributions to any event that honors a 
covered official. Now the public has more sophisticated access 
to public lobbying records, as well as information on Member 
and staff travel and lobbying restrictions for Members and 
staff who have left the Senate.
    Finally, I am pleased to report that our Senate disbursing 
office, which works closely with your subcommittee in 
formulating the budget for the United States Senate, is moving 
forward in its efforts to institute a paperless voucher system. 
An initial prototype was implemented last year, and it was met 
with great success.
    Next, a pilot project will feature new technology, 
including imaging and electronic signatures. Not only will the 
system green the Senate by reducing paper usage, it will also 
enable the continuation of voucher processing operations from 
an alternate location should an emergency occur.

                          PREPARED STATEMENTS

    We appreciate your consideration of our budget request for 
fiscal year 2010. I believe it appropriately focuses on several 
of the Senate's priorities--continuity of operations, archival, 
education, implementation of HLOGA, and the paperless voucher 
pilot program. We are grateful for your support of our efforts 
to support this institution.
    Thank you.
    Senator Nelson. Thank you.
    [The statements follow:]

                  Prepared Statement of Nancy Erickson

    Mister Chairman, Senator Murkowski, and Members of the 
Subcommittee, thank you for your invitation to present testimony in 
support of the budget request of the Office of the Secretary of the 
Senate for fiscal year 2010.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of the 26 departments of the 
office, their recent achievements, and their plans for the upcoming 
fiscal year.
    My statement includes: Presenting the fiscal year 2010 budget 
request; implementing mandated systems, financial management 
information system (FMIS) and legislative information system (LIS); 
continuity of operations planning; and maintaining and improving 
current and historic legislative, financial and administrative 
services.

             PRESENTING THE FISCAL YEAR 2010 BUDGET REQUEST

    I am requesting a total fiscal year 2010 budget of $27,790,000. The 
request includes $25,790,000 in salary costs and $2,000,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $1,770,000 over the fiscal year 2009 budget 
as a result of the costs associated with the annual cost of living 
adjustment and targeted merit awards that are associated with our 
Employee Feedback and Development Plans. The expense operating budget 
remains the same as our request in fiscal year 2009.
    The net effect of my total budget request for 2010 is an increase 
of $1,770,000.
    Our request is consistent with the amounts requested and received 
in recent years through the Legislative Branch Appropriations process. 
This request will enable us to continue to attract and retain talented 
and dedicated individuals to serve the needs of the United States 
Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Items                                 fiscal year      estimates      Difference
                                                                   2009, Public     fiscal year
                                                                     Law 111-8         2010
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office \1\........................................        $550,000        $550,000  ..............
    Administrative services.....................................      $1,390,000      $1,390,000
    Legislative services........................................         $60,000         $60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................      $2,000,000      $2,000,000  ..............
----------------------------------------------------------------------------------------------------------------
\1\ Includes the Executive, Information Systems, Page School, Security, and Web Technology offices.

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to operations are mandated by law, and I would 
like to spend a few moments on each to highlight recent progress, and 
to thank the committee for your ongoing support of both.

Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 Senate offices. The Disbursing Office continues to 
modernize processes and applications to meet the continued demand by 
Senate offices for efficiency, accountability and ease of use. The 
Disbursing Office remains committed to and continues working toward an 
integrated, paperless voucher system, improving the Web FMIS system, 
and making payroll and accounting system improvements.
    During fiscal year 2008 and the first half of fiscal year 2009, 
specific progress made on the FMIS project included:
  --Web FMIS was upgraded twice, once in June 2008 and again in 
        September 2008. This system is used by office managers and 
        committee clerks to create vouchers and manage their office 
        funds, by the Disbursing Office to review vouchers and by the 
        Committee on Rules and Administration to sanction vouchers. The 
        two releases provided both technical and functional changes. 
        The primary change in the June release was the conversion of 
        all employee vendor numbers to use the 9-digit employee 
        identification number assigned by the payroll system instead of 
        an employee vendor number that included a partial Social 
        Security Number. With this release, Disbursing also began three 
        pilots: providing payroll reports online, prototype of an 
        online review of imaged vouchers and supporting documentation, 
        and use of electronic invoicing by which electronic credit card 
        data was made available for importing into vouchers. In 
        addition, a number of Web FMIS user-requested functionality was 
        implemented in this release. Disbursing added display of office 
        name to the master vendor file and the ability to search the 
        master expense category list by words in the expense category 
        description field. Finally, in preparation for the new fiscal 
        year, Disbursing implemented a budget function that enables 
        configuring the new budget based on a previous fiscal year.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms (SAA). Each year the SAA staff upgrades the 
        infrastructure hardware and software. During 2008, the SAA 
        implemented one major upgrade to the FMIS infrastructure: 
        upgrading the Z/OS mainframe operating software from version 
        1.7 to version 1.9. In addition, the SAA implemented quarterly 
        micro-code updates and the application of maintenance releases 
        on a more regular basis, both of which will keep the 
        infrastructure more current. During 2008, maintenance was 
        applied to Z/OS and DB2 in March and to DB2 in August. Because 
        the Z/OS upgrade was accomplished as a stand-alone activity, IT 
        tested all FMIS subsystems in a testing environment and 
        validated all FMIS subsystems in the production environment 
        after the implementation.
  --Disaster recovery operation services for FMIS are provided at the 
        Alternate Computer Facility (ACF). During December 2008, at the 
        Disbursing Office's request, the SAA conducted an FMIS-only 
        disaster recovery test. This is the second year in which a 
        FMIS-only test was conducted. The longer time allotted for this 
        test enabled a more complete functional testing, allowed for 
        the running of more reports than in previous tests, and 
        permitted the testing of the critical payroll and FAMIS batch 
        processes. While the Disbursing IT staff organized the 
        functional test plan, the actual testers included Disbursing IT 
        staff, payroll staff, contractor support staff, and SAA Finance 
        staff. No major problems were encountered and because of the 
        longer testing window any issues encountered were thoroughly 
        investigated and resolved.
    During the remainder of fiscal year 2009 the following FMIS 
activities are anticipated:
  --Implementing a Web FMIS release with a re-writing of the FMIS 
        checkwriter functionality and a new file upload format for the 
        mainframe.
  --Testing credit card data file transfer and implementing 
        ``electronic invoice'' functionality.
  --Transferring all SAVI-system users to the new Web FMIS ``staffer 
        functionality'' for creating online expense summary reports 
        (ESRs) and viewing payment information.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, imaging of 
        supporting documentation, and beginning acquisition.
  --Implementing online distribution of monthly ledger reports through 
        Web FMIS.
  --Attending payroll system demonstrations and completing software 
        acquisition strategy.
  --Implementing two mainframe micro-code and several system 
        maintenance updates.
  --Participating in the yearly disaster recovery exercise at the ACF.
    During fiscal year 2010, the following FMIS activities are 
anticipated:
  --Conducting a pilot with chief clerks and office managers of the 
        technology for paperless payment. This assumes identification 
        of satisfactory hardware and software for electronic signatures 
        and imaging of supporting documentation, and resolution of 
        related policy and process issues.
  --Continuing the implementation, performance tuning of tables and the 
        required updates to the Hyperion financial management 
        application to provide the Senate the ability to produce 
        auditable financial statements.
  --Continue the implementation of online financial reports and Web 
        FMIS reporting enhancements.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.

                          LEGISLATIVE OFFICES

    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. 
This office prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate any amendments 
that are agreed to into those measures. This office retains custody of 
official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. This office is 
responsible for verifying the accuracy of information entered into the 
Legislative Information System (LIS) by the various offices of the 
Secretary.
    Additionally, the Legislative Clerk acts as a supervisor for the 
Legislative Department, providing a single line of communication to the 
Secretary and Assistant Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross training. The 
department consists of eight offices: the Bill Clerk, Captioning 
Services, Daily Digest, Enrolling Clerk, Executive Clerk, Journal 
Clerk, Legislative Clerk, and the Official Reporters of Debates.

Summary of Activity
    The Senate completed its legislative business and adjourned sine 
die on January 3, 2009. During 2008, the Senate was in session 184 days 
and conducted 215 roll call votes. There were 452 measures reported 
from committees and 589 total measures passed. In addition, there were 
1,812 amendments processed.

Cross-Training and Continuity of Operations (COOP) Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. Approximately half of the legislative 
staff are currently involved or have recently been involved in cross-
training to ensure that they are able to perform the basic floor 
responsibilities of the Legislative Clerk, as well as the various other 
floor-related responsibilities of the Secretary.
    Additionally, each office and staff person within the Legislative 
Department participated in numerous COOP discussions and exercises 
throughout the past year. These discussions and exercises have been 
conducted by a joint effort of the Office of the Secretary and the 
Office of the Sergeant at Arms.
Online Congressional Record Corrections Program
    The Congressional Record currently appears in three formats: the 
daily print version, the online version and the permanent bound 
version. Both the daily and online versions of the Record reflect the 
previous day's session.
    In order to provide the Senate and the public with the most 
accurate, up-to-date version of the Record, procedures have been put 
into place to correct clerical/typographical errors in the online 
version of the Record. This program is specifically designed to address 
clerical errors that occur. The responsibility to correct the online 
Record is shared between the Secretary's legislative staff, who submit 
corrections of clerical errors as needed, and the GPO, which updates 
the online Record on a regular basis. Corrections to the online Record 
will appear on the page on which the error occurred, and will be listed 
after the History of Bills and Resolutions section of the printed 
version of the Congressional Record Index for print-only viewers of the 
Record.

Succession Planning
    Among the Secretary's Legislative Department supervisors, the 
average length of Senate service is 18 years. This is a very good 
situation for the Senate. Due to the unique nature of the Senate as a 
legislative institution, it is critical to attract and keep talented 
employees, especially the second tier of employees just behind the 
current supervisors. The complex practices and voluminous precedents of 
the Senate make institutional experience and knowledge extremely 
valuable.

                               BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's staff keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all Senate offices through the Legislative Information System (LIS). 
With the exception of the Amendment Tracking System (ATS), such 
information is made available to the House as well. The Bill Clerk 
records actions of the Senate with regard to bills, resolutions, 
reports, amendments, cosponsors, public law numbers, and recorded 
votes. The Bill Clerk is responsible for preparing for print all 
measures introduced, received, submitted, and reported in the Senate. 
The Bill Clerk also assigns numbers to all Senate bills and 
resolutions. All of the information received in this office comes 
directly from the Senate floor in written form within moments of the 
action involved, so the Bill Clerk's Office is generally regarded as 
the most timely and most accurate source of legislative information.

Legislative Activity
    The Bill Clerk's office processed into the database more than 1,000 
additional legislative items and more than 150 additional roll call 
votes than in the previous Congress, for an overall percentage increase 
of almost 9 percent. In fact, only three legislative categories (Senate 
Bills introduced, Senate Concurrent Resolutions submitted, and House 
Bills received) saw a decline in activity between the 109th Congress 
and the 110th Congress. For comparative purposes, below is a summary of 
the second sessions of the 109th and 110th Congresses, and then a 
summary of the entire 109th and 110th Congresses:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 109th           110th
                                                             Congress, 2nd   Congress, 2nd     Percent     109th Congress  110th Congress     Percent
                                                                Session         Session         change                                         change
--------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Bills..............................................           1,953           1,217        -37.686           4,122           3,741         -9.243
Senate Joint Resolutions..................................              14              19        -35.714              41              46        +12.195
Senate Concurrent Resolutions.............................              48              43        -10.417             123             107        +13.008
Senate Resolutions........................................             287             311         +8.362             634             729        +14.984
Amendments Submitted......................................           2,544           1,812        -28.774           5,239           5,704         +8.876
House Bills...............................................             325             427        +31.385             611             940        +53.846
House Joint Resolutions...................................               8               4        -50                  19              13        -31.579
House Concurrent Resolutions..............................              77              93        +20.779             165             186        +12.727
Measures Reported.........................................             233             452        +93.991             519             880        +69.557
Written Reports...........................................             157             274        +74.522             369             528        +43.089
Total Legislation.........................................           5,646           4,652        -17.605          11,842          12,874         +8.715
Roll Call Votes...........................................             279             215        -22.939             645             657         +1.86
House Messages \1\........................................             225             283        +25.778         ( \2\ )             546    ( \2\ )
Cosponsor Requests \3\....................................           7,000           7,306         +4.371  ..............  ..............  .............
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up by the Bill Clerks for inclusion in the Congressional Record. It excludes
  additional activity on these bills.
\2\ The number of House Messages is not available prior to the 109th Congress, 2nd Session; therefore, this figure is not available.
\3\ This number reflects how many cosponsors were input and subsequently appear in the ``Additional Cosponsors'' section of Morning Business in the
  Congressional Record. This number does not include the cosponsor requests for ``original'' cosponsors which are added on the same day of introduction
  and do not appear in the ``Additional Cosponsors'' section of the Record.

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's staff maintains a good working relationship with 
the Government Printing Office (GPO) and seeks to provide the best 
service possible to meet the needs of the Senate. GPO continues to 
respond in a timely manner to the Secretary's requests, through the 
Bill Clerk's office, for the printing of bills and reports, including 
the expedited printing of priority matters for the Senate chamber. To 
date, at the request of the Secretary through the Bill Clerk, GPO 
expedited the printing of 46 measures for floor consideration by the 
Senate during the second session of the 110th Congress, and 129 
measures during the entire Congress.

                          CAPTIONING SERVICES

    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings for 
Senate offices on Webster, the Senate intranet.

General Overview
    Captioning Services strives to provide the highest quality closed 
captions. For the 15th year in a row, the office has achieved an 
overall accuracy average above 99 percent. Overall caption quality is 
monitored through daily translation data reports, monitoring of 
captions in realtime, and review of caption files on Webster.
    The realtime searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for the Senate 
community. In particular, legislative staff continue to depend upon its 
availability, reliability and content to aid in the performance of 
their duties. The Senate Recording Studio is in the process of 
upgrading the closed caption log software, which has not been updated 
since it was developed more than a decade ago. The new system should be 
in place during calendar year 2009.
    Continuity of operations (COOP) planning and preparation continues 
to be a top priority to ensure that the staff are prepared and 
confident about the ability to relocate and successfully function from 
a remote location in the event of an emergency. The staff participates 
with the Senate Recording Studio in an off-site location exercise at 
least once a year.

Capitol Visitor Center Update
    Captioning Services relocated to new offices in the Capitol Visitor 
Center during the month of August 2008.

                              DAILY DIGEST

    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the second session of the 
110th Congress. First, a brief summary of a compilation of Senate 
statistics:
Chamber Activity
    The Senate was in session a total of 184 days, for a total of 988 
hours and 31 minutes. There were 3 quorum calls and 215 record votes. 
(See the following chart, ``20-Year Comparison of Senate Legislative 
Activity.'')

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1989          1990          1991          1992          1993          1994          1995          1996          1997          1998
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3          1/23           1/3           1/3           1/5          1/25           1/4           1/3           1/3          1/27
Senate Adjourned....................................         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96          10/4         11/13         10/21
Days in Session.....................................           136           138           158           129           153           138           211           132           153           143
Hours in Session....................................      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"
Average Hours per Day...............................           7.4           9.1           7.6           8.5           8.3           9.0           8.7           7.8           7.1           7.7
Total Measures Passed...............................           605           716           626           651           473           465           346           476           386           506
Roll Call Votes.....................................           312           326           280           270           395           329           613           306           298           314
Quorum Calls........................................            11             3             3             5             2             6             3             2             6             4
Public Laws.........................................           240           244           243           347           210           255            88           245           153           241
Treaties Ratified...................................             9            15            15            32            20             8            10            28            15            53
Nominations Confirmed...............................        45,585        42,493        45,369        30,619        38,676        37,446        40,535        33,176        25,576        20,302
Average Voting Attendance...........................          98.0         97.47         97.16          95.4          97.6         97.02         98.07         98.22         98.68         97.47
Sessions Convened Before 12 Noon....................            95           116           126           112           128           120           184           113           115           109
Sessions Convened at 12 Noon........................            14             4             9  ............             6             9             2            15            12            31
Sessions Convened after 12 Noon.....................            27            17            23            10            15            17            12             7             7             2
Sessions Continued after 6 p.m......................            88           100           102            91           100           100           158            88            96            93
Sessions Continued after 12 Midnight................             9            13             6             4             9             7             3             1  ............  ............
Saturday Sessions...................................             1             3             2             2             2             3             5             1             1             1
Sunday Sessions.....................................  ............             2  ............  ............  ............  ............             3  ............             1  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1999          2000          2001          2002          2003          2004          2005          2006          2007          2008
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/6          1/24           1/3          1/23           1/7          1/20           1/4           1/3           1/4           1/3
Senate Adjourned....................................         11/19         12/15         12/20         11/20          12/9          12/8         12/22          12/9         12/31           1/2
Days in Session.....................................           162           141           173           149           167           133           159           138           189           184
Hours in Session....................................      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"
Average Hours per Day...............................           7.3           7.2           7.1           7.0           8.7           7.7           7.7           7.4           7.2          5.37
Total Measures Passed...............................           549           696           425           523           590           663           624           635           621           589
Roll Call Votes.....................................           374           298           380           253           459           216           366           279           442           215
Quorum Calls........................................             7             6             3             2             3             1             3             1             6             3
Public Laws.........................................           170           410           136           241           198           300           169           248           142           318
Treaties Ratified...................................            13            39             3            17            11            15             6            14             8            30
Nominations Confirmed...............................        22,468        22,512        25,091        23,633        21,580        24,420        25,942        29,603        22,892        21,785
Average Voting Attendance...........................         98.02         96.99         98.29         96.36         96.07         95.54         97.41         97.13         94.99         94.36
Sessions Convened Before 12 Noon....................           118           107           140           119           133           104           121           110           156           147
Sessions Convened at 12 Noon........................            17            25            10            12             4             9             1             4             4             4
Sessions Convened after 12 Noon.....................            19            24            21            23            23            21            36            24            32            33
Sessions Continued after 6 p.m......................           113            94           108           103           134           129           120           129           144           110
Sessions Continued after 12 Midnight................  ............  ............             2             3             8             2             3             3             4             2
Saturday Sessions...................................             3             1             3  ............             1             2             2             2             1             3
Sunday Sessions.....................................  ............             1  ............  ............             1             1             2  ............             1             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Committee Activity
    Senate committees held a total of 823 meetings during the second 
session, compared to 1,005 meetings during the first session of the 
110th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record, on the Digest's 
Web site (http://www.senate.gov/pagelayout/committees/
b_three_sections_with_teasers/committee_hearings.htm), and entered in 
the web-based applications system (Legislative Information System). 
Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day and continuously updated on the Web site.

Computer Activities
    The Digest completed the installation of its Word-based system, 
which shortened the time it takes to create the Digest and send it to 
the Government Printing Office (GPO). Computer Center staff, working 
closely with Daily Digest staff, developed a Daily Digest Authoring 
System which is a Microsoft Visual Basic for Applications (VBA) system 
designed to provide the Daily Digest with structured methods for 
creating, editing, and managing files.
    The Digest continues the practice of sending a disc along with a 
duplicate hard copy to GPO. GPO receives the Digest copy by electronic 
transfer long before hand delivery is completed, which promotes the 
timeliness of publishing the Congressional Record. The Digest staff 
continues to feel comfortable with this procedure, both to allow the 
Digest Editor to physically view what is being transmitted to GPO, and 
to allow GPO staff to have a comparable final product to cross 
reference.
    The Digest staff continues to work closely with the Sergeant at 
Arms computer staff to refine the LIS/document management system. The 
Digest is pleased to report that all refinements made to the Senate 
Committee Scheduling application have been successfully implemented.

Government Printing Office
    The Daily Digest staff continues the practice of discussing with 
the Government Printing Office problems encountered with the printing 
of the Digest; with the onset of electronic transfer of the Digest 
copy, occurrences of editing corrections or transcript errors are 
infrequent. Discussions with GPO continue regarding page references 
inserted by GPO.

                            ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate-passed legislation prior to its transmittal to the White House, 
the House of Representatives, the National Archives, the Secretary of 
State, and the United States Court of Claims. The Enrolling Clerk 
transmits in person all Senate messages to the House of 
Representatives.
    During the 110th Congress, the Enrolling Clerk's office prepared 
the enrollment of 135 bills (transmitted to the President), 8 enrolled 
joint resolutions (transmitted to the President), 14 concurrent 
resolutions (transmitted to the National Archives) and 95 appointments 
(transmitted to the House of Representatives). In addition, 
approximately 462 bills from the House of Representatives (including 12 
appropriations bills and the budget concurrent resolution) were either 
amended or acted on in the Senate, thus requiring action on the part of 
the staff of the Enrolling Clerk's office.
    A total of 852 pieces of legislation were passed or agreed to 
during the 110th Congress. Many other Senate bills, including over 350 
resolutions and 229 engrossed Senate bills, were placed in the calendar 
by the Senate and were processed in the Enrolling Clerk's office. The 
office is also responsible for keeping the original official copies of 
bills, resolutions and appointments from the Senate floor through the 
end of each Congress. At the end of the second session of each 
Congress, the Enrolling Clerk's staff carefully prepares all official 
papers for storage at the National Archives.
    During the 110th Congress, the Enrolling Clerk delivered 210 
messages to the House Chamber and 58 messages to the House Clerk's 
office. The Enrolling Clerk also prepared and transmitted 95 
appointments to the House of Representatives, informing the House of 
Senate actions on legislation passed or amended.
    The Senate Enrolling Clerk is also responsible for electronically 
transmitting the files of engrossed and enrolled legislation to GPO for 
overnight printing. The office also followed up on all specific 
requests and special orders for printing from the Senate floor.

                            EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties), which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares the Executive Calendar daily, as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the office processes all executive communications, 
presidential messages, and petitions and memorials.

Nominations
    During the second session of the 110th Congress, there were 1,008 
nomination messages sent to the Senate by the President, which 
transmitted 22,090 nominations to positions requiring Senate 
confirmation and 43 messages withdrawing nominations sent to the 
Senate. Of the total nominations transmitted, there were 3,124 nominees 
in the following ``civilian list'' categories: Foreign Service, Coast 
Guard, National Oceanic and Atmospheric Administration, and Public 
Health Service. An additional 508 nominees were for other civilian 
positions. Military nominations received this session totaled 18,674 
(5,931 Air Force; 6,425 Army; 4,752 Navy; and 1,566 Marine Corps). The 
Senate confirmed 21,785 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 478 nominations were 
returned to the President during the second session of the 110th 
Congress.

Treaties
    During the second session of the 110th Congress, there were 13 
treaties transmitted by the President to the Senate for its advice and 
consent to ratification. These were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 110-11 through 110-23).
    The Senate gave its advice and consent to 30 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes
    There were 19 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
110th Congress (Executive Report 110-10 through 110-28). The Senate 
conducted seven rollcall votes in executive session, all on or in 
relation to nominations and treaties.

Executive Communications
    For the second session of the 110th Congress, 4,608 executive 
communications, 202 petitions and memorials and 31 Presidential 
messages were received and processed.

Paper Reduction
    In an effort to save money and eliminate unnecessary paper, the 
Executive Clerk reduced the printed copies of the Executive Calendar 
each day from over 1,000 to 685. Additionally, the office reduced the 
copies of nominations printed for the committees by 75 percent and some 
committees have requested electronic copies of the appropriate 
paperwork, rather than paper copies.

Legislative Information System (LIS) Update (Projects)
    The Executive Clerk consulted with the Sergeant at Arms throughout 
the year concerning ongoing improvements to the LIS pertaining to the 
processing of nominations, treaties, executive communications, 
presidential messages and petitions and memorials.

                             JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV. The Senate Journal is published each calendar year. The 2008 
Senate Journal is expected to be sent to the Government Printing Office 
at the end of 2009.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting the following by hand for inclusion in the Minute Book: 
(i) all orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and rollcall votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication of the Senate 
Journal at the end of each calendar year. Compilation is accomplished 
through utilization of the LIS Senate Journal Authoring System.
    In keeping with the Office of the Secretary's commitment to 
continuity of operations programs, the Journal Clerk undertook an 
effort to digitally scan the Minute Book pages, dating from 2004 to the 
present, into a secure directory. Although the Minute Books for each 
session of a Congress are sent to the National Archives one year after 
the end of a Congress, having easily-retrievable files will ensure 
timely reconstitution of the Minute Book data in the event of damage 
to, or destruction of, the physical Minute Book.

                     OFFICIAL REPORTERS OF DEBATES

    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel regarding 
additional materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the Government Printing Office (GPO).
    Each day, roughly 90 percent of transcript production for GPO is 
done electronically, thus significantly reducing the time required by 
GPO to retype materials for presentation in the Congressional Record by 
the next day. In 2008, there were no delays in the overnight production 
of the Congressional Record
    The project to provide online Congressional Record corrections, 
which was launched in 2007, ended its pilot phase and was brought 
online in early 2008. When a significant error, caused by this or any 
other office under the Secretary of the Senate, is identified in the 
Congressional Record, GPO is notified of such mistake and a correction 
in the online Record is made shortly thereafter. This error is 
automatically corrected in the printing of the permanent Record.

                            PARLIAMENTARIAN

    The parliamentarian's office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the chair, Senators and their staffs, 
committee staff, House members and their staffs, administration 
officials, the media and members of the general public on all matters 
requiring an interpretation of the Standing Rules of the Senate, the 
precedents of the Senate, unanimous consent agreements, as well as 
provisions of public law that affect the proceedings of the Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The parliamentarians work closely with the Vice President of the United 
States and the staff of the Vice President whenever he performs his 
duties as President of the Senate.
    The parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President. The parliamentarians monitor all 
proceedings on the floor of the Senate, advise the Presiding Officer on 
the competing rights of the Senators on the floor, and advise all 
Senators as to what is appropriate in debate. The parliamentarians keep 
track of time on the floor of the Senate when time is limited or 
controlled under the provisions of time agreements, statutes or 
standing orders. The parliamentarians keep track of the amendments 
offered to the legislation pending on the Senate floor, and monitor 
them for points of order. In this respect, the parliamentarians 
reviewed more than 800 amendments during 2008 in order to determine 
whether they met various procedural requirements, such as germaneness. 
The parliamentarians also reviewed thousands of pages of conference 
reports to determine what provisions could appropriately be included 
therein.
    The office is responsible for the referral to the appropriate 
committees of all legislation introduced in the Senate, all legislation 
received from the House, and all communications received from the 
executive branch, state and local governments, and private citizens. In 
order to perform this responsibility, the parliamentarians do extensive 
legal and legislative research. During 2008, the Parliamentarian and 
his assistants referred 1,496 measures and 4,842 communications to the 
appropriate Senate committees. The office worked extensively with 
Senators and their staffs to advise them of the jurisdictional 
consequences of particular drafts of legislation, and evaluated the 
jurisdictional effect of proposed modifications in drafting. In 2008 as 
in the past, the parliamentarians conducted several briefings on Senate 
procedure to various groups of Senate staff, on a non-partisan basis.
    During all of 2008, the parliamentarians were deeply involved in 
interpreting the ethics reform proposals adopted in 2007, especially 
the language dealing with earmark accountability and scope of 
conference.
    Since the election in 2008, all of the parliamentarians 
participated in the orientation sessions for the newly elected and 
appointed Senators and have assisted each of them in their initial 
hours as Presiding Officers. The parliamentarians also participated in 
an orientation session on the Senate floor for Senate staff.
    In 2008 and early 2009, as is the case following each general 
election, the parliamentarians received all of the certificates of 
election of Senators elected or re-elected to the Senate, as well as 
those Senators appointed to fill vacancies, and reviewed them for 
sufficiency and accuracy, returning those that were defective and 
reviewing their replacements. In addition, as is the case in all 
Presidential election years, the parliamentarians reviewed all 
certificates of ascertainment and certificates of votes submitted by 
the states and counseled the Vice President on his responsibilities in 
presiding over the joint session of Congress to count the electoral 
ballots.

                          FINANCIAL OPERATIONS
                           DISBURSING OFFICE

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the offices of the United States Senate and 
to members and employees of the Senate. The Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, prepare 
auditable financial statements, and provide appropriate counseling and 
advice. The Senate Disbursing Office collects information from members 
and employees that is necessary to maintain and administer the 
retirement, health insurance, life insurance, and other central human 
resource programs and provides responsive, personal attention to 
members and employees on an unbiased and confidential basis. The Senate 
Disbursing Office also manages the distribution of central financial 
and human resource information to the individual member offices, 
committees, administrative and leadership offices in the Senate while 
maintaining the confidentiality of information for members and Senate 
employees.
    The organization is structured to enhance its ability to provide 
quality work, maintain a high level of customer service, promote good 
internal controls, efficiency and teamwork, and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.

Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day to day operations of the Disbursing Office (DO);
  --respond to any inquiries or questions that are presented;
  --maintain fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments; and
  --handle all information requests from the Committee on 
        Appropriations and Committee on Rules and Administration.
    This year the Executive Office assisted in the coordination of the 
closing of all suspense accounts as mandated by Treasury. Since 
Automated Clearing House (ACH) and check advances were charged to this 
account, it was necessary to perform an in-depth review and implement 
required system changes in the way the Disbursing Office accounts for 
travel advances in a short period of time.
    As a result of the November elections, the Executive Office issued 
more than 300 letters to staff explaining the requirements of displaced 
staff as authorized by applicable Senate resolutions.
    The Executive Office coordinated a meeting with several Treasury 
Department representatives to discuss required reporting changes for 
non-Treasury disbursing offices (NTDOs) under the Government-wide 
Accounting and Reporting (GWA) modernization project. The agenda 
included a discussion of Treasury's requirements, as well as the 
challenges these new reporting requirements will present to the 
Disbursing Office and any NTDO agency.
    On a monthly basis, the Financial Clerk and the Assistant Financial 
Clerk continue to attend Legislative Branch Financial Managers Council 
(LBFMC) meetings to share issues that affect other Congressional 
managers. In addition, the Financial Clerk and the Assistant Financial 
Clerk, along with Disbursing Office staff and the Sergeant at Arms 
(SAA) technical support staff, participated in meetings for the 
procurement of a new payroll system. The meetings resulted in the 
development of current system requirements and parameters, which will 
be used to help determine requirements for the new system.
    The Disbursing Office was also involved in transitioning the 
Capitol Guide staff from the Senate payroll to the Architect of the 
Capitol's (AOC), as well as transitioning the Special Services staff to 
the newly created Office of Congressional Accessibility Services. 
Disbursing staff continues to work with both groups to transfer fiscal 
year 2009 funds and complete the transfer of all the personnel benefits 
files.
    Disbursing representatives also attended several meetings with 
staff from the Majority Leader's office, the Committee on Rules and 
Administration, the Select Committee on Ethics and other interested 
parties to finalize the procedures and requirements needed to get the 
Congressional Oversight Panel up and running. The Congressional 
Oversight Panel was established by the Emergency Economic Stabilization 
Act of 2008, Public Law 110-343.

Deputy for Benefits and Financial Services
    The principal responsibility of this position is to provide 
expertise and oversight on federal retirement, benefits, payroll, and 
financial services processes. The deputy also coordinates the 
interaction between the Front Office, Employee Benefits, and Payroll 
Sections, and is responsible for the planning and project management of 
new computer systems and programs. The deputy ensures that job 
processes are efficient and up-to-date, modifies computer support 
systems as necessary, implements regulatory and legislated changes, and 
designs and produces up-to-date forms and information for use in all 
three sections.
            General Activities
    After year-end processing of payroll for calendar year 2007, cost 
of living adjustments (COLAs) for 2008 were processed in a timely 
manner. The Disbursing Office issued W-2 forms promptly and made them 
immediately available on the Document Imaging System (DIS). During the 
year, other minor changes were made to the Human Resources Management 
System (HRMS) as a result of changes in regulations and policy.
    A major initiative during 2007 and 2008 was to eliminate the use of 
employee Social Security Numbers (SSN) wherever possible, thereby 
increasing the security of personal information for members and 
employees of the Senate. This ``Social Security Number Migration'' 
project was successfully completed in June of 2008. The ``key field'' 
within the payroll system was changed from the SSN to a randomly 
generated employee identification number (EID). This limits use of the 
SSN only to those entities who have a legitimate need to receive it. 
After extensive research and coordination, the deputy, the Payroll 
Department and SAA technical support developed requirements and 
established guidelines and strategies for the payroll system migration. 
Because the payroll system provides data to so many internal and 
external entities, great care and planning were devoted to the 
coordination with users. This project required significant research, 
programming changes and modifications, testing and feedback. Post 
migration, anticipated minimal fine-tuning and trouble-shooting 
occurred. Successful transmissions and extracts to other entities 
occurred without interruption or incident.
    In continuing efforts to comply with continuity of operations 
(COOP) initiatives, reduce unnecessary use of paper and lessen physical 
storage needs, the Disbursing Office undertook a project to provide 
payroll reports to Senate offices electronically rather than on paper. 
The deputy and Payroll Department worked with Disbursing's Information 
Technology group and several SAA technical support groups to proceed 
with development and implementation of this project. After the 
completion of requirements and development, extensive testing and 
feedback were required. The electronic Payroll Reports were rolled out 
to a pilot group during the summer and full implementation throughout 
the Senate was achieved in October 2008. Feedback on this new resource 
has been very positive.
    As part of continuing efforts to achieve full COOP compliance, the 
office identified a need to accomplish complete document imaging for 
all Senate employee personnel folders. Document Imaging System (DIS) 
programming modifications and upgrades were determined and implemented 
in preparation for this project. Necessary hardware was obtained and 
imaging procedures were drafted and finalized. In August of 2008 a new, 
temporary staffer was hired specifically for this task, which is 
anticipated to be a 2-year project. The document imaging is proceeding 
on schedule. Approximately 15 percent of the employee documents have 
been imaged to the DIS. As an added benefit, this project provides the 
opportunity to conduct an audit and reconciliation of hard-copy 
personnel folders.
    The Disbursing Office, in tandem with SAA Technical Support, began 
initial research into the procurement of a new payroll system. In 
addition to determining current system requirements and parameters, 
Disbursing Office staff and SAA technical support drafted, edited and 
ranked future system requirements. They also attended initial vendor 
demonstrations and drafted and edited demonstration scripts for future 
software vendor demonstrations. Because of the specific laws and 
regulations governing the services and programs administered by the 
payroll system, particular attention was paid to those areas where 
systems will need to be tailored to the Senate. Vendor demonstrations 
are anticipated in 2009, which should be followed by a software 
selection. Following that, the next phase will be to determine the 
requirements and criteria that will further tailor the product to meet 
the needs of the system's users, as well as aid in the selection of an 
implementation vendor. The Disbursing Office will work with 
representatives of member and committee offices to define user 
requirements.
    This office assisted with technical guidance on the impact of 
legislation drafted in support of the new Capitol Visitor Center on pay 
and benefits. As a result of the legislation, the Capitol Guides were 
transferred en masse from the Senate payroll to the payroll of the 
Architect of the Capitol (AOC) in November. This required coordination 
with the Guide Service and AOC personnel in order to prepare for the 
data transfer and ensure a smooth transition for the affected 
employees. The preparation and compilation of employee records, which 
will be transmitted to the AOC, will continue into the new year.

Front Office--Administrative and Financial Services
    The Front Office is the main service area for all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in daily operations. The 
reconciliation of such funds is executed on a daily basis. The Front 
Office staff also provides training to newly authorized payroll 
contacts along with continuing guidance to all contacts in the 
execution of business operations. It is the receiving point for most 
incoming expense vouchers, payroll actions, and employee benefits 
related forms, and is the initial verification point to ensure that 
paperwork received in the Disbursing Office conforms to all applicable 
Senate rules, regulations, and statutes. The Front Office is the first 
line of service provided to Senators, officers, and employees. All new 
Senate employees (permanent and temporary) who will work in the Capitol 
Hill Senate offices are administered the required oath of office and 
personnel affidavit. Staff is also provided verbal and written detailed 
information regarding pay and benefits. Advances are issued to Senate 
staff authorized for official Senate travel. Cash and check advances 
are entered and reconciled in Web FMIS. After the processing of 
certified expenses is complete, cash travel advances are repaid. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Office and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system. The Front Office maintains the Official Office 
Information Authorization Forms that authorize individuals to conduct 
various types of business with the Disbursing Office.
            General Activities
    Processed approximately 900 cash advances, totaling approximately 
$700,000 and initialized 1,200 check/direct deposit advances, totaling 
approximately $900,000.
    Received and processed more than 24,700 checks, totaling over 
$1,900,000.
    Administered oath and personnel affidavits to more than 2,800 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 15 federal health insurance carriers and 
distributed approximately 4,300 brochures to new and existing staff 
during the annual Federal Employees Health Benefits (FEHB) Open Season.
    Provided 33 training sessions to new administrative managers.
    The Front Office continues its daily reconciliation of operations 
and strengthening of internal office controls. Security was further 
enhanced this year by the use of pens that help identify counterfeit 
currency presented to Disbursing during cash transactions. Training and 
guidance to new administrative managers and business contacts continued 
and was enhanced by the revamping of training materials provided to 
newly authorized business contacts. Disbursing staff received many 
positive comments regarding the use of the Document Imaging System, 
which immediately reproduces W-2 and other forms for employees who 
request duplicates. The staff continued to place a major emphasis on 
assisting employees in maximizing their Thrift Savings Plan (TSP) 
contributions and making them aware of the TSP catch-up program. The 
Front Office continued to provide the Senate community with prompt, 
courteous, and informative advice regarding Disbursing Office 
operations.

Payroll Section
    The Payroll Section maintains the human resources management system 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees and other appointing officials for their staffs, including 
appointments of employees, salary changes, title changes, transfers and 
terminations. It is also responsible for input of all enrollments and 
elections submitted by members and employees that affect their pay 
(e.g. retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to members and employees. The Payroll Section is 
responsible for the administration of the Senate Student Loan Repayment 
Program (SLP). It is also responsible for the audit and reconciliation 
of the FSA and FEDVIP Bill Files received each pay period. The Payroll 
Section jointly maintains the Automated Clearing House (ACH) FedLine 
facilities with the Accounts Payable Section for the normal transmittal 
of payroll deposits to the Federal Reserve. Payroll expenditure, 
projection and allowance reports are distributed to all Senate offices. 
The Payroll Section issues the proper withholding and agency 
contribution reports to the Accounting Department and transmits the 
proper TSP information to the National Finance Center. In addition, the 
Payroll Section maintains earnings records, which are distributed to 
the Social Security Administration, and employees' taxable earnings 
records, which are used for W-2 statements. The Payroll Section is also 
responsible for the payroll expenditure data portion of the Report of 
the Secretary of the Senate. The Payroll Section calculates, reconciles 
and bills the Senate Employees Child Care Center (SECCC) for their 
staff employee contributions and forwards payment of those 
contributions to the Accounting Section. The Payroll Section provides 
guidance and counseling to staff and administrative managers on issues 
of pay, salaries, allowances and projections.
            General Activities
    In January 2008, the Payroll Section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and state tax agencies, which are also maintained in the 
Document Imaging System (DIS). In addition, an employee cost of living 
adjustment (COLA) of 4.49 percent was administered. Statutory rates and 
program caps were updated in the HRMS. The Payroll Section maintained 
the normal schedule of processing TSP election forms.
    Payroll allowance, expenditure and projection reports are provided 
to all Senate offices on a monthly basis. In 2007, guidelines and 
requirements for the provision of electronic payroll reports were 
developed. The Payroll Section participated with the deputy, 
Disbursing's IT section, and SAA technical support staff to implement, 
test and trouble-shoot the electronic payroll reports project. 
Following the participation of a pilot group, the payroll reports were 
first distributed electronically in October 2008. Payroll now maintains 
responsibility for the review and release of these reports on a semi-
monthly basis. All feedback to this new process has been positive.
    The Payroll Section participated in the testing and implementation 
of the Social Security Number Migration project that took place in 
2008. It was instrumental in the follow-up testing and trouble-shooting 
that occurred after the implementation. The Payroll Section 
participated in the development of procedural changes required to 
accommodate the change to the ``key field'' within the payroll system.
    The Payroll staff participated in the initial research regarding 
the procurement of a new payroll system. They provided job and task 
summaries, records of reports and system output, and attended numerous 
strategy sessions to determine both current system requirements and 
parameters and future system requirements. They attended and reviewed 
vendor demonstrations and participated in the drafting of demo scripts 
for future software vendor demonstrations.
    The Payroll Section administers the Student Loan Repayment Program, 
which includes initiation, tracking and transmission of the payments, 
determination of eligibility and coordination and reconciliation with 
office administrators and program participants. The program is very 
popular and participation remains high. The SLP Administrator continues 
to improve processes for administration of the program and document 
procedures.
    In 2008, the Payroll Section staff continued to work diligently 
with the SAA technical support staff and external entities in order to 
eliminate the use of paper and tape-driven correspondence. In August, 
the Payroll Section began electronically transmitting all Treasury 
tapes to the Federal Reserve in Kansas City. With regards to its 
correspondence and transmissions with the TSP and the Federal Reserve, 
Disbursing now operates completely paper-free and tape-free.
    As a result of the elections, the Disbursing Office staff looked 
into the specifics of applicable Senate resolutions to determine their 
impact, if any, on outgoing and potentially outgoing staff in order to 
ensure that current procedures allowed for the proper administration of 
the resolutions. The Payroll staff provided guidance to staff on those 
resolutions. In addition, the Payroll Section administered the transfer 
of all Capitol Guides to the AOC.
    The Payroll Section continues to participate in disaster recovery 
testing. This year, testing was conducted in December. The Alternate 
Computing Facility (ACF) processing equipment operated the payroll 
system from the Hart Building while SAA programmers ran trial payrolls 
from remote sites. As part of the test, members of SAA Production 
Services had to produce the payroll output from printers located at the 
ACF. The payroll system test proved very successful.

Employee Benefits Section (EBS)
    The primary responsibility of the Employee Benefits Section is the 
administration of health insurance, life insurance, TSP, and all 
retirement programs for members and employees of the Senate. This 
includes counseling, processing paperwork, researching, disseminating 
information and interpreting retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the Federal Flexible Spending Account (FSA) Program, the Federal Long 
Term Care (LTC) Insurance Program and Federal Employees Dental and 
Vision Insurance Program (FEDVIP). In addition, the sectional work 
includes research and verification of all prior federal service and 
prior Senate service for new and returning employees. EBS provides this 
information for payroll input. Staff also verify the accuracy of the 
information provided and reconcile, as necessary, when official 
personnel folders and transcripts of service from other federal 
agencies are received. Senate transcripts of service, including all 
official retirement and benefits documentation, are provided to other 
federal agencies when Senate members and staff are hired elsewhere in 
the government. EBS is responsible for the administration and tracking 
of employees who are placed in Leave Without Pay (LWOP) as a result of 
leaving to perform military service or being appointed to an 
international organization. EBS participates fully in the Centralized 
Enrollment Clearinghouse System (CLER) Program, which is sponsored by 
OPM and is used to reconcile all FEHB enrollments with carriers through 
the National Finance Center on a quarterly basis. EBS is also 
responsible for ordering inventory and maintaining forms and brochures 
for TSP, retirement, and all other benefits. EBS processes employment 
verifications for loans, bar exams, and entities such as the FBI, 
Office of Personnel Management, and Department of Defense, among 
others. Employees may complete unemployment claim forms and receive 
counseling as to their eligibility. EBS reviews billings for 
unemployment compensation paid to Senate employees by the Department of 
Labor, as well as employee fees associated with FSAs, and submits 
vouchers to the Accounting Section for payment EBS staff processes and 
checks designations of beneficiary for life insurance, retirement, and 
unpaid compensation.
            General Activities
    Many employees changed health plans during the annual Federal 
Benefits Open Season. These changes were processed and reported to 
carriers very quickly. The Disbursing Office continues to provide 
Senate employees with access to the online ``Checkbook Guide to Health 
Plans'' in order to research and compare FEHB plans. This tool will 
remain available to staff throughout the year. The Disbursing Office 
also hosted an Open Season Federal Benefits Fair, which was well-
attended. The Benefits Fair included representatives from most of the 
local and national FEHB plans, as well as representatives from LTC, 
FSA, FEDVIP, and The Consumers Checkbook Guide. OPM announced a 
``belated enrollment opportunity,'' which extended through January 31, 
2009.
    Many retirement, death, and disability cases were also processed 
throughout the year. There was a great deal of employee turnover in 
2008, including the transition of the Capitol Guides to the payroll of 
the AOC, which resulted in appointments to be researched and processed, 
retirement records to be closed-out, termination packages of benefits 
information to be compiled and mailed out, and health insurance 
enrollments to be processed. Transcripts of service for employees going 
to other federal agencies, and other tasks associated with employees 
changing jobs, were at a high level this year. These required prior 
employment research and verification, new FEHB, FEGLI, FSA, FEDVIP, 
Civil Service Retirement System (CSRS), Federal Employees Retirement 
System (FERS) and TSP enrollments, and the associated requests for 
backup verification.
    EBS conducted agency-wide seminars on CSRS and FERS and, as a 
result of the many ongoing changes to the TSP Program, attended 
interagency meetings. EBS participated in a number of meetings with 
other Disbursing staff and the SAA technical staff to help assess the 
needs and parameters for selecting a new payroll system.

Disbursing Office Financial Management
    Headed by the deputy for Financial Management, the mission of 
Disbursing Office Financial Management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable timeframes; to work toward producing 
an auditable consolidated financial statement for the Senate; and to 
provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations, and for the formulation, presentation 
and execution of the budget for the Senate. On a semiannual basis, this 
group is also responsible for the compilation, validation and 
completion of the Report of the Secretary of the Senate. Disbursing 
Office Financial Management is segmented into three functional 
departments: Accounting, Accounts Payable, and Budget. The Accounts 
Payable Department is subdivided into three sections: Vendor/SAVI, 
Disbursements and Audit. The deputy coordinates the activities of the 
three functional departments, establishes central financial policies 
and procedures, and carries out the directives of the Financial Clerk 
and the Secretary of the Senate.

Accounting Department
    During 2008, the Accounting Department approved 51,215 expense 
reimbursement vouchers and 27,700 certification and vendor uploads, and 
processed 1,350 deposits for items ranging from receipts received by 
the Senate operations, such as the Senate's revolving funds, to 
cancelled subscription refunds from member offices. General ledger 
maintenance also prompted the entry of thousands of adjustment entries, 
which include the entry of all appropriation and allowance funding 
limitation transactions, all accounting cycle closing entries, and all 
non-voucher reimbursement transactions such as payroll adjustments, 
COLA budget uploads, stop payment requests, travel advances and 
repayments, and limited payability reimbursements. The department 
continues to scan all documentation for journal vouchers, deposits, 
accounting memos, and letters of certification to facilitate both 
storage concerns and COOP backup.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including two Web FMIS 
releases. Web release number 2008-2 introduced an imaging prototype for 
the submission and approval of paperless vouchers. Development 
continues so that imaging may be tested and become functional. Web 
release 2008-3 concentrated on reporting and budget upgrades, as well 
as implementation of the employee identification number conversion. For 
expense purposes, employees are no longer identified by Social Security 
number (SSN). They are now identified by a system generated number 
which contains no part of their SSN.
    During January 2008, the Accounting Department completed the 2007 
year-end process to close and reset revenue, expense, and budgetary 
general ledger accounts to zero. The Treasury passed a new requirement 
that all suspense accounts be zeroed out and closed. This required 
significant changes to accounting methodology, as suspense accounts 
were used to clear checks from Front Office accountability, credits, 
and stop payment requests, which resulted in replacement checks, check 
and ACH advances, and payroll adjustments. This change required a 
revamping of the travel advance accounting process, which was tested 
and implemented in a very short period of time.
    The Department of the Treasury's monthly financial reporting 
requirements include a ``Statement of Accountability'' that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, the ``Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts,'' 
a summary of all monies disbursed by the Secretary of the Senate 
through the Financial Clerk of the Senate, is reported to the 
Department of the Treasury on a monthly basis. All activity by 
appropriation account is reconciled with the Department of the Treasury 
on a monthly and annual basis. The annual reconciliation of the 
Treasury Combined Statement is also reported to the Office of 
Management and Budget (OMB) as part of the submission of the annual 
operating budget of the Senate.
    This year, the Accounting Department transmitted all federal tax 
payments for federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank. The 
department also performed quarterly reporting to the Internal Revenue 
Services (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. System 
modifications installed in the previous year to allow electronic (ACH) 
payment of quarterly state taxes has resulted in a 50 percent 
participation rate by taxing jurisdictions. Numerically, 21 of 42 tax 
jurisdictions are receiving their quarterly state tax payments via ACH. 
Monthly reconciliations regarding the employee withholdings and agency 
matching contributions for the TSP were performed with the National 
Finance Center.
    There are also internal reporting requirements, such as the monthly 
ledger statements for all member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. It is 
the responsibility of the Accounting Department to review and verify 
the accuracy of the statements before Senate-wide distribution. The 
Accounting Department is working closely with the IT group to set up 
these reports for electronic distribution.
    The Accounting Department, in conjunction with the deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department to complete a new draft of 
the Senate-wide financial statements for past fiscal years, in 
accordance with OMB Bulletin 01-09, ``Form and Content of Agency 
Financial Statements'' and any updates required by OMB Circular A-136, 
``Form and Content of the Performance and Accountability Reports''. 
Work to finalize the implementation of the fixed asset system 
continues. The financial management software has been upgraded and the 
license renewed for 2009. Statements and other issues and priorities 
are discussed in monthly accounting meetings.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The budget 
division is responsible for the preparation, issuance and distribution 
of the budget justification worksheets. Despite working under a 
continuing resolution in fiscal year 2008, the budget justification 
worksheets were mailed to the Senate accounting locations and were 
processed in November. The budget baseline estimates for fiscal year 
2009 were reported to OMB in mid-January. The budget analyst is also 
responsible for the preparation of 1099's and the prompt submission of 
forms to the IRS before the end of the January.

Accounts Payable: Vendor/Senate Automated Vendor Inquiry Section
    The Vendor/Senate Automated Vendor Inquiry (SAVI) Section maintains 
the accuracy and integrity of the Senate's central vendor (payee) file 
for the prompt completion of new vendor file requests and service 
requests related to the Disbursing Office's Web-based payment tracking 
system, which is known as SAVI. This section also assists the 
information technology (IT) department by performing periodic testing 
and by monitoring the performance of the SAVI system, including the 
conversion from SAVI to Staffer Functionality. Currently, more than 
16,300 vendor records are stored in the vendor file, in addition to 
approximately 10,000 employee records. Daily requests for new vendor 
addresses or updates to existing vendor information are processed 
within 24 hours of receipt. Besides updating mailing addresses, the 
Vendor/SAVI section facilitates the use of ACH by switching the method 
of payment requested by the vendor from check to direct deposit. 
Whenever a new remittance address is added to the vendor file, a 
standard letter is mailed to vendors requesting tax and banking 
information, as well as contact and e-mail information. If a vendor 
responds indicating they would like to receive ACH payments in the 
future, the method of payment is changed.
    SAVI is a Web-based payment tracking system, but it has been 
replaced by a Web FMIS based system referred to as Staffer 
Functionality. This conversion was necessary so that employees did not 
need to sign on to multiple systems to create and track their payments. 
All Web FMIS users have been moved into the Staffer Functionality and 
new offices are automatically established with it. Senate employees can 
electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments. The 
most common service requests are for system user identification and 
passwords and for the reactivation of accounts. Employees may also 
request an alternative expense payment method. Employees can choose to 
have their payroll set up for direct deposit or paper check, but can 
have their expenses reimbursed by a method that differs from their 
salary payment method. Approximately 1,800 employees needed to have new 

Staffer Functionality ID's and passwords assigned.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group to resolve returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor/SAVI section electronically scans and stores all 
supporting documentation of existing vendor records and new vendor file 
requests. When this section receives replies asking for ACH 
participation, Vendor/SAVI staff ask whether the vendors wish to be 
notified by e-mail when payments are sent. Currently, over 2,000 of the 
2,600 ACH participants also receive e-mail notification of payment.
    During 2008, the Vendor/SAVI section processed over 2,300 vendor 
file additions, completed more than 2,200 SAVI service requests, mailed 
over 1,100 vendor information letters, and converted more than 500 
vendors from check payment to direct deposit.

Accounts Payable: Disbursements Department
    The Disbursements Department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received 156,900 vouchers and paid an additional 27,700 uploaded 
expenses. All of these items were paid by the department via Treasury 
check or ACH. Multiple payments to the same payee are often combined. 
As a result, 22,355 checks were issued, while 60,785 ACH payments were 
required. The decreased check volume and increased ACH volume is a 
desired result as the department continues its efforts to substantially 
reduce reliance on paper checks.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and two 
prior periods, as space is limited. Older documents are stored in the 
Senate Support Facility (SSF). The inventoried items are sorted and 
recorded in a database for easy document retrieval. Several document 
retrieval missions were successfully conducted, and the department 
continues to work closely with warehouse personnel.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which non-receipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through ACH. Paper payroll check registers were replaced 
by an electronic version in 2006. The department maintains a 
spreadsheet that tracks cases of non-receipt of salary checks, 
including stop payment requests and re-issuance.
    While experiencing an increase in ACH payments, Disbursing also 
experienced an increase, though small, in the number of ACH returns. 
Returns are usually the result of receiving incorrect account or 
routing information and are easily corrected with payee contact. Some 
returns result from account closings or non-participating financial 
institutions and, while a bit more difficult, these items are resolved 
either by receiving updated information or simply converting the 
payment to a check. All rejected items are logged into an ACH reports 
folder. They are classified as either Payroll or Accounts Payable, and 
the actual daily reports are also scanned into the folder. Once logged 
in, the payroll items are forwarded to the Payroll Department, and the 
non-payroll items are forwarded to Vendor/SAVI to determine appropriate 
corrective action. The department prepares accounting memos outlining 
the actions to be taken, and makes adjustments as warranted.
    The department also prepares the stop payments forms as required by 
the Department of Treasury. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement supervisor and the Accounts Payable manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows the department to electronically submit stop-payment 
requests and provides online access to digital images of negotiated 
checks for viewing and printing. Once a check is viewed, it is printed 
and may be scanned. Scanned images are then forwarded to the 
appropriate accounting locations via e-mail. During 2007, over 500 
requests were received for check copies. PACER saves the Disbursing 
Office a $7.50 processing fee for each request. PACER is now Web-based 
and accessible from multiple workstations in Disbursing, enabling staff 
to conduct research using the internet rather than the previously-used, 
slower mainframe system.
    Treasury created a new streamlined application called the Treasury 
Check Information System (TCIS) to aid PACER. All Disbursement staff 
and designated staff from the Payroll section are authorized to use 
TCIS to retrieve copies of cancelled checks. Since implementation in 
July of 2008, there have had more than 500 requests for copies of 
checks.
    Disbursements performed the initial scanning for the imaging 
prototype. Two Senate offices participated in the project, and in 
coordination with the Committee on Rules and Administration, 
Disbursements was able to determine what was needed for the effort. 
Also, Disbursements continues to play an active role in processing 
upload certifications and vendor payments as well as providing frequent 
assistance to the Front Office.

Accounts Payable: Audit Department
    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System; and 
assists in the production of the Report of the Secretary of the Senate.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Late in 2006, phase 1 of a new advance module 
for issuing and tracking advances was placed into service. The module 
is now completely operational and all phases have been completed. The 
system accommodates the issuance, tracking, and repayment of advances. 
It also facilitates the entry and editing of election dates and 
vouchers for Senators-elect. In addition to other functionality, an 
advance type of petty cash was created and is being tested. Regular 
petty cash audits are performed by the department; all petty cash 
accounts were successfully audited in 2008.
    The Accounts Payable Audit Section processed more than 156,900 
expense vouchers in 2008, as well as 27,700 uploaded items. Audit 
sanctioned more than 89,000 vouchers under authority delegated by the 
Senate Committee on Rules and Administration. This translates to 
roughly 16,800 vouchers processed per auditor, and 30,000 vouchers 
posted per certifier. The voucher processing consisted of providing 
interpretation of Senate rules, regulations and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS, and paid within 8 to 10 
business days.
    Uploaded items are of two varieties: certified expenses and vendor 
payments. Certified expenses have been around since the 1980's, and 
include items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass mail, franked 
mail, excess copy charges, Photography Studio, and Recording Studio 
charges. Expenses incurred by the various Senate offices are certified 
to the Disbursing Office on a monthly basis. The expenses are detailed 
on a spreadsheet which is also electronically uploaded. The physical 
voucher is audited and appropriate revisions are made. Concentrated 
effort is put forth to ensure certified items appear as paid in the 
same month they are incurred.
    Vendor uploads are used to pay vendors for the Stationery Room, 
Senate Gift Shop and state office rentals, and refund security deposits 
for the Senate Page School. The methodology is roughly the same as that 
for certifications, but the payments rendered are for the individual 
vendors. Although these items are generally processed and paid quickly, 
the state office rents are generally paid a few days prior to the month 
of the rental, which is consistent with the general policy of paying 
rent in advance.
    The Disbursing Office has sanctioning authority for vouchers of 
$100 or less, subject to post-payment audit by the Committee on Rules 
and Administration. These vouchers comprised approximately 57 percent 
of all vouchers processed and are usually paid within 5 business days. 
As in the previous year, Disbursing passed two post-payment audits 
performed by the Senate Committee on Rules and Administration.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. Currently, there are three certifying accounts 
payable specialists who handle the bulk of the sanctioning 
responsibilities within the group.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, and 
the permissibility of an expense; and participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress. The section trained 16 new administrative managers and chief 
clerks and conducted four informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS). 
The Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of new 
hardware, software, and system applications. Web FMIS 2008-2 and 2008-3 
were implemented, a prototype for imaging of expense vouchers was 
tested and used for two Senate offices, and the employee number 
conversion was successfully accomplished. Advances and previously 
submitted vouchers needed to be closely monitored so that employees 
were properly paid for expenses submitted prior to and after the 
conversion.
    In 2008, the cancellation process for advances was upgraded and 
streamlined again, and collection times for outstanding advances have 
decreased significantly.

Disbursing Office Information Technology
            Financial Management Information System
    The Disbursing Office Information Technology (DO IT) department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Management Information System (FMIS) which is 
used by staff in 140 Senate accounting locations (i.e., 100 Senate 
personal offices, 20 committees, 20 leadership and support offices, the 
Office of the Secretary of the Senate, the SAA, the Senate Committee on 
Rules and Administration Audit section, and the Disbursing Office).
    Responsibilities of the department include: supporting current 
systems; testing infrastructure changes; managing and testing new 
system development; planning; managing the FMIS project, including 
contract management; administering the Disbursing Office's Local Area 
Network (LAN); and coordinating the Disbursing Office's disaster 
recovery activities.
    The Disbursing Office is the ``business owner'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office's contract support team, along with the SAA, is responsible 
for operational support and is also under contract with the Secretary 
for application development. The three organizations work 
cooperatively.
    Highlights of the year include:
  --implemented two releases of FMIS;
  --eliminated the use of Social Security Numbers in employee vendor 
        numbers by converting all employee vendor numbers to the number 
        assigned by the payroll system;
  --conducted a prototype pilot of online review of imaged vouchers and 
        supporting documentation;
  --made payroll reports available online through Web FMIS;
  --transferred almost all SAVI-system users to Web FMIS ``Staffer 
        Functionality'' for creating online expense summary reports 
        (ESRs) and viewing payment information;
  --conducted a pilot of Web FMIS ``Electronic Invoice'' functionality 
        by which office managers and chief clerks were able to import 
        credit card charges to create vouchers for payment;
  --implemented revised travel advance accounting that eliminates the 
        use of suspense accounts;
  --supported the Disbursing Office staff in remitting quarterly state 
        tax payments via direct deposit;
  --prepared for re-writing the FMIS checkwriter functionality;
  --tested infrastructure changes that included upgrades to the 
        mainframe operating system (Z/OS), the database (DB2), and Web 
        Sphere;
  --coordinated and participated in a FMIS-only disaster recovery 
        exercise at the ACF;
  --supported the Senate Committee on Rules and Administration's post 
        payment audit of a statistically valid sample of vouchers of 
        $100 or less;
  --installed new Disbursing Office local area network servers;
  --upgraded PC software (MS Office 2007 and Adobe) throughout the 
        Disbursing Office;
  --installed new wide PC monitors throughout the Disbursing Office; 
        and
  --conducted monthly classes and seminars on Web FMIS.
            Supporting Current Systems
    The DO IT department supports FMIS users in all 140 accounting 
locations, Disbursing's Accounts Payable (A/P), Accounting, 
Disbursements, Vendor/SAVI and Front Office sections, and the Senate 
Committee on Rules and Administration Audit staff. The activities 
associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of questions; and meet with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities such as those for database access 
        optimization;
  --Security--maintain user rights for all ADPICS, FAMIS, and Web FMIS 
        users;
  --System administration--design, test and make entries to tables that 
        are at the core of the system;
  --Support of accounting activities--perform functional testing and 
        production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year is 
        archived for reporting purposes and removed from the current 
        year tables;
  --Support the Senate Committee on Rules and Administration post 
        payment voucher audit process--provide the data from which the 
        Rules Committee audit staff selects a statistically valid 
        sample of vouchers for $100 or less. In this way, the Committee 
        on Rules and Administration audit staff review vouchers 
        sanctioned under authority delegated to the Financial Clerk;
  --Upload bulk financial transactions directly to FAMIS--upload 
        documents, such as certifications and vouchers from the Keeper 
        of Stationery, directly into FAMIS. These documents, submitted 
        via spreadsheets, are reviewed by the DO A/P and/or Accounting 
        sections prior to upload; and
  --Training--provide functional training to all Senate FMIS users.
            Continuing Projects
    As part of its normal tasks to support current systems, Disbursing 
created 95 new Web FMIS user accounts and an additional 55 new ADPICS/
FAMIS user accounts. Additionally, the office staff created new 
organization, department and location codes for the Senator-elect 
accounts and the new Senators in the 111th Congress. Through the 
``rollover'' process, Disbursing created the tables necessary for two 
new fiscal periods--fiscal year 2009 (for all FMIS users), and 
Resolution 89D (for Committees), which began October 1, 2008. The two 
queries for the Committee on Rules and Administrations's post-payment 
audit of documents $100 and less identified 24,864 records for the 
period October 1, 2007 to March 31, 2008 and 25,383 for the period 
April 1, 2008 to September 30, 2008. The office uploaded over 325 files 
of multiple documents such as certifications, vouchers from the Keeper 
of Stationery, SAA budget entries, and journal entries. Finally, the 
Disbursing Office IT staff offered Web FMIS classes once a month.
            New Projects
    IT completed a number of new tasks to support current systems this 
year:
  --organized quarterly user group meetings for the Disbursing Office's 
        A/P staff in order to hear concerns and feedback regarding 
        their Web FMIS system use;
  --added materials to the online documentation available via Web FMIS, 
        including 20 administrative forms and 10 documents related to 
        creating vouchers;
  --implemented procedures to create documents for infrequently-used 
        (i.e., Reception of Foreign Dignitaries and Senators-elect) in 
        Web FMIS instead of ADPICS, which simplified the processing of 
        these documents by the A/P and Accounting staff;
  --managed the election moratoria dates for Senators running for 
        reelection. When the expenses are being submitted, this alerts 
        the voucher preparer that the expenses cannot be paid because 
        they were incurred during the 60 day period before an election 
        in which the Senator is a candidate is held;
  --updated the voucher preparation documentation for Senators-elect; 
        and
  --participated in the selection of a new credit card vendor for the 
        Senate and worked with that vendor to obtain a nightly data 
        file of posted charges in a format usable by the Web FMIS 
        ``Electronic Invoicing'' function.
            Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. During 2008, the SAA implemented 
one major upgrade to the FMIS infrastructure by upgrading the mainframe 
operating software. In addition, the SAA implemented quarterly micro-
code updates and applied ``maintenance'' releases on a more regular 
basis, both of which will keep the infrastructure current.
            Managing and Testing New System Development
    During 2008, the DO IT department supervised development, performed 
extensive integration system testing, and implemented changes to FMIS 
subsystems. Each implementation and production verification was 
completed over a weekend in order to minimize system down time to 
users. Since 2006, multiple sub-system upgrades have been consolidated 
into two releases each year. This reduced the amount of regression 
testing required. In order to accurately reflect the variety of changes 
in each release, the releases are now numbered by fiscal year. During 
2008, Disbursing implemented two major releases and two problem 
correction releases. The two major releases were: FMIS r2008-2, 
implemented in June 2008; and FMIS r2008-3, implemented in September 
2008.
    The items were selected for development and implementation in 
response to Treasury mandates, and were based on user requests and 
suggestions from the SAA technical staff and the IT department. The 
planned schedule was substantially rearranged this year in order to 
respond to the needs of the DO Accounting staff upon learning that the 
Treasury Department was requiring the Senate to eliminate the use of 
suspense accounts, which were used substantially in the Senate's travel 
advance process. In order to have the new behind-the-scenes accounting 
in place by October 1, 2008, the implementation of FMIS r2008-3 was 
moved from November to September.
    The DO IT Department staff meet regularly with users through 
scheduled user group meetings. The department continued to meet with 
the ADPICS/FAMIS users group (primarily SAA users) almost every month 
and met monthly with the DO Accounting Section in order to address 
their concerns in a user group format. In addition, the department 
initiated a quarterly meeting with the DO A/P Section.
                FMIS 2008-2
    Web FMIS 2008-2 was implemented in June 2008. The primary change in 
this release was the conversion of all employee vendor numbers to use 
the 9-digit employee identification number (EID), which is assigned by 
the payroll system, instead of an employee vendor number that included 
a partial Social Security Number (SSN). The old SSN-based employee 
vendor numbers were deactivated and the new employee vendor numbers 
were made available. In addition, old SSN-based employee vendor numbers 
used on already-created vouchers were masked so that the SSN portion 
was not visible.
    The most popular change in this release was enlarging the itinerary 
field, which previously had been limited to 254 characters. The larger 
itinerary field was made available in both Web FMIS ``Staffer 
Functionality'' (the SAVI replacement) and in Web FMIS Document/Create, 
so that a long itinerary could be created on an ESR and either imported 
into a voucher or created directly on the voucher.
    Three pilots began with this release: online payroll reports, 
prototype of online review of imaged vouchers and supporting 
documentation, and electronic invoicing (making electronic credit card 
data available for importing into vouchers). Access to online payroll 
reports was granted to specifically-authorized Web FMIS users. The 
pilot allowed Disbursing to provide these reports twice a month instead 
of once a month, and eliminated tasks associated with manual 
distribution of paper reports. The first reports for fiscal year 2009 
(i.e., reports for the end of October 2008) were distributed to 
Senators' offices, committees, the Secretary's office, and the Sergeant 
at Arms' office. The second pilot was a prototype of online review of 
imaged vouchers and supporting documentation for vouchers from several 
offices. The goal of this prototype was to provide DO A/P and 
Accounting staff with hands-on experience in reviewing and marking-up 
documents entirely online. As such, Disbursing did not request that the 
offices do anything differently. Instead, Disbursing staff imaged the 
voucher and supporting documentation, which was then filed so as to be 
available for review if needed. This was intended to encourage online 
review, and the documents were reviewed by DO A/P, Rules Audit, and 
Disbursing Accounting online. The prototype ran from June until the 
middle of October; and feedback from the Disbursing Office staff who 
participate in the pilot will be useful as the project proceeds. The 
third pilot enabled offices to see credit card charges from the credit 
card vendor and select some or all to be imported into a voucher. This 
reduces the possibility of paying a credit card charge more than once 
and reduces the work required to create a voucher for these charges. 
The pilot ran from the summer of 2008 to the winter of 2008 and has 
stopped temporarily due to the change in the new Senate credit card 
vendor in November 2008. Disbursing has been working with the new 
credit card vendor to obtain the same kind of electronic data and make 
it available to Web FMIS users. Once successful, there will be a short 
pilot before the functionality is made available to all Senate offices.
                FMIS 2008-3
    This release was originally titled FMIS 2009-1 and was scheduled 
for implementation in November 2008, but the date was moved up to the 
beginning of September 2008, and therefore the release name was 
changed. The timing and priorities for this release were shifted in 
order to accommodate the changes necessary to eliminate use of a 
suspense account in the travel advance accounting, as required by 
Treasury by October 1, 2008 (fiscal year 2009). The Senate received 
notification of this requirement at the end of March 2008. Other NTDOs 
were notified in June 2007.
    A number of Web FMIS user-requested features were also implemented 
in this release. These included a new ``analysis by traveler'' report 
that displays detailed information by vendor (or employee) for only 
travel-related expenses. The display of office name to the master 
vendor file was also added. This enabled users to pick the John Smith 
who works for Senator Jones instead of accidentally picking the John 
Smith who works for Senator Walker. Additionally, users now have the 
ability to search the master expense category list by words in the 
expense category description field. Finally, in preparation for the new 
fiscal year, Disbursing also implemented a budget function that enables 
configuring the new budget based on a previous fiscal year.
            Planning
    The Disbursing IT department performs two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
                Schedule Coordination
    In 2008, this department continued to hold two types of meetings 
between Disbursing and the SAA to coordinate schedules and activities. 
These were:
  --project specific meetings--a useful set of project-specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., archive/purge meetings 
        and Web FMIS budget function meetings); and
  --technical meetings--a weekly meeting to discuss the active 
        projects, including scheduling activities and resolving issues.
    As part of planning activities for fiscal year 2009, Disbursing 
decided to increase the planning timeframe from 12 months to 8-24 
months in order to adequately include both FMIS functional releases and 
the infrastructure changes (i.e., software upgrades, maintenance, and 
micro-code updates).
                Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month timeframe of the technical meeting schedule. It is designed to 
set the direction and priorities for further enhancements. In 2002 a 
strategic plan was written by the Disbursing IT and Accounting staff 
for Disbursing Office Strategic Initiatives. This detailed description 
of five strategic initiatives formed the base for the Secretary of the 
Senate's request in 2002 for $5 million in multi-year funds for further 
work on the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, this will implement new technology, including imaging 
        and electronic signatures, in order to reduce the Senate's 
        dependence on paper vouchers. This will enable the continuation 
        of voucher processing operations from an alternate location 
        should an emergency occur;
  --Web FMIS.--Respond to requests from the Senate's accounting 
        locations for additional functionality in Web FMIS;
  --Payroll system.--Respond to requests from the Senate's accounting 
        locations for online real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
            Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department during the summer of 2003, and includes 
developing the task orders with contractors, overseeing their work and 
reviewing invoices. In 2008, one new task order was executed--Service 
Year 2008 extended operational support, which covers activities from 
September 2008 to August 2009.
    In addition, work continued under four task orders executed in 
prior years:
  --Imaging and signature design and electronic invoicing enhancement 
        continuation;
  --Web FMIS Reporting enhancements;
  --Funds Advance Tracking System; and
  --Service year 2008 extended operational support (covered activities 
        from September 2007 to August 2008).
            Administering the Disbursing Office's Local Area Network 
                    (LAN)
    Disbursing continued to administer its own local area network 
(LAN), which is separate from the network used by the rest of the 
Secretary's Office. Upkeep of the LAN infrastructure, including 
performing routine daily tasks and replacing equipment regularly, is 
critical to providing services. During 2008, LAN administration 
activities included: maintaining and upgrading the Disbursing Office's 
LAN; installing specialized software; and maintaining projects for the 
payroll and benefits section.
                Maintaining and Upgrading the Disbursing Office LAN
    Disbursing maintained the existing workstations with appropriate 
upgrades including: installing new DO LAN servers; upgrading PC 
software (MS Office 2007 and Adobe) throughout the Disbursing Office; 
installing new wide PC monitors throughout the Disbursing Office; and 
managing blackberry devices, including upgrading three devices and 
installing four more.
            Installing Specialized Software
    Disbursing uses a variety of specialized software that is critical 
to workflow processes. In 2008, Disbursing:
  --installed Treasury Check Information System (TCIS) to replace 
        PACER. This system enables Disbursing staff to obtain an imaged 
        copy of negotiated checks; and
  --upgraded the Fixed Asset System (FAS), used by the office to obtain 
        the depreciated value of the Senate's fixed asset records 
        maintained by the SAA.
                Maintaining Projects for Payroll and Employee Benefits 
                    Sections
    Disbursing continued to support the Payroll/Benefits Imaging system 
developed by SAA staff. This system electronically captures and indexes 
payroll documents submitted at the front counter, and is critical for 
the Payroll and Employee Benefits sections. During 2008, a new digital 
sender was installed on the Disbursing network for use on this project.
            Coordinating the Disbursing Office's Disaster Recovery 
                    Activities
    At the request of the Disbursing Office, the SAA conducted a FMIS-
only disaster recovery test in December. This is the second year in 
which a FMIS-only test was conducted. The longer time allotted to this 
test enabled more complete functional testing, (including following 
single documents from data entry in ADPICS and Web FMIS through payment 
in FAMIS), running more reports than during other tests, and testing 
the critical payroll and FAMIS batch processes. While the Disbursing IT 
staff organized the functional test plan, the actual testers included 
Disbursing IT staff, payroll staff, contractor support staff and SAA 
Finance staff. No major problems were encountered, and because of the 
longer time allotted for this test, the problems that were encountered 
were investigated.

                         ADMINISTRATIVE OFFICES
                      CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established in 1993 at the direction of the Joint 
Leadership after enactment of the Government Employee Rights Act 
(GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OC). Among other things, the OC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. Also, 
on a day-to-day basis, the SCCE provides legal advice to Senate offices 
about their obligations under employment laws. Accordingly, each Senate 
office is an individual client of the SCCE, and each office maintains 
an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Union drives, negotiations, and unfair labor practice charges;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Americans With Disability Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.

Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE defends each of the employing offices of the Senate in 
court actions, hearings, proceedings, investigations and negotiations 
relating to labor and employment laws. The SCCE handles cases filed in 
the District of Columbia and cases filed in any of the 50 states.

Compliance with the OSHA and the ADA
    The CAA mandates that, at least once each Congress, the OC shall 
inspect each Senate office to determine whether each office is in 
compliance with the OSHA and the public accommodation portion of the 
ADA. The CAA authorizes the OC to issue a public citation to any office 
that is not in compliance.
    The SCCE provides legal assistance and advice to every Senate 
office to ensure that they are complying with the OSHA and the ADA. The 
SCCE also represents each Senate office during the OC inspections, 
advises them on the preparation of the OC's home state OSHA/ADA 
inspection questionnaires, assists offices in the preparation of 
emergency action plans, and advises and represents each Senate office 
when a complaint of an OSHA or ADA violation has been filed against the 
office with the OC or when a citation has been issued.
    In 2008, the SCCE pre-inspected 224 Senate offices to ensure 
compliance with the ADA and the OSHA. Inspections included 82 member 
offices and 43 committee and leadership offices in the Hart, Dirksen 
and Russell buildings; 67 SAA offices in the Capitol and Hart, Dirksen, 
Russell and Postal Square buildings; and 36 Secretary of the Senate 
offices in the Capitol and Hart, Dirksen and Russell buildings. Senate 
offices had no significant OSHA or ADA problems and no citations.

Management Training Regarding Legal Responsibilities
    The SCCE regularly conducts legal seminars for the managers of 
Senate offices to assist them in complying with employment laws, 
thereby reducing their liability.
    In 2008, the SCCE gave 90 legal seminars to Senate offices. The 
seminars included, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Laws You Must Follow when Setting Up and Managing Your Office;
  --Understanding Sexual Harassment in the Workplace;
  --Dealing with Harassment Complaints and Avoiding a Hostile Work 
        Environment;
  --A Manager's Guide to Complying with the Family and Medical Leave 
        Act;
  --Amendments to the Family and Medical Leave Act Related to Military 
        Service;
  --Avoiding Legal Landmines in Your Office 2008;
  --Labor-Management Overview; and
  --An Office's Legal Obligation to Ensure that All New Hires are 
        Qualified to Work in the Senate: Complying with I-9 and E-
        Verify laws.
    The SCCE also developed and conducted a series of 11 monthly 
seminars covering all major employment laws that govern Senate offices. 
The purpose of the seminars was to educate all Senate management staff 
about their responsibility to ensure that their respective offices 
comply with the CAA. The series was open to all chiefs of staff, staff 
directors, administrative directors, chief clerks and office managers. 
Individuals who completed the series received a certificate of 
completion signed by the Secretary of the Senate. The following topics 
were covered:
  --An Overview of the Congressional Accountability Act;
  --Are You Meeting Your Legal Requirements under the I-9 and E-Verify 
        Laws?;
  --Overtime Pay: Who is Owed It, and How is It Calculated?;
  --The Equal Pay Act;
  --How to Interview, Check References, Give References and Check 
        Backgrounds;
  --The Family and Medical Leave Act: When Do Employees Get It, and How 
        Much Do They Get?;
  --Evaluating, Disciplining and Firing Employees without Violating the 
        Law;
  --The Americans with Disabilities Act: What Managers Must Know about 
        Complying with the Law;
  --Dealing with Harassment Complaints and Avoiding a Hostile Work 
        Environment; and
  --Common Employment Law Mistakes Managers Make.

Legal Advice
    The SCCE meets daily with Members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks and counsel 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate staff on matters such as interviewing, 
hiring, counseling, disciplining and terminating employees in 
compliance with the law; handling and investigating sexual harassment 
complaints; accommodating the disabled; determining wage law 
requirements; meeting the requirements of the Family and Medical Leave 
Act; management's rights and obligations under union laws and the OSHA; 
management's obligation to give leave to employees for military service 
and to reinstate them at the conclusion of that service; and 
management's obligation to verify with Department of Homeland Security 
and Social Security Administration that each new hire is legally 
eligible to work in the United States. In 2008, the SCCE had over 2,558 
such meetings.
    Also, the SCCE provides legal assistance to Senate offices to 
ensure that their employee handbooks and office policies, supervisors' 
manuals, intern policies, job descriptions, interviewing guidelines and 
performance evaluation forms comply with the law. In 2008, the SCCE 
prepared or significantly revised 204 employee handbooks, supervisors' 
manuals, and intern manuals for member offices.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2008, the SCCE trained managers and supervisors regarding their 
new legal and contractual obligations under union contracts that were 
ratified in 2007.

SCCE Web Site
    Working with the Office of Web Technology, the SCCE designed and 
launched an SCCE Web site. The site informs Senate offices of their 
legal obligations under the CAA, provides Senate offices access to 
legal forms and documents, and alerts Senate offices of upcoming SCCE 
seminars. To assist the offices of new members, the SCCE, working with 
chiefs of staff and administrative directors, added a section to the 
site that provides legal advice, legal forms and practical information 
to new Senate offices to assist them in setting up their offices.

Environmental Concerns
    In 2001, the SCCE became the first Senate office to convert to a 
``paperless'' office, which greatly reduced paper usage by minimizing 
the need for copying documents and storing hard copies. The SCCE 
accomplished the conversion by installing a document management system 
and scanning all documents the office receives. In 2008, the SCCE began 
upgrading its systems to stay current with technological advances and 
to allow its staff to utilize the document management system and to 
access all office documents from COOP computers and BlackBerry devices.

                     CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials. Initiatives include the 
deacidification of paper and prints, phased conservation for books and 
documents, and completion of collection surveys, exhibits, and matting 
and framing for Senate leadership.
    For more than 25 years this office has bound a copy of Washington's 
Farewell Address for the annual Washington's Farewell Address ceremony. 
In 2008, a volume was bound for Senator Mark L. Pryor who was selected 
to deliver the address before the Senate.

Senate Library
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the staff continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2008, the staff 
completed conservation treatments for 41 volumes of a 7,000 volume 
collection of House hearings. Specifically, treatment involved recasing 
each volume as required, using alkaline end sheets, replacing acidic 
tab sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,653 volumes.
    The office assisted the Senate Library with books sent to the 
Government Printing Office (GPO) for binding. The GPO has been 
returning books to the Senate Library on schedule. Additionally, the 
conservators assisted the Senate Library with two exhibits located in 
the Senate Russell building basement corridor.

Preservation
    The Office of Conservation and Preservation staff rebound 166 
volumes of House and Senate hearings for the Senate Library. These 
books were rebound with new end sheets and new covers using the old 
spines when possible.

Objectives for 2009
    The Office of Conservation and Preservation staff continues to 
assist Senate offices with conservation and preservation of documents, 
books, and various other items. For example, the office staff continues 
to monitor the temperature and humidity in the Senate Library storage 
areas, including the vault and Senate Support Facility, for 
preservation and conservation purposes. Furthermore, staff will 
continue to train Senate Library staff in conservation and repair 
techniques.

                                CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art (Commission), develops and implements the museum and preservation 
programs for the United States Senate. The Curator collects, preserves, 
and interprets the Senate's fine and decorative arts, historic objects, 
and specific architectural features; and the Curator exercises 
supervisory responsibility for the historic chambers in the Capitol 
under the jurisdiction of the Commission. Through exhibitions, 
publications, and other programs, the Curator educates the public about 
the Senate and its collections.

Collections: Commissions, Acquisitions, and Management
    A painting of Senator Thomas A. Daschle was presented in the Old 
Senate Chamber on April 22, 2008, as part of the Senate Leadership 
Portrait Collection. Additionally, work continued on the painting of 
Senator Trent Lott, and a portrait of Senator Bill Frist was 
commissioned.
    Sixty-seven objects were accessioned into the Senate collection, 
including: an 1868 ticket to the Andrew Johnson Impeachment Trial; 
seven stereographs depicting interior views of the Capitol; six 
historic prints; nine Senate Chamber gallery passes; four tickets to 
either joint sessions or joint meetings of Congress; several study 
sketches related to the oil on canvas portrait of Senator Robert C. 
Byrd; and seven historic furnishings built for the Russell Senate 
Office Building.
    Throughout the year, the office worked in close cooperation with 
the Sergeant at Arms's (SAA) Cabinet Shop to replicate one of the most 
historic pieces in the Senate collection: the 19th century Senate 
Chamber desk once occupied by Daniel Webster. The reproduction, 
requested for display in the Capitol Visitor Center (CVC) Exhibition 
Hall, afforded the Curator's Office a unique opportunity to create an 
exact replica using original 1819 construction and finishing 
techniques. The project was launched in February when design software 
was used to create drawings from exacting measurements taken of the 
desk on the Senate Chamber floor. During the construction, Senate 
Curatorial Advisory Board member Donald Williams gave presentations to 
the Cabinet Shop on historic practices of hide glue and shellac finish. 
Mr. Williams also provided invaluable expertise throughout the project 
and later returned to apply the finish to the desk himself, using 
traditional materials and techniques. Once it has properly cured, the 
replica will be displayed in the CVC Exhibition Hall. A short 
documentary film on the desk's construction will be developed by the 
Curator's Office.
    Forty-four new foreign gifts were reported in 2008 to the Select 
Committee on Ethics and transferred to the Curator's Office. In 
accordance with statute, the Office of Senate Curator received the 
gifts for deposit on behalf of the Secretary of the Senate. They were 
catalogued and are maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Following established procedures, 
the office effected appropriate disposition of 36 foreign gifts.
    The office conducted an extensive physical inventory of original 
Russell Senate Office Building furniture located in Senate spaces of 
the Capitol, Russell, Dirksen, Hart, and five other office buildings. 
The goal of the survey was to systematically document the number of 
remaining furnishings purchased (approximately 3,082 were made) for the 
Senate's first office building. The survey was conducted by a contract 
conservator, and the 1,133 pieces found during the survey were placed 
on the Historic Furnishings Inventory. Additionally, 38 Russell 
furnishings were identified in private collections, museums, and 
libraries.
    During the summer, a professional photographer took pictures of 
various historic furniture, several small objects, and a portrait to be 
loaned to the CVC for exhibition.
    Work continued on the two new curatorial spaces located in the CVC, 
which were designed to provide customized preservation storage for the 
Senate collection. Museum quality storage equipment was installed in 
the two rooms, as well as an electronic monitoring system that tracks 
and records temperature and relative humidity and checks for the 
presence of water. The Curator's staff worked with the Architect of the 
Capitol's (AOC) transition team to adjust the HVAC units in each room 
in order to maintain a consistent preservation environment. The units 
are functioning, and need to be fine-tuned.
    In preparation for the collection move into the new CVC storage 
spaces, staff identified the Senate's collection of 1,400 historic 
prints as a first priority for archival re-housing. A storage system 
was developed and archival materials identified for implementing the 
new storage system. The historic prints will be moved once the CVC HVAC 
units have been properly adjusted and the environments are stable.
    The office expanded its comprehensive maintenance program for 
collections and historic spaces to include a monthly inspection 
component, and initiated the distribution of ``art cards'' to provide 
staff with information on monitoring and reporting problems. Along with 
the established daily and weekly inspections, the monthly inspections 
and the ``art cards'' help to avert potential damage by monitoring 
conditions of Senate art and historic spaces and educating Senate staff 
on their care.
    A detailed assessment of the Senate's historic timepieces was 
conducted by a clock conservator. Based upon the results, a two-part 
plan was developed to provide regular reports and related maintenance 
for the clocks and to address any condition identified as high 
priority. This work will proceed in 2009. Much valuable information was 
gained through the assessment, and training was provided to in-house 
staff to improve clock winding practices.
    The discovery of mercury beads on one of the Senate's historic 
overmantel mirrors prompted the Curator's Office to undertake extensive 
research and develop treatment guidelines for mirrors with mercury 
amalgam glass. With the objective of preserving in place any mercury 
amalgam mirrors, the office outlined safe methods for identification, 
tracking, handling, prevention, and containment. The guidelines were 
reviewed by the AOC's Safety Office and conservators, and have been 
used successfully.
    Keeping with scheduled procedures, all Senate collection objects on 
display were inventoried, noting any changes in location. In addition, 
as directed by S. Res. 178 (108th Congress, 1st Session), the office 
submitted inventories of the art and historic furnishings in the Senate 
to the Senate Committee on Rules and Administration. The inventories, 
which are submitted every 6 months, are compiled by the Curator's 
Office with assistance from the SAA and AOC's Senate Superintendent.

Conservation and Restoration
    Conservation cleaning treatment was completed on the monumental 
sculpture, Mountains and Clouds, by Alexander Calder, located in the 
atrium of the Hart Senate Office Building. A facility cleaning company, 
under contract with the AOC, carried out the treatment, and a sculpture 
conservator hired by the Curator's Office supervised the treatment. 
Specialized equipment was used to access all surfaces of the nine story 
sculpture for cleaning. The Curator's Office worked with a National 
Gallery of Art designer to create new protective measures in the form 
of metal strips installed on the ground around the perimeter of the 
sculpture. These strips provide an unobtrusive boundary for visitors. 
In collaboration with the Superintendent of the Senate Office 
Buildings, an ongoing care and maintenance program for the piece is 
under development.
    Conservation treatment continued for the painting, Henry Clay in 
the U.S. Senate, by Phineas Staunton. Due to the painting's size (11 
feet by 7 feet, unframed) and many complicated condition problems, 
painstaking treatment procedures were necessary for both the painting 
and the frame. The results have been dramatic. As coordinated with the 
Senate Committee on Rules and Administration, the painting will be 
installed in the East Brumidi Stairwell in 2009. Lighting has been 
designed specifically for the stairwell, which will enhance viewers' 
appreciation of the painting.
    An objects conservator was hired to evaluate the exhibition mounts 
and display conditions for seven Senate objects scheduled for display 
in the CVC Exhibition Hall. This step was taken to ensure the objects 
were safely displayed while on long-term loan.
    During the Russell furniture survey, the Curator's Office 
identified a mahogany flat top desk, swivel arm chair, easy chair, 
davenport, side chair, and arm chair for conservation. The conservator 
is applying original refinishing and re-upholstery protocols for the 
pieces as developed by the manufacturer. Including the three chairs 
restored in 2003, the Senate will have preserved ten of the fourteen 
pieces made in 1909 for a Senator's suite. The restored furnishings 
will be preserved in the Senate collection and temporarily displayed in 
the Russell basement rotunda for the building's centennial anniversary 
from March 2009 through September 2009.
    The office completed conservation treatment on five mirrors as part 
of the ongoing program to address the most critical conditions in the 
Senate mirror collection. Two were restored off-site, while the other 
three were treated on-site. The on-site treatments addressed localized 
damage, thus preventing further loss of original fabric. The frames 
restored off-site required comprehensive conservation: poor quality 
repairs and bronze powder paint were removed; losses were replaced; and 
the frames were cleaned, consolidated, and gilded. Additionally, the 
Curator's staff formally incorporated the mirrors into the maintenance 
program, and eight frames were cleaned on-site by staff. The office 
also worked with the AOC to investigate and address six cases of 
installation hardware issues.
    The Curator's staff participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate the housekeeping personnel on maintenance 
issues related to the fine and decorative art collections.

Historic Preservation
    The Curator's staff worked with the AOC and the SAA to review, 
comment, plan, and document Senate-side construction projects (many of 
which are long-term initiatives) that involve or affect historic 
resources. Construction and conservation efforts that required 
considerable review and assistance included: exit sign installations; 
Brumidi corridor mural conservation; egress modifications; scagliola 
conservation; and press gallery upgrades. Through this work, the 
Curator's staff was able to ensure that the highest preservation 
standards were applied to all Capitol projects.
    The staff worked with the Office of the Republican Whip to create 
and install the state seal for the incoming leader. The placement of 
the seal on the historic ceiling in S-210, filling framed spaces left 
blank by the ceiling's original artist, dates to 1987 and continues to 
be a responsibility of the Senate Curator.
    The challenging Senate Reception Room restoration and 
rehabilitation project, developed by the Senate Curator and the Curator 
for the AOC, has successfully moved forward. A significant 
accomplishment was the completion of a paint analysis report. While 
some additional analysis and exposures will be necessary before 
specifications can be developed, the major work is completed. In 
addition to the paint analysis, the Curator's staff developed a project 
goal and preservation philosophy to apply to the elements in the room, 
and undertook a room and furniture use survey along with occupant 
interviews.

Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. The office worked closely with the U.S. Capitol 
Police to continue the procedures developed last year to record after-
hours access to the historic chambers by current members of Congress. 
Fifty-six requests were received by current members of Congress for 
admittance to the Old Supreme Court Chamber after-hours.
    By order of the U.S. Capitol Police, the Old Senate Chamber was 
closed to visitors after September 11, 2001. Eighty-six requests were 
received from members of Congress requesting admittance to the chamber 
during the day; 62 requests were received from members for after-hours 
access. During seven Senate recesses the historic room was opened to 
Capitol Guide and staff-led tours.
    During the fall of 2008, the Curator's staff conducted a survey of 
traffic flow in and around the Old Supreme Court Chamber. Data 
generated by this survey will assist the Curator in determining whether 
any changes to furniture or interpretive signs could help alleviate 
congestion in the area.
    As a final, yet critical, component to the documentation of the Old 
Senate Chamber and Old Supreme Court Chamber, the Curator's staff 
supplemented detailed room drawings produced in 2007 with large-format 
photographs that meet the Secretary of the Interior and the Historic 
American Building Survey's standards. These photographs were accepted 
by the Historic American Building Survey for its collection and will be 
available online and at the Library of Congress. Together with the 
drawings, the photographs provide a baseline for planning and research 
and help facilitate interpretation, especially when public access is 
limited.
    Electronic monitoring systems, similar to those in the curatorial 
storage spaces in the CVC, were installed in the Old Senate and Old 
Supreme Court Chambers. Because the rooms are open to the public for 
tours, it is more difficult to maintain stable environments. The new 
systems will document the temperature and humidity fluctuations in the 
rooms, which will allow the staff to better monitor the condition of 
historic objects in order to aid in their preservation.

Loans To and From the Collection
    A total of 50 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership and officers in 
the Senate wing of the Capitol. The staff returned four loans, 
coordinated three new loans, and renewed loan agreements for 31 other 
objects. Over 30 loans are projected to be renewed next year, including 
coordination of the loan of the painting, eagle podium, and Lincoln 
table for use at the 2009 Presidential Inaugural Luncheon.
    The official Senate chinaware was inventoried and used at 26 
receptions for distinguished guests, both foreign and domestic.

Publications and Exhibitions
    The Curator's staff continued to coordinate and participate in 
projects and planning for the 100th anniversary of the Richard B. 
Russell Senate Office Building, which opened its doors in March 1909. 
Work proceeded on the design and construction of a series of exhibition 
pylons to be placed in various locations in the Russell Building to 
educate members, staff, and visitors about the architecture and history 
of the building. Additionally, Curator's staff, Historical Office 
staff, and the Senate Webmaster developed a Web site highlighting some 
250 photographic images of the building and selections from the graphic 
art collections of the Senate and the Library of Congress. Other 
centennial projects include a furniture exhibit in the Russell rotunda 
basement, and an accompanying brochure and poster.
    Another Web site under construction will highlight the rediscovery, 
history, and conservation of the monumental painting, Henry Clay in the 
U.S. Senate, by Phineas Staunton. The site will include short video 
segments on the conservation effort. A 15-minute documentary on the 
painting will also be produced.
    An exhibition on the history of presidential inaugurations, I Do 
Solemnly Swear: A Half Century of Inaugural Images, was designed and 
installed on the first floor of the Senate wing in celebration of the 
2009 inaugural ceremonies. The exhibit features graphic art images from 
the Senate's collection of 19th century news magazine illustrations.
    In continuing support of the training for staff-led tours, the 
office updated and expanded its presence on the congressional intranet 
that began with the 2007 posting of the online Guide to Staff-Led 
Tours. Working with the Senate Historical Office, AOC, and House 
Curator, the staff updated and restructured this site to provide 
concise up-to-date information for participants in the CVC's 
Congressional Historical Interpretive Training Program (CHIP).
    As part of an ongoing program to provide more information about the 
Capitol and its spaces, the office completed the production and 
distribution of a brochure for the Democratic Leader's suite. In 
addition, all of the Commission on Art brochures were updated and added 
to the Senate.gov Web site. The Curator's staff continued to be a 
significant contributor to Unum, the Secretary of the Senate's 
newsletter.

Collaborations, Educational Programs, and Events
    The Curator's Office assisted the National Archives with two small 
exhibits for display in the vault at the Center for Legislative 
Archives. In February, objects related to Isaac Bassett, a 64-year 
employee of the Senate, were on view. In December, objects from the 
Senate's inaugural collection were installed. Also this year, the staff 
installed 17 objects from the Senate collection in the new CVC 
exhibition space.
    The Curator and staff assisted with numerous CVC-related projects 
throughout the year. At the request of the CVC oversight committees 
(the Committee on House Administration and the Committee on Senate 
Rules and Administration), the Curator worked closely with the House 
Curator and AOC Curator to review products and publications for the CVC 
gift shop. A total of 1,100 products were reviewed in a 3 month period. 
Additionally, the Curator and Associate Curator assisted with CHIP by 
attending planning meetings and developing a lecture to present to 
congressional staff at the 1-day and 2-day programs. The Curator's 
staff participated in ten programs in a 3 month period. The Curator 
continued to assist the AOC Curator and staff of the Joint Committee on 
the Library to finalize the plan for the National Statuary Hall statues 
in the CVC.
    The staff worked closely with the staff of the Senate Gift Shop to 
develop a series of magnets, note cards, and other gifts commemorating 
the Russell centennial.
    Other joint congressional projects included the following: planning 
and reviewing for the Rosa Parks statue; participating in the Slave 
Labor Task Force Working Group, which was assigned to develop an 
implementation plan for Congress's recommendations to honor slave labor 
in the Capitol; and assisting the Joint Congressional Committee on 
Inaugural Ceremonies with the 2009 inauguration. Joint projects with 
outside organizations included work with the Smithsonian Institution's 
Department of Entomology to research the insects depicted in the 
Brumidi Corridors.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical groups and art museums. 
The staff also assisted the Secretary with the Senate staff lecture/
tour series.

Office Administration and Automation
    The Curator's Office Records Task Force completed work on a master 
records disposition matrix and began its implementation. The new matrix 
allows for standardization and more consistent records collation. As 
part of the matrix, the Task Force created a fully-searchable digital 
record of each file in the office, as well as a protocol for project 
close-out procedures to ensure that each concluded project will 
generate a thorough and consistent set of records. The File Task Force 
also developed detailed document life-cycle and disposition 
recommendations for the most critical and fastest-growing record types.
    The Curator's continuity of operations (COOP) plan was tested with 
an extensive in-house tabletop exercise conducted in August. The office 
was also asked to participate in the Secretary of the Senate's Living 
Data Recovery Planning System pilot COOP program, and two staff members 
participated in the initial trial run. Training on the full system was 
completed in the first quarter of 2009.
    All objects stored in the Senate Curator's non-museum space at the 
Senate Support Facility were added to a new inventory system called 
Asset Management. Implementation of the system allows the Curator's 
staff to track all objects, confirm locations, and verify quantities.
    All current loan agreements were digitized in portable document 
format and stored on flash drives for easy retrieval in the event of an 
emergency. A list of all working fireplaces was also completed. This 
information is now added to loan agreements in order to provide full 
disclosure on environmental conditions for lenders. The office's 
collection database was reviewed to assess the stability and efficiency 
of the system, and a plan was developed for updating and reorganizing 
specific information.
    Based on periodic requests to reproduce the Senate Chamber desks 
for educational purposes, procedures were developed and implemented for 
approving all future requests. Since 1979, ten institutions have been 
granted permission to replicate Senate Chamber desks.
    In conjunction with the staff of the Office of Web Technology, the 
staff continued work on implementing a major redesign of the Senate art 
Web site. Extensive redesign and programming has yielded a new site 
that, when launched in 2009, will provide visitors with more intuitive 
access to the Senate's art, historical collections, and online exhibits 
and publications. A major accomplishment of this initiative is the 
successful development of a new programming paradigm which facilitates 
the automatic generation of a wide variety of subject-related 
collection lists using information imported directly from the Curator's 
automated collections management database. This method ensures that all 
information displayed on the Web site is current and accurate, 
eliminates the redundancy of information, and safeguards against 
inaccuracies that might occur as a result of such redundancy. The first 
list completed is a comprehensive roster of all individuals depicted in 
every portrait and group portrait in the Senate collection, spanning 
the mediums of paintings, sculpture, and graphic art. Additionally, the 
graphic designs and textual elements of the new navigation interface 
pages have been completed and will be published in 2009.

Objectives for 2009
    Now that the Curator storage rooms in the CVC are available, staff 
will work with representatives from the CVC, AOC, the Office of Senate 
Security and the SAA to establish and test the environmental, security, 
access, and fire suppression systems. Additional equipment and supplies 
needed to prepare collection objects for storage will be assembled, and 
plans for transferring objects to the new storage rooms will be 
finalized. Once all facility systems are operating as intended to 
provide secure preservation conditions for the collections, objects 
will be moved to the spaces. Highlights of the new storage include 
specialized racks for hanging paintings and custom cabinets for storing 
paper-based collections, such as historic prints and ephemera.
    Conservation and preservation concerns continue to be a top 
priority. Following conservation priorities identified through a 
historic clock assessment, the Curator will seek proposals for 
treatment reports and related treatment of four clocks. In addition, an 
ongoing program will be developed to provide routine reports and 
related maintenance for the historic clock collection.
    The office will move forward with critical mirror conservation 
priorities, pursuing both on-site and off-site projects that will treat 
at least two mirrors. In addition, the staff will continue to improve 
monitoring and maintenance of the mirrors. This work will include the 
placement of more identification signs on mantels, the installation of 
mantel clock cord clips, on-site cleaning by staff, and the 
establishment of a plinth program.
    Following the completion of conservation treatment for the 
monumental painting, Henry Clay in the U.S. Senate, the painting will 
be installed in the East Brumidi stairwell. The office will work with a 
fine art services company to carry out this complicated installation in 
2009.
    Professional photography is scheduled for numerous objects in the 
Senate collection, including Henry Clay in the U.S. Senate, the 
restored Russell furniture, historic prints, and upcoming Senate 
leadership portraits.
    Regarding historic preservation activities, the office will 
continue to confer with the AOC regarding preservation issues related 
to Senate restoration and remodeling projects, disseminate project 
information to the Senate, develop preservation projects at the request 
of the Senate, conduct condition inspections, and arrange necessary 
maintenance. The bulk of the office's project management will involve 
advancing the restoration and rehabilitation of the Senate Reception 
Room. Specific efforts to be addressed in 2009 include updating the 
advisory board on progress, studying the condition of the historic 
benches in the room, and initiating treatment of the Greek key borders 
on the walls.
    The office will establish an ornamental fragment collection related 
to the documentation of architectural features and historic spaces. 
This new collecting initiative will acquire significant objects removed 
from the Capitol, as well as samples documenting the appearance of 
important rooms. These items will provide valuable information for the 
future about the architectural and decorative history of the Capitol.
    The office will publish its redesign of the Senate art Web site in 
2009. The new site will organize art works by subject, rather than by 
medium, as currently arranged. In addition to the reorganization, the 
newly launched site will include images from the Senate's graphic art 
collection.
    A variety of new Web sites will be posted, including: information 
on the 2009 inaugural luncheon painting; a myth site addressing and 
dispelling frequently heard myths about Senate art and history; an 
extensive site illustrating the history and conservation of the Henry 
Clay painting by Phineas Staunton; and a site on the Senate Leadership 
Portrait Collection, with specific information on the new portrait of 
Senator Trent Lott. The office will begin development of a historic 
spaces component to the Web site and highlight several special 
collections. Of particular note are the nearly 100 mirrors in the 
Senate's collection. Finally, the office will begin creating new 
artifact pages as part of a program to make the Senate's collection 
more publically accessible.
    The Senate leadership portrait of Senator Trent Lott will be 
unveiled in 2009.
    The office will install a comprehensive series of exhibit signs in 
the Hart Building Atrium to interpret Alexander Calder's Mountains and 
Clouds.
    The staff will update its database to better document and store 
information on Senate objects. The office will also review collection 
data for consistency in preparation for the 2010 inventory publication.
    The Curator's staff has completed the numerous projects for the 
March 2009 celebration of the Russell Senate Office Building 
centennial. Work included: installation of informational panels at 
various locations throughout the building; a publication and poster on 
the furniture; an exhibition showcasing nine restored original 
furnishings; an extensive Web site; various merchandise for sale at the 
Senate Gift Shop; and lectures and tours. In addition, the staff will 
continue investigating and documenting Russell furnishings located in 
other collections. The Curator hopes that the centennial celebration 
will bring a new awareness of these historic furnishings and result in 
the return of some of these ``lost'' pieces to the Senate.

                         EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC and the states. There are three branches within the 
office: Technical Training, Professional Training and Health Promotion. 
Technical Training staff are responsible for providing technical 
training support for approved software packages and equipment used in 
either Washington, DC or the state offices. This branch provides 
instructor-led classes, one-on-one coaching sessions, specialized 
vendor-provided training, computer-based training, and informal 
training and support services. Professional Training provides courses 
for all Senate staff in areas such as management and leadership 
development, human resources issues and staff benefits, legislative and 
staff information, and new staff and intern information. Health 
Promotion provides seminars, classes and screenings on health and 
wellness issues. This branch also coordinates an annual health fair for 
all Senate employees and plans blood drives every year.

Training Classes
    The Joint Office of Education and Training offered 838 classes and 
events in 2008, drawing 11,366 participants. The registration desk 
staff handled over 25,000 e-mail and phone requests for training and 
documentation.
    The Technical Training area conducted 270 classes with a total 
attendance of 1,074 students. An additional 707 staff received coaching 
in 247 sessions on various software packages and other computer-related 
issues. Professional Development held 381 classes with a total 
attendance of 3,795 students. The staff managed or assisted the staffs 
of the Employee Assistance Program, the Sergeant at Arms Office of 
Police Operations, Security and Emergency Preparedness, Disbursing 
Office, and the Senate Select Committee on Ethics with 157 training 
classes for 3,395 students.
    The Joint Office of Education and Training works with teams on 
issues related to team performance, communication, and conflict 
resolution. During 2008, Professional Development fulfilled over 150 
requests for special training and team building for 1,500 staff.
    In the Health Promotion area, 2,865 staff participated in 25 health 
promotion activities throughout the year. These activities included 
lung function and kidney screenings, eight blood drives, the Health and 
Fitness Day, seminars on health-related topics, and the annual Senate 
Health Fair.
    On an annual basis, the Joint Office of Education and Training 
provides a Senate Service Expo for Senate office staff. Thirty-five 
presenters from the offices of the Secretary of the Senate, the 
Sergeant at Arms, the Architect of the Capitol, the Capitol Police and 
the Library of Congress participated in this year's program.

State Training
    Since most of the classes that are offered are only practical for 
staff based in Washington, DC, the Joint Office of Education and 
Training continues to offer the ``State Training Fair,'' which began in 
March 2000. In 2008, two sessions of this program were attended by 79 
state staff. In addition, 38 state administrative managers and 
directors attended the State Directors Forum, and 60 state staff 
participated in a Constituent Services Forum.
    Education and Training has also implemented the ``Virtual 
Classroom,'' an internet-based training library with more than 3,000 
courses. To date, 412 state office and D.C. staff have registered and 
accessed a total of 1,300 different lessons and publications using this 
training option. Additionally, the office offered 37 video 
teleconferencing classes, which were attended by over 500 state staff. 
The Joint Office of Education and Training also provides 25 Senate-
specific self-paced lessons which have been accessed by approximately 
1,000 staff.

                               GIFT SHOP

    Since its establishment in October 1992 (2 U.S.C. 121d), the Senate 
Gift Shop has continued to provide service and products that maintain 
the integrity of the Senate while increasing the public's awareness of 
its history. The Gift Shop serves Senators, their spouses, staffs, 
constituents, and the many visitors to the U.S. Capitol complex.
    The products available include a wide range of fine gift items, 
collectibles, and souvenirs created exclusively for the U.S. Senate. 
The services available include special ordering of personalized 
products and hard-to-find items, custom framing including red-lines and 
shadow boxes, gold embossing on leather, etching on glass and crystal, 
engraving on a variety of materials, and shipping nationally and 
abroad.

Facilities
    In addition to three physical locations, the Gift Shop has an 
online presence within Webster, the Senate's Intranet. The Web site 
currently offers an increasing selection of products that can be 
purchased by phone, e-mail, or by printing and faxing the order form 
provided on the site. In addition to offering over-the-counter, walk-in 
sales and limited Intranet services, the Gift Shop administrative 
office provides mail order service via phone or fax, and special order 
and catalogue sales via e-mail, phone, fax, and in person.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite storage facility. While the Sergeant at Arms (SAA) of the 
Senate is in charge of the overall management of the SSF, the Director 
of the Gift Shop has responsibility for the operation and oversight of 
the interior spaces assigned for Gift Shop use. Storing inventory in 
this centralized, climate-controlled facility provides protection for 
the Gift Shop's valuable inventory in terms of physical security as 
well as improved shelf life for perishable and non-perishable items 
alike.
    The second Gift Shop warehouse is maintained in the Hart Building. 
This facility serves as the point of distribution to the Gift Shop 
store and the Capitol Gift Shop counter, both of which have limited 
storage space. The Hart warehouse accommodates the Gift Shop's 
receiving, shipping, and engraving departments, and also supplies the 
inventory sold through the administrative and special order office.

Sales Activities
    Sales recorded for fiscal year 2008 were $1,444,511.15. Cost of 
goods sold during this same period was $1,006,176.13, accounting for a 
gross profit on sales of $438,335.02.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2008, the balance in the revolving fund was 
$2,549,720.48. The inventory purchased for resale was valued at 
$2,880,597.31.

Additional Activity
    The Gift Shop performed major upgrades to both its back office and 
point of sale computer systems during the 2008 fiscal year.
    Last year, Congress passed the Consumer Product Safety Improvement 
Act of 2008 (CPSIA). Additionally, in interpreting the law, the 
Consumer Product Safety Commission (CPSC) promulgated guidelines 
concerning the CPSIA's limits on lead and ban on phthalates in 
children's products, and certifications as required by law. The Gift 
Shop continues its vigilance of this important issue by maintaining its 
certification program in order to evaluate and monitor all products 
sold in its stores. This will continue to be a part of its regular 
business practice, especially as the Gift Shop considers the addition 
of new product lines.

Selected Accomplishments in fiscal year 2008
            Official Congressional Holiday Ornaments
    2008 marked the 15th year of the Congressional Holiday ornament. 
Each ornament in the 2006-2009 series of unique collectables depicts an 
image celebrating the day-to-day activities taking place on the Capitol 
grounds. The four images of the series are based on original oil 
paintings commissioned by the Gift Shop.
    Sales of the 2008 holiday ornament exceeded 29,000 ornaments, of 
which more than 6,400 were personalized with engravings designed, 
proofed, and etched by Gift Shop staff. This highly successful effort 
was made possible by the combined efforts of the administrative, 
engraving, and store staffs. Additional sales of this ornament and 
ornaments from previous years are expected to continue for years to 
come.
            Capitol Bookend
    The Capitol Bronze Doors Bookend is a remarkably detailed 
recreation of the doors that were designed by Thomas Crawford and 
William H. Rinehart and cast as a single piece by James T. Ames in 
Chicopee, Massachusetts. The doors were installed in 1868. Marble 
recovered during the renovations to the east front of the Capitol was 
added to the building materials, making the piece truly unique.
            Capitol Wooden Box
    These new boxes were designed and created using the wood of trees 
felled from the Capitol complex during the construction of the Capitol 
Visitor Center. A selection of three different images, reproduced on 
porcelain stone tiles and inlayed into the lids of the boxes is 
available. Varieties of wooden pens were also created from the rescued 
trees and have been made available as a regular product in the store. 
Both the wooden boxes and the wooden pens include an insert card, 
printed on recycled paper and in a soy-based ink, describing the 
history of the recovered wood.

Projects Recently Produced/New Initiatives for 2009
            Senate Photography Studio
    In partnership with the Senate Photography Studio, the Gift Shop 
will offer prints of original photos taken by Senate photographers. 
These images will be made available for sale in the Gift Shop and be 
offered in several sizes and formats. Professional matting and framing 
will be available.
            Senate Staff China
    In late 2008 the Gift Shop received its first shipment of fine 
china designed for Senators and Senate staff. This product, 
manufactured by Pickard China, a manufacturer of fine china in 
Illinois, depicts a pattern based on a Brumidi ceiling fresco. The 
china pattern, ``Brumidi Rinceau,'' is available by special order and 
may be personalized with the staffer's name or respective office on the 
reverse. Cups and saucers, dinner plates, salad plates and assorted 
serving pieces are available.
            Wilton Armetale
    As a complement to the Senate staff china, the Gift Shop has also 
designed and produced a collection of metal service pieces with Wilton 
Armetale Company of Columbia, Pennsylvania. The border design depicted 
on these pieces is ``Brumidi Rinceau'' and, as with the china, 
replicates the borders of a series of vignettes decorating the ceiling 
of the Capitol's North Brumidi Corridor.
            Senate Scarves
    The Gift Shop has recently received new scarf designs depicting 
various elements of Constantino Brumidi art. The ceiling of the Lyndon 
Baines Johnson Room and other Brumidi corridor frescos are the 
inspiration for this product. The Echo Design Group of New York is 
providing the product.
            United States Senate Shawls
    Through an agreement with LR Paris Company in Washington, DC, the 
Gift Shop has produced shawls in red, charcoal, brown and tan. These 
shawls, a silk and wool blend, depict an artistic design element found 
in the encaustic Minton tiles located in the Capitol just outside the 
third floor entrance to the Senate gallery.
            Senate Ties
    New Senate ties have also been designed by LR Paris and are 
available for sale. This product contains design elements found within 
the Capitol and is produced in two styles and three color variations.
            Musical Jewel Box
    The Gift Shop, working with the Splendid Music Box Company of New 
York, has completed the development of a Senate music box. The box, 
which depicts a highly detailed image of the Capitol West Laylight, 
recently became available for sale in the store. The laylight was 
designed by the Philadelphia architect Thomas U. Walter and is located 
in the ceilings of both of the grand staircases.
            Brumidi Stemware
    Working with Evergreen Crystal Company of Montrose, Colorado, the 
Gift Shop developed and began selling a new style of crystal stemware. 
Each glass in this set of four wine glasses depicts a different bird 
taken from the frescoes in the Brumidi corridor.
            Russell Centennial
    The celebration of the Russell Building centennial in March 2009 
presented the Gift Shop with an opportunity to work with the Office of 
the Senate Curator for the purpose of creating commemorative gift items 
appropriate for the occasion. The Gift Shop developed bookmarks, 
jewelry and note cards to complement the celebratory activities that 
took place.

                           HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
staff collects and provides information on important events, 
precedents, dates, statistics, and historical comparisons of current 
and past Senate activities for use by members and staff, the media, 
scholars, and the general public. The staff advises Senators, officers, 
and committees on cost-effective disposition of their non-current 
office files, and assists researchers in identifying Senate-related 
source materials. The historians keep extensive biographical, 
bibliographical, photographic, and archival information on the more 
than 1,900 former and current Senators. Historical Office staff edits 
historically significant transcripts and minutes of selected Senate 
committees and party organizations for publication, and conducts oral 
history interviews with key Senate staff. The photo historian maintains 
a collection of approximately 40,000 still pictures that includes 
photographs and illustrations of Senate committees and most former 
Senators. The office develops and maintains all historical material on 
the Senate Web site, Senate.gov.

Editorial Projects
            Pro Tem: Presidents Pro Tempore of the United States Senate 
                    since 1789
    To honor the important role played by the Senate's president pro 
tempore (PPT) since 1789, the Historical Office published a 120-page 
history of the office and its occupants in early 2008. A biographical 
profile of each of the 87 individuals who have served in the office 
highlights their PPT service along with their non-Senate careers, 
includes commentary by contemporaries, historians, and biographers, and 
presents a photographic likeness of the individual. Divided into four 
chronological sections, the book includes contextual essays that 
explain the evolution of the office, its changing duties and 
responsibilities, its place in the line of presidential succession, and 
the unique role played by these leaders in Senate history.
            United States Senate Chamber, 1859-2009
    This 25-page richly illustrated booklet commemorates the 150th 
anniversary of the Senate Chamber. It highlights the Chamber's 
construction, physical features and furnishings, and some of the 
landmark events that have taken place there since 1859. Nearly 50 color 
and black and white photographs and illustrations chronicle the 
Chamber's history, from the first session held there during the 35th 
Congress to the official photograph of the 110th Congress. United 
States Senate Chamber, 1859-2009 was made available to Senators on 
January 6, 2009, to mark the anniversary.
            Russell Senate Office Building, The First Century
    In preparation for the centennial of the Russell Senate Office 
Building's March 5, 1909, opening, the Historical Office produced a 32-
page illustrated booklet highlighting the facility's design, 
construction, and subsequent evolution. The Historical Office assisted 
the Senate Curator, Architect of the Capitol, and Senate Library in 
planning exhibits and a companion Web site, Senate.gov/RSOB.
            ``States in the Senate''
    In this collaborative project, which will be featured on 
Senate.gov, staff historians continued to research and write timelines 
and selected illustrative images for each of the 50 states, 
highlighting persons and events of the state's history that relate to 
the U.S. Senate. This online project has now entered the design stage. 
When complete, it will present an interactive timeline for each state, 
with links to relevant documentary and visual material. It is designed 
to inform Senators, staff, and constituents about their state's 
historical role in the Senate.
            Administrative History of the Senate
    Throughout 2008, the assistant historian continued to research and 
write this historical account of the Senate's administrative evolution. 
This study traces the development of the offices of the Secretary of 
the Senate and Sergeant at Arms, considers 19th and 20th century reform 
efforts that resulted in reorganization and professionalization of 
Senate staff, and looks at how the Senate's administrative structure 
has grown and diversified.
            Joint Congressional Committee on Inaugural Ceremonies
    In 2008, Historical Office staff assisted the Joint Congressional 
Committee on Inaugural Ceremonies (JCCIC) with developing the inaugural 
theme, and wrote and edited content for printed materials, including 
the platform program, luncheon program, and the commemorative edition 
of Inaugural Addresses of the Presidents of the United States. 
Historical Office staff researched precedents and compiled historical 
data on previous inaugurations in response to queries by the JCCIC, the 
media, and the general public.
            Rules of the United States Senate, Since 1789
    In 1980, Senate Parliamentarian Emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, Rules of the United 
States Senate, Since 1789 is to show how--and why--the Senate's current 
rules have evolved from earlier versions. This work, to be completed 
during 2009, will contain eight narrative chapters outlining key 
debates and reasons for significant changes. Appendices will include 
the original text of all standing rules and, for the first time in one 
publication, all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-present
    Since publication of the 2005 print edition of The Biographical 
Directory of the United States Congress, the historians have added new 
biographical sketches and bibliographical citations that incorporate 
recent scholarship to the work's online database (http://
bioguide.congress.gov). The assistant historian and historical writer 
work closely with the staff of the House Office of History and 
Preservation to maintain accuracy and consistency in the joint Senate-
House database, and to promote this valuable resource among historians, 
teachers, students and the public. To enhance the online site, the 
Historical Office currently is selecting printed obituaries for 19th 
century Senators for inclusion in their online profile. Office staff 
collected and scanned images of more than 100 obituaries from 
historical newspaper databases and the Office's biographical files and 
will build on this collection in the coming year.

Oral History Program
    The Historical Office conducts a series of oral history interviews 
to provide personal recollections of various Senate careers. Interviews 
were completed with Keith Kennedy, former staff director of the Senate 
Appropriations Committee, and with Mario D'Angelo, a Senate barber. 
Other interviews are ongoing with former Senators Charles McC. Mathias 
(R-MD) and Paul Laxalt (R-NV), Tim Profeta, former legislative 
assistant to Senator Joseph Lieberman (ID-CT) and Robert B. Dove, 
former parliamentarian. In addition, the office continued to seek and 
conduct interviews with current and former Senate spouses. It also 
expanded on its collection of interviews highlighting the role of women 
on Capitol Hill, completing interviews with Virginia Saunders, a 
congressional documents expert who has been employed at the Government 
Printing Office since 1945. The complete transcripts of 26 interviews 
conducted since the 1970s have been posted on Senate.gov. Each month, 
that site features a different oral history interview series, including 
digital audio clips along with the interview transcripts. Unum, the 
Secretary of the Senate's newsletter, has also begun a regular series 
entitled ``Senate Voices,'' which includes excerpts from the oral 
histories.

Member Services
            Members' Records Management and Disposition Assistance
    The Senate archivist assisted members' offices with planning for 
the preservation of their permanently valuable records, emphasizing the 
importance of managing electronic records and transferring valuable 
records to a home state repository with a digital asset management 
system. Meetings continued with offices closing at the end of the 110th 
Congress. The archivist revised the Handbook for Closing a Senator's 
Office and the pamphlet, Senators' Papers: Management and Preservation 
Guidelines.
    To enhance communication within the Senate regarding archival 
preservation, the archivist led brown-bag lunch discussions and 
contributed to a listserv that promotes archival training for staff, 
efficient records management, and historical records preservation. A 
video seminar was developed for Senate state offices. The Senate 
archivist continued to work with staff from all repositories receiving 
senatorial collections to ensure adequacy of documentation and the 
transfer of appropriate records with adequate finding aids. Advice on 
access restrictions also was provided. The archivist conducted a 
seminar on records management for Senate offices and participated in 
the Sergeant at Arms' Senate Services Fair.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each Senate committee with staff 
briefings, record surveys, guidance on preservation of information in 
electronic systems, and instructions for the transfer of permanently 
valuable records to the National Archives' Center for Legislative 
Archives. During the fall, the archivist met with representatives of 
nearly all committees to ascertain the status of their electronic 
archiving. The archivist distributed information on best practices for 
managing electronic records and encouraged committee chief clerks, 
systems administrators, and chief counsels to consider hiring 
professional archivists to focus on electronic archiving. As a result, 
several committees have hired, or are in the process of hiring, 
archival staff.
    The Senate archivist oversaw the transfer to the National Archives 
of 729 accessions of Senate records and provided numerous training 
sessions to Senate interns tasked with archiving committee records. The 
archivist and assistant archivist responded to approximately 197 
requests for loans of records back to committees, totaling nearly 1,000 
boxes. The archivist worked with the Foreign Relations Committee to 
transfer classified transcripts to the National Archives. The archivist 
worked with the Senate Committee on Rules and Administration and the 
Senate Recording Studio to transfer televised recordings of committee 
hearings to the National Archives. The archival assistant continued to 
provide processing aid to committees and administrative offices in need 
of basic help with noncurrent files. A project continues to scan 
committee National Archives' transfer sheets dating from 1982 through 
2004 into the OnBase document management system, which is supported by 
the Sergeant at Arms. To date, records of the Committees on 
Agriculture; Appropriations; Armed Services; Banking, Housing and Urban 
Affairs; Budget; Energy and Natural Resources; Environment and Public 
Works; Finance; Foreign Relations; Health, Education, Labor and 
Pensions; and Homeland Security and Governmental Affairs have been 
processed. This information is provided to the National Archives on 
electronic media, both as a security measure and to enhance future 
access as the records become open for research.

Educational Outreach
            ``Senate Historical Minutes''
    The Senate historian continued a series of ``Senate Historical 
Minutes,'' begun in 1997 at the request of the Senate Democratic 
Leader. In 2008, he prepared and delivered a ``Senate Historical 
Minute'' at 18 weekly Democratic Conference meetings. These 450 word 
``Minutes'' enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
More than 300 of them are available as a regularly expanded feature on 
Senate.gov (``Historical Minute Essays''). An illustrated compilation 
was published in 2006 as 200 Notable Days: Senate Stories, 1787-2002.
Senate.gov
    Much of the Historical Office's correspondence with the general 
public takes place through Senate.gov, which has become an 
indispensable source for information about this institution. Office 
staff maintain and frequently update the Web site with timely reference 
and historical information. In 2008, the office responded to more than 
1,400 inquiries from the general public, the news media, students, 
family genealogists, congressional staffers, and academics, through the 
public e-mail address provided on the site. The diverse nature of their 
questions reflects varying levels of interest in Senate operations, 
institutional history, and former members. Research assistance provided 
by Historical Office staff was enhanced by the comprehensive scanning 
of the office's subject files into the OnBase document management 
system, allowing staff to search the full text of these files 
electronically. Staff provided seminars on the general history of the 
Senate, Senate committees, women Senators, Senate floor leadership, 
relations between the press and the Senate, and the U.S. Constitution. 
The historians also participated in Senate staff seminars and members' 
office retreats, and conducted dozens of briefings for specially 
scheduled groups.

Photographic Collections
    The photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing every 
committee once each Congress, collecting formal photo portraits of new 
Senators, and capturing significant Senate events in cooperation with 
the Senate Photography Studio. The photo historian also enhanced the 
office's publications on Senate presidents pro tempore, the Russell 
Building's centennial, and the Senate Chamber's sesquicentennial by 
selecting images to illustrate the respective texts, working closely 
with the historical editor and the Government Printing Office to design 
and publish these three volumes. As a member of the Russell Building 
centennial planning committee, the photo historian helped create the 
official centennial logo and bookmarks, in addition to the centennial 
booklet, and worked closely with the National Archives staff to arrange 
for the scanning of a large collection of early 20th century historical 
photographs donated to the office, thus adding hundreds of rare images 
to the collection.
    The photo historian assisted with several presidential inaugural 
projects, including the selection of images for the commemorative 
inaugural luncheon book. The photo historian also transferred more than 
40,000 photographic negatives of Senators to their appropriate archival 
repositories. These negatives had been languishing at a Senate storage 
site for decades. With the assistance of the archival assistant, the 
photo historian arranged for the transfer of 63 historic Capitol Police 
record books to the National Archives.
    The photo historian also maintained the office's continuity of 
operations (COOP) plan, updated the backup copies of the office's vital 
electronic records, and prepared the office's remote access test plan 
which will enable staff members to fulfill their vital functions from 
an off-site location.

Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its membership 
representing the Senate includes the Secretary of the Senate, who 
chaired the panel during the 110th Congress; the Senate historian; and 
appointees of the secretary and the majority and minority leaders. The 
Historical Office provides support services for the advisory 
committee's regular meetings.

Capitol Visitor Center
    Staff historians continued to provide information and guidance to 
Capitol Visitor Center staff on matters related to the educational 
component of the exhibition gallery. The historians participated in 
multiple planning sessions for a new training program for staff-led 
tours. Beginning in October, they have made regular presentations on 
the history of the Senate in both 2-day and 1-day training seminars for 
Senate staff and interns. They have also assisted in the training of 
visitor assistants who guide visitors through the Capitol and 
exhibition gallery.

                            HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the Congressional Accountability Act. The 
office focuses on developing and implementing human resources policies, 
procedures, and programs for the Office of the Secretary of the Senate 
that fulfill the legal requirements of the workplace and complement the 
organization's strategic goals and values.
    These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbooks and manuals; internal grievance procedures; 
employee relations and services; and organizational planning and 
development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, parking allocations, and the summer 
intern program that offers college and other post-graduate students the 
opportunity to gain valuable skills and experience in a variety of 
Senate support offices. Human Resources has completed migration of 
eligible commuters to the Smart Benefits Program, which is operated by 
the Washington Metropolitan Area Transit Authority.

Recruitment and Retention of Staff
    Human Resources staff have the ongoing task of advertising new 
vacancies or positions, screening applicants, interviewing candidates, 
and assisting with all phases of the hiring process. Human Resources 
staff coordinate with the Sergeant at Arms (SAA) Human Resources 
Department to post all SAA and Secretary vacancies on the Senate 
intranet, Webster, so that the larger Senate community may access the 
posting from their own offices. In an effort to reach a larger and more 
diverse applicant pool, the department uses multiple posting forums to 
reach potential applicants for employment. As a result, the Human 
Resources Department processed more than 2,500 applications for 
vacancies in the Secretary's Office, including review of applications, 
coordinating scheduling of candidates for interview, sending out 
notices to both successful and unsuccessful candidates, and finalizing 
new hire paperwork.

Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continues to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
Family Medical Leave Act administration, and an overview of the 
Congressional Accountability Act.

Interns and Fellows
    Human Resources staff manages the Secretary's internship program 
and the coordination of the Heinz Fellowship program. From posting 
vacancies, conducting needs analyses, communicating, screening, placing 
and following up with all interns, the office keeps a close connection 
with these program participants in an effort to make the internship 
most beneficial to them and the organization.

Combined Federal Campaign
    The office has again taken an active role in the Combined Federal 
Campaign (CFC) for the Senate community at-large. The office staff 
serve as co-directors of the program. The staff participates in kick-
off meetings, identifies key workers in each office, and disseminates 
and collects necessary information and paperwork.

                          INFORMATION SYSTEMS

    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The department provides 
computer-related support for all location area network (LAN) servers 
within the Office of the Secretary of the Senate. Information Systems 
staff provide direct application support for all software installed 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.

Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the Office of Secretary of the Senate. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the member offices, and complying with office 
mandated and statutory obligations.

Fiscal Year 2008 Technology Summary
  --Successfully migrated all departments to the Senate-wide Active 
        Directory/Messaging Architecture (ADMA) and upgraded Mail 
        Server architecture in fiscal year 2008.
  --Completed fifteen major Legislative Information System (LIS) 
        software upgrades and installed LIS application software in the 
        legislative clerk offices, Senate Library, alternate computing 
        facility, and offsite staff laptop locations.
  --Completed phase two of the Gift Shop and Stationery Room project, 
        which involved updating all server and workstations for each 
        department.
  --Completed installation testing of Disbursing backup servers at the 
        Alternate Computer Facility (ACF).
  --Upgraded all handheld mobile device hardware (Blackberry) for 
        essential staff. All staff now can use the devices as modems to 
        access the Senate network if required.
  --Completed installation of a development SharePoint Server for the 
        Office of Senate Security allowing continuity of operations 
        (COOP) related documents to be readily available through a web-
        based secure network connection.
  --Participated and provided direct technical support for all COOP 
        exercises in 2008. The most notable exercises included the 
        National Level Exercise and Alternate Chamber Exercise in May 
        2008, and department pandemic testing exercises conducted in 
        third and fourth quarters of 2008.
  --Deployed the Government Printing Office public key infrastructure 
        (PKI) software for successful transmission of the 2008 and 2009 
        White House budget. Information System staff ``virtualized'' 
        the software installation for the deputy chief of staff 
        avoiding the purchase of an additional workstation, thus 
        allowing any workstation to accommodate the transfer of the 
        digital certificate document.
  --Reduced space and power consumption by updating printer operations 
        in 19 departments with multi-functional scanner/copier/fax 
        devices. Using all-in-one devices to perform multiple tasks 
        reduces energy, hardware costs, and long term hardware support 
        costs.
  --Installed virtualized server architecture for the LIS Information 
        Project Office.
  --Augmented the Bill Clerk Amendment Tracking System (ATS) process to 
        continue to process submitted amendments in the event that 
        network scanning is not available. This ensures that submitted 
        and proposed amendments continue to reach the ATS Web server 
        site for Senate distribution.
  --Purchased and installed server hardware and network configuration 
        in support of the Senate Library taxonomy project.
  --Relocated the departmental operations for the offices of Senate 
        Security and Captioning Services from the Capitol building to 
        the Capitol Visitor Center expansion space.
  --Redesigned and enhanced the operation of member accountability 
        application used during COOP exercises by implementing a 
        virtualized desktop process to run the application. 
        Standardized the application and provided to both Democratic 
        and Republican Cloakroom staff. Added this process to ensure 
        high availability by installing on an ``always-on'' secure 
        hardware platform at the ACF.
  --Finalized the Living Disaster Recovery Planning System (LDRPS) in 
        fiscal year 2008. Initial user training began in February 2009.
  --Upgraded workstation hardware and software operations in the 
        Executive Office of the Secretary and the Office of Senate 
        Security.
  --Upgraded Microsoft Office Software applications, Adobe Acrobat 
        software, and web browser operations in fifteen Secretary 
        departments. Timeframe to complete legislative offices will 
        coincide with updated SAA LIS application support in the second 
        quarter of 2009.
  --Initiated Parliamentarian indexing software project to migrate 
        operation to a new hardware platform. End results will allow a 
        virtualized environment to index precedent information without 
        a specific laptop or personal computer hardware vendor 
        requirement. Estimated completion is the second quarter of 
        2009.
    In 2007, forty five e-mail security alerts were issued from the SAA 
Security Operations Center alerting Secretary staff of a possible virus 
or malicious code installed on their staff workstations. Information 
Services staff ``clean'' each compromised workstation. This process can 
take up to three hours to correct the possible problem. In 2008, this 
number was reduced by 50 percent.
  --Upgraded to Microsoft Office 2007 Groove collaboration software in 
        the offices of Information Systems, Senate Security, Senate 
        Library, Web Technology, Historian, and the Executive office. 
        This application continues to provide critical information to 
        dispersed staff members who might be offsite or relocated out 
        of the office. Streamlined application deployment by utilizing 
        an improved web management console to install the application 
        remotely.
  --Update the People Trak database operation in the department of 
        Human Resources to allow staff to enter time and attendance 
        sheet records via the Secretary Intranet web portal. Project 
        implementation to be determined by HR Director.

Ongoing and Future Projects
  --Extend Member Status application support to both cloakroom staff 
        during a COOP event
  --In collaboration with the Office of Legislative Counsel, design a 
        ``Virtual Desktop Infrastructure'' (VDI) allowing staff to 
        access desktop applications in a secure manner. VDI reduces the 
        cost in purchasing new computers, centralizes the software 
        management in the ACF data center, provides a reduction in 
        electricity costs, and provides fewer application compatibility 
        problems associated with multiple applications.

                      INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) has completed its 
27th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly
  --Mexico-United States Interparliamentary Group
  --Canada-United States Interparliamentary Group
  --British-American Interparliamentary Group
  --United States-Russia Interparliamentary Group
  --United States-China Interparliamentary Group
  --United States-Japan Interparliamentary Group
    In May, the 49th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in New Mexico. In June, the first 
meeting of the United States-Japan Interparliamentary Group meeting was 
held in Washington, DC. In July, the United States-Russia 
Interparliamentary Group meeting was also held in Washington, DC. IPS 
staff handled arrangements for these successful events.
    As in previous years, all foreign travel authorized by the Majority 
and Minority Leaders is arranged by the IPS staff. In addition to 
delegation trips, the staff provided assistance to individual Senators 
and staff traveling overseas. Senators and staff authorized by 
committees for foreign travel continue to call upon this office for 
assistance with passports, visas, travel arrangements, and reporting 
requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader and 
the Minority Leader, IPS assists staff members of Senators and 
committees in completing the required reports.
    IPS maintains regular contact with the Department of State and 
foreign embassy officials. The office staff frequently organizes visits 
for official foreign visitors and assists them in setting up meetings 
with leadership offices and tours. The staff continues to work closely 
with other offices of the Secretary of the Senate and the Sergeant at 
Arms in arranging programs for foreign visitors. In addition, IPS is 
frequently consulted by individual Senate offices on a broad range of 
protocol questions. Occasional questions come from state officials or 
the general public regarding Congressional protocol.
    On behalf of the Majority and Minority Leaders, the staff arranges 
receptions in the Senate for heads of state, heads of government, heads 
of parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign visitors under authority of Public 
Law 100-71 are maintained in IPS.
    Planning is underway for the 48th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group which will be held in the United States in 
2009. Preparations are also underway for the 2009 British-American 
Parliamentary Group meeting and the spring and fall sessions of the 
NATO Parliamentary Assembly. IPS will also undertake advance work, 
including site inspection, for the Canada-U.S. Interparliamentary Group 
conference to be held in the United States in 2010.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123(e)) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
the transition to and implementation of a standard system for the 
authoring and exchange of legislative documents, which will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.

Background: LISAP
    In April 1997, a joint Senate and House report recommended the 
establishment of a data standards program. In December 2000, the Senate 
Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information. Following the implementation of the LIS in 
January 2000, the LIS Project staff shifted their focus to the data 
standards program and established the LIS Augmentation Project (LISAP). 
The over-arching goal of the LISAP is to provide a Senate-wide 
transition to and implementation of XML for the authoring and exchange 
of legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Senate Legislative Counsel (SLC) and the Enrolling 
Clerk. The XML authoring application is called LEXA, an acronym for the 
Legislative Editing in XML Application. LEXA replaces the DOS-based 
XyWrite software used by drafters to embed locator codes into 
legislative documents for printing. The XML tags inserted by LEXA 
provide more information about the document and can be used for 
printing, searching, and displaying a document. LEXA features many 
automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project staff has worked very 
closely with the SLC and the Enrolling Clerk to create an application 
that meets the needs of legislative drafting.

LISAP: 2008
    Early in 2008, the Senate and House deployed a module developed by 
the Government Printing Office (GPO) for creating, editing, and 
printing tables in an XML document. This new table tool improves the 
process and provides another module that is common to LEXA and the 
House application.
    Also in the first quarter of 2008, Senate, House, and GPO software 
developers each upgraded their respective installations of the 
Microsoft.Net framework. This upgrade allowed GPO to substantially 
decrease the time it takes to compose large documents for printing. The 
printing component is developed and maintained by GPO and is common to 
both the Senate and House applications.
    Throughout 2008 the SLC used LEXA to create 99 percent of measures 
drafted. The SLC provided valuable feedback on new features and 
required fixes to the software. The Senate Enrolling Clerks also used 
LEXA for the bulk of their production of engrossed bills and amendments 
and enrolled measures.
    The production staff of the Appropriations Committee used LEXA to 
convert XML documents to locator when needed, and provided their 
requirements regarding using LEXA to draft appropriations committee 
prints and bills in XML. The production staff will begin using LEXA in 
2009 to prepare the bills for fiscal year 2010. The LIS Project Office 
participated in meetings with the House, GPO, Appropriations, and the 
Office of Management and Budget to work toward exchanging and round-
tripping, or transferring back and forth, XML data among the various 
entities.
    Support for LEXA users remains an important concern. The LIS 
Project Office provides support for LEXA through the LEXA HelpLine and 
LEXA Web site. The Web site (http://legbranch.senate.gov/lis/lexa) is 
also used to distribute updates of the application to GPO and provide 
access to release notes, the reference manual, and other user aids. The 
2004 legislative branch appropriations act directed GPO to provide 
support for LEXA much as they have for XyWrite. GPO continues to work 
toward augmenting the support provided by the LIS Project Office.
    GPO maintains and supports the printing and table tool software, 
and they also develop and maintain the stylesheet that is used on LIS 
(http://www.congress.gov) and Thomas (http://thomas.loc.gov) to display 
the XML bills. The LIS Project Office worked with the House and GPO in 
2008 to resolve any remaining XML tagging issues and HTML display 
issues so that the XML versions of Senate measures will be made 
available on LIS and Thomas starting with the 111th Congress. The HTML 
version produced from the XML data more closely resembles the printed 
document. This improved HTML format will eventually replace the HTML 
version currently available on the Web.

LISAP: 2009
    The LIS Project Office will continue to work with the SLC and the 
Enrolling Clerk to refine and enhance LEXA so that all of the 
legislative measures produced by those offices will be done in XML. The 
office will also support the Appropriations Committee production staff 
as they begin producing appropriations bills in XML. The LIS Project 
staff will monitor the use of the tagging structures created for 
appropriations language to determine if they provide a sufficiently 
complete description so that appropriations bills can be created as XML 
documents. XML tags and LEXA functions will be added as needed to 
create the appropriations bills using LEXA. The LIS Project Office will 
also continue to participate in the project to exchange and round-trip 
budget and appropriations data in XML.
    The LIS Project Office will continue to work with the House, GPO, 
and the Library of Congress on projects and issues that impact the 
legislative process and data standards for exchange. These groups are 
currently participating in two projects with GPO--one to define 
requirements for replacing the Microcomp composition software and 
another to improve the content submission and exchange processes. Both 
the Senate and House will need to test and implement Vista-compatible 
versions of the XML applications.
    The legislative process yields other types of documents, such as 
the Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database, verified by 
the clerks, keyed into the respective documents, and re-verified at GPO 
before printing. An interface between this database and the electronic 
documents could exchange data mutually. For example, the LIS/DMS 
database could insert the bill number, additional co-sponsors, and 
committee of referral into an introduced bill, while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the journals and calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary document type definitions have been designed for these 
documents, and applications could be built to construct XML document 
components by extracting and tagging the LIS/DMS data. These 
applications would provide a faster, more consistent assembly of these 
documents, and would enhance the ability to index and search their 
contents. The LIS Project staff will coordinate with the Systems 
Development Services Branch of the Sergeant at Arms to begin design and 
development of XML applications and interfaces for the LIS/DMS and 
legislative documents. As more and more legislative data and documents 
are provided in XML formats that use common elements across all 
document types, the Library of Congress will be able to expand the LIS 
Retrieval System to provide more content-specific searches.

                                LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audio books; 
and a wide array of online resources. The library also authors content 
for three Web sites--LIS.gov, Senate.gov, and Webster, the Senate's 
intranet.
    The year 2008 brought much change to the Senate Library, with the 
retirement in February of the prior Senate Librarian, Greg Harness, and 
the arrival of Mary Cornaby, the first woman to serve as Senate 
Librarian, in April. Other changes included adoption of a new audio 
books program to help meet the needs of visually challenged patrons, 
increased statistical benchmarking, and increased focus on instruction 
and outreach. The Library's expanded use of Web technology, online 
resources, and electronic mail requests continues to meet the Senate's 
increasing demand for information.

Notable Achievements
    Rollout of the new version of the Webster intranet in October 2008 
included extensive Library staff participation on taxonomy, indices, 
and content development, improving Web information delivery, 
functionality, and stability.
    The Senate Library increased its service statistics this year, 
serving every Senator's office and all Senate committees. The Library 
showed a 69 percent increase in the number of requests handled, 
including Web-based inquiries, from 2007.
    Focus on new and more frequent Library instructional classes 
resulted in a 23 percent increase in Library instructional offerings in 
2008.
    The new audio books program, which assists in serving patrons with 
diverse needs, proved wildly successful at bringing Senators and staff 
into the Library. All titles are checked out, and many have a waiting 
list.
    Partially as a result of the success of the audio books program, 
2008 saw a 73 percent increase in online book requests.
    An effective book stack rearrangement program will delay the need 
for new book stack space in the Russell Building for 10 years.
    An emphasis on careful negotiation or renegotiation of vendor 
contracts and purchases has already saved over $352,000 in database 
expenses over the next 4 years.
    An effort to register new library users included a 37 percent 
increase in staff accounts, a 560 percent increase in intern accounts, 
and a 155 percent increase in Senate page accounts.

Senate Library Inquiries, Online Book Requests, and Patron Accounts
    The rise in electronic requests for materials, the availability of 
new and enhanced electronic database offerings, and the expanded 
availability of resources on the Web, combined with efficient content 
management, have all increased Library inquiries dramatically. Prior to 
the availability of Web-based information, Library inquiries totaled 
46,368. Inquiries for 2008 totaled approximately 2.5 million.

                                            SENATE LIBRARY INQUIRIES
----------------------------------------------------------------------------------------------------------------
                                                                  Web                                  Increase
                                                ---------------------------------------               From Prior
               Year                 Traditional                                            Total       Year (in
                                                   Webster        LIS       Senate.gov                 percent)
----------------------------------------------------------------------------------------------------------------
2008..............................       27,283       37,940       29,468    2,429,380    2,524,071          +69
2007..............................       26,309       31,065       32,121    1,392,947    1,491,442           -8
2006..............................       31,032       15,478       20,156    1,561,138    1,627,804          +90
2005..............................       33,080       13,713       26,775      782,588      856,156          +35
2004..............................       33,750      ( \1\ )       20,749      581,487      635,986          +61
2003..............................       46,234      ( \1\ )       18,871      329,327      394,432     \2\ +751
2002..............................       40,359      ( \1\ )        6,009      ( \1\ )       46,368      ( \3\ )
----------------------------------------------------------------------------------------------------------------
\1\ NA.
\2\ Web inquiry statistics, first available in 2003, increased the total from the previous year by 751 percent.
\3\ Baseline.

    A 73 percent increase in online book requests for 2008 can be 
attributed not only to the successful advertising campaign for audio 
books, but also to the direct link between titles in the new books list 
and the catalog record containing the link to the online request form.
    Of the 1,432 library patrons currently registered to borrow 
materials, the breakdown by entity is as follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 2008, a drive to create library and computer accounts for 
interns, working through office managers as the responsible party, 
combined with high visibility of the new audio books program, resulted 
in higher public recognition of the Library, expansion of its client 
base, and direct contact with all committee and Senators' offices. The 
result was a 560 percent increase in intern accounts, and a 37 percent 
increase in staff accounts. Efforts to assist Senate Page School 
teachers with tours, a reserve collection, and reference assistance 
resulted in a 155 percent increase in page account registrations.

Senate Knowledge Base
    Projects to publish authoritative, standardized Senate data sources 
for multipurpose use continue to be a Library priority. Such projects 
ensure the accurate and timely dissemination of Senate information. The 
Senate knowledge base is an institutional repository for data to 
support these projects: the newly-modernized Webster site, the Senate 
Library site on Webster, and a senator biography database.

Webster Modernization
    A greatly enhanced version of Webster (webster.senate.gov), the 
Senate's intranet, was launched in September. The launch was a 
culmination of a multi-year collaborative effort of Webster's four 
stakeholders--the Secretary of the Senate, the Sergeant at Arms, the 
Senate Chaplain, and the Committee on Rules and Administration. The 
Senate Library and the Web Technology department represent the 
Secretary on the Webster Advisory Group (WAG), which oversees site 
management.
    Since its debut in 1995, Webster has been the most-visited site for 
Senate staff seeking information about internal operations, support 
services, and employee benefits. The large-scale redesign initiative, 
launched last fall by the WAG, was intended to help staff easily 
navigate the ever-expanding volume of online information and to locate 
the resources staff need to do their jobs.
    Usage statistics for the five taxonomy-based indexes total 276,129 
for 3 months, indicating that this new resource is well-used by staff.

             WEBSTER TAXONOMY USAGE STATISTICS, OCT-DEC 2008
------------------------------------------------------------------------
                          Taxonomy                              Usage
------------------------------------------------------------------------
Services...................................................       81,376
Leadership.................................................       27,896
Legislative................................................       55,655
News & Research............................................       55,574
About the Senate...........................................       55,628
                                                            ------------
      Total Taxonomy Usage.................................      276,129
------------------------------------------------------------------------

    The improved Webster-enterprise search functionality is popular 
with staff; there have been 30,114 searches since the redesign 
launched. Library staff help improve search results by analyzing 
monthly statistics and matching popular search terms with pages. During 
the new site's first 3 months, 315 ``keymatches'' were established. To 
date, 845 document records and 1,120 term records in the Senate 
knowledge base are supporting the Webster search and taxonomy projects

Floor Schedule
    Repurposing of authoritative, standardized and timely Senate floor 
schedule data expanded this year, helping to make Senate operations 
more efficient. Floor schedule information is the key component of the 
new Senate intranet and is being used to keep Capitol Visitor Center 
information kiosks up-to-date. Plans to distribute floor schedule data 
in a format that can be displayed on Senate BlackBerry devices are in 
the exploration phase. Floor schedule data are published in XML by the 
Library after each Senate meeting adjourns.

Senate Library Webster Site
    Management of the Senate Library Webster site was transitioned to a 
content management system (CMS) in December, significantly improving 
efficiencies in publishing and editing timely information for Senate 
staff. CMS-published data can also be repurposed for Senate.gov, 
further economizing staff time and labor. The Senate Library site on 
Webster is a research service and information portal for Senate staff. 
The Library's site design team began redesign of the user interface of 
the site in December and is expected to finish in 2009. The team 
continues to identify technology tools that will make delivery services 
and information to Senate staff more timely and efficient.

Senator Biography Database
    The Senate knowledge base currently contains biographical data 
records for the more than 1,900 people who have served as Senators. 
Increased uploading of data records and a refinement/redesign of the 
knowledge base for this purpose will continue in 2009.

Instruction and Professional Outreach
    In order to target the needs of Senate staff, the Library now 
offers two new classes in addition to a renamed class (Beyond Google). 
Increasing the number of sessions taught allowed the librarians to 
teach to smaller groups, increasing interaction and retention.

                         SENATE LIBRARY CLASSES
------------------------------------------------------------------------
                      Subject                        Students   Classes
------------------------------------------------------------------------
Insider's Guide to Webster........................         10          5
LIS Savvy.........................................        190         32
Research Tips and Tricks..........................        103         15
Beyond Google.....................................         20          4
Services of the Senate Library and Got Questions          459         20
 Tours............................................
                                                   ---------------------
      Totals......................................        782         76
------------------------------------------------------------------------

    The number of classes taught and the number of sessions taught 
rose; specifically, there was a 23 percent increase in 2008 in Library 
educational offerings and a slight increase (2 percent) in Senate staff 
trained in 2008.

                                     SENATE LIBRARY CLASSES BY CALENDAR YEAR
----------------------------------------------------------------------------------------------------------------
                                                                             Increase                  Increase
                                                               Attendees    From Prior    Classes     From Prior
                            Year                                 Total       Year (in      Total       Year (in
                                                                             percent)                  percent)
----------------------------------------------------------------------------------------------------------------
2008........................................................          782            2           79           23
2007........................................................          770           49           64            7
2006........................................................          518           25           60          114
2005........................................................          416      ( \1\ )           28      ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Baseline.

    In addition, the Library staff gave tours of the Senate Library to 
Senate groups and to outside library professionals. These tours ranged 
from an introduction to each semester's Senate Page School class to 
hosting parliamentary librarians from Germany and the Netherlands. The 
Library also participated in the Senate Services Fair and in giving 
tours for National Library Week. The Library continued its 
participation in the Federal Library Institute, which introduces 
interested library school graduate students to federal libraries, 
resources, and career opportunities.

Collection Development
            Audio Books Program
    The Library's Acquisitions Committee and the Technical Services 
Department worked collaboratively to create and maintain a new service 
to the Senate Community in the Library's adoption of an audio books 
lending program. Designed to assist users with diverse needs, including 
those who may be visually challenged, as well as to draw patrons into 
the library, the program proved popular in its first year. Of the 55 
titles acquired in 2008, most were checked out multiple times, with 
audio book titles accounting for 50 percent of the holds on the wait 
list, even though they account for less than one percent of the 
collection.
            New Digital Resources
    The Library provides a number of digital resources to the Senate. 
In an effort to reduce purchase and subscription costs, the Library 
acquired, with considerable negotiation, the U.S. Congressional 
Retrospective Hearings from Lexis-Nexis and the Gale Nineteenth Century 
Newspapers database. The Library also negotiated a reduced price 
subscription to the Oxford English Dictionary, for a total savings of 
$352,000 over the next 4 years. These resources provide staff with 
desktop access to two centuries of important legislative documents. In 
addition, the Gale e-book Countries of the World and, after many 
committee staff requests, the journal Health Affairs, are also 
available to the Senate community.
            Expansion of Special Collections
    Summer interns reviewed and collated all versions of every House 
and Senate bill and resolution from the 109th Congress. The project 
resulted in the addition of 188 new bill volumes to the collection and 
identification and mounting of missing full-text documents on GPO 
Access for use in LIS and Thomas.
    As a participant in the Government Printing Office's (GPO) Federal 
Depository Library Program (FDLP), the Library receives selected 
categories of legislative, executive, and judicial branch publications. 
The Library received 11,231 government publications in 2008, the 
majority of which were received through the FDLP. In response to the 
trend of issuing government documents in electronic format, 3,184 links 
were added to the library catalog, bringing the total to more than 
25,976. The links provide Senate staff with desktop access to the full-
text of each document.
    Library staff scanned and created archival print and digital copies 
of Senate Rules for the years 1820, 1849, 1877, 1882, and 1890. These 
were cataloged and bound for the Library's permanent collection with 
links to the digital copies.

                              ACQUISITIONS
------------------------------------------------------------------------
                          Category                              Total
------------------------------------------------------------------------
Congressional Documents....................................        8,234
Executive Branch Publications..............................        2,997
Books......................................................          901
Electronic Links...........................................        3,184
                                                            ------------
      Total Acquisitions...................................       15,316
------------------------------------------------------------------------

Cataloging
    The Library's cataloging staff draws on years of experience to 
produce and maintain a catalog of more than 200,000 bibliographic 
items. During 2008, 7,596 new titles were added to the catalog, a 14 
percent increase in cataloging over the prior year. The catalog is 
updated nightly to ensure that Senate staff will retrieve accurate and 
current information on Library holdings. The addition of book jacket 
images for the new titles enhanced visual appeal and utility.
    A project to review nomination hearings from the 103rd-105th 
Congress in order to enhance existing catalog records with the addition 
of name subject headings for all nominees was completed.
    Catalogers created 633 bibliographic records for Senate hearings 
not yet printed from information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. These records 
remain in the catalog until the printed hearing is received and 
cataloged.
    General topical retrieval for the audio book collection was 
enhanced with the addition of genre headings, including biographical 
fiction, legal stories, historical fiction, mystery fiction, political 
fiction, and war stories. These headings were also retrospectively 
applied to catalog records for titles in the print fiction collection.
    Catalogers also completed a project to improve the information 
organization, access, and retrieval of library material regarding the 
offices under the Secretary of the Senate and the Sergeant at Arms. 
Catalogers created and implemented specific classification schemes 
based upon Library of Congress (LC) classification schedules, creating 
specific classification numbers for each of the distinct offices. The 
need for greater specificity in classification reflects the depth of 
the library's collection, which was unanticipated by LC classification.

Library Automation
    Support was provided to the Senate knowledge base project by 
working with the Secretary of the Senate Information Systems office to 
configure and install a server for the software underlying the 
knowledge base. The Library's Head of Technical Services worked with 
the system vendor and the Office of Web Technology to install and test 
the database server, update database files, edit Web files, and test 
the data transfer function to the content management system and 
Webster.
    The Library assumed management of a proxy server to manage computer 
accounts for the library patron computer workstations from the 
Secretary of the Senate Office of Information Systems. Local management 
of the accounts allows the Library to maintain the information more 
efficiently.

Preservation, Binding and Collection Maintenance
    Technical Services staff and summer interns boxed a large portion 
of the library's books collection for transfer to the Library's space 
at the Senate Support Facility (SSF), as well as reshelving material in 
climate-controlled storage. Once additional shifting is completed, this 
effort will yield 10 years of growth storage space in the Russell 
Building book stacks.
    Discovery of a mold bloom in the Library's book stacks, a flood 
from a malfunctioning HVAC pump, and two substantial leaks from 
overhead plumbing all highlighted the vulnerability of the Library's 
collections in the Russell Building. The Technical Services staff and 
the AOC provided a quick response in working together to balance 
existing environmental monitoring systems. The AOC also made 
modifications to the HVAC system to regulate temperature and relative 
humidity in the book stacks.
    Technical Services staff continued to participate in book repair 
training sessions led by the Director of the Office of Conservation and 
Preservation. Trainees repaired 153 historic volumes, an increase of 
425 percent from 2007, making significant progress in the preservation 
of the Library's bound book collection.
    An archival flat file map storage cabinet was purchased for 
installation at the SSF. As a result, for the first time, the Library 
can preserve and store properly flat maps from the United States 
Congressional Serial Set.

Budget
    In addition to the substantial savings in the purchasing of new 
databases, budget savings from cancellation of subscriptions in 2008 
totaled $4,225; and, after 11 years of budget monitoring, the amount of 
total savings is $81,076.86. This continual review of purchases 
eliminates materials that do not meet the Senate's current information 
needs. This oversight is also critical in offsetting cost increases for 
core materials and in acquiring new materials.

Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997. It serves as an historical 
record of accomplishments, events, and personnel in the Office of the 
Secretary of the Senate. The newsletter is distributed throughout the 
Senate, and to former staff and Senators. Highlights from the 2008 Unum 
issues include articles on the greening of Secretary's offices and 
emergency preparedness; new online resources such as the Chicago Manual 
of Style and the revamped Webster Web site; new publications produced 
by Secretary offices, such as the President Pro Tem book by the 
Historical Office; annotated bibliographies of books and audio books in 
the Senate Library; leadership portrait unveilings; and reaccreditation 
of the Page School.
            Exhibitions
    In November 2008, the Library created an imaginative display on 
presidential campaigns, including books, campaign buttons from past 
presidential campaigns, and a multimedia PowerPoint presentation of 
photographs, drawings, and new articles from past campaigns.
            National Library Week
    The National Library Week events were well-attended, with 205 
people attending the opening dessert reception, nearly doubling the 
prior year's participation. The talk by James L. Swanson on his book, 
Manhunt, drew 125 attendees, the largest group ever.

Cooperative Projects
    Library staff completed a pilot project to enter House and Senate 
report titles for the 110th Congress into the Library of Congress's LIS 
system. This project, begun in July 2008 at the request of LIS staff, 
contributed 361 report titles to the database. This project will be 
continued for the 111th Congress.
    Working in cooperation with the Senate Historical Office and the 
Curator's office, Library staff digitized 221 Senate seating charts to 
enhance historical information about the Senate chamber on Senate.gov, 
the Senate's public Web site.
    Library staff worked with LIS staff to test modifications to the 
data management system (DMS) for the entry of multi-part hearing 
numbers. The update was intended to standardize the treatment of part 
numbers and to provide better automated URL link matching.
    In 2008, Library staff made significant contributions to the 
celebration planned for the Russell Building Centennial in 2009. Work 
has been completed in logo design and bookmark design, and significant 
progress has been made on the Library's four display cases. 
Informational displays are planned to highlight the Caucus Room, the 
Russell building's architectural features, a historical chronology of 
events that have taken place in the building, and a look back at office 
life in the oldest Senate Office Building. There was also a special 
issue of Unum to celebrate the Russell Building's centennial.
    On a weekly basis, hearing URL data from the Library catalog is 
exported in order to provide LIS and Thomas with full-text links to 
Senate hearings for the 110th Congress. The Senate Library contributed 
428 new Senate hearing links to the LIS database during 2008.
    The Library's head of Technical Services worked with Joint 
Committee on Taxation staff on a small pilot project to supply 
bibliographic records for a set of committee documents submitted for 
scanning at the Federal Scanning Center at the Library of Congress. The 
scanning center will extract the data needed to enhance retrieval of 
the scanned documents on its public digital archive site.

Major Library Goals for 2009
    Completing the Library's contribution to Webster other than 
maintenance contributions; enlarging the data store and bringing the 
Senators' biography portion of the Senate knowledge base to a wider 
Senate audience; and upgrading the Senate Library Webster page.
    Assuming co-direction of the Senate Information Services Program in 
preparation for transition to full direction at the end of 2010.
    Developing online courses and research and reference guides for 
Senators' state office staff.
    Offering a program of in-house training courses for library staff.
    Outreach to all new senators and their staffs in 2009.

                                                   SENATE LIBRARY ACQUISITIONS FOR CALENDAR YEAR 2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         25         51        150         68        298         18         62        304        951
February.............................................         10         57        217         33        375         14         89        420      1,205
March................................................         29         84        197         77        289         11        102        309      1,069
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         64        192        564        178        962         43        253      1,033      3,225
                                                      ==================================================================================================
April................................................         27         56        199         62        306         13         79        322      1,037
May..................................................         16         56        158         74        267         15         68        391      1,029
June.................................................         36         99        141         58        280         12         56        370      1,016
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         79        211        498        194        853         40        203      1,083      3,082
                                                      ==================================================================================================
July.................................................         17         50        168         89        309         12         66        337      1,031
August...............................................         22         56        178         69        287         11         82        367      1,050
September............................................        101         66        116         11        286          4         85        265        833
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        140        172        462        169        882         27        233        969      2,914
                                                      ==================================================================================================
October..............................................         21         91        161         93        433          7         53        336      1,174
November.............................................         23        115        128         99        263          3         41         83        732
December.............................................          4        120        387         64        238          9         46        141      1,005
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         48        326        676        256        934         19        140        560      2,911
                                                      ==================================================================================================
2008 Total...........................................        331        901      2,200        797      3,631        129        829      3,645     12,132
2007 Total...........................................        306        822      2,734      1,433      9,396        576        967      3,797     19,725
                                                      ==================================================================================================
Percent Change.......................................      +8.17      +9.61     -19.53     -44.38     -61.36     -77.60     -14.27      -4.00     -38.49
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Bibliographic Records Cataloged
                                    S.               -----------------------------------------------------------------------------------------
                                 Hearing     Report           Books               Government Documents           Congressional Publications      Total
                                 Numbers     Titles  -----------------------------------------------------------------------------------------  Records
                                 Added to   Added to                                                                                  Docs./   Cataloged
                                   LIS        LIS       Paper     Audio/E-    Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                   Books                                                             Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.......................         30  .........         20  .........          7          1          14        439          1         10        492
February......................         79  .........         30          3         16  .........          24        489  .........          7        569
March.........................         30  .........         26  .........         20          6          15        405          2         11        485
                               -------------------------------------------------------------------------------------------------------------------------
      1st Quarter.............        139  .........         76          3         43          7          53      1,333          3         28      1,546
                               =========================================================================================================================
April.........................          3  .........         97          2         29  .........          17        666          4          2        817
May...........................          3  .........         26  .........         16  .........           9        611         12         16        690
June..........................         43  .........         22          1          2  .........          19        488         14          8        554
                               -------------------------------------------------------------------------------------------------------------------------
      2nd Quarter.............         49  .........        145          3         47  .........          45      1,765         30         26      2,061
                               =========================================================================================================================
July..........................          9         57         20          1          8  .........          24        677          7          8        745
August........................         15         84         34         18         13  .........          20        468          4          8        565
September.....................         22         79         31         11         16          2           7        604          4         44        719
                               -------------------------------------------------------------------------------------------------------------------------
      3rd Quarter.............         46        220         85         30         37          2          51      1,749         15         60      2,029
                               =========================================================================================================================
October.......................         12        119         48         26          4          3          24        497          2         40        644
November......................          5  .........        123          1         15          2           9        464          5  .........        619
December......................         20         22        114          1          9  .........          32        524          1         16        697
                               -------------------------------------------------------------------------------------------------------------------------
      4th Quarter.............         37        141        285         28         28          5          65      1,485          8         56      1,960
                               =========================================================================================================================
2008 Total....................        271        361        591         64        155         14         214      6,332         56        170      7,596
2007 Total....................        687  .........        451  .........         84         57         267      5,580         74        136      6,649
                               =========================================================================================================================
Percent Change................     -60.55  .........     +31.04  .........     +84.52     -75.44      -19.85     +13.48     -24.32     +25.00     +14.24
--------------------------------------------------------------------------------------------------------------------------------------------------------


                             SENATE LIBRARY DOCUMENT DELIVERY FOR CALENDAR YEAR 2008
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         167         289          22           256         5,969
February.......................................         333         335          31           810         7,209
March..........................................         378         371          32           246         7,665
                                                ----------------------------------------------------------------
      1st Quarter..............................         878         995          85         1,312        20,843
                                                ================================================================
April..........................................         518         445          24           417         5,873
May............................................         309         260          27           315         8,048
June...........................................         303         291          27            49         8,362
                                                ----------------------------------------------------------------
      2nd Quarter..............................       1,130         996          78           781        22,283
                                                ================================================================
July...........................................         308         294          30           301        22,415
August.........................................         322         208  ..........            58         5,900
September......................................         466         175           9           117         9,517
                                                ----------------------------------------------------------------
      3rd Quarter..............................       1,096         677          39           476        37,832
                                                ================================================================
October........................................         463         260          18           610         9,941
November.......................................         411         232          21           130         4,667
December.......................................         359         245          17           204         4,700
                                                ----------------------------------------------------------------
      4th Quarter..............................       1,233         737          56           944        19,308
                                                ================================================================
2008 Total.....................................       4,337       3,405         258         3,513       100,266
2007 Total.....................................       2,547       3,319         416         2,926       101,533
                                                ================================================================
Percent Change.................................      +70.28       +2.59      -37.98        +20.06         -1.25
----------------------------------------------------------------------------------------------------------------

                              PAGE SCHOOL

    The United States Senate Page School provides students with an 
academically and experientially sound program, within the limits of the 
constraints imposed by their work for the Senate, during their stay in 
the nation's capital. The Page School also strives to provide a smooth 
transition from and to the students' home schools,

Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues through April, 2013.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 6, 2008, and January 23, 
2009, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2008 and Fall 2008 
pages were successfully completed. The semester schedules were 
determined by the needs of incoming students.
    Each semester, faculty administered an English Usage pre- and post-
test to students and reviewed the results to determine what usage 
instruction or remediation was needed.
    Faculty and staff provided extended educational experiences to 
pages, including twenty-four field trips, seven guest speakers, 
opportunities to play musical instruments and vocalize, and foreign 
language study with the aid of tutors. As an extension of the page 
experience, eight field trips to educational sites were provided for 
summer pages. National tests were administered for qualification in 
scholarship programs as well.
    The community service project embraced by pages and staff in 2002 
continues. Students, staff and faculty collected items for gift 
packages, which were assembled and shipped to military personnel in 
Afghanistan and Iraq. Pages included letters of support for the troops.
    Historical Power Point Presentations from Colonization to Present 
was purchased for use in U.S. History classes.
    The evacuation and COOP plans have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    Staff and pages participated in escape hood training, and staff 
continues certification in CPR/AED procedures.
    In May 2008, 16 Senate pages took Advanced Placement tests in 7 
subjects. There were 27 pages in the Spring 2008 page class.

Summary of Plans
    Goals include:
  --Teachers will continue to offer individualized small group 
        instruction and tutoring on an as-needed basis.
  --Foreign language tutors will provide assistance to students.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --An English Usage pre- and post-test will be administered to 
        students each semester to assist faculty in determining needs 
        of students for usage instruction.
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.
  --The community service project will continue.

                     PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, Chapter 7 (Congressional Printing and Binding) of the 
U.S. Code as it relates to Senate documents, hearings, committee prints 
and other official publications. The office assists the Senate by 
coordinating, scheduling, delivering and preparing Senate legislation, 
hearings, documents, committee prints and miscellaneous publications 
for printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.

Printing Services
    During fiscal year 2008, OPDS prepared 3,970 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Because the requisitioning 
done by OPDS is central to the Senate's printing, the office is 
uniquely suited to perform invoice and bid-reviewing responsibilities 
for Senate printing. As a result of this office's cost accounting 
duties, OPDS is able to review and ensure accurate GPO invoicing, as 
well as play an active role in helping to provide the best possible 
bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products. The Printing Services Section also 
monitors blank paper and stationery quotas for each Senate office and 
committee. OPDS coordinates a number of publications for other Senate 
offices, such as the Curator, Historian, Disbursing, Legislative Clerk, 
and Senate Library, as well as the U.S. Botanic Garden, U.S. Capitol 
Police, Architect of the Capitol, and the U.S. Capitol Visitor Center. 
These tasks include providing guidance for design, paper selection, 
print specifications, monitoring print quality and distribution. Last 
year's major printing projects included:
  --Semi-Annual Report of the Secretary of the Senate
  --Tributes to Retiring Senators
  --U.S. Senate Leadership Portrait Collection brochure
  --U.S. Senate Foreign Relations Committee brochure
  --U.S. Senate Appropriations Committee brochure
  --U.S. Senate Republican Leader's and Democratic Leader's Suite 
        brochures
  --Senate Chamber 150th Anniversary brochure
  --Russell Building Centennial and building furniture brochures
  --Senate Sergeant at Arms and Doorkeeper brochures
  --Capitol Visitor Center tour tickets and informational brochures
  --2009 Inaugural Ceremony materials
            Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services, 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides improved billing accuracy and greater 
information gathering capacity, adhering to the guidelines established 
by the Senate Committee on Rules and Administration for commercial 
reporting companies to bill the Senate for transcription services. 
During 2008, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 855 billing verifications of 
Senate hearings and business meetings. Over 63,000 transcribed pages 
were processed at a total billing cost of $408,467.
    The software program used to process the hearing verifications 
required by the Senate Disbursing Office to pay vendors for 
transcription services was completely updated in 2008. OPDS worked with 
the Senate Committee on Rules and Administration to draft updated 
regulations governing the production and reimbursement of transcripts 
in order to provide greater flexibility to the particular needs of 
different committees. In addition, input was solicited from vendors and 
committee clerks to ensure consideration of current transcription 
practices and costs. The new software program has been fully tested by 
all current Senate transcription vendors and is now fully implemented.
    The office continued to process all file transfers and billing 
verifications among committees and report companies electronically, 
which ensures efficiency and accuracy. Department staff continues to 
train in today's expanding digital technology in order to improve 
performance and services.
            Secretary of the Senate Service Center
    The Service Center is staffed by experienced GPO detailees who 
provide Senate committees and the Secretary of the Senate's office with 
complete publishing services for hearings, committee prints, and the 
Congressional Record. These services include keyboarding, proofreading, 
scanning, and composition. This allows committees to decrease or 
eliminate additional overtime costs associated with the preparation of 
hearings, thus improving the management of Congressional Printing and 
Binding Appropriation funds. Additionally, the Service Center provides 
work for GPO detailees assigned to legislative offices during Senate 
recesses.

Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record is one of the many printed documents provided by 
the office on a daily basis. Additionally, the office processed and 
distributed 7,450 distinct legislative items during the second session 
of the 110th Congress, including Senate and House bills, resolutions, 
committee and conference reports, executive documents, and public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. An improved database allows the 
office to report the receipt of all legislative bills and resolutions 
received in the Senate. These bills and resolutions are then made 
available on Web sites such as the Legislative Information System (LIS) 
and Thomas, which are used by Congressional staff and the public.
            Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate. During 2008, more than 15,000 requests for legislative material 
were received at the walk-in counter, through the mail, by fax, and 
electronically. Online ordering of legislative documents and the 
Legislative Hot List Link, where Members and staff can confirm arrival 
of printed copies of the most sought-after legislative documents, 
continued to be popular. The site is updated several times daily as new 
documents arrive to the Document Room from GPO. In addition, the office 
handled thousands of phone calls pertaining to the Senate's official 
printing, document requests and legislative questions. Recorded 
messages, fax, and e-mail operate around the clock and are processed as 
they are received, as are mail requests. The office stresses prompt and 
courteous customer service while providing accurate answers to Senate 
and public requests.
            On-Demand Publication
    The office supplements depleted legislation where needed by 
producing additional copies in the DocuTech Service Center. The 
DocuTech is staffed by experienced GPO detailees who provide Member 
offices and Senate committees with on-demand printing and binding of 
bills and reports. On-demand publication allows the department to cut 
the quantities of documents printed directly from GPO, thereby reducing 
waste. The DocuTech is networked with GPO, allowing print files to be 
sent back and forth electronically. This allows OPDS to print necessary 
legislation for the Senate floor and other offices in the event of a 
GPO continuity of operations (COOP) situation.
            Accomplishments and Future Goals
    Over the past year, OPDS has continued to provide new services for 
customers and improve existing ones. The office is committed to help 
``green'' the Senate. The office has made improved quality 100 percent 
recycled copier and letterhead paper available to all Senate offices, 
and orders for those products have increased tenfold over the previous 
year. The office works diligently to track document requirements by 
monitoring print quantities and reducing waste and associated costs. 
The office continues to use the electronic proofing procedures that 
were implemented in 2006; over four hundred new and revised print jobs 
were routed electronically for customer approval, improving turnaround 
time and efficiency. Additionally, blank paper orders, now transmitted 
electronically to GPO as they are processed, save time and move toward 
the office's goal of paperless ordering.
    The office's future goals include working with GPO to improve 
efficiency and help answer the evolving needs of the Senate, as well as 
developing online ordering of all stationery products for Senate 
offices. The office will continue to focus on COOP and its emergency 
preparedness. OPDS staff continue to seek new ways to use technology to 
assist Members and staff by adding services and improving access to 
information.

                             PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995, as amended; the Senate Code of 
Official Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2007 through September 2008, the Public 
Records office staff assisted more than 2,300 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone, nor help given to lobbyists 
attempting to comply with the provisions of the Lobbying Disclosure Act 
of 1995. A total of 125,160 photocopies were sold in the period. In 
addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics, and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
            Fiscal Year 2008 Accomplishments
    The office implemented major parts of S. 1, the Honest Leadership 
and Open Government Act (HLOGA), which amended the Lobbying Disclosure 
Act of 1995 and the Senate Code of Conduct. The work entailed updating 
the written guidance for the lobbying community and posting two 
versions of four new public databases.
            Plans for Fiscal Year 2009
    The Public Records office is working with the staff of the Clerk of 
the House of Representatives on updating the Lobbying Disclosure Act 
(as amended) guidance as needed, and is concentrating on compliance 
issues that have arisen as a result of HLOGA.
            Automation Activities
    During fiscal year 2008, the Senate Office of Public Records worked 
with the Sergeant at Arms to design a new lobbying database, new public 
query programs for Senate.gov, and a new page design for Senate.gov.
            Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly and pre- and 
post-election reports. Filings totaled 4,232 documents containing 
253,527 pages.
            Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2008, there were 5,073 registrants 
representing 19,799 clients. The total number of individual lobbyists 
disclosed on 2008 registrations and reports was 14,247. The total 
number of lobbying registrations and reports processed was 89,738.
            Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2008. The reports were made available to the public and press by 
Friday, June 13, 2008. Public Records staff provided copies to the 
Select Committee on Ethics and the appropriate state officials. A total 
of 3,885 reports and amendments were filed containing 23,321 pages. 
There were 383 requests to review or receive copies of the documents.
            Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received 301 reports during 
fiscal year 2008.
            Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 625.

                            STATIONERY ROOM

    The mission of the Keeper of Stationery is to:
  --Sell stationery items for use by Senate offices and other 
        authorized legislative organizations;
  --Select a variety of stationery items to meet the needs of the 
        Senate community on a day-to-day basis and maintain a 
        sufficient inventory of these items;
  --Purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules;
  --Maintain product supply and order capability during Continuity of 
        Operation incidents;
  --Maintain individual official stationery expense accounts for 
        Senators, Committees and Officers of the Senate;
  --Render monthly expense statements;
  --Ensure receipt of reimbursements for all purchases by the client 
        base through direct payments or through the certification 
        process;
  --Make payments to all vendors of record for supplies and services in 
        a timely manner and certify receipt of all supplies and 
        services; and
  --Provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2008            2007
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $4,547,290      $5,456,125
Sales Transactions......................          41,704          45,608
Purchase Orders Issued..................           6,224           7,356
Vouchers Processed......................           6,832           8,078
Office Deliveries.......................           6,985           7,305
Number of Items Delivered...............         160,538         153,813
Number of Items Sold....................         503,238         587,529
Cartons Received at SSF.................          19,637          31,678
Mass Transit Media Sold.................          70,766          91,569
    $20.00..............................          54,905          75,922
    $10.00..............................           8,781           6,955
    $5.00...............................           7,080           8,692
Public Transportation Users.............           2,006           1,763
------------------------------------------------------------------------

Fiscal Year 2008 Highlights and Projects
            Computer Modernization Upgrades
    The Stationery Room began fiscal year 2008 preparing for major 
application upgrades to its Microsoft Business Dynamics Retail 
Management System and Great Plains accounting application software. 
These upgrades involved the installation and configuration of new 
workstations and server hardware, along with upgrades to the Microsoft 
Sequel database engine. Project and implementation planning were 
paramount in making this process smooth and transparent. The upgrade 
process began in mid-July and concluded on October 23, 2008 after 
successful system acceptance and testing.
            Recycling Initiatives
    The Stationery Room continues to monitor the marketplace for office 
products that are suitable, sustainable and environmentally friendly in 
order to promote recycling programs. In conjunction with the Senate 
Superintendent, the Stationery Room launched a battery recycling 
program approximately 2 years ago. Since that time, approximately 70 
gallons of battery product have been captured and recycled through the 
Superintendent's recycling sources.
    The Stationery Room also continues to promote the Senate 
Superintendent's recycling program for safe disposition of printer, fax 
and copier cartridges. This effort was initiated to eliminate the 
disposal of these materials in landfills. Users are encouraged to drop 
these materials off at the Superintendent's drop-off site in the 
Dirksen Building.

Senate Support Facility (SSF)
    The facility continues to be a major asset for Stationery Room 
operations. During fiscal year 2008, the Senate Sergeant at Arms 
Central Operations Division transported 19,637 cartons of product from 
the U.S. Capitol Police screening facility to the SSF for processing 
and distribution to the Senate campus. This process has virtually 
eliminated most commercial vehicular traffic coming to the Senate 
campus in support of Stationery Room operations. The Senate Sergeant at 
Arms' (SAA) Central Operations Division is to be commended for the 
support and ``team effort'' they provide to the Stationery Room 
operation in meeting its responsibilities to the Senate community.
            Public Transit Subsidy Program
    As reported last fiscal year, the Washington Metropolitan Transit 
Authority (WMATA) announced that they would be discontinuing the 
Metrochek paper media at the end of 2008 and transitioning agencies to 
the SmartBenefit SmarTrip Card. In order to facilitate this process, 
the Stationery Room, in coordination with WMATA and the Senate 
Committee on Rules and Administration, held four workshops to 
demonstrate self-program management tools in order for participating 
offices of the Public Transportation Subsidy Program to continue 
offering the subsidy in an accountable electronic format.

                             WEB TECHNOLOGY

    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        covering functions of the office, available to the Senate 
        Staff;
  --the central portion of Senate intranet (Webster.senate.gov)--
        available to the Senate Staff; and
  --the Senate Legislative Branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, Library of 
        Congress, Architect of the Capitol, Government Accountability 
        Office, Government Printing Office, Congressional Budget 
        Office, and U.S. Capitol Police.

The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Senate Web site content is maintained by over 30 contributors 
from seven departments of the Secretary's office and three departments 
of the Sergeant at Arms (SAA). Content team leaders meet regularly to 
share ideas and coordinate the posting of new content. All content is 
controlled through the Secretary's Web Content Management System (CMS), 
which is managed by the Department of Web Technology.

Major Additions to the Site in 2008
    United States Senate Expulsion and Censure Cases (http://
www.senate.gov/artandhistory/history/common/briefing/
Expulsion_Censure.htm);
    Senators Who Changed Parties During Senate Service (Since 1890) 
(http://www.senate.gov/artandhistory/history/common/briefing/
senators_changed_parties.htm);
    History of the Senate Chamber (http://www.senate.gov/pagelayout/
history/h_multi_sections_and_teasers/Senate_Chamber.htm);
    Senators Representing Third or Minor Parties (http://
www.senate.gov/artandhistory/history/common/briefing/
senators_thirdParties.htm);
    Votes to Break Ties in the Senate (http://www.senate.gov/
pagelayout/reference/four_column_table/Tie_Votes.htm);
    16 Historical Minute Essays added (http://www.senate.gov/
pagelayout/history/b_three_sections_with_teasers/essays.htm);
    4 Oral History Interviews (http://www.senate.gov/pagelayout/
history/g_three_sections_with_teasers/oralhistory.htm);
    Breaking New Ground--African American Senators (http://
www.senate.gov/pagelayout/history/h_multi_sections_and_teasers/
Photo_Exhibit_African_American_Senators.htm);
    Senator Dole's and Senator Daschle's leadership portrait 
unveilings;
    13 new Virtual Index Pages; (http://www.senate.gov/pagelayout/
reference/b_three_sections_with_teasers/virtual.htm);
    10 Bibliographies available internally and externally; (http://
www.senate.gov/pagelayout/reference/a_three_sections_with_teasers/
biblio.htm);
    XML data of popularly requested information (Senators' contact 
information and committee assignments); and
    Public Disclosure Online Tutorials (http://www.senate.gov/
legislative/Public_Disclosure/Training.htm).
            Homepage Feature Articles Published
    What is All this Talk About Sessions;
    A U.S. Senate Tradition: Washington's Farewell Address;
    Recording the Senate's Debates: The Congressional Record;
    Historical Minutes: Stories about Senate History;
    Classic Senate Speeches: Great Orators of the Senate's Past;
    ``We the People'' Celebrating the Constitution;
    The Senate's President Pro Tempore; and
    The Senate Chamber: 1859-2009.
Secretary's Web site--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The department launched a new intranet Web site (http://
webster.senate.gov/secretary) covering the office of the Secretary. 
This replaced the previous site, which had existed for over a decade. 
The new site uses the CMS to maintain all content that exists on the 
site and is now in XML. The new design implements a universal banner on 
all Webster pages. For the first time, each of the Secretary's 26 
departments has a presence on the site and supplied input to meet 
specific office needs. In the next year, maintenance of the individual 
pages will be transferred to the distinct departments, as desired, 
leveraging the CMS.
Webster Central Web site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In conjunction with the SAA, Chaplain, and the Senate Committee on 
Rules and Administration, the Secretary, through the Web Technology 
Department, completed a 2-year effort to publish a new Senate Intranet, 
Webster.senate.gov (Webster). As these organizations represent the 
stakeholders that manage Webster, they enacted a formal management 
strategy, the Webster Administrative Group (WAG), to develop a mission 
statement, determine operating guidelines and enlist feedback from 
Senate staff for the site.
    Collectively, the WAG established components desired by Senate 
staff and developed solutions to deliver the information in an 
efficient and timely matter. Throughout its development, the WAG 
continually involved Senate staff in the process through exhaustive 
user testing and surveys. The newly added components are:
  --Floor Schedule.--The data for this section is derived from several 
        other files already used to populate the public Web site, 
        Senate.gov, and the Capitol Visitor Center museum kiosks. The 
        data is updated both automatically from the Secretary's Content 
        Management System (CMS), through integration with the 
        Legislative Information System, and manually by Senate 
        librarians.
  --Events.--A calendar display of activities of interest to staff that 
        occur around the Capitol Hill Complex, such as Committee 
        Hearings, training classes, and special Senate activities. 
        Senate staff can now easily add and edit information to display 
        on the calendar.
  --Announcements.--Revamped this component from the old site so that 
        designated staff from the four stakeholders may easily create 
        their own announcements and manage its display.
  --Did You Know.--A rotating section that allows all stakeholders to 
        advertise services that may be of special interest.
  --Image of the Week.--Each week a piece of artwork or a photograph 
        from either the Curator's office or the Historical office is 
        highlighted. This content is managed through the CMS and reuses 
        graphics and data posted on Senate.gov.
  --Tabs.--Assisted the Senate Library in the creation, delivery, and 
        maintenance of five advanced indices organizing Senate related 
        information: Services, Leadership, Legislative, News & 
        Research, and About the Senate. The tabs are populated through 
        XML feeds from the Montague Knowledge Base which catalogs 
        relevant pages by establishing relationships to terms through a 
        taxonomy and integrated through the CMS.
  --Search.--Established, built, and maintained a virtual server to 
        implement the advanced features of the Google Search Appliance, 
        Onebox. The new search uses information supplied from the 
        Senate Library's knowledge base to assist users in quickly 
        finding their desired information through the established 
        taxonomy. The search is now implemented site-wide and is a vast 
        improvement over the previous search. The now-established 
        architecture may be expanded for additional advanced 
        functionality.
  --Common Header.--Established and implemented a consistent header to 
        be used across all Webster.senate.gov pages, regardless of 
        stakeholder, to ensure that the focus is service-based instead 
        of department-based.

Senate Legislative Branch Web site (Legbranch.senate.gov)
    A new Legbranch server was installed, replacing obsolete hardware. 
The Department of Web Technology worked in conjunction with the SAA to 
ensure all preexisting content was transported and functional on the 
new system. Web Technology also built and maintained a simple internal 
Web site for a Capitol Hill e-mail messaging working group. In the 
upcoming year, the server will be used to share more information with 
other Capitol Hill entities.

Accomplishments of the Office of Web Technology in 2008
    Led online Congressional Research Service (CRS) publication 
project, fulfilling a request of the Senate Committee on Rules and 
Administration to enable offices to easily publish CRS reports online 
and ensure that the reports posted are always the most current version. 
Completed the project through collaboration with CRS, the Committee on 
Rules and Administration, and Senate SAA. The CRS Publishing 
application (http://webster.senate.gov/crsapplication) is now available 
to all Senate offices and is being utilized.
    Created virtualized development server for the Secretary's intranet 
in conjunction with integration into the CMS. The processes for 
controlling content for the Secretary's intranet now mimic that of 
Senate.gov, facilitating the content authors with procedures in which 
they are well versed and increasing their ability to train others. 
Created, populated, and launched a new Secretary Intranet site in 
conjunction with all 26 departments and the Webster Administrative 
Group based on the new back-end architecture.
    Vastly expanded the functionality of the Google Search Applicance 
used for internal searching on Webster.senate.gov through taking 
advantage of Google's Onebox technology. Worked with the SAA to set up 
a virtual server to run a Onebox application used on the new Webster 
search, which can be easily expanded to incorporate more complex search 
requests. The search is now integrated with portions of the taxonomy 
maintained in the Senate Library's knowledge base.
    Worked with the Curator's Office and the Government Printing Office 
in the design of three custom sites: the Henry Clay portrait unveiling, 
Senate myths, and the Russell Senate Office Building Centennial.
    Audited the Senate.gov Web pages regularly, updating and correcting 
links; verifying content; and reviewing individual page designs 
throughout Senate.gov.
    Worked with the Curator's office to reorganize their content within 
the Art and History bucket. Instituted new information architecture for 
the artifact pages, making editing much more efficient. Designed new 
layout concepts for the Curator's office areas of focus. Built subject-
based collection lists, initially organizing art objects by sitters, 
which will be expanded for other subject areas, all drawn from the 
Curator's maintained object database.
    Constantly monitored data feeds from the LIS/DMS system, ensuring 
content on Senate.gov was current and all processes were functioning 
properly. This is of vital importance regarding information such as 
committee hearing schedules, vote data, and member contact information.
    Worked with new Senate Offices to establish and maintain temporary 
web pages, including a picture, biographical, and contact information, 
until they are able to establish permanent Web sites.
    Conducted user testing with Senate Staff and interns to increase 
understanding of current Web site desires and best practices. User 
testing was conducted for the Curator's Senate Myths exhibit, the newly 
launched Webster Central, and the Legislative reorganization of 
Senate.gov.
    Incorporated the use of handles established by the Library of 
Congress for legislation, ensuring functional links to pieces of 
legislation regardless of changes to other systems. Handles are now 
used on the many different statistical tables maintained by the Senate 
Library, and reflect information on currently active legislation, 
cloture motions, nominations, and vetoes. Also, summary tables were 
created for the various data sets to further ensure the accuracy and 
usability of data reported.
    Created a secure custom Web site for the Senate Chief Counsel for 
Employment (SCCE) along with a separate and secure search. Also 
reviewed current security practices and options with the SAA and 
validated the current methodology for SCCE's Web site is most apt.
    Established a new system for the Senate Placement Office to post 
employment offerings online. Collaborated with the Sergeant of Arms in 
the development of a web-based application that integrates with the CMS 
and a newly created display of job postings via XML. Having the data in 
XML will allow for the integration of all job postings from the 
Secretary's Office and the SAA into one comprehensive list which may be 
sorted.
    Worked with the Office of Public Records, Secretary's Counsel, and 
the SAA to maintain and enhance newly established reporting 
requirements relating to public disclosure on Senate.gov. Also, 
collaborated with staff from the House of Representatives and the 
Senate Recording Studio to set up streaming tutorial videos in various 
formats ensuring accessibility.
    Incorporated various LIS/DMS streams to produce XML data requested 
by the Capitol Visitor Center to populate kiosks displaying member 
information. Worked with the Legislative Clerk and staff to ensure the 
correctness of this data. Worked with LIS/DMS group to transition to 
committee hearings being reported in XML and shared with the Capitol 
Visitors Center. Additionally, floor Schedule information is now 
maintained by the Senate Library in XML in order to facilitate needs of 
the Capitol Visitor Center and Webster Central.
    Established a back-up server for the CMS at the Alternate Computer 
Facility (ACF) with the SAA, vastly improving continuity of operations 
planning (COOP). The newly built server is an exact replica of the 
production system and has been thoroughly tested to serve as a real 
time replacement should the production server become inoperable.
    Participated and helped organize Capitol Hill-wide webmaster 
meetings, where best practices were shared among various entities. 
Regularly gave presentations and facilitated conversations during 
meetings.
    Worked extensively with the Senate Library in the development and 
implementation of taxonomies utilizing the Montague Knowledge Base 
system. Currently, the knowledge base is used to populate the tabs on 
the front page of Webster, allowing staff to easily find appropriate 
services and resources, regardless of the provider. Aided in data 
capturing and reporting of senator data through the knowledge base.

Senate.gov Usage Statistics
    In 2008, over 275,000 visitors per day, on average, accessed the 
Senate Web site. Twenty-one percent of them entered through the main 
Senate homepage of the central site (http://www.senate.gov) while the 
majority came to the site through a bookmarked page (possibly directly 
from their Senator's site) or to a specific page from search results, 
consistent with previous years.

----------------------------------------------------------------------------------------------------------------
                                                                                                     2007-2008
                        Title of Web Page                          2007 Visits/    2008 Visits/       Percent
                                                                       Month           Month         Increase
----------------------------------------------------------------------------------------------------------------
Visits--Entire Site.............................................       8,196,662       8,521,779               4
Senate.gov......................................................       1,704,675       1,704,697  ..............
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2008
----------------------------------------------------------------------------------------------------------------
                                                                   2007 Visits/    2008 Visits/
                            Top Pages                                  Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Senators Contact Information List...............................         448,301         546,847             +21
Roll Call Votes.................................................         242,122         182,691             -25
Committees......................................................          91,451          78,810             -14
Legislation & Records...........................................          63,544          64,010              +1
Votes Home......................................................          62,578          58,277              -7
Active Legislation..............................................          36,730          37,860              +3
Senate Leadership...............................................          18,104          19,981             +10
Committee Hearings Scheduled....................................          18,232          16,668              -8
----------------------------------------------------------------------------------------------------------------

    By a huge margin, the most popular page on Senate.gov is the list 
of Senators with links to their Web sites and comment forms. Visitors 
also continue to be interested in legislative matters, with Roll Call 
Vote Tallies, the Active Legislation table, Committee assignments and 
schedules being particularly popular. The visits per month did decrease 
across some of the most visited pages on the site. The decrease is most 
likely attributed to the information on the pages being consumed by 
other Web sites and then being redisplayed. Additionally, some of the 
most sought information was offered in XML for the first time in 2008, 
making the consumption and dissemination faster and easier. Thus, 
although the actual visits to Senate.gov decreased on some pages, it is 
likely that more people actually utilized the information being 
provided.
                                 ______
                                 
   Prepared Statement of Christopher J. Doby, Financial Clerk of the 
                                 Senate

    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2010.
    Mr. Chairman, the fiscal year 2010 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
fiscal year 2010. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$1,015,431,000 which reflect an increase of $114,975,000 or 12.77 
percent over the amount appropriated for fiscal year 2009 and does not 
reflect any adjustments to these estimates which may be presented to 
your Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2009 are $900,456,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2010 are divided into three 
major categories as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Senate Items............................................    $194,995,000
Senate Contingent Expense Items.........................     814,245,000
Senate Joint Items......................................       6,191,000
                                                         ---------------
      TOTAL.............................................   1,015,431,000
------------------------------------------------------------------------

    Specifically, Mr. Chairman, the fiscal year 2010 budget estimates 
reflect increases over the fiscal year 2009 enacted levels as a result 
of: (1) the anticipated 4.0 percent cost-of-living adjustment including 
locality pay for fiscal year 2010, and the annualization costs of the 
fiscal year 2009 4.78 percent cost-of-living adjustment; (2) the 
cumulative under funding of previous fiscal years in the Senators' 
Official Personnel and Office Expense Account due mainly to increases 
in population categories of various states and increases in the 
Administrative and Clerical Assistance Allowance authorized by the 
Legislative Branch Appropriations Acts 1999, 2000, 2002, 2003, 2004, 
2005, 2006, 2007, 2008 and 2009; (3) personnel adjustments, other than 
the cost-of-living; (4) increases in agency contributions applicable to 
the cost-of-living adjustments and other personnel increase requests; 
and (5) other miscellaneous and administrative expense increases.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2010.

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRY GAINER, SERGEANT AT ARMS
ACCOMPANIED BY DREW WILLISON, DEPUTY SERGEANT AT ARMS

    Senator Nelson. Terry.
    Mr. Gainer. Thank you, chairman and ranking member and 
members of the subcommittee. I appreciate the opportunity to 
testify today.
    I have a brief statement about the progress that our office 
has made in our plans to enhance our contribution to the Senate 
in the coming year. I ask that my written statement be made 
part of the record.
    Senator Nelson. It shall be.
    Mr. Gainer. On behalf of our nearly 900 employees, I would 
like to take just a few moments to describe the breadth of 
services we provide to the Senate community. My deputy, Drew 
Willison, often describes our roles as that of city managers. I 
think he is correct.
    We provide most of the nonlegislative and nonpayroll, back-
of-the-house services that are required to keep the Senate 
running smoothly every day. From BlackBerries and cell phones 
to parking and haircuts and ID badges and the pages, the 
Sergeant at Arms organization cuts a pretty broad path.
    My written testimony covers many of the specifics in great 
detail. I would like to provide some context very quickly here.
    Kim Winn, our chief information officer, runs our largest 
organization. All our phones, BlackBerries, computer servers, 
firewalls, and other activities related to the Senate network 
infrastructure are handled through Kim's shop.
    Esther Gordon runs central operations. Our Capitol 
facilities unit is charged with cleaning and maintaining the 
Senate wing of the Capitol, and I think it is spotless. She 
also oversees the printing, graphics, and direct mail shop that 
handles everything from your constituent newsletter to the 
posters you use during debates on the floor.
    Our customer service staff that your office managers rely 
on every day work within Esther's organization, as do the folks 
who handle your State office leases. Esther also oversees one 
of the finest cabinet shops in the country. Your Senate chair 
was handmade by these craftsmen, and the maintenance of all the 
desks and furniture on the floor are under their watchful eyes 
and hands. All the Senate surface parking lots are also run by 
Esther's team, as is the Senate hair care facility.
    Rick Edwards runs our Capitol operations organization. His 
shop includes the doorkeepers office, the Senate post office, 
the recording studio, the media galleries, and the Senate 
appointments desk. The doorkeepers not only assist with keeping 
order on the floor, they also assist the thousands of visitors 
to the galleries each year.
    The recording studio produces our floor feed, provides live 
coverage of nearly all the Senate committee and subcommittee 
hearings, and assists all 100 Members in sending your messages 
home.
    The appointments desks in the Capitol, Russell, and the CVC 
ensure that official visitors to the Capitol get where they 
need to be quickly and efficiently. The post office delivers 
millions of pieces of mail the Senate receives each year, 
screened and safe.
    The police operations, security, and emergency preparedness 
organization is under the command of Mike Heidingsfield. Mike's 
team is charged with working with the United States Capitol 
Police and others to ensure our evacuation plans work, that we 
are able to shelter in place, if necessary, and able to 
communicate with Members and their staff here or anywhere else, 
regardless of conditions.
    Mike Heidingsfield's team has led a huge effort in recent 
years to make sure that the 450 State offices, your offices, 
for all the Members and your staff are as safe as possible. 
That team is responsible for the COOP operations--continuity of 
operations, continuity of Government, and enduring 
constitutional Government, the relationship between the other 
two branches.
    Peggy Greenberg runs our joint office of education and 
training, along with the Secretary of the Senate. Her team 
provides hundreds of in-person and remote classes per year. She 
facilitates retreats and oversees a number of health 
promotions. And she mentioned with some pride, Senator Tester, 
this past summer when she visited you in Montana, getting up on 
your tractor in order to accomplish her work.
    Elizabeth Roach is the director of the page program. And 
while the Secretary of the Senate is responsible for the page 
school, Elizabeth and her staff handle logistics of housing, 
meals, and taking care of them. And yes, keeping them out of 
the kind of trouble only 16 year olds can dream up.
    Christy Prietsch facilitates our Employee Assistance 
Program and does a fantastic job of meeting the needs of our 
large and varied community.
    Pat Murphy directs our human resource shop and ensures that 
the vast majority of our positions are competed, that annual 
written performance appraisals for all are completed on time, 
and that position descriptions are updated frequently to 
reflect changes to work required and work performed. He is also 
charged with ensuring that our merit-based salary system is 
fully implemented.
    And finally and most important, Chris Dey, our chief 
financial officer (CFO). He and his team are responsible for 
our budget and contracting systems. I have worked with many 
CFOs during my career, and Chris is, without a doubt, the best 
I have encountered at keeping our books straight, managing 
contracts, insisting on competitive awards, and offering solid 
policy advice.
    So there you have it, a rather quick Senate Sergeant at 
Arms 101. As we like to say, if all of us are having a good day 
and everything is going just right, you barely notice we are 
here. To the extent that happens, it is a tribute to the hard-
working men and women who serve this institution every day. 
They exceed the expected.
    Mr. Chairman, as you know, many Capitol Hill offices 
experience pretty high turnover. It is natural and has always 
been the case. A lot of young staff coming and going from 
graduate school, campaigns, and the administration. We are very 
different. Our average tenure for nonpatronage employees is 
well over 10 years. Retirements of 20, 30, and 40 years are not 
unusual.
    We work very hard to create a workplace where someone can 
come to find challenging work, promotional opportunities, and 
the ability to build a career. The sheer scope of what we do 
helps us to ensure that we are always--there are always 
opportunities available.
    Our budget for fiscal year 2010, we respectfully request a 
total budget of $243 million, representing an increase of just 
over $23 million, or 10.5 percent over fiscal year 2009. This 
request will allow more than mere maintenance, but leads to 
improvement in the level of service we provide to you and your 
staff and your community.
    The general operations and maintenance expense budget for 
the existing and new services is $91.7 million, which is an 
increase of $8.2 million, or 9.9 percent over 2009. Major 
factors contributing to the expense budget increase are 
equipment and software maintenance costs for enterprise 
storage, professional services, software purchase, and 
technical support for information technology (IT) security and 
smartcard badges for the ID office.
    One of our information technology priorities in fiscal year 
2010 is upgrading the Secretary's payroll system. We are 
requesting contract support at the cost of $2 million and 
upgrading our data network to keep up with the ever-increasing 
demands for network-based services at a cost of $4.7 million.
    We are also requesting $5 million for the Senate recording 
studio, to upgrade committee rooms, an activity we have 
undertaken for years with end-of-year funds. But this year, we 
are requesting it in our budget.
    Our budget submission requested five new FTEs. We need the 
particular job sets. However, after discussions with your staff 
and meeting with you, Mr. Chairman, on Tuesday, I withdraw the 
request for five FTEs and will work with your staff to further 
trim our headcount through the elimination of some vacancies 
and reclassification of vacant positions.
    As you know, the Sergeant at Arms serves on the Capitol 
Police Board, this year as chairman. As the chief law 
enforcement officer of the Senate, I work closely with Chief 
Morse and his valiant team. They do a great job. I am proud to 
have served with them.
    But in that agency, there is nearly a singular point of 
failure--radio communications. The funds necessary to leap to 
the 21st century are included in the supplemental, and I 
request your support of that need and recognize that there will 
be substantial discussions about it.
    With the exception of our police operations, security, and 
emergency preparedness created after 9/11, generally the scope 
of our office has not changed significantly since 2001. But the 
depth of the responsibilities has expanded materially, and our 
information technology budget has continued to increase as we 
try to keep up with the ever-changing ability of bigger, 
better, and faster technology.
    Today, unlike a few years ago, all printing equipment is 
digital, networked, and computer controlled, improving resource 
use. We went from computer servers in closets to virtual 
servers. As more processes can be automated and managed 
electronically, we have added those applications to our 
inventory, improving customer service, management of processes, 
and enabling new services to be offered in a cost-effective 
manner.
    Our efforts are closely tied to our strategic plan in which 
we have captured performance measures that help us assess our 
work--performance measures that can identify in the areas of 
customer satisfaction, timeliness of service, employee 
satisfaction, employee personal development, and competitive 
contracts. Plans are underway for assessing performance for 
these measures in the calendar year 2010.
    I have an outstanding senior management team led by Drew 
Willison, who serves as my deputy. The Office of the Sergeant 
at Arms works closely with other organizations in the support 
of the Senate. The Secretary of the Senate, Nancy; the 
Architect of the Capitol; the Office of the Attending 
Physician; and the United States Capitol Police are partners. 
We coordinate our efforts with the House of Representatives and 
the agency's executive branch where possible.
    Finally, let me say this. The employees of the Office of 
the Sergeant at Arms are among the most committed and creative 
in Government. They are quiet, effective, and dedicated to you 
and your staffs. They spend their working life careers with us.
    And I would just like to point out one special individual, 
Mr. Chairman, that you mentioned, and that is Steve Mosley. 
Early this morning, we were notified that Steve, a 32-year 
employee of the Senate Sergeant at Arms office, died of an 
apparent heart attack.
    He spent 32 years with us. He was a wonderful husband and a 
father. I talked to his wife, Michelle, this morning, and she 
was still in shock, and the hurt was very raw. She appreciated 
the comments and well wishing from our office. But Steve was a 
friend to everybody and known throughout the Capitol. He will 
be deeply missed.
    We joked that he was a diehard Redskins fan. I don't think 
any of our meals that we have and different holiday seasons 
will ever be the same without him. And he is truly 
representative of the type of employees that I have the 
opportunity to lead. And I just wanted to affirm what you said. 
He was a wonderful man and will be a terrible loss to the 
Senate community.

                           PREPARED STATEMENT

    Thank you. And I will be happy to answer questions when 
appropriate.
    Senator Nelson. Thank you.
    [The statement follows:]

         Prepared Statement of the Honorable Terrance W. Gainer

                              INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2010, the Sergeant at Arms respectfully requests a 
total budget of $243,505,000--an increase of $23,104,000 (or 10.5 
percent) over the fiscal year 2009 budget. This request will allow us 
to maintain and improve the level of service we provide to the Senate 
community. It will also fund the development and maintenance of 
business and network security applications, among other support 
services. Appendix A, accompanying this testimony, elaborates on the 
specific components of our fiscal year 2010 budget request.
    In developing this budget and our operating plans, we are guided by 
three priorities: (1) ensuring the United States Senate is as secure 
and prepared for an emergency as possible; (2) providing the Senate 
with outstanding service and support, including the enhanced use of 
technology; and (3) delivering exceptional customer service to the 
Senate.
    This year I am pleased to highlight some of this office's 
activities, to include the furtherance of our efforts towards our 
United States Senate Sergeant at Arms Strategic Plan, in which we have 
captured performance measures that help us assess our work. During the 
past fiscal year we clearly lived up to our motto: ``Exceptional Public 
Service . . . Exceeding the Expected.'' Most recently, performance 
Measures have been identified in the areas of Customer Satisfaction, 
Timeliness of Services, Employee Satisfaction, Employee Professional 
Development, and Competitive Contracts. Plans are underway for 
assessing performance for these measures in calendar 2010.
    Our accomplishments in the areas of security and preparedness, 
information technology, and operations are impressive. Recent months 
have brought great successes with the opening of the Capitol Visitor 
Center (CVC), affecting a safe January Presidential Inauguration, as 
well as ensuring a secure Presidential address to a Joint Congress. Our 
office has been involved with the CVC since its inception, and scores 
of hours were spent preparing for the operations and security of the 
Center.
    Our men and women working in IT Support Services, Technology 
Development, and Process Management & Innovation continued to improve 
our cyber security efforts by not only reducing the amount of spam and 
phishing e-mail messages, but by enhancing the reliability of core IT 
systems. They automated more of the Senate's business processes, made 
www.Senate.Gov more functional, helped implement the Honest Leadership 
and Open Government Act of 2007, and improved wireless access on 
Capitol Hill. The greening efforts of the CIO team stepped up this year 
with substantial power savings due to the implementation of the Virtual 
Machine Infrastructure and the elimination of the costly creation of 
CD-ROMs through ISO server software delivery.
    Continuing to progress, yet taking longer than we had expected, the 
telecommunications modernization project experienced some setbacks as 
the vendor had several personnel changes, replaced some of the 
originally-proposed system components, and had to rewrite design 
documents. We are very close to the end of the final engineering and 
design phase of the project and we currently are reviewing the proposed 
design to ensure it meets the Senate's needs. Once we accept the final 
design, we will begin a testing phase that will extend through this 
summer. Assuming that testing goes well, the production system will be 
installed later this year in preparation for pilot tests in offices to 
start early next year. The work that has been completed thus far has 
been under a fixed-price contract, so the cost to the Senate has not 
increased even though the effort has clearly taken longer than 
expected. We will work with the vendor to identify every opportunity to 
compress the remaining work to roll out the enhanced system as soon as 
possible.
    We had over 250,000 visitors to the Senate galleries; handled over 
100,000 official appointments; increased the ability to simultaneously 
broadcast Senate hearings from three to twelve hearings; and tested and 
delivered 10 million pieces of mail while reducing mail processing 
time, costs, and personnel. These efforts were accomplished through 
improved processes, teamwork, and the desire to improve.
    Our Employee Assistance Program (EAP) offered a variety of services 
to staff, Pages, interns, and family members. EAP expanded outreach 
programs through updated materials, the Web and Page training, and 
provider resource development. It expanded the Peer Support Team 
training functions, and is exploring additional work/life benefits for 
Senate employees, including child care and nanny locator, advocacy 
support for children with special needs, backup child care placement, 
and elder care support and referral services.
    Our Education and Training personnel introduced several online, 
self-paced training programs, provided hundreds of customized classes 
and consultations for Senate staff, and led the Senate's participation 
and certification in the mandatory Code of Conduct training. They lead 
retreats in state offices, delivered in-office Systems Administrator 
training, add certification courses, such as Web Development, and are 
deeply involved in new Senator orientation programs.
    We have several new initiatives during this next fiscal year. In 
emergency preparedness efforts, the Senate and House will participate 
in a joint Contingency Legislative Processes exercise that will test 
our ability to transfer various legislative documents between the 
House, Senate and the White House during an emergency. We also plan to 
conduct a Continuity of Government tabletop exercise that will include 
participants from the Sergeant at Arms, Secretary of the Senate, Clerk 
of the House, House Sergeant at Arms, and House Chief Administrative 
Officer organizations. Additionally, we plan to exercise our Briefing 
Centers, Emergency Operations Centers, and Leadership Coordination 
Centers within the Washington, DC area. These exercises will not only 
test the sites, but also the personnel responsible for setup and 
operation.
    Assisting with all of the efforts of the Office of the Sergeant at 
Arms is an outstanding senior management team including Drew Willison, 
who serves as my Deputy; Administrative Assistant Rick Edwards; 
Republican Liaison Mason Wiggins; General Counsel Joseph Haughey; 
Senior Assistant Sergeant at Arms for Police Operations, Security and 
Emergency Preparedness Michael Heidingsfield; Assistant Sergeant at 
Arms and Chief Information Officer Kimball Winn; Chief Financial 
Officer Christopher Dey and Assistant Sergeant at Arms for Operations 
Esther Gordon. The many accomplishments set forth in this testimony 
would not have been possible without this team's leadership and 
commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the United States Capitol 
Police. When appropriate, we coordinate our efforts with the United 
States House of Representatives and the agencies of the Executive 
Branch. I am impressed by the people with whom we work, and pleased 
with the quality of the relationships we have built together.
    I am very proud of all the men and women of the Sergeant at Arms 
team who help keep the Senate running. While serving as Sergeant at 
Arms, I have seen their great work and devotion to duty. The employees 
of the Office of the Sergeant at Arms are among the most committed and 
creative in government. We are continuously building on the success 
this organization has experienced in recent years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.

                       SECURITY AND PREPAREDNESS

          (Protecting the Senate and Planning for the Unknown)

    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    The SAA Office of Police Operations, Security, and Emergency 
Preparedness (POSEP) represents the integrated plans and programs for:
  --Successful execution of law enforcement support and coordination.
  --Access credentialing of the Senate community, appropriate staff 
        from other government agencies, and members of the press.
  --Security of the Senate as both an institutional body and a campus.
  --Protection of Members and staff in the District of Columbia and 
        respective state offices.
  --Counterterrorism measures taken to physically guard against attack.
  --Continuous Senate operations during minor or major disruptions.
  --Necessary testing, training, and exercising in preparation for any 
        catastrophic event.
    Formerly composed of the standalone Office of Security and 
Emergency Preparedness and the Office of Police Operations and Liaison, 
these offices have been re-titled and restructured as Contingency and 
Emergency Preparedness Operations (CEPO) and Law Enforcement and 
Security Operations (LESO) in an effort to merge all SAA homeland 
security efforts under a single operational umbrella. This 
restructuring was undertaken in the fall of 2008 and continues to 
mature, creating enhanced efficiency, unity, and collaborative lines of 
authority.

Contingency and Emergency Preparedness Operations
            Emergency Notifications and Communications
    A robust number of effective notification and communications 
programs have been designed to ensure devices and systems are ready to 
support the Senate during emergencies. The Dialogic Communicator NXT 
system now functions as the primary alert and notification system 
(Senate Alerts) to provide a single interface for delivering emergency 
e-mail, PIN, and voice messages to the Senate population. Message 
templates and customized distribution lists allow quick dissemination 
of important information and a staff training package includes step-by-
step activation procedures, visual aids, and login instructions. We 
provided support to the USCP Command Center during the Democratic and 
Republican National Conventions by configuring the Dialogic system with 
convention-specific alert and notification information.
    Monthly Senate Alerts tests for staff and biannual tests for 
Senators are conducted in coordination with the USCP, Secretary of the 
Senate, party secretaries, and other stakeholders. These tests are 
designed to ensure our emergency messaging system is reaching all 
intended recipients and are transmitted through e-mail, PIN, voice, 
annunciator, and public address systems. Other means we have developed 
for distributing emergency messaging services to the Senate community 
include the Chyron Emergency Alert System. This is a text and/or voice 
messaging service broadcast over the Senate cable television network. 
We recently upgraded the system's capacity to include new cable 
channels 37 through 60. Requirements for installing modulation 
equipment were finalized in December and modulators which will separate 
House and Senate channels and allow exclusive Senate emergency 
notification broadcasts were ordered in February; equipment delivery is 
expected to be completed in early April, and the system is forecast to 
be operable at the end of April.
            Accountability
    The ability to account for Senators and staff remains a priority in 
all emergency plans and evacuation drills. Several years ago, we 
undertook an initiative to improve procedures for offices to report 
accountability information to the USCP and the SAA quickly and 
accurately using proximity card-enabled laptops and a BlackBerry-based 
application that allows office emergency coordinators to account for 
staff remotely. In 2008, we focused on training coordinators to use 
these programs flawlessly. The backbone of this capability is the 
Accountability and Emergency Roster System (ALERTS), which allows each 
office to manage staff rosters and designate individuals receiving e-
mail and phone alerts. We train Senate staff and USCP personnel to use 
ALERTS during individual and classroom sessions.
            Training
    Three distinct themes serve as the foundation of our emergency 
planning training program and provide essential knowledge to the Senate 
community regarding office emergency coordinator responsibilities, 
emergency preparedness basics, and escape hood use. Additional training 
courses focus on the specialized features of emergency preparedness on 
Capitol Hill. We collaborate with Senate offices to deliver 
personalized training specifically designed to meet staff needs by 
covering such topics as emergency equipment use, emergency action 
planning, emergency coordinator responsibilities, and preparedness 
basics. During the past year we conducted 249 sessions with 4,359 
attendees.
            Emergency Plans, Operations, and Facilities
    We continue to implement emergency plans that emphasize life safety 
and continuity of operations to address Senate needs after a disaster. 
We assisted all new Member offices in developing emergency action 
procedures, taking into account that many of them were initially 
assigned to temporary office spaces. As a result, each of the new 
offices has functional emergency action plans, established primary and 
secondary evacuation routes, mobility impaired evacuation procedures, 
and a complete collection of emergency contact records.
    Senate SAA and House planners joined forces with the USCP's 
Emergency Management Division and the Architect of the Capitol to 
establish procedures in response to respiratory threats requiring the 
use of internal relocation sites. Select facilities throughout the 
Capitol complex have been structurally improved and modified to allow 
for short-term (2-3 hour) sheltering. We will continue to focus on 
police procedures, signage, and subsequent staff training to fully 
implement this capability.
    We participated in the Emergency Management Task Force with the 
USCP, House SAA, House Office of Emergency Preparedness Planning and 
Operations, and Architect of the Capitol to prepare the Capitol Visitor 
Center for opening. The group's primary focus was to develop emergency 
preparedness plans, procedures, and joint training for the CVC by 
preparing USCP officers and Capitol Guides, creating safety outreach 
material, training staff and visitors, and developing general facility 
emergency plans. Our role was to review egress capacities in 
stairwells, identify potential chokepoints, and create visitor 
emergency preparedness facts to be published on the CVC website and 
included in brochures and guided tours. Layouts of the new facility 
have been added to the Senate Emergency Action Plan and Member Office 
Visitor Guide. To date, eight emergency phones for two-way 
communication with the USCP Command Center have been installed and a 
mobility impairment evacuation guide has been developed in conjunction 
with House counterparts. We assisted Senate offices with moving into 
the facility's expansion space by conducting 13 individual emergency 
evacuation walkthroughs with more than 230 staff members. These offices 
were also supplied with emergency equipment and received assistance 
updating emergency action plans.
            Exercises
    Our comprehensive exercise program is structured to ensure Senate 
plans are practiced and validated regularly. Every year, the SAA and 
Secretary of the Senate conduct exercises in coordination with the 
USCP, Architect of the Capitol, party secretaries, and other key 
stakeholders. This year's exercise plan outlines a series of diverse 
events to maintain and strengthen our existing capabilities, while 
addressing emerging needs. A key area of emphasis over the last several 
years has been the integration of several joint exercises with the 
House of Representatives and other Legislative Branch entities.
    We continue to conduct ``no-notice'' exercises to test select 
functions at various locations. During fiscal year 2009, we conducted 
exercises in partnership with the USCP, Office of the Attending 
Physician, Secretary of the Senate, Architect of the Capitol, Committee 
on Rules and Administration, and the House of Representatives. The 
general exercise format included functional capabilities demonstrations 
and tabletop scenarios. These exercises are designed to test the 
Senate's ability to function during an event that requires relocating 
the federal government. After-action reports are generated to document 
lessons learned and improve future plans.
    The Senate Chamber Protective Actions Exercise is a notable event 
we led in concert with the USCP, Secretary of the Senate, party 
secretaries, and other key stakeholders. This was the largest and most 
complex chamber protective action exercise to date. The exercise used 
two protective actions (evacuation due to an air threat and shelter-in-
place) to examine life-safety procedures and validate the new Chamber 
Emergency Actions Guide. The guide coordinates staff action on the 
Senate floor and areas surrounding the chambers. As a result of the 
exercise, several areas of our plan requiring improvement are being 
addressed. Three joint exercises are being planned with the House of 
Representatives and other Legislative Branch organizations: Contingency 
Legislative Processes, Continuity of Government, and Shelter in Place.
            Office Support
    Providing responsive customer support through training, equipment, 
exercises, planning, and outreach to Senate offices and support 
organizations continues to improve overall individual readiness. 
Readiness equates to developing appropriate continuity plans and 
emergency procedures, making necessary equipment available, and 
training individuals on execution and use. Readiness involves ensuring 
the Senate community is alert and able to react to any emergency event, 
whether it be a minor service outage or a serious fire incident.
    Each office receives an array of emergency equipment that is 
distributed, inventoried, and maintained by emergency preparedness 
staff on an annual basis and includes escape hoods, Victim Rescue 
Units, Wireless Emergency Annunciators, and Emergency Supply Kits. Our 
inventory ensures equipment accountability and functionality resulting 
in the replacement of all expired batteries, food, and water in 
Emergency Supply Kits during fiscal year 2009.
    Another initiative has been to increase staff awareness and 
personal preparedness outside the workplace. We developed a Personal 
Preparedness Plan Tutorial allowing users to create, update, and store 
a personal preparedness plan. The tutorial provides step-by-step 
planning instructions and allows each user to create a customized plan.
    A variety of security and emergency preparedness brochures and 
publications have been developed and disseminated to continuously 
educate the Senate community. Recent additions and updates include:
  --Capitol Visitor Center Staff-Led Tours Z Card.--In order to reach 
        each staff member conducting tours, a foldout card was 
        developed to address safety procedures when dealing with 
        visitors. The Z Card lists prohibited items, evacuation routes, 
        shelter-in-place locations, alternatives for mobility-impaired 
        individuals, and safety measures to consider before embarking 
        on a tour. The Z Card also contains maps of all three facility 
        floors with stairwells, evacuation elevators, and exits 
        depicted.
  --U.S. Senate Emergency Annunciator System.--We recently switched 
        from a wideband frequency to a narrowband frequency due to a 
        National Telecommunications and Information Administration 
        directive requiring transmissions to be on a narrowband system 
        by 2008. While the USCP maintains a wireless annunciator system 
        used to disseminate emergency information and situational 
        updates, we are responsible for maintaining and replacing units 
        throughout Senate office buildings including the Capitol and 
        Capitol Visitor Center. We surveyed the entire complex to 
        replace these units and updated the accompanying pamphlet.
  --Equipment.--Over 18,800 SCape CBRN30 Escape Hoods are currently 
        deployed throughout the Senate. This number includes both adult 
        and baby escape hoods located in Senate offices and public 
        caches. We continue to conduct over 80 courses to train 
        hundreds of staff members to use this equipment appropriately.
      More than 1,590 Wireless Emergency Annunciators are deployed 
        throughout the Senate complex. These devices allow the USCP to 
        provide verbal instructions to staff during significant events 
        and provide periodic updates. Our office provides daily 
        troubleshooting support for these devices.
      There are 1,229 Victim Rescue Units positioned alongside escape 
        hood bags throughout Senate offices, in public caches, and 
        included in each Emergency Supply Kit.
    We have additionally developed a program to review existing 
continuity of operations plans that are more than 2 years old. This 
initiative has resulted in more than 80 percent of D.C. Member offices 
being equipped with modern plans that will allow operations to continue 
in the event of a relocation. A program has also been initiated to 
provide assistance in developing and executing tabletop exercises for 
D.C. Senate offices to test their published plans. This program allows 
offices to discuss individual roles and responsibilities that must be 
performed in order to continue legislative and constituent operations 
offsite. The Living Disaster Recovery Planning System is a new 
automated program that is being tested and piloted, which will allow 
offices to quickly develop Continuity of Operations (COOP) plans that 
capture all aspects of essential functions and personnel 
electronically.

Law Enforcement and Security Operations
            Smart Card Programs
    The implementation of Homeland Security Presidential Directive 
(HSPD) 12--Policy for a Common Identification Standard for Federal 
Employees and Contractors will significantly impact Senators and their 
staff whose offices are located in federal buildings across the 
country. While Legislative Branch adoption of HSPD-12 is optional, 
compliance will allow Members and staff unhindered access to work 
freely within these facilities. We are currently collaborating with our 
Executive Branch counterparts to implement compatible access cards 
during the 111th Congress.
    Sophisticated Smart Card credentials can provide multiple functions 
beyond current ``flash pass'' identification badges. The primary 
movement towards Smart Cards is a result of Executive Branch programs 
like HSPD-12, but potential uses within the Senate community include 
secure network logins, digital signatures for financial documents, and 
encrypted personal identification information. Although a substantial 
cost is associated with system architecture, we will continue to 
explore the advantages of Smart Card deployment.
    The First Responder Authentication Credential system launched under 
the auspices of the Department of Homeland Security outlines issuing 
cards to individuals who require access to controlled areas during 
emergencies. We envision limited Senate staff receiving these badges 
during the 111th Congress and are engaged with our Legislative Branch 
partners and other program administrators within the National Capital 
Region to determine the Senate's involvement in this program.
            State Office Security and Preparedness Programs
    The goal of this program is to provide a level of security and 
preparedness in state offices similar to Senators' Washington, DC 
offices. We provide equipment, training, and consulting for secure 
reception areas, access control, and duress and burglar alarms. With 
over 400 state offices varying from single to multiple staff offices, 
located everywhere from commercial storefronts to federal courthouses, 
this is no easy task. However, these programs remain critical and have 
been well received by state staff, even with their voluntary 
implementation status.
    We initiated the State Office Preparedness Program in January 2008 
to provide an all-hazards risk assessment to each state office, a basic 
set of emergency supplies, online and video teleconferencing training 
tools, and a template to build customized office emergency plans. 
Offices have the opportunity to verify compliance with Congressional 
Accountability Act requirements when they utilize this program, and all 
Senate offices have received basic equipment and general program 
briefings.
    Through the State Office Security Enhancement Program established 
in 2002, we have conducted over 700 onsite physical security surveys of 
state offices throughout the country. The results of these surveys are 
shared with Senate offices along with recommendations for improvement. 
State offices open, close, and relocate throughout the year, and 
sometimes offices that have already received remediation choose to 
relocate and require our services more than once. There are currently 
433 state offices, of which 294 are located in commercial space and 139 
are located in federal buildings. We have provided security remediation 
in 73 percent of commercial offices and 57 percent of those located in 
federal buildings. These state programs have received accolades from 
Senate offices and we continue striving to provide a higher level of 
customer service.
            Senate Campus Access Accommodations
    Our team collaborated with the USCP in fiscal year 2009 to 
coordinate and approve 211 requests for vehicles requiring special 
access to the Senate campus. This total does not include military and 
government arrivals, which we also coordinate. Requests for access 
continue to grow with the opening of the new Capitol Visitor Center. 
Our office works closely with House counterparts to coordinate access 
on both sides of Capitol Hill for groups with special needs who wish to 
visit their Members or attend functions hosted by them. This service 
involves working directly with Member offices and their constituents to 
help resolve accessibility issues and create memorable, meaningful, and 
safe trips to the Hill without compromising security. We recently 
approved a new webpage designed to better facilitate accessibility 
requests from Senate offices.
            Campus Security Vulnerabilities
    Our office continues to address security vulnerabilities throughout 
the Senate complex. We anticipate continued analysis of various campus 
security and vulnerability studies conducted by the USCP, U.S. Secret 
Service, and the Defense Threat Reduction Agency to develop and enhance 
security measures. Our office employs area-specific security experts 
dedicated to identifying vulnerabilities and implementing solutions. 
The Senate's physical presence extends well beyond Capitol Hill, making 
it critical to engage in continued research, deliberate planning, and 
exploration of emerging security technologies. We expect our security 
role to continue to grow in fiscal year 2010.
            Mail Handling
    Last year, the Senate processed, tested, and delivered nearly 
15,000,000 safe items to Senate offices, including over 9,400,000 
pieces of U.S. Postal Service mail; over 5,200,000 pieces of internal 
mail that were routed within the Senate or to or from other government 
agencies; almost 111,000 packages; and over 130,000 courier items. The 
total volume of mail for the past 2 years has been significant and 
represents an 8.2 percent increase in the mail that we delivered as 
compared to the previous 2 years.
    We continue to seek improvements in mail processing and have worked 
with this Committee to identify avenues to reduce our costs. Last year, 
we began processing packages that previously had been processed by a 
contractor. This move reduced our expenses by over $200,000 annually, 
and improved our security as zero suspicious packages were delivered to 
Senate offices.
    This year, we further reduced our costs by leveraging technology 
and improving our processes. We were able to reduce the Senate Post 
Office FTEs by four, without compromising safety or customer service.
    Recently, we employed a technology solution to replace the manual 
``clip and jog'' process that has been employed for the past 7 years. 
We worked with our science advisors to create a solution that is less 
damaging to letter mail, without compromising safety to Senate offices.
    We also worked with this Committee and the Committee on Rules and 
Administration to build and operate one of the best facilities within 
the government to process time-sensitive documents that are delivered 
to the Senate. In August 2006, we opened the Courier Acceptance Site to 
ensure all same day documents are x-rayed, opened, tested, and safe for 
delivery to Senate offices. The number of time-sensitive documents 
addressed to Senate offices is significant. Last year, we processed 
almost 131,000 courier items to ensure safe and timely delivery to 
Senate offices.
    Last year, our Senate Post Office and our Office of Security and 
Emergency Preparedness worked collaboratively with our science advisors 
to develop and introduce the first device designed to provide Senate 
staff who work in state offices a level of protection when handling 
mail. To date, 52 Senate state offices across the country have the 
Postal Sentry mail processing device in place. We have offered this 
device to all Senate state offices and we remain ready to assist and 
install the Postal Sentry in any office that requests one.

                         INFORMATION TECHNOLOGY


             (Enhancing Service, Security and Stewardship)

    We continue to embrace and enhance the role of technology to 
improve upon physical and information security and life safety, to 
prepare for emergencies and to support the entire Senate's information 
technology needs. As in our other areas, we also emphasize 
stewardship--the careful use of all our resources, including the 
funding we are provided, our personnel, and the external resources that 
we consume--in all aspects of our information technology operation.
    As we do each year, we have updated and are performing under our 2-
year Information Technology Strategic Plan. The current revision, under 
which we will be operating in fiscal year 2010, continues to emphasize 
our five strategic information technology goals and their supporting 
objectives that drive our information technology programmatic and 
budgetary decisions:
  --Secure: A secure Senate information infrastructure.
  --Customer Service Focused: A customer service culture, top-to-
        bottom.
  --Effective: Information technology solutions driven by business 
        requirements.
  --Accessible, Flexible & Reliable: Access to mission-critical 
        information anywhere, anytime, under any circumstances.
  --Modern: A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our strategic goal of a customer service culture top-to-bottom 
starts with our own staff. Our Chief Information Officer (CIO) 
organization, in particular, is dedicated to ensuring that we foster 
mutual respect and teamwork where every customer and employee is a 
valued member of the Senate team. Major accomplishments in the 
information technology area during the past year include:
  --Making it easier for our customers to obtain cellular telephones 
        and BlackBerry devices by continuing to upgrade and improve our 
        online ordering system to meet the changing needs of our 
        customers. With the introduction of touch screen devices, we 
        implemented a loaner program to enable customers to ``try 
        before you buy'' ensuring that they are comfortable and able to 
        adapt to the usage differences required by the new devices. 
        Offices are then allowed to switch back to a more traditional 
        device with no financial penalty should the touch screen device 
        not meet their needs.
  --Improving the ability of Senators, staff, and visitors to 
        communicate by increasing the capacity of our infrastructure 
        that supports cellular telephone, BlackBerry devices, and 
        wireless data networks into the Capitol and the Senate 
        expansion space in the Capitol Visitor Center. As part of our 
        Inauguration efforts, we temporarily increased system capacity 
        on the West Front of the Capitol to improve the probability 
        that guests could successfully use their wireless devices.
  --Improving the experience of office staff as they accommodate the 
        required physical inventory of Senate assets by expanding the 
        use of barcode scanning technologies and developing electronic 
        reports that are immediately available to the office as the 
        inventories are completed. In keeping with our effort to 
        implement solutions based on supporting the Senate, work is 
        also underway to include features in TranSAAct that will allow 
        offices to maintain the user names and locations associated 
        with their equipment.
  --Continuing to progress toward the implementation of our new 
        telephone system while ensuring that the existing phone system 
        meets the existing needs of our customer base. As the final 
        design moves toward approval, plans are in place to operate 
        both systems concurrently to ensure no loss of service.
  --Making it easier for office administrative personnel to manage 
        their offices by deploying additional functionality within 
        TranSAAct, our Web-based system for managing office functions. 
        Some of the added features include access to Verizon Wireless 
        bills and accounts, which eliminates the need for paper 
        statements and allows office administrative staff to makes 
        account changes that formerly required SAA staff to handle; 
        access to indoor and outdoor parking allocations and permits; 
        and the ability to grant floor privileges and authorization to 
        make charges from the Recording and Photographic studios.
  --Improving the functionality and reliability of Senate Conference 
        Services and Senate Fax Services.
  --Ensuring that we maintain a responsive infrastructure for secure 
        communications by successfully completing the audit of secure 
        communications equipment that was mandated by the National 
        Security Agency.

                    ENHANCING SERVICE TO THE SENATE

          (Customer Service, Satisfaction, and Communications)

    Our strategic plan stresses customer service as a top priority, and 
we actively solicit feedback from all levels and for all types of 
services. For instance, we solicit customer feedback for every Help 
Desk ticket opened. In major contracts that affect our customers, we 
include strict service levels that are tied to the contractors' 
compensation--if they do well, they get paid more; if they do poorly, 
they get paid less. For instance, during the past year, the percentage 
of on-time arrivals for the IT installation team never dropped below 
99.1 percent. The percentage of Help Desk calls that were resolved 
during the initial call averaged 47 percent, and 96 percent of customer 
surveys rated the IT Help Desk and installation services as either very 
satisfactory or excellent.
    We continue to stress effective communications with our customers 
through a well-developed outreach program that includes information 
technology newsletters, periodic project status reviews, encouraging 
customer participation in information technology working groups, weekly 
technology and business process review meetings with customers, and 
joint monthly project and policy meetings with the Committee on Rules 
and Administration, the Senate Systems Administrators Association, and 
the Administrative Managers' Steering Group.

Keeping Senators and Staff Informed
    The Senate Information Services program continues to deliver 
premium, vital online information services to Senators and staff. These 
services range from the Senate's own near-real-time news tool, 
NewsWatch, to mission-critical external research services providing 
far-reaching current and archived news and general information, 
historical newspapers dating back as far as the 18th century, federal 
and state statutes and case law, regulatory and judicial updates, 
Congressional news and current policy issues analysis, information 
technology policy developments, and daily updated directories of 
personnel in government, business, media, and professional 
associations. Senators and staff accessed more than 3.5 million real-
time news stories and almost 2 million pages of Congressional news and 
current policy analyses throughout 2008. During the same period, staff 
conducted more than 15,000 hours of legal research, read more than 
39,000 historical newspaper and journal articles, researched contact 
and biographical information for 53,000 professionals in wide-ranging 
disciplines, and reviewed newspaper content contained in almost 22,000 
images from more than 400 local daily newspapers from the United States 
and around the world.

Robust, Reliable and Modern Communications
    The Senate data network supports the vast majority of our 
information technology. As with other information technology services, 
the data network is a constantly evolving entity that must be scalable 
and robust enough to more than meet the increasing needs for 
information technology services and solutions. Most critically, it must 
remain available to ensure these services are reachable.
    We have undertaken extensive efforts this past year to ensure that 
the core of the data network environment is in position to meet the 
rapidly increasing needs for more centralized data services. Our 
efforts included enhancing the overall availability of critical 
services such as e-mail and access to the Internet and World Wide Web 
by increasing network capacity within the core and data center 
environments, using a robust optical network between our primary and 
alternate computing facilities. We also improved our ability to react 
quickly to restore services following failures by decreasing the number 
of exposure points outside the Senate's internal data network. 
Consolidating the number of ``border'' points to a geographically 
dispersed set of firewalls has allowed us to eliminate several 
processes that previously required manual interaction that delayed 
service restoral. We increased the level of availability of critical 
services by dispersing them between two distinct sites. In addition to 
enhancing our overall security posture, we have also more than doubled 
our capacity for Internet services this past year by being able to use 
what was once idle bandwidth at the Alternate Computing Facility. This 
increase then provided the opportunity for adding services such as 
high-quality video streaming of Senate committee hearings without 
degrading the level of service our customers have come to expect.
    To ensure we maintain a secure information infrastructure, the data 
network and information security teams increased their level of 
collaboration to ensure a more proactive and rapid approach to 
identifying and resolving network-based vulnerabilities, as well as to 
remain vigilant on the issues of protecting both the perimeter and 
internal components of the data network. The collaboration has resulted 
in more rapid notification and reaction to evolving threats, as well as 
a more comprehensive assessment of security vulnerabilities affecting 
major networking components. We also remain vigilant in our approach to 
maintaining network-based access controls and, during the next year, 
will be assessing technologies to further enhance our security posture 
for managing remote access clients.
    The Senate led a collaborative effort with the other Legislative 
Branch agencies during the latter part of 2008 to enhance the 
capabilities and resiliency of the common backbone between the 
agencies--Capnet. This included the creation of a new common network at 
the Alternate Computing Facility using optical connections from each 
agency to the facility and dynamic failover mechanisms to ensure 
availability and provide a more secure environment for inter-agency 
communications. All Legislative Branch agencies participated in a 
successful full-scale failover exercise in October 2008. This coming 
year, efforts will continue among the agencies to facilitate an 
increase in communication services over Capnet and to take advantage of 
its high-speed conduit to enhance continuity of operations capabilities 
such as alternate office space.
    The network team completed the installation of wired and wireless 
data network services to the Capitol Visitor Center this past year, in 
preparation for the recent opening of this facility. An added benefit 
of the work in the Capitol Visitor Center was to add resiliency to the 
networks supported within the Capitol by dispersing the two main 
distribution points supporting these networks and using diverse fiber-
optic paths to increase redundancy.
    This coming year, the focus will be on further preparing the campus 
network for the anticipated support of the Senate's new IP-based phone 
system as part of the Telecommunications Modernization Program. 
Already-planned enhancements to the resiliency of the access layer 
switches and will give them the ability to power the IP-based telephone 
sets much like traditional telephone sets are powered by the telephone 
switch today. We will also refresh other network hardware, which will 
be the first major refresh of this equipment since we acquired it in 
fiscal year 2004.
    At the end of calendar year 2008, we introduced a virtual server 
environment to support the new class of Senators initially, with the 
anticipation of expanding participation to all interested offices. The 
centralized server environment provides great benefits, and it will 
increase the bandwidth requirements on the data center network. To 
accommodate those increases, we have begun upgrades to increase 
capacity there and will continue this year with the overall backbone 
network. Combined with the planned upgrade efforts to the access layer, 
we will be in position to enhance the capacity to these locations as 
necessary. This is not solely due to the virtualization effort, but is 
needed to ensure support for a growing number of network-based services 
that extend outside the individual offices' networks.
    The wide-area network supporting state offices, commonly referred 
to as the WAN, has also been a focus this past year in terms of 
upgrading network hardware to meet expanding business requirements and 
position the Senate for future capabilities. We upgraded the hardware 
in almost 75 offices this past year and, overall, have completed router 
and switch upgrades in more than 200 sites. In addition to the 
immediate benefit of providing higher-speed access to staff in the 
state offices, the new hardware positions us for future technologies 
such as a secure wireless solution for state offices. This past year we 
also installed higher speed service at the Alternate Computing Facility 
to support the aggregation of WAN circuits, which provided a threefold 
increase in available bandwidth. This positioned us to pursue 
relocating replication servers from state offices to the alternate 
computing facility, including 18 sites this past year and 40 offices 
overall, thus preserving bandwidth to these sites for more critical 
services.
    We have continued to emphasize visibility and proactive management 
of network services as key to the success of ensuring the availability 
of network resources. We have increased our focus on change and 
configuration control processes this past year. That focus will 
continue to increase as more services become dependent on the data 
network, including the advancement of IP-based telephony. The Network 
Operations Center, which manages the network change process, received 
more than 1,000 network-related change requests in 2008 and serviced 
more than 950 requests for LAN connections, the majority of which are 
associated with changes in the data center environment. These requests 
range from minor modifications to major build-outs of new services and 
does not include the various moves, adds, and changes within the office 
environments that occur on a daily basis. The continuing evolution of 
our data network further instills the need to continue properly 
documenting and reviewing changes to the networking environment, 
especially when supporting less-tolerant applications such as voice and 
video.
    The entire Senate enjoys the benefits of a modern, robust, 
reliable, and scalable messaging infrastructure that includes built-in 
options for continuity of operations, design choices, and a platform 
for leveraging modern technologies to improve collaboration, mobility, 
and communications. During this past year, we upgraded the messaging 
system to the latest software version that provides additional features 
and benefits for electronic mail users and reduces by half the number 
of messaging servers required. We also provided single sign-on 
capabilities and changes that allow us to deploy many solutions 
centrally where they are available to all offices, thus reducing 
development, deployment, and support costs. This year we leveraged this 
ability to deploy Microsoft's Office Communications Server to allow 
instant messaging and collaboration within the Senate and messaging to 
external clients without the risks associated with other instant 
messaging clients. More than 2,500 users in at least 30 offices 
currently use the service.
    We continue to make progress toward modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy in support of daily operations and continuity of operations 
and government, as well as to take advantage of technological advances 
to provide a more flexible and robust communications infrastructure. 
While conducting the final engineering and design phase of the 
Telecommunications Modernization Project, we determined that some of 
the proposed components should be replaced to better serve the Senate 
and meet our functional requirements. Concurrently with this effort, we 
asked a third party to conduct an independent verification and 
validation of the proposed solution. After replacement products were 
identified, the independent vendor endorsed the overall architecture 
with some caveats and suggested additional considerations and best 
practices before deploying the solution. These best practices include 
process and operational changes, security recommendations, and the 
suggestion to migrate our systems deliberately to ensure adequate time 
for lessons learned and feedback regarding the impact of this 
transformative technology. We are working to incorporate those 
suggestions into the project. In late January, we received a design for 
the system and have continued to work with our vendor to further 
clarify and refine several design elements. We expect to be performing 
proof-of-concept testing into late spring or early summer. The outcome 
of that testing will result in a decision on implementing the solution.
    To help ensure systems are kept updated, we deployed a server to 
better make available software updates that come on disk. This solution 
eliminates the need for mass duplication of system update disks by 
providing the necessary files for offices to create disks on their own 
or download the files directly without creating a disk. This solution 
makes updates available faster and at a time of the offices' choosing.
    In the past year we have significantly enhanced our 
videoconferencing infrastructure by upgrading the systems which handle 
video traffic routing. This upgrade has increased redundancy and will 
enable us to further enhance the stability of the network through load 
balancing traffic between infrastructure at the primary and alternate 
computing facilities. This move also prepares our infrastructure to 
support future converged technologies, which will use a new standard 
for communications. Additionally, we have enhanced the scalability of 
our infrastructure to handle up to 5,000 individual video call 
registrations, a tenfold improvement.

Web-based and Customer-Focused Business Applications
    Working with the other major stakeholders (the Secretary of the 
Senate, the Committee on Rules and Administration, and the Senate 
Chaplain), we launched a restructured version of Webster, the Senate's 
intranet. The new Webster provides a more functional front page, a new 
banner, and an improved look and feel. Included in the site is a new 
method of categorizing information to improve search results and 
content layout, making information easier to find and significantly 
improving the user experience.
    This year, we completed the third phase and began the next phase of 
TranSAAct, which is our platform for moving business online. Based on 
the business requirements of offices and the Committee on Rules and 
Administration, we continue to develop TranSAAct to eliminate paper-
based manual processes and move them to the Web. Through TranSAAct, 
administrative managers and chief clerks can manage and track invoices 
for SAA services through a modern Web interface, and have single sign-
on access to 14 Web-based applications, including the ALERTS emergency 
notification database, package tracking, and the Capitol Facilities 
ordering system. The latest additions to TranSAAct provide the ability 
to request services online and use electronic signatures for approvals, 
eliminating paper requests and significantly streamlining the 
previously manual processes. In addition to the processes for granting 
floor privileges and authorizations to request services from the 
Recording Studio, we added the processes for granting authorizations to 
request services from the Photo Studio, real-time consolidated view of 
outdoor and garage parking space allocations and permit issuance, 
access to Verizon Wireless billing, and a comprehensive set of over 20 
links to the services that administrative managers use the most. 
Because it is built on an extensible modern database framework, 
TranSAAct allows indefinite expansion as new requirements are 
fulfilled. We look forward, over the coming months and years, to moving 
additional business process to the Web, reducing the time, paper, and 
errors associated with the current manual processes.
    We developed and deployed several Web-based tools in support of the 
56th Presidential Inauguration, including applications to manage the 
credential approval process and help the Joint Congressional Committee 
on Inaugural Ceremonies manage seating during the ceremony and the 
luncheon afterward. Our efforts streamlined the credentialing and press 
ticketing process by allowing the Joint Congressional Committee on 
Inaugural Ceremonies, the Capitol Police and the Media Galleries to 
approve requests for credentials for all applicants. The credentialing 
application managed the entire approval process, including name and 
personal information submission, data export for background 
investigations, notifying appropriate parties of approval status, 
allowing selection of broadcast position or access area, photo 
acquisition and data export to the Government Printing Office for badge 
printing. Overall, 10,137 credentials were processed and distributed 
utilizing our application in advance of the Inaugural ceremony.
    The seating management application provided Joint Committee staff 
the ability to enter and manage data on guests of the 56th Presidential 
Inauguration via a secure internal website, and to generate custom 
reports and event timelines from that data. The Joint Committee staff 
extensively used the application and this effort contributed to the 
success of the Inaugural ceremonies with 1,578 seats assigned. More 
than 1,250 guests were processed, including 148 packages or groups of 
guests, and 186 rooms were scheduled for the event.
    We also developed and deployed a new and improved version of the 
Rules Committee room reservation system. The application allows offices 
to view the 25 rooms under the jurisdiction of the Rules Committee and 
request a reservation. The application has an approval process and room 
availability schedule that allows the Rules Committee staff to view and 
approve requests.
    Finally, we deployed the infrastructure to support streaming the 
video of committee hearings and other events in higher quality using 
Flash Media, and developed Web-based tools that allow the Senate 
Recording Studio to post archived committee hearings and send 
committees the links to their archived hearings.

Showcasing and Promoting Modern Information Technology in the Senate
    This past year, we continued to highlight new technologies in the 
Information Technology Demonstration Center through a series of well-
attended demo days. After products are tested and validated in our 
technology assessment laboratory, they are then available for offices 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies. Just to name a few of the new products 
and technologies that we recently brought to the Senate, in the past 
year we introduced the Office Application Manager, a secure Web-based, 
user-friendly application that provides Senate offices the ability to 
create and manage online forms such as service academy nominations, 
flags, internships, and fellowships; a service that provides 
information to system administrators about the computers in their 
offices and the status of applicable security updates; an e-mail 
archiving solution that provides an alternative to larger mailboxes 
through a software application that archives and indexes aged e-mail 
messages and attachments; and Research in Motion's latest 3G network-
hosted BlackBerry devices, the Bold and Storm.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure we focus 
on the most relevant technologies and solutions, the CIO-sponsored 
Technology Advisory Group, consisting of CIO staff and our customers, 
performs high-level requirements analysis and prioritizes new 
technologies and solutions for consideration for deployment in the 
Senate. Some of the new technologies evaluated and/or recommended for 
support through our lab testing during the current fiscal year include:
  --Enterprise class server virtualization to reduce the number of 
        physical servers we require;
  --Tier 2 enterprise class storage, which greatly reduces the cost of 
        highly available, highly reliable centralized data storage;
  --Enterprise instant messaging, a critical business communication 
        tool that provides all the customary instant messaging 
        capabilities, without sacrificing enterprise class reliability 
        and security;
  --More than 34 new Hewlett-Packard, Fujitsu, and Apple portable or 
        desktop computer offerings;
  --16 new Hewlett-Packard workgroup printers;
  --10 new document imaging scanners;
  --Nearly 600 Microsoft critical software security patches; and
  --24 office productivity suite applications.
    We will continue or intensify these efforts in fiscal year 2010 to 
ensure that the Senate is always well equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.
    We continue to seek ways to improve our offerings to the Senate 
community for their correspondence systems. Working together with our 
users, we developed new, updated requirements for the Constituent 
Services Systems to help keep them responsive to changing office needs. 
By using new technologies to freshen the application mix, we are 
ensuring that these applications reflect the evolving Senate enterprise 
needs.

Enhancing Security with Accessible, Flexible and Reliable Systems
    We continue to seek ways to improve the security of our technology 
infrastructure in order to protect data, respect privacy, enable 
continuous Senate operations, and support our emergency and continuity 
plans.
    This past year our CIO organization fully implemented a BlackBerry 
scanning program designed to detect security intrusions on wireless 
devices used during international travel. Increasing our education 
efforts allowed us to find some potential security compromises on 
BlackBerrys that were taken to foreign countries. A strong partnership 
with the National Security Agency helped to mitigate the risk to the 
Senate once the discrepancies were found. For staff looking for 
additional protective measures, we introduced tamper-evident storage 
bags into which they could place laptops or smaller wireless devices 
when leaving those devices in a non-secured location such as a hotel 
room. These relatively simple procedures have helped mitigate potential 
damage that might have occurred otherwise.
    We successfully completed the first audit in 5 years of our secure 
communications equipment by the National Security Agency with high 
marks from the audit team. The audit team found no discrepancies and 
complimented us on our knowledge and control of secure communications 
equipment in the Senate. We also continued our efforts to stay ahead of 
end-of-life deadlines on certain secure equipment that will arrive 
within the next year. We have begun upgrading firmware and replacing 
secure key cards to ensure that, should an emergency arise, our 
community will suffer no denial of service and will be able to 
communicate securely with outside entities.

Alternate Sites and Information Replication
    We are continuing to test our technology in scenarios in which our 
primary infrastructure and primary work locations have become 
inaccessible. This includes the simulated loss of our primary data and 
network facilities, as well as simulated loss of staff work spaces. All 
mission-essential Senate enterprise information systems continue to be 
replicated at our Alternate Computing Facility (ACF), using our 
upgraded optical network and storage area network technology. In 
December, working with staff from the Office of the Secretary of the 
Senate, we conducted a third failover exercise involving the Senate's 
financial systems. Our CIO organization, including staff from all 
departments and vendors, continued to conduct pandemic exercises. These 
exercises demonstrate the CIO's ability to support mission-essential 
systems with a minimum number of on-site personnel, and the ability to 
support substantial numbers of people working from home. As a means to 
further our commitment to ensuring customer service regardless of the 
situation, the Network Operations Center (NOC) remains vigilant in the 
organization's support of network resources by continuing to answer 
service calls once a week from the ACF and by conducting periodic 
``pandemic'' testing where support staff operate through remote access. 
The NOC also rotates remote access and WAN services between the 
alternate and primary sites on a monthly basis as a means to 
continually test and ensure network availability and continue our 
mission to provide access to mission-critical information at all times. 
These exercises continue to be extremely successful and give us 
valuable insight into how we would provide our support in an emergency.
    This past year, our CIO organization also continued helping offices 
protect their data by enabling them to replicate data to state offices 
or the ACF through the remote data replication program. To date, 57 
Senate offices and 23 committees are taking advantage of this program, 
with 81 percent installed at the ACF and 19 percent installed in 
Senators' state offices. Remote data replication provides the Senate an 
unprecedented ability to access institutional data in the event of an 
emergency. Another system that is integral to emergency planning, 
particularly in the event of a mass telecommuting scenario such as a 
pandemic, is our video teleconferencing system. We continue to maintain 
a state-of-the-art level of services and offerings in our video 
teleconferencing infrastructure. We have improved infrastructure 
redundancy and functionality by incorporating seamless failover 
capabilities and support for high-definition video. Through this 
highly-successful project we have installed nearly 650 units in offices 
across the nation with usage rates in excess of 35,000 minutes per day 
when the Senate is in session.
    Two (enterprise and hybrid) of the three architectural options we 
offer for electronic messaging provide complete replication of the 
office's electronic mail at our Alternate Computing Facility. Eighty-
six percent of offices are now taking advantage of the continuity of 
operations capability inherent in the enterprise and hybrid options. 
Also, the recently deployed e-mail archiving system provides complete 
replication of electronic mail that has been archived to ``near-line'' 
storage media for long term storage.
    Our previous virtual file server offering is reaching its end-of-
life and is being replaced with newer virtual technology, which is 
addressed later in this testimony.

Securing our Information Infrastructure
    As a result of the information security activities we described in 
last year's testimony, we now have much better insight into the dynamic 
nature of global cyber threats. This knowledge, combined with the 
flexible technologies we use in our information security operations 
centers, allows us to monitor and quickly respond to changes in IT 
operational risk present in the Senate environment. Our active 
prevention and detection capabilities continue to evolve. We are 
deploying technologies and processes that will help detect and prevent 
most malware infections and attempts to exploit vulnerabilities as they 
are attempted. Our capability to detect and prevent attacks in real 
time is crucial in light of the ``zero-day'' (previously undetected) 
attacks that frequently target our computing environment. These 
processes and technologies shield Senate information technology assets, 
reducing operational impact on offices and accompanying downtime and 
lowering remediation costs. We continuously adjust our controls in 
response to new threats and make security recommendations to offices 
and committees, thereby increasing the resiliency of the Senate's IT 
infrastructure to ensure continuity of government, even under duress.
    Similar to security in the physical world, protecting information 
and technology resources requires constant vigilance and the capability 
to detect and deter attacks. We operate in an ongoing attack 
environment, as the threats to our information infrastructure are 
increasing in both frequency and sophistication. We continue to see not 
only ``general'' threats that affect all Internet-connected 
organizations, but also sophisticated, targeted attacks originating 
from numerous foreign and domestic sources. These attacks continuously 
target vulnerabilities in our systems using many different infection 
vectors and malicious programs, including viruses, worms, Trojan 
horses, spyware, spybots, adware, adbots, trackware, keyloggers, and 
rootkits. Countering this evolving threat environment requires 
situational awareness and robust processes, as well as continual 
research, testing and deployment of emerging security technologies. 
Recently, infections have been highly virulent in nature and difficult 
to detect because they exploit newly-identified or previously-unknown 
vulnerabilities. We have determined that these attacks are probably 
launched by determined and sophisticated adversaries, so we have very 
little advance notice of new types of attacks. Responding to these 
attacks requires significant investment in flexible security control 
structures and processes that can be rapidly revised and adjusted to 
respond to these sophisticated new threats. As part of this effort, we 
are cultivating external relationships to improve our overall awareness 
of Internet-based threats. As the global threat environment shifts and 
intensifies, we continually modify our processes and technologies to 
better protect the Senate's information and IT infrastructure. Over the 
next year, we will meet the challenge of managing a dynamic security 
environment by: (1) expanding our current security controls to enhance 
our incident handling capabilities; (2) expanding the technical 
capabilities of our information security operation centers; (3) 
collaborating with other federal agencies to enhance our situational 
awareness and incident response capabilities; (4) evaluating, testing, 
and deploying new security technologies and processes; and (5) 
enhancing communication with system administrators to help them improve 
the security posture of their own information infrastructures.
    In 2008, we provided an increased level of computer security 
support to offices. We were increasingly called upon to help office 
system administrators properly configure desktop and server security 
controls and assist them in responding to security threats of which we 
had notified them. Through our outreach program, we conducted training 
for staff in nearly a dozen offices, regularly assisted with 
orientation sessions for our own new staff, and produced a number of 
new reference guides to assist staff in securing information and 
technology resources. We also continued to work with system 
administrators to promote staff awareness of threats to Senate 
information, and to help them understand what they can do to assist in 
reducing the risk from such threats. As part of the information sharing 
process, we produced numerous blog entries, articles, and user notices 
targeted at both system administrators and the general Senate user 
population. As the Senate continued to employ cutting edge 
technologies, we adjusted our processes and controls to ensure optimal 
product performance and service delivery. We augmented both our 
security services and security infrastructure. For example, over the 
past year we upgraded our security technology monitoring infrastructure 
to provide greater flexibility, improved utilization of our computing 
resources, and enhanced our continuity and disaster recovery 
capabilities. This infrastructure is very scalable, allowing us to 
expand capabilities while controlling costs.
    This year we have continued development of our redundant 
information security operations centers. The mission of these centers 
is to identify and understand threats, assess vulnerabilities, identify 
failure points and bottlenecks, determine potential impacts, and remedy 
problems before they adversely affect Senate operations. We augmented 
these capabilities by collaborating with other federal agencies to 
ensure that we have the most up-to-date information and techniques for 
combating cyber threats. The combination of our information security 
operations centers, defense-in-depth capability, enterprise anti-
malware programs, and centralized security update management service 
has proven effective.
    As outlined earlier, we must continue to remain vigilant because 
the threat environment, as measured by detected security incident 
attempts, remains very high. For example, every day our security 
operations center detects approximately 28.6 million potential security 
threats targeting the Senate, less than 5 percent of which are 
characterized as high-risk based upon the possible severity or impact 
of the threat. Our SAA information security staff handles about 40 
security issues each month. We have also improved our capability to 
monitor the Senate's information technology environment over the past 
year. For example, our ability to detect, analyze, and categorize 
security ``events,'' defined as instances of network traffic that have 
the potential to cause a security breach, have dramatically increased 
from 7 to 9 million per month in 2008, to almost 860 million per month 
so far in 2009. During 2008, we upgraded existing equipment which 
provides richer data feeds on the Senate network. These improvements 
allow us to more clearly identify malicious activity, and thus, have 
resulted in an increase in the number of events we have observed. 
Looking ahead, we project that in-progress infrastructure improvements 
will allow our information security operations centers to evaluate many 
more events in a 24-hour period. This capability will help prevent our 
systems from being overwhelmed during a widespread malware outbreak or 
distributed denial of service attack, and will also allow for 
significant improvements to our security monitoring sensor network.
    Our anti-virus controls detected and countered nearly 52,500 virus-
related events on Senate computers during 2008. Similarly, our client-
based firewalls detected and countered approximately 52,000 attempted 
exploits on Senate computers during the same period. Almost all offices 
use our managed anti-virus system to detect and prevent malware 
infections, and receive patches to repair critical software 
vulnerabilities from our software update servers. These systems protect 
more than 12,000 Senate computers from malicious software and other 
known software vulnerabilities that would otherwise allow attackers to 
compromise these systems. With this said, security controls best 
prevent against unsolicited network traffic, which is to say traffic 
that is not initiated from internal users. We have continued to see an 
increase in infection attempts brought about by users opening malicious 
e-mail attachments or visiting infected Web sites. While the Senate did 
experience an assortment of viral infections on multiple systems in 
2008, our security controls prevented any of these isolated events from 
turning into a widespread outbreak. All our information security 
monitoring activities are in compliance with the SAA's information 
privacy policy.
    Our new information security Watchstander role, patterned after 
similar security operations center positions in other agencies, 
requires around-the-clock availability of our information security 
staff. The position provides the Senate community a central point of 
contact when reporting and responding to IT security events. The 
Watchstander also reviews and responds to IT security alerts, 
suspicious activity bulletins, and warnings compiled by public and 
private sources. Watchstander services include responding to office 
complaints about e-mail spam, e-mail disruptions due to blacklisting by 
external Internet service providers, and phishing attempts. The 
Watchstander also creates user notices in response to warnings on new 
vulnerabilities, and responds to reports of suspicious network traffic 
identified by our information security operations center.

Emergency and Contingency Communications
    This year we continued upgrading and testing our two Senate 
emergency response communications vehicles according to a monthly 
exercise plan. These assets are available for deployment with data 
network, telephone, and satellite connectivity and provide the ability 
to relocate significant information infrastructure virtually anywhere. 
We also continue to train and expand our deployment teams, and work to 
revise and refine our operations procedures for deployment of these 
vehicles in support of the Senate.
    During the year we refined the in-building wireless infrastructure 
in the Capitol and the Capitol Visitor Center. This infrastructure 
provides coverage in areas where it was previously poor or non-existent 
and also allows Senate staff to connect back to their offices via 
wireless remote computing. The wireless infrastructure also supports 
the major cellular carriers, allowing Senators and staff to use the 
carrier of their choice with the device of their choice across the 
Senate campus.
    As we continue to demonstrate during continuity of operation 
exercises, staff can work and communicate from virtually anywhere at 
any time. Because these capabilities are crucial to our ability to 
support the Senate in an emergency, we continue to enhance and expand 
these capabilities in order to support a potentially dispersed 
workforce with the ability to telecommute. It also allows us to provide 
employees with flexible work options on a daily basis and, by allowing 
those options, keeps their remote access skills honed and ready to use 
as needed.

Enhancing Stewardship through Fiscal and Environmental Responsibility
    Stewardship of our resources is intertwined in everything we do, as 
well as being a driving force for some of our activities. We are always 
looking for ways to improve our processes or technologies so that we 
save time, money, electricity, paper, or other resources. Our CIO 
organization is a good steward of the fiscal resources of the Senate, 
as they are consistently and continuously improving on the services 
offered to our customers while seeking only modest increases in 
funding. Many of their initiatives save offices hundreds or thousands 
of dollars in costs that would otherwise be borne out of their official 
accounts. As most of these initiatives save money due to a reduction in 
the purchase of some commodity, they also fit in with our efforts 
toward environmental stewardship. Some examples of our efforts to 
enhance fiscal and environmental stewardship are:
  --Continuation of our virtualization efforts, where we now save 
        $100,000 in annual energy costs and $975,000 in maintenance and 
        support costs by running more than 150 servers/services in 
        virtual environments. We will continue an aggressive campaign 
        to virtualize more systems.
  --During the past year we replaced all Internet e-mail gateway 
        servers with new appliances. The appliances have a much smaller 
        footprint than the servers that they replaced, use much less 
        power, and provide more computing power than the older servers, 
        which allowed us to reduce the number of servers. The 
        appliances also come pre-configured so support is much less 
        labor-intensive. Addition of new appliances or upgrades to 
        existing appliances should also be easier. The overall effect 
        of this replacement project is a ``greener'' computing center.

----------------------------------------------------------------------------------------------------------------
                                                                  Pre-              Post-          Difference
                          Metric                              consolidation     Consolidation       (percent)
----------------------------------------------------------------------------------------------------------------
Power consumption.........................................           80,000W           32,760W               -59
Number of servers.........................................                25                20               -20
Rack space................................................    100 rack units     40 rack units               -60
Heat dissipation..........................................    136,475 BTU/hr     59,464 BTU/hr               -56
----------------------------------------------------------------------------------------------------------------

  --The newly implemented virtual machine infrastructure allows us to 
        centrally host office file and application servers on shared 
        hardware at our primary and the alternate facilities as well as 
        consolidate the test and production servers we manage. The 
        infrastructure greatly increases server hardware efficiency 
        over both the previous virtual file server offering and in-
        office servers, and through system duplication and data 
        replication, offers enterprise class data redundancy and 
        recovery in the event of a critical local failure or crisis. 
        The virtual solution will also relieve offices of considerable 
        noise, excess heat, and will increase usable office working 
        areas for staff. It removes the single point of failure from 
        existing office servers and meets continuity of operations and 
        data replication requirements for approximately half the cost 
        of existing solutions. To date, we are hosting 28 Senate office 
        file servers on our virtual infrastructure. Virtual servers 
        running in the Data Center consume only 15 percent of the 
        energy of a comparable number of physical servers. This means a 
        reduction in power consumption and air conditioning 
        requirements, saving Senate funds, while enhancing our ability 
        to provide reliable and redundant services.
  --Adding network services to copier maintenance contracts allows 
        offices to consider purchasing a networked multi-function 
        copier that can perform print, scan, and fax functions rather 
        than having three separate machines. One machine doing the work 
        of three decreases energy consumption as well as consumable 
        costs. Because network services were previously a billable item 
        for offices, the initiative to bundle network services into the 
        maintenance contracts also reduces invoicing costs.
  --We continue to upgrade and enhance the electronic fax system to 
        encourage offices to use this as well. Senate Fax Services 
        saves hundreds of thousands of pages of paper each year by 
        allowing staff to dispose of unwanted fax messages 
        electronically before they are printed, and reduces the need 
        for fax toner cartridges, which again reduces the need for 
        manufacturing and disposal of them, and saves tens of thousands 
        of dollars a year on their purchase.
  --Online Verizon Wireless billing through our TranSAAct system has 
        eliminated a significant amount of paper. Each invoice was 
        potentially several hundred pages long and at least three paper 
        copies of each invoice were sent to the Senate.
  --Scrutiny of our telecommunications bills for overcharges and 
        incorrect items has saved us more than $100,000 in the current 
        fiscal year.
    We also ensure that the devices we recommend to the Senate meet the 
applicable EnergyStar guidelines, and where feasible, the guidelines 
for the responsible manufacture of information technology equipment.
    IT security is, and will continue to be in the near term, a growth 
area. We anticipate that the trend of cyber attacks associated with 
geopolitical events will continue. In response, our operating model 
emphasizes speed and agility and the ability to bring needed resources 
to bear quickly. Our cyber security contract provides additional 
resources to support this operating model. We continually work to stay 
ahead of threats and put new safeguards in place to protect the 
Senate's information and computing infrastructure. In support of our 
efforts to increase both our analytical and defensive capabilities, we 
are filling two new full-time positions in our IT Security Branch 
approved in our fiscal year 2009 appropriations. We are also deploying 
additional security mechanisms and other protective technologies in the 
Senate network, which will enhance our ability to protect the Senate 
from cyber threats, malware, and other network-borne threats that 
originate from external networks. In addition, we are assisting in 
efforts to integrate sophisticated security products and technologies 
into the new telecommunications system, thus providing a monitoring, 
detection, and active prevention capability that will further protect 
us from current and future cyber threats and better satisfy the 
Senate's requirements for voice communications privacy and reliability
Capitol Visitor Center
    Our office has been involved with the Capitol Visitor Center (CVC) 
since its inception. We have worked collaboratively on this bicameral 
project with representatives from Leadership, oversight committees and 
other agencies to ensure the design, construction and operational 
aspects of the facility achieve the desired results. Our participation 
and the challenges presented have been vast and varied, including but 
not limited to: security; hours of operation; transitioning the Capitol 
Guide Service; emergency preparedness; information technology; 
furnishings for the Senate side of the CVC; Senate Meeting Rooms 
design, set-up and maintenance; bus routes; Capitol tour routes; coat 
checks; official appointments; accommodating visitors to the Senate 
Gallery; broadcast media infrastructure; ATM service; telephone service 
and other communications infrastructure.
    We have several departments that have been impacted by the CVC. 
Their operation and processes changed with its opening.

Senate Appointments Desks
    To improve security and the flow of visitors to the Capitol, the 
Senate Appointments Desk added two desks in the CVC, one located near 
the main entrance and the other located outside of the Senate Meeting 
Rooms on the lower level. Our goal is to process approximately 80 
percent of the people who have appointments at the Capitol through the 
CVC, reducing congestion within the Capitol and minimizing processing 
and waiting time for our guests. We have maintained scaled versions of 
the Capitol and the Russell Appointments Desks for visitors with 
appointments with Leadership and for those who have appointments in 
both the Senate office buildings and the Capitol. Our Appointments 
Desks staff expanded from six to ten and we researched avenues to fill 
these vacancies without increasing the Sergeant at Arms budget. The 
labor efficiencies we implemented in the Senate Post Office enabled us 
to transfer 4 FTEs to the Senate Appointments Desk team to fill the 
vacancies created by our expansion of services to the CVC.

Senate Gallery Visitors
    We improved the visitor experience for those who want to witness 
Senate proceedings from the Gallery. We now process these guests 
through the CVC, rather than the Capitol's North Door. This process 
enhancement improved security, as well as the visitor experience, by 
eliminating the long lines and congestion that had been commonplace 
throughout the Capitol. Our Senate Doorkeepers team manages a staging 
room in the CVC that facilitates the collection of Gallery prohibited 
items and the movement of people in a secure manner. The staging room 
and the surrounding areas offer our guests numerous creature comforts 
and educational opportunities.
    The number of visitors to the Senate Gallery has increased by 
nearly 300 percent during the first 2 months of the 111th Congress as 
compared to the same period during 2008. We expect this trend to 
continue throughout 2009 and beyond. Despite the significant increase, 
the feedback from our visitors has been extremely positive. Senate 
Gallery visitors have complemented our processes, including the 
elimination of long lines waiting outside in the elements, the speed of 
gaining access to the Gallery, and the educational opportunities 
afforded by the CVC.
    This was another opportunity where our team was able to make 
significant improvements without adding FTEs. Despite the fact that our 
Doorkeepers' footprint of responsibility increased by over 70 percent, 
we were able to improve our performance with existing resources.
    The opening of the CVC has had a major impact on the duties of 
Capitol Facilities. We procured and installed both modular and standard 
furniture and relocated other office goods to the Senate Expansion 
Space occupied by the Office of Police Operations, Security and 
Emergency Preparedness (POSEP), Senate Security, the United States 
Capitol Police (USCP), the Senate Curator's office, the Senate 
Recording Studio, and Closed Captioning Services. We also procured 
special event seating, tables and podiums to support ten meeting rooms 
in the CVC that fall under Facilities' purview.
    Capitol Facilities is responsible for providing planning assistance 
for special event set-up, including tables, chairs, podiums, and 
easels. We provide daytime cleaning of space occupied by Senate 
Security, as well as the setup, take down and clean up for each special 
event in the Senate Meeting Rooms. Our Facilities team assisted in the 
conversion of vacated Capitol space due to CVC moves. This included the 
installation of new carpeting and furnishings, as well as furniture 
moving and deep cleaning of renovated spaces. Future expenditures can 
be anticipated as the useful life of furnishings and equipment will be 
determined by the frequency of use.
    Virtually all of the Senate side of the CVC's IT infrastructure is 
supported by the SAA. Maintenance initially will be minimal and will 
not require additional FTEs. However, changes in requirements or 
technological enhancements could require significant time and 
resources. Additionally, as time passes, obsolescence and advances in 
technology become issues that have significant impact on costs.

Recording Studio
    Our Recording Studio is responsible for providing gavel-to-gavel 
coverage of Senate floor proceedings, broadcasting Senate committee 
hearings, and providing radio and television production studios, and 
equipment for Senators' use. Last year, we televised all Senate floor 
proceedings, broadcast 1,309 radio and television productions, and 885 
committee hearings. The committee hearing broadcasts represented a 17 
percent increase versus 2007. This trend continues with the 111th 
Congress as, in the month of January, committee hearing broadcasts 
increased by 86 percent, and radio and television productions increased 
by 62 percent as compared to the previous year. This is another example 
of where we have increased productivity by utilizing process 
improvements and technology rather than adding FTEs. In coming years, 
the Recording Studio will require new cameras in the Senate Chamber and 
replacement of a satellite truck necessary for alternate chamber 
broadcasts and other COOP events.

Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been continually 
increasing. In 2003, we began working with this Committee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee hearing rooms. The project includes 
digital signal processing audio systems and broadcast-quality robotic 
camera systems.
    To date, we have completed 21 hearing rooms, S-207, S-211, and we 
are currently working on SH-219. Room enhancements include improved 
speech intelligibility and software-based systems that we can configure 
based on individual committee needs. The system is networked; allowing 
committee staff to easily and automatically route audio from one 
hearing room to another when there are overflow crowds. Additionally, 
the system's backup will take over quickly if the primary electronics 
fail.
    As part of the upgrades, we installed technologies in our new 
Capitol Visitor Center (CVC) Recording Studio to enhance our ability to 
provide broadcast coverage of more hearings simultaneously without 
adding staff. For example, the Committee Hearing Room Upgrade Project 
will allow us to cover a hearing with one staff member. Before the 
upgrade, three staff members were required to adequately cover a 
hearing. These technology enhancements, coupled with the expansion of 
the number of control rooms for committee broadcasts to twelve, will 
enable us to increase our simultaneous broadcast coverage of committee 
hearings from five to as many as twelve.

Migration to the Capitol Visitor Center
    Our Senate Recording Studio was one of the first departments to 
move into the recently completed Capitol Visitor Center. We 
successfully moved from eight dispersed offices in the Capitol to our 
state-of-the-art facility in the CVC. This move enabled the Recording 
Studio to complete its upgrade to a fully digital, high definition 
facility, which began almost 10 years ago. The Studio completed the 
move of all aspects of its operation, including the engineering shops, 
the Senate Television operation, Studio production and post-production 
facilities, committee broadcast services, and all administrative and 
management offices to the CVC by September 2008, when the Senate 
returned to session.
    Our new facility has received accolades from guests since its 
opening, including Senate Leadership, Senators and their staffs. The 
convenience of the Studio's location and proximity to the Senate Floor 
and Senate subway is a benefit to Senators and staff.
    We completed the move on time despite the challenge of broadcasting 
ten pro forma sessions during August. We successfully used equipment 
designated for Continuity of Operations (COOP) events to broadcast 
these sessions, allowing us to exercise our COOP processes and 
equipment simultaneously.

Media Galleries
    Our four Media Galleries experienced one of their busiest years on 
record and performed their tasks exceptionally well despite numerous 
challenges. Changes in technology have created significant issues for 
our Galleries as they seek avenues to accommodate the various new media 
that have been emerging over the past 10 years. All Galleries have 
worked to incorporate as many online and multimedia organizations as 
possible within the current rules and structure of each respective 
Gallery.
    A significant accomplishment was expanding ``Wi-Fi'' to all rooms 
occupied by Gallery staff and media. This was done in an efficient and 
secure fashion. All involved worked very hard to maintain necessary 
firewalls while providing the wireless access.
    The Media Galleries moved their respective gallery membership data 
files into online applications. This data is housed on more secure SAA 
servers, is easily accessible to Gallery staff, and is available for 
day-to-day credentials, as well as numerous upcoming special events.
    Our Media Galleries work in some of the most beautiful areas of the 
Capitol. Last year we renovated the Daily Press Gallery with a complete 
remodeling of furniture, and installed the latest technology so that we 
may better serve our Members and the media who cover the Senate. The 
Senate Radio/TV Gallery Studio was also renovated in order to install 
the latest technology and provide a modern look for Senators' 
appearances on camera.
    The historic 2008 election cycle was the major story that occupied 
much of the news over the past 2 years. The declaration of six sitting 
Senators seeking their respective party's Presidential nomination and 
the election of two sitting Senators as President and Vice President 
was significant and kept our Galleries busy. This story, coupled with 
the wars in Iraq and Afghanistan and the declining economic conditions 
created great interest among those in the media throughout 2008.
    Election years require significant additional efforts from our 
staff who work in the Media Galleries because, in addition to their 
normal duties, the scope of their responsibilities is expanded to 
making media arrangements for the Democratic and Republican Conventions 
and the Inaugural Ceremonies. While our Media Gallery staff has worked 
diligently on the Presidential Conventions since 1904, that role was 
codified through legislation this past year.
    Preparations for the 2008 Republican and Democratic Presidential 
Nominating Conventions in Minneapolis, Minnesota and Denver, Colorado 
began in January 2008. After months of working on preliminary 
arrangements, workspace assignments, screening applicants, press stand 
allocations, and numerous other logistics, staff were on-site at the 
convention cities from mid-August through the first week in September. 
Approximately 15,000 media attended the conventions. While onsite, the 
Media Galleries allocated approximately 200,000 square feet of 
workspace for news organizations. Additionally, they accredited press, 
oversaw workspace, assigned positions on press and camera stands, and 
distributed floor passes. This year, most arrangements for the 
Democratic convention had to be done twice, since the first three 
nights took place in the Pepsi Center Arena, and the final night was 
held at a second venue, the Denver Broncos football stadium.
    As soon as the conventions ended, our Media Galleries immediately 
shifted their attention to the Inauguration. This year was 
extraordinary: we had approximately a 400 percent increase in the 
number of organizations who wanted to cover the Inaugural compared to 
2005. Newspapers and reporters from all over the United States and from 
countries around the globe applied for credentials. Between the four 
galleries, roughly 5,000 media were on the Capitol's West Front for the 
swearing-in ceremony.
    After January 20th, the work of the Galleries was not done. The 
first year of an Administration is always the busiest time for the 
media, and this one, like the conventions and Inauguration, has had 
more media interest than anything we have seen.

                         OPERATIONS AND SUPPORT

Capitol Facilities
    Capitol Facilities serves the Senate community by providing a clean 
and professional work environment through its Environmental Services 
Division. The Furnishing Division provides creative framing services to 
all Senators and committees, custom cabinets and other high quality 
furniture, carpeting and draperies.
    The Senate Expansion Space of the Capitol Visitor Center (CVC) has 
impacted both the Furnishings Division and the Environmental Services 
Division of Capitol Facilities. Through multi-year funding, furnishings 
were procured for the offices located in this space. The Environmental 
Services Division has accommodated the additional ten event spaces by 
providing meeting planning through our administrative division and room 
setup. Daytime cleaning is also provided for the Senate Security 
offices.
    The Cabinet Shop designer has been instrumental in providing space 
planning for the Senate Expansion Space offices and the newly renovated 
Capitol offices. Through the use of computer aided design, floor plans 
were constructed easing the transition of Capitol offices into their 
new CVC spaces.
    An online request system known as CAPFOR (Capitol Facilities Online 
Request) has been launched to provide online access for Capitol work 
requests. This system provides an instantaneous way for staff to make 
service requests and view photos of the office furniture inventory.
    Capitol Facilities completed 5,000 service requests from staff; 
planned and provided 2,600 setups for special events; constructed 140 
pieces of furniture; and matted and framed 1,900 documents, photos and 
memorabilia for Senators.

Central Operations
            Printing Graphics and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) branch provides 
high-level, direct customer support to the Senate community in 
photocopying, print design, and production services. During 2008, PGDM 
responded to customer requests for color printing by utilizing digital 
and traditional full-color offset printing equipment to produce over 
19.7 million full-color pages, an increase of 4 percent over 2007.
    PGDM retained high levels of customer satisfaction through 
maintaining reliable, user-friendly copiers in convenient satellite 
copy centers which produced over 8.6 million copies in 2008. In 
response to many requests, PGDM expanded its very popular microfilm 
conversion service and produced over 551 CDs from microfilm, a 77 
percent increase over 2007. PGDM also met growing Senate office 
requests for report printing and produced 2.8 million pages, up 16 
percent over 2007.
    As a good steward of its own resources and that of others, PGDM 
saved the Senate over $2.2 million in postage costs (53 percent more 
than 2007) by pre-sorting 10.9 million pieces of Senate franked mail, a 
126 percent increase over 2007. PGDM's commitment to teamwork and to 
excellent customer service extends to our Senate partners as well. The 
department's collaborative work with the Architect of the Capitol (AOC) 
fulfilled 65,000 flag requests during 2008 and in tandem with the 
Government Printing Office, delivered over 1 million documents (Pocket 
Constitutions, Our Flag, Our American Government, etc.) to requestors.
    PGDM's Senate Support Facility upheld the SAA mission for 
operational security by receiving 65,425 items from the United States 
Capitol Police Off-Site inspection facility and transferring them to 
the Senate Support Facility in 2008. This eliminated 619 truck 
deliveries to the Capitol complex.
            Parking Office
    The Senate Parking, Transportation and Fleet Office is a leader in 
``green'' initiatives:
  --The fleet includes 22 flex-fuel vehicles, two hybrid vehicles and 
        one electric car. In a collaborative agreement with the AOC, 
        eleven E85-compatible Senate vehicles have access to the AOC 
        E85 fuel station.
  --Six motorcycle parking spaces were added on the Northwest Lower 
        Drive in 2008. In combination with 28 motorcycle spaces on Lot 
        16 and 12 spaces on Lot 12, this gives Senate staff more 
        choices when considering their commuting options.
  --Solar panel lighting was added to Lot 18 to provide heightened 
        security and energy efficient illumination for customers.
            Photography Studio
    The Photography Studio provides photography and imaging services 
for Senate offices, capturing 75,000 photo images and producing more 
than 100,000 photo prints in fiscal year 2008. The Photography Studio's 
popular image archiving service was used to scan, organize, and 
transfer more than 113,000 photo images to portable hard drives for 
departing Senators.
    The Photography Studio is currently replacing the Photo Browser 
application. After extensive research and evaluation of numerous 
commercial off-the-shelf products, a selection was made and application 
installation began in December 2008. North Plains Telescope is a fully 
supported Digital Asset Management (DAM) product that is well-
architected and meets all modern, open architecture programming 
standards. General Dynamics is working with North Plains and Photo 
Studio staff to identify design and configuration requirements, and 
plans to test the new application by June 2009.
            Senate Hair Care
    Following careful market research, Senate Hair Care increased 
prices on selected services in July 2008. Within the following 7 
months, revenue increased by $18,565 (7 percent) over the same period 
in 2007. After listening to customers, services and retail product 
offerings were also expanded to include more personal care products and 
travel-sized items which keep customers compliant with Transportation 
Security Administration security. Customers are responding positively 
to the new services and retail products offered in Senate Hair Care.

                               CONCLUSION

    We take our responsibilities to the American people and to their 
elected representatives seriously. The composition of the Office of the 
Sergeant at Arms is comparable to a number of small businesses, each 
with its own primary mission, each with its own measures of success, 
and each with its own culture. It has a fleet of vehicles that serves 
Senate Leadership, delivers goods, and provides emergency 
transportation. Our Photography Studio records historic events, takes 
official Senate portraits, provides a whole range of photography 
services, and delivers thousands of pictures each year. The SAA's 
printing shop provides layout and design, graphics development, and 
production of everything from newsletters to floor charts. The Office 
of the Sergeant at Arms also operates a Page dormitory, a hair salon, 
and parking lots. It provides many other services to support the Senate 
community, including framing, flag packaging and mailing, and intranet 
services. Each of these businesses requires personnel with different 
skills and abilities. One thing that they all have in common is their 
commitment to making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.

              Appendix A--Fiscal Year 2010 Budget Request

           ATTACHMENT I--FINANCIAL PLAN FOR FISCAL YEAR 2010

                     EXECUTIVE SUMMARY: OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                          Fiscal year       fiscal year 2009
                                                             Fiscal year      2010    --------------------------
                                                             2009 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Salaries...................................................      $66,800      $75,044       $8,244          12.3
Expenses...................................................      $83,472      $91,712       $8,240           9.9
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............     $150,272     $166,756      $16,484          11.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $63,118      $55,114      ($8,004)        -12.7
Capital Investment.........................................       $2,315      $15,185      $12,870         555.9
Nondiscretionary Items.....................................       $4,696       $6,450       $1,754          37.4
                                                            ----------------------------------------------------
      TOTAL................................................     $220,401     $243,505      $23,104          10.5
                                                            ====================================================
Staffing...................................................          958          963            5           0.5
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2010 
budget request of $243,505,000, an increase of $23,104,000 or 10.5 
percent compared to fiscal year 2009. The salary budget request is 
$75,044,000, an increase of $8,244,000 or 12.3 percent, and the expense 
budget request is $168,461,000, an increase of $14,860,000 or 9.7 
percent. The staffing request is 963, an increase of five.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$75,044,000, an increase of $8,244,000 or 12.3 percent compared to 
fiscal year 2009. The salary budget increase is due to the addition of 
five FTEs, a COLA, and merit funding. The additional staff will support 
increased demand for services, as well as advancing technology.
    The general operations and maintenance expenses budget request for 
existing and new services is $91,712,000, an increase of $8,240,000 or 
9.9 percent compared to fiscal year 2009. Major factors contributing to 
the expense budget increase are equipment and software maintenance 
costs for enterprise storage, $1,235,000; professional services, 
software purchase and technical support for IT Security, $1,094,000; 
escalating costs of the IT Support Contract and other IT Support 
agreements, $844,000; smart card badges for the ID Office, $650,000; 
and system design costs for the Senate services portal, $600,000; 
system design services for admin systems, $553,000; and telephone 
system maintenance, $551,000.
    The mandated allowances and allotments budget request is 
$55,114,000, a decrease of $8,004,000 or 12.7 percent compared to 
fiscal year 2009. This budget supports state office rents, $17,644,000; 
voice and data communications for Washington, DC and state offices, 
$13,200,000; purchase of computer equipment, $12,315,000; procurement 
and maintenance of office equipment for Washington, DC and state 
offices, $4,665,000; maintenance and procurement of Member mail 
systems, $4,500,000; and state office security enhancements, 
$2,700,000.
    The capital investment budget request is $15,185,000, an increase 
of $12,870,000 or 555.9 percent compared to fiscal year 2009. The 
fiscal year 2010 budget request includes funds for audio and video 
upgrades for committee hearing rooms, $5,000,000; hardware for network 
upgrades, $2,500,000; equipment purchases for the storage area network, 
$1,600,000; replacement of printing equipment, $1,540,000; and state 
office wide area network hardware, $1,150,000.
    The nondiscretionary items budget request is $6,450,000, an 
increase of $1,754,000 or 37.4 percent compared to fiscal year 2009. 
The request funds three projects that support the Secretary of the 
Senate: contract maintenance for the Financial Management Information 
System, $3,427,000; costs related to the replacement of the Senate 
Payroll System, $2,150,000; and maintenance and necessary enhancements 
to the Legislative Information System, $873,000.

      ATTACHMENT II--FISCAL YEAR 2010 BUDGET REQUEST BY DEPARTMENT

    The following is a summary of the SAA fiscal year 2010 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                          Fiscal year       fiscal year 2009
                                                             Fiscal year      2010    --------------------------
                                                             2009 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $31,307      $39,566       $8,259          26.4
Operations.................................................      $42,827      $47,120       $4,293          10.0
Technology Development.....................................      $47,877      $62,523      $14,646          30.6
IT Support Services........................................      $81,752      $75,368      ($6,384)         -7.8
Staff Offices..............................................      $16,638      $18,928       $2,290          13.8
                                                            ----------------------------------------------------
      TOTAL................................................     $220,401     $243,505      $23,104          10.5
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $17,537      $19,612       $2,075         11.8
    Expenses................................................      $10,970      $12,254       $1,284         11.7
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $28,507      $31,866       $3,359         11.8
                                                             ===================================================
Mandated Allowances & Allotments............................       $2,700       $2,700  ...........  ...........
Capital Investment..........................................         $100       $5,000       $4,900      4,900.0
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $31,307      $39,566       $8,259         26.4
                                                             ===================================================
Staffing....................................................          287          287  ...........  ...........
----------------------------------------------------------------------------------------------------------------

    The Capitol Division consists of the Executive Office, the Office 
of Police Operations, Security and Emergency Preparedness, Post Office, 
Recording Studio and Media Galleries.
    The general operations and maintenance salaries budget request is 
$19,612,000, an increase of $2,075,000 or 11.8 percent. The salary 
budget increase is due an expected COLA and merit increases, and other 
adjustments.
    The general operations and maintenance expenses budget request is 
$12,254,000, an increase of $1,284,000 or 11.7 percent primarily in 
support of the new smart card badges for the ID Office.
    The mandated allowances and allotments budget request for state 
office security initiatives is $2,700,000.
    The capital investments budget request of $5,000,000 will fund 
hearing room audio and video upgrades.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $18,509      $20,358       $1,849         10.0
    Expenses................................................       $6,876       $7,028         $152          2.2
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $25,385      $27,386       $2,001          7.9
                                                             ===================================================
Mandated Allowances & Allotments............................      $16,992      $17,744         $752          4.4
Capital Investment..........................................         $450       $1,990       $1,540        342.2
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $42,827      $47,120       $4,293         10.0
                                                             ===================================================
Staffing....................................................          305          307            2          0.7
----------------------------------------------------------------------------------------------------------------

    The Operations Division consists of the Central Operations Group 
(Director/Management, Parking Office, Printing, Graphics and Direct 
Mail, Photo Studio, and Hair Care Services), Facilities, and the Office 
Support Services Group (Director, Customer Support, State Office 
Liaison, and Administrative Services).
    The general operations and maintenance salaries budget request is 
$20,358,000, an increase of $1,849,000 or 10.0 percent. The salary 
budget increase is due to an expected COLA, merit increases, two new 
FTEs to support increased service levels, and other adjustments.
    The general operations and maintenance expenses budget request is 
$7,028,000, an increase of $152,000 or 2.2 percent. This increase is 
primarily due to increases in equipment maintenance costs.
    The mandated allowances and allotments budget request is 
$17,744,000, an increase of $752,000 or 4.4 percent due to increased 
commercial and federal office rents.
    The capital investment budget request is $1,990,000, an increase of 
$1,540,000 or 342.2 percent. This request includes funds for a color 
network printer, $500,000; laser printer, $400,000; copy center 
copiers, $200,000; and servers, $200,000; a digital printing and 
processing machine, $200,000.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $13,922      $16,306       $2,384         17.1
    Expenses................................................      $27,594      $31,572       $3,978         14.4
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $41,516      $47,878       $6,362         15.3
                                                             ===================================================
Mandated Allowances & Allotments............................  ...........  ...........  ...........  ...........
Capital Investment..........................................       $1,665       $8,195       $6,530        392.2
Nondiscretionary Items......................................       $4,696       $6,450       $1,754         37.4
                                                             ---------------------------------------------------
      TOTAL.................................................      $47,877      $62,523      $14,646         30.6
                                                             ===================================================
Staffing....................................................          146          149            3          2.1
----------------------------------------------------------------------------------------------------------------

    The Technology Development Services includes the Technology 
Development Director, Network Engineering and Management, Enterprise IT 
Operations, Systems Development Services, Information Systems Security 
and Research Services.
    The general operations and maintenance salaries budget request is 
$16,306,000, an increase of $2,384,000 or 17.1 percent. The salary 
budget increase is due to the addition of three FTEs, an expected COLA 
and merit funding for fiscal year 2010. Technology Development requires 
three FTEs in support of wireless network services and to provide 
expertise in mass distribution of software solutions in the SAA LAN 
environment.
    The general operations and maintenance expense budget request is 
$31,572,000, an increase of $3,978,000 or 14.4 percent. This increase 
is due to equipment and software maintenance costs for enterprise 
storage, $1,235,000; professional services, software purchase and 
technical support for IT security, $1,094,000; and systems design 
services for admin systems, $553,000.
    The capital investment budget request is $8,195,000, an increase of 
$6,530,000 or 392.2 percent. This request includes data network upgrade 
project, $2,500,000; data network engineering, $2,200,000; upgrade of 
the Storage Area Network (SAN), $1,600,000; and state office wide area 
network hardware, $1,500,000.
    The nondiscretionary items budget request is $6,450,000, an 
increase of $1,754,000 or 37.4 percent. The request consists of three 
projects that support the Secretary of the Senate: contract maintenance 
for the Financial Management Information System, $3,427,000; 
replacement of the Senate Payroll System, $2,150,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$873,000.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                          Fiscal year       fiscal year 2009
                                                             Fiscal year      2010    --------------------------
                                                             2009 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $6,916       $7,669         $753          10.9
    Expenses...............................................      $31,310      $33,029       $1,719           5.5
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $38,226      $40,698       $2,472           6.5
                                                            ====================================================
Mandated Allowances & Allotments...........................      $43,426      $34,670      ($8,756)        -20.2
Capital Investment.........................................         $100  ...........        ($100)       -100.0
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $81,752      $75,368      ($6,384)         -7.8
                                                            ====================================================
Staffing...................................................          113          113  ............  ...........
----------------------------------------------------------------------------------------------------------------

    The IT Support Services Department consists of the Director, Office 
Equipment Services, Telecom Services and Desktop/LAN Support branches.
    The general operations and maintenance salaries budget request is 
$7,669,000, an increase of $753,000 or 10.9 percent. The salary budget 
will increase due to an expected COLA and merit funding for fiscal year 
2010.
    The general operations and maintenance expenses budget request is 
$33,029,000, an increase of $1,719,000 or 5.5 percent. This increase is 
primarily due to escalating costs of the IT Support Contract and other 
IT support agreements, $844,000; telephone system maintenance, 
$551,000; and upgrade of Postal Square voice and data cabling, 
$354,000.
    The mandated allowances and allotments budget request is 
$34,670,000, a decrease of $8,756,000 or 20.2 percent. This budget 
supports voice and data communications for Washington, DC and state 
offices, $13,200,000; computer equipment, $12,315,000; procurement and 
maintenance of office equipment for Washington, DC and state offices, 
$4,665,000; and maintenance and procurement of Member and Committee 
mail systems, $4,500,000.
    The capital investment budget request is $0.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2010 vs.
                                                                           Fiscal year      fiscal year 2009
                                                              Fiscal year      2010    -------------------------
                                                              2009 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $9,916      $11,099       $1,183         11.9
    Expenses................................................       $6,722       $7,829       $1,107         16.5
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $16,638      $18,928       $2,290         13.8
                                                             ===================================================
Mandated Allowances & Allotments............................  ...........  ...........  ...........  ...........
Capital Investment..........................................  ...........  ...........  ...........  ...........
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $16,638      $18,928       $2,290         13.8
                                                             ===================================================
Staffing....................................................          107          107  ...........  ...........
----------------------------------------------------------------------------------------------------------------

    The Staff Offices Division consists of Process Management & 
Innovation, Education and Training, Financial Management, Human 
Resources, Employee Assistance Program, and Special Projects.
    The general operations and maintenance salaries budget request is 
$11,099,000, an increase of $1,183,000 or 11.9 percent. The salary 
budget increase is due an expected COLA, merit funding and other 
personnel adjustments.
    The general operations and maintenance expenses budget request is 
$7,829,000, an increase of $1,107,000 or 16.5 percent. This increase is 
primarily due to system design costs for the Senate services portal, 
$600,000.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, SR., CHIEF
ACCOMPANIED BY:
        DAN NICHOLS, CHIEF OF OPERATIONS AND ASSISTANT CHIEF OF POLICE
        GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER

    Senator Nelson. Chief Morse.
    Chief Morse. Good afternoon, Mr. Chairman and Ranking 
Member Murkowski, Senator Pryor, Senator Tester. It certainly 
is an honor for me to be here today.
    I do have written testimony that I would like to submit for 
the record.
    Senator Nelson. It will be received.
    Chief Morse. I also have a brief opening statement, if that 
would be okay with you?
    Senator Nelson. That would be fine. Thank you.
    Chief Morse. First, I would like to make just two 
introductions. First, to my left is the chief of operations, 
our assistant chief of police Dan Nichols. And to his left is 
our chief administrative officer, Gloria Jarmon.
    Over the past year, several years, the department has 
undergone many changes. While all of these are necessary to 
move the department forward, I believe that our focus for the 
next fiscal year will be one of leveling out our operational 
and administrative activities.

            FUNDING EFFICIENCIES AND ADDRESSING DEFICIENCIES

    My direction to my management team is to focus on finding 
efficiencies and addressing longstanding deficiencies to meet 
the department's core mission as well as focus on 
institutionalizing and standardizing repeatable business 
practices.
    The Government Accountability Office (GAO) and the Office 
of Inspector General has made over 169 recommendations since 
2005, which were intended to improve the department's 
operations, and most of these were geared toward the 
administrative operations. These administrative operations 
encompass more than just how we manage our finances.
    The audit recommendations cover how we maintain our 
physical inventory, how well we control privacy information, 
how well we secure our information systems, as well as how 
efficiently and effectively we recruit, select, train, and pay 
our employees. I am pleased to report that, again, we have made 
significant progress.
    We have now closed over one-half of all these 
recommendations. This is despite the addition of 40 additional 
recommendations this past year alone. We currently have just 85 
of 169 still open and are in the process of implementing 
corrective actions to close these in the near future.
    Recently, we closed 16 Office of Inspector General 
recommendations dealing with property management, the memorial 
fund, hiring standards, and the student loan repayment program. 
We also anticipate closing many GAO recommendations in the 
coming months.
    The department, as you mentioned, produced a fiscal year 
2008 financial statement in time for a complete independent 
audit, which resulted in the department receiving a clean 
opinion on our financial statements for the first time in our 
history.
    We received reaccreditation from the Commission of 
Accreditation in Law Enforcement after undergoing an extensive 
onsite evaluation to review operations and supporting 
documentation to verify that we have maintained compliance with 
standards over the 3-year accreditation review period. This 
confirmed the fact that we achieved mandatory compliance for 
almost 300 accreditation requirements.
    We issued our updated strategic plan and strategic human 
capital plan, which will improve our ability to link our human 
resources programs to our strategic goals and enable us to 
measure out our staffing needs and progress much more 
efficiently and effectively. We implemented effective business 
practices and internal controls in our financial and human 
capital resources, facilities, and information technology.
    We reconciled our financial management and property 
management systems and performed a complete physical inventory. 
We aligned our salary and benefits data with the National 
Finance Center. We revised our budget justifications to 
incorporate strategic objectives, accomplishments, and 
schedules consistent with executive and other legislative 
branch agency budgets.
    Finally, on the operational side of the mission, again, our 
police officers and our operational civilians have once again 
done an outstanding job representing our police department and 
protecting the legislative process and all its members, staff, 
visitors, and dignitaries. And I want to thank them today for a 
job well done.

                           PREPARED STATEMENT

    At this time, sir, I will answer any questions that you 
have.
    Senator Nelson. Thank you.
    [The statement follows:]

              Prepared Statement of Phillip D. Morse, Sr.

    Chairman Nelson, Ranking Member Murkowski, and Members of the 
Committee, I am honored to be here to testify before you today. With me 
today are Dan Nichols, our Chief of Operations, and Gloria Jarmon, our 
Chief Administrative Officer.
    Over the past several years, the Department has undergone many 
changes. While all of these were necessary to move the Department 
forward, our focus for the next fiscal year will be one of ``leveling 
out'' our operational and administrative activities. My direction to my 
management team is to focus on institutionalizing standard and 
repeatable business practices, finding efficiencies, and addressing 
longstanding deficiencies to meet the Department's core mission set. To 
do so, we have developed a budget proposal that I believe meets my 
vision.
    Our total budget request for fiscal year 2010 is $410.1 million. 
This represents a requested increase of $104.3 million. Of this 
increase, about 69 percent or about $71.6 million is for modernization 
of our radio system and 20 percent or about $18 million is for items 
over which we have no control such as cost of living and salary 
adjustments, costs associated with the merger of the Capitol Police 
with the Library of Congress Police, plus uncontrollable inflation 
increases. The remaining portion of our requested increase is primarily 
to cover additional positions to help us reduce the overtime that we 
need to properly cover everyday post requirements, as well as to 
address the lifecycle replacement of systems that have been deferred in 
previous fiscal years. Due to the time critical nature of the radio 
modernization project, we have also requested that the same $71.6 
million be included in the President's fiscal year 2009 Supplemental 
Request.
    I would like to take a few minutes to expand on some of these areas 
and provide you with the highlights for some of our accomplishments 
over the last year.

                      RADIO MODERNIZATION PROJECT

    First, let me address our request for funding to support the new 
radio system. There are three critical life and safety tools that our 
officers need in the performance of their duties. They are reliable 
radio communications, weapons, and protective equipment. The radio 
system currently in use is the only one of these three that we believe 
may present an unacceptably high risk to the life and safety of our 
officers, Members of Congress, their staff, family, and visitors, as 
well as to our ability to properly respond to emergency situations on 
Capitol Hill. Since the attacks of 9/11, the threat posed to the 
Congress, the Capitol, and the Complex has changed significantly. It 
has become much more critical for us to have reliable radio 
communications that provide for interoperability between the Department 
and our other federal, state and local law enforcement partners in the 
area. As the scope of this increased threat on the Congress has 
evolved, it has become increasingly apparent that our current radio 
system, which is over 20 years old and experiencing multiple regular 
failures, is not capable of providing the reliable communication 
capability that we need.
    In addition, we have recently received notice from the manufacturer 
of our dispatch consoles that they will no longer be providing us 
technical support because of the age of our equipment. These 
circumstances create a substantive risk to our ability to properly 
carry out our mission, especially during a time of emergency. 
Increasing that risk is our lack of an interoperable system able to 
communicate with other first responding organizations such as the 
Secret Service, the Metropolitan Police, the Metropolitan Fire 
Department and the U.S. Park Police. We believe this risk to be 
significant and immediate. Another area of vulnerability is the lack of 
encryption for our current radio system. This lack of encryption 
enables our adversaries, the press and others to monitor our radio 
transmissions, which has potential to compromise our mission.
    To address this risk, the U.S. Capitol Police plans to procure a 
VHF trunked radio system in order to achieve adequate on street, in-
buildings, garages, basements and in-tunnels radio coverage throughout 
the Capitol Complex as well as our extended area of operation. 
Therefore, we are requesting a total of $71.6 million in multi-year 
funding for this project.
    Because of the criticality of this requirement, we have expedited 
our request for this funding by asking that it also be included in the 
President's fiscal year 2009 Supplemental Request. The sequence that we 
would otherwise follow would require us to complete the detailed design 
and hopefully obtain funding in fiscal year 2010, and then procure the 
necessary equipment and services. If funding is delayed (by a CR, for 
example) due to circumstances beyond our control we would need to 
suspend procurement activity until such time as funding could be made 
available, and that would slip project completion dates accordingly.
    If we could get supplemental funding in fiscal year 2009 rather 
than in fiscal year 2010 it would permit us to begin the acquisition 
process for segments of the project as soon as the detailed engineering 
design is completed for each segment rather than having to delay all 
procurement activities until we are able to obtain funding in fiscal 
year 2010. By doing so we could begin to roll out these segments much 
sooner than we would otherwise be able to do and consequently may be 
able to shave several months off the time required to fully implement a 
new system. Given the increased risks associated with the continued 
problems we are experiencing with an aging system, we believe it 
prudent for us to expedite our new system implementation as much as we 
can.
    We believe that the nature of the radio modernization project 
comports with the intent of emergency supplemental bills, which 
frequently fund ``pressing domestic needs.'' This new system is 
critical to our ability to effectively address anti-terrorism, and the 
continuity of government operations. The initial funding of $10 million 
for this project was provided in the fiscal year 2007 emergency 
supplemental bill because of the urgency associated with beginning the 
planning and detailed engineering design of the new system as quickly 
as possible. We believe that urgency still exists and justifies our 
request that funding for the project be included in the pending 
supplemental.
    The requested amount of $71.6 million for the radio project 
includes $4 million for the build out or construction of a mirror or 
alternate site; $31.1 million for equipment hardware costs; $20.1 
million for subscriber equipment; $9.9 million for travel equipment, 
encryption, and professional services; and $6.5 million for contingency 
funds for unforeseen conditions with strict controls on the use of such 
funds. However, the Department's funding requirements for a new radio 
system are estimated at $89.6 to $97.6 million, which includes the $10 
million previously provided by the Congress for this purpose and the 
$71.6 million included in this request. The remaining $8 to $16 
million, which is expected to be requested in fiscal year 2011, relates 
to the indoor coverage requirements, which cannot be finalized until 
after the completion of the design engineering, plus project 
contingency requirements.
    The Department has evaluated a number of alternatives regarding how 
to proceed with this critical procurement. We have also sought the 
advice of various independent experts, who have advised us to enlist 
the project management and related services of an outside government 
agency with considerable expertise in technical procurements of a 
similar magnitude. For this reason, we have established an interagency 
agreement with the Naval Air Systems Command (NAVAIR). NAVAIR's Special 
Communications Requirements Division has accomplished numerous 
communications efforts for other U.S. government agencies, to include 
the White House Communications Agency, the U.S. House of 
Representatives, the U.S. Senate, the Department of Homeland Security's 
Office of Emergency Communications and various other classified 
efforts.
    For this effort, they have already begun to develop a detailed 
design engineering study of each building, garage, tunnel, and outdoor 
site so we will have complete technical specifications for the project 
once we have the funding and are ready to proceed.

                           OVERTIME/STAFFING

    Our other area of requested growth is related to additional sworn 
personnel, whom we would use to help us reduce the Department's 
dependence on overtime in meeting our normal mission requirements. Over 
the last year, we have continued to analyze and evaluate posts and 
other staffing needs and have concluded that we could increase 
operational efficiency through the addition of sworn personnel.
    The Department has continued to approach its sworn manpower 
requirements through a three-pronged approach. This approach includes 
the assessment of threats against the Capitol Complex using the risk 
matrix we designed in collaboration with the Government Accountability 
Office, the physical security surveys we have conducted on the Capitol 
Complex buildings under our jurisdiction, and the alignment of 
available sworn staff to meet the threats.
    The Department began the first step in this effort in fiscal year 
2007 with a review of our overtime utilization in relation to mission 
requirements. The review resulted in a manpower study that was 
performed for us by Enlightened Leadership Solutions (or ELS).
    We have begun to use the ELS study as a guiding management tool for 
the alignment of functions and the deployment of personnel, but this 
study does not represent a complete analysis of our sworn manpower 
requirements. We will also need to assess the staffing requirements for 
the Library of Congress and Capitol Visitor Center, since these 
missions were added subsequent to the completion of the ELS study. As a 
result, we are continuing to analyze ELS data, current threat 
assessment data and the ability of our infrastructure to support sworn 
growth, in order to establish and validate an appropriate staffing 
level for the Capitol Police, as well as an appropriate level of 
overtime. We expect this analysis to be completed no later than our 
fiscal year 2012 budget submission. In the meantime, we believe that 
our fiscal year 2010 sworn staffing request represents a reasonable 
first step toward the proper balance of overtime and full-time sworn 
staff and can be supported within our current infrastructure.
    This year's request is an important step in an ongoing evaluation 
that we will use to identify an overtime level that will be balanced 
and more efficient.

New Sworn Positions
    Therefore, we have requested an increase of 89 sworn positions in 
fiscal year 2010, which includes 76 to help us to fulfill our current 
mission while enabling us to begin reducing our use of overtime. The 
other 13 sworn positions are requested in our Protective Services 
Bureau for counter surveillance and investigative intelligence 
gathering in order to conduct basic surveillance detection and field 
collection operations across the Complex. This will bring the sworn 
positions to 1,888 by the end of fiscal year 2010.
    Our plan is for the new sworn officers we are requesting to enable 
us to reduce the amount of overtime worked by most of our sworn 
positions once recruit training is completed. Of course, there will 
always be a need for overtime to cover uncontrollable protective 
details of Members and certain intermittent work requirements, such as 
scheduled events like the Fourth of July celebration. In addition, 
unpredictable overtime to support events, such as unplanned late 
Congressional sessions, Congressional delegations, unplanned special 
events, unplanned major demonstrations, and emerging threats, will also 
be needed. Scheduled and unscheduled events such as these will continue 
to be staffed by using overtime, as they reasonably should be.

New Civilian Positions
    In fiscal year 2010, we have also requested 48 new civilian 
positions. Twenty-one of these positions are for civilian employees who 
were formerly LOC officers, transferring to the USCP as a result of the 
Capitol Police and Library of Congress Police merger. Several of the 
remaining positions would eliminate our need to use contractors to 
accomplish critical mission sets, as well as to address outstanding 
audit findings. Additionally, four of these positions are to support 
the Department's Office of the Inspector General.
            Highlights
    We recognize that our requested salaries and general expenses 
increases are significant in today's fiscal environment, but we believe 
these funds are critical to the Department's ability to efficiently, 
effectively and--most importantly--safely perform our mission.
    However, I believe that when an agency is making such a request for 
increased budgetary consideration, we must also demonstrate to you the 
value we bring to the overall community. Therefore, I would like to 
provide some brief highlights of these operational and mission support 
efforts to you.
    Over the last year, the Department has made significant efforts to 
review its operations for efficiency, standardize its business 
practices, address its management and fiscal shortcomings and address 
outstanding audit recommendations and findings. During this same 
period, we also provided law enforcement operations for a number of 
high profile activities, while continuing to provide for the safety and 
security of the Capitol Complex.
            Operational Activities
    Nearly 400 officers and support staff participated in the law 
enforcement and security activities associated with the Republican and 
Democratic Conventions. These efforts included dignitary protection and 
protective intelligence.
    The Department played a key role in the planning and execution of 
the law enforcement support for the 56th Presidential Inauguration. By 
any measure, the Inauguration of President Barack Obama was historic 
with an unprecedented 1.8 million people gathered to witness and 
experience this historic event.
    In addition:
  --We provided security and counter-intelligence support for 63 Head 
        of State arrivals, 34 Presidential and Vice Presidential 
        Motorcades, the State of the Union, the Papal Visit, the 2008 
        Concert Series and over 2,000 VIP arrivals to include Supreme 
        Court Justices, Cabinet Members and other U.S. and foreign 
        dignitaries.
  --We screened 8.7 million staff and visitors to the Complex, 
        including the Capitol Visitor Center (CVC) that opened in 
        December 2008.
  --As a result of law enforcement actions, we confiscated several 
        handguns, an AK-47, a number of .22 Caliber Rifles, shotguns, a 
        BB rifle, ammunition, a sword, a night stick, several knives, a 
        bayonet, a machete, a hatchet, a stun gun, metal pipes, 
        grenades, pepper spray, mace, box cutters and razor blades, a 
        sling shot, a table leg and a baseball bat.
  --We conducted over 163,000 K-9 security sweeps.
  --We screened over 32,000 vehicles at our offsite facility.
  --We conducted over 24,000 Transportation Interdiction Group 
        Emergency Response Team (T.I.G.E.R.) vehicle screenings, which 
        resulted in 11 vehicles being refused access to the Complex, 3 
        arrests and 104 citations.
  --We conducted 3,500 foundation checks of the buildings on the 
        Complex utilizing the Department's mountain bike patrols 
        yielding 9 arrests, and 532 Notices of Interest.
  --We conducted 3,800 hazardous materials/weapons sweeps and responded 
        to over 150 suspicious package and substance incidents.
  --We conducted 90 emergency evacuation drills in conjunction with the 
        House, Senate and the Architect of the Capitol to ensure that 
        the Congressional Community is trained to respond to 
        emergencies.
  --We completed 5,664 preventative maintenance checks on security 
        equipment, up from 2,229 checks in 2007, partially due to 
        delays in lifecycle replacement.
  --We completed 7,172 checks on Barriers, up from 2,263 in 2007, 
        partially due to delays in lifecycle replacement.
  --We performed 3,697 Magnetometer calibrations, up from 1,997 in 
        2007, partially due to delays in lifecycle replacement.
            Administrative Activities
    Over the last year, we have also provided a significant level of 
mission support to the overall operational mission, and we improved 
upon our administrative capabilities.
    As you know, both the Government Accountability Office and our 
Inspector General have made 169 recommendations since 2005 intended to 
improve the Department's operations, and most of these are geared 
toward administrative operations. These administrative operations 
encompass more than just how we manage our finances. The audit 
recommendations cover how we maintain our physical inventory; how well 
we control privacy information; how we secure our information systems; 
as well as how efficiently and effectively we recruit, select, train, 
and pay our employees. Responding to these recommendations with limited 
staff has been a challenge for us, but we are pleased to report that we 
have made significant progress.
    We have now closed about half of all these recommendations--this 
despite the addition of 40 recommendations in the past year alone. We 
currently have just 85 of the 169 still open and are in the process of 
implementing corrective actions to close these in the near future. 
Recently, we closed 16 OIG recommendations dealing with property 
management, the Memorial Fund, hiring standards, and the Student Loan 
Repayment Program. We also anticipate closing many GAO recommendations 
in the coming months. We believe we are beginning to get ahead of the 
curve on improving our administrative operations, and while we realize 
we have a lot of work ahead of us, we anticipate more improvement as 
the year proceeds.
    Some of the best progress we have made in the past year has been in 
the financial management arena. In order to achieve these results, we 
focused on the hiring of a Chief Financial Officer (CFO), Deputy CFO, 
Budget Officer, Deputy Procurement Officer, as well as several other 
professional positions within the Office of Financial Management. The 
hiring of these highly qualified managers allowed the Department to 
benefit from their experience, talent, knowledge and understanding, 
along with a high level of integrity that is critical to agency 
operations. They have federal--as well as considerable legislative 
branch--expertise, and we are optimistic that with this team we can 
establish the practices, policies and procedures that (as this 
Committee has noted in the past) we have been lacking. The professional 
administrative oversight from these individuals, as well as the many 
other professional and technical civilians within the Department, has 
enabled us to begin to institutionalize an administrative operation in 
the U.S. Capitol Police that will be as responsive, accountable, and 
transparent as any in the federal government.
    To this end, we have recently completed classes in appropriation 
law for all of the Department personnel who have any impact on 
appropriated funds. This makes it the perfect time for us to continue 
to examine our procurement and budgeting standard operating practices 
to ensure we comply with all mandates. In addition, we are now 
ascribing salary data to the Bureaus and Offices that directly benefit, 
and thus in the future, we will be better able to project salary data 
and trends. Having tied our strategic goals to spending of our general 
expenses appropriation in the fiscal year 2010 budget request, we will 
be able to do this with our salary appropriation, as well, for the 
fiscal year 2011 budget cycle.
    Other administrative accomplishments and enhancements within the 
past year have included the following:
  --The Department produced an fiscal year 2008 financial statement in 
        time for a complete independent audit, which resulted in the 
        Department receiving a clean opinion on our financial statement 
        for the first time in the Department's history.
  --We received reaccreditation from the Commission on Accreditation of 
        Law Enforcement Agencies (CALEA) after undergoing an extensive 
        on-site evaluation to review operations and supporting 
        documentation to verify that we have maintained compliance with 
        standards over the 3 year accreditation review period. This 
        confirmed the fact that we achieved mandatory compliance for 
        all of the almost 300 accreditation requirements and resulted 
        in the Department receiving its third accreditation award.
  --We issued our updated Strategic Plan and our Strategic Human 
        Capital Plan which will improve our ability to link our human 
        resources programs to our strategic goals and enable us to 
        measure our staffing needs and progress much more efficiently 
        and effectively.
  --We implemented effective business practices and internal controls 
        into our financial, human resources, facilities, and 
        information technology operations.
  --We reconciled our financial management and property management 
        systems, and performed a complete physical inventory.
  --We aligned our salary and benefit data with the National Finance 
        Center budget object codes to be able to respond to Committee 
        requests with more precision.
  --We revised our budget justification to incorporate strategic 
        objectives, accomplishments, and schedules consistent with 
        Executive and other Legislative Branch agency budget reports.
    Even with these significant achievements, the Department continues 
to struggle to level off its administrative operations. One of our 
biggest concerns is the retention of professional talent within our 
civilian staff that we know to be necessary to move the Department 
forward. We simply cannot sustain the turnover rates in critical 
civilian positions that we have experienced in the past. By continuing 
this level of attrition, we lose far too much in productivity, 
institutional knowledge and employee morale. We need to be able to 
provide the same flexibilities for our civilian employees that other 
federal government agencies provide.
    While we have authorization and often funding to provide 
recruitment and retention bonuses, as well as to administer a Student 
Loan Repayment Program and tuition reimbursement program, the 
Department has either not had sufficient program staff onboard to 
develop, implement and manage a best-practices program for each of 
these areas, or the onboard staff has been overburdened with workloads 
necessary to maintain other areas of the Department.
    Additionally, we do not have alternate work schedule or telework 
programs or an incentives awards program that provides for cash and 
time off incentives, programs for which many federal civilian employees 
have grown accustomed in their workplace.
    All of these factors have contributed to the Department's 
challenges in recruiting qualified candidates or retaining those we 
currently have onboard. In fact, during our attempts to fill some of 
the current civilian vacancies, the process has proceeded to the point 
of selection, only to have the selectee decline the job offer when they 
found out that the Department could not offer workplace benefits or 
quality of life programs similar to those of other federal entities.
    To address these challenges, the Department is working on policies 
to administer these programs in accordance with applicable laws, 
regulations and consistent with best practices. However, the Department 
wants to be thoughtful in its rollout, so that the programs are not 
compromised, which could result in additional audit findings and 
stakeholder recommendations.
    Additionally, we are planning our first all-employee customer 
satisfaction survey, and have begun regularized exit interviews for 
terminating employees to better understand how to improve the workplace 
in order to retain our talented sworn and civilian workforce.
    Another area in which we also hope to achieve greater efficiencies 
is in fleet management. We are completing a comprehensive analysis of 
our fleet services, including a cost-benefit analysis of leasing versus 
buying vehicles, which we plan to present to the Committees for funding 
consideration. This plan will focus on providing justification for the 
fleet requirements, demonstrating areas where we have reduced or plan 
to reduce the fleet, and it will provide for a 5-year fleet management 
plan to meet the validated fleet requirements. This plan will also 
address our efforts to make the fleet more energy efficient.

                               CONCLUSION

    In conclusion, I believe that there is much work left to be 
undertaken, but we expect that the combined efforts of many of our 
dedicated staff will result in the continued transformation of the 
Department into a more efficient and accountable organization.
    Recognizing that the Committees have expressed concerns over the 
last several years about the Department's leadership, internal 
controls, and financial management, we have placed significant emphasis 
on addressing these shortcomings.
    Under the leadership of Gloria Jarmon, the Department achieved a 
clean opinion on its financial statements 2 years earlier than 
expected; our Office of Financial Management has become more efficient 
and it has achieved staffing stability; we have addressed numerous 
oversight studies and inquiries; we have developed a comprehensive plan 
to procure and implement a new radio system; we have redesigned our 
budget development and execution processes; we have completed 
appropriations law training for all Department personnel who have any 
impact on appropriated funds; and we have resolved numerous audit and 
oversight findings and recommendations.
    On our Operational side, under the leadership of Dan Nichols, the 
Department has continued our efforts to find efficiencies in sworn 
staffing and the utilization of those personnel resources. This effort 
has resulted in a savings in the Department's overtime utilization.
    All these achievements have been accomplished while supporting the 
operational mission of protecting the Capitol Complex, providing 
security for two national political conventions and supporting a 
Presidential Inauguration of historic size and capacity.
    It is through this leadership and the dedication of our employees 
that the Department has been able to realize these achievements, even 
with a large number of civilian vacancies and under a continuing 
resolution. With a continued focus on addressing our civilian staffing 
needs, balancing the optimum sworn personnel levels against overtime 
requirements and resolving audit recommendations and findings, I 
believe that the next year will see even greater efficiencies and 
effectiveness from our team.
    I believe that our fiscal year 2010 budget request supports the 
goals I have stated here today. Please be assured that this management 
team, with the continued support of the Capitol Police Board and our 
stakeholders, is committed to moving the Department forward to meet 
these operational and administrative goals.
    I am happy to answer any questions you may have.

    Senator Nelson. Senator Tester, do you have any opening 
remarks you might like to make before we go to the questions?
    Senator Tester. Thank you, Mr. Chairman.
    I just want to thank you for the work you do, and we will 
grill you on the budgets here in a bit.
    So, thank you.
    Senator Nelson. Thank you.
    Ms. Erickson, can you discuss the project that you are now 
working on jointly with the Sergeant at Arms to replace the 
current Senate payroll system? How that will work and how it 
will be improved, what it will cost, and how long it will take 
to complete?
    Ms. Erickson. Sure thing. Our payroll system has served us 
well over the years, but it has been what we call patched and 
updated to meet the growing demands of the system. And it was 
actually brought to my attention by the Sergeant at Arms IT 
staff that there are concerns that the technology--our payroll 
system uses a mainframe technology--has a declining market 
share these days. And as a result, there is declining vendor 
support.
    I felt that it was prudent to look ahead at other options 
for our payroll system and had asked our financial clerk to 
work with his counterpart, Jay Moore, in the Sergeant at Arms 
IT shop to begin the process of looking at what is available 
out there for technology that would meet the increasingly 
complex demands of the Senate community.
    Senator Nelson. In the improvement of that, will there be 
some cost savings that are identifiable? In other words, will 
it be not only more efficient, but will that efficiency 
translate into lesser costs?
    Ms. Erickson. Yes, I believe over the long run, it will be 
a more efficient system. And as this subcommittee well knows, 
our payroll system is highly customized to meet the 
requirements of Federal statutes, title II. We have a unique 
semi-monthly or 24-pay cycle. We have shared employees often 
between Senate offices and committees. And we don't have a 
uniform pay scale. We also have unique minimum and maximum 
salaries.
    So it is a very highly customized system, but I am 
confident, Mr. Chairman, that the system will in the long run 
be efficient.
    Senator Nelson. I know that Senator Pryor is worried that 
his check will come on time.
    I am sure that you can assure us that there won't be any 
slowdown in pay?
    Ms. Erickson. I promise. I promise.
    Senator Nelson. Good. For both Ms. Erickson and Mr. Gainer, 
a question on evacuation drills. I know that we have from time 
to time tried to go through evacuation drills to keep everybody 
aware of what is necessary in the case of an emergency. And it 
seems like it is a better process than the first time that I 
heard officers running through the Capitol--near the Senate 
chamber yelling, ``Get out of the building,'' which was fairly 
mundane compared to what I think we are perhaps able to do 
today.
    Can you tell us where we are on the security that would be 
involved to get people out of the Capitol in an organized, 
prompt, and safe manner?
    Mr. Gainer. Senator, thank you.
    We have come a long way, I think, since the--one of the 
first mass evacuations after 9/11 when I was the Chief of the 
Capitol Police, when we had the incoming aircraft, Senator, at 
Reagan's funeral----
    Senator Nelson. That is the one I was referring to.
    Mr. Gainer [continuing]. Which didn't go as smooth as it 
would today. And what it meant was between the Chief's office 
and our office and others was to put together programs and 
practice those programs that would get as orderly an evacuation 
as you can when everybody is pretty terrorized.
    So we have plans. We work with your offices and staff so 
that they understand those. There are plans for each one of the 
offices, and we have been drilling those. And in fact, next 
month there will be another drill on the Senate floor, where we 
will exercise staying in place or evacuating. And we work very 
closely with the floor staffs to do that and your office and 
Nancy's and the police departments.
    And we just had a meeting in the Secretary's office 
yesterday, I believe, with the other officers of the Senate, 
and we will come to each one of your luncheons--the Democratic 
luncheon and the Republican luncheon--to give a little bit more 
focused information for you as we do with your staff. So I 
think we are actually in a pretty good place on it.
    Senator Nelson. I have a question that was submitted to us 
from Senator Inouye, the chairman of the Appropriations 
Committee. He says that a few years ago, the offices submitted 
in conjunction with the Senate Rules Committee, a contract for 
a study of the Senate employees childcare center. Based on the 
findings of this study, do we have a shortfall of adequate 
childcare available to Senate employees, or is it okay? If it 
isn't, what is the next step in addressing that challenge?
    Ms. Erickson. Well, the Senate Rules and Administration 
Committee asked my office in 2007 to conduct a childcare 
survey, and it was the first survey that was done since the 
childcare center opened in 1984.
    And if my memory serves me correctly, I believe we had 
roughly 3,500 Senate employees, including State staff 
employees, who participated in the survey. And to my 
recollection, there were roughly 850 people who responded who 
indicated that they were using childcare services or plan to in 
the very near future.
    We do have a problem, particularly with infant care. There 
are only nine infant slots. I have someone on my staff who has 
put her name in the Senate childcare center and was told there 
was a waiting list of 99 people for infant care with the Senate 
childcare center.
    It has been a problem for a long time. My baby, who is now 
14, was on the waiting list back in 1994. He never got off the 
waiting list. So I am empathetic to the young parents in the 
Senate community who are trying to get into the center.
    Some of the options that the study looked at were possibly 
expanding the facility; collaborating with other childcare 
centers, particularly those on Capitol Hill; purchasing slots 
for Senate employees; providing specialized referral services 
for our staff, as well as looking at other family friendly 
policies; and providing folks, when applicable, telecommuting 
opportunities.
    My staff was asked to look at some property. There is a 
townhouse located next to the childcare center that is 
currently for sale. The assistant secretary and my chief of 
staff went to look at the property. A follow-up visit was done 
by the Architect of the Capitol's staff, who determined that 
the row house would not be feasible for a childcare center.
    One positive result of the study, I will say, is that it 
prompted the Senate childcare center, which is a nonprofit run 
by a parent cooperative board, to retool their admission 
policy, which now gives preference to Senate employees.
    Another promise that was made by the childcare center is 
that they would increase transparency in their waiting list. 
Unfortunately, a promised Web site that would give people who 
apply to the childcare center a sense of where they are at on 
the wait list hasn't been launched yet.
    But I am, again, very empathetic to the situation. It is a 
problem, and I am grateful for Senator Inouye's and all of your 
interest in this issue and advocacy on behalf of young parents 
in the Senate.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Nancy, you had mentioned in response to the chairman's 
inquiry on the payroll system, explaining the importance of it 
and the need to advance with the Sergeant at Arms. I didn't 
hear if you mentioned what the estimated cost is for that new 
system.
    Ms. Erickson. I believe $2 million. Is that----
    Mr. Gainer. If I may?
    Ms. Erickson. Go ahead.
    Mr. Gainer. Well, the initial funds we are asking you for 
is $2 million. I think the total cost for its full 
implementation won't be known until the first quarter of fiscal 
year 2010. But we have discussed with the Secretary if that is 
the case, if it gets much beyond where we are at, then we will 
sit down collaboratively and see how we can come up with those 
funds and perhaps not have to come back to you.
    So we are aware it could be more, and we just wait to see 
that final price.
    Ms. Erickson. And I would also add we are obviously 
consulting with your subcommittee, keeping you posted as we 
learn more about the potential costs for such a system.
    Senator Murkowski. Okay. So at this point in time, we are 
just in the process of identifying----
    Ms. Erickson. The very beginning.
    Senator Murkowski [continuing]. What it is that we are 
looking at there.
    Ms. Erickson. The very beginning.
    Senator Murkowski. I appreciate that.
    Terry, let me ask you, you had indicated that after 
conversations with the chairman--and this is as to the staffing 
within the Sergeant at Arms office--that you were now prepared 
to perhaps pull back on some of the full-time equivalents 
(FTEs) that you had advanced. Now I just want to have a clear 
sense as to what the staffing issues and needs are within the 
Sergeant at Arms office.
    You are proposing an increase in the salary budget of over 
12 percent, and as I understand, you are requesting 878 
employees, and expect to have approximately 824 onboard this 
year. I can very clearly see, as you look at the numbers 
advancing since the year 2001, you can clearly appreciate the 
need for additional staffing.
    But talk to me a little bit about why we would continue to 
expect to see an increase. Since 9/11, it was about a 35 
percent increase is what I understand. In view of that and 
recognizing that at some point you expect to be tapering off, 
tell me why I should expect to see continued increase in 
staffing with each subsequent year?
    Mr. Gainer. Sure. Thank you, ma'am.
    We looked at it, and actually, over the last 6 years or so, 
we have grown by nearly 100 positions. And it is something that 
we continue to wrestle in this organization, as I have in the 
others, and what I wanted and was provided a breakdown of where 
those positions went. And the largest majority, as I recall, 60 
went to our IT group.
    And with this ever-increasing technology, there is the 
requirement to manage it and care for it. So, in some respects, 
to an old sociologist like myself--and cop--it would seem that 
as we get the better technology, we should have fewer people.
    Senator Murkowski. Right.
    Mr. Gainer. But it just requires more sophisticated people 
to take care of those things, and we keep adding IT 
requirements. So, for instance, over those years, I think it 
may have been the year 2000, I am not sure we had many 
BlackBerries. We initially distributed 100 or so to the 
Members. We now have 6,000 BlackBerries distributed to staff.
    So when you add the computers and the BlackBerries and the 
servers and all that is required, and especially the other area 
is the security issue of our technology. We have expanded that 
shop.
    And I was reading in the New York Times today that the New 
York Police Department indicated--this is related to security--
had 70,000 attempts per day to hack into their computer system. 
In talking to our chief information officer, we may have 10 
times that a day, people trying to hack into our system.
    So we really have set up a large shop to counter those 
types of activities. Now that is just an example, and we will 
continue to work with you and your staff to point those out.
    Other areas, 20 people went into the operations division, 
and they went into printing and graphics. As I mentioned, it 
was just a few short years ago that we had monstrous machines 
not unlike that you see at the Government Printing Office, and 
now it is technology driven. But with that technology and 
maintenance, it requires a more sophisticated individual, and 
those are where those people have gone.
    And when I looked at these five, and again, based on 
conversations as recently as Tuesday with the chairman, as he 
did when he was Governor and I worked for my Governor, you have 
to take some of this out of hide. So we went back and looked. 
We saw that last year, we asked you for 19. I believe you gave 
us 19.
    We actually only hired 15 of those 19. One more I think is 
in the pipeline someplace. So I challenged our own staff to say 
we didn't even hire all the ones we asked for last time. Let us 
take a look at what we are doing. As of this morning, we had 
about 38 vacancies in our staff. I said, okay, let us see if we 
can see where and how long we have gotten away with not filling 
those and see if we can convert those to some of the new 
positions.
    So technology actually is driving the more people.
    Senator Murkowski. Which seems counterintuitive.
    Mr. Gainer. Yes.
    Senator Murkowski. You think that if we have got the smart 
technology, you don't need to have as many human beings behind 
it. I would be curious to see a little bit more in terms of the 
breakdown and where it is going. Just because the four of us 
have new BlackBerries doesn't mean that we have got to have one 
person to check up on each of the equipment that is out there.
    Let us have a discussion, though, about these vacancies. 
Now it was my understanding that there is somewhere around 50 
vacancies throughout the organization. You say perhaps it is 
closer to 38. And I appreciate the fact that you are doing a 
specific assessment as to those vacancies. How long have they 
been vacant? Can you do without them? How much funding could we 
save if, in fact, we reprogrammed to other priorities?
    Within these areas of vacancies, where are you seeing that? 
You are saying that they are not in the IT area specifically. 
So what aspect of the organization----
    Mr. Gainer. Sure. Actually, I was looking this morning at a 
spreadsheet, and I will provide that to you and your staff to 
spell it out. One of the things I learned was we really got 
behind with the--where our budget wasn't approved for about 6 
months so we couldn't hire. That is how we got behind in some 
areas.
    And I think these positions are spread throughout the 
agencies. And as I sit here, ma'am, I can't recite those. I 
have a spreadsheet, and I will give it to you and your staff.
    Senator Murkowski. Well, I have just been handed a 
spreadsheet here, and it looks like there is a lot in tech 
development and support services. But I think that would be 
important to take a look at those and determine if we need more 
folks now in the IT and tech support, okay, are there other 
areas that are perhaps dated now? I think that is going to be 
important as we look at the staffing.
    I also understand that there have been funds available from 
prior years, fiscal year 2006 through 2008, totaling over $17 
million that aren't needed for the purposes for which they were 
appropriated. Can you tell me a little bit about the status of 
those funds? Why, what do you propose to be doing with them? 
And do you anticipate that any of the funds provided in fiscal 
year 2009 not to be needed for the purpose for which they were 
initially appropriated?
    Mr. Gainer. Well, the easy answer to the last one is, 
first, we need to work with your staff to see how we can best 
utilize those funds. And the other question we asked, Drew and 
I did, how did we get to that position?
    So, over the 5 years, we have developed that extra funds, 
but also we should keep in mind that over those 5 years, we 
were actually dealing and managing a budget of $750 million of 
$1 billion. So some analysts might say a 3 percent overage is a 
reasonable ballpark and has added up.
    But I did get some specific breakdowns in unexpected 
reductions in the volume of local and especially long distance 
calls. So as I talk about those 6,000 BlackBerries, the upside 
of the 6,000 are people are making fewer telephone calls. We 
ended up saving $5 million in the last 3 years just on that 
alone.
    In the performance incentives in our IT contracts, when we 
let those contracts, we assume that contractors will meet or 
exceed the expectations so that there are performance awards in 
there. And to the extent they don't, that again produces money. 
And that was to the tune of about $2 million.
    So I, of course, said to my CFO, well, are we bad 
estimators or are we contracting improperly? And appropriately, 
they educated me on the fact that the best business practice is 
to assume that your contractor is going to meet all those 
requirements, come in under funds, and come in early, and we 
will owe them the incentive. So our preference would be to 
continue to budget like that and not underbudget what a 
contract may be.
    Let us see, $1.5 million, a customer requirements change, 
the cost of the equipment changed. And so sometimes, blessedly, 
as the process is delayed from the day you order it, envision 
it to 3 years later, it becomes cheaper. And we have picked up 
some funds that way.
    But clearly, that is money we all need to look at to see if 
that can help all of us out in this fiscal year.
    Senator Murkowski. Mr. Chairman, I have other questions for 
Chief Morse, but in deference to my colleagues, I will yield to 
them at this time.
    Senator Nelson. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Now I understand that Senator Tester may have to leave at 
3:30 p.m.? Do you want to--why don't you go first?
    Senator Tester. If you would be so kind? Thank you very 
much. I owe you--hopefully not too much.

                      RADIO MODERNIZATION PROGRAM

    The question I have deals about the radio modernization 
program. Terry, you talked about it in your testimony. Chief 
Morse, you talked about it in your testimony. Where is the 
money? Which budget is it coming out of?
    Chief Morse. Thank you, Mr. Tester.
    We have also requested funding for the radio modernization 
program in the supplemental. The reason that we have----
    Senator Tester. Is that the $71.6 million?
    Chief Morse. Yes, sir.
    Senator Tester. Okay.
    Chief Morse. The reason we have requested in the 
supplemental is due to the criticality of the system itself. It 
is one of our critical life safety tools, communication. And 
the immediacy in which we can begin to purchase technical 
equipment and such, the supplemental would help us to do that 
in a more timely fashion.
    Senator Tester. And that takes care of the entire project? 
Is there money that comes out of your budget for 2010 also, or 
is it just the supplemental dollars?
    Chief Morse. The supplemental dollars take care of the 
project.
    Senator Tester. Okay. Any out of your budget, Terry?
    Mr. Gainer. No, sir.
    Senator Tester. Okay. If you look at your budget, Nancy, it 
shows an increase of about $2 million, if I am correct----
    Ms. Erickson. Actually, sir, I am not requesting an 
increase in my operating budget. It will remain the same at $2 
million.
    Senator Tester. Okay.
    Senator Nelson. No increase, yes.
    Ms. Erickson. But an increase in the salaried portion of 
the budget, roughly $1.7 million.
    Senator Tester. Okay. So the budget for--let us go this 
way. The budget for fiscal year 2010 is at $27.790 million, 
includes $25.790 million in salary costs and $2 million for 
operating budget. And then the salary budget increases of about 
$1.770 million. That is outside the $2 million for the 
operating budget?
    Ms. Erickson. Yes.
    Senator Tester. Okay. All right. What was your budget in 
2009?
    Ms. Erickson. Our budget for operating costs was at $2 
million. So we are requesting the same level of funding that we 
requested last year.
    Senator Tester. Okay, and what was your salary?
    Ms. Erickson. And the salary budget is $1.7 million more 
this year, which consists of providing a cost-of-living (COLA) 
benefit for employees.
    Senator Tester. Right. So your budget this year is $1.7 
million higher than over last year?
    Ms. Erickson. Roughly a 7 percent----
    Senator Tester. Seven percent? Seven percent, is that what 
the----
    Ms. Erickson. Right.
    Senator Tester. All right. The issue of the five FTEs, what 
kind of savings does that represent of budget?
    Mr. Gainer. Approximately, I think the salary savings was 
$400,000. That would----
    Senator Tester. Is there any other savings that will accrue 
from that, those five FTEs that you are going to pull out?
    Mr. Gainer. I am guessing out-year merit issues and other 
pay adjustments would be affected by that. But the basic salary 
and the COLA would be saved. So probably just close to 
$500,000.
    Senator Tester. Oh, okay. All right. Thank you.
    The payroll system, if I heard the answer to the question 
of Senator Murkowski, was that this was going to be a study to 
see what kind of payroll system you needed?
    Ms. Erickson. Right. I think it is important that we not 
rush ahead, that we take our time.
    Senator Tester. As do I. The question is, is how old is the 
one you have got now?
    Ms. Erickson. Chris, how old?
    Mr. Doby. Twenty plus years.
    Ms. Erickson. Twenty plus years.
    Senator Tester. Twenty plus years. All right. And do you--
and this applies to all three of the entities. Do you do long-
range planning for these kind of things? In other words, 
payroll is something that is going to be around for a while. 
And your payroll system, once you get this one in, it is going 
to be obsolete after x number of years.
    The same thing could be said about the radios. The same 
thing could be said just about everything. I mean, it all is 
going to wear out. It is going to become obsolete. Do you have 
those kind of things within your budget that you set aside so 
much for obsolescence?
    Ms. Erickson. Well, the payroll issue was brought to my 
attention this last year. But----
    Senator Tester. I should ask to begin with, can you even do 
that?
    Ms. Erickson. Can I do that? Well, the two systems that I 
would think of that would be our payroll system and then our 
financial management information system (FMIS) system, which is 
a Web-based system for creating and processing vouchers.
    But I do think that we can do a better job of long-range 
planning, and that is my concern with the payroll system is 
that it is an old system. And I would hate to have the Senate 
in a position where something happens to the system and we 
hadn't done our job to look ahead.
    Senator Tester. Right. I understand. But currently, it is 
not a matter of practice to--and this is a revolving thing. You 
don't have this job forever. So, I mean, but there is not a 
system in place where you plan for that right now, at least not 
in your office?
    And I mean, it is not a negative thing if that is the way 
it is. But if that is the way it is, that is the way it is. I 
am just curious.
    Ms. Erickson. Yes. I think we can do a better job of long-
range planning.
    Senator Tester. Okay. Terry.
    Mr. Gainer. Yes, we do. And in fact, as part of this 
budget, I am trying to do some quick numbers on your question. 
It might be as much as $10 million is built in there to replace 
and upgrade equipment or replace printing equipment or other 
items. And I can get more specific.
    Senator Tester. Okay.
    Mr. Gainer. And we do have kind of a 5-year vision of how 
those affects----
    Senator Tester. Is that public information? Can I get that?
    Mr. Gainer. Yes. You sure can, Senator.
    Senator Tester. Okay.
    [The information follows:]

                      FINANCIAL PLAN FOR FISCAL YEAR 2010--EVERGREEN BUDGET BY EXPENSE TYPE
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                   111th Congress        112th Congress        113th Congress
                                               -----------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                year 2009  year 2010  year 2011  year 2012  year 2013  year 2014
----------------------------------------------------------------------------------------------------------------
Operations and Maintenance:
    Salaries..................................     66,800     75,044     80,414     86,225     92,260     98,719
    Expenses..................................     83,472     91,712     97,867    101,388     96,722    100,762
                                               -----------------------------------------------------------------
      Total Operations and Maintenance........    150,272    166,756    178,281    187,613    188,982    199,481
                                               =================================================================
Allowances and Allotments.....................     63,118     55,114     55,460     55,826     56,591     57,291
Capital Investments...........................      2,315     15,185      7,982     12,100      8,800      5,821
Nondiscretionary Items........................      4,696      6,450      9,982     10,073      6,145      6,210
                                               -----------------------------------------------------------------
      Grand Total.............................    220,401    243,505    251,705    265,612    260,518    268,803
                                               =================================================================
Staffing......................................        958        963        964        966        966        966
                                               =================================================================
Totals:
    Salaries..................................     66,800     75,044     80,414     86,225     92,260     98,719
    Expenses..................................    153,601    168,461    171,291    179,387    168,258    170,084
                                               -----------------------------------------------------------------
      Total Salaries and Expenses.............    220,401    243,505    251,705    265,612    260,518    268,803
----------------------------------------------------------------------------------------------------------------

    Senator Tester. Chief Morse.
    Chief Morse. Yes. We strategically plan in our budget for 
lifecycle replacement with the things that we know will become 
obsolete or wear out. The radio system, of course, is a more 
robust system that lasts longer than most technology.
    Senator Tester. I understand. Do you have the same kind of 
situation as Terry has? Do you have a 5-year plan or a 10-year 
plan or longer than that as far as replacement of equipment in 
your agency?
    Chief Morse. We do. It may be equipment or technology 
specific, but we do look at each item and strategically plan 
for when it will need to be replaced in the budget.
    Senator Tester. Is that something I can lay my hands on?
    Chief Morse. Yes.
    Senator Tester. And it is not that I want to micromanage 
anybody's agencies. I don't. I just am curious to see where you 
guys put your priorities.
    Chief Morse. Okay. Thank you.
    Senator Tester. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Nelson. Now Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Let me start, if I may, with you, Ms. Erickson, about the 
daycare center. The Rules Committee, which we are members of, 
asked was it last year to review and evaluate what is going on 
with the daycare center and to come back with some 
recommendations. What is the current policy about former staff 
members being able to have their children in the daycare 
center?
    Ms. Erickson. Well, it is my understanding that the policy, 
the current policy is that Senate--a sibling of a current 
Senate employee's child or Senate childcare employee's child 
already in the center has preference, followed by a child of 
Senate or childcare center employees. After that preference is 
given to a sibling of a child already enrolled in the center 
who has a parent employed by another legislative branch agency, 
followed by a child of an employee of another legislative 
branch agency. Children whose parents are not employed by the 
legislative branch are further down on the order of preference.
    But that wasn't the case before the study. So you had the 
situation where former staffers who had left the Hill and were 
lobbyists, for example, had their children enrolled in the 
center ahead of current Senate employees.
    Senator Pryor. My understanding, though, is there are still 
22 children enrolled that are children of former staffers. Do 
you know?
    Ms. Erickson. I can get that information and follow up with 
you. But I believe that there are children that have worked 
their way up into the system that are still there.
    Senator Pryor. That are of former staffers?
    Ms. Erickson. Yes.
    Senator Pryor. Okay, yes, I would like to know that. But 
the policy is that if they are former staffers, they shouldn't 
be there. Am I wrong on that?
    Ms. Erickson. Well, that would be a decision for the parent 
board, the cooperative board that runs the childcare center 
with oversight of the Senate Rules Committee.
    Senator Pryor. Okay. I would like to know----
    Ms. Erickson. But I would share your--I mean, my personal 
opinion is obviously that the current Senate employees should 
be given preference.
    Senator Pryor. Right. Yes, I would like to know the facts 
on that, if I may? If you could provide that, I would 
appreciate it.
    [The information follows:]

 [From Senate Employee's Child Care Center Parent Handbook--2009-2010 
                              School Year]

                  ENROLLMENT AND WAIT LIST INFORMATION

    Applications for enrollment will be considered without regard to 
race, color, national origin, religion, sex, or disability.
    A wait list has been established to accommodate the demand for 
child care. Placement on the wait list is determined by (1) priority 
ranking, which is based upon where the parent(s) are employed; (2) 
registration date, which is the date your check for your wait list 
registration fee and your annual Corporation membership fee are 
received at the SECCC (details below); and (3) the age range of the 
vacancy to be filled. Unfortunately, not all applicants will be able to 
enroll because the demand for child care exceeds the current 
availability. Parents are therefore encouraged to place their child, 
expected child, or adoptive child (completed or in a formal adoption 
process) on the wait list at the earliest possible date to increase the 
likelihood that a space will be available at the Center when needed. 
You must have a child, be pregnant or be in a formal adoption process 
to apply for the wait list. Once a space becomes available for a child, 
the parents will be contacted by the Director and given two business 
days to decide whether to enroll their child at the Center. If a 
position is declined, the child will remain in his or her current 
position on the wait list as long as the family remains current with 
annual Corporation dues. Failure to pay annual Corporation dues in a 
timely manner results in removal of a child from the wait list.
    Priority for enrollment is given in the following manner:
  --Sibling of a U.S. Senate employee's child or SECCC employee's child 
        already enrolled in the Center;
  --Child of a U.S. Senate or SECCC employee;
  --Sibling of a child already enrolled in the Center who has a parent 
        employed by another entity of the legislative branch of the 
        Federal Government;
  --Child of an employee of another entity of the legislative branch of 
        the Federal Government;
  --Sibling of a child already enrolled in the Center whose parents are 
        not employed by the legislative branch of the Federal 
        Government; and
  --Child of parents not employed by the legislative branch of the 
        Federal Government.
    A Senate employee is classified as someone who receives his or her 
paycheck from the Secretary of the Senate. A legislative branch 
employee is classified as an employee of the U.S. House of 
Representatives, the Library of Congress, the Capitol Police, the 
Architect of the Capitol, the U.S. Government Accountability Office, 
the Office of Technological Assessment, the Government Printing Office, 
and any other legislative branch activity and spouses of such 
employees.
    In the unlikely event that wait list children have the same 
registration date, the same priority ranking, and the same age range, 
wait list placement will be differentiated additionally by a random 
drawing.
    In order to facilitate transparency of the wait list and assist 
families in making child care decisions, the SECCC offers online wait 
list access to Senate families. The system is accessible through the 
SECCC website and allows individuals to:
  --Enroll as members of the Corporation;
  --Register their child(ren) to be on the wait list;
  --Modify contact and employment information; and
  --Monitor their position on the wait list.
    The online system does not have the capability of accepting 
payments. Therefore, new families that enroll as members of the 
Corporation and register to be on the wait list must deliver or mail a 
check for their wait list registration fee and annual Corporation fee 
to the SECCC in order to activate their account and be assigned a 
registration date. The registration date is the date Corporation 
membership and wait list registration fees are received at the SECCC.
    Non-Senate families may contact the Director to apply and monitor 
their placement on the wait list.
    Families must keep the Center updated with current home, work and 
cell phone numbers, address, employment status and preferred email 
address to ensure that the Center is able to contact families with 
Center information and in the event that a space becomes available for 
a child.

                   RADIO FUNDING IN SUPPLEMENTAL BILL

    Senator Pryor. Chief Morse, let me ask you about your radio 
system. There is $71 million in the supplemental for that. That 
seems awfully high to me.
    I know that Arkansas went through this process a few years 
ago where they put in a statewide system that was 
interoperable, that the idea was that all the counties and all 
the local first responders and all that could tie into the same 
system. I think the cost to do that system statewide was $94 
million, and that was covering 53,000 square miles. And you 
know, you are covering more like 300 acres. So tell me why it 
is so expensive.
    Chief Morse. Certainly. The system and our operations are 
rather unique. In most municipalities, State organizations, and 
some of our Federal partners, there is probably about 80 
percent external use of a radio system, with about 20 percent 
being internal. Here, it is just the opposite. Eighty percent 
of it is internal, and about 20 percent is external.
    That drives the cost because of the infrastructure and 
engineering design that takes place to have adequate coverage 
subterraneally in our garages, subways, and basement areas. So 
that drives the costs. Whereas in an external system, you would 
not have that significant cost.
    Senator Pryor. I can understand how that would drive the 
cost, but not to $71 million. That is an enormous amount of 
money for a radio system.
    Chief Morse. I do have some of the technical experts with 
me. But I believe our coverage would be about 100 square miles 
of area covering a 25-mile radius, which is specific to our 
responsibility for continuity of Government, continuation of 
operations. And perhaps not in this forum, but sidebar, I could 
and the Sergeant at Arms could brief you specifically on that.
    But our operations do not just exist here within the 
Capitol campus. It does reach out far beyond that, and that 
also drives the cost of a system of this nature.
    Senator Pryor. Do you have a breakdown of the costs?
    Chief Morse. Yes, sir. I do.
    Senator Pryor. Do you have a contractor already in place 
that is doing this?
    Chief Morse. No, sir. We do not. This will be an RFP, an 
open competitive bid that will be put out once our engineering 
design is complete for the system.
    Senator Pryor. All right. I would like to see the 
breakdown. Again, not in this forum because I don't want to 
waste my colleagues' time on that, but I would like to look at 
that.

                   SPECIFICATIONS OF THE RADIO SYSTEM

    And also I am curious about the life expectancy of this 
system. It is like what Senator Tester was asking a few moments 
ago about long-range planning. What is the life expectancy on a 
system like this?
    Chief Morse. The life expectancy of this particular system 
is about 10 to 15 years.
    Senator Pryor. And do I understand that it is going to be 
encrypted?
    Chief Morse. Yes, sir. That is one of the pieces of the 
uniqueness of our operations.
    Senator Pryor. Why? Why does it have to be encrypted?
    Chief Morse. Currently, our system is not encrypted. 
Therefore, anyone in the public, press, or another adversary 
could listen to any of our operations. In order to mitigate any 
circumstance that we would have in a critical incident, it is 
imperative that we be able to communicate without others 
listening in or knowing what it is that we are doing to 
mitigate the crisis that we are dealing with.
    So encryption is necessary to protect the legislative body 
as well as visitors and staff that we are trying to protect. If 
we were giving direction to, for instance, shelter in place or 
relocate, and the adversary knew where that was, then it would 
be adverse to the action that we are trying to take.
    Senator Pryor. Do you know how much the encryption adds to 
the cost?
    Chief Morse. I don't have the figure with me, but we do 
have a specific figure for that.
    Senator Pryor. Okay. And I would like for you to provide 
that to the subcommittee, if you could?
    [The information follows:]

                               Encryption

    The table below (excerpted from the USCP budget request) specifies 
the encryption costs associated with designing a radio communication 
system for USCP.
    Encryption.--OTAR, Secure Cards for each Console, Packet Data 
Gateways--$1,300,000.
Notes:
    OTAR (Over-The-Air-Rekeying) is the common name for the method of 
changing encryption keys in a two-way radio system over the radio 
channel (``over the air'').
    Packet Data Gateways (PDGs) integrate alternative Internet protocol 
(IP) access networks into the mobile core and enable delivery of 
services over the IMS (IP multimedia subsystem) control layer. IMS is a 
unified service architecture for all networks.

    Senator Pryor. And I will note that my understanding is--I 
am getting this from just some research I have done--that when 
the District of Columbia went to a new system, in the District, 
it was about $40 million. And I think, to me, $71 million just 
seems way out of line with--and I understand the uniqueness, 
and I understand the challenges, and I understand the old 
buildings and the subterranean nature of some of the things you 
have to do. But that just seems very, very expensive.

                      ADDITIONAL PERSONNEL REQUEST

    And I would like to look at your requirements that you have 
in mind, and I would like to look at that and work with you, 
with the chairman's permission, because that just seems awfully 
high. And I need to look more closely at your budget, but are 
you adding police officers as well?
    Chief Morse. Yes, sir. We are.
    Senator Pryor. And how many are you adding?
    Chief Morse. We are adding 89.
    Senator Pryor. And why?
    Chief Morse. Seventy-six of those are to apply to our 
deployment for our mission in order to reduce the overtime.
    Senator Pryor. Are you basing that on this most recent 
year? How do you make--I mean, is that what you are averaging 
in overtime, the equivalent of 76 additional officers?
    Chief Morse. No, actually, we have had to do a 
comprehensive manpower survey to give us a template in which to 
assess the manpower that we need versus the threat that we 
face. So one of our first bites at the apple with this new 
template is--with the other things that we have to deal with--
for instance, attrition and the ability to have facilities to 
train--is to try to reduce overtime with the new 76.
    The remaining 13 is an enhancement that we are asking for 
with the ability to detect or deter any criminal activity or 
terrorist activity.
    Senator Pryor. Is that counterintelligence?
    Chief Morse. Yes, sir.
    Senator Pryor. Okay. I have a concern about doing 
counterintelligence as well. I am not trying to be a naysayer 
on the Capitol Police because I appreciate what you all do, and 
it is a very important mission. But tell me why you think the 
U.S. Capitol Police should be doing counterintelligence work.
    Chief Morse. First, we--the police department has had 
countersurveillance capability since probably about 2003. We 
know that in terrorist planning for any sort of operation that 
they must first come and surveil. They must first actually come 
to the location and to review the type of operation that they 
are going to do at the facility that they are going to do it.
    One of the ways that law enforcement has found most 
effective in deterring that or discovering that is through 
countersurveillance activities as well as strengthening the 
training and observation and vigilance of our police officers. 
So we believe that with the program that we currently have, 
making it more robust is a benefit to detecting or deterring 
any type of criminal or terrorist activity that may be planned 
for our facilities.
    Senator Pryor. When you talked about that I think you said 
76 or 79 additional officers?
    Chief Morse. Seventy-six.
    Senator Pryor. Are you talking about actually officers in 
uniform that are going to be patrolling the area, or is that 
administrators as well?
    Chief Morse. Those are sworn police officers in uniform to 
be deployed in the field for the various post assignments.
    Senator Pryor. And you already have 1,799 officers?
    Chief Morse. That is correct. That is our current 
authorized strength.
    Senator Pryor. And basically, those 1,800 officers--I mean, 
is it fair to say that they are basically covering about a 300-
acre area?
    Chief Morse. Yes, sir. With also protective operations with 
Members of Congress throughout the United States.
    Senator Pryor. Let me ask, and again, I understand the 
unique mission that the U.S. Capitol Police have and the unique 
circumstances in which you serve and what your responsibilities 
are, but is there--give me a sense of a city that has about 
1,800 police officers right now. I mean, can you point to a 
city or some cities around the country that have about that 
many police officers?
    Chief Morse. I would say probably the county, some of the 
larger counties in the metropolitan area would come close to 
that.
    Mr. Gainer. Senator, would you mind if I just chimed in a 
little bit? Chief.
    Senator Pryor. Sure.
    Mr. Gainer. Because having run the Illinois State Police 
for 9 years, I remember when I came here and had the chance to 
get the chief's job before Phil. Many of the Members of 
Congress said, jeepers, you have a police department up here 
larger than our State police or larger than our county police 
or larger than our city for a substantially smaller area.
    So over these 7 years that I have been around, we continue 
to wrestle with this, and it is not just the officers per acre, 
but it is the demands we put on them. And I can tell you from 
my office now, with Phil, I have made demands on your behalf. 
And I will just give you some for instances.
    The CVC, which I think many thought was going to be the 
panacea for security, really resulted in more doors open for 
the Capitol Police and for the responsibilities of the Senate 
now Sergeant at Arms. Not another single door in this 
institution closed. That just opened more doors.
    And when we look around at all the millions of dollars that 
Congress has given the police department and the Sergeant at 
Arms office to put up the physical security, we take a look at 
Hart and the Hart building, and it is not any top secret issue 
about the openness of Second Street and the vulnerabilities of 
the Hart building.
    So it wasn't too long ago that while the chief and his 
deputies struggled with how to tighten security, that we in the 
Sergeant at Arms office, on behalf of the Senate, said you just 
have to operate different. And they ended up putting, I don't 
know, a dozen or two dozen officers in and around the Hart on 
the streets, on A Street, on Second Street, to try to minimize 
the risk from suicide bombers, improvised explosive devices, 
and trucks.
    And the number of doors that we, the Senate or the House, 
require to be open for the convenience and the egress of 
Members have encumbered that. And so, over the years, the 
Police Board or others have said there are a lot of ways to 
save officers up here. And we could close a lot of doors to do 
that, but there has never been the will on the part of people 
to inconvenience themselves in some respects on door openings 
and in other respects because we have the place open 24/7 to 
provide the access that everybody has.
    Senator Pryor. Well, I will tell you what. I still--my 
sense is that we are heavy in this area, and we are expensive 
in this area. And again, the radio system is a prime example of 
that.
    So what I would like to do is at some point in the future, 
you know, fairly soon, sit down with you and really download on 
the specifics of what your requests are, what your needs are. 
And if you think that we need to close doors, I need to know 
that. You maybe have already mentioned that to the Rules 
Committee or something like that.
    But if you think we need to change some things around here, 
I would like to hear that from you. So let us just set up a 
time sometime in the next week or two where we can really visit 
in detail about it.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.

                INCREASE IN STAFF AND EFFECT ON OVERTIME

    Let us stay with the police issue for the moment. Chief, 
your force has grown in manpower by 38 percent since 2000, and 
the overtime has continued to grow steadily as well. In fact, 
between 2006 and 2008, the sworn staff increased by 25 percent, 
and overtime still increased by 80,000 hours.
    I know there is always an argument to be made that it is 
the amount of staff that will dictate whether or not there is 
overtime. But it appears that staff and overtime continue to 
grow at about the same level, and there is another 
countervailing theory that overtime becomes part of regular 
compensation just as a normal happening.
    There does seem to be some correlation between the 
increases here. One would have thought that the increase in 
staff would have decreased the overtime, but that is not 
occurring. Can you help us understand that?
    Chief Morse. Yes, sir. And I don't know that I will be able 
to do that in the limited time that we have. So----
    Senator Nelson. Well, we can plan to talk about it further, 
too.
    Chief Morse. But I would like to just sort of give you a 
broad brush of what might be able to answer the question. Is 
that one of the most significant tragedies in my career here at 
the Capitol Police occurred in 1998 with the loss of our two 
police officers.
    And since that time, we have had 9/11, anthrax, and ricin. 
And with each of these incidents have really come new missions. 
Some of the missions have been related to physical securities. 
Some have been related to post standing, and many have been 
related to technology. So the increase that I have seen, as a 
police officer here since 1985, has been directly related to 
posting of new posts, new technology, and physical securities.
    A lot of our overtime certainly is generated by things that 
we cannot control, and sometimes that is affected by the 
environment in which we live. For instance, last year we had 
many war demonstrations that we did not expect. We have had 
many significant demonstrations this year. One most recent, the 
Power Plant. And I just learned recently there will be a 
significant event on May 30 down at the Lincoln Memorial.
    So there are many unexpected events that take place here on 
the Capitol grounds as well as off the grounds that Capitol 
Police have authority and responsibility for.
    What I do want to assure you is that the Capitol Police, my 
managers, the professionals who are sitting behind me, do have 
a plan to be as efficient and effective as we can with our 
people. We, as I mentioned earlier, have recently gone through 
a manpower study. That manpower study gives us a template that 
is--its foundation is threat based, which came through our GAO 
recommendations.
    What we are trying to do now is apply that to every program 
that we have and every facility that we have. Two facilities 
that are--one is most recent to us and one that will be coming 
in October, the CVC and the Library of Congress. We have not 
yet been able to apply that template, but we will.
    In addition to that, we have looked at many programs where 
technology can replace people, and we are working on doing that 
as well. So not only does the Enlightened Leadership Solutions 
(ELS) study help us--the manpower study by ELS helped us to 
better effectively ask you for people, but it could also result 
in decreasing the size.
    So this is really a very lengthy process. It is one that we 
take very seriously. We understand the sensitivity of the 
growth and the budget, and we are working very hard to not only 
minimize over time, but have the most effective and efficient 
use of our people for the safety and security of the complex.
    Senator Nelson. Well, I hope the report will enlighten us 
because if I understand the numbers right, by adding 55 FTEs, 
you will save $2.5 million. However, the cost of the 55 FTEs is 
$3.7 million. So we get worse off under those numbers by adding 
individuals. We would be better off to spend $2.5 million 
rather than $3.7 million.
    So I hope that as you work through this manpower study that 
you will be able to help us better understand how there will be 
true reductions, bottom-line reductions.
    Chief Morse. Yes, sir, Mr. Chairman. We will do that.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief Morse, I want to go back to questions about the radio 
system that Senator Pryor was discussing with you. We are 
talking about a total cost now of $71.6 million. I would agree 
it seems extraordinarily high, and I think it is important that 
we fully understand and appreciate all that is going into this.
    How confident, though, are we really about this as a cost 
estimate? It is my understanding that when you were first 
looking at this, there was a rough estimate back in 2007 that 
the total of this radio system would be about $35 million. So 
we have essentially doubled it in a 2-year period. So is $71.6 
million a number that we can really believe in?
    Chief Morse. $71.6 million was the request that we had in 
the 2010 budget and for the supplemental. There is an 
engineering design study taking place right now for the 
infrastructure of the building, and we could expect to ask for 
$8 million to $16 million more in the 2011 budget, depending on 
the results of the engineering design and coverage for the 
system itself.
    So we are still what we have done is with the current $71.6 
million request is had many people review the technical 
requirements and the technology associated with that, and we 
are comfortable that those figures are accurate.
    Senator Murkowski. Accurate, but what you are saying is 
that it could be anywhere from $8 million to $16 million in 
addition to the $71.6 million after we get this engineering 
design proposal back?
    Chief Morse. Yes, ma'am.
    Senator Murkowski. So it is getting worse.
    Chief Morse. The cost will rise, yes.

                    MANAGEMENT OF THE RADIO PROJECT

    Senator Murkowski. Okay. How are we going to ensure that we 
will have proper management of the procurement to ensure that 
once we identify what that cost is that we stay on budget and 
on time?
    Chief Morse. Let me first just add one other figure--that 
we did receive $10 million back in the 2007 supplemental to go 
toward the radio system.
    But to answer your second question, we have designed a 
five-phase approach to this. It is a 36-month project. We have 
through the Economy Act looked at Naval Air Systems Command 
(NAVAIR) systems, who have expertise not only with some of the 
existing technologies here on Capitol Hill, but also the 
procurement capabilities and the expertise in that field to 
augment our staff. They have a team and integrated approach and 
will be our consultants.
    In addition to that, we have had the RFP and the technical 
requirements as well as the engineer design reviewed by the 
Government Accountability Office as a safeguard that we are on 
track and doing things right.
    Senator Murkowski. Let me ask about some of the 
administrative issues, and I will echo what was said earlier in 
recognizing the accomplishment of a clean opinion from the 
auditors on the financial statements.
    I do understand that we do have some areas of improvement. 
But there are some 85 open recommendations from GAO or the 
inspector general on the need for improved internal controls, 
whether it is improved asset management, control of travel 
vouchers, payroll processing, information security.
    And you ticked off a few of those areas that have been 
closed out, but given what you have outstanding, what would you 
say are your biggest challenges in resolving these 
administrative deficiencies? Where are your highest priorities 
here?
    Chief Morse. Well, we do prioritize our recommendations. We 
try to go for the low-hanging fruit, the ones that don't cost 
us a lot of money, and get those out of the way first.
    Our biggest challenge is really the people to get this 
done. We have been struggling with that. Most of our folks who 
are working on this, working very hard on this, have other 
duties and responsibilities within the agency. But they work 
very hard to prioritize this. Our chief administrative officer 
works very closely with the Office of Inspector General. We 
have a great working relationship with the Government 
Accountability Office.
    And we try to prioritize these recommendations based on 
risk to our organization. So the ones with the most risk we go 
after first. So we keep track of this. We can actually produce 
a document for the record or for your review that can see how 
we manage the recommendations, how we go about closing them, 
and how we interact with the GAO----

                     ONGOING ADMINISTRATIVE ISSUES

    Senator Murkowski. Well, I would appreciate that. If we 
have got 85 that are outstanding that need to be resolved, it 
is one thing to go after the low-hanging fruit, but if you have 
issues out there that are problematic and have been problematic 
for a period of time, I know that the inspector general has 
recently reported that you didn't have adequate spending 
controls on travel. And I don't know whether or not those 
controls are being put in place.
    I also understand that there were problems with the payroll 
processing, the need to make sure that we have got timekeeping 
records that are adequate. And following in the chairman's 
concern about overtime, is this an issue and an area that needs 
to be placed higher on the priority list?
    Can you just speak to these two? If, in fact, your auditor 
has indicated that with the payroll processing that this is a 
material weakness for you, when do you get to that point where 
you implement those recommendations from the audits?
    Chief Morse. Well, let me just start by saying that by 
getting that clean financial statement, we very aggressively 
went after the recommendations in our financial management. 
That was our most risk to our organization. And I think the 
fact that we were able to obtain clean financial opinion a year 
earlier than we were directed to do so shows the aggressiveness 
in which we go after these recommendations.
    Many of the recommendations that you just mentioned, for 
instance, the travel vouchers, et cetera, we are actively 
working on closing those recommendations as well as many other 
GAO recommendations. We----
    Senator Murkowski. Do you think you are going to have a 
clean report again this year?
    Chief Morse. Absolutely. And our Office of Inspector 
General and the Capitol Police Board, we really work together 
to make--to find out what we need and prioritize what we need 
as an organization, what the Board would like the Capitol 
Police to expound upon, and what the Capitol Police needs.
    We work together so that we are not overwhelmed or 
inundated by audits. So we try to work closely together. We try 
to identify what causes most risk to the organization, and we 
are very transparent about that. We accept the fact that we 
have weaknesses. We accept the fact that we have challenges, 
and we work together to address them.
    So we would be happy to show you how we do that and much of 
the accomplishment that we have had in the last 2 years.

                           CIVILIAN STAFFING

    Senator Murkowski. Let me ask one more question before I 
turn it back to my colleagues here, and this is on the civilian 
staffing. I understand that you currently have about 75 
civilian vacancies, about 15 in the Office of Human Resources. 
Another 21 civilian positions have been requested in fiscal 
year 2010. Tell me why you need these additional positions and 
the prioritization, if you will, for these slots.
    Chief Morse. With respect to some of the civilian 
positions, they are ones that will be coming to us from the 
Library of Congress. There are 23 new positions, 19 of which 
were submitted in previous budgets, and 4 of those are related 
to the radio system, technical experts to do the radio system.
    We also have been working very hard as a part of our audit 
is to reevaluate each position and, in some cases, rewrite 
position descriptions, which has added some delay in those 
positions. Currently, of the 79, we have 25 of which are in the 
hiring phase right now, along with 25 which are currently being 
announced, and we are preparing advertisements for 22 others 
and then the----
    Senator Murkowski. And in what areas would those be, these 
new ones that you are announcing?
    Chief Morse. Those are already approved positions.
    Senator Murkowski. Okay.
    Chief Morse. So of the new 23----
    Senator Murkowski. These are not the 21 that you are then 
requesting in fiscal year 2010?
    Chief Morse. That is correct.
    Senator Murkowski. Okay. So you have got these 23 that you 
are filling that have already been authorized, and you are 
seeking then an additional 21?
    Chief Morse. Yes, ma'am.
    Senator Murkowski. And in what areas would these additional 
21 be?
    Chief Morse. They would be helping us with the audit 
findings. Those are specific to the audit findings or the 
intelligence enhancement, or radio engineering. We have 
requested one diversity officer and training coordinators, 
which are for another program we are working on within our 
Training Services Bureau, a budget analyst, an accountant, 
legal administrative assistant, and then a mission assurance 
bureau person. So some are related to audit findings to help us 
improve in those areas. Some are related to the radio and 
information technology, and others are related to the Training 
Services Bureau and our finances.
    Senator Murkowski. Well, Mr. Chairman, I know that the GAO 
has been closely involved in reviewing these administrative--
not only the administrative problems, but some of the staffing 
issues. I would like to hear what their recommendations are on 
the need for these additional positions and just understand.
    It seems to me that at this time we don't need to be 
necessarily adding more and more and more in terms of staffing, 
we are doing that in very many areas, and I will express my 
concern about it. I would like to understand the need more.
    Senator Nelson. I believe we can probably obtain that 
information. Is that accurate?
    Chief Morse. Yes.
    Senator Nelson. Well, let us do that. Let us get that 
distributed to the subcommittee for our review.
    Senator Murkowski. Appreciate it.
    Senator Nelson. Thank you, Senator.
    We understand that the number for the radio project is well 
established. Now I am a little unclear because I heard you say 
$71.6 million as the base, but that is after $10 million that 
has already been put in. So this is a multiyear process. What I 
am trying to find out is the additional $8 million to $16 
million, this is the total as it all comes together so that it 
won't change? Is that fair?
    I am just trying to understand that the costs are 
established and they have been because it is a multiyear 
process that is going on here. Is that accurate?
    Chief Morse. Once we do the engineering design phase within 
the infrastructure of the buildings, the additional cost for 
indoor requirements could be $8 million to $16 million.
    Senator Nelson. Eight to 16.
    Chief Morse. There was $10 million given to us in 2007.
    Senator Nelson. Right.
    Chief Morse. And then the request for $71.6 million.
    Senator Nelson. Does not include that $10 million already 
received or the additional of $8 million to $16 million?
    Chief Morse. That is correct.
    Senator Nelson. There is not another part of the project 
that is not included within those numbers?
    Chief Morse. That is correct.
    Senator Nelson. Okay. I just want to get that for the 
record so we have the total numbers. I was unclear. I 
appreciate that.
    Let us see now. If you didn't have the radio project in 
place and you didn't have that capability that the radio 
project is going to give you when it is complete, what are the 
implications for security on the campus?
    Chief Morse. Let me just give you real quick the status of 
our current system. We are unable with our current system to be 
interoperable with any of our partners who would respond here 
to assist us in the event of an emergency.
    Senator Nelson. And they would be who, the partners?
    Chief Morse. It would include the fire departments, the 
local police, and other Federal agencies. The other concern is 
that we most recently were contacted from one of the vendors on 
our dispatch technology who said they could no longer service 
it because it was outdated.
    And we have experienced pretty routinely both software and 
hardware failures with our system, and at one point within the 
last 3 years, we had a complete failure of the system. 
Therefore, it would cripple our ability to communicate with 
each other in a critical incident situation should that system 
fail, which is, like I mentioned before, is one of the three 
critical life safety tools for a police officer, and a life 
safety tool for the legislative process.
    So we are obviously very concerned about that. That is why 
we brought it as a priority. This was originally looked at in 
2005 to begin the process of replacing the system.

                    OVERTIME AND ADDITIONAL STAFFING

    Senator Nelson. Switching now, going back to the overtime 
and additional staff question, let me just see if I am clear 
here. Is your goal to eventually eliminate the use of overtime 
in your day-to-day operations, or are you intending to use a 
combination of overtime and onboard staff? And have you 
established what positions are better utilized through the use 
of overtime if you plan to continue to have overtime?
    Chief Morse. We plan to use a combination. As I mentioned 
before, in some cases, we are using technology, and I could 
provide that information to you in a sidebar. But we are using 
technology that will decrease the number of officers we need to 
do a specific mission. Therefore, we can put them back into the 
field.
    In other instances, by adding, for instance, the 76, we can 
perhaps downsize the amount of overtime that we are using and 
enhance our capability with our mission. So we are using a 
combination of technology as well as redeployment of our 
personnel.
    We have also worked very closely with our oversight 
committees in detail, for instance, we're checking how many 
people come through a specific door during a specific time. And 
the committees have worked with us, for instance, at adjusting 
the hours of those doors.
    So we have done things on the very low level and on the 
very high level to try to lower the amount of overtime and have 
the most efficient and effective use of our police officers. So 
it is a challenge. I don't know that we could ever eradicate 
overtime because there are so many variables that come with 
that. For instance, the special events and demonstrations, et 
cetera, that I had mentioned before, just to name a few.
    Senator Nelson. It appears you are having some difficulty 
attracting and retaining civilian personnel, some in positions 
that are quite critical to your mission. How many civilian 
openings would you have at the present time and why?
    Chief Morse. There are 79 or 78 vacancies that are 
currently open. As I was saying earlier, in some cases, we are 
reevaluating the need or the position description or 
reclassifying it to meet our current mission. Many of the 
recommendations that we receive change the way we do business. 
We are trying to do business more efficiently.
    So some of the delays have been with redoing the position 
descriptions. But as I mentioned before, many of these are in 
the hiring process currently, and they passed me a note that 
most recently we just hired four additional personnel. But 16 
are in the hiring process. Twenty-five have vacancy 
announcements out right now.
    So as fast as we can make sure or ensure that these 
personnel are the positions that we need, that we have the 
right person in those positions, then we will, in fact, fill 
them.
    As far as retention is concerned, there is a turnover, and 
some of that has been remedied by simply answering 
recommendations and gaining control and organization over these 
entities and ensuring that we have a strategic plan for where 
it is that we are going to go. And one example of that is our 
Office of Financial Management, where we have current 
tremendous leadership, which resulted in a positive thing for 
the police department.
    But in hiring some of these additional personnel and some 
of the reclassifications, we will do some of the things that 
the other Federal agencies do with regard to retention 
benefits, where we could be more attractive to those from the 
private industry as well as other Federal agencies.
    Senator Nelson. Well, my final question is relating to 
those 13 additional officers for counterintelligence. Have you 
considered in some way partnering with the Department of 
Homeland Security (DHS) or some other agency, perhaps even the 
Federal Bureau of Investigation (FBI), to attract that kind of 
capability rather than try to develop it within the police 
department yourselves?
    Chief Morse. Well, first, let me say that we have wonderful 
relationships with our area law enforcement agencies. We do 
have liaisons at the major intelligence organizations as well 
as DHS, the FBI, Central Intelligence Agency, the Defense 
Intelligence Agency, the metropolitan police fusion center. So 
we work very closely with them. And I won't speak for any one 
of those agencies specifically, but the countersurveillance 
capability is taxing on their own specific mission.
    We are, as you know, the only Federal law enforcement 
agency who has authority and responsibility for protecting this 
branch of Government. And we feel that it is our responsibility 
to recommend that a more robust countersurveillance operation 
would minimize the risk of any criminal or terrorist activity 
that could be planned for our facility. And certainly no one is 
more dedicated to protecting this legislative body than the men 
and women of the United States Capitol Police.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. One final. The President's budget is 
about an 8 percent increase over last year, if I remember 
correctly. What would happen if we were to set that standard 
within the legislative branch? Right now, we are looking at 
about a 15 percent increase.
    What would that mean to you in terms of your budget and 
your priorities if you were told you got about 8 percent 
increase over last year? Where would you go? We will start with 
you, Ms. Erickson.
    Ms. Erickson. Well, I think I am in the best----
    Senator Nelson. You would have to raise yours, yes.
    Senator Murkowski. Yes. We will start with the easy one.
    Ms. Erickson. I think I am in the best shape of the three 
of us. My operating budget has remained the same, and I will 
say we look for every opportunity to cut costs, down to our 
Senate librarian who just renegotiated some vendor contracts 
and saved $352,000 over 4 years.
    I personally look at every voucher, and I can say our chief 
employment counsel's attorneys have cut back on their travel or 
look for conferences that are held in Washington, DC, rather 
than traveling across the country. So we take that 
responsibility very, very seriously.
    The budgetary impact for our operation would be salary and 
that would mean that I would not be able to offer a COLA to our 
employees or implement our employee performance program for 
merit pay, which, with few exceptions, is capped at 3 percent. 
So that would be the impact for the Secretary of the Senate's 
employees.
    Senator Murkowski. What is the longevity of the employees 
within----
    Ms. Erickson. We have very low turnover. We have I think it 
is 3,000--if you add up the total, we have 3,000 years of 
Federal experience, 238 employees. So there isn't a lot of 
turnover, but there are employees who have a great deal of 
institutional expertise that we hope to keep for a long time.
    Senator Murkowski. Terry, how would you reprioritize if you 
had to?
    Mr. Gainer. I would eliminate the $2 million that I have 
asked for Nancy.
    Seriously, I wouldn't do that because she pays us, too.
    Most of what we do, aside from the salary issues, are 
really for your benefit and your offices. So, number one, we 
would work with you and see how to scale that back.
    But it is really, I think, adjusting the Members' and their 
staffs' and your 450 State offices' expectations so that each 
year, for instance, when we add money in to try to get more 
bandwidth so that your computer works quicker in your home 
State, we would scale that back. And rather than have someone 
come and repair the computer in your office within 30 minutes, 
it might take 2 days.
    So we can adjust that, and we would work with you to try to 
figure that out.
    Senator Murkowski. Chief Morse.
    Chief Morse. Well, it would certainly take some very 
serious analysis to prioritize what we would lose by that. I 
would fear that a lot of our lifecycle replacement that we 
talked about earlier in our technology that helps safeguard the 
campus would be at jeopardy, along with hiring.
    We certainly talked about a significant amount with the 
radio system that is critical to the life safety not only for 
our police officers and employees, but for the legislative 
process. And if we were to still go with the radio project, 
then that would significantly impact other areas of the police 
department.
    Our employees are certainly here and dedicated to you under 
any condition, and I would be remiss if I didn't say that I 
would want to take care of them first.
    So I think that a lot of the significant areas of concern 
would be mostly with the technology, the lifecycle replacement, 
the radio system, and hiring, which I think would probably 
cascade on us as the years went on. We would probably never be 
able to recover from the not hiring.
    Senator Murkowski. Appreciate your responses.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I would like to personally thank our witnesses for 
attending today's hearing and providing us with their excellent 
responses.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

                  Questions Submitted to Terry Gainer
               Questions Submitted by Senator Ben Nelson

                    FISCAL YEAR 2010 BUDGET REQUEST

    Question. If the Legislative Branch Appropriations bill for fiscal 
year 2010 is held to current year levels, what will be the impact to 
your agency's operations and on the day to day operations of the 
Senate?
    Answer. We understand that the Committee may face challenges in 
preparing the fiscal year 2010 Appropriation. If we are held at the 
current level, we will examine all of our initiatives and establish 
priorities that reflect the funding allowed. We will review spending on 
capital investments and maintenance; we will defer expenditures for new 
equipment to the extent that we can. We will work with Committee staff 
to ensure that all Senate priorities are funded.
    Question. Your organization has requested a 10 percent increase--to 
$243.5 million in fiscal year 2010. As we have discussed, increases are 
going to be very difficult in a tight budget year. Regardless, the SAA 
has grown from an enacted budget of $109 million in fiscal year 2000 to 
well over $200 million in the current year. I, like most Members, have 
a great deal of respect and gratitude for the work your organization 
does around here--but do you mind spending a couple of minutes telling 
us how you got from there to here in terms of budget and staffing? 
Where do you see the trend line moving in the next few years?
    Answer. Our organization has changed dramatically since 2000. To 
set the stage, in 2000 our budget was just about $100 million. In 
fiscal year 2009, our budget is $220 million. We had 780 employees then 
and have 958 now. In almost all respects, we no longer are the same 
organization. Let me give you some specifics of the changes.
    With the exception of POSEP (formerly OSEP), generally, the 
responsibilities of the SAA have not changed since 2001. However, the 
scope of those responsibilities has expanded materially. Our goal is to 
support Senate offices to enable Members and staff always to more 
effectively manage their business and communicate with their 
constituents. It takes people and money to initiate, implement, operate 
and maintain the infrastructure that provides the systems and services 
to the Senate. In a sense, we do this so that you don't have to. More 
specifically, here are some of the changes that have occurred over the 
years.
    Post Office--receipt and delivery of mail in 2001. Today, receipt, 
inspection and delivery of all mail and packages to Senate offices. We 
have our own offsite facility for mail and package inspection.
    Warehouse--in 2001, we operated four warehouse locations. We now 
have a central facility double the size if the four locations that is 
modern and functional for all of our needs.
    PGDM--in 2001, old press model. Since then, all equipment is 
digital and run by computer operation. This improves resource use and 
quality of printed products.
    Recording Studio--complete conversion to digital High Definition 
since 2001 replacing an infrastructure that was entirely film based. 
Combined with the Hearing Room upgrade project, we can remotely manage 
and broadcast about 12 hearings at the same time. Previously, we were 
able to film three at once.
    CIO Organization--small infrastructure in 2001 with limited backup 
capabilities. Today, we have a fully operational alternate computer 
facility that serves as a real time back up site for all major Senate 
applications and for data storage for many Senate offices. Our primary 
service contracts are all performance based. We have very high 
performance standards which the contractors regularly meet. This is, of 
course, costly.
    We also have state-of-the-art network monitoring capabilities that 
protect the Senate networks from attack. This Security Operations 
Center also has a back up at the ACF.
    As more processes can be automated and managed electronically, we 
have added those applications to our inventory. These applications 
improve customer service, management of our processes and enable new 
services to be offered in a cost effective manner. Applications that 
come to mind include TranSAAct (for managing parking and ID requests, 
floor privileges and SAA billings), MCS (for requesting BlackBerry and 
cell phone services) and the IT Catalog (for ordering computer 
equipment). All Senate offices use these systems.
    In addition to BlackBerrys and cell phones, there are other 
wireless technologies that are expected to expand in the future and we 
must be prepared to support wireless services demanded by Senate 
offices.
    Additionally, we have the ability to set up an alternate Senate 
site, chamber and offices, through the use of satellite and 
communications vehicles. Prior to 2001, there was no such capability.
    POSEP--in 2001, the office did not exist. Since then, the office 
provides nationwide office outreach for security planning and response. 
POSEP leads the Senate's COOP program and coordinates with other 
agencies in the planning and development of COOP and other exercises 
and training events.
    Question. I recently received tea bags in the mail, as did many of 
my colleagues as a result of the organized tax day protests last week. 
Obviously, these envelopes had been subjected to a significant amount 
of screening. Do you mind updating me on the mail and package screening 
processes utilized here in the Senate?
    Answer. All United States Postal Service (USPS) letter mail 
addressed to the Senate zip code 20510 is irradiated by a USPS 
contractor. After irradiation, all mail is x-rayed, opened and tested 
for contaminants at an offsite facility operated by Senate Post Office 
employees, prior to delivery to the Senate office. The mail is 
quarantined, awaiting clear test results.
    Packages are not irradiated. All packages addressed to the Senate 
zip code 20510 are delivered to the same offsite facility operated by 
Senate Post Office employees. Packages are x-rayed, opened and tested 
for possible contaminants, prior to delivery to the Senate office. The 
packages are quarantined, awaiting clear test results.
    The Senate Post Office operates an on-campus facility for expected 
courier deliveries to Senate offices. The items are x-rayed, opened and 
tested for contaminants. Expected items are delivered by the Senate 
Post Office, after the items have clear test results.
    Under no circumstances should anyone bring mail and/or packages 
into the Capitol or Senate buildings that have not undergone the 
Senate's mail and package testing protocols. Tested items are clearly 
marked and are delivered by uniformed Senate Post Office employees 
bearing a Senate ID.
    We provide safe mail handling training for Senate state offices. 
Additionally, our science advisors developed the Postal Sentry, a 
device designed to contain contaminants that a terrorist could send in 
an envelope.
    Question. Your expense budget includes an increase of $15 million--
or 10 percent this year. Yet your office has identified substantial 
multi-year unobligated balances and savings--much of that resulting 
from savings in your Information Technology investments. Can you take 
advantage of prior year savings to reduce your fiscal year 2010 
request?
    Answer. Yes. We will work with the Committee to use these funds in 
a manner that meets your needs.
    Question. Most of the Legislative Branch agencies--including yours 
have requested significant increases for technology development 
upgrades this year. Since most of your prior year unobligated balances 
reflect savings in IT what can you do to improve budgeting for these 
large-ticket items?
    Answer. In some cases, we have already refined our budgets for the 
items that produced the savings. In the other cases, we are reviewing 
our cost estimates and contracts to determine if we can improve our 
budget processes.
    Question. You are requesting funding for five new FTEs--bringing 
your total FTE up to 963. What is your current on-board staffing level? 
Will you work with my staff to arrive at a fiscal year 2010 funding 
level that better addresses your on-board staffing level?
    Answer. We withdraw the request for the additional five positions. 
Our managers will prioritize positions and fill those most necessary to 
complete their respective missions. We have 905 on board at the end of 
April 2009. And we will work with Committee staff to refine our salary 
funding needs for fiscal year 2010 that addresses current and expected 
staffing levels.
    Question. I understand the Senate has invested some $20 million on 
a new telephone system, but that it has been somewhat delayed. What is 
the status of the $20 million telecom modernization project--when will 
it be complete?
    Answer. The Telecom Modernization Project is nearing the end of the 
Final Engineering and Design phase. While this phase took much longer 
than expected, it served its purpose in that we have modified the 
proposed design to better meet the Senate's needs. To begin addressing 
operational issues, we will implement a new voicemail system this fall.
    We are currently preparing for a testing phase to validate the 
design. Upon successful completion of testing, we will order and 
install the equipment which will take about 6 months. We expect to be 
piloting the solution within the Sergeant at Arms organization in the 
spring of 2010 and making it available to offices in the summer. The 
time it takes to migrate all offices to the new system will depend on 
the willingness of the offices to migrate, and could take as long as 3 
years.
    Question. Your salary budget increase totals nearly 13 percent 
which is very high. In your budget submission you used a 4.5 percent 
increase as your COLA base. Other Legislative Branch agencies used a 
2.9 percent formula for their COLA. Why was yours higher?
    Answer. We base our COLA on the most recent base COLA amount plus 
an estimate of the locality adjustment. At the time the fiscal year 
2010 budget was prepared, the general base COLA was 2.99 percent to 
which we added an estimate of locality of 1.5 percent. That resulted in 
the 4.5 percent amount used in the fiscal year 2010 budget. We included 
the COLA for 9 months of 2010 (January through September).
    Question. Your fiscal year 2010 request includes $5 million for 
hearing room upgrades. How much have we invested in this effort so far 
and how much longer will this item be included in your request?
    Answer. The Committee on Rules and Administration selects the rooms 
and identifies the requirements for this project. Since 2003, 21 
hearing rooms have been completed and $25.4 million has been funded for 
this project. Another 11 rooms have been identified as future rooms for 
renovation and upgrades. We anticipate that, with our funding request 
for fiscal year 2010, we will complete the hearing room upgrades that 
we have been tasked to do.
                                 ______
                                 
              Questions Submitted to Phillip D. Morse, Sr.
               Questions Submitted by Senator Ben Nelson

                                 RADIOS

    Question. We understand that the engineering design for the radio 
project is scheduled to be complete at the end of 2009. If you obtain 
supplemental funding for this project would you be able to accelerate 
the purchase of any portion of this project prior to December?
    Answer. Yes, if we could get supplemental funding in fiscal year 
2009 it would permit us to begin the acquisition process for segments 
of the project as soon as the detailed engineering design is completed 
for each item; this would permit us to roll out these segments much 
sooner than we would otherwise be able to do. We believe that the 
nature of the radio modernization project comports with the intent of 
emergency supplemental bills, which frequently fund ``pressing domestic 
needs''. This new system is critical to our ability to effectively 
address anti-terrorism, and the continuity of government operations.
    Question. Would there be any advantages to acquiring increments of 
this system prior to the completion of the final design?
    Answer. As the design engineering study progresses, and technical 
issues are identified, we would be able to begin to contract to acquire 
the technology to meet the specifications the engineering study 
indicates (such as purchasing certain antennas, repeaters, cabling, 
etc.). Additionally, contracting can commence once a final 
determination on the mirror site has been recommended and approved. The 
principal advantage of being able to proceed with procuring increments 
of the project would be overall implementation several months sooner 
than if we were to wait to begin any procurement activity until all of 
the engineering design is complete. The procurement process itself can 
be lengthy. The sooner we are about to begin that process the sooner 
the radio system will be able to go live.
    Question. Can you briefly outline for me what vulnerabilities or 
disadvantages we continue to have in the Capitol Complex by not having 
this technology in the event of an emergency?
    Answer. The most significant vulnerability is our current inability 
to effectively communicate with other first responders as well as some 
of our Legislative Branch partners. In addition, the reliability of the 
current 20-year-old system presents an unacceptable risk of a complete 
system failure during an emergency situation. Also, there are places in 
the Capitol Hill complex (e.g., the Capitol Visitor Center, new 
tunnels, garage areas and other subterranean locations) that the 
current system was not designed or intended to cover and where reliable 
radio communication cannot be expected.
    There are three critical life safety tools for a law enforcement 
agency: proper weapons, protective equipment, and reliable 
communications. Our current communications system is an antiquated 
analog system without interoperability capabilities, and it is not 
encrypted. In many cases, it has been failing us both in the hardware 
and software areas. We most recently had one of our vendors call us to 
say that they could no longer service our dispatch equipment or 
technology because of its age. In the threat environment in which we 
work after 9/11, it is critical that we be able to communicate with our 
partners in a critical incident situation, which we currently cannot 
do. Additionally, we have experienced dead spots with our current 
system. This makes us unable to receive subterraneous communications in 
some of our garage areas, tunnel systems, subways, etc. Part of the 
reason for this is the lack of cabling, antennas, etc., in areas where 
essential communication could not have been foreseen over 20 years ago 
when the system was put in place. In view of the these issues, we 
believe it is critical that we move towards modernizing our radio 
system as soon as possible to ensure the continued safety of Members, 
staff and visitors on the Capitol Complex.

                                OVERTIME

    Question. You are requesting $3.7 million for 55 FTE to reduce your 
overtime to about 10 percent. What percent of overtime are you 
utilizing right now? Is your overtime in a ``pool'' where officers who 
want to work overtime can do so while officers who prefer not to can 
elect to defer? Aren't some of these officers depending on overtime to 
augment their salaries?
    Earlier this year USCP worked with the GAO to review and validate 
our methodologies in the computation, management and reporting of OT 
and utility of officers. The ACOP was notified by the GAO that the 
methodologies were using were consistent and measurable to allow proper 
management and control of its personnel and distribution of OT across 
USCP for controllable OT.
    In the utilization of Load Leveling USCP uses this methodology in 
conjunction of its Officer Voluntary Reassignment Program (OVRP) to 
staff division so that there is fairness in the use overtime across its 
divisions. USCP staffs most of its divisions between 80 percent-90 
percent to regular requirements and available and qualified personnel, 
the remainder requirements are staffed with overtime.
    Regular requirements include the following:
  --The difference between the total Uniformed Services Bureau (USB) 
        post hours and the total USB officer availability (USCP has 
        deemed that each available officer is available 1560 hours per 
        year).
  --The difference between the average usage of overtime used by 
        specialty assignments and the total specialty assignment 
        officer availability (USCP has deemed that each available 
        officer is available 1560 hours per year).
  --Specialty assignments include Containment Emergency Response Team 
        (CERT), Dignitary Protection Division (DPD) (in-town), 
        Hazardous Devices Section (HDS), Hazardous Materials Response 
        Team (HMRT), Security Services Bureau (SSB)) and a minimal 
        amount of supervisory overtime.
  --46 K-9 handlers are currently receiving handler pay; handler pay is 
        30 minutes of additional duty per day paid to the handler to 
        provide care for the K-9 after normal duty hours.
    USCP must also abide in the distribution and assignment of OT based 
on statutory Pay Caps and agreements stated in the Collective 
Bargaining Agreement (CBA). The Office of Human Resources (OHR) and 
Office of Financial Management (OFM) continuously monitor and control 
this area to ensure that no officers exceed these amounts. 
Additionally, Officers direct supervisors determine whether an Officer 
is operationally qualified, eligible and authorized to stand any 
overtime.
    In fiscal year 2009 USCP has had several variable and unscheduled 
OT requirements which are monitored through coding in the time and 
attendance system. USCP has some control of the use of overtime in 
these areas but a majority of these requirements for OT are event, risk 
and threat or member driven and are staffed to maintain the appropriate 
levels of protection and security for the facilities and personnel. 
Some examples are DPD out of area OT, Extended Sessions, House and 
Senate Codels, additional post to the Opening of the CVC, Earlier 
opening of the CVC, special events such as the Capitol Power Plant 
Protest, and ANSWER Demonstration. The level of staffing for the above 
mentioned items are based on the risk and threat associated with them.
    Overtime is allocated evenly within organizational units, but some 
units are required to work more overtime by the nature of their 
assignment. For example, House and Senate Chambers are required to stay 
when Congress is in session late, as is the Dignitary Protection 
Division. However, officers who don't want to work overtime (or 
overtime at the particular time they are scheduled to work) can ask 
someone else to work their hours. Therefore, there is substantial 
variance in how much overtime officers earn per year, although the 
majority earn less than $10,000.
    We have not conducted any analysis to determine whether and to what 
degree officers rely on income from overtime to augment their salaries.
    Question. Your budget request suggests we will realize a savings in 
overtime of $2.5 million if we fund the additional 55 FTE you've 
requested for this purpose. Yet the 55 FTE will cost $3.7 million. This 
seems like a negative savings to me if we spend $3.7 million to save 
$2.5 million of taxpayers' money. Can you explain your rationale in 
making this request?
    Answer. In the first year of funding for additional FTE, it is true 
that adding them would cost more. The cost of recruiting and outfitting 
the new officers alone is substantial, and benefits add to the cost. 
However, not all of the benefit that would derive from decreasing 
overtime would be realized in the first year of the additional 
recruits' tenure, since they would be in training for approximately 6 
months. The full benefit in terms of reducing overtime happens once 
they complete their training, in 2010, 2011, and thereafter.
    In addition, although we have not directly analyzed how working 
prohibitively long hours, or sequential shifts, may affect the 
effectiveness of the officers who are protecting the Capitol and its 
inhabitants, it stands to reason that rested officers will do the job 
better than their tired counterparts, with faster response times in the 
event of a true emergency. A sufficient work/family balance will also 
help sustain the morale that is essential in a police force with such a 
critical mission.
    Question. Your force has grown in manpower by 38 percent since 2000 
and yet your overtime has continued to grow steadily as well. In fact, 
between fiscal year 2006 and fiscal year 2008 your sworn staff 
increased by 25 percent and still overtime increased by 80,000 hours. 
So there doesn't seem to be a trend that shows that more staff equals 
less overtime. What can you do to better manage your overtime usage?
    Answer. Since 2000, the Department's mission load has increased, 
which has outpaced the sworn staffing provided to meet these mission 
requirements. Additionally, the Department has conducted numerous 
threat assessments and we have utilized the outcomes from these 
assessments to deploy our workforce to meet the threats. The staffing 
gap between the required sworn staffing and the mission load 
requirements must be met through the use of overtime.
    To manage our resources while meeting our mission requirements, we 
are also employing various efficiencies Department-wide to reduce 
overtime. To this end, we have:
  --Conducted load leveling of Operational units to ensure 
        proportionate staffing across the Department.
  --Standardized breaks across divisions to a 1-to-4 ratio.
  --Audited the K-9 function. K-9 has undertaken a 4/10 work schedule 
        for better efficiency in meeting its mission set.
  --Approved revisions to the CP-1301 system to better manage overtime 
        by improving how we draft and manage assignments. While the CP-
        1301 process modification has been approved, the assignment of 
        overtime is currently being reviewed and negotiated as part of 
        the Fraternal Order of Police Union Contract.
  --Included 76 new sworn officers in the fiscal year 2010 budget 
        request in order to reduce overtime and increase capability to 
        address threats.
  --Audited and reorganized the Truck Interdiction Program (TIPS), in 
        order to return officers to posts.
  --Directed TIPS midnights staffing reductions.
  --Increased the utilization of technology at the Offsite Delivery 
        Center, in order to return officers to other priority post 
        requirements.
  --Migrated the Security Services Bureau (SSB) to a 4/10 work schedule 
        for better efficiency in meeting their mission.
  --Migrated the Mission Assurance Bureau to a 4/10 work schedule for 
        better efficiency in meeting their mission.
  --Incrementally increased DPD to reduce overtime utilization and 
        better meet the mission. Although DPD is not staffed to the ELS 
        recommendation level, we are migrating to that point based on 
        threat analysis and evolving mission.
  --Assigned recruit officers to USB directly from officer training for 
        distribution following their field training.
  --Assigned HMRT to conduct random sampling of deliveries at the 
        Offsite Delivery Center to leverage their staffing and mission 
        capabilities.
    We have also instituted several cross-training initiatives to 
achieve additional efficiencies. We have:
  --Trained over 1,000 sworn in x-ray security screening protocols to 
        better identify and address threats.
  --Trained all recruit classes in detecting surveillance techniques to 
        enhance officers'' ability to detect individuals conducting 
        surveillance, to elicit information from the individuals during 
        conversations, and to determine what actions to take based on 
        the information obtained.
  --Directed the integration of all divisions within the Patrol Mobile 
        Response Division (PMRD) into one holistic operation, rather 
        than focused units like heavy motors, mountain bikes, TIGER, 
        etc.
    We are continuing several works in progress to reduce overtime and 
increase our overall efficiency. We are completing a staffing gap 
analysis for Uniformed Services Bureau Divisions. Gap analyses from all 
divisions within the Uniformed Services Bureau are due by June 1, 2009. 
We have also directed that a study be conducted to review civilization 
of the USCP Command Center. We are looking at using the Wounded Warrior 
program for this purpose.
    Finally, we are implementing upgrades to version 8.3 of Workbrain, 
so we can adopt electronic scheduling in fiscal year 2010.
    Question. Is your goal to eventually eliminate the use of overtime 
in your day to day operations? Or do you want to use a combination of 
overtime and on-board staff? What positions are better utilized through 
the use of overtime?
    Answer. Our goal is to utilize the findings of the ELS Manpower 
Study and current risk and threat analyses for the Capitol Complex to 
determine the proper mix of full-time sworn staffing, overtime 
utilization, outsourcing, civilianization and technology to meet the 
mission requirements facing the Department.
    As a part of this effort, we believe we must balance the cost-
effectiveness of full-time staffing against the cost and efficiency of 
overtime in meeting mission. In our current configuration, the 
Department has limited long-term infrastructure, such as physical 
space, with which to support additional sworn and civilian personnel. 
Therefore, we believe that any new personnel must be directed at normal 
post requirements for which we currently do not have full-time sworn 
staffing. These post requirements are driven by threat and have pre-
determined sworn staffing requirements against which to manage 
personnel deployment.
    Because many events such as demonstrations, Congressional hearings, 
extended sessions of Congress and other unplanned events on the Complex 
are unpredictable, we believe these are the sworn assignments that are 
best covered using overtime. Additionally, because our dignitary 
protection responsibilities are often unpredictable, we believe that we 
must utilize a balance of sworn staffing and overtime to meet these 
mission requirements.
    Additionally, as a part of our ELS Study implementation, we are 
reviewing normal post requirements to determine any that might be 
candidates for technology implementation, civilianization or 
outsourcing, rather than utilizing sworn personnel or overtime to meet 
the need.
    We do not believe that we could or should eliminate overtime 
utilization to meet mission requirements. Rather, we must find the 
correct balance for its utilization as a part of achieving our overall 
mission or protecting the legislative process.
    Question. Have you conducted an employee survey recently to 
determine your employees' level of satisfaction?
    Answer. USCP has recently taken aggressive steps to gather data 
from its employees regarding satisfaction with their work lives.
    More comprehensive in nature is USCP's effort to gather feedback 
with its Human Capital Survey (Climate Survey), which is currently 
underway. Open for participation throughout the months of May and June, 
this completely online survey will be the first Department-wide 
examination designed to give insight into employees' work life 
perceptions. So far, more than 33 percent (almost 700) of the employees 
have submitted their responses, and we're continuing to encourage their 
participation.

                           CIVILIAN STAFFING

    Question. You are apparently having significant difficulty 
attracting and retaining civilian personnel--some in positions critical 
to your mission. How many civilian openings do you currently have and 
why?
    Answer. We currently have 78 civilian openings. We are planning to 
fill 51 of these by the end of this fiscal year. In the past year, we 
had management challenges in our Office of Human Resources, and we also 
had the need to review job descriptions and classifications carefully 
before posting positions. We also recently issued a Human Capital 
Workforce Plan and are conducting an employee survey for the first 
time. Both of these initiatives, along with others designed to enhance 
our human capital programs, should assist in our efforts to hire and 
retain highly qualified civilian personnel.
    It is also unusually time-consuming to hire civilian employees at 
the U.S. Capitol Police. Prospective employees are required to undergo 
a background investigation, and it is required that they be approved by 
House and Senate oversight committees. Not infrequently, we find that 
fact that many of the people who apply for civilian jobs actually find 
other jobs before we get the approvals necessary to make them an offer.
    Question. With regard to the Library of Congress merger--you are 
obtaining approximately 21 former Library officers who do not meet the 
criteria to become Capitol Police officers. What will these employees 
be doing and can they help in addressing your request for new civilian 
FTE?
    Answer. There are currently 23 LOC sworn officers who have been 
determined to be ineligible for consideration to transfer to the USCP 
as sworn officers, because they cannot meet the statutory requirement 
for 20 years of ``continuous'' Federal service prior to becoming 60 
years of age. These individuals will transfer to Department as 
civilians (i.e., as ``civilianized'' former officers) on October 11, 
2009, which is the 1st day of the 1st pay period following the 
completion of the merger transition period.
    The Department is also finalizing the positions that may be 
civilianized in order to support the transition of the Library of 
Congress sworn to civilian employees. The positions being considered 
are:
  --LOC Dispatchers (Currently a sworn assignment)
  --LOC Call Takers
  --LOC Computer Emergency Notification System (CENS) Messengers
  --LOC Deaf Pager Notifications
  --LOC Fire Panel Monitors
  --Firearms Range Instructors (Currently a USCP sworn assignment)
  --LOC Exit Inspections (Currently a sworn assignment. Two positions 
        and one relief position)
  --CVC Exit Inspection Post
  --Cannon/Madison Tunnel Exit Post
  --LOC Division Support
    We plan to have decisions on the civilianization of these positions 
by mid-June, 2009. These employees will transition into civilian 
positions on October 11, 2009 in accordance with the merger statute.
    Currently, the Library of Congress utilizes sworn officers to staff 
their dispatch operation. This operation is intended to continue to 
reside within the LOC until the USCP's new radio system is implemented. 
Therefore, we intend to look at utilizing up to 16 of these 
civilianized employees for this purpose. This will allow us to 
reallocate the sworn resources currently used for this purpose to meet 
other critical security requirements upon the merger transition 
completion. We also intend to consider these civilianizing employees 
for exit screener positions at the LOC, as well as for monitoring of 
the exits to ensure that collection materials are not removed from the 
LOC, and to support the LOC division. Additionally, two civilianized 
employees are certified firearms instructors and will be considered for 
placement at the USCP firearms range. Finally, any transferring 
civilian employee who does not get placed into any of these 
opportunities, because of a lack of knowledge, skills and abilities 
necessary to meet the position requirements, will be placed at the time 
of transition into a mission support function within the Department 
where their knowledge, skills and abilities are better suited.
    Those LOC sworn officers eligible for sworn consideration who do 
not successfully meet the prescribed hiring standards will transfer as 
civilian employees in accordance with the statute and will be placed 
according to the mission needs of the Department at the time of 
transfer.

                          COUNTER-INTELLIGENCE

    Question. You are requesting 13 additional officers for ``counter-
intelligence'' work. I don't want to ``reinvent the wheel'' here. Are 
you currently coordinating with the Department of Homeland Security and 
the Federal Bureau of Investigation on assessing threats to the 
National Capitol Region--and to Capitol Hill in particular?
    Answer. The Department has three USCP liaisons assigned to 
coordinate with both the FBI and the Department of Homeland Security. 
We currently have agents assigned to the FBI's Joint Terrorism Task 
Force and the FBI's National Joint Terrorism Task force. These agents 
work closely with their counterparts in the FBI, other Federal agencies 
as well as State and local law enforcement agencies in the national 
capitol region. The USCP has one Intelligence Research Specialist 
assigned to the Department of Homeland Security and this analyst 
provides analysis on international and domestic terrorist threats 
toward the U.S. Congress.
    The 13 additional counter surveillance agents would provide broader 
coverage within the USCP jurisdiction and be primarily assigned to the 
detection of hostile surveillance towards the congressional campus, 
Members of Congress and congressional staff. Their primary assignment 
would be the Legislative Branch of the government, as opposed to other 
agency counterparts for whom Congress, its Members, visitors and staff 
represent collateral interests. The current agents assigned perform 
collateral duties outside of the counter surveillance scope to include 
demonstrations, protective operations for congressional leadership 
visiting dignitaries and special congressional events. There are 
currently nine agents assigned to complete all of these tasks.
    Question. What will you do if this committee does not fund these 
additional FTE for counter-intelligence?
    Answer. Should the Department not receive additional sworn FTE to 
meet this mission need, we will continue to run the risk of not having 
the necessary counter-intelligence information necessary to address 
threats against the legislative process. If additional sworn resources 
are not provided, the Department may need to utilize overtime or detail 
sworn officers from other mission activities to address this risk.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. If your agency were to receive only half of the requested 
increase for fiscal year 2010, what would be the impact and what 
changes would you make to your budget?
    Answer. If USCP were to receive only half of the requested increase 
(excluding the radio project funding and LOC merger effect), we would 
adjust our projected hiring to focus on replacing attrition and hiring 
the most critical civilian positions including most of the backfills 
and those needed to civilianize the dispatch and alarm monitoring 
program, training managers, and radio technicians. Most of this 
increase would be used to cover mandatory personnel costs including 
COLAs. We would also cover some of the infrastructure and/or lifecycle 
replacements.
    We would not be able to fund all of the infrastructure and/or 
lifecycle replacement projects included in our request for security 
systems (about $3 million was included), information technology (about 
$3.8 million included in our request), vehicle replacements, and other 
infrastructure projects. We would also not be able to hire all of the 
critical civilians we have included in our request, nor new sworn 
officers, and as a result our overtime would once again increase.
    Question. What were the results of the ELS staffing study completed 
a year ago? Did it result in any efficiencies or improvements in 
operations?
    Answer. The Department views the Enlightened Leadership Solutions 
(ELS) Manpower Study (``the Study'') as a living document of guidelines 
and methodologies from which the Department can develop and manage its 
sworn manpower requirements.
    Because the threats facing the Capitol Complex are ever changing, 
items may be added to the list of recommendations as these threats and 
mission requirements change. Likewise, recommendations may be removed, 
because they are completed, determined as not feasible or overcome by 
events.
    Built into the Study are new security protection and response 
protocols, as well as reviews and recommendations from previous 
security studies. After the Study was reviewed by the Government 
Accountability Office and others, additional processes were added, such 
as budgeting via a threat-based approach, in order to ensure holistic 
analysis, consideration and implementation.
    As a first step in implementing the Study's recommendations, the 
Chief of Operations reviewed and prioritized its recommendations based 
on the current threat level facing the Capitol Complex. The Department 
is in the process of documenting this decision making process in the 
recommendation action and tracking matrix described below.
    As a result of his review, the following mission sets received top 
priority for review and implementation of recommendations: the Capitol 
Division (CD), to include the Capitol Visitor Center (CVC), the 
Hazardous Incident Response Division, the Protective Services Bureau's 
Intelligence operation, the Containment Emergency Response Team (CERT), 
and the Truck Interdiction Program.
    Many of the changes we have made or that we will make to theses 
areas are done by optimizing the staffing resources that we have 
currently, which is what we are currently doing within the Capitol 
Division to our assigned personnel. In addition, we are realigning the 
Civil Disturbance Unit (CDU) and Hostage Negotiation Team (HNT) to the 
Mission Assurance Bureau (MAB) in an effort to group mission 
responsibilities for efficiency. Neither action requires additional 
resources to accomplish these recommended efficiencies.
    The Department has implemented many ELS recommendations or taken 
actions in order facilitate the future implementation of 
recommendations in both the USB and other organizational elements 
throughout the Department. (Some of these also assist us in reducing 
our reliance on overtime, and are included in the response to Question 
#6 above.) These include:
Mission Efficiencies
    Conducted load leveling of Operational units to ensure 
proportionate staffing across the Department.
    Standardized breaks across divisions to a 1-to-4 ratio.
    Changed the CODEL footprint, so that roles are performed during 
deployment in line with how they are performed on the Capitol Complex. 
For example, MAB now operates the Command Vehicle when deployed for 
CODELs.
    Reviewed the requirements for a podium camera program and are 
working toward the implementation of the program.
    Restructured the Capitol Division in order to address the 
additional threats resulting from the Capitol Visitor Center 
operations.
    Implemented the assignment of Protective Services Bureau 
intelligence/threat agents traveling with the Speaker's detail.
    Standardized the make up of leadership protective details with 
Dignitary Protection Division to seven agents, except for the Speaker's 
detail.
    Audited the K-9 function. K-9 has undertaken a 4/10 work schedule 
for better efficiency in meeting its mission set. The Chief of 
Operations is evaluating K-9 stopping its search and rescue program and 
the patrol dog program, implementing a vapor wake detection program to 
meet emerging threats.
    Directed that all POAs and Operation Orders go through MAB and the 
Office of the Chief of Operations to create a historical record of 
activities and operational decision-making, as well as to standardize 
the process for developing and implementing them.
    Trained over 1,000 sworn in x-ray security screening protocols and 
podium training to better identify and address threats.
    Reviewed and revised the screening standard operating procedures 
and training for barrier access, and entry points and doors, in order 
to standardize the processes across the Complex. We have also reviewed 
and revised the directive addressing screening and it is now being 
vetted as a part of the Department's directives modernization project.
    Purchased and installed computer x-ray image interpretation 
software on division computers to enhance the officer's ability to 
detect threats in x-ray images.
    Training all recruit classes in detecting surveillance techniques 
to enhance officers' ability to detect individuals conducting 
surveillance, to elicit information from the individuals during 
conversations, and to determine what actions to take based on the 
information obtained.
Staffing Efficiencies
    Approved revisions to the CP-1301 system to better manage overtime 
(OT) by improving how we draft and manage assignments. While the CP-
1301 process modification has been approved, the assignment of overtime 
is currently being reviewed and negotiated as part of the Fraternal 
Order of Police Union Contract.
    Established a standardized positioning of officers at security 
screening posts (doors) to ensure the officer are optimally positioned 
for mission effectiveness and officer safety reasons, and to ensure 
consistency of operations.
    Included 76 new sworn officers in the fiscal year 2010 budget 
request in order to reduce overtime and increase capability to address 
threats.
    Reassigned outside patrols to the House and Senate Divisions for 
better efficiency and effectiveness in addressing threats.
    Audited the CERT function--the Assistant Chief has provided 
tentative approval to restructure CERT.
    Audited the Hazardous Materials Response Team (HMRT) program--
Letters are being prepared for the Capitol Police Board's concurrence 
to reorganize this function to meet the current threats facing the 
Complex.
    Audited and reorganized the Truck Interdiction Program (TIPS), in 
order to return officers to posts.
    Directed TIPS midnights staffing reductions.
    Directed the integration of all divisions within the Patrol Mobile 
Response Division (PMRD) into one holistic operation, rather than 
focused units like heavy motors, mountain bikes, TIGER, etc.
    Increased the utilization of technology at the Offsite Delivery 
Center, in order to return officers to other priority post 
requirements.
    Automated the Officer Voluntary Reassignment Program.
    Migrated the Security Services Bureau (SSB) to a 4/10 work schedule 
for better efficiency in meeting their mission.
    Migrated the Mission Assurance Bureau to a 4/10 work schedule for 
better efficiency in meeting their mission.
Interim Steps Necessary To Implement Recommendations
    Incrementally increased the Dignitary Protection Division (DPD) to 
reduce overtime utilization and better meet the mission. Although DPD 
is not staffed to the ELS recommendation level, we are migrating to 
that point based on threat analysis and evolving mission.
    Included the intelligence capability business case in the fiscal 
year 2010 budget request. (This was previously requested in fiscal year 
2009, but not funded.)
    Assigned recruit officers to USB directly from officer training for 
distribution following their field training.
    Implemented revised protocol, so that officers can transfer into 
Patrol Mobile Response Division (PMRD) without a formal selection 
process. This has added to better efficiencies in addressing emerging 
staffing requirements in a timely manner.
    Assigned HMRT to conduct random sampling of deliveries at the 
Offsite Delivery Center to leverage their staffing and mission 
capabilities.
Work in Progress
    Completed the gap analysis for the House Division.
    Conducted an assessment of applying a 4/10 shift to the Chambers, 
but this analysis determined that there would be offsetting staffing 
needs, so implementation has been suspended at this time.
    Directed that a study be conducted to review civilization of the 
USCP Command Center. To accomplish this effort we are looking at using 
the Wounded Warrior program for this purpose.
    Approved the movement of Civil Disturbance Unit to the Mission 
Assurance Bureau (MAB). The Department is currently working on the 
implementation.
    Approved the movement of the Crisis Negotiation Team to MAB. The 
Department is also working on this implementation.
    Reviewing operational requirements for the staffing of the 
Communications activities. Originally the Department considered the 
civilianization of Communications, but based on additional analysis, we 
decided to make Communications all integrated sworn activity. These 
sworn officers will rotate between duties within Communications to 
better utilize available resources and achieve efficiency in the 
delivery of the mission set.
    Implementing upgrades to version 8.3 of Workbrain, so we can adopt 
electronic scheduling.
    To better document the Department's ongoing efforts to utilize the 
Study's recommendations and methodology to determine the staffing and 
overtime requirements necessary to meet the various subsets of our 
mission, as well as achieve business process reengineering, we are 
implementing a formal tracking matrix for the recommendations contained 
in the Study. This matrix will be used to assist the Department in our 
evaluation and prioritization of initiatives to be considered in our 
annual budget formulation.
    We plan to catalog each of the recommendations contained in the 
Study on this matrix, as well as add new recommendations based on 
emerging threat or mission requirements. We also plan to capture the 
outcome of the feasibility review conducted on each recommendation, the 
management decisions or authorities governing the implementation, the 
preliminary list of resource requirements, training and competencies 
required, and the status of the implementation effort.
    Question. In preparing your staffing request, how were the results 
and recommendations of the ELS study factored into your analysis and 
what type of risk and threat assessments were performed to arrive at 
the number and mix of staff requested for fiscal year 2010?
    Answer. In developing the Department's fiscal year 2010 budget 
request, we looked at several factors in determining the number of new 
sworn and civilian positions that were requested. Because the 
Department is undertaking a three pronged approach to reviewing, 
validating and implementing the ELS study recommendations, the fiscal 
year 2010 sworn staffing request was a limited step forward toward this 
end.
    The Department views the Enlightened Leadership Solutions (ELS) 
Manpower Study (the Study) as a living document of guidelines and 
methodologies from which the Department can develop and manage its 
sworn manpower requirements. Because the threats facing the Capitol 
Complex are ever changing, items may be added to the list of 
recommendations as these threats and mission requirements change. 
Likewise, recommendations may be removed, because they are completed, 
determined as not feasible or overcome by events.
    Built into the Study are new security, protection and response 
protocols, as well as reviews and recommendations from previous 
security studies. After the Study was reviewed by the Government 
Accountability Office, House Appropriations Surveys and Investigations 
and others, additional processes were added, such as budgeting in a 
threat-based approach in order to ensure holistic implementation.
    In order to balance the sworn staffing requirements versus the need 
for overtime and/or technology to address mission requirements, the 
Department believes it must validate the total number of sworn 
personnel necessary to achieve the Department's mission. To do so, we 
plan to use the ELS Manpower Study data as a baseline for reviewing 
each post against current threat and mission requirement. This 
validation will determine the total number of staff hours necessary to 
achieve the mission and the best methods for achieving these 
requirements, such as the appropriate ratio for sworn staffing, 
overtime, outsourcing, and the utilization of technology.
    The 13 sworn positions that were requested for enhanced counter-
intelligence capability were directly related to recommendations 
contained within the ELS study. This request is also directly linked to 
continued threat analysis conducted for the Capitol Complex.
    The 76 requested sworn positions were intended to address existing 
core mission post requirements for which we do not currently have sworn 
staffing. The addition of these sworn positions, once deployed, would 
directly reduce overtime utilization necessary to address normal post 
requirements as determined by our continued threat and risk analyses 
for the Complex. Additionally, these sworn positions when deployed 
would begin to address ELS recommendations as the feasibility for each 
recommendation is validated for implementation. In determining the 
number of sworn positions to request in our fiscal year 2010 budget, 
the Department also had to consider our ability to support recruit 
training activities, as well as our ability to provide the long-term 
infrastructure necessary to support the deployment of these sworn 
personnel.
    The 23 civilian positions were intended to address several critical 
areas, such as positions currently staffed by contractors, positions 
directly related to addressing audit findings and positions necessary 
to support the new radio system and training transformation efforts.
    Question. When will you complete a risk assessment and staffing 
analysis for the CVC and LOC?
    Answer. The Department plans to undertake a risk assessment of the 
Library of Congress (LOC) following the transition of the law 
enforcement functions from the LOC to the USCP in October 2009.
    This LOC review will include a threat analysis, as well as a 
facility security survey, of the LOC's facilities to determine the risk 
and threat levels requiring mitigation. These findings will be applied 
to a gap analysis to determine the appropriate staffing levels required 
to staff the LOC mission under the USCP's sworn staffing model, as well 
as potential alternate staffing models for Capitol Police Board 
consideration. Based on the identified threats facing the LOC 
facilities, the USCP may utilize its existing sworn staffing model or 
an alternate model which best mitigates the identified and validated 
risks. We believe that this threat analysis will be completed during 
the second quarter of fiscal year 2010.
    Similarly, the Capitol Division will undertake a staffing review 
and gap analysis of the CVC to review the current sworn staffing 
pattern against the identified threats and known mission requirements. 
Since opening to the public in the fall of 2008, the CVC's operating 
assumptions have changed and the alignment of posts was altered from 
the original planning assumptions. To address these changes--many of 
which resulted in new posts or extended/expanded hours of operations, 
the Capitol Division has had to realign staffing within the Division 
and utilize overtime to meet the mission. We believe that this staffing 
and gap analyses will be completed by the end of June 2009.
    Both of these assessments will be conducted using the methodology 
developed in the ELS Manpower Study.
    Question. What are the positions you intend to assign the LOC 
officers transferring as civilians to USCP? How will you take advantage 
of their sworn experience?
    Answer. There are currently 23 LOC sworn officers who have been 
determined to be ineligible for consideration to transfer to the USCP 
as sworn officers, because they cannot meet the statutory requirement 
for 20 years of ``continuous'' Federal service prior to becoming 60 
years of age. These individuals will transfer to Department as 
civilians on October 11, 2009, which is the 1st day of the 1st pay 
period following the completion of the merger transition period.
    The Department is also finalizing the positions that may be 
civilianized in order to support the transition of the Library of 
Congress sworn to civilian employees. The positions being considered 
are:
  --LOC Dispatchers (Currently a sworn assignment.)
    --Call Takers
    --Computer Emergency Notification System (CENS) Messengers
    --Deaf Pager Notifications
    --Fire Panel Monitors
  --Firearms Range Instructors (Currently a USCP sworn assignment)
  --LOC Exit Inspections (Currently a sworn assignment. Two positions 
        and one relief position)
  --CVC Exit Inspection Post
  --Cannon/Madison Tunnel Exit Post
  --LOC Division Support
    We plan to have decisions on the civilianization of these positions 
by mid-June, 2009 and will begin meeting with the affected employees 
shortly thereafter. These employees will transition into civilian 
positions on October 11, 2009 in accordance with the merger statute.
    Currently, the Library of Congress utilizes sworn officers to staff 
their dispatch operation. This operation is intended to continue to 
reside within the LOC until the USCP's new radio system is implemented. 
Therefore, we intend to look at utilizing up to 16 of these 
civilianized employees for this purpose. This will allow us to 
reallocate the sworn resources currently used for this purpose to meet 
other critical security requirements upon the merger transition 
completion. We also intend to consider these civilianizing employees 
for exit screening positions at the LOC, as well as for monitoring of 
the exits to ensure that collection materials are not removed from the 
LOC, and to support the LOC division.
    Additionally, two civilianized employees are certified firearms 
instructors and will be considered for placement at the USCP firearms 
range. Finally, any transferring civilian employee who does not get 
placed into any of these opportunities, because of a lack of knowledge, 
skills and abilities necessary to meet the position requirements, will 
be placed at the time of transition into a mission support function 
within the Department where their knowledge, skills and abilities are 
better suited.
    Question. Please provide a list of all light duty posts.
    Answer. Please see below table, which includes 27 employees on 
light duty, 5 of whom are pregnant, and 7 are on Workers' Compensation. 
Recently, the bureaus were authorized to assign light duty officers to 
administrative positions within the organization.

                        RESTRICTED DUTY EMPLOYEES
------------------------------------------------------------------------
                    Name                              Detail to
------------------------------------------------------------------------
T.D........................................  PD-K9
J.T........................................  LOC
R.H. (Sgt.)................................  DPD
D.S........................................  DPD
D.C........................................  Training
T.H........................................  Training
J.J........................................  HD-2
D.P........................................  WC
M.D........................................  Cap Div
L.B........................................  PD
H.E........................................  PD
S.G........................................  LOC
D.S........................................  Sen Div
E.W........................................  Sen Div
M.R........................................  Sen Div
E.R. (Lt.).................................  Comm
L.H. (Sgt).................................  CC-1
B.R........................................  DPD
S.W........................................  House Div
R.E........................................  FRU-2
D.N........................................  Veh Maint
K.G........................................  Veh Maint
E.V. (civ.)................................  PD
L.W........................................  Spec Event
C.Y........................................  Cap Div-1
A.B........................................  OHR
A.M........................................  House Div
------------------------------------------------------------------------

    Question. What is the status of reorganizing the Hazardous 
Materials Response Team, and what specific changes will be made to this 
unit?
    Answer. The Department has reviewed the mission requirements for 
the Hazardous Materials Response Team (HMRT) and has determined that 
the scope of the HMRT's role, duties and responsibilities should be 
reorganized to better support the Department's protective mission in 
accordance with our Strategic Plan.
    To guide this effort, a broadly representative task force was 
established within the Hazardous Incident Response Division (HIRD) to 
develop recommendations and mission-driven proposals for improving the 
Department's Chemical, Biological, Radiological and Nuclear Law 
Enforcement (CBRN-LE) program.
    The Department is recommending the following changes to the Capitol 
Police Board for consideration:
  --Reallocation of duties of the HMRT Manager, the Planning and 
        Readiness Manager, and the HMRT Operations Supervisor to 
        improve leadership and quality management within the 
        organization.
  --Elimination of the Level ``B'' Response Team (LBT) program and 
        incorporation of those members into the Advanced Law 
        Enforcement Response Team (ALERT) program, which will expand 
        the ALERT program to approximately 160 members.
  --Training for all sworn officers and officials to the Hazardous 
        Materials Operations level through a combination of on-line and 
        roll call training.
  --Issuance of new and improved highly portable and compact protective 
        masks to all sworn officers and officials. This will enable 
        USCP officers to quickly evacuate a contaminated environment, 
        establish a secured perimeter and effectively assist others in 
        an emergency situation.
  --Creation of an Integrated Response Team (IRT) under the command of 
        the HDS Commander.
  --Rotation of ALERT officers through the HIRD facility four times per 
        year (one week per quarter) for fit testing of equipment, 
        medical screening, classroom training and practical training 
        with the Integrated Response Team.
  --Unification of ALERT management functions under the command of HIRD 
        Management.
  --Centralize training at the HIRD Headquarters offices, including 
        review of current training, development of ALERT training 
        modules, and creation of USCP Executive Management Overview 
        training to be provided to Captains and above.
  --Creation of a permanent hazardous materials screening team at the 
        Off-Site Delivery Center (OSDC) tasked with conducting random 
        vehicle screening and responding to requests to inspect 
        suspicious mail at the Senate mail handling facility.
    Upon concurrence of the Capitol Police Board, the Department will 
request the appropriate committee approvals to effect the 
reorganization of the Hazardous Incident Response Division, to include 
the Hazardous Materials Response Team.
    Question. What are you doing to ensure overtime is used only where 
it is truly necessary? What controls have been put in place to better 
manage overtime in the last year?
    Answer. In an effort to align overtime usage to the budget 
allocation, several measures were taken to reduce overtime without 
adversely affecting our ability to meet our mission.
    The following Department-wide guidelines have been set in place in 
order to efficiently manage necessary post assignments, enabling our 
continued reduction and management of overtime.
  --Training that is not mission critical or requires back fill by 
        overtime is not authorized, which is a continuation of how the 
        Department has operated during the continuing resolution.
  --Handgun qualifications will continue at the RHOB Range instead of 
        Cheltenham. When handgun requalifications are held at 
        Cheltenham, the officers are removed from the field and must be 
        replaced with overtime for 16 hours per year per officer. When 
        the handgun requalifications are held at our RHOB Range, the 
        officers are not removed from the field and accomplish their 
        requalifications during their tours of duty, requiring no 
        overtime.
  --Restricted Duty personnel will be utilized on Sections 1 and 3 for 
        administrative duties in lieu of officers being paid overtime.
  --Personnel will be relieved when the need for overtime dissipates. 
        Instead of keeping officers for an entire 8-hour tour of duty 
        when they are working overtime, the officers will be sent home 
        if their overtime assignments end prior to the end of their 
        tours of duty.
  --Bureaus are to ensure a 1:4 break ratio for fixed posts.
  --Overtime for sergeants, lieutenants, and their civilian equivalents 
        is to be approved by Division Commanders.
  --No officers are to be assigned to administrative offices. The 
        duties performed by these officers are being assumed by 
        civilian employees or restricted duty officers.
  --Day off allocations are to be adjusted to decrease the scheduling 
        OT on any one particular day.
  --Line reduction posts will not be staffed.
  --Emergency Responder posts are not staffed on Section 1. Uniformed 
        Services Bureau (USB) sergeants and Patrol Mobile Response 
        Division (PMRD) sergeants will assume these duties.
  --House and Senate Office Buildings outside foot patrols staffed by 
        the House and Senate Divisions were eliminated. PMRD will 
        assume these patrols as collateral duties.
  --For out of town protectees, we will request that the local law 
        enforcement agencies begin their D checks as soon as the 
        protectee arrives at their residence, instead of at 2300 hours 
        as they do currently.
  --Officers in the Field Training Officer (FTO) Program (trainee) will 
        be used as the 2nd officer at posts. Previously, trainees 
        shadowed their FTO and were not included in the staffing for 
        the Section. Now they are assigned a post but must always work 
        with their FTO present.
    In addition to the above Department-wide guidelines, the Department 
has taken several measures at the Division level to control or reduce 
overtime utilization. Because the posts described are law enforcement 
sensitive, the list of post reductions will be provided to the 
Committee separately.
    Question. Please provide a breakout of your total officer staffing 
request by division.
    Answer. See table below.

                                                         OFFICER COUNTS (ON-BOARD AS OF 5/15/09)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                            Additional
                                                                            Fiscal year     Fiscal year      officers       Fiscal year      Projected
    Bureau name/Division name              Title/rank             # of         2009       2009 projected     requested    2010 projected     total at
                                                                officers    additional     attrition--PP   (fiscal year      attrition      fiscal year
                                                                               sworn      10 to year-end     2010) \1\                     2010 year-end
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chief Of Police..................  COP.......................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          7  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Chief Of Police.....  ..........................         10  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
Chief Of Operations..............  COO.......................          1  ..............  ..............  ..............  ..............  ..............
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Chief Of Operations.  ..........................          2  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
        Long Term Absence
 
OHR--OPERATIONS DIVISION.........  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         18  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........          5  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Long Term Absence...  ..........................         26  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
    Office Of Human Resources
 
OHR--PROGRAMS DIVISION...........  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      Total, Office Of Human       ..........................          4  ..............  ..............  ..............  ..............  ..............
       Resources.
                                                              ==========================================================================================
     Mission Assurance Bureau
 
MAB..............................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          4  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          6  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         20  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         52  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........          1  ..............  ..............  ..............  ..............  ..............
                                   SPECIAL TECHNICIAN........          1  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN................          1  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, MAB--OPERATIONS       ..........................         86  ..............  ..............  ..............  ..............  ..............
       (DIVISION).
                                                              ==========================================================================================
MAB--SPECIAL EVENTS (OFFICE).....  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          5  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
      TOTAL, MAB--SPECIAL EVENTS   ..........................          7  ..............  ..............  ..............  ..............  ..............
       (OFFICE).
                                                              ------------------------------------------------------------------------------------------
      Total, Mission Assurance     ..........................         93  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
Office of Policy and Management    PRIVATE FIRST CLASS.......          2  ..............  ..............  ..............  ..............  ..............
 Systems.
                                                              ==========================================================================================
   Operational Services Bureau
 
PATROL DIVISION..................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          3  ..............  ..............  ..............  ..............  ..............
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          5  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         84  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         18  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN................          2  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN K-9............         43  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, PATROL DIVISION.....  ..........................        156  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
HAZARDOUS INCIDENT RESPONSE        CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
 DIVISION (HIRD).
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          2  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          9  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, HIRD................  ..........................         15  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
      Total, Operational Services  ..........................        173  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
    Protective Services Bureau
 
PSB..............................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
INVESTIGATIONS DIVISION..........  CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          2  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          3  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         21  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, INVESTIGATIONS        ..........................         28  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
DIGNITARY PROTECTION DIVISION      INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
 (DPD).
                                   CAPTAIN...................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          2  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         11  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          2  ..............  ..............  ..............  ..............  ..............
                                   SPECIAL TECHNICIAN........          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        116  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, DIGNITARY PROTECTION  ..........................        134  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
      Total, Protective Services   ..........................        163  ..............  ..............              13  ..............  ..............
       Bureau.
                                                              ==========================================================================================
     Security Services Bureau
 
SSB..............................  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, SSB.................  ..........................          3  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
PHYSICAL SECURITY DIVISION.......  SERGEANT..................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          5  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, PHYSICAL SECURITY     ..........................          6  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
TECHNICAL COUNTERMEASURES          DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
 DIVISION.
                                                              ==========================================================================================
      Total, Security Services     ..........................         10  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
     Training Services Bureau
 
TSB..............................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                   INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          4  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          8  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          2  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, TSB.................  ..........................         16  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
ENTRY LEVEL TRAINING DIVISION....  PRIVATE...................        151  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
5700--PHYSICAL SKILLS (DIVISION).  LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          5  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......          3  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, PHYSICAL SKILLS       ..........................          9  ..............  ..............  ..............  ..............  ..............
       DIVISION.
                                                              ==========================================================================================
      Total, Training Services     ..........................        176  ..............  ..............  ..............  ..............  ..............
       Bureau.
                                                              ==========================================================================================
     Uniform Services Bureau
 
USB..............................  DEPUTY CHIEF..............          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
                                   PLAINCLOTHESMAN...........          1  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, USB.................  ..........................          4  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
USB/LOC..........................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          1  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................          4  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......         58  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........          6  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, USB/LOC.............  ..........................         70              87  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
HOUSE DIVISION...................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          3  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          6  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         27  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          2  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        243  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........         44  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, HOUSE DIVISION......  ..........................        326  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
SENATE DIVISION..................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          2  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          4  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         19  ..............  ..............  ..............  ..............  ..............
                                   TECHNICIAN................          1  ..............  ..............  ..............  ..............  ..............
                                   DETECTIVE.................          1  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        177  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........         65  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, SENATE DIVISION.....  ..........................        270  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
CAPITOL DIVISION.................  INSPECTOR.................          1  ..............  ..............  ..............  ..............  ..............
                                   CAPTAIN...................          3  ..............  ..............  ..............  ..............  ..............
                                   LIEUTENANT................          9  ..............  ..............  ..............  ..............  ..............
                                   SERGEANT..................         37  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE FIRST CLASS.......        250  ..............  ..............  ..............  ..............  ..............
                                   PRIVATE W/TRAINING........        105  ..............  ..............  ..............  ..............  ..............
                                                              ------------------------------------------------------------------------------------------
      TOTAL, CAPITOL DIVISION....  ..........................        405  ..............  ..............  ..............  ..............  ..............
                                                              ==========================================================================================
      Total, Uniform Services      ..........................      1,075              93  ..............              76  ..............  ..............
       Bureau.
                                                              ==========================================================================================
      Total......................  ..........................      1,734          \1\ 93              28         \2\ 229             140           1,888
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Total includes 61 LOC Sworn Transfers, 26 LOC Sworn Backfill and 6 USCP Backfill.
\2\ Total includes 89 new sworn positions requested in the fiscal year 2010 budget request and 140 USCP Sworn Backfill

    Question. Please provide a list of additional closures that could 
be made in posts that are underutilized, and the annual savings that 
would be associated with these closures.
    Answer. Over the last 2 years, the Chief and Assistant Chief have 
continually realigned assignments, looked for efficiencies, and 
eliminated and added posts based on threat conditions and stakeholder 
requirements. This is a business process to which we are committed to 
continuing.
    To meet fiscal year 2009 budgetary requirements, the Department has 
developed a plan to adjust post requirements to the Capitol complex. 
``Round 1'' cuts will have no or minimal impact on the Capitol complex. 
The posts identified are not necessarily underutilized, but we have 
determined that the requirements may be better absorbed through other 
divisions or posts picking up the workload as a secondary 
responsibility to their primary responsibility. It should be noted that 
if security conditions change these post may have to be reinstated.
    By executing the Round 1 cuts the USCP expects to save 1,177 hours 
or $61,511 per week in overtime. These cuts were executed at the 
beginning of Pay Period 9 and are expected to decrease our overtime 
requirement for the remainder of fiscal year 2009 by $1.35 million. 
Further, we have included these cuts as an offset for our revised 
fiscal year 2010 overtime request of $25.5 million.
    Because the posts described above are law enforcement sensitive, 
the list of post reductions will be provided to the Committee 
separately.
    Question. Please provide a list of all new posts created in the 
last year, costs for each, and who directed the creation of the post.
    Answer. The majority of posts that were added to USCP in fiscal 
year 2009 are attributed to the opening of the Capitol Visitor Center 
(CVC). In fiscal year 2008 and fiscal year 2009, the Congress 
authorized and appropriated funds for 31 new sworn positions for the 
CVC based on a proposed staffing plan. This staffing plan was proposed 
prior to the final security assessment or the opening of the CVC.
    Since this time additional posts have been required for the CVC and 
posts that the Department thought would be eliminated were retained. 
This equated to an additional 1,811 hours of overtime per week or an 
additional $4 million from the beginning of fiscal year 2009 Pay Period 
24 until the end of fiscal year 2009. Additionally, requirements for 
the CVC to open at 8:30 a.m., 30 minutes prior to the original planned 
opening were added, which required an additional 349 hours per week or 
an additional $780,000 from fiscal year 2009 Pay Period 24 until the 
end of fiscal year 2009.
    Below is a more detailed description of the additional posts added 
as part of CVC that were not projected in the initial staffing plan:
  --Nine mandatory life safety posts required during evacuations (this 
        does not include two funded and anticipated life safety posts 
        or ERs, patrols, or perimeter officers). Life safety posts are 
        staffed only during operating hours of the CVC--additional 
        overtime is incurred for late night receptions/events based 
        upon anticipated guest participation.
  --Two officers Upper Level of the CVC at base of escalators, Monday-
        Friday 0700-1630; one officer, Saturday 0830-1630; and one 
        officer for late sessions of Congress.
    --The escalators leading to the U.S. Capitol from the upper level 
            of the CVC are the major pedestrian/visitor access point 
            between the two buildings. As such, in order to ensure the 
            security of the U.S. Capitol Building and prevent 
            unauthorized access into the building, additional officers 
            were assigned in this area, which were not originally 
            planned. Specifically, during business hours, special 
            events and late sessions of Congress, it is necessary to 
            post a minimum of five additional officers--two in the area 
            of the CVC upper level escalator base, one at the Crypt/top 
            of the escalators, one on the second floor of the Capitol/
            Rotunda entrance, one on the third floor East Front 
            Corridor.
  --One officer at the Rotunda Door interior, Monday-Saturday 0800-
        1630.
  --One officer at the 3rd floor East Front Corridor, Monday-Friday 
        0800-1630 or until the House and Senate adjourn.
  --Two officers, working 24/7 at the CVC Main Entrance exteriors to 
        monitor multiple fire doors.
  --Two officers working 24/7 to monitor new West Front egress fire 
        doors.
  --Two officers working 24/7 to monitor Law Library and Memorial 
        Doors.
    In addition to the new unplanned posts outlined above, the 
Department estimated that 89 sworn FTE would be realized by reassigning 
sworn personnel from posts that would close upon the opening of the 
CVC. However, some of these closures have not been realized, these 
include:
  --North Screening/North Door has remained open after CVC opening, 
        which requires six officers to operate the post.
  --S-407 continues to be a 9-5 post which is an unplanned expenditure.
    --40 hours per week for an additional 47 weeks in fiscal year 2009 
            for a cost of ($100,000).
  --Five officers are required to prevent early morning/late night 
        access into the Capitol from the CVC i.e., tunnels, etc. (CVC 
        opens 30 minutes prior to the Capitol and often has late night, 
        unescorted events.)
  --When the CVC fence was taken down, several doors leading into the 
        Capitol Building had to be staffed because the doors were not 
        alarmed or secured. This was a departure from our CVC staffing 
        plan.
    Additionally, requirements for the protection of Leadership 
positions of Congress were placed on USCP during fiscal year 2009.
  --During the presidential campaign, the Dignitary Protection Division 
        (DPD) was required to place protective details on Senator John 
        McCain and Then-Senator Barack Obama while they were within the 
        Capitol Complex.
  --Due to a staffing shortage, DPD was required to work additional 
        overtime to cover leadership travel. We could not anticipate 
        this staffing shortfall.
    Further, we have had additional requirements, which are:
  --We are staffing two new Truck Interdiction Posts (2nd and D Street, 
        NE, 3rd and C Street, NE).
    --Staffed M-F 0900-1700 or until Senate goes out of session and on 
            weekends when Senate in session; average 80 hours per week 
            or $4,180 per week. Normally when Senate is in session 
            posts are open until about 2100 or an additional 40 hours 
            per week in session or an additional $2,100 per week.
    --It is projected in one fiscal year that Congress is in session 39 
            weeks per year and 13 weeks out of session.
  --The money for the overtime required to replace LOC officer during 
        their transition training ($900,000) was not included in our 
        2009 budget.
    --The requirement for this was that each officer eligible for 
            transfer form the LOC would be required to attend 10 weeks 
            of training at Cheltenham. This equated to approximately 57 
            officers that required backfill or approximately 17,000 
            hours to backfill with USCP Officers.
    Question. A total of $19 million is requested for the Security 
Services Bureau, an increase of $3.9 million or 26 percent over fiscal 
year 2009. Please explain the need for this increase, and the impact of 
deferring or eliminating any of the new items proposed for fiscal year 
2010. How frequently does security equipment need to be refreshed?
    Answer. The $3.9 million increase in fiscal year 2010 would support 
a combination of programs aimed at ensuring that Congressional 
facilities meet current USCP standards and compliance with the LOC 
merger legislation. It is also intended to minimize security 
vulnerabilities, and assist us in maintaining equipment and systems at 
manufacturer suggested lifecycle standards for optimum performance.
    The $3.9 million increase in fiscal year 2010 (over fiscal year 
2009) breaks out as follows:
  --$1.37 million to install technical security systems in the 
        Alternate Computer Facility (ACF) to meet current USCP security 
        standards;
  --$928,000 to design and install Emergency Call Boxes and CCTV 
        cameras throughout the stairwells, areas of refuge, and safe 
        havens for Congressional Office Buildings (a new initiative 
        recommended and approved by the Capitol Police Board);
  --$718,000 for LOC access control system and CCTV integration (steps 
        required to undertake security responsibilities per statutory 
        merger language); and
  --$923,000 for LOC lifecycle replacement of various systems.
    All security equipment has lifecycle replacement guidelines per 
manufacturer recommendation and industry best practices. When equipment 
does not get replaced in a timely manner per these guidelines, 
equipment performance slips, downtime increases, and vulnerabilities 
are more likely. In addition the LOC does not use the same screening 
standards so if the equipment is not procured more officers may be 
required to support screening. By not funding these programs, important 
security equipment such as explosive detectors and x-ray machines would 
be prone to more outages, causing a ripple effect of having to spend 
more resources on repair, rather than proactive preventive maintenance.
    Question. Please provide the Department's comments and concerns 
with legislation passed by the House making technical and other changes 
to USCP statutes.
    Answer. The Department has coordinated with the House 
Administration and Senate Rules Committees on the legislation passed by 
the House making technical and other changes to USCP statutes. The 
Department has no significant comments or concerns with this 
legislation.
    Question. For fiscal year 2009 USCP proposed funding to recruit 264 
officers, with classes planned for October and November 2008, January, 
February and May 2009. What is the status of recruit classes for this 
year? How many new recruits do you anticipate?
    Answer. As of May 15, 2009, USCP hired 163 recruits and have lost 
19 (11.66 percent) recruits in training. We are expecting an additional 
32 sworn personnel to start training on June 4th, and have adequate 
qualified candidates to fill the August class with an additional 24 
hires. Altogether, we could add 56 more recruits to the 163 we've 
already hired totaling 219 for fiscal year 2009. We are monitoring our 
staffing levels closely to stay within our authorized positions.
    Question. Last year USCP estimated it would require $6,956,503 for 
costs associated with the LOC merger in fiscal year 2009. (DM#406860) 
This included $618,453 in salaries, $3,120,000 in transfers from LOC, 
and $3,218,050 in general expenses. What are the current estimates? LOC 
estimated overtime and benefits to cover mission during training of the 
transferring LOC sworn personnel at $400,000. What is the current 
estimate?
    Answer. When this document was created, 73 individuals had been 
identified as being eligible for consideration to transfer to the USCP 
as sworn officers. This was based on an initial review of Federal 
service time and other requirements of the U.S. Capitol Police and 
Library of Congress Police Merger Implementation Act of 2007. In 
addition, 21 LOC sworn officers were determined not to be eligible for 
consideration to transfer to the USCP as sworn officers at the end of 
the transition period pursuant to the U.S. Capitol Police and Library 
of Congress Police Merger Implementation Act of 2007.
    Another assumption when this document was created was that the 
Department would be able to absorb the overtime necessary to backfill 
for the LOC sworn officers who are eligible for consideration to become 
USCP sworn officers while they attended transition training. The 
Department believed at the time that with the efficiencies we were 
realizing in overtime management that additional overtime funding would 
not be necessary for this activity. However, this did not come to pass.
    Currently, there are 61 LOC sworn officers who have been determined 
to be eligible for consideration to transfer to the USCP as sworn 
officers based on the statutory requirements. This total may decrease 
based on the final certification of eligible sworn transferees against 
the standards set by the Capitol Police Board.
    Likewise, there are currently 23 LOC sworn officers who have been 
determined to be ineligible for consideration to transfer to the USCP 
as sworn officers, because they cannot meet the statutory requirement 
for 20 years of ``continuous'' Federal service prior to becoming 60 
years of age. These individuals will transfer to Department as 
civilians (i.e., as ``civilianized'' former officers) on October 11, 
2009, which is the 1st day of the 1st pay period following the 
completion of the merger transition period. There are also 11 
additional LOC sworn vacancies requiring backfill.
    To address the backfill requirements for this mission set, the 
Department is conducting a recruit officer class in June 2009, in which 
we will hire 26 new recruit officers for this purpose. Following the 
conclusion of the transition, the Department may need to request 
authorization and funding for the eight remaining sworn complement for 
this purpose, which are currently vacant.
    The current estimates for fiscal year 2009 are:
  --The Department received $279,000 in transferred funds from the LOC 
        to cover the salaries for the four civilians that transferred 
        from the LOC to the USCP on October 1, 2009.
  --The Department projects receiving $88,099 transferred salary 
        funding from the LOC to cover the salaries, benefits and 
        overtime from September 27-30, 2009 for the 61 anticipated 
        sworn transfers.
  --The Department will expend $149,000 in general expenses to conduct 
        the sworn transition training.
  --The Department will utilize an estimated $1.615 million in general 
        expenses to provide uniforms, equipment and weapons for the 
        certified sworn transferees.
    The projected estimates for fiscal year 2010 are:
  --The Department requires $4,688,582 in salaries and benefits to 
        annualize for the 61 sworn officers transferring to the USCP in 
        the last 3 days of fiscal year 2009.
  --The Department requires $1,998,412 in salaries and benefits to 
        annualize for the 26 LOC backfill officers hired in the June 
        2009 Recruit Officer Class.
  --The Department requires $2,184,000 in salaries and benefits for the 
        23 current LOC sworn officers who transfer to the USCP on 
        October 11, 2009 as civilians pursuant to the U.S. Capitol 
        Police and Library of Congress Police Merger Implementation Act 
        of 2007 and the three civilians currently with the Department. 
        (Salaries for these three civilians were transferred to the 
        USCP form the LOC appropriation for fiscal year 2009.)
  --Benefits and a 2.9 percent COLA for the positions noted above are 
        $2,973,557 and $192,944 respectively.
  --$1.42 million in overtime to cover the backfill for the 26 recruit 
        officers in the recruit officer class until they are deployed 
        in January 2010 as well as overtime to cover backfill for the 
        remaining eight LOC sworn vacancies until they are authorized 
        and funded.
  --$873,000 for overtime for normal post requirements that are 
        currently funded with LOC appropriated salaries funding.
  --The Department has requested $1.966 million in general expenses 
        funding to support the first phase of technical security 
        integration for the Library buildings when they fall under the 
        Capitol Buildings and Grounds jurisdiction on October 1, 2009.
    Question. Last year USCP estimated (DOC#409916) it would require 
$3,064,958 for the 2009 Presidential inaugural, including $2,080,958 
for overtime and $984,000 for expenses. What is the current estimate?
    Answer. The overtime estimate was revised multiple times up to and 
including the $1,646,800 we referenced in our reprogramming request 
dated October 3, 2008. That amount was based on the number of hours 
employees would work for the Inauguration itself, Inauguration 
rehearsals, and the extra hours we planned to work for Inauguration 
ticket pickup. We spent approximately $1.2 million in overtime for all 
of the Inauguration events combined. There are several contributors to 
this variance, the most significant among them that we have not charged 
``holiday pay'' to the Inauguration funding--although it had been 
included in the estimates--since it is not strictly overtime.
    As recently as January 2, we still anticipated using virtually all 
of the general expenses funding we had budgeted for the Inauguration 
(i.e., $945,700), the same amount referenced in the October 3 
reprogramming request. We ultimately used almost $500,000 of the total. 
The reason for the variance was the strict control exerted by the 
Inauguration Task Force over what expenditures were intrinsic to the 
Inauguration, and which were desirable but not absolutely necessary for 
that purpose.
    Question. Last year USCP estimated (DOC#409919) it would need an 
increase of $7,300,000 for the Capitol Visitor Center salary costs. 
Total FTE required to meet the mission was estimated at 155 sworn FTE, 
of which 134 were offset through previous authorization and 
reassignments. What is the current estimate? What additional 
requirements have been experienced that were not planned for the CVC?
    Answer. The current salaries and benefits costs projected for the 
CVC is approximately $2.1 million for the 31 sworn positions provided 
to support the staffing shortfalls identified at the time of these 
estimates. The current overtime estimate for fiscal year 2009 is $2.191 
million, which includes overtime to support the early opening time for 
the facility and new post requirements, including life and safety 
posts, as well as reduced offset posts following the opening of the 
CVC.
    In fiscal year 2010, the Department is continuing its load leveling 
efforts to evenly spread workloads and overtime impacts across the 
Department. In doing so and accounting for new CVC post requirements, 
as well as planning assumption changes for the operation of the 
facility, the Capitol Division, which includes the CVC, will have a 
higher overtime allocation than previously estimated.
    The current general expenses projected costs to support the 31 new 
sworn officers are $575,000 for uniforms, equipment and weapons.
    Since opening to the public in the fall of 2008, the CVC's 
operating assumptions have changed and the alignment of posts was 
altered from the original planning assumptions. To address these 
changes--many of which resulted in new posts or extended/expanded hours 
of operations, the Capitol Division has had to realign staffing within 
the Division and utilize overtime to meet the mission. To determine the 
full impact of these staffing assumption changes, we are conducting a 
staffing and gap analysis which will be completed by the end of June 
2009.
    Additional posts added as part of CVC that were not projected 
previously:
  --Nine mandatory life safety posts required during evacuations (this 
        does not include two funded and anticipated life safety posts 
        or ERs, patrols, or perimeter officers). Life safety posts are 
        staffed only during operating hours of the CVC--additional 
        overtime is incurred for late night receptions/events based 
        upon anticipated guest participation.
  --Two officers Upper Level of the CVC at base of escalators, Monday-
        Friday 0700-1630; one officer, Saturday 0830-1630; and one 
        officer for late sessions of Congress.
  --One officer at the Rotunda Door interior, Monday-Saturday 0800-
        1630.
  --One officer at the 3rd floor East Front Corridor, Monday-Friday 
        0800-1630 or until the House and Senate adjourn.
  --Two officers, working 24/7 at the CVC Main Entrance exteriors to 
        monitor multiple fire doors.
  --Two officers working 24/7 to monitor new West Front egress fire 
        doors.
  --Two officers working 24/7 to monitor Law Library and Memorial 
        Doors.
    In addition to the new unplanned posts outlined above, the 
Department estimated that 89 sworn FTE would be realized by reassigning 
sworn personnel from posts that would close upon the opening of the 
CVC. However, some of these closures have not been realized, these 
include:
  --North Screening/North Door has remained open after CVC opening, 
        which requires six officers to operate the post.
  --S-407 continues to be a 9-5 post which is an unplanned expenditure.
  --Five officers are required to prevent early morning/late night 
        access into the Capitol from the CVC i.e., tunnels, etc (CVC 
        opens 30 minutes prior to the Capitol and often has late night, 
        unescorted events.)
    Question. Please provide a prioritization of FTEs requested in 
fiscal year 2010, and explain whether any of those requested are a 
higher priority than those for which vacancies currently exist.
    Answer. Realizing that the fiscal year 2010 budget allocation for 
the Legislative Branch will not allow for double digit increases for 
the Department, we have reprioritized our total salary and general 
expenses requirements and determined that it will be more efficient for 
the Department to meet its sworn staffing shortages through overtime in 
fiscal year 2010, rather than with new sworn officers. While we will 
not be able to immediately staff for an increased intelligence 
capability, we plan to utilize our overtime and other resources to meet 
these and other critical mission requirements.
    Likewise, the Department plans to refocus its efforts on hiring the 
currently authorized and funded civilian positions during fiscal year 
2010. As a part of this effort, we plan to seek authorization to 
reallocate some vacant civilian positions to critical mission 
requirements that would have been filled by the new civilian positions 
included in our fiscal year 2010 budget request. Additionally, we will 
be seeking authorization to reallocate current vacant positions to meet 
mission needs currently met through outsourcing, such as communications 
and dispatch.
    Because of reduced benefits costs for overtime and a reduction in 
general expense outlays for new positions; we believe we can better 
meet our mission requirements, as well as critical infrastructure and 
lifecycle needs, within a single digit increase, by utilizing overtime 
to meet sworn staffing shortages.
    Question. How much overtime has been expended to date on the power 
plant utility tunnel project? What is required for fiscal year 2010?
    Answer. As of Pay Period 8, the USCP has not yet expended overtime 
to support the Architect of the Capitol (AOC) Tunnel Project in fiscal 
year 2009. The requirement for overtime is based on the project plan 
presented by AOC. Based on AOC estimates for fiscal year 2009, the 
Department is projecting to expend $280,000 in fiscal year 2009 for 
this purpose.
    Recently, the AOC presented USCP with its proposed project plan for 
the remainder of fiscal year 2009, as well as for fiscal year 2010. We 
are working with the AOC to determine the security requirements, both 
in terms of physical security and the physical presence of a USCP 
Officer to provide security and protection due to direct access to the 
Capitol Complex. Once the AOC has finalized its project plan and 
implemented mitigating physical security elements, we will be able to 
provide estimates for the overtime needed to support this project in 
fiscal year 2010.
    Question. USCP generally loses approximately 10 percent of recruits 
in any given class for a variety of reasons. What is the cost 
associated with this ``drop-out'' rate? What is USCP doing to improve 
its ability to recruit those individuals who have a high probability of 
graduating from FLETC and becoming USCP officers?
    Answer. In terms of human resources costs, the average cost per 
recruit who drops from training (which includes removal from training 
up to the last day):
  --Recruiting/Background Investigation Cost: $8,496 (not including any 
        salaries for any USCP employee working in recruiting or 
        Background Investigations (BI) or staffing, etc.)
  --Average Salary Cost (loss): $27,169
  --Average Overtime Cost: $4,079.
    Thus, the OHR drop cost total is $40,122.
    Additionally, there are offsetting losses to overtime reductions 
for recruits who ``drop-out'' during training. This offset is based on 
the recruit officer's contribution to meeting mission requirements 
going forward from their time of actual deployment. Because this 
contribution varies within a fiscal year dependant on when recruit 
classes occur and actual recruit officer deployments take place, it is 
hard to determine exact costs within a fiscal year resulting from this 
loss recruit officer contribution.
    In order to continue to improve our ability to recruit those 
individuals who have a high probability of graduating from FLETC, we 
are doing the following measures.
  --Recruiting and BI operations include a rigorous testing and 
        evaluation system that includes testing of cognitive skills and 
        evaluation of psychological, medical, polygraph, and personal 
        history as well as a personal interview with an investigator.
  --Applicants who meet the highest of standards in each category then 
        have their packages reviewed by a panel of USCP senior leaders 
        at the rank of Inspector, who make recommendations to the Chief 
        of Police on the best qualified candidates for hire.
  --The Chief of Police reviews these recommendations and makes a final 
        determination of the best candidates to send forward for hiring 
        approval.
  --From there, each individual is approved for hire by the Committee 
        on House and the Senate Committee on Rules and Administration 
        Chairs after first passing through the Capitol Police Board.
    We believe this rigorous multi-faceted, multi-phased approach has 
so far yielded consistent results in effectively prescreening 
applicants prior to the appointment to the USCP.
    Additionally, the Department is drafting updated sworn hiring 
standards, which will include physical fitness aptitude testing, for 
the consideration of the Capitol Police Board. Because many recruit 
officers either ``drop-out'' or are recycled into future recruit 
classes are as a result of physical injury resulting from the recruit's 
inability to meet the rigorous physical fitness requirements of 
training, we felt it was important to recommend the implementation of a 
physical fitness aptitude test prior to hiring a recruit officer.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on May 7, 2009, when we will meet in room SD-124 to 
take testimony on the fiscal year 2010 budget requests of the 
Architect of the Capitol and the Office of Compliance.
    We are recessed.
    [Whereupon, at 4:19 p.m., Thursday, April 23, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Thursday, 
May 7.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 7, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ACTING ARCHITECT OF THE 
            CAPITOL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. We will come to order.
    We will begin. I will get through the opening statement, 
and then we will take care of Senator Murkowski's opening 
statement when she gets here.
    Good afternoon, and we are happy to have so many people 
here. We are meeting this afternoon to take testimony on the 
fiscal year 2010 budget requests for the Architect of the 
Capitol (AOC) and the Office of Compliance (OOC).
    It is my pleasure to welcome shortly the ranking member and 
my good friend Senator Murkowski, and Senator Pryor is here and 
will return. And I believe Senator Tester is also planning to 
be here.
    I want to welcome our witnesses today--Stephen Ayers, 
Acting Architect of the Capitol and Tamara Chrisler, the 
Executive Director of the Office of Compliance. We welcome both 
of you. It is good to have you here, and we look forward to 
hearing from you.
    If it is possible to keep your opening statements brief, 
around 5 minutes, and submit the rest of your testimony for the 
record, it probably would work best for us. And I now welcome 
my ranking member, Senator Murkowski, and Senator Pryor to the 
hearing.
    One thing that I think, hopefully, we established at our 
first hearing a couple weeks ago is that we are not eager to 
increase the overall legislative branch budget. We certainly 
intend to address your agencies' needs, but this is not the 
year for the ``nice to haves.''
    This subcommittee received an 11 percent increase in fiscal 
year 2009, but I seriously doubt that we are going to see 
anything near a double-digit increase this year.

                   <greek-l>AOC deg.AOC APPRECIATION

    Mr. Ayers, I would like to first extend my personal 
gratitude to your entire staff for their hard work in 
maintaining the Capitol complex on a daily basis. You have got 
a very dedicated workforce. We are aware of that. We see it 
every day. And in particular, I would acknowledge the great 
service provided to us here in the Senate, led by the Senate 
Superintendent Robin Morey.
    It was interesting to note that while we recently 
celebrated the 100th birthday of the Russell Senate Office 
Building, the House is estimating a cost of about $753 million 
to remodel the Cannon House Office Building, which was built 
just 1 year earlier. So I think it says an awful lot for AOC's 
Senate folks who truly do a great job, and we appreciate all of 
your efforts.
    Mr. Ayers. Thank you, Mr. Chairman.
    Senator Nelson. You are welcome.
    The Architect of the Capitol's fiscal year 2010 budget 
request totals $644.6 million, a 20 percent increase over 
current year. And as we discussed in my office a few weeks ago, 
an increase like this is going to be quite a challenge, 
especially following the 28 percent increase your agency 
received in fiscal year 2009.
    Now I realize what you are going to face in maintaining 
working historical buildings with all the aging infrastructure 
while being held to mandated energy reductions. But we are 
going to have to work closely in identifying your most critical 
needs in crafting the 2010 appropriations bill.
    I also want to welcome Tamara Chrisler from the Office of 
Compliance. Your budget totals $4.4 million, a 10 percent 
increase over current year, including one additional employee, 
who brings your agency to a total of 22 full-time employees 
(FTEs). I look forward to hearing more about your agency 
mission and your fiscal year 2010 request.
    Now I would like to turn to my ranking member, Senator 
Murkowski, for her opening remarks.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    I add my welcome to both of you here this afternoon. Ms. 
Chrisler and Mr. Ayers, we appreciate the work that both of you 
have done over the years.
    Mr. Ayers, I think your agency's accomplishments as you 
have dealt with the opening of the Capitol Visitor Center 
(CVC), preparing the Capitol for the President's inauguration, 
keeping the facilities in good condition, we appreciate your 
efforts, that of your staff. And again, thank you for that.
    I understand that the AOC is moving forward with a variety 
of energy-related projects. I look forward to hearing a little 
bit more about those initiatives this afternoon.
    As the chairman has mentioned, we have seen with this 
legislative branch request for fiscal year 2010 a total of over 
$5 billion, an increase of nearly 15 percent over fiscal year 
2009. And Mr. Chairman, as I said in my last hearing and you 
have repeated, I am in favor of the legislative branch serving 
as a model for the rest of the Government. My questions today 
will seek to determine how we can accomplish that goal.

               <greek-l>AOC deg.AOC BUDGET REPRESENTATION

    As you have indicated, the AOC budget represents a 20 
percent increase, while the budget resolution, which we just 
passed, calls for a 7 percent increase in discretionary 
spending.
    Now I think we do appreciate here in the Capitol--we see it 
as we walk through--there is a backlog of projects within the 
AOC, primarily, because of the age of our buildings and the 
fact that we are still playing some catchup with implementing 
fire and life safety standards.
    But it is my understanding that some of the projects in the 
budget request probably wouldn't make it into the General 
Services Administration's (GSA) budget, for instance, because 
the legislative branch is held to a higher standard than the 
executive branch. And I understand the Congressional 
Accountability Act (CAA) enables the Office of Compliance to 
apply standards that would not ordinarily be applied to 
historic buildings.
    Now I want to be clear that I am very supportive, 
absolutely supportive of having strong fire and strong life 
safety standards. But I do have to question whether applying a 
gold standard to the legislative branch is appropriate. I think 
we need to be pragmatic, and I think we need to operate within 
a risk-based framework.
    I do believe that we need to do some paring back, and we 
will need your help, Mr. Ayers and Ms. Chrisler, to ensure that 
we meet the highest priorities and we fund those projects that 
really do give us the most bang for the buck, if you will. But 
I appreciate your good work, and I look forward to your 
testimony this afternoon.
    Senator Nelson. Senator Pryor, you waive your opening 
statement?
    Senator Pryor. I have no opening statement, Mr. Chairman.
    Senator Nelson. But not questions?
    Senator Pryor. Exactly.
    Senator Nelson. All right. Thank you.
    Well, first of all, Mr. Ayers, please, if you would, your 
opening remarks?

                   SUMMARY STATEMENT OF STEPHEN AYERS

    Mr. Ayers. Thank you, Mr. Chairman and Senator Murkowski 
and members of the subcommittee, for the opportunity to testify 
today regarding the AOC's fiscal year 2010 budget.
    First, I would like to thank the subcommittee for your 
support of our fiscal year 2009 budget to make the Capitol a 
safer, greener, and more efficient place. This year, we are 
requesting $644 million to support the maintenance, care, and 
operations of the buildings and grounds of the Capitol complex. 
We have developed our budget request to reflect the massive 
challenge of addressing the need to preserve the historic 
infrastructure on Capitol Hill while also recognizing the need 
to be fiscally responsible.

          <greek-l>AOC deg.AOC CHALLENGES--NEEDS VS. RESOURCES

    One of our biggest challenges is to maintain the aging 
infrastructure in this city within a city here on Capitol Hill. 
In March, we celebrated the 100th anniversary of the Russell 
building, and last year, we marked the 100th anniversary of the 
Cannon House Office Building.
    These buildings are historic and iconic, and require 
extensive maintenance in order to preserve them while, at the 
same time, keeping pace with new technologies, increased 
security requirements, and the necessary visitor amenities.
    Mr. Chairman, our needs far exceed the available resources, 
and we have developed an excellent project prioritization 
process to enable the Congress to make the best possible and 
informed decisions. Every project is evaluated on its 
importance, its urgency, and its category. These are really 
important, so I would like to take a moment to explain them.

                <greek-l>AOC deg.PROJECT PRIORITIZATION

    First, each project is categorized as deferred maintenance, 
capital renewal, capital improvement, or capital construction. 
Our budget requests are driven by the large number of deferred 
maintenance projects, as we believe it is most important to 
care for what you have before constructing new. So, in fact, 63 
percent of our budget is focused on these deferred maintenance 
projects, and only 12 percent is focused on capital renewal 
projects.
    Next, each project's urgency is determined by independent 
consultant assessments of our facilities. Projects are ranked 
as immediate, high, medium, or low urgency.
    Finally, each project's importance is carefully evaluated 
based upon a set of predetermined criteria, including historic 
preservation, fire and life safety, mission, economics, 
physical security, and energy and sustainability. We take all 
of these factors and bring them all together in a composite 
rating guide and, ultimately, deliver to the Congress a list of 
prioritized projects, top to bottom.

        <greek-l>AOC deg.AOC'S FISCAL YEAR 2010 PROJECT REQUESTS

    For fiscal year 2010, this list totaled $350 million worth 
of projects, and we have decided to request $168 million worth 
of those projects, which are only the highest, most urgent, and 
most important of all of those on the list. The choice to fund 
more projects or fewer projects is easy and is as simple as 
moving up or down on this priority list, depending upon the 
bottom line we need to achieve.
    We have continued to refine the data on which our planning 
is based. For example, over the past 5 years, we have conducted 
these independent facility condition assessments throughout the 
Capitol complex. These assessments identified the most critical 
issues in the facilities, and the objective data collected 
during this process helps us to identify which urgent needs 
must be done expeditiously.
    Specifically, the data continues to show that immediate and 
high-urgency deferred maintenance and capital renewal projects 
will increase significantly over the coming years. If these 
conditions are not addressed within a reasonable period of 
time, they will continue to deteriorate to the point where they 
can, and will, impact congressional operations.
    Last year, thanks to the subcommittee's commitment for 
funding to reinvest in the Capitol complex facilities, we were 
able to make a significant step toward buying down much of this 
deferred maintenance work. This includes improving life safety 
conditions throughout the Capitol complex.

       <greek-l>AOC deg.CAPITOL COMPLEX'S ENVIRONMENTAL FOOTPRINT

    We have been aggressively working to reduce the Capitol 
complex's overall energy consumption and its environmental 
footprint. In fiscal year 2008, our energy conservation efforts 
resulted in reducing the Congress' energy consumption by 10.7 
percent, exceeding the 2008 requirement of 9 percent.
    While these steps are significant, in moving forward, our 
goal is to make the Capitol complex more sustainable and energy 
efficient. There is still much work to do in furthering our 
sustainability practices.
    Mr. Chairman, the U.S. Capitol is the people's house, and 
for that reason, it is imperative that we do everything we can 
to continue to protect and preserve the Nation's icon for 
generations to come.

                           PREPARED STATEMENT

    Thank you, and I would be happy to answer any questions you 
may have.
    Senator Nelson. Thank you.
    [The statement follows:]

                 Prepared Statement of Stephen T. Ayers

    Mr. Chairman, Senator Murkowski, and members of the Subcommittee, 
thank you for the opportunity to testify today regarding the Office of 
the Architect of the Capitol's (AOC's) fiscal year 2010 budget request.
    I want to thank the Subcommittee for your support of our fiscal 
year 2009 budget request and the programs and priorities we set out in 
that submission, as well as for your guidance as we continually work to 
achieve our goals to serve Congress with a commitment to excellence.
    The past 6 months have been an extraordinary time for the AOC as 
the U.S. Capitol once again served as the Nation's stage. On December 
2, the doors to the Capitol Visitor Center (CVC) were opened to the 
public for the first time. Since that day, we have seen record numbers 
of daily visitors--just 2 weeks ago we saw our first day of more than 
19,400 guests. Over the past 5 months, we have seen visitation at the 
Capitol double over the number of guests received last year.
    Just 6 weeks after the CVC opened, the eyes of the world again 
turned to the Capitol Building for the historic 56th Presidential 
Inauguration. The AOC's involvement dates back to the 1860s when the 
Presidential Inauguration became a decidedly public event, and 
arrangements were made to allow the President to be closer to the 
people when taking the oath of office. We are honored to shoulder the 
responsibility for making all the infrastructure arrangements that are 
necessary to accommodate this event every 4 years.
    Given the magnitude of this event, we knew there was no room for 
error--the President-elect must be sworn-in at noon on January 20. Our 
capable team rose to the challenge; working countless hours to ensure 
that the Presidential platform was constructed, the seats on the West 
lawn were in place, and all of the final details were completed to 
ensure that the ceremony was successfully supported.
    As we worked to accommodate modern technologies into the Inaugural 
ceremonies, we also stayed true to our daily mission, which is to 
protect and preserve the national treasures entrusted to our care. 
Standing on the Inaugural platform, I couldn't help but think of the 
responsibility we have to ensure that the President-elect will be able 
to take his or her oath of office on January 20, on the West Front of 
the U.S. Capitol--the iconic symbol of our representational democracy--
for generations to come.
    With this in mind, the AOC has developed its budget request for the 
past several years to reflect the massive challenge of addressing the 
need to preserve the historic infrastructure on Capitol Hill, while 
recognizing the need for fiscal responsibility.
    In fact, our fiscal year 2010 budget has been structured around 
four focus areas. They are:
  --Solving the Deferred Maintenance and Capital Renewal backlog;
  --Following the Capitol Complex Master Plan process;
  --Meeting Federally-mandated and Leadership energy goals;
  --Managing and caring for the AOC work force.
    As I have discussed with this Subcommittee at prior hearings, we 
must continually manage the backlog of Deferred Maintenance and Capital 
Renewal projects, and have put into place a process by which to 
prioritize these projects.
    Not only do we face the challenge of the upkeep of aging buildings, 
we need to keep pace with new facility maintenance and building 
technologies, as well as increased security requirements. Last year, 
the Cannon House Office Building reached its 100th anniversary, and in 
March, we celebrated the 100th anniversary of the Russell Senate Office 
Building. These buildings are historic and iconic, and require 
extensive maintenance in order to preserve them, as well as ensure that 
they continue to serve as functioning, professional working 
environments for years to come.
    The following chart--the ``bow wave'' chart--clearly shows that 
ongoing facilities requirements and new mandates have created a 
significant increase in resource requirements. Our fiscal year 2009 
budget request, and subsequent appropriation, was a significant step in 
buying down a portion of the bow wave. This includes addressing 
stringent, modern-day fire and life-safety standards, and abating 
Office of Compliance citations to improve safety conditions throughout 
the complex. Life-safety projects are very high priorities for our 
Agency.
    However, we must continue to work on and to invest resources in 
projects that will prevent our critical facilities from further 
deterioration and failure. If we continue to defer these projects, the 
bow wave will move out and costs will increase over the long run. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Capital Budget Request and Project Planning Process
    Therefore, we are requesting $644.6 million for fiscal year 2010. 
We again utilized our program development process, which relies on the 
recommendations in the Capitol Complex Master Planning process, in 
structuring this budget request. This process assesses all the 
requirements of a project; determines the best way to implement these 
projects, including the option of ``phasing'' large projects over 
several years to manage costs and schedules; and prioritizes projects 
so that those of the greatest urgency are addressed immediately. We 
also took into consideration the need for fiscal restraint, and the 
challenge of executing the required programs efficiently throughout 
this process. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the above chart demonstrates, we continue to invest our 
resources in the areas that have an ``immediate'' urgency rating: 
Deferred Maintenance and Capital Renewal projects.
    We continue to refine the data on which our planning is based. For 
example, for the past 5 years we have conducted independent Facility 
Condition Assessments throughout the Capitol complex. These assessments 
identify the most critical issues in the facilities, and the objective 
data collected during this process helps us to identify the urgent 
needs that must be addressed expeditiously. Specifically, the data 
continues to show that ``immediate'' and ``high'' urgency Deferred 
Maintenance and Capital Renewal requirements will increase dramatically 
over the next several years. If these conditions are not addressed 
within a reasonable amount of time, they will continue to deteriorate 
to the point where they can, and will, impact Congressional operations.
    The Facility Condition Assessments also are used to determine a 
Facility Condition Index based on the backlog of Deferred Maintenance 
work. The Facility Condition Assessments and Facility Condition Indexes 
are used to predict the positive effect of investment and the negative 
effect of deferring work. Our assessments are showing that, at current 
funding levels, Capitol complex facilities are trending toward a 
``poor'' rating.
    Tied into the overall planning process is the Line Item 
Construction Program. During this process, projects are evaluated based 
upon an objective set of criteria.
    These criteria include:
  --Preservation of historic or legacy elements or features of 
        buildings or entire historic structures;
  --Fire and life-safety, code compliance, regulatory compliance, and 
        statutory requirements;
  --Impact on mission including client urgency, and accommodation of 
        new or changed missions;
  --Economics, including value, payback, life cycle costs, and cost 
        savings;
  --Physical security, including protection of facilities and people;
  --Energy efficiency and environmental aspects.
    The projects are further evaluated based on the conditions of the 
facilities and their components, and the urgency to correct the 
deficiencies.
    As we developed our fiscal year 2010 budget, we considered more 
than $350 million worth of projects, and are requesting $168.8 million 
for Line Item Construction Program projects. This prioritized list 
includes 36 projects; 32 of which are categorized as being of 
``immediate'' urgency. The remaining four are categorized as ``high.'' 
An additional 85 projects remain on the deferred list.
    Of particular note is a ``high'' urgency renewal design project: 
the Taft Memorial Renewal ($240,000). The Taft Memorial was constructed 
in 1958 and requires significant renewal. Its Tennessee marble facade 
has shifted, and the stonework is in need of major repair. Included in 
the design are plans to make the surrounding plaza ADA compliant. If 
the major deficiencies in this landmark memorial are not addressed 
expeditiously, structural and system failures could lead to the loss of 
a historically significant structure.
    The Senate Underground Garage has been identified by the Facility 
Condition Assessments as having serious deficiencies. It is rated 
``poor'' in terms of its Facility Condition Index, and it is nearing 
the end of its useful life. The planned study would examine options for 
providing parking to meet anticipated future needs; address 
infrastructure issues and mechanical, electrical, and fire prevention 
systems that have reached their life expectancies, as well as improve 
energy efficiency.
    Other key capital projects included in the AOC's fiscal year 2010 
budget request are:
  --Interim Painting of the Capitol Dome (part of ongoing 
        rehabilitation project);
  --Sprinkler System Design, Thomas Jefferson Building;
  --Various egress, fire door, and ADA restroom improvements for 
        Library of Congress buildings;
  --Independence Avenue repaving;
  --Cannon House Office Building Whole Building Renewal;
  --Upgrading physical security at the Capitol Power Plant;
  --Purchase Hazardous Device Unit and Vehicle Maintenance Facility for 
        U.S. Capitol Police;
  --Invest in Capitol Power Plant infrastructure;
  --Construct Book Storage Module 5 for Library of Congress;
  --Energy Conservation projects, such as Senate Office Building 
        computer server closet cooling, HVAC controls replacement, and 
        other projects identified by energy audits.
    Mr. Chairman, I would like to call to the Subcommittee's attention 
one project that has benefited from our comprehensive planning 
process--the Utility Tunnel Improvement Program. Last year, we 
requested $126.6 million for the program based on preliminary studies 
so that we could meet the 5-year completion schedule per the agreement 
with the Office of Compliance. After submitting the fiscal year 2009 
request, we re-evaluated the program, examined phasing and contract 
options, and employed innovative new construction technologies to 
increase the pace of the work.
    Based on the excellent progress made during the ongoing engineering 
work, we also evaluated and re-validated our approach to the project 
work, and refined our budget projection accordingly. We downsized our 
fiscal year 2009 request to $56.4 million. In fiscal year 2010, we are 
requesting $45.8 million to maintain our aggressive schedule to meet 
the settlement terms by 2012. All told, we were able to reduce the 
total projected cost of the Utility Tunnel Improvement Program from 
$235 million to $186.4 million--more than a 20 percent decrease. And, 
we remain on schedule to meet the settlement agreement terms by June 
2012.
    This past year, we have repaired and expanded the existing 
communications system to ensure continuous communications capability in 
the tunnels. As a result, the Office of Compliance approved the closure 
of this citation in January 2009.
    We also are engaged in an aggressive program to abate friable 
asbestos pipe insulation from steam, condensate, and chilled water 
lines in the tunnels. Completion of this work is anticipated in 2010. 
In addition, the removal of spalling concrete is on schedule. With 
regard to tunnel temperatures, we have re-insulated all steam and 
condensate lines, the major cause of high heat conditions in the 
tunnels; improved the existing ventilation system to further reduce 
temperatures, and designed a new ventilation system to further improve 
temperatures. In addition, we've upgraded existing egresses, and we are 
installing new egresses where needed.
            energy conservation and sustainability programs
    The AOC has been aggressively working to reduce the Capitol 
complex's environmental footprint, and its overall energy consumption. 
In 2008, the AOC increased its use of natural gas; purchased renewable 
energy; and installed more than 14,000 compact fluorescent light bulbs. 
According to our analysis for fiscal year 2008, these efforts resulted 
in the Congress reducing its energy consumption by 10.7 percent; 
exceeding the fiscal year 2008 requirement of a 9 percent reduction as 
compared to the fiscal year 2003 baseline. For fiscal year 2009, the 
AOC is required by law to meet a cumulative 12 percent reduction under 
the Energy Independence and Security Act of 2007; the Green the Capitol 
Initiative requires a 16.5 percent reduction.
    To meet these requirements to further reduce energy consumption, we 
have requested $17 million in fiscal year 2010 for Energy Program 
management, metering, and design and development of energy conservation 
projects. In addition, we have requested more than $11 million for 
capital projects that were submitted and considered because they 
implement sustainability practices and/or contain projected energy 
savings.
    However, the fiscal year 2010 request is only a down payment on the 
investment needed to meet the requirements of the Energy Policy Act of 
2005 (2 percent per year for a total of 20 percent by 2015); Energy 
Independence and Security Act (3 percent reduction per year for a 30 
percent reduction by 2015); and the goals of the Green the Capitol 
Initiative (50 percent energy reduction for the House Office Buildings, 
Capitol Building, and Capitol Visitor Center, and 31 percent reduction 
at the Capitol Power Plant by 2017). Based on what is known today, to 
meet the Energy Independence and Security Act goals, we estimate 
current and future funding requirements of more than $320 million.
    To better identify and evaluate energy savings opportunities in 
Capitol complex facilities, we have been using energy audits since 
fiscal year 2007. To date, the AOC has invested nearly $2.5 million 
toward these audits, and the data collected will help us realize better 
cost-benefit results.
    We also are implementing alternative funding strategies such as 
Energy Saving Performance Contracts. Under these contracts, companies 
invest their own capital to complete energy saving construction 
projects, and are then reimbursed from the savings generated by the 
installed projects. The AOC plans to use seven Energy Saving 
Performance Contracts across the Capitol complex to include individual 
contracts for the Capitol Building, House Office Buildings, Senate 
Office Buildings, Library Buildings and Grounds, Capitol Power Plant, 
Botanic Garden/Office of Security and Police Buildings, and Capitol 
Grounds.
    However, the Energy Saving Performance Contracts alone will not be 
able to achieve the energy reductions goals mandated. We continue to 
purchase Renewable Energy Credits (RECs) and have requested an increase 
in fiscal year 2010 funding to purchase the equivalent of 100 percent 
of our electricity in RECs. In addition, we are continuing our efforts 
to complete the program to install steam, electricity, natural gas, 
chilled water, potable water, and condensate meters across the Capitol 
complex. This is a key effort in terms of being able to measure current 
consumption, look for improvement opportunities, and measure energy 
savings results.
    Because the Capitol Power Plant plays a critical role in our long-
term energy conservation strategy, we are continually working to 
improve and upgrade operations there. For example, we are developing a 
Strategic Energy Plan, with the assistance of the National Academies of 
Science, which will influence our future Energy Program planning. 
Another step we took was to move toward maximizing the use of natural 
gas at the Capitol Power Plant.
    In February, following the direction of Senate and House 
Leadership, we took immediate steps at the Capitol Power Plant (CPP) to 
further reduce the production of carbon dioxide, and we are now 
refining the engineering strategy for equipping the CPP to meet peak 
steam demands using only natural gas.
    Specifically, I directed the CPP staff to begin its seasonal 
conversion to natural gas operations immediately. In previous years 
this conversion did not occur until late May. Assuming the weather 
remains mild and we do not experience any major equipment issues, we do 
not expect to burn coal for the remainder of this fiscal year.
    As a result of this action, we anticipate achieving a fuel ratio of 
75 percent natural gas and 25 percent coal for fiscal year 2009. This 
significant decrease in the amount of coal used compared to fiscal year 
2008 will reduce carbon dioxide levels by approximately 6,700 tons. We 
plan to fund the purchase cost for the additional natural gas in fiscal 
year 2009 from available appropriations.
    We are also looking at various options for continued energy 
efficiencies that have emerged throughout the development of the draft 
Capitol Power Plant Strategic Energy Plan, which we plan to share with 
this Subcommittee and Congressional Leadership in the coming weeks.
    Over the past several years we have been working to create a 
healthy and productive workplace where environmental awareness and 
sustainability are the normal ways of doing business in the Capitol 
complex. There are a number of initiatives that the AOC has been 
engaged in, and we continue to see results in our efforts to improve 
energy efficiency.
    The following is a list of just a few of our ongoing energy-saving/
sustainability initiatives.
  --We opened an ethanol (E-85) fueling station to Legislative Branch 
        Agencies in October 2008, for use by official flex-fuel vehicle 
        fleets.
  --We replaced more than 14,000 conventional incandescent light bulbs 
        with compact fluorescent lamps (CFLs) across the Capitol 
        complex.
  --We implemented a policy requiring the purchase or leasing of 
        alternate fuel vehicles when replacing aging vehicles in the 
        AOC fleet.
  --We installed dimmable ballasts in 21 Senate/Committee office 
        suites. The program typically saves 11,400 kilowatt hours per 
        week or 40 percent of lighting energy used in an office suite.
  --We installed a renewable, solar energy source for lighting in Lot 
        18 in fall 2008. These new solar-powered lights save 
        approximately 1,825 kilowatt hours per year.
  --We launched our energy awareness program: Power to Save in October 
        2008. We are providing tools and tips on our Power to Save Web 
        site to encourage Capitol Hill offices to conserve energy. 
        www.aoc.gov/powertosave.
  --We more than doubled total tonnage of recycled waste from 1,400 
        tons to 3,100 tons from fiscal year 2002 to fiscal year 2008. 
        Contamination rates remain at zero.
  --We recycled 100 percent of all AOC computer and electronic waste 
        which includes monitors, keyboards, computers, printers, 
        laptops, and other types of computer hardware over past 3 
        years.
  --We are using food waste, garden clippings, and other green waste, 
        and repurposing it as compost for flower beds and to sustain 
        other plantings throughout the Capitol complex.

                    ANNUAL OPERATING BUDGET REQUEST

    Our fiscal year 2010 annual operating budget request for $423.6 
million provides funding for continuing the routine activities of 
operating and maintaining the infrastructure which supports the 
Congress, other Legislative Branch agencies, and the public, as well as 
other AOC essential mission support services. Some of these services 
include financial management, safety, human resources, project and 
construction management, planning and development, communications, 
information technology, procurement, and central administration.
    As I mentioned earlier, one of our four focus areas is the managing 
and caring for the AOC work force--our greatest asset. A budget 
priority for fiscal year 2010 is providing the proper training for our 
people. Unfortunately, the AOC lags behind the industry standards in 
terms of automated facility management tools. Receiving the requested 
funds in this area would bring us closer to that standard, and increase 
our ability to manage facilities utilized by Congress and the American 
public.
    Other operating cost increases lie outside the control of the AOC. 
Utility rates have risen, the cost of leases has increased, recycling 
and bulk waste removal contracts are now more expensive, and mandatory 
pay raises combined with the increase in transit subsidy benefits have 
added to the cost of our day-to-day operations.
    Additional funding is being requested for development and technical 
skills training for staff; to provide uniforms for employees of our 
Construction Division to ease recognition of staff and reduce potential 
security issues within the Capitol complex; to provide training, 
equipment, materials, and services in preparation for and response to 
emergency events; and to purchase necessary safety apparel such as hard 
hats, safety glasses, gloves, steel-toe shoes, and hearing protection 
for project management staff.

            CAPITOL VISITOR CENTER OPERATING BUDGET REQUEST

    Our past budget requests for the Capitol Visitor Center (CVC) 
included funding for its construction. In fiscal year 2010, 
construction costs are no longer part of our CVC budget. We are 
requesting $24.6 million for CVC operations and administration, to 
include payroll for the Capitol Guides, who have been integrated into 
our organization, and are an integral part of our team. We also are 
requesting an additional 25 FTEs to support CVC full-year operations to 
include additional staff to coordinate greater than anticipated 
requests for use of the CVC rooms and restaurant services, and 
specialized maintenance personnel to perform furniture repairs and 
sheet metal repairs in the coat check rooms and the Congressional 
auditorium.
    The mission of the Capitol Visitor Center is to provide enhanced 
security for all persons working in or visiting the U.S. Capitol, and a 
more convenient place in which to learn of the work of Congress and 
about the Capitol. Since December 2, 2008, when the CVC was officially 
opened to the public, we have been very successful in achieving our 
goal to make the visitor experience at the U.S. Capitol one that is 
safe and enjoyable for all who come here.
    Instead of standing in line for hours, visitors now pass through 
security quickly and are able to enjoy the amenities and the exhibits 
housed in the CVC. To date, we have welcomed more than 800,000 
visitors. In late April, we hosted more than 19,470 guests in a single 
day, and thanks to the efforts of the U.S. Capitol Police and our 
Visitor Assistants, the average wait time to enter the facility was 6 
minutes. In addition, every staff-led tour request during this time was 
accommodated.
    As we continue this next year in ``test and adjust'' mode, Ms. 
Terrie Rouse, Chief Executive Office for Visitor Services, and her team 
continue to adapt to changing situations and make accommodations for 
Members of Congress as necessary. For example, they have made 
improvements to the tour schedule and various policies to help Members 
accommodate constituents who visit their offices who may not have tour 
reservations. She also has initiated ``Congressional staff listening 
sessions'' where staff may share ideas and thoughts about Capitol tour 
operations.
    The Congressional Historical Interpretive Training (CHIP) Program 
has also been updated since last fall based on feedback from Members' 
offices. Our team's ongoing review of the pilot program's curriculum 
since its implementation in fall 2008 has allowed it to grow and 
improve to meet participants' needs. Thus far, more than 2,000 
Congressional staff have participated in the program. We're happy to 
report that the CHIP Program has greatly enhanced the tour experience 
for Members' constituents, and that staff-led and Capitol tours have 
worked in parallel, thereby reducing security risks and optimizing 
safety concerns of visitor flow within the Capitol Building. Most 
importantly, the training has successfully met its goal to aid in the 
accuracy and consistency of the information provided to all visitors.
    As a point of interest, I would like to add that on April 13, we 
introduced 50 new documents into the CVC's Exhibition Hall. The new 
items, which include the December 11, 1941, resolution declaring war 
against Germany, one of only two printed drafts of the U.S. 
Constitution discussed during the 1787 Constitutional Convention, and a 
list of supplies requisitioned by Meriwether Lewis prior to his 
historic Lewis and Clark Expedition, will be on display through October 
1, 2009.

                          AOC ACCOMPLISHMENTS

    Mr. Chairman, as I discussed earlier, the past year has been one 
full of significant achievements for the AOC, in addition to the public 
opening of the Capitol Visitor Center and supporting the Presidential 
Inauguration. I would like to sum up my testimony by listing a few of 
our many accomplishments.
  --We conducted our annual Building Services Customer Satisfaction 
        Surveys, and in fiscal year 2008, we maintained more than 90 
        percent customer satisfaction rating. Customer satisfaction 
        continues to increase annually.
  --We completed 24 Senate Office moves in April. We also moved 184 
        House Offices and 2 House Committees in less than 1 month's 
        time, and achieved a customer satisfaction level of 96 percent.
  --The Government Accountability Office provided the AOC with 67 
        recommendations to help improve its strategic management since 
        2003. Nearly 75 percent of those recommendations have been 
        fully implemented, closed, or incorporated into new 
        recommendations (as of February 2009). 

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  --We continued to improve our cost accounting procedures and internal 
        controls, and received our sixth consecutive clean audit 
        opinion on our financial statements. The Capitol Visitor Center 
        also received a clean audit opinion.
  --We conducted employee focus group sessions in April 2008 to gather 
        observations on topics ranging from customer service and 
        internal procedures to our mission and our work environment.
    --Participants noted that the AOC has made tremendous progress over 
            the past few years. Specifically, 54 percent of 
            participants responded that they were satisfied or very 
            satisfied with their jobs versus 35 percent in 2004. Those 
            who said they were very dissatisfied with their jobs 
            dropped from 21 percent in 2004 to just 4 percent in 2008.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
  --We decreased our Injury and Illness Rate for 9th year in a row. We 
        dropped to 4.06 cases per 100 employees in fiscal year 2008; 
        the lowest rate the AOC has ever sustained.
  --We closed 71 of 99 items from Office of Compliance citations (80 
        percent), as of February 2009, and we have submitted a request 
        to close seven additional items.
  --United States Botanic Garden (USBG) has achieved accreditation from 
        the American Association of Museums (AAM), the highest national 
        recognition for a museum. Of several hundred public gardens in 
        North America, the U.S. Botanic Garden is 1 of only 19 that 
        have been awarded accreditation.
  --The West Refrigeration Plant Expansion project at the Capitol Power 
        Plant was selected as 2009 Craftsmanship Award Winner in the 
        mechanical category for HVAC-Piping by the Washington Building 
        Congress.
  --The Washington Building Congress also recognized the AOC's Painting 
        and Plastering team in the ``Specialty Painting'' category for 
        relocating the Statue of Freedom model from the Russell Senate 
        Office Building to Emancipation Hall in the CVC.
  --Our stone mason team that worked to restore the marble floors in 
        the Jefferson Building, while installing electrical conduits to 
        support the new Visitors Experience project was also recognized 
        by the Washington Building Congress with a 2009 Craftsmanship 
        Award.

                               CONCLUSION

    Every brick, every floor tile, every element of the U.S. Capitol is 
saturated with our Nation's art, history, and politics, and coming here 
is one of the best ways Americans can see and understand themselves, 
their country, and their government.
    We are all part of the brick and mortar of our Nation, and this 
Capitol belongs to each and every one of us. For that reason, it is 
imperative that we do everything we can to succeed in our mission to 
protect and preserve our Nation's icon and a symbol of representative 
democracy for generations to come.
    The AOC is committed to being good stewards of the Capitol complex, 
and in that regard, we have accomplished much and experienced numerous 
successes. These achievements can be directly attributed to the 
dedicated, professional individuals that make up the AOC team. In my 
role as Acting Architect for the past 26 months, I have been honored 
and privileged to work along side them. Because of their efforts and 
commitment to excellence, we continue to provide exceptional service to 
Congress and the visiting public.
    Once again, thank you for this opportunity to testify today. Mr. 
Chairman, we look forward to working with this Subcommittee, the House 
Subcommittee on Legislative Branch, and our Oversight Committees to 
address the backlog of maintenance and repair projects, and continue to 
protect and preserve the U.S. Capitol for generations to come. I would 
be happy to answer any questions you might have.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR
    Senator Nelson. Ms. Chrisler.
    Ms. Chrisler. Thank you, Mr. Chairman, Ms. Murkowski, and 
Mr. Pryor.
    I am honored to appear before you today on behalf of the 
Office of Compliance in support of our 2010 budget request.
    There are really three major items from our budget request 
that I would like to highlight in my opening statement, and 
they involve the funding and authorization of an occupational 
safety and health (OSH) program supervisor, funding for the 
already authorized and unfunded compliance officer position, as 
well as funding for a contract fire safety specialist.

                  <greek-l>OOC deg.A HEARTFELT THANKS

    Before I get to those three items, though, I would like to 
thank this subcommittee for the support of the efforts of the 
Office of Compliance. Specifically, in fiscal year 2009, the 
subcommittee's support allowed the office to improve our 
operational infrastructure, provide salary levels reflecting 
the outstanding performance of our staff, as well as provide 
technical assistance to the covered community.
    Because of the support of this subcommittee, the Office of 
Compliance has been able to work collaboratively with the 
Office of the Architect of the Capitol, the Senate Sergeant at 
Arms, Senate Chief Employment Counsel, and the Senate 
Superintendent to improve the safety and health conditions on 
Capitol Hill and in Senate offices.
    During the last two Congresses, safety and health hazards 
in Senate office buildings has dropped by over 50 percent, and 
that is due to the support of this subcommittee. So we thank 
you.

          <greek-l>OOC deg.OOC FISCAL YEAR 2010 BUDGET REQUEST

    Our 2010 budget request recognizes the economic 
difficulties of this country and the fiscal constraints of this 
subcommittee. And we have refrained from renewing old requests 
from fiscal year 2009 that went unfunded, and we really did 
some reevaluating of how we can perform the work that we need 
to perform with the minimal resources. So I present to you the 
most critical of those needs that we have.
    The most critical item that I present to you today is the 
funding and authorization of an OSH program supervisor. 
Currently, that duty is being performed by a detailee from the 
Department of Labor. This detailee retires in calendar year 
2010. The individual has over 30 years' experience in safety 
and health.
    He is a certified industrial hygienist, and what he does is 
supervises the safety and health inspectors, works with outside 
OSH experts, and provides technical advice, expert technical 
advice to our general counsel. This position is critical to the 
success of our safety and health program.
    After having spoken with some of the staff over at the 
Department of Labor, we have been informed that not because the 
Department of Labor doesn't want to, but they are going to find 
it very difficult to replace that individual with another 
nonreimbursable detailee of the same experience with the same 
credentials.
    Through attrition, through retirement, they have lost a lot 
of their senior staff, and they are having a hard time 
servicing their needs. And they are very doubtful that they 
will be able to replace this position with a nonreimbursable 
individual.
    So we are looking to have the authorization and funding to 
bring this position on staff. Having the position within our 
staff will bring accountability within our office and within 
the legislative branch, where it really should be, and ensure 
consistency with our operations.

               <greek-l>OOC deg.FTE FUNDING AUTHORIZATION

    The second item that I would like to discuss with you today 
is funding for a compliance officer. In fiscal year 2008, this 
subcommittee supported the authorization of a compliance 
officer position for our office. And what this position would 
do is verify the abatement schedule of existing hazards, making 
sure that nothing falls through the cracks. And this is a 
critical position that the office is seeking funding for during 
this fiscal year.

                   <greek-l>OOC deg.CONTRACT SERVICES

    Third, as we have discussed a little bit already today, is 
fire safety. And we are seeking funding for a fire safety 
specialist.
    In fiscal year 2009, the Office of Compliance requested the 
authorization and funding for an FTE for these services. Having 
reevaluated our needs and really taking into consideration the 
economic difficulties that are facing us today, we are seeking 
only a portion of that funding and not the FTE. We are looking 
to see how we can meet the needs with contract services.
    What this position would do is ensure that longstanding 
fire hazards are abated and that they are done so timely.
    Outside of not renewing the request for an FTE for the fire 
safety specialist position, the Office of Compliance has also 
not renewed requests for the trainer and the ombudsman that we 
did request in fiscal year 2009. We are mindful of the 
situation, the financial crisis that the country faces. We are 
mindful that this year is not the year for the ``nice to 
haves,'' and we are presenting to you what we critically need.
    We have also taken efforts to share services with sister 
agencies to reduce our costs in our mediation and our hearing 
program. And that effort is very successful.
    So we continually strive to provide the needed services 
with minimal, though adequate, resources. And it is our hope 
that this budget request that we submit to you reflects such 
effort.

                           PREPARED STATEMENT

    I thank you for the opportunity to appear before you, and I 
welcome any questions that you have.
    Senator Nelson. Thank you.
    [The statement follows:]

                Prepared Statement of Tamara E. Chrisler

    Mr. Chairman, Ms. Murkowski, and distinguished Members of the 
Subcommittee, I am honored to appear before you today on behalf of the 
Office of Compliance (``OOC''). Joining me today are General Counsel 
Peter Ames Eveleth, Deputy Executive Director Barbara J. Sapin, Deputy 
General Counsel Susan M. Green, and Budget and Finance Officer Allan 
Holland. Collectively, we present to you the agency's request for 
appropriations for fiscal year 2010, and we seek your support of our 
request.
    Before I get to next year, though, I want to express our 
appreciation for your support of our Office during fiscal year 2009. 
The Subcommittee's support for the mission and efforts of the OOC was 
reflected in the funding level authorized for the OOC in fiscal year 
2009. Thanks to the Subcommittee's support, the agency is able to 
increase its efforts to provide technical assistance to employing 
offices and employees, both on Capitol Hill and in remote offices; 
offer training programs tailored to the specific needs of the covered 
community; improve its operational infrastructure; and provide its 
talented workforce with salary levels that reflect their level of 
performance. We appreciate the continued support of the Subcommittee 
and thank you for your assistance in ensuring a fair and safe workplace 
for our covered community.
    Your support continues to demonstrate results. Over the past two 
Congresses, safety and health hazards in Senate Office Buildings have 
dropped by over 50 percent. We expect this progress to continue when we 
inspect Senate Buildings in the current Congress. Those inspections 
will begin during the August recess. We attribute these results to your 
support for our collaborative efforts with the Senate Chief Counsel for 
Employment, Senate Sergeant at Arms, and the AOC/Senate Superintendent.
    For our fiscal year 2010 operations, the Office of Compliance is 
requesting $4,474,475--an increase of $402,475 or 9.88 percent over our 
fiscal year 2009 funding level. Like all of us in this room, we are 
mindful of the economic difficulties confronting the country and the 
Federal Government. We know that this Subcommittee faces real fiscal 
constraints. Accordingly, we are not renewing our request for a number 
of items from our 2009 appropriations request: namely, three FTEs--the 
fire safety specialist, the trainer, and the ombudsman. We recognize 
our responsibility to make more efficient our operations to meet the 
government's current fiscal challenges while at the same time 
fulfilling our mission.
    Despite our funding challenges, however, we continue to perform our 
statutory duty. For example, we are working closely with the Office of 
the Architect of the Capitol (``AOC'') staff to implement the Capitol 
Power Plant Utility Tunnel Settlement Agreement. Our full-time tunnel 
liaison has an excellent working relationship with AOC officials. As a 
consequence, our offices cooperate extremely well in ensuring that the 
life-threatening hazards that characterized the tunnels in the past are 
being abated in a timely fashion. In particular, asbestos has been 
removed from four of the tunnels and is being removed from a fifth. 
Assuming continued funding, we anticipate that all asbestos will be 
removed from all tunnels by the summer of 2010. Structural repairs are 
continuing. Emergency egress is being improved. Heat stress is being 
reduced. We are very pleased with the progress so far, and look forward 
to continued cooperation with the AOC, until the Settlement Agreement 
is completely fulfilled.
    We are also proud of our accomplishments in resolving employment 
disputes in the legislative branch. In fiscal year 2008, we processed 
more than 100 claims raised by covered employees through our use of 
alternative dispute resolution, resulting in 18 formal settlements. 
Some of these claims were resolved with monetary awards, but many were 
not. The OOC played a significant role in fostering creative 
settlements that included non-monetary terms tailored to meet the needs 
of the disputants. This type of resolution is significant as it often 
results in a win-win situation for both parties, and it is also a cost-
savings measure for the government.
    Looking forward, we want to continue to report accomplishments and 
meet our statutory mandates, but we cannot accomplish our mission 
without adequate resources. In light of the current economic situation, 
we are not requesting three FTEs that we asked for in the last fiscal 
year. But changed circumstances have highlighted the need for us to add 
one new position to our ranks.
    Since 1997, the agency has benefited from the services of an 
employee on a non-reimbursable detail from the Department of Labor. 
This long-time OSH program supervisor and special assistant to the 
General Counsel is a certified industrial hygienist with over 30 years' 
experience in occupational safety and health matters. His duties 
include supervising our safety and health inspectors, working with 
outside OSH experts, and providing expert technical advice to the 
General Counsel and guidance to OGC staff regarding the application of 
OSHA standards. In short, he is critical to our operation. But this 
detailee plans to retire in January 2010, and it is unlikely that we 
will be able to replace him with another non-reimbursable detailee. 
Moreover, these types of duties are best performed by an employee on 
staff with the agency, who is accountable to the very agency where the 
duties are performed. For these reasons, we are requesting the 
authorization for and funding of an OSH program supervisor FTE. Because 
the current supervisor will not retire until calendar year 2010, we 
have presented our request with a prorated amount of funding.
    In fiscal year 2008, the Subcommittee authorized a compliance 
officer FTE. The Subcommittee recognized the agency's need to monitor 
the abatement schedules of employing offices and ensure that employing 
offices have taken appropriate steps towards resolution of identified 
hazards and violations. Indeed, in fiscal year 2006, this very 
Subcommittee reminded the agency that mechanisms and personnel are 
necessary to better assure efficiency and timeliness in our monitoring 
program. Because of financial constraints, however, the position was 
authorized without funding in fiscal year 2008 and remained unfunded in 
fiscal year 2009. The agency requests in our fiscal year 2010 
submission funding for this very critical position. Receiving funding 
for this position will allow the Office to perform its statutory duty 
by providing technical assistance to employing offices in abating 
complex hazards, assuring timely abatement of hazards identified in the 
OSH biennial inspections and requestor-initiated inspections, and 
ensuring compliance with OSH-related citations.
    In our fiscal year 2009 request, the OOC sought funding to support 
our ``prevent and reduce'' initiative. This initiative was created to 
reduce the number of incidents giving rise to allegations of violations 
of the Congressional Accountability Act (``CAA''). It was contemplated 
that three additional FTEs--a fire safety specialist, a trainer, and an 
ombudsman--would provide technical fire safety expertise, as well as 
assist employees and employing offices to resolve complaints at the 
earliest opportunity, resulting in taxpayer savings. The agency remains 
convinced that these FTEs would provide the covered community with 
essential technical assistance and allow for early and amicable 
resolution of workplace disputes. However, given our current financial 
situation, we have explored other ways of providing these services to 
the covered community. Consequently, we have removed these FTEs from 
our fiscal year 2010 request and only seek minimal funding for 
contracted fire safety services.
    We are all aware that fire safety continues to be a critical 
concern for the legislative branch. Significant, long-standing fire 
hazards remain in Senate and House Office Buildings, the Capitol, and 
Library of Congress facilities. These buildings present special 
challenges due to their historic nature, innate beauty, and ongoing 
heavy usage. Through collaboration with the AOC, the OOC has made 
significant progress in developing abatement plans to resolve fire 
safety Citations that have been pending since 2000 and 2001. However, 
because of the challenges presented by the beauty and history of these 
buildings, the efforts to abate the hazards may continue for years 
before complete abatement is achieved. As our efforts at accelerating 
abatement activity have increased, the demands on our fire protection 
engineer and legal staff have significantly expanded.
    As the agency is staffed with only one inspector with specialized 
expertise in fire safety issues and one attorney who spends a large 
portion of his duties addressing matters other than fire safety 
concerns, the agency is limited in its resources to address these 
critical hazards. We recognized the need for additional resources in 
this area and requested an FTE in fiscal year 2009. Although the need 
for additional resources continues, the agency has reexamined exactly 
how to meet that need. As a result, the agency requests fiscal year 
2010 appropriations for the contractual services of a fire safety 
specialist. We expect that this Specialist will serve a function 
similar to that of our tunnel liaison, and devote full-time efforts to 
resolving the very serious fire hazards present in the legislative 
branch. Removing, the request for an FTE results in a savings of almost 
$25,000.
    In an effort to reduce costs for our mandated dispute resolution 
program, the OOC has entered into an interagency Memorandum of 
Understanding with the Merit Systems Protection Board (``MSPB''). This 
Memorandum allows the agency to utilize MSPB mediators and hearing 
officers to conduct proceedings that are required by the CAA. Further 
plans are being made to enter into additional interagency agreements 
with other agencies. Such agreements allow the OOC to reduce costs 
because they typically provide for more favorable rates for contracted 
services. The OOC realizes that our mediation and hearing services 
contain certain elements beyond our control: the agency cannot dictate 
either the number of claims presented for mediation or the number of 
complaints filed for hearing. We do have control over the costs for 
services, however, and it is those costs that we are continually 
working to reduce.

                               CONCLUSION

    The agency approaches fiscal year 2010 with heightened fiscal 
responsibility and an understanding that only minimal funding essential 
to meeting our mission may be available. We have reexamined our 
programs in conjunction with our statutory mandates, and we have made 
significant efforts to streamline our appropriations request to reflect 
the country's and the government's current economic difficulties. With 
that understanding, we present to the Subcommittee only those items 
necessary to meet our statutory mandates. There are a number of items 
requested in our written budget justification that we submit for your 
consideration. The ones mentioned today, though, are those that we 
would like to highlight for the Subcommittee: an OSHA program 
supervisor, funding for the previously authorized compliance officer 
FTE, and contractual funding for a fire safety specialist. Funding for 
these items will allow the agency to continue to provide needed 
services and technical assistance to the covered community.
    On behalf of the Board of Directors and the entire staff of the 
Office of Compliance, I thank you for your support of this agency. I 
would be pleased to answer any questions.

    Senator Nelson. Six or seven minute questions? Seven?
    Senator Murkowski. Yes.
    Senator Nelson. Seven, okay.
    Well, first of all, as I have not had an opportunity to 
visit with you, Ms. Chrisler, I have got a couple of questions. 
I have already spent some time grilling poor Mr. Ayers, but I 
will hold that for second.

                 <greek-l>OOC deg.BIENNIAL INSPECTIONS

    But I understand that your organization conducts what are 
called biennial inspections of the legislative branch 
facilities. Now are there biennial inspections conducted on the 
rest of the Federal Government, or is it just on the 
legislative branch, if you know?
    Ms. Chrisler. Well, the way that the Congressional 
Accountability Act was written was inclusive of a mandate that 
our office conduct inspections of the covered community once 
every Congress. So, yes, we are required to conduct these once 
every Congress.
    Whether the OSH office and the executive branch or in the 
private sector have a similar mandate is something that I am 
not aware. But I do know that this is the way that the CAA was 
written for us.
    Senator Nelson. Well, I don't know that that is what was 
intended, but we are going to take a look into that because it 
does seem, from what we are hearing from other branches of 
Government, that we are being held to a higher standard. I 
don't know that we ought to be held to a low standard. I am not 
suggesting that.
    But there ought to be a comparable standard. Safety is just 
as important in the other branches of Government as it is in 
ours. And so, I think that is something that we are going to 
have to look into because if we are being held to a higher 
standard, it can affect the budgets, obviously.
    But I don't want to imply in any way that we don't want a 
high standard. We just want to make sure that there is equity 
and fairness as well as comparability in the standards that 
other branches are held to.
    Ms. Chrisler. If I may, Mr. Nelson?
    Senator Nelson. Sure.
    Ms. Chrisler. It is my understanding that the standard, the 
OSH standard that is applied to the legislative branch, is the 
same standard that is applied to the private sector. Not the 
executive branch. The way that the CAA was written was that the 
standards, same standards are applicable in different manners, 
and the manner that it is to be applied to the legislative 
branch is that of the application to the private sector.

            <greek-l>OOC deg.GOVERNMENT BRANCH COMPARABILITY

    Senator Nelson. Okay. What do you know about the 
difference, let us say, that would apply to the executive 
branch? I know it is a different branch of Government, but once 
again, comparability, I think, would be important here. Do you 
know what the standard is there?
    Ms. Chrisler. I do know that the way that the CAA is 
written, the comparability was to that of the private sector. 
As I understand it, the application of the standard to the 
executive branch is less restrictive than it is to the private 
sector. But as the CAA was written, Congress chose to apply the 
standard to itself as it does to the private sector.
    Senator Nelson. I understand that.
    Ms. Chrisler. Okay.
    Senator Nelson. We have old buildings, and we have new 
buildings. Are the same requirements applied to, let us say, 
the Jefferson building and the Russell building as for fire and 
safety as they might be in the case of a new construction?
    Ms. Chrisler. As I understand it, the standards are what 
they are. What our office does consider is the historicity of 
the buildings, the significant challenges that we have with 
respect to very old buildings, historical buildings, beautiful 
buildings that are significant in our Nation's history.
    So we recognize that. We understand the challenges that are 
faced with respect to addressing some hazards that may exist 
for virtue of the building's age. And we work collaboratively 
with the covered community. We work very well with the Office 
of the Architect of the Capitol.
    And in understanding the challenges and the hurdles that we 
face in addressing the hazards, we apply the standards. Yes, so 
we do take into consideration some of the challenges that we 
have because of the age of the buildings.
    Senator Nelson. And you may not have the specifics on this, 
but, for example, addressing the egress stairwells in the 
Jefferson building, which would cost more than $12 million to 
require, causing major disruption to both staff and visitors 
when it is questionable whether it is necessary, when 98 
percent of the building is equipped with sprinklers, 100 
percent of the building is equipped with smoke detectors, and 
it is fully staffed with security, Government security during 
the occupancy periods.

                <greek-l>OOC deg.HISTORICAL AUTHENTICITY

    How does that square with ordinary requirements for, as you 
say, historicity?
    Ms. Chrisler. What I understand with respect to the 
Jefferson building is that it contains the page school, the 
House page school. And one of the hazards that our office has 
discovered is that there are egress challenges with respect to 
the students exiting the building from the page school if there 
were to be a fire inside the school.
    With respect to abating the hazard, our office is working 
collaboratively, again to ensure that before the permanent 
abatement can take place that interim measures are put into 
place. So we understand that the abatement may not be able to 
be achieved immediately. Though the hazard still exists, we 
have recommended and suggested and are working toward 
implementing interim measures to protect the safety of the 
students and the visitors to the building while other 
considerations are being made.
    Senator Nelson. Okay. Well, thank you very much. My time is 
about out.
    Senator Murkowski.

             <greek-l>OOC deg.HIGH PRIORITY PROJECT FUNDING

    Senator Murkowski. Well, we will keep you on the hot seat 
here for a few more minutes, Ms. Chrisler.
    I am trying to understand exactly how much flexibility 
there is built into all of this. As I understand, the AOC puts 
the highest priority--and I appreciate, Mr. Ayers, you kind of 
walking through how you prioritize what you are dealing with as 
you look at these projects. But we understand that AOC puts the 
highest priority on funding for the projects that have received 
a citation.
    I also understand that there have been over 9,000 findings 
in the draft report for the 110th Congress for the last 
biennial inspection. Nine thousand is a lot to prioritize. And 
the question that I would have, and it follows on what Senator 
Nelson has addressed with regard to the Jefferson building, do 
you have flexibility to either work with the Office of the 
Architect here to not issue that citation so that you can work 
through some interim measures?

         <greek-l>OOC deg.HAZARD FUNDING--NOTIFICATION PROGRESS

    Are you required to issue a citation first and then ask 
questions later? How do you proceed with that?
    Ms. Chrisler. It is our intent and our effort to work very 
hand-in-hand.
    Senator Murkowski. But what are you required to do?
    Ms. Chrisler. We are required to make Congress aware of 
existing hazards.
    Senator Murkowski. By way of a citation?
    Ms. Chrisler. No, not necessarily.
    Senator Murkowski. Okay.
    Ms. Chrisler. So the finding that is made, the hazard that 
is uncovered is--we tell the employing offices about their 
hazards through a finding. Once the finding is shared, we work 
with the employing office to abate the hazard. So that the 
citation is not something that is required unless there is no 
cooperation from the employing office, unless there is not 
significant improvement toward abating the hazard.

             <greek-l>OOC deg.ISSUED CITATION NOTIFICATIONS

    Senator Murkowski. So, in 9,000 cases, there was either not 
cooperation or there wasn't significant improvement?
    Ms. Chrisler. There were 9,000 hazards that were uncovered. 
There were not 9,000 citations. In the past----
    Senator Murkowski. I stand corrected. Yes. Of those 9,000 
findings, how many citations do you figure were issued?
    Ms. Chrisler. Well, what I can tell you, that in the last 6 
years, I believe our office has only issued 16 citations. So, 
within the 9,000, it is probably less than 10.
    Senator Murkowski. So there is the ability to work through 
these?
    Ms. Chrisler. Right.
    Senator Murkowski. There is an effort to provide for some 
level of abatement. So what we are working to do then is to 
prioritize those areas where there is highest risk, as opposed 
to chronologically we need to take care of all these things 
because they have been sitting out on a list for too long.
    But if you have got a high-risk issue, a life safety issue, 
that is prioritized as more immediate. Is that a correct 
statement?
    Ms. Chrisler. I beg your pardon?
    Senator Murkowski. Is that a correct statement, that the 
issue would be given higher priority, based on a risk 
assessment?
    Ms. Chrisler. What we--what our role is, is to discover the 
findings and provide the information and work with the 
employing office to abate the hazards. What we are hoping to 
do, what our general counsel's office is striving for, is to be 
of assistance and a resource in staging the abatement of these 
hazards.
    So the employing office would make the determination as to 
which hazards they can abate first, based on a number of 
considerations. And what we are looking to do as a resource and 
as a tool and servicing the agency is to help them in staging 
their abatement.

                   <greek-l>OOC deg.HAZARD ABATEMENT

    Senator Murkowski. Well, then let me give you a specific 
example. It is my understanding that the AOC is working to 
remedy a citation. This is a citation in the Cannon building, 
and it is going to be relatively expensive. I don't recall 
exactly how much it was, but it was a considerable amount. And 
yet, the Cannon building is scheduled for whole building 
renovation in a couple of years.
    Why in the world would we spend the money to fix this now 
when 2 years from now, we may have a whole building renovation?
    Ms. Chrisler. Sure, and this is actually the example that 
you use of something that we were just discussing. As much as--
--
    Senator Murkowski. $7 million.
    Ms. Chrisler. Pardon?
    Senator Murkowski. Apparently, it is the Cannon stairwell 
enclosure for $7 million?
    Ms. Chrisler. Yes. And this is something that our office 
has discovered as a hazard and is working with the appropriate 
personnel to abate the hazard. Hopefully, in the----

                <greek-l>OOC deg.ABATEMENT CLARIFICATION

    Senator Murkowski. What do you mean when you say ``abate 
the hazard?'' What will you do for this enclosure?
    Ms. Chrisler. It depends on the discussions that the 
technical experts have. I don't know if it is because of the 
renovation that will be occurring in 2 years if it is prudent 
to do a complete abatement or if it is prudent to incorporate 
interim measures to provide for the safety of the employees and 
visitors while the renovation is upcoming and pending.
    So there are different steps, and we are working to make 
sure that the smart thing and the right thing is done and not 
that we are making any improvements or abating the hazard to 
say, okay, this is done. Now let us all tear it down because we 
are going to build the building again.
    Senator Murkowski. Well, I would hope that we would agree 
that spending $7 million is not the prudent thing to do if we 
are going to do a whole building renovation in 2 years.
    Ms. Chrisler. Well, certainly, our office has been engaged 
in discussions with the folks that will be----
    Senator Murkowski. Again, this gets me back to my question 
about how much flexibility you have. You have got a citation. 
You are trying to work on it. But you know that in a very short 
time period here, you are going to be doing a wholesale 
remodel.
    And so, it really doesn't make much sense to do a full-on 
roof here. Let us just patch the roof until we can really 
address the bigger problem. Are we in agreement that that is 
not the approach that we need to take?
    Ms. Chrisler. Absolutely. And we are all--we, the Office of 
Compliance, are all in favor of finding an appropriate and a 
safe interim measure depending on the circumstances. And in the 
example that you provide, the circumstances include a complete 
building renovation. So we would work toward providing a safe 
mechanism in the interim.
    Senator Murkowski. Ms. Chrisler, can you tell me when this 
particular citation was actually issued? Has this been 
outstanding for a while?
    Ms. Chrisler. This has been outstanding since 2000.
    Senator Murkowski. Okay. Mr. Chairman, my time is up.
    Senator Nelson. Thank you, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    And actually, believe it or not, I have a lot of questions 
for Mr. Ayers here.
    But since these other two have asked about you, I do have a 
few follow-ups on what they said. I hope it doesn't take all my 
time. But let me try to move very quickly.

           <greek-l>OOC deg.CANNON BUILDING STAIRWELL HAZARD

    Just for my--I am new to the subcommittee, and I am trying 
to get a handle on this, and I apologize for this. But the 
example that we have been talking about, the stairwell in the 
Cannon building, what is the hazard there?
    Ms. Chrisler. They are open stairwells that don't block 
off, if you will, the fumes and smoke and fire if there were to 
be a fire in the building. So enclosed stairwells provides 
extra protection and ensures that there is--ensures a cutoff so 
that the fire is contained, smoke is contained, and the fumes 
are contained so that it doesn't spread as quickly.
    Senator Pryor. And do you have a design on a fix for that?
    Ms. Chrisler. I do believe that there is a design for a 
fix. Correct.
    Senator Pryor. Okay. And you talked about these 9,000 
findings.
    Ms. Chrisler. Right.

              <greek-l>OOC deg.CATEGORIZED ITEM BREAKDOWN

    Senator Pryor. Are there large categories of items you are 
looking for, like fire issues and like plumbing and whatever 
type issues? ADA-type compliance. I mean, are there broad 
categories?
    Ms. Chrisler. Yes. Yes, we go in and we look for 
everything. We look to----
    Senator Pryor. And do you have a breakdown of all that and 
what the findings are? As I understand it, you go through each 
office even and look and see if maybe too many things are 
plugged into one electrical outlet.
    Ms. Chrisler. Right.
    Senator Pryor. Is it your experience that when you bring 
those to the attention of the individual offices, they get 
fixed?
    Ms. Chrisler. Absolutely. There are in the previous 
Congress--if you will just indulge me for a moment. There were 
a number of hazards that were discovered that are abated right 
on the spot.
    In the 110th Congress, there were 63 percent of the hazards 
that were open were closed, and 80 percent actually of the 
findings that were--the hazards that were found in the Senate, 
80 percent were abated. And some of them, a large majority of 
them are abated right on the spot.
    Senator Pryor. Okay. And, but it does sound like there are 
some hazards like the Cannon stairwell that doesn't go away, 
that you have to just at some point work through that?
    Ms. Chrisler. Yes.
    Senator Pryor. And I think, let us see, that may be all I 
had on you.

                  <greek-l>AOC deg.CAPITOL POWER PLANT

    So if I have a few more minutes, Mr. Ayers, let me ask you. 
Let me start with one of the big-ticket items that I know you 
are working on in terms of a long-range plan, and that is the 
Capitol Power Plant. Tell me, if you can, one of your requests 
is to convert maybe one boiler from, what, coal to gas. Is that 
right?
    Mr. Ayers. That is correct.
    Senator Pryor. And what will the mix of the fuel be then at 
that point that will be available to the Capitol, you know, the 
source of the energy?
    Mr. Ayers. We will be able to burn 100 percent natural gas 
with sufficient backup capacity.
    Senator Pryor. Okay. And is there a long-term plan on the 
Power Plant? I mean, do you know what you want to do with that? 
Or do you just want to keep it and convert it to gas, or are 
you looking for other options? Give us the update on that.
    Mr. Ayers. Well, we have a team of consultants in place 
today that are looking at a 20-year and longer outlook for the 
plant. We have developed that scenario looking at 16 different 
possible options of what to do with the plant in the future. 
That study is about 75 percent complete.
    We are currently having it peer reviewed by the National 
Academy of Sciences, and that peer review is scheduled to be 
finished this month. So we will take those peer review 
comments, we will fold them back into the report and then 
finalize it. This will be completed in another 2 or 3 months 
after that.

              <greek-l>AOC deg.POSSIBLE AVAILABLE OPTIONS

    Senator Pryor. Okay. And these, what did you say, 16 or 17 
options?
    Mr. Ayers. There are 16 different options that they are 
currently looking at.
    Senator Pryor. Does that mean like one of them might be, 
say, for example, geothermal? One of them might be just going 
all natural gas? One of them might be to totally get away from 
the Power Plant completely? I mean, what are you talking about 
there?
    Mr. Ayers. Things like co-generation of electricity, things 
like biofuels.
    Senator Pryor. And long term, are you looking at replacing 
the heating and air systems throughout the Capitol complex?
    Mr. Ayers. Well, certainly, we heat and cool the Capitol 
campus through a centralized distribution system. The Power 
Plant itself provides all of the heat through steam and chilled 
water for cooling all of the buildings on the Capitol campus.
    We will send that steam and chilled water out through every 
building, and then each of those buildings will take that steam 
and chilled water and run it through mechanical systems to heat 
and cool each space. So, ultimately, over the course of time, 
all of these mechanical units have a certain lifespan, maybe 20 
or 30 years, and we will be replacing those.
    For example, right now, we have recently awarded a contract 
to replace the mechanical equipment in this building, the 
Dirksen building. You will see that starting here in the next 
couple of weeks.
    Senator Pryor. You just heard Ms. is it ``Chry-sler'' or 
``Chris-ler?''
    Ms. Chrisler. It is Chrisler. Thank you.

               <greek-l>AOC deg.CITATION-RELATED PROJECTS

    Senator Pryor. Chrisler. Sorry about that. Ms. Chrisler, 
just heard her testimony a few moments ago. How much money in 
your proposed appropriation, how much money are you requesting 
for citation-related projects?
    Mr. Ayers. Just give me a moment to add that. I would 
suspect it is over $50 million.
    Senator Pryor. Okay. And I may have that breakdown. I don't 
see it. But what are some of the big-ticket items there?
    Mr. Ayers. The seven highest projects on our consolidated 
priority list are for citations. The first one is the utility 
tunnels that I spoke of earlier.
    Senator Pryor. Right. Right.
    Mr. Ayers. That is $45 million for that program. The next 
biggest one is for ADA compliance issues in the restrooms of 
the John Adams Building at $3 million. And some door issues as 
well in the John Adams Building at $1.5 million, some egress 
improvements in the Thomas Jefferson Building, design work for 
about $2 million.

                  <greek-l>AOC deg.ENERGY CONSERVATION

    Senator Pryor. Let me ask one question about energy 
conservation, and this will be my last question because I am 
out of time here. But I think you are requesting $11 million 
worth of projects in fiscal year 2010 for energy reduction. How 
long does it take that to pay for itself?
    Mr. Ayers. Each of those has an individual payback. There 
really is no good rule of thumb. So a photovoltaic system is 
going to have a far different payback than equipment 
replacement. I have to go specifically with each individual 
project to get you an accurate figure.
    Senator Pryor. But you can't say, well, we are going to 
spend $11 million, and then we will make that money back over a 
3-year period? You don't have it broken down that way?
    Mr. Ayers. We do have it broken down that way. I don't have 
that at my fingertips, but I would be happy to submit that for 
the record. For our projects we do a comprehensive lifecycle 
projection to determine if it is an appropriate payback. If it 
is not, we don't do it.
    Senator Pryor. Right. Mr. Chairman, thank you.
    [The information follows:]

    Payback periods for each project are summarized in the 
following table. It is important to note that some fiscal year 
2010 requests are for construction and others are for design. 
The projected simple payback period for construction projects 
(numbers one, two, three, and five in the table below) totals 
$9.5 million, and is for a period of less than 3 years.

                                                 FISCAL YEAR 2010 CIP--PROPOSED ENERGY PROJECTS SUMMARY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Energy Savings                  Economic Summary
                                                                                        ----------------------------------------------------------------
                                                                              Energy/                   Percent
                  Project Title                     Project       AOC/AE     Water Cost                Reduction
                                                      Cost      Design Fee    Savings       mmBtu       (Fiscal       Simple      LCCA \1\     SIR \2\
                                                                                           Savings     Year 2003     Payback
                                                                                                        Complex)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Computer Server Closet Cooling, Phase 1.........  \3\ $2,010,     $196,789   $1,593,838       57,986         2.09          1.3  $24,082,037         12.7
                                                          000
Computer Server Closet Cooling, Phase 3.........  \3\ 4,430,0      429,533    1,246,189       45,332         1.63          3.6   15,911,191          4.5
                                                           00
HVAC Controls Replacement.......................  \3\ 2,260,0      336,130      618,675       17,872          .64          3.7    6,876,642          4.0
                                                           00
Economizer Additions to Air Handling Units......    8,601,521  \3\ 830,000      809,050       55,000         1.98         10.6    2,571,247         10.6
Capitol Police Jurisdiction Energy Saving         \3\ 800,000      116,872       56,000        2,713          .10         14.3  ...........  ...........
 Projects.......................................
Botanic Gardens Sustainable Design..............  ...........  \3\ 380,000  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................   18,101,521    2,289,324    4,323,752      178,903         6.44  ...........  ...........  ...........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ LCCA is the sum of the present values of initial investment, O&M, replacement, and energy and/or water costs.
\2\ SIR (Savings to Investment Ratio) is the ratio of the total savings to the total investment cost over the life cycle of the project.
\3\ Indicates request amount.
 
Notes:
  Projects are ranked by priority according to LCCA (Life Cycle Cost Analysis) in descending order.
  LCCA and SIR calculated with NIST's Building Life Cycle Cost Program (BLCC 5.3-08), in accordance with 10 CFR 436. Subpart A.
  Combined simple payback of Projects 1, 2, 3 and 5 is 2.70 years.
  Project #4, Economizer Additions to Air Handling Units, is currently proposed for design in fiscal year 2010. Projected simple payback is 10.6 years.

    Senator Nelson. Thank you, Senator.

              <greek-l>AOC deg.CANNON STAIRWELL RENOVATION

    Mr. Ayers, in that money that you have set aside for 
citation matters, do you have any money in there for the Cannon 
stairwell?
    Mr. Ayers. No, sir. I think the Cannon stairwell money has 
already been appropriated.
    Senator Nelson. But not spent apparently?
    Mr. Ayers. I believe----
    Senator Nelson. The project hasn't----
    Mr. Ayers [continuing]. That work is underway now.
    Senator Nelson. Oh, the work is underway?
    Mr. Ayers. I am sorry. The design is underway. The physical 
construction is not underway yet.
    Senator Nelson. Well, then if the design is underway, 
construction hasn't begun, what is the possibility that that 
design will mesh with what overall renovation is going to be 
required for the Cannon? Will it be totally consistent with it? 
Will it be something that will fit in, or will it be outside 
the range of what the remodeling is, if you know, Ms. Chrisler?
    Ms. Chrisler. The question, Senator, is whether the design 
meets----
    Senator Nelson. Yes, if we are spending money for design 
and we are going to redo the building in 2 years, are they 
copasetic? Will the design fit in with what is going to be done 
overall, or do we even have the overall plan, design plan for 
the remodeling, the total remodeling in place to compare it to?

                <greek-l>OOC deg.CANNON HAZARD ABATEMENT

    Ms. Chrisler. Sure. Our office's involvement in the design 
of or the abatement plan is focused on ensuring that the hazard 
is abated or that interim measures address the hazard that is 
found. Now what makes sense to me is that fixing the stairwells 
will mesh with the overall renovation, and doing it early makes 
sense.
    But whether the particular details of the design plan that 
is in place is very difficult for me to answer. That is not 
something that is within the area of our expertise. Our 
expertise is in providing technical assistance in abating the 
hazard.
    Senator Nelson. Well, will you have looked at the design 
that is being developed right now and being paid for for that 
abatement? Will you look at that before the design is 
completed?
    Ms. Chrisler. We certainly hope to be included in the 
design process, and we hope that our input is requested and 
received.

              <greek-l>OOC deg.DESIGN ABATEMENT RESOLUTION

    Senator Nelson. So you are not really throwing a flag, like 
a referee throws a flag? You are going to make certain that 
whatever the design is works and cures the problem that you 
have identified?
    Ms. Chrisler. As I say, we work very collaboratively. So we 
welcome the opportunity to sit down and talk about the 
abatement, what is necessary, what is being planned, what is in 
place, and how those two things can come together to ensure 
safety.
    Senator Nelson. Mr. Ayers, will we be able to deduct from 
the total remodeling cost of the Cannon building the cost of 
the repair of this stairwell? Will it be consistent? Will it be 
compatible? Do you know at this point?
    Mr. Ayers. I think we certainly can deduct that, and 
certainly, another option is to postpone that actual 
construction work and roll it into that comprehensive building 
renovation if ultimately----
    Senator Nelson. Will she pick up the flag if you do that?
    Mr. Ayers. She might. We work pretty well together.
    Senator Nelson. Oh, okay. I think everybody understands 
where we are going with this, and I think you understand and I 
am sure you share the view that it doesn't make any sense to 
make a pie a piece at a time here when we have an opportunity 
to do the whole thing.
    Ms. Chrisler. That is right.

              <greek-l>OOC deg.STAIRWELL CITATION RANKING

    Senator Nelson. Yes. Okay. Well, maybe enough on that, but 
I think it is enlightening us. And I hope that in working 
together, the 30,000-foot view down is looked at as well as the 
on-the-ground view because it is important. It would be 
important in any particular budget, but particularly this one.
    So the 16 citations over 6 years, if you were to rate them 
in priority, how much would you rate the stairwell issue in 
Cannon? How high would that be within those 16 citations?
    Ms. Chrisler. If you will allow me to confer?
    Senator Nelson. Oh, sure. Sure.
    Ms. Chrisler. Thank you.
    Of the 16 citations, the most important are the fire 
hazards, as we can all imagine. There are about seven or so of 
the citations that are fire hazards. Ranking those hazards 
within themselves is difficult to do because a fire hazard is 
significant in itself. But of the 16, we would say about 7 are 
those that are fire hazards.
    Senator Nelson. How many fires--apart from some that were 
lit by someone in the Capitol Police over here a few years ago, 
how many fires have we really had in the Senate office 
buildings and in the House office buildings, if you know?
    Ms. Chrisler. I do have some understanding of some of those 
numbers. I would be happy to provide them for you for the 
record. Within the last few years, without including the one 
that you mentioned, there appear to be two within the last 
couple of years.
    In 2005, there was a Capitol, the fire in the Capitol. In 
2005, there was the substation explosion and fire at the Power 
Plant.
    Senator Nelson. Okay. How extensive was the fire in the 
Capitol? How much damage was done, and how at risk were 
employees there?
    Ms. Chrisler. I am happy to research that for you and 
provide that for the record.
    Senator Nelson. Was it significant, or was it de minimis? 
You can research it. I am not trying to put you on the spot.
    Ms. Chrisler. I appreciate the opportunity to do that. 
Thank you.
    [The information follows:]

    See Appendix A on pages 208-212 for a complete listing.

      <greek-l>OOC deg.CANNON VERSUS RUSSELL STAIRWELL COMPARISON

    Senator Nelson. And in terms of the stairwells, without 
running the risk of more citations here, how would the 
stairwell in the Cannon building compare with the stairwells, 
let us say, in the Russell building?
    Ms. Chrisler. They are similar. The similarity is that they 
are both unenclosed. So the same risks that are involved in 
having an unenclosed stairwell in Cannon are the same risks 
that are involved in the Russell building.
    Senator Nelson. Well, if I might just ask this question as 
a follow-up? Why is it a more significant risk to have a 
citation in Cannon, but not necessarily in Russell?
    Ms. Chrisler. I believe that there is a citation for the 
stairwells in the Russell building as well.
    Senator Nelson. Oh, there is? Okay. But we are going to 
take care of the House Members before we take care of the 
Senators?
    Thank you. My time is up.
    Senator Murkowski. I just can't let a good thing drop here. 
I understand that here on the Senate side, the Rules Committee 
has asked for some kind of a blue ribbon panel to come together 
to actually review the situation with the citation, the Russell 
stairwell, recognizing that it is a 100-year-old building, and 
it is made out of granite or marble or something pretty 
impervious to fire. That it is fully alarmed, fully 
sprinklered.

                 <greek-l>OOC deg.CITATION FLEXIBILITY

    And I guess it gets back to my initial question, which is 
about flexibility when we issue citations and then, how we 
respond by way of abatement. At what point in time does the 
reasonable and prudent standard come into place?
    Ms. Chrisler. Yes.
    Senator Murkowski. And I will give you an example, and I am 
going to detract for just a minute. We dealt with a situation 
in my home State where an individual built a hotel out of ice. 
And he was shut down by the fire department because he didn't 
have a sprinkler system in it.
    Now, think about it. In a way, and I don't mean to be trite 
and flip here with safety, but I think we do need to appreciate 
that if we have made reasonable and prudent efforts to make 
sure that the life safety issues are fully addressed, if we 
haven't checked off the boxes that somebody has detailed in an 
office somewhere else and we are still not in compliance, and 
then we are forced to spend $7 million, whether it is the 
Cannon or whether the Russell, I guess I get a little 
frustrated because I want us to exercise good common sense.
    I want us to have buildings that are strong and safe and 
are beautiful and are historic, but I think we also need to use 
a little bit of common sense in how we address the issue. And 
we have been going on about the stairwells for a long time, Mr. 
Chairman. But why would we move forward with a blue ribbon 
panel to look at the issue in the Russell and then on the House 
side make a decision that we are going to go ahead with a 
similar project?

        <greek-l>AOC deg.HOUSE BUILDINGS VERSUS SENATE BUILDINGS

    You have indicated, Ms. Chrisler, that you are working 
together to deal with some kind of abatement situation, but yet 
if you guys are moving forward with design and you are asking 
or you are saying we would be happy to be included at the 
table, it doesn't sound to me like we are all really talking 
here.
    And I don't know whether that is a rhetorical question, or 
just putting it out on the record, I would be happy to hear 
responses from either one of you. But I am curious to know as 
to why we would treat the House building different than the 
Senate building on this.
    Mr. Ayers, do you want to comment on that, why we would be 
treating them different?
    Mr. Ayers. Well, I do know that we certainly move those 
projects forward at different times, as they are separate and 
different appropriations. So they may be moved forward just a 
little bit at different times. The Cannon building was funded 
before the Russell building.
    In the Russell building, as we moved forward and requested 
our authorizing committee's authorization to spend that money, 
they asked us to take a step back and take a second look at 
this design. They really questioned whether this was an 
appropriate use of funds and an appropriate interpretation of 
the building codes, and they warned us to assemble a blue 
ribbon panel to look at all of the issues surrounding this, and 
advise them with this panel whether this work is required or 
not.
    I received a letter from the chairman and ranking member of 
that committee this week, and we will be moving now to 
undertake that blue ribbon panel expeditiously.
    Senator Murkowski. So does that kind of put that particular 
citation on hold, in your opinion, as this blue ribbon panel 
reviews this?

                    <greek-l>AOC deg.ENERGY PROJECTS

    Mr. Ayers. From my perspective, it does. Yes.
    Senator Murkowski. Let me ask you a question about some of 
the energy projects that we have going, following on Senator 
Pryor's comments. This relates to the boiler. As you know, I am 
on the Energy Committee, and most of my day is focused on 
energy and how we can be reducing our emissions and be 
responsible stewards of the environment. I am pleased with the 
direction that we have been able to take in reductions of 
emissions and our carbon footprint.
    But if I understand until last year, coal was used for 
about 45 percent of the fuel mix. Then the decision was made to 
discontinue the use of coal at the Power Plant, and you are 
retrofitting one of the seven boilers this summer. I am told 
that by next year, you will be able to operate at 99 percent 
using natural gas. Is that correct?
    Mr. Ayers. That is correct, with three caveats, if I could?
    Senator Murkowski. Okay.
    Mr. Ayers. Those caveats are, first, that our utility 
provider, and our gas provider needs to make some improvement 
to the service line to the Capitol Power Plant to enable us to 
do that. We expect that to be done this summer.
    Second, if we don't have a severe winter, we will be able 
to achieve that 99 or 100 percent. Similarly, if we have no 
equipment outages, we will be able to achieve that.
    So with those caveats, yes, that is correct.
    Senator Murkowski. I am then told to get to a clear 100 
percent level of using natural gas year-round that we need an 
additional $10 million in the fiscal year 2010 budget to 
retrofit another boiler. Is that correct?
    Mr. Ayers. That is correct.
    Senator Murkowski. So I just want to make sure that we all 
understand that for one last percentage, so that we can say we 
absolutely, positively are not using coal, we are going to 
spend $10 million to retrofit this last boiler?
    Mr. Ayers. I think that 1 percent, your analysis is 
correct, as well as, similarly, in powerplant business, it is 
not realistic to assume all of your equipment is going to run 
all of the time. It just doesn't happen, and powerplants don't 
operate that way.
    But if it is acceptable to the Congress that we fall back 
to burning coal and fuel oil if we have an equipment issue, 
then we could save $10 million.
    Senator Murkowski. Save $10 million. And if we have got a 
tough, cold winter, to have that in reserve. I just wanted to 
make sure that I understood that.
    My time has expired, Mr. Chairman.
    Senator Nelson. Thank you.

 <greek-l>AOC deg.ARCHITECT OF THE CAPITOL/GOVERNMENT PRINTING OFFICE 
                              SIMILARITIES

    Mr. Ayers, both the AOC and the Government Printing Office 
(GPO) provide a number of similar industrial-type functions, 
for example, electrical, carpentry, masonry, and those related 
functions. And since the AOC is already using space at the GPO, 
is it possible that somehow that you could achieve economies of 
scale by combining some of these functions?
    Mr. Ayers. That is an excellent idea and, quite frankly, 
one I had not considered before. If you would give us an 
opportunity to work with the Public Printer and do an analysis 
of the pros and cons of that, we would be happy to.
    Senator Nelson. Sure.
    Mr. Ayers. A great idea.
    Senator Nelson. Well, occasionally, we come up with one. So 
it could possibly at the same time free up some space in the 
Senate and the House office buildings as well. What we don't 
want to do is we wouldn't want to see a decline in service, but 
certainly I would hope that you could take a look at what that 
would mean and what the effect would be of some combination or 
sharing the responsibilities.
    Mr. Ayers. I am happy to do that.

                <greek-l>AOC deg.BENEFIT/RISK ASSESSMENT

    Senator Nelson. If the committee that you are putting 
together comes back and says that it is not the best 
expenditure of money in terms of risk assessment, and I always 
try to look at things in cost benefit/risk assessment, through 
that lens, what would that mean? Would that mean if they said 
that on the stairwells that it is not worth doing that, the 
risk is not great enough to justify that kind of expenditure, 
that you would make the decision not to do it?
    Or what would be the next step in the process? The Rules 
Committee? I happen to sit on the Rules Committee. So would it 
come to us? What would be the next step?
    Mr. Ayers. Yes, I think it would come to the Rules 
Committee. They are the requester of this blue ribbon panel. So 
we would assemble that panel and facilitate that and deliver 
that deliverable back to the Rules Committee, who ultimately, I 
think, will certainly work collaboratively with all of the 
stakeholders to come to a common course of action.
    Senator Nelson. And I am not trying to prejudge the outcome 
of whatever that committee does, I have no idea what they are 
going to determine. But as a hypothetical at least, that is 
what could happen. Would that have any effect on the Cannon 
building and the stairwell there?
    Mr. Ayers. Well, I think it could. I think--and maybe that 
is something Ms. Chrisler and I should talk about in the coming 
days about this blue ribbon panel, which I don't believe she 
knows about. We have not transmitted that letter to her.
    So maybe that is something she and I should talk about in 
the next couple of days and get back to the subcommittee on how 
that might affect the Cannon building.
    Senator Nelson. Sure. I think that is a good idea. I assume 
that would work well with you as well, Ms. Chrisler?
    Ms. Chrisler. It certainly would. Thank you.
    Senator Nelson. Sure, sure. Senator Murkowski may have 
asked you when you expect to have the report. I don't know that 
I heard when you expect the committee to have completed its 
work?
    Mr. Ayers. I think assembling a group of blue ribbon 
experts like that, from my experience, is something that will 
take at least 6 months to pull them together, develop a report, 
have that report reviewed a couple of times and, ultimately, 
agreed upon. Usually, it is a several month effort.

            <greek-l>AOC deg.PROJECT RECOMMENDATION TIMELINE

    Senator Nelson. So in approximately 6 months, we ought to 
have the suggestions that they are going to make regarding many 
of these different projects or their overall view of what risk 
assessment should consist of?
    Mr. Ayers. Yes, sir.
    Senator Nelson. Okay. Let us see, I don't know that I have 
any further questions.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I think I am down to the cats and dogs collection here, 
too. Just a few questions all over the map here.

                    <greek-l>AOC deg.STAFF-LED TOURS

    Let us start with the staff-led tours because I think when 
other Members found out that I was part of the legislative 
branch appropriations, they all came to me with their 
complaints about what is going on with the staff-led tours.
    I want to start, Mr. Ayers, by commending those of you that 
are involved and the efforts of the Capitol Visitor Center. 
When you opened that facility, you figured out how to move mass 
numbers of people through, I think, in a very efficient way. 
You are to be commended for that.
    Mr. Ayers. Thank you.
    Senator Murkowski. And so, I am a little bit hesitant to 
even bring it up, but that is what these forums are for.
    I have heard concerns from other Members that they feel 
that on some of the staff-led tours, the staff members have 
been treated in a discourteous manner by those that are in the 
Capitol Visitor Center, the ``red coats'' as we call them, and 
that there has not been sufficient oversight in making sure 
that people are saying the right things. I have heard numerous 
stories, and I don't know that they bear repeating here.
    My question to you is what are we doing to make sure that 
all of our visitors, whether they come through the CVC or 
through our respective staff-led tours, are being accommodated 
respectfully? Because I think it does really reflect back on 
all of us, and the public doesn't make the distinction as to 
whether it is staff-led or CVC-led.

        <greek-l>AOC deg.CAPITOL VISITOR CENTER STAFF MANAGEMENT

    Mr. Ayers. That is really an important question. We really 
strive to hire the very best people that are both knowledgeable 
in the history of the Capitol building, are knowledgeable in 
visitor services and learning techniques, but most importantly, 
are personable and respectful of visitors. Clearly, treating 
someone with disrespect or some other fashion is obviously 
unacceptable.
    We are doing a couple of things. One, we are really trying 
to hire the very best people. Second, when we do get feedback 
about a particular behavior that a guide displayed or visitor 
assistant demonstrated in a particular tour, every single day 
we get that group together from 8 to 8:30 in the morning in one 
of the theaters. And our management team comes in and sort of 
describes or sort of conducts a hot wash from the previous day. 
Here is this, and here is that, and here is how we can say that 
a little better and adjust your speech here.
    So I think that is important. And on a broader scale, Ms. 
Rouse, our Chief Executive Officer for the Capitol Visitor 
Center, is holding monthly listening sessions with the 
Congress. These sessions are open to congressional staff and 
Members to discuss what's on their minds or has had a good 
experience or bad experience. Once a month we are getting 
together with all of them and listening to what those concerns 
are so we are sure we will hear them and we can fold those back 
into the visitor services operation.

      <greek-l>AOC deg.CAPITOL VISITOR CENTER FTE STAFFING REQUEST

    Senator Murkowski. Now do I understand correctly that with 
your request, you are seeking another 25 employees?
    Mr. Ayers. That is correct.
    Senator Murkowski. What areas would they be staffing?
    Mr. Ayers. These are 25 employees for the Capitol Visitor 
Center. First is five red coats or guides. Today, we think the 
number of tour guides is low because our tours at our peak 
periods will have about 50 people on each tour. We think that 
is way too many to have an effective and engaging tour.
    So the five new tour guides will help reduce that number of 
people on a given tour. We think that is really important for 
quality of service.
    On top of that, there are 15 visitor assistants. And I 
think the key there is way finding, one, and two----
    Senator Murkowski. I have to ask about way finding.
    Mr. Ayers. Sure.
    Senator Murkowski. Because there is a new person at the 
base of the escalator as you go from the little trolleys up 
north. I haven't any idea what that person does except direct 
traffic. And we have got all kinds of security that is around, 
not that it is particularly their job to direct traffic. But 
why are we paying a person to perch at the base of the 
escalator?
    Mr. Ayers. I think you really hit the nail on the head that 
much of it is a security concern. Instead of posting a police 
officer there, which used to be the case for a very long time, 
we are now posting that with a visitor assistant.
    Senator Murkowski. I think we still have police there.
    Mr. Ayers. No.
    Senator Murkowski. No? Okay, I will double check. I go 
through there frequently.
    Mr. Ayers. There are really two reasons that that person is 
there. First and foremost, I think it is a Member service. If 
we had all of the staff-led tours going up those escalators and 
moving through where those bank of six elevators are right 
there, we believe that it is going to be too congested, and 
Members will not be able to get to votes when they need to move 
quickly and get on an elevator and up to the floor.
    That bottleneck right there is too much for staff-led tours 
or most of the staff-led tours to go that way. So that person's 
job is to see everyone who gets off the subway and everyone who 
has a CVC badge on that, at that end of the tunnel, are 
directed to the doors of the Capitol Visitor Center.
    Senator Murkowski. We couldn't use a sign?
    Mr. Ayers. A sign could do that. From our experience, it 
would be ignored.
    The second thing, and this is important as well, that we 
really want people to go through the Capitol Visitor Center to 
enter the Capitol. That is primarily because the Capitol has 
egress deficiencies, and we need to carefully monitor how many 
people are in the Capitol building at any one time.
    The way we do that is getting them to enter through the 
Capitol Visitor Center so we have a steady count of who is 
going into the building and who is coming back out.
    So those are the two reasons that that person is there.
    Senator Murkowski. I am still not convinced, but I 
appreciate the explanation.

               <greek-l>OOC deg.OOC FTE STAFFING REQUEST

    Ms. Chrisler, you had mentioned, and I apologize, I know 
that you had indicated that you were looking for the 
Occupational Safety and Health Administration (OSHA) not staff 
director, but compliance----
    Ms. Chrisler. Program supervisor.
    Senator Murkowski [continuing]. Supervisor, but then did 
you also indicate that there were two other positions? There 
was a fire safety position. How many positions are you seeking 
to fill?
    Ms. Chrisler. Right. We are seeking one FTE, the 
authorization and funding for an OSH program supervisor to 
replace the nonreimbursable detailee that will be retiring 
soon.
    Senator Murkowski. So the others were not new adds in terms 
of hires?
    Ms. Chrisler. Not in terms of authorization. The second was 
the compliance officer, which has already been authorized. We 
are seeking funding for that. The third is a fire safety 
specialist, which we are not seeking the authorization for an 
FTE for, just funding for contract services.
    Senator Murkowski. But you currently have a total of 21 
employees?
    Ms. Chrisler. That is correct.
    Senator Murkowski. And does that include your detailee?
    Ms. Chrisler. No, it does not.
    Senator Murkowski. Okay. So what is it that you can't do 
with 21 that you need to have these additional 3?
    Ms. Chrisler. Well, the person that is going to be--that is 
one additional position that we are requesting, and that 
position is currently being filled by someone from another 
agency. And once he retires, we won't have the performance of 
those duties any longer.

            <greek-l>OOC deg.OOC FTE STAFFING JUSTIFICATION

    Senator Murkowski. And I can appreciate that because I 
think we have all had good detailees in our respective offices. 
But it would seem to me that given the responsibilities within 
the Office of Compliance, to have a good, solid 21 full-time 
employees is pretty good. So I guess I am asking what are you 
not able to accomplish with the individual staff level that you 
have?
    Ms. Chrisler. Right. The 21 FTEs is wonderful, and it is 
not where the office has been before, and we are very 
appreciative of what this subcommittee and the committee as a 
whole has supported us in doing.
    What we are looking to do--what we are struggling doing 
right now is monitoring a lot of the safety and health findings 
that we have found. The hazards that are outstanding, the fire 
and safety, the safety and health fire hazards that we have 
documented since 2000 and 2001, the abatement needs to be 
monitored.
    The 9,000 violations that were found in this past Congress 
and the 13,000 in the prior Congress need to be monitored as 
well to ensure that the abatement is on track and to ensure 
that progress is being made and to ensure that nothing falls 
through the cracks. That is where these positions would be 
instrumental.
    Senator Murkowski. Mr. Chairman, I am just going to look 
quickly and see if there is anything else that I wanted to ask 
our witnesses here.

                   <greek-l>AOC deg.RENEWABLE ENERGY

    Oh, there was a fair amount of controversy I guess it was 
last year, it may have been 2 years ago, when we purchased 
renewable energy credits. Are we still doing that?
    Mr. Ayers. There was. I think there is often confusion 
between carbon credits and renewable energy credits, and they 
are very different.
    Senator Murkowski. But we were doing renewable energy 
credits, were we not?
    Mr. Ayers. That is correct.
    Senator Murkowski. Right.
    Mr. Ayers. Renewable energy credits enable us to purchase 
electricity through wind sources versus the carbon offsets, 
which is a relatively newer market that allows you to purchase 
carbon offsets, really different from electricity. So----
    Senator Murkowski. What are we doing, and how much are we 
spending?
    Mr. Ayers. The Architect has not purchased carbon offsets. 
So that has not happened. But we do purchase renewable energy 
certificates, and that is required by the Energy Independence 
and Security Act of 2007 (EISA).
    Senator Murkowski. Do you recall how much we spend on that?
    Mr. Ayers. No, ma'am, I don't. But I would be happy to get 
that for you for the record.
    [The information follows:]

    In fiscal year 2004, the AOC purchased 51,296,000 kWh of 
renewable energy credits from 75 percent national landfill gas 
resources, and 25 percent national wind resources at a unit 
price of $0.01081/kWh for a total expenditure of $554,510. In 
fiscal year 2008, AOC purchased 107,365,000 kWh of renewable 
energy credits from national wind resources at a unit price of 
$ 0.006/kWh for a total expenditure of $644,190.
    In addition, beginning in fiscal year 2006, all electricity 
supplied through the GSA-managed electricity contract for 
government entities located in the District of Columbia 
requires renewable energy credits equivalent to 3 percent of 
the annual electricity usage. The unit price for the renewable 
energy credits is included within the base price of the 
contract and we cannot determine actual cost of these renewable 
energy credits.

                 <greek-l>AOC deg.EISA REDUCTION GOALS

    Senator Murkowski. Okay, the last question, and this also 
relates to the energy issues. We have set a goal through EISA 
for a 30 percent reduction by 2015. You indicate that you have 
made reductions of 12 percent since 2003. And you have done it 
through some of the low-hanging fruit.
    So the question is, is how do we meet the goal? And since 
that time, the Speaker has kind of upped the ante even further, 
bringing it to a 50 percent reduction by 2017. What is the plan 
to meet that, and how are we budgeting to do that?
    Because if you have taken the low-hanging fruit already and 
it has gotten us to 12 percent, how do we make it to 50 percent 
by 2017? And what do you figure it might cost us?
    Mr. Ayers. Well, I think there are three steps to that, 
Senator Murkowski. First is it will continue to take direct 
appropriations to achieve some of those energy reductions, and 
you will see some of those in our 2010 budget, I think to the 
tune of almost $11 million. So that is first.
    Second, we are using public-private partnerships; energy 
savings performance contracts. So, for example, in the next 
year or so, we will award several contracts where private 
companies will invest nearly $150 million in our facilities and 
be paid back by the energy savings they achieve through the 
implementation of their projects. So that is the second way.
    The third way, I think, is really yet to be determined. But 
in my view, we need something big in the future to enable us to 
achieve those results. I am hopeful that the National Academy 
peer review of our long-term Capitol Power Plant efforts will 
yield a co-generation recommendation that we can then pursue 
through another public-private partnership and achieve some 
very significant savings through that.
    I can tell you that National Institutes of Health has just 
done that, and the General Services Administration has just 
done that. They are achieving very significant energy 
reductions by a co-generation facility through a public-private 
partnership.

                <greek-l>AOC deg.UTILITY REDUCTION COSTS

    Senator Murkowski. So we are seeing good results there, but 
do you think we will see a reduction in our utility cost? I 
mean going from coal to natural gas, we know that that was more 
expensive to do.
    Mr. Ayers. Correct.
    Senator Murkowski. Will we see a leveling off in our 
utility costs, do you think?
    Mr. Ayers. I don't believe we are going to see a leveling 
off in our utility cost. The key to an energy savings 
performance contract is we must continue to appropriate the 
same dollars for utilities, and the delta between your energy 
reduction and what you appropriate, that is the money that you 
use to pay your vendors for making that investment.
    So, going forward, we are going to continue to pay the same 
kinds of utilities we pay today.

                <greek-l>AOC deg.NATURAL GAS VERSUS COAL

    Senator Murkowski. I am looking at a chart that shows the 
differences, and if we were to use, say, 95 percent natural gas 
to 5 percent to zero coal, a cost of $25.6 million. If you were 
to change that mix so it is 45 percent natural gas, 50 percent 
coal, 5 percent fuel oil, your cost is just a little shy of $20 
million. So it makes a difference.
    Anyway, I am not going to belabor that point. One last 
question for you, and it is just to satisfy my curiosity. What 
is the sustainable site demonstration gardens?

                  <greek-l>AOC deg.BARTHOLDI FOUNTAIN

    Mr. Ayers. Our Botanic Garden has partnered with the Lady 
Bird Johnson Wildflower Center to develop an industry 
standardized way of rating landscapes and gardens for 
sustainability, just like the U.S. Green Building Council has 
implemented the LEED standard that you may be familiar with--
the LEED, leadership in energy and environmental design.
    So we have partnered with them to develop standards for 
sustainability for landscapes, very similar to the buildings 
again, and it is our effort to begin to pilot that rating cycle 
here on Capitol Hill. So that is what that is, and we would 
intend to do that at the Botanic Garden or across the street at 
Bartholdi Park.
    Senator Murkowski. When is that fountain going to be done?
    Mr. Ayers. It is probably 2 years before the fountain comes 
back on.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank both of the witnesses.
    Senator Nelson. Thank you, Senator.

        <greek-l>AOC deg.VISITOR ASSISTANTS/GUIDES FTE INCREASE

    I do have a question. The 25 FTE increase for this budget, 
which includes 15 visitor assistants, although that is 5 
additional guides only adds up to 20. But the additional 
visitor assistants, would this be for peak periods, or would it 
be level across the timeframe?
    Mr. Ayers. It would be level across the timeframe, Mr. 
Chairman. The number one driver for these new visitor 
assistants are the very significant number of evening events we 
have in the Capitol Visitor Center, far more than we had 
anticipated, literally hundreds of them, and many going on 
every single night.
    I was here just two nights ago with a group of students in 
the Capitol Visitor Center, and truly, I saw people going to 
events that were walking around all over the place. They had no 
idea where to go, how to get to their room. There was no one 
there to help them, and I found myself sort of doing the way 
finding for these people.
    So that is really the key driver. We need some way finding 
people and organizing people for these evening events.
    Senator Nelson. I assume it is not possible to do that, let 
us say, on a part-time basis because if you have shifts, are 
you going to stagger the shifts, or are you going to need as 
many people at night as you need during the day, for example?
    Mr. Ayers. We should look carefully at a part-time option. 
We will do that.
    Senator Nelson. Because it seems to me that you are not 
going to have as many people at night. I have only been over 
there at night a couple of times myself, but I haven't seen as 
many people at night as I have seen during the day time. Could 
be some exceptions to that, but perhaps not.
    If you would, I think that would be helpful. That, once 
again, would cause us a little less heartburn on your budget.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, I want to thank both of you today for spending the 
time and attending the hearing and answering the questions. We 
will be anxious to receive the answers that you are going to 
put together to get to us. We will make them part of the 
record. We appreciate your cooperation.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

                Questions Submitted to Stephen T. Ayers
               Questions Submitted by Senator Ben Nelson

                          CAPITOL POWER PLANT

    Question. Your request includes $10 million for the conversion of 
one of your boilers to burn natural gas instead of coal. What ratio of 
natural gas to coal are you currently burning in the Capitol Power 
Plant?
    Answer. As part of its normal summer operations, the Capitol Power 
Plant burns 100 percent natural gas to facilitate scheduled boiler 
repairs and preventative maintenance work. This also reduces emissions 
during the heavy ozone season in the summer months. In March, the 
Capitol Power Plant ceased coal operations approximately 2 months 
earlier than in recent seasons. The result of this earlier cessation is 
that the projected fuel usage ratio for fiscal year 2009 is 75 percent 
natural gas and 25 percent coal. Although these percentages could vary 
slightly based on weather variables, which may drive an increased 
campus steam use, this earlier switch to 100 percent natural gas is 
projected to provide an approximate 10 percent reduction in coal use 
for fiscal year 2009.
    Question. If we do not appropriate this $10 million in fiscal year 
2010, what fuel mix will be used at the Capitol Power Plant?
    Answer. In response to the February 26, 2009, letter from the 
Speaker of the House and the Senate Majority Leader, the Acting 
Architect directed the Capitol Power Plant to continue planned work to 
upgrade equipment and controls on one of the natural gas boilers to 
increase its efficiency. He also directed expanded maintenance projects 
this summer to test and fine tune the remaining natural gas boilers. 
These efforts will improve the efficiency and capacity of existing 
natural gas equipment to meet the steam requirements for the Capitol 
complex using only natural gas, barring three issues:
  --Based on discussions with the natural gas utility provider, the 
        supply line must be upgraded from a four-inch gas line to a 
        six-inch gas line to ensure sufficient natural gas can be 
        delivered during the winter months. The Architect of the 
        Capitol is working with the utility provider to plan the 
        upgrade of the gas line.
  --Second, colder than normal weather during the winter months could 
        cause the steam demand to exceed the capacity of the existing 
        natural gas equipment which would drive a requirement to use 
        coal as a fuel source in a boiler.
  --Third, all existing natural gas equipment must be operating at 
        capacity to meet steam requirements during the winter. Any 
        equipment outages involving the gas boilers would necessitate 
        the use of a coal boiler.
    If any of the above issues are realized, coal would have to be used 
to meet demands. While impossible to predict with accuracy, we estimate 
this could be between zero and 3 percent coal usage. On an annual 
basis, it is estimated the Capitol Power Plant will provide 97 to 98 
percent of the required steam generation for the Capitol complex using 
natural gas as a fuel source.
    Question. I understand you have commissioned a long-range study on 
the Capitol Power Plant to look at a range of options for the Plant's 
future. Can you give us an update on the status of that study and what 
potential options are being discussed?
    Answer. Earlier this year, leveraging our in-house experts and 
highly qualified consultants, the Architect of the Capitol prepared a 
draft Capitol Power Plant strategic energy plan which is completed to 
approximately the 70 percent level. This master planning process 
examined numerous options for the Plant to meet goals of improving 
efficiency and reliability, reducing environmental impacts, and 
controlling the cost of operations. The Architect of the Capitol 
enlisted the assistance of the National Academy of Sciences to review 
this draft plan. The National Academy of Sciences assembled a panel of 
industry experts who are currently conducting a thorough review of the 
options and strategies. In addition, the Architect of the Capitol 
requested that the U.S. Department of Energy's National Energy 
Technology Laboratory conduct a review of the plan. These reviews will 
provide very useful third-party perspectives on the plan to enable the 
Architect of the Capitol to chart a course that provides the greatest 
efficiency and cost benefits while meeting the needs of Congress. The 
options considered in the report for providing generation at the 
Capitol Power Plant are:
Options 1-3: Existing Configuration with Boiler Replacement
    Existing configuration using 65 percent natural gas, 38 percent 
coal, and 2 percent fuel oil.
    Existing configuration using 98 percent natural gas, and 2 percent 
fuel oil.
    Existing configuration using 80 percent synthetic coal, 18 percent 
natural gas, and 2 percent fuel oil.
Options 4-6: Cogeneration with 33 Megawatts of Electricity Generation
    Cogeneration using 85 percent natural gas, 13 percent coal, and 2 
percent fuel oil.
    Cogeneration using 98 percent natural gas, and 2 percent fuel oil.
    Cogeneration using 85 percent natural gas, 13 percent synthetic 
coal, and 2 percent fuel oil.
Options 7-16: Construction of a New Plant
    New circulating fluidized bed plant (a combustion technology that 
mixes gases and solids) using 65 percent natural gas, 38 percent coal, 
and 2 percent fuel oil.
    New natural gas boiler plant using 98 percent natural gas, and 2 
percent fuel oil.
    New circulating fluidized bed plant using 80 percent synthetic 
coal, 18 percent natural gas, and 2 percent fuel oil.
    New 20 megawatt fuel cell plant using 98 percent natural gas, and 2 
percent fuel oil.
    New coal gasification plant using 98 percent natural gas, and 2 
percent fuel oil.
    New waste-to-energy plant.
    New plant with heat-recovery chillers.
    New plant with a high temperature hot water system.
    New nuclear plant.
    New plant utilizing Department of Energy Super Boiler technologies.
    The report also includes nine separate options for routing of the 
utility distribution system throughout the campus and six options to 
provide for decentralization, construction of a separate utility plant, 
or connection to the General Services Administration system. The final 
version of the plan is expected to be complete by the end of the fiscal 
year.

                          LIFE SAFETY PROJECTS

    Question. As you know this subcommittee places a very high priority 
on funding life safety projects. In fiscal year 2009 we funded over $75 
million worth of these projects including $56 million for the utility 
tunnel repairs. Is the fiscal year 2010 request of $45 million the last 
large installment of funding for this project?
    Answer. The fiscal year 2010 request of $45.77 million will be 
reduced to $16.85 million due to revised project logistics, as well as 
savings achieved in asbestos abatement, use of in-house labor, and 
reduced contract costs. As a result of this reduction, some costs will 
be shifted to fiscal year 2011 and fiscal year 2012. The Architect of 
the Capitol is currently projecting a fiscal year 2011 request of 
$13.95 million, and a fiscal year 2012 request of $10.41 million. The 
revised funding profile will be sufficient to meet the June 2012 date 
mandated by the settlement agreement to abate all tunnel hazards.
    Question. What other ``citation-related'' projects are included in 
the fiscal year 2010 request?
    Answer. In addition to the utility tunnels, the citation-related 
requests for fiscal year 2010 are Sprinkler System, West Main Pavilion, 
1st Floor, Thomas Jefferson Building; Egress Improvements, Phase II, 
Thomas Jefferson Building; Book Conveyor System Modifications, Library 
Buildings and Grounds; Monumental Exterior Exit Doors, John Adams 
Building; Fire Door Improvements, Library Buildings and Grounds; and 
Americans with Disabilities Act Bathroom Renovations, John Adams 
Building.
    Question. In terms of life safety projects in general, is there 
some point when you expect the number of code deficiencies and 
citations to start going down as we address these issues each year?
    Answer. Yes, the number of deficiencies and citations issued by the 
Office of Compliance has been declining. Since 1998, the Office of 
Compliance has issued 97 citation items to the Architect of the 
Capitol. Eighty-five of these (88 percent) were issued between 1998 and 
2000. Since 2005, the Architect of the Capitol has been issued eight 
citation items, with just one citation issued since 2007. Of the total 
97 citation items issued to AOC since 1998, 76 are closed and 21 remain 
open. AOC expects to close five citation items by the end of 2009, 
leaving nine fire and life-safety and seven utility tunnel citations 
open. The Architect of the Capitol biennial inspection deficiencies 
decreased 14 percent from the 109th Congress to 110th Congress, and 
further decreases are projected based on the early 111th Congress 
inspection process. The Architect of the Capitol attributes these 
deficiency and citation declines to a combination of factors including 
increased funding to address fire and life-safety deficiencies; 
implementation of facility condition assessments, safety programs, and 
periodic facility inspections; and improved communication and 
coordination with the Office of Compliance.

                          ENERGY REQUIREMENTS

    Question. One of the drivers of this year's request is meeting 
energy reduction requirements from several different energy bills. 
While I think it is important to lead by example in this regard, I 
realize there are significant costs related to these efforts. What 
major actions have been taken to reduce our energy usage and how 
successful have you been in that regard?
    Answer. The AOC has a number of ongoing initiatives to reduce 
energy consumption and meet legislative goals. Some of the biggest 
contributors to reduced energy consumption are:
  --West Refrigeration Plant Expansion Chillers.--These new chillers 
        are 20 percent more efficient and reduce the energy associated 
        with chilled water production.
  --Capitol Power Plant Operational Changes.--Since June 2008, the 
        Capitol Power Plant has implemented improved operating 
        procedures and equipment staging, and reduced chilled water 
        supply temperatures in the winter. Combined with heating and 
        air conditioning improvements made in the jurisdictions, the 
        changes have resulted in a reduction in heating and cooling 
        energy production by 20 percent.
  --Infrastructure Improvements.--As a side effect of improving the 
        tunnel conditions, the improved insulation was installed and 
        significantly reduces leaks and other heating losses, resulting 
        in a lower steam production requirement.
  --Jurisdictional Improvements.--Each jurisdiction has implemented 
        energy savings initiatives such as lighting upgrades, 
        installation of occupancy sensors and compact fluorescent light 
        bulbs, change-over to energy star equipment, and other low-
        cost/no-cost improvements. In addition, the Architect of the 
        Capitol's energy awareness public outreach program educates 
        individuals on energy savings techniques.
    The above initiatives were instrumental in enabling the Architect 
of the Capitol to surpass legislated energy reduction goals (against 
the fiscal year 2003 baseline) as shown in the table below:

                              [In percent]
------------------------------------------------------------------------
                  Fiscal year                       Goal       Achieved
------------------------------------------------------------------------
2006..........................................            2          6.5
2007..........................................            4          6.7
2008..........................................            9         10.7
------------------------------------------------------------------------

    Question. You are requesting $11 million worth of projects in 
fiscal year 2010 with an energy-reduction focus. What level of energy 
savings will these projects, if funded, achieve for the Capitol 
Complex?
    Answer. The projected energy savings is estimated at 6 percent when 
the fiscal year 2010 requested projects are completed.
    Question. The Architect of the Capitol is requesting $17 million 
for energy management programs, metering, and design/build development. 
Can you explain how these items tie in to your overall efforts?
    Answer. The Architect of the Capitol plans to use $3.4 million for 
a contract to oversee the work being done by the Energy Savings 
Performance Contracts. The Energy Savings Performance Contracts will 
generate construction-type repair and replacement work across the 
Capitol complex. Some of the work involved may be located in areas that 
contain unique or historically important items. The Architect of the 
Capitol must ensure that the construction is properly managed and also 
must provide for third-party measurement and verification, and 
oversight of commissioning services for projects.
    The use of Energy Savings Performance Contracts and currently-
planned construction projects will not enable the Architect of the 
Capitol to continue to meet the mandated energy reduction goals. 
Additional energy reduction projects will be necessary. The requested 
$6.5 million to develop design/build packages will help bridge the gap 
between currently identified projects and the energy reduction goals.
    Electrical, steam, and natural gas meters are required per Section 
434 of the Energy Independence and Security Act of 2007. The $7.1 
million metering request is sufficient to procure and install meters 
and infrastructure to fully meet this fiscal year 2015 requirement. In 
addition, metering compliments the entire energy program by enabling 
the detailed monitoring of energy usage, and will help the Architect of 
the Capitol to identify potential energy savings opportunities at the 
individual building level.
    Question. How are you using Energy Savings Performance Contracts to 
help meet your energy reduction requirements?
    Answer. The Department of Energy's Energy Saving Performance 
Contracts are being used as an alternative funding strategy to 
appropriated funds. Under these contracts, companies complete energy 
saving construction projects, and are then reimbursed from the funds 
that would have been used to pay for the energy that is no longer 
necessary due to savings generated by the installed projects. The 
Architect of the Capitol plans to use several Energy Savings 
Performance Contracts across the Capitol complex. These Energy Savings 
Performance Contracts are in various stages of evaluation and 
negotiation. Since the construction costs are financed through the 
Energy Savings Performance Contracts companies, the Architect of the 
Capitol will reimburse the companies for construction as well as 
financing costs over the next 20 to 25 years, if the companies' efforts 
realize energy savings.

                            OPERATING BUDGET

    Question. The Architect of the Capitol is requesting a 10.4 percent 
increase in its operating budget in fiscal year 2010. That is a pretty 
significant increase for day-to-day operations, particularly given the 
significant capital project needs you are requesting. How much of the 
operating budget increase is ``controllable''--that is, not related to 
pay increases or other inflationary changes?
    Answer. The $39.9 million (10.4 percent) increase in operating 
budget includes $23.9 million in mandatory pay and inflationary 
increases (6.2 percent of the overall operating budget increase), $4.7 
million (1.2 percent) in Capitol Visitor Center program increases, and 
$11.3 million (3 percent) in what could be called ``controllable'' 
operating budget increases. The Architect of the Capitol does not 
believe the increases for the Capitol Visitor Center should be 
considered controllable because the increases are driven by unforeseen 
demands and the first full year of operations funding. In addition, the 
$11.3 million (in increases that are not related to mandatory pay and 
inflation) includes critical mission items such as an internal control 
audit to prevent fraud, waste, and abuse; facility condition 
assessments for new inventory buildings such as the Library's book 
storage modules and the National Audio-Visual Conservation Center; 
critical program/project management tools; safety equipment and 
training; uniforms; replacement of a 20-year old cable television head-
end switcher; an OSHA-required hazardous material survey; and the 
transit subsidy benefit increase. Although these items may not be 
required by law or directive, not funding them will impact the 
Architect of the Capitol's ability to meet mission requirements.
    Question. You are asking for an additional 25 full time equivalents 
in fiscal year 2010 for the Capitol Visitor Center, including 15 
Visitor Assistants and five additional Guides. Have you considered 
hiring these additional personnel on a part-time basis--for the peak 
visitor season--rather than full time?
    Answer. Yes, we can develop a seasonal profile that will minimally 
meet the needs. Due to training requirements and the learning curve for 
these positions, temporary positions do not offer the same level of 
efficiency as full time staff.
    Question. Is this increase in personnel due to unforeseen needs at 
the CVC? Could you explain this request and how you arrived at these 
numbers?
    Answer. The Capitol Visitor Center had to convert a number of 
current Visitor Assistant positions to accommodate unforeseen 
operational needs such as a larger-than-anticipated phone call center, 
the need for a volunteer services coordinator, Congressional liaisons, 
and reservation clerks and a coordinator. The principal driver for the 
additional increase in Visitor Assistants is the greater-than-
anticipated number of evening events in the CVC meeting spaces and the 
support requirements for these events. Visitor Assistants have been 
frequently called upon to help direct guests to event spaces, and also 
to enforce CVC policies (e.g. food restrictions in Emancipation Hall) 
during the evening hours and special Sunday events. It is also 
necessary to position Visitor Assistants at various points outside to 
provide directional way finding assistance to visitors. Visitor 
Assistants have also been called upon to provide additional support 
during normal operating hours for special Congressional events in and 
outside the Capitol such as the Inaugural, the Days of Remembrance 
ceremony in the Rotunda, and the unveiling of the Reagan statue. The 
Guide increase is driven by the size of tour groups. Currently, tour 
groups range in number from 40 to 60, depending on Guide availability 
and scheduling. The average size of a tour group would decrease to 40 
with the addition of five Guides, providing a more manageable size from 
a logistics and security perspective.

              GOVERNMENT PRINTING OFFICE SHARED RESOURCES

    Question. Both the Architect of the Capitol and the Government 
Printing Office provide a number of similar industrial-type functions: 
electrical, carpentry, masonry, and related functions. Since the 
Architect of the Capitol is already using space at the Government 
Printing Office, could the Architect of the Capitol and the Government 
Printing Office take advantage of economies of scale by combining some 
of these functions?
    Answer. The Architect of the Capitol is examining the feasibility 
of this, and will report back to the Subcommittee on its findings.
    Question. Would combining some or all of these functions at GPO 
possibly free up space in Senate and House office buildings?
    Answer. If this is a feasible option, the Architect of the Capitol 
will assess potential space availability based on specific functions 
and economies of scale.

                       PLANNING AND PRIORITIZING

    Question. I know your agency has taken significant steps in recent 
years to establish a data-driven planning and prioritization process. I 
understand that you have developed, for the first time, a Capital 
Improvement Plan that's fully informed by facility assessments of each 
area of the Capitol Complex. Once you identify projects that are 
needed, what is the process you use to prioritize them for inclusion in 
your annual request?
    Answer. The AOC developed a project prioritization process to 
evaluate every project in terms of importance, urgency, and 
classification. In this process, each project is categorized as 
deferred maintenance, capital renewal, capital improvement, or capital 
construction. Next, each project's urgency is determined by an 
assessment of several factors including the facility condition 
assessments, and the Capitol Complex Master Plan and associated 
Jurisdiction Plans. Projects are ranked as immediate, high, medium, or 
low urgency. Finally, each project's importance is carefully evaluated 
based upon a set of predetermined criteria, including historic 
preservation, regulatory compliance, mission accommodation, economics, 
and energy efficiency and environmental quality. All of these factors 
are used to derive a composite rating that is used to prioritize the 
projects, top to bottom.
    Question. How did you decide where to establish the cut line on 
projects slated for inclusion in this year's budget request?
    Answer. Understanding the fiscal constraints, the AOC included all 
executable, immediate priority projects in this year's budget request, 
and only critically-needed high priority infrastructure-related 
projects.
    Question. Were any ``immediate priority'' projects left out of your 
fiscal year 2010 request? If so, why were they left out?
    Answer. Three immediate priority projects were not included in the 
fiscal year 2010 budget request. The projects are: Alternate Life 
Safety Approach, Russell Senate Office Building; Bus Screening 
Facility, United States Capitol Police; and K-12 Fence Replacement, 
United States Capitol Police. The Alternate Life Safety Approach 
project does not have a fully matured solution and several issues must 
be resolved before it is ready for execution. At the request of the 
Senate, the Architect of the Capitol is forming a blue ribbon panel to 
review the project and its proposed solution more thoroughly. The Bus 
Screening Facility project was eliminated because a final decision to 
screen buses for the Capitol Visitor Center has not been made. Lastly, 
the Architect of the Capitol is examining potential solutions for the 
fence replacement and did not believe the project was ready to move 
forward at this point.
    Question. Are the projects included in your fiscal year 2010 
request aimed at addressing the worst deficiencies?
    Answer. Yes. The Architect of the Capitol's project prioritization 
process was designed to identify the most immediate needs and 
prioritize those needs based on life-safety and regulatory compliance, 
security, mission, preservation, economics and energy.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. The budget resolution calls for a 7 percent increase in 
nondefense discretionary spending. What would be the impact on your 
budget if we were to limit it to a 7 percent increase?
    Answer. Limiting the AOC to a 7 percent increase would mean a 
reduction of over $67 million to our current budget request. This 
reduction would affect our ability to meet the focus areas identified 
in our budget request: solving the deferred maintenance and capital 
renewal backlog; following the Capitol Complex Master Plan process; 
meeting prescribed energy goals; and managing and caring for our 
people. We would have to make significant cuts to the Line Item 
Construction Program causing the backlog across the complex to continue 
to rise, and making mandated energy program goals even more difficult 
to achieve. In addition, the limitation would greatly reduce our 
capacity to satisfy requests from our clients.
    Question. The AOC has completed facility condition assessments for 
most of its buildings and facilities. Ratings range from ``poor'' to 
``excellent.'' How does the condition of our buildings compare to other 
government facilities?
    Answer. A uniform standard that would allow a ``side by side'' 
comparison of the condition of the Capitol complex facilities to that 
of other Federal agencies does not exist. The AOC uses a detailed 
component level review and assessment to determine Facility Condition 
Assessments (FCAs) of Capitol complex facilities. This methodology of 
FCAs identifies specific and detailed repair or renovation requirements 
and assists in the prioritization of these requirements. Other agencies 
either do not conduct FCAs at all, or base their FCAs on a very quick 
assessment of various building components. With the various 
methodologies of conducting FCAs, it is not possible to compare 
building condition of the Capitol complex with other government 
agencies' facilities.
    Question. Citation-related work accounts for a large portion of 
your budget request. How much more work does AOC need to do to meet 
outstanding citations beyond fiscal year 2010, and at what cost? How 
many citations remain open? Are any citations anticipated in fiscal 
year 2009?
    Answer. Citation-related projects that will be submitted in future 
year's budget requests include the following:

                        CITATION RELATED PROJECTS
------------------------------------------------------------------------
             Project                 Projected Construction Cost Model
------------------------------------------------------------------------
Tunnel Improvement Program \1\...  $24,360,000
Alternate Life Safety Approach,    $5,000,000-$10,000,000
 RSOB \2\.
Alternate Life Safety Approach,    $3,000,000
 CHOB.
Book System Conveyor Projects,     $10,000,000-$25,000,000
 LB&G \3\.
Egress Improvements, LB&G........  $3,000,000
New Exit Stair (Stair B), TJB....  $11,200,000
New Exit Stair (Stair E), TJB....  $11,200,000
New Exit Stair (Stair F), TJB....  $8,000,000
New Exit Stair (Stair G), TJB....  $8,000,000
Fire Damper and Smoke Control      $25,000,000 or greater
 System Modification, LB&G.
Fire Door Improvements, LB&G.....  $8,000,000
------------------------------------------------------------------------
\1\ The $24,360,000 assumes a reduced fiscal year 2010 tunnel program
  request from $45,770,000 to $16,850,000.
\2\ The Senate has requested a blue ribbon panel to review the citation
  associated with this project; therefore, the project cost is subject
  to change pending the final determination.
\3\ There are three projects associated with the citation for the Book
  Conveyor system. Portions of all three projects are required to abate
  the citation.

    There are two projects currently funded that are associated with 
the citation for the U.S. Capitol Building. These projects were 
designed assuming that the U.S. Capitol Building would be fully 
sprinklered. A project to install sprinklers throughout the Capitol is 
currently on hold pending Leadership guidance associated with options 
for the Capitol Complex Master Plan study. The sprinkler project 
projected cost model is $24,000,000, but it is not included in the 
table above.
    Currently, 26 citations remain open. The AOC is working to correct 
the open citations and expects to close 11 citations by the end of 
2009. The 15 citations expected to remain open at the end of 2009 
consist of seven for utility tunnels and eight involving fire and life-
safety.
    The Office of Compliance (OOC) has not communicated to the AOC any 
intention to issue a citation in fiscal year 2009. The AOC is working 
closely with the OOC on a Capitol Power Plant Occupational Safety and 
Health matter. In March 2009, AOC and OOC signed a legally binding 
agreement to provide additional time to address this matter and 
continue to work cooperatively. If this matter is not resolved to the 
satisfaction of the OOC, a citation may be issued.
    Question. The AOC estimates that Energy Savings Performance 
Contracts (ESPCs) currently in place have a value of over $150 million. 
How do ESPCs work, and how do you ensure that the ESPCs result in a 
good ``deal'' for the government and the taxpayer?
    Answer. An ESPC is a process by which Federal agencies leverage 
private funds to implement energy efficiency and renewable energy 
projects. Once the projects are completed, the guaranteed energy 
savings are used to repay the Energy Service Company (ESCO) for its 
investment.
    To ensure that the ESPCs are technically and economically viable, 
significant time and effort is put into conducting the investment grade 
energy audit and formulating the list of Energy Conservation Measures 
(ECMs) in the Detailed Energy Survey. The ESCO guarantees that the 
improvements will generate savings sufficient to pay for the project 
over the term of the contract. The ESCO also is required to verify 
operation of the installed systems, calculate the previous year's 
energy and water savings, and compare verified and guaranteed savings. 
Rigorous measurement and verification (M&V) requirements document 
initial performance and assure persistent savings during the 
performance period.
    The AOC is working with the Department of Energy (DOE) to ensure 
the successful implementation of this initiative. DOE has developed a 
program and refined procedures to ensure the government receives an 
equitable payback on every project, while optimizing the public policy 
purpose of the program by accelerating energy and water efficiency and 
renewable energy improvements to Federal facilities. These procedures 
are implemented with complete DOE guidance in the AOC projects. They 
include DOE program lessons learned, improvements required by statute, 
and recommendations based on Congressional audits.
    A joint AOC/DOE panel is reviewing all aspects of the projects: a 
DOE-provided Project Facilitator reviews the details; a DOE National 
Lab technical expert reviews major aspects of the proposal with special 
attention to the measurement and verification elements. Measurement and 
verification is essential to assuring the avoided cost has been 
achieved each year before a payment is made to the contractor. In 
addition, the AOC is preparing business case and constructability 
analyses to provide a basis for negotiating cost and energy savings.
    Question. The AOC contracted with the National Academy of Sciences 
to review options for the future of the Capitol Power Plant. One option 
being considered is the construction of a co-generation plant. Would 
this be a reasonable investment for us, with significant energy 
improvements? Can you give us some idea of the cost, and when you might 
seek appropriations? How could AOC use a public-private partnership to 
build a co-generation facility?
    Answer. Our initial investigation into co-generation at the Capitol 
Power Plant indicates that it would be a very effective way to improve 
energy efficiency and increase utility reliability. However, the final 
system recommendations and associated cost estimates and schedules are 
not fully developed. Depending on the specific system installed, 
initial cost estimates range from $50 million to $250 million. The AOC 
also is looking at public-private partnerships or ESPCs as possible 
options for the implementation of co-generation.
    Question. GAO has made recommendations in prior years regarding 
improving management of the Capitol Power Plant, including ``right-
sizing'' the staff. What is the status of GAO's recommendations?
    Answer. Based on the GAO recommendations, the AOC awarded a 
contract to perform a work force study in September 2008. The contract 
covers a workload survey of required tasks, skills, and man-hours for 
plant operations, maintenance, and management; recommendations for 
organization structure and skills needed; and flowcharts of key 
processes. Work Process Flow diagrams were submitted and reviewed in 
January 2009, and were finalized in February 2009. The Workload Model 
submitted in March 2009 is under revision to incorporate workloads from 
the finalized Work Process Flow diagrams. The AOC also has identified 
additional processes for incorporation into the model. The final report 
and recommendations are due by the end of June 2009. In addition to the 
workload study, GAO also recommended that the AOC establish procedures 
and guidelines for outsourcing and pursue a competitive sourcing 
strategy. The Capitol Power Plant (CPP) staff is working to develop a 
specific scope of work for this task and may modify the existing 
contract to accomplish the work.
    As part of the AOC-wide skills survey scheduled to take place from 
June through September 2009 by the AOC's Office of Workforce Planning, 
current CPP employees will have their skills assessed against the 
identified requirements. The results of the skills survey will help 
develop the competitive sourcing strategy.
                                 ______
                                 
               Questions Submitted to Tamara E. Chrisler
               Questions Submitted by Senator Ben Nelson

    Question. I understand that your organization conducts ``biennial 
inspections'' of the Legislative Branch facilities. Do these ``biennial 
inspections'' occur in the rest of the Federal Government?
    Answer. No. The executive branch has annual inspections. See 29 CFR 
1960.25(c).
    When Congress enacted the Congressional Accountability Act 
(``CAA''), the result was to enforce the Occupational Safety and Health 
Act (OSHAct) in a manner similar to what is being done in the private 
sector. The OSHAct imposes a ``General Duty'' upon all employers 
(including executive branch departments) ``to furnish a place of 
employment free from recognized hazards that are causing or likely to 
cause death or serious physical harm to employees'' and requires 
employers to comply with regulations issued by the Secretary of Labor 
(OSHA Regulations). The Congressional Accountability Act (CAA) imposes 
this ``General Duty Clause'' upon each employing office and each 
covered employee. However, the CAA does not apply to the legislative 
branch the many specific mandates that the OSHAct imposes in the 
executive branch.
    The OOC's evaluation function includes examining the performance of 
safety initiatives and safety professionals in the employing offices. 
The OOC's ability to conduct this evaluation function has been somewhat 
hampered by the failure to incorporate the provisions of 29 U.S.C.  
657(c) (relating to maintenance, preservation and availability of 
safety records) into the CAA \1\. The OOC's recent Section 102(b) 
Report to Congress (December 2008) proposes several legislative changes 
that would correct this problem proposes several legislative changes 
that would correct this problem by applying OSHA's recordkeeping and 
reporting requirements to the employing offices covered by the CAA. See 
OOC, Section 102(b) Report, p. 10 (December 2008). Under the current 
statutory scheme, unlike the executive branch or private employers, 
employing offices are not required to make, keep, and preserve, or 
provide to the OOC records deemed necessary for enforcement of OSHAct 
Section 5, including records on work-related deaths, injuries and 
illnesses, and records of employee exposure to toxic materials and 
harmful physical agents. Similarly, under the current scheme, the OOC 
is unable to consider any inspection findings of safety professionals 
in the employing offices because employing offices do not share their 
inspection findings with the OOC. OOC inspectors are observing a 
decrease in the number of identified hazards, as well as increased 
educational efforts from the employing offices, but without inspection 
data from the employing offices signifying that they have adequately 
examined and removed OSH hazards from the workplace, the OOC must 
continue to do what is necessary to ensure a safe and healthy workplace 
for covered employees. In addition, neither the AOC nor any other 
covered employing office provides the OOC with injury and illness 
records that are necessary for strategically determining what areas 
should be inspected more regularly or provided more technical 
assistance. This information is not required as part of the CAA, and 
without it, the OOC depends on its biennial inspections to provide 
information regarding safety and health conditions to Congress.
---------------------------------------------------------------------------
    \1\ Under the CAA, the OOC's General Counsel is granted the same 
authority as the Secretary of Labor in subsections (a), (d), (e) and 
(f) of OSHAct  8 (29 U.S.C.  657) and all of the authority contained 
in OSHAct  9 and 10. Unlike the OSHAct, 29 U.S.C.  657(c), the CAA 
does not require legislative offices to keep and provide records to the 
OOC necessary to develop information regarding the cause and prevention 
of accidents and illness; records on work-related deaths, injuries and 
illnesses; and records of any large exposure to toxic materials. 
Furthermore, unlike the OSHAct, 29  657(b), the CAA does not give the 
OOC investigatory subpoena power that Congress found in enacting the 
OSHAct to be ``customary and necessary for the proper administration 
and regulation of an occupational, safety and health statute.'' Report 
No. 91-1291 of the House Committee on Education and Labor, 91st 
Congress, 2nd Session, p. 22; Report No. 91-1291 of the Senate 
Committee on Labor and Public Welfare, 91st Congress, 2nd Session, p. 
12, to accompany S. 2193 (OSHAct) (``a power which is customary and 
necessary to the proper administration and enforcement of a statute of 
this nature.'').
---------------------------------------------------------------------------
    Even with these limitations, the OOC works cooperatively with 
safety professionals in the employing offices to improve conditions in 
those offices and also facilitates compliance by providing technical 
assistance and educational opportunities to these individuals. Some 
employing offices have decided to rely exclusively upon OOC inspections 
rather than having their own safety professionals conduct comprehensive 
inspections. In other cases, when necessary and practical, the OOC has 
also brought safety professionals together with other stakeholders to 
coordinate and develop solutions to safety concerns that are acceptable 
to all concerned.
    The OOC is in the process of conducting its next full-scale 
inspection of covered facilities. The 111th Congress Inspection is 
crucial to developing a strategy for future inspections because it 
provides the OOC with three independent data sets to form the 
beginnings of a trend analysis. The OOC had a picture from the data 
garnered from the 109th Congress Inspection, and utilized the 110th 
Congress Inspection data to begin looking for trends. However, with the 
information from the 111th Congress, the OOC will be able to implement 
a more thorough trend analysis and focus future inspections more 
effectively upon the areas with greatest risk. This means that some 
areas may not be included in certain inspection cycles if previously 
identified hazards have been abated and the likelihood of recurrence is 
low. In other words, provided the data supports it, the trend analysis 
would allow OOC to sample areas randomly to determine that hazards are 
not being created rather than actually inspecting every administrative 
space and office on campus. By doing so, the OOC will be able to devote 
more resources to reviewing employing office safety and health 
programs, to focusing inspections on high risk work areas and 
procedures, to developing new educational materials, and to providing 
more detailed technical assistance.
    While the general duty imposed upon all employers (private sector, 
executive branch and legislative branch) is the same--compliance with 
Section 5 of the OSHAct by furnishing a place of employment free from 
hazards--the specific mandates imposed upon the executive branch are 
quite extensive due to the provisions of OSHAct  19 and 29 CFR  1960. 
The following table illustrates the differences between the OSH 
requirements for the executive branch (as mandated by 29 CFR  1960) 
and the requirements for the legislative branch.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
To comply with Section 5 of the OSHAct (as mandated by 29   To comply with Section 5 of the OSHAct, legislative
 CFR  1960), executive branch departments are required      offices are required to:
 to:                                                           Submit to inspection by the OOC at least
  Submit to inspection by agency safety and health              biennially.
   inspectors at least annually.
  Designate an ``Agency Safety and Health Official''
   (holding the rank of Assistant Secretary or equivalent)
   who will carry out provisions of 29 CFR 1960,
   Executive Order 12196, and Section 19 of the OSHAct. A
   principal role for this official is to provide
   ``adequate budgets and staffs to implement the
   occupational safety and health program at all levels''
  Establish safety and health officials at each
   appropriate level with sufficient authority and
   responsibility to plan for and assure funds for
   necessary safety and health staff, materials, sampling,
   testing, analyses, travel, training and equipment
   required to identify, analyze and evaluate unsafe or
   unhealthful working conditions and operations
  Ensure that performance evaluations of management and
   supervisory officials measure their effectiveness in
   meeting the requirements of the occupational safety and
   health program
  Make available the agency's occupational safety and
   health plan to employees and employee representatives
   upon their request
  Post a conspicuous notice informing employees of the
   Act, Executive Order and agency occupational safety and
   health program, and relevant information about safety
   and health committees
  Adopt emergency temporary or permanent supplementary
   standards appropriate for application to working
   conditions of agency employees for which there exist no
   appropriate OSHA standards
  Provide safety and health inspectors with safety and
   health hazard reports, injury and illness records,
   previous inspection reports, and reports of unsafe and
   unhealthful working conditions
  Post notices of unsafe or unhealthful working conditions
   that are identified by the agency's internal safety and
   health inspectors. These posters must remain until
   after the hazard has been abated
  Investigate working conditions, which employees have
   reported unsafe or unhealthful, within 24 hours to 20
   working days, depending on the potential seriousness of
   the conditions. These investigations must be made
   available to the employee within 15 or 30 working days
   depending on the condition's severity
  Investigate each accident that results in a fatality or
   in the hospitalization of three or more employees
  Establish procedures to follow up, to the extent
   necessary, to verify that hazardous conditions have
   been abated
  Prepare an abatement plan that includes a proposed
   timetable for abatement, an explanation of any delays
   in the abatement, and a summary of interim steps to
   abate the hazard
  Regularly inform established committees and/or employee
   representatives of the progress on abatement plans
  Either establish safety and health committees or be
   subject to unannounced inspections by OSHA. These
   committees, which have equal representation by
   management and non-management employees, monitor the
   performance of agency-wide safety and health programs
  Participate in the Safety, Health, and Return-to
   Employment (SHARE) Initiative which requires: (1) the
   establishment of goals and plans for reduction of
   injuries and illness; and (2) reporting on progress
   made toward meeting the established goals. The goals
   for 2004-2009 were to: (1) reduce by 3 percent the
   total number of employee injuries per year; (2) reduce
   by 3 percent the annual lost time due to worker
   injuries, and (3) reduce by 1 percent the total number
   of annual lost production days due to worker injuries.
   (Established by Presidential Memoranda on 1/9/2004 & 9/
   29/2006)
----------------------------------------------------------------------------------------------------------------

    In addition, many executive agencies apply more stringent 
definitions and other national standards for safety, health and fire 
prevention, which have not been implemented by OSHA. For example, the 
Department of Defense instruction on hearing conservation defines a 
more protective (lower) level of hazardous noise than the OSHA 
standard. In some cases for which no OSHA standard is appropriate, the 
executive branch has adopted emergency temporary or permanent 
supplementary standards. By contrast, the OOC does not apply any 
standards more stringent than those adopted by OSHA.
    The CAA also requires the OOC to perform inspections in response to 
a written request by an employee, just as OSHA inspectors respond to 
written requests by executive branch employees. At executive branch 
workplaces that have not established a safety and health committee, 
OSHA is also authorized to make unannounced inspections. In contrast, 
the OOC does not conduct unannounced inspections of any type. Although 
the OOC's procedural rules permit the use of unannounced inspections, 
the OOC's General Counsel, exercising his authority under OOC 
Procedural Rule  4.06(3) and (4), has determined that giving advance 
notice of inspections is ``necessary to assure the presence of the 
representatives of the employing office and employees needed to aid in 
the inspection'' and will ``enhance the probability of an effective and 
thorough inspection.'' For these reasons, the OOC does not make 
unannounced biennial inspections. Most employing offices are not only 
notified of the inspection well in advance, but are provided with 
reminder notices shortly before the actual inspection.
    Question. If not, doesn't this hold the Legislative Branch to a 
higher standard than the rest of the government? I do not think that 
was the intent of the Congressional Accountability Act and I certainly 
don't personally think it is appropriate.
    Answer. The legislative branch is not held to a higher standard as 
the rest of the government. As explained above, the general duty 
imposed upon all employers (including the executive and legislative 
branches) is the same--compliance with Section 5 of the OSHAct by 
furnishing a place of employment free from hazards. However, the 
specific mandates imposed upon the executive branch are far more 
extensive than those imposed on the legislative branch due to the 
provisions of OSHAct 19 and 29 CFR 1960, as illustrated in the table 
provided above.
    Question. Does your organization work closely with the Architect of 
the Capitol--taking into account the Architect's Capital Improvement 
Plan and Capitol Complex Master Plan when conducting its biennial 
inspections to ensure that redundancies in work are avoided?
    Answer. Yes. OOC and AOC work collaboratively to conduct the 
biennial inspections. The biennial inspection schedule is an integral 
part of the interim protection methods implemented to reduce the risk 
to occupants of buildings having serious safety deficiencies. The OOC 
is very conscious of budgetary concerns and works closely with the AOC 
concerning plans that involve safety improvements. As features of the 
Master Plan have received approval and funding, the OOC and the AOC 
have worked closely together to avoid redundancies in work and to 
maintain cost effectiveness. Due to the costs of the improvements 
recommended by AOC in its plan to abate hazards originally discovered 
in 2000, the OOC is working closely with the AOC to implement interim 
fire prevention and fire protection methods to lower risks in those 
buildings with serious safety deficiencies.
    The OOC also works with the AOC to conduct biennial inspections so 
as to cause minimal disruption of building operations. The OOC has 
daily contact with AOC staff and conducts regularly-scheduled meetings 
with the AOC to coordinate efforts. Prior to any inspection, a pre-
inspection conference is held to determine how the inspection can be 
conducted in the most efficient and effective manner. Prior to the 
physical inspection of an employment site, the OOC will review any 
office records regarding self-inspections and other safety initiatives 
to avoid redundancies and to focus the inspection efficiently on areas 
of concern.
    OOC Communications with Building Superintendents.--The OOC and the 
AOC have also been working on improving communication with the 
Superintendents' Offices regarding the hazards that have been 
identified during inspections. OOC and AOC representatives are working 
cooperatively to develop a regular agenda and to otherwise share 
information with the Superintendents' Offices that will better prepare 
them for the OSH Biennial Reports and future inspections. The 
additional information to be shared includes: OOC inspection priorities 
and changes in priorities, most common hazards, most serious hazards, 
inspection trends, and OOC inspector observations of existing 
conditions. This joint effort will benefit both the AOC and the OOC 
because information will be relayed to decision makers on a weekly or 
biweekly basis so that common hazards can be addressed, and employees 
in areas yet to be inspected can be informed of what the inspectors are 
expecting to find. This regular communication enhances overall 
education and protects covered employees more effectively.
    Contested Findings.--In addition, the OOC provides a procedure for 
the AOC and other employing offices to contest Biennial Inspection 
findings. Every cover letter sent with the OOC's Hazard Summary Report 
includes the following language:

    ``As to any identified hazards your office or agency wishes to 
contest, please clearly identify those findings in your responses by 
writing CONTESTED in the response area in line with the Finding ID and 
explain the rationale and related standards for the contest. If you 
object to any of the findings, please be as specific as possible in 
identifying the basis of your contest, e.g. the level of the RAC 
assessment, if you think the finding is not a hazard, if you dispute 
the location of the finding, or contest responsibility for correcting 
the hazard, etc.''

    This procedure ensures that any dispute over a finding, no matter 
what the reason, will be presented to the General Counsel for review. 
The General Counsel responds in writing to any contested finding filed 
by an employing office.
    Cannon Building Project.--The Cannon building project does not 
entail redundant or wasted work; the OOC has not required the 
installation of expensive stairwell enclosures only to be torn out 
during future remodeling. First, the OOC citation issued in 2000 does 
not mandate a specific abatement solution; instead the OOC's role is to 
evaluate whether the abatement measures proposed by the AOC will 
adequately abate the hazard pursuant to the OSHAct and fire protection 
standards. Second, the OOC has assisted AOC in an efficient 
implementation of the AOC's current plan for the Cannon Building. 
Stairwells 3-7 are already enclosed or in the process of being enclosed 
and will remain so in the new design. The alternate life-safety 
measures (creation of separate life-safety zones) to account for the 
unclosed rotunda stairways (1 and 2), if funded, will not be installed 
until 2012, after the design for the renovation has been completed. The 
renovation design plans are likely to incorporate these measures. If 
not, any necessary modifications to the fire safety measures can be 
made prior to any construction. If there are any delays in 
construction, the OOC has agreed to work with the AOC to identify and 
implement interim fire prevention and protection methods.
    Question. Does your office consider whether work that is required 
by a citation may be addressed in phases so that the impacts of the 
work on occupants and budgets may be minimized?
    Answer. Yes. When the OOC issues a citation, it only identifies 
hazards; it does not mandate particular ways in which the AOC is 
required to abate the hazard. The covered offices are given maximum 
flexibility to develop, consider and implement various corrective 
measures. For example, the citations regarding unenclosed stairwells 
contain the following abatement instructions: ``evaluate alternatives 
to reduce the danger posed by open stairwells and develop plan to 
reduce danger, taking into account costs, benefits, and historic 
preservation.'' The OOC provides technical guidance and assistance to 
the covered offices regarding various solutions that are being 
considered. As the technical expertise of the Office has expanded, more 
assistance has been provided. Although the CAA requires that violations 
be corrected ``as soon as possible'' and no later than ``the end of the 
fiscal year following the fiscal year in which the citation is issued'' 
[2 U.S.C.  1341(c)(6)], the OOC works with the employing offices to 
implement interim safety measures when abating a citation will require 
expensive alterations and take more than one Congress to complete. See, 
GAO's Briefing for Congressional Staff, AOC's Process for Prioritizing 
Capital Projects (September 2008).
    An example of such interim safety measures is the installation and 
enclosure of stairwells. Most of the AOC's current proposals regarding 
the installation and enclosure of stairwells in various buildings arose 
out of OOC inspections conducted in 2000. Improving fire prevention is 
a recognized interim measure that can allow occupancy of buildings with 
deficient fire protection. A biennial inspection is a comparatively 
inexpensive, interim measure. In buildings with inadequate fire 
protection, it is essential that the inspection focuses on the 
following: eliminating electrical hazards posed by extension cords and 
overloaded or inadequately protected circuits; minimizing egress 
hazards associated with open fire doors and obstructions in exit 
pathways; examining the functioning of all alarms, detectors and fire 
suppression systems; insuring adequate training regarding evacuation 
procedures and plans; and reducing the danger posed by a building's 
total fuel load by encouraging prudent paper storage methods. Due to 
relatively high employee turnover rates in legislative offices, 
biennial inspections are needed to keep the new staff well informed 
about fire prevention methods. Such fire prevention methods go a long 
way towards reducing the probability of fires altogether, as well as 
the severity of a fire should it occur.
    In other cases of addressing the abatement of hazards, the OOC has 
acted as a facilitator by bringing together interested stakeholders so 
that all viewpoints can be considered and a cost-effective solution can 
be found. An example of this type of cooperative decision making 
involved the House Page School, located in the attic of the Thomas 
Jefferson Building. The Page School lacks safe emergency egress--a 
serious safety hazard. The OOC, together with the AOC, brought together 
representatives, of all of the interested parties including the Clerk 
of the House, the Capitol Police, House Employment Counsel, the Library 
of Congress and the Committee on House Administration. Working 
cooperatively with the AOC and the OOC, these parties were able to 
devise a cost-effective, interim solution that addresses some of the 
most significant safety hazards and allows the Page School to continue 
operating at this location in relative safety until a permanent fix can 
be accomplished.
    Question. Do the historical buildings in our complex, such as the 
Capitol, the Jefferson Building, and the Russell Building have 
different requirements for fire and life safety than say a building 
being built today?
    Answer. Yes. The Code for Fire Protection in Historic Structures 
(NFPA 2001) implements a performance-based approach to fire safety in 
historic buildings where rigid adherence to a modern code might 
adversely affect historic integrity. This performance-based approach, 
however, still recognizes that historic buildings must provide 
reasonably equivalent fire and life safety protection for their 
occupants. Older buildings that were not built in accordance with 
modern building codes are more challenging to inspect and require more 
oversight when known hazards remain unabated. Fire departments often 
perform inspections on older buildings more frequently than biennially 
since the risk of fire in buildings with old electrical and gas systems 
is greater and the methods of egress are not as safe as in newer 
buildings. NFPA Fire Protection Handbook, pp. 7-216--7-219 (2003). The 
use of frequent inspections is a common interim ``fire prevention'' 
method that allows occupation and use of a building that would 
otherwise be unsafe because known hazards remain unabated.
    Other interim measures in buildings with inadequate egress focus on 
providing more time for occupants to evacuate a building. Increasing 
fire suppression and fire detection systems (e.g., sprinklers and smoke 
detectors) can help offset the threat posed by inadequate egress. 
Ultimately, however, all buildings need to provide safe egress to keep 
occupants out of danger. The answer to the question below offers a more 
detailed explanation as to why this is so.
    Question. Why would we need to add egress stairwells to the 
Jefferson Building--which would cost more than $12 million and cause 
major disruptions to both staff and visitors--when 98 percent of the 
building is equipped with sprinklers, 100 percent of the building is 
equipped with smoke detectors, and it is fully staffed with Capitol 
Police in the event that a fire did occur?
    Answer. After five fires \2\ in Capitol Hill buildings during 1998 
and 1999, the OOC began a comprehensive review of fire and life safety 
systems in all legislative buildings. The OOC inspection of the 
Jefferson Building in 2000 revealed serious life-threatening hazards 
pertaining to unenclosed stairwells and unprotected exit pathways that 
would expose school children, staff, and visitors to smoke and toxic 
gasses in the event of a fire. While developing a plan to abate the 
identified hazards, the AOC hired outside consultants, including Gage-
Babcock & Associates, to evaluate egress from the building. The 
resulting studies led the AOC to conclude that adequate egress could 
best be achieved by adding additional stairwells rather than merely 
enclosing existing exit stairwells and pathways. The AOC's plan for the 
Jefferson Building is acceptable to the OOC because, not only does it 
address the problems posed by unenclosed stairwells and exposed exit 
pathways, but it greatly improves egress throughout the building.
---------------------------------------------------------------------------
    \2\ In March 1998, a fire in the O'Neill Building (no longer in 
existence) sent sixteen Capitol Police officers to the hospital for 
treatment. In April 1998, seven Capitol Police officers were overcome 
by smoke while attempting to put out a fire in Longworth. In May 1998, 
a grease fire in the Longworth food court sent three kitchen workers to 
the hospital for treatment. In July 1998, Ford and Hart were both 
evacuated because of smoke. An April 1999 electrical fire in the 
Library of Congress' Madison Building seriously injured one employee, 
and required evacuation of the entire building.
---------------------------------------------------------------------------
    In assessing alternatives, the OOC and the AOC have been 
particularly concerned about the inadequate egress for the House Page 
School located in the building's attic. The proposed new stairwell for 
the House Page School is the least expensive of those being proposed 
for the building.
    The Need for Safe Egress.--While sprinklers, smoke detectors, and 
trained staff can provide more time for occupants to evacuate a 
building, buildings with these features still must provide safe egress 
to keep occupants out of danger. As noted in the NFPA Fire Protection 
Handbook, p. 4-65(2003): ``Under no condition can manual or automatic 
fire suppression be accepted as a substitute for the provision and 
maintenance of a proper means of egress.'' Improving egress for fire 
safety also improves egress during other types of emergencies 
(including attacks on the Capitol). The Capitol Hill campus is known to 
be a prime target for an attack. National Commission on Terrorist 
Attacks on the United States, The 9/11 Commission Report (New York: 
W.W. Norton, 2004). Ensuring the safety of the nation's leaders during 
a time of national emergency is a paramount national security concern. 
Id. Buildings need to have better egress when evacuation takes longer 
due to congestion, confusion, and slower walking speeds because they 
contain public assemblies, strollers and wheelchairs, young visitors 
unfamiliar with the layout, and occupants over the age of 65. NFPA Fire 
Protection Handbook, pp. 4-58--4-59, 13-64 (2003).
    Sprinklers.--Sprinkler systems do not prevent fires but help 
control fires after they occur. NFPA, Fire Protection Handbook, p. 13-
56 (2003). Fires often start in utility closets, electrical cabinets 
and other locations that do not contain sprinklers. NFPA, Fire 
Protection Handbook, p. 13-52 (2003). Sprinklers do not control fires 
that start in locations outside of the water distribution pattern due 
to obstructions (such as under desks and tables). NFPA, Fire Protection 
Handbook, p. 10-201 (2003). Fire risk in a building is determined by 
the ``fire load'' or ``fuel load,'' which measures the amount of 
combustible material in the building. NFPA, Fire Protection Handbook, 
p. 2-42 (2003). Buildings that contain tons of paper and wooden 
furnishings have larger fire loads than many industrial buildings. 
NFPA, Fire Protection Handbook, p. 6-347 (2003); Robert J. Fischer and 
Gion Green, Introduction to Security, p. 216 (7th ed. 2004). 
Combustible materials, like paper, store heat and act like ovens during 
fires even if there is no ignition. Robert J. Fischer and Gion Green, 
Introduction to Security, p. 216 (7th ed. 2004). Sufficient heat can be 
generated by un-ignited combustible material to destroy everything 
inside a building. Robert J. Fischer and Gion Green, Introduction to 
Security, p. 216 (7th ed. 2004).
    Smoke Detectors.--While smoke detectors can alert occupants to the 
presence of smoke, these devices do not eliminate the dangers posed by 
smoke, heat, toxic gas, explosion and panic. Smoke, heat, toxic gas, 
explosion and panic are more frequent killers during fires than flames. 
NFPA, Fire Protection Handbook, p. 2-42 (2003). ``Best estimates are 
that two-thirds of all fatal injuries in fires are due to smoke 
inhalation, possibly in combination with other fire effects, with more 
than half of such deaths attributable to smoke inhalation alone.'' John 
R. Hall, ``Burns, Toxic Gases and Other Fire-Like Hazards in Non-Fire 
Situations,'' p. 2 (NFPA 2004). During a fire, un-ignited combustible 
materials generate smoke. Fire Protection Handbook, p. 8-23 (2003). 
Smoke can reduce visibility to zero within 2 minutes of a fire's 
ignition. A test subject was unable to find a stairway located less 
than 2 feet away. Robert J. Fischer and Gion Green, Introduction to 
Security, p. 218 (7th ed. 2004). The danger of unenclosed stairways is 
that, without floor-to-floor separations, smoke and fire can easily 
spread from the floor of origin to other areas of the building, thereby 
increasing the risk of disability and death due to obscured visibility, 
asphyxiation, and panic. NFPA, Fire Protection Handbook, p. 12-99 
(2003). By providing isolation from smoke, fumes, and flames, enclosed 
stairways also provide safe egress that minimizes the risk of panic. 
The risk of panic is greater in buildings such as the Jefferson 
Building which contain frequent assemblies and many visitors unfamiliar 
with its layout and evacuation plans. NFPA, Fire Protection Handbook, 
p. 13-36 (2003).
    Capitol Police.--Trained personnel, such as members of the Capitol 
Police, can provide valuable assistance to occupants during a time of 
fire or other emergency. Panic can easily erupt in facilities such as 
the Jefferson Building, which receive frequent visitors who are 
unfamiliar with the building's layout and evacuation procedures. 
Trained personnel can help instill calm by providing direction and 
assistance as needed. Providing trained personnel, however, is not a 
substitute for providing a safe method of egress.
    Fire safety is still a serious problem that must be continually 
addressed on the Capitol Hill campus. There have been at least 48 fires 
in Capitol Hill buildings since 1985. A list of these fires has been 
included in the accompanying Appendix A. There have been 22 fires since 
2000.
     appendix a.--identified capitol complex fires; 1985 to present
    The Office of Compliance has identified the following fire events 
as having occurred within the Capitol Complex between 1985 and 2009. 
This list has been reviewed by the AOC for accuracy.
                    (in reverse chronological order)
    Date: 4/26/2009
    Facility: DSOB
    Location: Northeast corner Generator Room
    Description: Generator Fire

    Date: 1/27/2009
    Facility: Madison Building
    Location: Conservation Lab
    Description: Trash can fire

    Date: 9/6/2008
    Facility: Capitol Power Plant
    Location: West Refrigeration Bldg.
    Description: Arc Flash Explosion and fire (localized to a capacitor 
cabinet) destroyed electrical equipment; plant evacuated; D.C. Fire 
Dept. called to scene.

    Date: xx/xx/2008
    Facility: Capitol Power Plant
    Location: (unspecified)
    Description: Electrical circuit fire to a chilled water pump; 
damage minimal.

    Date: 4/7/2008
    Facility: House Page Dorm Bldg.
    Location: Laundry room
    Description: Electrical fire; building evacuated; one USCP officer 
suffered smoke inhalation and was transported to hospital (treated and 
released).

    Date: 11/2/2007
    Facility: DSOB
    Location: Restroom
    Description: Building evacuated.

    Date: 10/31/2007
    Facility: DSOB and HSOB
    Location: Dirksen basement stairway
    Description: Buildings evacuated.

    Date: 10/3/2007
    Facility: DSOB and HSOB
    Location(s): Various women's restrooms
    Description: Four separate suspicious fires in women's restrooms (3 
fires in Dirksen and 1 in Hart). Fires extinguished by USCP.

    Date: 9/28/2007
    Facility: HSOB
    Location: Women's restroom
    Description: Suspicious fire (presumed arson). Fire extinguished by 
USCP.

    Date: 9/26/2007
    Facility: HSOB
    Location: Women's restroom
    Description: Suspicious fire (presumed arson). Fire extinguished by 
USCP.

    Date: 2/27/2007
    Facility: LHOB
    Location: Credit union
    Description: Small computer fire.

    Date: 11/07/2005
    Facility: Jefferson Bldg
    Location: Stack control room
    Description: Electrical transformer fire.

    Date: 10/8/2005
    Facility: Power Plant
    Location: (unspecified)
    Description: Electrical substation explosion and fire; near total 
loss of affected equipment; shut down of power plant for several hours.

    Date: 06/09/2005
    Facility: RHOB
    Location: Concealed pipe chase
    Description: Smoldering fire in concealed pipe chase caused by hot 
work on roof; building evacuated; minimal damage and no injuries.

    Date: 5/11/2005
    Facility: Capitol
    Location: Office (unspecified)
    Description: Fire in office space (localized); believed to have 
been caused by smoking materials.

    Date: 1/6/2005
    Facility: Capitol
    Location: Office (unspecified)
    Description: Fireplace improperly lit; extensive smoke migration 
throughout building; temporary evacuation of the building. DCFD called 
to scene for investigation and smoke removal.

    Date: 10/13/2004
    Facility: RHOB
    Location: Sub-basement
    Description: Fire in corridor (cause believed to be smoking 
materials) with extension to three storage rooms; facility evacuated; 
dense smoke conditions reported; two USCP officers treated for smoke 
inhalation at the scene.

    Date: 07/06/2003
    Facility: RSOB
    Location: Exterior transformer vault
    Description: Significant electrical fire atop transformer.

    Date: 1/24/2003
    Facility: Madison Bldg
    Location: 7th Floor
    Description: HVAC filters caught fire; building evacuated for 
hours; smoke accumulation in remote locations throughout building (due 
to HVAC involvement).

    Date: 6/29/2002
    Facility: Capitol
    Location: Ventilation system; 4th floor
    Description: Electrical motor fire; complete building evacuation; 
burning oil created dense smoke conditions that spread through the 
ductwork to other parts of the Capitol. Fire extinguisher used to put 
out fire.

    Date: 5/9/2001
    Facility: RHOB
    Location: Member's office
    Description: Fire caused by lit candles in bathroom. Building 
evacuated for several hours during the incident. Minor damage to the 
bathroom.

    Date: 6/20/2002
    Facility: Jefferson Bldg
    Location: Elevator mechanical room
    Description: Electrical fire; moderate damage.

    Date: 9/1/2000
    Facility: DSOB
    Location: Display case
    Description: Fire caused by defective light ballast; minimal damage 
and disruption.

    Date: 8/10/2000
    Facility: Capitol
    Location: Rotunda
    Description: Damage to statue and minor smoke throughout building; 
tours delayed several hours until smoke cleared.

    Date: 2/25/2000
    Facility: CHOB
    Location: Staff office
    Description: Total destruction of office; smoking materials 
believed to be cause of the fire.

    Date: 4/6/1999
    Facility: DSOB
    Location: Kitchen
    Description: Total loss of the involved cooking equipment and food 
materials. Food service area shut down for several days for repair and 
clean up.

    Date: 4/3/1999
    Facility: Madison Bldg
    Location: Substation A
    Description: Electrical explosion; two workers injured (one in 
critical condition); building evacuated.

    Date: 1/13/1999
    Facility: Capitol
    Location: West front steps and walkway
    Description: Incendiary device ignited by demonstrators.

    Date: 11/20/1998
    Facility: HSOB
    Location: Garage
    Description: Vehicle in garage caught fire; loss of vehicle was 
total; adjacent vehicles sustained moderate to severe damage. Building 
evacuated for several hours until incident was cleared and smoke was 
removed from the building's garage levels.

    Date: 7/29/1998
    Facility: CHOB
    Location: 4th floor
    Description: Fire incident to construction operations; damage to 
window area and adjacent office space.

    Date: 7/16/1998
    Facility: Ford HOB
    Location: Elevator machine room
    Description: Fire in elevator machine room; building evacuation; 
loss of elevator motor and elevator.

    Date: 5/14/1998
    Facility: LHOB
    Location: Sub-basement elevator machine room
    Description: Extensive smoke and water damage to area; several USCP 
officers injured by smoke.

    Date: 5/6/1998
    Facility: LHOB
    Location: Cafeteria kitchen
    Description: Grease fire; suppression system activated; food line 
shut down for the day for repair and clean up.

    Date: 4/23/1998
    Facility: LHOB
    Location: West elevator machine room on the sub-basement level
    Description: Developed fire in elevator machine room. USCP response 
officers attempted to extinguish--unsuccessful (fire ultimately 
controlled by D.C. Fire Dept). Ten USCP officers suffered smoke 
inhalation and received medical treatment. Smoke concentrations reached 
the top floor of the building.

    Date: 1/23/1998
    Facility: Botanic Garden's Administration Bldg
    Location: Office #115
    Description: Fire in office HVAC Equipment heating system (cause: 
fan coil unit's motor overheated).

    Date: 7/11/1997
    Facility: Madison Bldg
    Location: Loading dock
    Description: Fire began on dock with spread to nearby stored 
materials and trash compactor.

    Date: 5/2/1997
    Facility: HOB Annex I
    Location: Page Dorm
    Description: Total loss of room contents. Fire effects penetrated 
from 6th floor to 7th floor.

    Date: 3/27/1997
    Facility: HOB Annex I
    Location: Page Dorm; 3rd floor Page room
    Description: 50 percent loss in room (cause: portable electric fan 
on floor). Pages evacuated.

    Date: 1/13/1997
    Facility: Capitol
    Location: (unspecified)
    Description: Exterior fire (arson).

    Date: 9/27/1995
    Facility: CHOB
    Location: Basement mechanical equipment room
    Description: (not available).

    Date: 10/1/1994
    Facility: House warehouse
    Location: (unspecified)
    Description: Arson fire; loss estimated at $100,000 + artifacts.

    Date: 7/8/1992
    Facility: Jefferson Bldg
    Location: (unspecified)
    Description: Fire during renovation project (finishing materials 
used in the renovation project ignited).

    Date: 10/2/1990
    Facility: DSOB
    Location: 4th Floor trash cart
    Description: Smoke migration throughout building.

    Date: 7/29/1988
    Facility: CHOB
    Location: 4th floor office
    Description: Fire consumed part of office and window.

    Date: 5/6/1988
    Facility: LHOB
    Location: Speakers private office suite (2nd floor)
    Description: Electrical fire in kitchen and reception areas. 
Estimated damage $500,000. Required extensive restoration. Two USCP 
officers treated for smoke inhalation at the scene.
    (It is OOC's understanding that after this fire, the Congress 
directed the AOC to install fire alarms in all of the major Capitol 
Hill Buildings. Congress also established the House Select Committee on 
Fire Safety to investigate the condition of fire protection features in 
the House Office Buildings and Capitol.)

    Date: 5/5/1988
    Facility: LHOB
    Location: Cafeteria
    Description: Fire suppressed by fixed extinguishing system. Food 
line shut down for several days for repair and clean-up.

    Date: 5/29/1986
    Facility: Adams Bldg
    Location: 4th floor; corner room
    Description: Most materials and ceiling insulation in room 
destroyed. Heavy smoke conditions throughout the floor.

    Date: 2/28/1985
    Facility: RSOB
    Location: Senator's suite
    Description: Computer equipment fault resulting in fire.

    Question. How would you compare the OOC system of occupational 
safety and health inspections to the inspections done by OSHA in 
executive branch agencies?
    Answer. The table comparing the two systems should be responsive to 
this question. In addition, I would like to add that OOC inspections 
are very similar to ``wall to wall'' OSHA inspections. The inspection 
procedure used by the OOC is actually more ``agency friendly'' than 
OSHA's procedure because, unlike OSHA inspections which are almost 
always unannounced, OOC biennial inspections are only performed after 
notice of the inspection is provided to the employing offices. This 
practice provides the employing offices with an opportunity to inspect 
and correct any known hazards prior to an inspection--and many do.
    Question. How much do you rely on the Occupational Health and 
Safety Administration or other executive branch agencies to do your 
work? If you rely on a decision or opinion of OSHA or some other 
Executive branch office, is this allowed under the Congressional 
Accountability Act? Does OSHA itself conduct inspections in 
Congressional facilities?
    Answer. The OOC attempts to apply OSHA regulations as they are 
interpreted across the federal government and the private sector. OSHA 
also publishes directives and issues decisions interpreting its 
standards which provide useful guidance to the OOC's General Counsel in 
exercising his statutory authority under the CAA. OOC's hearing 
officers are also guided by judicial decisions interpreting OSHA as 
mandated by the CAA. 2 U.S.C.  1404(h). Currently, a detailee from the 
Department of Labor provides technical assistance and assists in 
supervising the inspectors; however, he reports directly to the General 
Counsel and is under his direct supervision. The other inspectors are 
either CAA employees or contractors. The CAA permits the Department of 
Labor to detail, upon request, personnel to the OOC as may be necessary 
to advise and assist the OOC in carrying out its OSHA-related duties 
under the CAA. 2 U.S.C.  1341(e)(4).
    As indicated in the OOC's fiscal year 2010 budget request, the 
detailee from the Department of Labor (OSHA) is scheduled to retire 
during the current fiscal year and OSHA has indicated that it cannot 
furnish a comparable or similar replacement detailee. See, OOC, Budget 
Justification Request for the Committee on Appropriations, p. 13 
(fiscal year 2010). The fiscal year 2010 budget proposal has requested 
funding to replace this vital employee.
    Congress did not adopt the substantive occupational safety and 
health regulations that were proposed by the OOC in 1996. The CAA 
requires that any regulations issued by the OOC be the same as 
substantive regulations promulgated by the Secretary of Labor except to 
the extent that a modification of such regulations would be more 
effective for the implementation of the rights and protections under 
CAA  215. See 2 U.S.C.  1341(d)(2). With respect to any OOC 
proceeding, if no regulations are issued, the CAA requires the OOC to 
apply ``the most relevant substantive executive agency regulation 
promulgated to implement the statutory provision at issue in the 
proceeding.'' See 2 U.S.C.  1411. These provisions suggest that the 
OOC can properly consider decisions and opinions from OSHA when 
interpreting the safety and health provisions of the CAA.
    The OOC is also in the process of developing regulations that will 
be consistent with the current OSHA regulations and will include the 
same requirements now followed by OGC during its biennial inspections.
    OSHA will inspect Congressional facilities only with respect to a 
private contractor performing services on the campus. To the best of 
the OOC's knowledge, OSHA has conducted inspections only in response to 
complaints regarding private contractors performing services on the 
campus.
    Question. How do you see your responsibilities and role vis-a-vis 
safety professionals in the employing offices? Do you give their own 
OSH inspections any credit or deference when deciding what needs 
inspection?
    Answer. The OOC's evaluation function includes examining the 
performance of safety initiatives and safety professionals in the 
employing offices. The OOC's ability to conduct this evaluation 
function has been somewhat hampered by the failure to incorporate the 
provisions of 29 U.S.C.  657(c) (relating to maintenance, preservation 
and availability of safety records) into the CAA \1\. The OOC's recent 
Section 102(b) Report to Congress (December 2008) proposes several 
legislative changes that would correct this problem proposes several 
legislative changes that would correct this problem by applying OSHA's 
recordkeeping and reporting requirements to the employing offices 
covered by the CAA. See OOC, Section 102(b) Report, p. 10 (December 
2008). Under the current statutory scheme, unlike the executive branch 
or private employers, employing offices are not required to make, keep, 
and preserve, or provide to the OOC records deemed necessary for 
enforcement of OSHAct Section 5, including records on work-related 
deaths, injuries and illnesses, and records of employee exposure to 
toxic materials and harmful physical agents. Similarly, under the 
current scheme, the OOC is unable to consider any inspection findings 
of safety professionals in the employing offices because employing 
offices do not share their inspection findings with the OOC. OOC 
inspectors are observing a decrease in the number of identified 
hazards, as well as increased educational efforts from the employing 
offices, but without inspection data from the employing offices 
signifying that they have adequately examined and removed OSH hazards 
from the workplace, the OOC must continue to do what is necessary to 
ensure a safe and healthy workplace for covered employees. In addition, 
neither the AOC nor any other covered employing office provides the OOC 
with injury and illness records that are necessary for strategically 
determining what areas should be inspected more regularly or provided 
more technical assistance. This information is not required as part of 
the CAA, and without it, the OOC depends on its biennial inspections to 
provide information regarding safety and health conditions to Congress.
    Even with these limitations, the OOC works cooperatively with 
safety professionals in the employing offices to improve conditions in 
those offices and also facilitates compliance by providing technical 
assistance and educational opportunities to these individuals. Some 
employing offices have decided to rely exclusively upon OOC inspections 
rather than having their own safety professionals conduct comprehensive 
inspections. In other cases, when necessary and practical, the OOC has 
also brought safety professionals together with other stakeholders to 
coordinate and develop solutions to safety concerns that are acceptable 
to all concerned.
    The OOC is in the process of conducting its next full-scale 
inspection of covered facilities. The 111th Congress Inspection is 
crucial to developing a strategy for future inspections because it 
provides the OOC with three independent data sets to form the 
beginnings of a trend analysis. The OOC had a picture from the data 
garnered from the 109th Congress Inspection, and utilized the 110th 
Congress Inspection data to begin looking for trends. However, with the 
information from the 111th Congress, the OOC will be able to implement 
a more thorough trend analysis and focus future inspections more 
effectively upon the areas with greatest risk. This means that some 
areas may not be included in certain inspection cycles if previously 
identified hazards have been abated and the likelihood of recurrence is 
low. In other words, provided the data supports it, the trend analysis 
would allow OOC to sample areas randomly to determine that hazards are 
not being created rather than actually inspecting every administrative 
space and office on campus. By doing so, the OOC will be able to devote 
more resources to reviewing employing office safety and health 
programs, to focusing inspections on high risk work areas and 
procedures, to developing new educational materials, and to providing 
more detailed technical assistance.
    Question. By what criteria does your office decide to issue a 
citation or a complaint? Do you or your deputies review each of these 
citations before they are issued?
    Answer. Criteria and Process Used to Issue a Citation.--If the 
safety and health specialist and attorney assigned to evaluate a 
certain finding believe that a citation should be issued, they prepare 
a report and make recommendations to the General Counsel. In 
formulating their recommendations, they often consult outside 
specialists at OSHA, GSA, NIOSH or other entities with expertise in the 
subject matter. The General Counsel reviews each and every report 
submitted and makes an independent determination as to whether a 
citation should issue. A citation is only issued if the hazard is 
particularly serious or creates an imminent risk to legislative branch 
employees or the public; when the hazard constitutes a ``repeat'' or 
similar or related violation of the type found in past inspections or 
which a broad, systematic remedy may be required; when an employing 
office fails to take appropriate and timely steps to correct a hazard; 
or when it is otherwise necessary to effectuate the purposes of the 
occupational safety and health laws.
    Communication of Process to Employing Offices.--The processes 
followed by the General Counsel's office with respect to the issuance 
of citations are well documented. This information has been previously 
communicated both in writing and in face-to-face conversations with 
employing offices. For example, Biennial Report on Occupational Safety 
and Health Inspections for the 108th Congress, pp. 7-11 (October 2005); 
Biennial Report on Occupational Safety and Health Inspections for the 
108th Congress, pp. 4-5 (April 2008). See also, letter to Terrell G. 
Dorn, P.E. from Peter Ames Eveleth, April 21, 2008, describing our 
citation processes (previously provided to the Committee, most recently 
on February 3, 2009). The General Counsel issues citations only 
infrequently, 67 in the 13-year history of this Office. Moreover, only 
a single complaint has been filed--that challenging the AOC's failure 
to abate long-standing, life-threatening safety and health hazards in 
the Capitol Power Plant utility tunnels. In contrast, during that 
period, many thousands of hazards have been identified in the hazard 
findings reports issued to the employing offices by the OGC following 
the inspection of each facility without issuance of a citation--13,140 
in the 109th Congress biennial inspection and 9,336 in the 110th 
Congress inspection. The responsible employing office's obligation to 
abate any hazard identified by the General Counsel applies whether or 
not a citation has been issued.
    No Routine Issuance of Citations.--Both OSHA and the OOC's General 
Counsel are required to issue citations for every serious hazard 
identified by inspections. Unlike OSHA, which immediately issues a 
citation and imposes monetary penalties for every serious hazard 
identified by its inspections, the General Counsel only issues 
citations when less formal, non-adversarial means have failed to abate 
a hazard. The General Counsel notifies the employing offices of hazards 
requiring abatement rather than routinely issuing citations. Given the 
vast number of hazards discovered during inspections, the General 
Counsel has determined that this procedure achieves more expeditious 
and voluntary abatement of hazards. The decision to issue a formal 
citation or to follow a more informal process lies within the statutory 
discretion of the General Counsel.
    Only One Complaint Has Ever Been Issued.--As indicated previously, 
only one complaint has been issued in the history of the OOC. This was 
issued due to the AOC's failure to abate long-standing, life-
threatening safety and health hazards in the Capitol Power Plant 
utility tunnels. A complaint will only be issued when little or no 
effort has been made to abate similar long-standing, life-threatening 
safety and health hazards.
    Question. Does the risk assessment code that you give to an OSH 
matter, such as those highlighting possibly deficient egress points in 
a building, include a consideration of the cost and difficulty of 
corrections and possible disruptions to a building's occupants? How 
might a risk-based analysis of safety citations affect your work?
    Answer. The risk assessment code (RAC), developed and applied by 
OOC inspectors working cooperatively with the AOC, is in fact a risk-
based analysis of safety hazards based upon the degree of harm and 
probability of occurrence. The employing or correcting office 
determines how to abate the hazard and takes into account cost, 
disruption of operations, and historical consistencies. The role of the 
OOC is to determine whether the abatement options proposed by the 
offices are adequate and timely.
    As noted earlier, the OOC's primary function is to provide an 
objective evaluation of the hazards found in legislative branch 
buildings and to provide technical assistance to employing offices when 
solutions are being considered. The employing offices customarily 
consider the cost and difficulty of corrections and possible 
disruptions to a building's occupants when evaluating and proposing 
different abatement options.
    The risk assessment codes (RACs), which the OOC began to use in 
coordination with the Architect of the Capitol's Director of Safety, 
Fire and Environmental Programs, are a version of the RACs used by the 
Department of Defense. These codes do not include costs or disruptions 
in operations. They have been established to reflect the relative risk, 
viewed as a combination of the likelihood of an exposure to a hazard 
and the severity of the resulting injury or illness.
    The Department of Defense Instruction, DOD Safety and Occupational 
Health Program, DODI 6055.1, August 19, 1998, uses the RAC in 
conjunction with a Cost Effectiveness Index (CEI) to determine an 
Abatement Priority Number (APN). The CEI is the cost of correction 
divided by an effectiveness index, which has been derived from an 
analysis of DOD accident experience. In the Department of Defense, the 
APN is used to establish the priority of the funding for abatement 
projects. That accounts for the risk, the cost and the effectiveness of 
the proposed abatement plan.
    To the best of the OOC's knowledge, none of the employing offices 
covered by the CAA uses the APN system to prioritize based upon cost 
effectiveness. In its fiscal year 2010 budget request, the OOC has 
requested funding for a Compliance Officer who would be able to help 
the employing offices establish cost-effective abatement measures. See, 
OOC, Budget Justification Request for the Committee on Appropriations, 
p. 13 (fiscal year 2010). In addition, the OOC's recent Section 102(b) 
Report to Congress (December 2008) proposes several legislative changes 
that might assist in determining relative abatement priorities. These 
changes involve adoption of OSHA's record keeping and reporting 
requirements regarding accident experience. See OOC, Section 102(b) 
Report, p. 10 (December 2008). Effective abatement priorities cannot be 
determined without information about accident experience.
    Question. Do you give priority to facilities that may be lacking 
certain safety features, such as fire sprinklers, or having a greater 
number of occupants exposed to safety issues?
    Answer. Yes. The OOC, in conjunction with the AOC, prioritizes the 
safety hazards in and among facilities by taking into consideration the 
existence of safety features such as automatic fire suppression systems 
and building occupancy rates. For instance, in deciding whether a 
building's egress deficiencies would merit the issuance of a citation, 
the OOC's General Counsel would consider the number of occupants in the 
building when determining whether the hazard was so serious as to 
require a citation.
    Question. Does your office consider whether corrections that a 
citation lists may be spaced over time so that the impacts of the 
corrections on occupants and budgets may be minimized?
    Answer. Yes. The Office of Compliance already works with the AOC in 
a flexible manner to ensure that its abatement efforts are focused on 
the highest risks, i.e., the fire and life safety hazards that the 
Office identified in the U.S. Capitol, Senate and House Office 
Buildings, and Library of Congress Buildings. The OOC identified these 
hazards in 2000 and 2001; they are the subject of open Citations 16-19 
and 29-30.
    We recognize that abating these citations presents many challenges. 
The projects are designed to correct critical safety and health hazards 
that confront Members, employees and visitors. The buildings affected 
are historic structures with powerful symbolic importance that must 
simultaneously accommodate ongoing legislative work, supporting 
services, and visitor access. And, of course, securing adequate funding 
given many competing demands is always a knotty problem. These factors 
complicate the OOC's already-difficult task of evaluating the 
effectiveness of hazard abatement proposals offered by the AOC.
    The AOC's task is more challenging still. While, in this context, 
the OOC is charged ``only'' with enforcing the safety and health 
protections of the Congressional Accountability Act, the AOC also must 
consider other priorities: building maintenance, historic preservation, 
initiatives such as ``Green the Capitol,'' and many more.
    In light of these many important and sometimes-conflicting 
missions, our Office has commenced a comprehensive risk analysis. We 
are working closely with the AOC to identify projects where temporary 
adjustments can minimize life safety risks until permanent structural 
corrections can be made. Together, our offices have begun by 
pinpointing interim measures for the House Page School in the Thomas 
Jefferson Building. Those measures are designed to ensure that students 
and faculty have evacuation routes that minimize the risk of injury 
until an enclosed exit stairway is constructed. We will continue to 
work with the AOC to identify other infrastructure hazards whose risks 
can be reduced by interim abatement measures.
    We are also examining AOC's fire prevention programs, which include 
the installation of sprinklers in legislative branch facilities. Fire 
prevention is particularly important in historic structures, where 
repair or replacement is difficult if not impossible. These programs 
reduce but cannot eliminate the risk that a fire may occur. 
Accordingly, to protect lives, it is essential permanently to correct 
hazards such as inadequate exit capacity, stairways not protected from 
fire and smoke infiltration and the like.
    Effective interim measures may not be feasible in every facility. 
Even the best fire prevention programs cannot guarantee safe evacuation 
from a structurally-deficient building. Significant, permanent 
alterations to existing facilities will be required in order to ensure 
that Capitol Complex occupants may escape a fire safely. No credible 
risk analysis can overlook these facts. We look forward to continued 
cooperation with the AOC and other stakeholders to develop an analysis 
that accounts for these and all other relevant concerns.
    We are hopeful that the AOC-OOC risk analysis will be complete by 
September 1, 2009. Thereafter, the AOC and the OOC look forward to 
presenting that analysis to the Senate and House Appropriations 
Subcommittees, as well as to our oversight Committees. Our goal is to 
provide this and other Committees with the information necessary to 
ensure that funding is directed toward the highest risks.
    Question. Your Board adopted OSH standards in January 1997. Are 
these the standards that your office applies when you decide to issue a 
notice of deficiency or a citation? What is the difference between 
notices of deficiency and citations? Do you hear or review the 
employing office's responses contesting the merits of these findings? 
If not you, who, may review these responses? If the response describes 
a matter that boils down to a difference of opinion or judgment, what 
deference do you give to the thoughts of the employing office 
representatives? Is there a way for an employing office to appeal to a 
higher authority such as a neutral expert or the OOC Board?
    Answer. The OOC goes to great lengths to ``get it right.'' It 
provides multiple opportunities for employing offices to provide 
information, opinions, suggestions, and criticisms.
    Deficiency Notices.--Congress did not adopt the OSH regulations 
proposed by the OOC Board. The OOC does not issue so-called ``notices 
of deficiency.'' If an imminent danger is discovered during an 
inspection the OOC issues a ``Notice of Serious Deficiency.'' The 
Notice of Serious Deficiency requires the responsible office to abate 
the hazard within 24 hours; the AOC routinely complies with such a 
Notice and abates the hazard accordingly. If the hazard does not 
present so immediate a threat, the OOC instead includes it in the list 
of hazard ``findings'' that are included in the final inspection report 
forwarded to the employing office. This procedure allows employing 
offices to develop a plan voluntarily to abate the hazard. The vast 
majority of hazards are abated using this procedure.
    Consideration of Employing Offices' Responses.--As noted earlier, 
the OGC initially allows employing offices to contest any hazard 
finding found during a Biennial Inspection. Every cover letter sent 
with the OOC's Hazard Summary Report includes information regarding how 
to contest the finding. If there is a dispute over a finding, for 
whatever reason, an employing office can appeal to the General Counsel 
for review. The General Counsel will respond in writing to the 
employing office and inform them that the hazard has been marked as 
abated, removed from the list of identified hazards, or remains open 
because the General Counsel has determined that there is sufficient 
justification for the finding.
    The General Counsel will also afford the employing office an 
opportunity to set forth its position on the merits of a hazard 
finding, in writing or face-to-face, if he is considering whether to 
issue a citation. Even after the citation is issued, the employing 
office is given the opportunity to present additional information to 
the General Counsel. The General Counsel gives significant 
consideration to the information presented by employing offices. A 
typical citation contains the following language:

    ``Informal Conference.--At the request of the affected employing 
office, employee, or representative of employees, the General Counsel 
may hold an informal conference for the purpose of discussing any 
issues raised by an inspection, citation, or notice, including the 
abatement date. If you decide to request an informal conference, please 
mail or fax the request to the General Counsel within 10 working days 
of your receipt of this Citation. See Office of Compliance Rules of 
Procedure, 4.15.
    ``During such an informal conference, you may present any evidence 
or views which you believe would support an adjustment to the citation. 
Be sure to bring to the conference any and all supporting documentation 
of existing conditions as well as any abatement steps taken thus far.''

    Citations.--Under the CAA, the OOC's General Counsel has the 
authority to issue a citation to any employing office responsible for 
correcting an OSH violation. 2 U.S.C. section 1341(c)(2). The ``history 
factor,'' that is, whether the hazard constitutes a ``repeat'' or 
similar/related violation of a type found in past inspections, is one 
of several factors taken into account in deciding whether to issue a 
citation. Other factors that the General Counsel considers include 
whether the identified hazard is particularly serious, or creates an 
imminent risk to legislative branch employees or the public; whether a 
broad, systemic remedy may be required; whether an employing office 
fails to cooperate in an investigation or to take appropriate and 
timely steps to correct a hazard; or whether the General Counsel 
determines it is otherwise necessary to effectuate the purposes of the 
occupational safety and health laws. These criteria were published in 
the General Counsel's Biennial Report on Occupational Safety and Health 
Inspections for both the 108th Congress (issued October 2005, pp. 10-
11) and 109th Congress (issued April 2008, pp. 4-6).
    Appeal Procedure.--While the CAA does not contain an appeal 
procedure allowing review of the General Counsel's discretionary 
decision to issue a citation or a complaint [2 U.S.C.  1341(b)(2) and 
(3)], nevertheless, as indicated previously, employing offices are 
provided with multiple opportunities, both before and after a citation 
is issued, to respond by presenting information and evidence to the 
General Counsel for consideration. In addition to these informal 
procedures, the CAA provides a formal procedure in the event that a 
citation is elevated to a complaint. An independent hearing officer has 
the authority to decide whether a complaint issued by the General 
Counsel has any merit. See 2 U.S.C.  1341(c)(3) and 2 U.S.C.  
1405(g). The hearing officer's decision can be appealed to the OOC 
Board. 2 U.S.C.  1406.
    Variance Requests.--An employing office can also request from the 
Board an order granting a variance from a standard being applied. See 2 
U.S.C.  1341(c)(4). The Board's final decision is subject to judicial 
review if a party is aggrieved by the decision. 2 U.S.C.  1341(c)(5).
    Question. If a citation ends up in the issuance of a complaint, do 
you have access to OSHA experts to serve as hearing officers to judge 
whether the citation must be obeyed?
    Answer. Yes. In the only complaint that has been issued in the 
history of the OOC, an OSHA expert was contracted to hear the case, but 
the case was resolved through a comprehensive settlement agreement 
reached by the parties. I am in the process of developing a master list 
of experts in technical matters relating to occupational safety and 
health matters to serve as hearing officers.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                          BIENNIAL INSPECTIONS

    Question. The Office of Compliance conducts biennial inspections of 
the Capitol complex. I understand that there are over 9,000 findings in 
the draft report for the 110th Congress biennial inspection. What are 
the most serious deficiencies which have been identified? To what 
extent have these deficiencies been identified in prior inspections? 
Does it make sense to continue to conduct full-scale biennial 
inspections, now that the OOC has conducted major campus-wide 
inspections for the past three Congresses? What is the cost of 
conducting a biennial inspection?
    Answer: Most Serious Deficiencies Identified.--During the 110th 
Congress Biennial Inspection, the OOC inspection team identified 19 
extremely serious safety violations--those classified as Risk 
Assessment Code (RAC) 1 hazards--the most dangerous category. Those 
deficiencies included unenclosed stairwells, penetrations in fire 
barriers, unrated or under-rated fire doors, and other obstructions 
exposing evacuating employees and visitors to toxic smoke and gasses; 
deficient emergency notification systems; and failure to provide 
effective fall protection. Nearly 2,000 other findings were classified 
as RAC 2 violations. These findings involved (1) damaged or 
deteriorating transite boards \3\ (exposing employees and visitors to 
asbestos fibers); (2) missing, damaged or defective covers, outlets, 
switches, electrical cords, electrical panels, and plugs (causing risk 
of electrical shock and fire); (3) lack of effective emergency 
lighting; and (4) defective or missing machine guards.
---------------------------------------------------------------------------
    \3\ A building material used in flooring composed of cement and 
asbestos that becomes friable when broken.
---------------------------------------------------------------------------
    Extent that Deficiencies were Identified Previously.--Approximately 
90 percent of the RAC 1 hazards identified during the 110th Congress 
inspection were attributable to previously identified hazards that 
remained unabated. Between 1,200 and 1,600 of the RAC 2 hazards are 
related to previously identified hazards, which occur when an employing 
office abated an identified hazard, but did not address its cause. For 
example, in response to a hazard finding, the employing office may have 
encapsulated asbestos from broken transite boards without removing the 
transite boards themselves. As employees continue to roll heavy carts 
over these boards, additional cracks develop and more of the asbestos 
becomes friable (causing further exposure to employees). While the 
previously identified hazard may have been abated, the cause of the 
exposure remains unaddressed and exposure to the hazardous substance 
continues. Other ``new'' hazards may be similar to previously 
identified hazards. For example, a GFCI outlet added to a circuit to 
abate a previously identified hazard may be found to be nonfunctional 
during a subsequent inspection.
    The Need for Major Campus-Wide Inspections.--There is still a need 
to conduct biennial inspections, but the OOC intends to limit the scope 
and scale of these inspections in future Congresses.
    Comprehensive campus-wide inspections have only occurred during the 
past two Congresses. The Office of Compliance has just begun its third 
full-scale, wall-to-wall inspection of the Capitol complex. With the 
completion of this third inspection, there will exist three independent 
sets of data that will enable the OOC to conduct a trend analysis of 
safety and health conditions in the legislative branch. Such an 
analysis will allow the OOC to determine where progress is being made, 
what requires closer attention, etc. Further, in jurisdictions where 
adequate OSH Act mandated safety programs and procedures are in place 
to protect workers, the risk of serious illness or injuries and, 
consequently, the necessity for frequent inspections may be 
substantially reduced as well. Such a risk-based approach will result 
in more targeted deployment of inspector resources, whether in the 
nature of the more focused inspections to ascertain the root causes of 
repeat hazards or the provision of technical and educational assistance 
to employing offices. Future inspections can be more effectively 
concentrated on areas presenting the greatest potential risk of 
illness, death or injury. Some areas may not have to be inspected 
during each inspection cycle, if previously identified hazards have 
been abated and the likelihood of recurrence is low. Other high hazard 
areas may necessitate more frequent inspections to assure abatement has 
been promptly accomplished. This is particularly important where the 
continued existence of a hazard may contribute to the creation or 
exacerbation of a fire hazard in a facility that lacks protected 
evacuation routes or sufficient egress capacity in the event of a fire. 
If the data support it, the OOC may not need to inspect every 
administrative space and office on campus, but rather random sampling 
may be sufficient to ascertain whether or not new hazards are being 
created or old hazards repeated. This will permit the OOC to devote 
more resources to reviewing employing office safety and health 
programs, focusing inspections on high risk work areas and procedures, 
developing new educational materials, and providing more in-depth 
technical assistance. In making these determinations, it is important 
that employing offices make, keep and preserve, and provide to the OOC, 
data which will be needed to develop information regarding the causes 
and prevention of occupational injuries and illnesses, an OSH Act 
requirement, 29 U.S.C. 657(c), applicable to the private sector and 
executive branch agencies, but not required under the Congressional 
Accountability Act.
    The OOC currently lacks sufficient financial resources and 
necessary statutory authority to fully track and verify abatement 
information provided by employing offices and then target its 
inspections accordingly. In its fiscal year 2010 budget request, the 
OOC has requested funding for a Compliance Officer who would be able to 
assist in the development and implementation of such a system. See, 
OOC, Budget Justification Request for the Committee on Appropriations, 
p. 13 (fiscal year 2010). The OOC's recent Section 102(b) Report to 
Congress (December 2008) proposes several legislative changes that 
would assist in the development of a targeted inspection system. These 
changes involve adoption of OSHA's record keeping and reporting 
requirements. See OOC, Section 102(b) Report, p. 10 (December 2008).
    The OOC has informed employing offices that future inspections will 
include a review of the written safety and health programs required by 
the OSH Act. Due to the number of hazard findings identified in each of 
the last two Congresses, the OOC believes that many of these hazards 
could be prevented if needed safety programs were operational in the 
legislative branch. The inspection team has observed many hazards 
attributable to the lack of effective OSHA-mandated safety and health 
programs. Similar hazards recur because employees lack a clear 
understanding of what the OSHA regulations require of them. We hope 
that employing offices will cooperate by furnishing information 
regarding their written safety and health programs. However, as noted, 
if the CAA were amended as proposed in our Section 102(b) Report, the 
OOC would have access to injury and illness records that we could use 
to determine whether existing programs are effective in reducing 
injury, illness, and accident rates as well as a substantially savings 
in worker compensation and other associated costs.\4\
---------------------------------------------------------------------------
    \4\ During fiscal year 2008, the OOC commenced a study of injury 
rates and associated costs in employing offices in the legislative 
branch based upon limited injury rate data available from the Office of 
Worker Compensation Programs. The Library of Congress, the first office 
reviewed, implemented safety programs that appeared to contribute to 
lowering the number of new injuries occurring over the last 7 years. 
From the preliminary information available to this office, it appears 
that the LOC achieved significant cost avoidance--in excess of $11 
million--during this period that otherwise would have been incurred but 
for that agency's efforts to reduce lost time injuries. See Office of 
Compliance, Fiscal Year 2008 Annual Report (March 2009), pp. 13-14.
---------------------------------------------------------------------------
    During the 111th Congress Biennial Inspection, the inspection team 
is finding fewer hazards as well as increased educational efforts by 
the employing offices. However, without data from the employing offices 
showing that they have adequately discovered and abated OSH hazards, 
the OOC must continue to do what is necessary to ensure a safe and 
healthy workplace for covered employees. In addition, as noted earlier, 
the employing offices do not provide the OOC--or perhaps may not make, 
keep or preserve--injury and illness records that would help us 
identify the most hazardous areas for more regular inspections and/or 
offers of technical assistance. Without this information, the OOC must 
rely upon its biennial and requestor-initiated inspections to provide 
information regarding workplace safety and building conditions in its 
biennial report to Congress. Without biennial inspections and the 
biennial report, Congress would not have the information required to 
exercise its oversight and appropriation functions.
    Finally, the biennial inspection schedule is a relatively 
inexpensive safety measure. Together with the safety measures 
implemented by the Architect of the Capitol in recent years, the 
biennial inspection allows continued and safer occupancy of buildings 
that have very serious fire and safety deficiencies. Due to the large 
costs involved in making building modifications that will provide 
protected egress in the event of a fire or other emergency condition, 
the OOC has worked closely with the AOC and other covered entities to 
implement some interim prevention and protection measures to reduce the 
level of risk to employees and visitors in these buildings with open 
unprotected stairwells and deficient egress capacity. Improving fire 
prevention is such a recognized interim measure. The biennial 
inspection schedule is an integral part of such interim protection 
because it permits periodic training of a continually changing 
workforce about emergency procedures and fire prevention measures being 
implemented in each building. Further, by removing hazards that 
contribute to the creation or spread of a fire, such as improper 
wiring, accumulation of paper and other fuel sources, penetration of 
fire walls, inadequate or damaged fire doors, and blockage of 
sprinklers, fire prevention is enhanced.
    Cost of Conducting a Biennial Inspection.--Most of the funds 
expended by the Office of the General Counsel are related to the 
biennial inspection process. The cost of conducting a biennial 
inspection is difficult to calculate with precision, given the multiple 
and overlapping elements of the process. We estimate that during fiscal 
year 2009, the OOC will spend roughly $1.4 million on the biennial 
inspection process.
    Two FTE's--one inspector and one management analyst--and three 
contractors are engaged in the inspection process. This process 
includes (1) inspection preparation, such as reviewing past inspection 
notes, hazard findings, condition assessments and abatement records; 
(2) scheduling and coordinating inspections with employing offices; (3) 
travel time; (4) physically inspecting over 17 million square feet of 
legislative branch facilities; (5) post-inspection data entry of 
inspection findings; (6) reviewing data for quality control; (7) 
preparing Hazard Findings Reports; (8) communicating with employing 
offices and the AOC about findings and proposed abatement dates; (9) 
reviewing and resolving disputes over any findings contested by 
employing offices; and (10) reviewing proposed abatement measures and 
abatement dates.
    In addition, an Administrative Assistant (FTE) and a contract 
clerical assistant are engaged nearly full time in inspection-related 
responsibilities. Three FTE attorneys also spend significant time on 
inspection-related work. Attorneys and inspectors provide technical 
assistance to employing offices concerning abatement measures, and the 
development and implementation of OSH-mandated safety programs and 
procedures. The attorney and inspection staff prepare statutorily-
required reports to Congress regarding the biennial inspections. 
Inspectors, attorneys, and support staff contribute to the preparation 
of these reports, including reviewing employing office comments on the 
draft reports in advance of publication. At least 70 percent of the 
General Counsel and Deputy General Counsel's efforts are related to OSH 
matters.
    The OOC spends funds on equipment used in the inspection, such as 
electrical testers, industrial hygiene equipment, door pressure gauges 
and slope meters. Maintaining the FMA database also requires the 
expenditure of funds.
    The value added from these inspections has been proven by the 
reduction in the number of identified hazards in the last 5 years. The 
number of hazards dropped by roughly 30 percent between the 109th and 
110th Congresses. Moreover, in the 111th Congress, the OOC is already 
observing a 75 percent reduction of hazards in Member offices compared 
to the 109th Congress. Because hazards tend to remain unabated absent 
oversight, we believe it unlikely that such reductions would have been 
achieved without our biennial inspections. Finally, as noted earlier, 
the biennial inspection schedule is a relatively inexpensive interim 
measure that substantially contributes to lowering the risk to 
occupants of facilities having serious fire and safety deficiencies.

                               CITATIONS

    Question. As you know, AOC puts the highest priority on funding for 
projects that have received a citation from the Office of Compliance. 
Are projects with citations necessarily those posing the highest risk 
to health and safety throughout Capitol facilities?
    Answer. Yes. The General Counsel issues a citation when there is a 
hazard posing a potentially high risk to health and safety. Citations 
are issued infrequently, 67 in the 13-year history of this Office, 
particularly given the large number of hazard findings issued during 
our biennial inspections. Moreover, only a single complaint has been 
filed--that challenging the AOC's failure to abate longstanding, life-
threatening safety and health hazards in the Capitol Power Plant 
utility tunnels. In contrast, during that period, the OGC has notified 
the employing offices of many thousands of hazards following the 
inspection of each facility--13,140 in the 109th Congress biennial 
inspection and 9,336 in the 110th Congress inspection--all without 
issuance of a citation.
    Both OSHA and the OOC's General Counsel are required to issue 
citations for every serious hazard identified by inspections. Unlike 
OSHA, which immediately issues a citation and imposes monetary 
penalties for every serious hazard identified by its inspections, the 
General Counsel only issues citations when less formal, non-adversarial 
means have failed to abate a hazard. The General Counsel notifies the 
employing offices of hazards requiring abatement rather than routinely 
issuing citations. Given the vast number of hazards discovered during 
inspections, the General Counsel has determined that this procedure 
achieves more expeditious and voluntary abatement of hazards. The 
decision to issue a formal citation or to follow a more informal 
process lies within the statutory discretion of the General Counsel.
    Question. I understand your office has been attempting to do more 
outreach to the AOC and work in a more cooperative manner. How does OOC 
decide whether to work with the AOC or issue a citation?
    Answer. The OOC goes to great lengths to ``get it right.'' It 
offers multiple opportunities for the AOC and other employing offices 
to provide information, opinions, suggestions, and criticisms. As 
indicated above, citations are not regularly issued. In fact, only one 
citation has been issued since December 2006. The OOC is continually 
exploring with the AOC and other offices creative ways to work more 
cooperatively. The OGC offers employing offices the opportunity to 
contest any hazard finding found during a biennial Inspection. Every 
cover letter sent with the OOC's Hazard Summary Report includes 
information regarding how to contest the finding. If there is a dispute 
over a finding, for whatever reason, an employing office can appeal to 
the General Counsel for review. The General Counsel responds in writing 
to the employing office and informs them that the hazard has been 
marked as abated, removed from the list of identified hazards, or 
remains open because the General Counsel has determined that there is 
sufficient justification for the finding.
    The General Counsel also affords the employing office an 
opportunity to set forth its position on the merits of a hazard 
finding, in writing or face-to-face, if he is considering whether to 
issue a citation. Even after the citation is issued, the employing 
office is given the opportunity to present additional information to 
the General Counsel. A typical citation contains the following 
language:

    ``Informal'' Conference.--At the request of the affected employing 
office, employee, or representative of employees, the General Counsel 
may hold an informal conference for the purpose of discussing any 
issues raised by an inspection, citation, or notice, including the 
abatement date. If you decide to request an informal conference, please 
mail or fax the request to the General Counsel within 10 working days 
of your receipt of this Citation. See Office of Compliance Rules of 
Procedure, 4.15.
    During such an informal conference, you may present any evidence or 
views which you believe would support an adjustment to the citation. Be 
sure to bring to the conference any and all supporting documentation of 
existing conditions as well as any abatement steps taken thus far.''

    As indicated above, the General Counsel will only issue a citation 
when the identified hazard is particularly serious or creates an 
imminent risk to legislative branch employees or the public; when the 
hazard constitutes a ``repeat'' or similar or related violation of the 
type found in past inspections or when a broad, systematic remedy may 
be required; when an employing office fails to take appropriate and 
timely steps to correct a hazard; or when he determines it is otherwise 
necessary to effectuate the purposes of the occupational safety and 
health laws.
    Question. Can OOC do more to work with AOC in a flexible manner--
without jeopardizing serious health and safety considerations--to 
ensure we fund those projects that are truly aimed at the highest 
risks?
    Answer. Yes. The Office of Compliance does work with the AOC, as 
well as other offices, in a flexible manner to ensure that its 
abatement efforts are focused on the highest risks, i.e., the fire and 
life safety hazards that the Office identified in the U.S. Capitol, 
Senate and House Office Buildings, and Library of Congress buildings. 
The OOC identified these hazards in 2000 and 2001; they are the subject 
of open Citations 16-19 and 29-30. The AOC historically has determined 
what to include in its budget request. It is the AOC that has set 
funding priorities among citation abatement projects. The OOC 
traditionally has not been involved in the AOC's process of setting 
priorities among those projects.
    At the request of staff from this Subcommittee and their 
counterparts in the House, the OOC and AOC recently have begun an 
effort to assess the relative risks posed by these open citations, with 
the goal of informing the process of setting funding priorities. We are 
working closely with the AOC to identify projects where temporary 
adjustments can minimize life safety risks until permanent structural 
corrections can be made. For example, our offices began by pinpointing 
interim measures for the House Page School in the attic of the Thomas 
Jefferson Building, which can be evacuated only via a spiral staircase. 
The interim measures are designed to ensure that students and faculty 
have evacuation routes that reduce the risk of injury until an enclosed 
exit stairway is constructed.
    We will continue to work with the AOC to identify other 
infrastructure hazards whose risks can be reduced by interim abatement 
measures. We are hopeful that the AOC-OOC risk analysis will be 
complete by September 1, 2009. Thereafter, the AOC and the OOC look 
forward to presenting that analysis to the Senate and House 
Appropriations Subcommittees, as well as to our respective oversight 
Committees. Our goal is to provide this and other Committees with the 
information necessary to ensure that funding is directed toward the 
highest risks.
    Our analysis will include an examination of AOC's fire prevention 
programs, which include the installation of sprinklers in legislative 
branch facilities. Fire prevention is particularly important in 
historic structures, where repair or replacement is difficult if not 
impossible. These programs reduce but cannot eliminate the risk that a 
fire may occur, and if occurring, may be contained in scope. 
Accordingly, to protect lives, it is essential permanently to correct 
hazards such as inadequate exit capacity, stairways not protected from 
fire and smoke infiltration and the like.
    Effective interim measures may not be feasible in every facility. 
Even the best fire prevention programs cannot guarantee safe evacuation 
from a structurally deficient building. Significant, permanent 
alterations to existing facilities will be required in order to ensure 
that Capitol Complex occupants may escape a fire safely. No credible 
risk analysis can overlook these facts. We look forward to continued 
cooperation with the AOC and other stakeholders to develop an analysis 
that accounts for these and all other relevant concerns.
    Question. Under current law, can OOC take into consideration the 
importance of undertaking projects in a coordinated, risk-based manner?
    Answer. As noted above, despite the time limitations imposed by the 
CAA, and understanding the importance of undertaking projects in a 
coordinated, risk-based manner, the OOC has worked with the AOC to 
implement interim measures to reduce the degree of risk to occupants of 
buildings with known safety and fire hazards requiring expensive 
alterations that will take more than one Congress to complete. 
Ordinarily, a citation sets forth the date by which abatement must be 
completed by the office responsible for correcting the hazard. In 
setting that date, the General Counsel takes into account whether full 
or partial abatement is achievable within that timeframe. The employing 
office may challenge the time set by the citation by submitting a 
request for modification of abatement, and if the request is not 
granted, an enforcement proceeding may resolve that issue. The GAO 
addressed this question in a Briefing for Congressional Staff, AOC's 
Process for Prioritizing Capital Projects (September 2008) as follows:
    While it is clear that AOC is statutorily required to correct 
violations of health and safety standards, it is not clear as to when 
the statutory compliance requirement begins if new appropriated funds 
are needed because of the statutory enforcement framework regarding the 
OOC process for citations, complaints, and orders. While 2 U.S.C. 
1341(c)(6) sets a deadline using ``the end of the fiscal year 
following the fiscal year in which the citation is issued or the order 
requiring correction becomes final and not subject to further review,'' 
the OOC GC sets a time limit for corrective action consistent with 
OOC's regulations in its citations, complaints, and orders, which could 
be longer than the statutory timeframe. For example, to resolve the 
complaint for hazards in the Capitol Power Plant utility tunnels issued 
by OOC GC, the OOC GC and AOC entered into a settlement agreement that 
set a 5 year time limit for corrective action by May 2012, which a 
hearing officer ordered the AOC to comply with, whereas a literal 
interpretation of the statutory timeframe would require corrective 
action by October 1, 2008. For budgetary decisions, it is unclear 
whether AOC has to correct the violations: using the date of the 
citation or order, or the date stipulated by the OOC in citation or 
order. Using either time limit though, AOC must take steps to obtain 
sufficient funding to correct the violations, such as including amounts 
in its budget request; however, Congress is not required to appropriate 
funds to cover the corrective actions.
    Question. Are there statutory changes needed to ensure we aren't 
holding the Legislative Branch to a higher (or different) standard than 
GSA or private sector buildings? Please be specific.
    Answer. The OSHAct imposes a ``General Duty'' upon all employers 
(including executive branch departments and private employers) ``to 
furnish a place of employment free from recognized hazards that are 
causing or likely to cause death or serious physical harm to 
employees'' and requires employers to comply with regulations issued by 
the Secretary of Labor (OSHA Regulations). The Congressional 
Accountability Act (CAA) imposes this ``General Duty Clause'' upon each 
employing office and each covered employee. However, the CAA does not 
apply to the legislative branch the many specific mandates that the 
OSHAct imposes in the executive branch.
    While the general duty imposed upon all employers (private sector, 
executive branch and legislative branch) is the same--compliance with 
Section 5 of the OSHAct by furnishing a place of employment free from 
hazards--the specific mandates imposed upon the executive branch are 
quite extensive due to the provisions of OSHAct  19 and 29 CFR  1960. 
The following table illustrates the differences between the OSH 
requirements for the executive branch (as mandated by 29 CFR  1960) 
and the requirements for the legislative branch.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
To comply with Section 5 of the OSHAct (as mandated by 29   To comply with Section 5 of the OSHAct, legislative
 CFR  1960), executive branch departments are required      offices are required to:
 to:                                                           Submit to inspection by the OOC at least
  Submit to inspection by agency safety and health              biennially.
   inspectors at least annually.
  Designate an ``Agency Safety and Health Official''
   (holding the rank of Assistant Secretary or equivalent)
   who will carry out provisions of 29 CFR 1960,
   Executive Order 12196, and Section 19 of the OSHAct. A
   principal role for this official is to provide
   ``adequate budgets and staffs to implement the
   occupational safety and health program at all levels''
  Establish safety and health officials at each
   appropriate level with sufficient authority and
   responsibility to plan for and assure funds for
   necessary safety and health staff, materials, sampling,
   testing, analyses, travel, training and equipment
   required to identify, analyze and evaluate unsafe or
   unhealthful working conditions and operations
  Ensure that performance evaluations of management and
   supervisory officials measure their effectiveness in
   meeting the requirements of the occupational safety and
   health program
  Make available the agency's occupational safety and
   health plan to employees and employee representatives
   upon their request
  Post a conspicuous notice informing employees of the
   Act, Executive Order and agency occupational safety and
   health program, and relevant information about safety
   and health committees
  Adopt emergency temporary or permanent supplementary
   standards appropriate for application to working
   conditions of agency employees for which there exist no
   appropriate OSHA standards
  Provide safety and health inspectors with safety and
   health hazard reports, injury and illness records,
   previous inspection reports, and reports of unsafe and
   unhealthful working conditions
  Post notices of unsafe or unhealthful working conditions
   that are identified by the agency's internal safety and
   health inspectors. These posters must remain until
   after the hazard has been abated
  Investigate working conditions, which employees have
   reported unsafe or unhealthful, within 24 hours to 20
   working days, depending on the potential seriousness of
   the conditions. These investigations must be made
   available to the employee within 15 or 30 working days
   depending on the condition's severity
  Investigate each accident that results in a fatality or
   in the hospitalization of three or more employees
  Establish procedures to follow up, to the extent
   necessary, to verify that hazardous conditions have
   been abated
  Prepare an abatement plan that includes a proposed
   timetable for abatement, an explanation of any delays
   in the abatement, and a summary of interim steps to
   abate the hazard
  Regularly inform established committees and/or employee
   representatives of the progress on abatement plans
  Either establish safety and health committees or be
   subject to unannounced inspections by OSHA. These
   committees, which have equal representation by
   management and non-management employees, monitor the
   performance of agency-wide safety and health programs
  Participate in the Safety, Health, and Return-to
   Employment (SHARE) Initiative which requires: (1) the
   establishment of goals and plans for reduction of
   injuries and illness; and (2) reporting on progress
   made toward meeting the established goals. The goals
   for 2004-2009 were to: (1) reduce by 3 percent the
   total number of employee injuries per year; (2) reduce
   by 3 percent the annual lost time due to worker
   injuries, and (3) reduce by 1 percent the total number
   of annual lost production days due to worker injuries.
   (Established by Presidential Memoranda on 1/9/2004 & 9/
   29/2006)
----------------------------------------------------------------------------------------------------------------

    The legislative branch is also required to comply with fewer 
mandates than the private sector. Unlike private sector employers, the 
employing offices covered by the CAA are not required to comply with 
OSHA  8(c) [29 U.S.C.  657(c)]. That provision requires employers to 
maintain and provide to the Secretary of Labor records regarding 
employee injuries and illnesses.
    The OOC's recent Section 102(b) Report to Congress (December 2008) 
proposes to apply OSHA's recordkeeping and reporting requirements to 
the employing offices covered by the CAA. See OOC, Section 102(b) 
Report, p. 10 (December 2008). Under the current statutory scheme, 
employing offices are not required to make, keep, preserve, or provide 
to the OOC records deemed necessary for enforcement of OSH Act Section 
5, including records on work-related deaths, injuries and illnesses, 
and records of employee exposure to toxic materials and harmful 
physical agents. Similarly, under the current scheme, the OOC is unable 
to consider any inspection findings of safety professionals in the 
employing offices because employing offices do not share their 
inspection findings with the OOC. In addition, neither the AOC nor any 
other covered employing office provides the OOC with injury and illness 
records that are necessary for strategically determining what areas 
should be inspected more regularly or provided more technical 
assistance. This information is not required to be compiled or 
disclosed under the CAA, and without it, the OOC depends on its 
biennial inspections to provide information regarding building 
conditions and workplace safety to Congress.

                   RISK-BASED APPROACH TO SAFETY WORK

    Question. How do you prioritize your safety-related inspections 
work? Are you able to give priority to facilities that may be lacking 
certain safety features, such are fire sprinklers, or having a greater 
number of occupants and visitors exposed to safety issues? If not, are 
legislative changes needed?
    Answer. As noted above, the OOC has just begun its third 
comprehensive, wall-to-wall inspection of the Capitol complex. This 
inspection will provide a third set of data which will be used to 
develop a more focused risk-based inspection schedule. As also noted 
above, under the current statutory scheme, employing offices are not 
required to make, keep, and preserve, or provide to the OOC, records 
deemed necessary for enforcement of OSHAct Section 5, including records 
on work-related deaths, injuries and illnesses, and records of employee 
exposure to toxic materials and harmful physical agents. Requiring the 
employing offices to maintain and disclose such records would greatly 
assist the OOC in strategically planning what areas should be inspected 
more regularly or provided more technical assistance. This is a 
legislative change the OOC has previously suggested in its Section 
102(b) Report, p. 10 (December 2008).
    Under the CAA, the OOC is also required to inspect and investigate 
places of employment in response to a written request from an employing 
office or a covered employee. CAA  215(c)(1), 2 U.S.C.  1341(c)(1). 
Requestor-initiated inspections are therefore also given priority 
regardless of whether the building has sprinklers or low occupancy 
rates.
    Finally, in buildings with known fire and safety hazards, the OOC 
and the employing offices have implemented interim prevention and 
protection measures to provide relatively safe occupancy. These interim 
safety measures often include frequent inspections and training. 
Buildings that lack sprinkler coverage in whole or in part, and/or have 
higher occupancy rates, are given a higher priority when determining 
the frequency of these types of inspections.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on May 21, 2009, when we will meet to take testimony 
on the fiscal year 2010 budget requests of the Government 
Accountability Office, the Government Printing Office, and the 
Congressional Budget Office.
    It is recessed. Thank you.
    [Whereupon, at 3:55 p.m., Thursday, May 7, the subcommittee 
was recessed, to reconvene at 2:30 p.m., Thursday, May 21.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 21, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Murkowski.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, ACTING COMPTROLLER GENERAL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order.
    Good afternoon to everybody, and welcome. We meet this 
afternoon to take testimony on the fiscal year 2010 budget 
request for the Government Accountability Office (GAO), the 
Government Printing Office (GPO), and the Congressional Budget 
Office (CBO). We will welcome our ranking member just as soon 
as she is able to be here.
    And I want to welcome our witnesses today--Gene Dodaro, 
Acting Comptroller General; Robert Tapella, Public Printer; and 
Doug Elmendorf, Director of the Congressional Budget Office. It 
is good to have you all here, together with staff, and we look 
forward to your remarks.
    If it is possible to hold those opening statements brief, 
maybe around 5 minutes, and submit the rest of your testimony 
for the record, which we will receive, I think we will be able 
to ask more questions as a result of that.
    One thing that we have established at the first two 
hearings of this subcommittee, and I think it bears repeating, 
is that we are not eager to increase the overall legislative 
branch budget this year. We are looking for your guidance in 
helping us to address your agencies' needs in fiscal year 2010, 
but this really isn't the year for extras.
    The subcommittee received an 11 percent increase in fiscal 
year 2009, but I seriously doubt that we are going to see 
anything near a double-digit increase this year. You can almost 
bet the opposite.
    First, Mr. Dodaro, I want to thank you for your service to 
our country as the Acting Comptroller General of the GAO. I 
think you have done an outstanding job in this role over the 
last year. And according to yesterday's Washington Post, GAO 
ranked among the best Federal Government agencies to work for 
in a survey conducted by the Partnership for Public Service.
    Congratulations on a wonderful piece outlining what a 
terrific place it is to work. And I wish you and your 
colleagues continued success and the continued great 
relationship.
    I especially appreciate the efforts of your agency in 
assisting Congress during our country's current economic crisis 
and your oversight of both the Troubled Asset Relief Act and 
the American Recovery and Reinvestment Act. And of course, I 
look forward to discussing your latest findings on these 
activities as well as your fiscal year 2010 budget, which shows 
an increase of 7 percent over fiscal year 2009 and includes 109 
additional full-time equivalents (FTEs).
    I also want to welcome Bob Tapella from the Government 
Printing Office. Your budget total is $166 million, an 18 
percent increase over the current year, which I understand 
includes large increases for both building repairs and 
technology upgrades.
    And finally, I want to welcome Doug Elmendorf, Director of 
the Congressional Budget Office. Congratulations on your recent 
appointment to this position, and your fiscal year 2010 budget 
total is $46.3 million, an increase of 5.2 percent and 12 
additional FTEs.
    And now, it is my pleasure to turn to my ranking member, 
Senator Murkowski, for your opening remarks. And let me say it 
has been a pleasure working with you. This is a subcommittee 
that shows and knows no partisanship, and we want to continue 
to be able to work that way.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Well, thank you, Mr. Chairman. I 
appreciate your kind remarks.
    I want to welcome the gentlemen before us today, and thank 
you all for your work in your respective areas.
    As you have mentioned, Mr. Chairman, you have talked a 
little bit about the realities of the budget that we are facing 
and our efforts to try to be perhaps a little more lean and 
mean. I don't like the mean part, but nothing wrong with a 
little leanness here.
    And recognizing that the jobs that are requested are 
difficult, and we have a tendency to complicate probably your 
lives often times with the requests that come from Members 
here. But in order for us to do our jobs, of course, we rely on 
you and what you provide, and we appreciate that.
    As you have mentioned, Mr. Chairman, the agencies before us 
today are requesting a combined total of $780 million for 
fiscal year 2010. This is an increase of $64 million, or 9 
percent over last year. Each agency is requesting additional 
staffing on top of the usual cost-of-living increases, and for 
the Government Printing Office, significant increases are 
requested for investments in information technology and systems 
development, as well as repairs to GPO's buildings.
    I do recognize, fully recognize that these three agencies 
perform very important functions, serve the entire Federal 
Government, not just the legislative branch. And it is 
important to keep that in perspective. I do look forward to 
understanding fully the needs of each agency, but I would agree 
with you, Mr. Chairman, that I am skeptical about the need for 
large increases for the legislative branch.
    With respect to the Government Accountability Office, I 
would like to note that GAO has traditionally performed a very 
important role for this subcommittee in its oversight of its 
sister agencies. GAO has done extensive work over the past 
decade in reviewing management and organizational issues at the 
Capitol Police, at the Architect of the Capitol, as well as the 
Library of Congress. And this work has been invaluable, 
particularly to this subcommittee, as we attempt to promote the 
improvements in each of these agencies, and I would certainly 
hope that that would continue.
    Staff discussions have been underway in recent weeks 
regarding the Capitol Police overtime and their staffing 
issues, and I would hope that GAO would place a high priority 
on this work as we wrestle with the need for Capitol Police 
staffing requirements.
    There have also been discussions in the past year on the 
Architect of the Capitol's prioritization of its construction 
work, with particular emphasis on the impact of the Office of 
Compliance citations. We had a very interesting hearing on that 
a couple of weeks ago. We will need to continue to have GAO's 
assistance to ensure that we allocate funds to these projects 
so that we truly do get the most bang for the buck. So we 
appreciate that.
    Again, appreciate the good work that is done and want you 
all to know that we value the important work that you do, look 
forward to your comments here this afternoon.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.
    Now we will proceed, first, to Mr. Dodaro, who will be 
followed by Mr. Tapella, and last, but not least, Dr. 
Elmendorf.
    Mr. Dodaro.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much Mr. Chairman, Senator 
Murkowski. It is a pleasure to appear before you this afternoon 
to discuss our 2010 budget request.
    First, Mr. Chairman, I want to thank you for your kind 
words and the recognition of GAO as the number two best place 
to work in the Federal Government. We are very proud of that, 
and making GAO a good place to work helps us serve the Congress 
better. So we are very committed to doing both.
    And Senator Murkowski, among the work that we consider to 
be a high priority is our work that supports the legislative 
branch and its important activities. So I can assure you that 
we will continue to give that work high priority.
    I would like to thank the Congress and the subcommittee for 
the support that we had received in 2009. That has helped us be 
in a good position to help support the Congress. Our 2010 
request is intended to help ensure that we are in the best 
position possible to help all the committees throughout the 
Congress tackle very important national issues, as well as some 
difficult challenges.

                <greek-l>GAO deg.SUMMARY OF GAO WORKLOAD

    We support every standing committee in the Congress and 
about 80 percent of the subcommittees. Now among the difficult 
challenges, as you mentioned, Mr. Chairman, is the work that we 
are doing to help in the financial markets and with the 
economic downturn. In addition to providing reports every 60 
days on the implementation of the Troubled Asset Relief 
Program, we are also the auditors, as of last year, of the 
Federal Housing Finance Administration, which is now the 
conservator and the regulator for Fannie Mae and Freddie Mac.
    And we are also working on proposals to help the Congress 
make decisions on how those entities ought to go forward once 
they come out of conservatorship status. We are also the 
auditors of the Bank Insurance Fund, and of course, they have 
had a lot of difficult challenges, some of the most difficult 
since the savings and loan crisis in the 1980s and 1990s.
    We have also done work on the need to modernize our 
outdated and fragmented regulatory system. We added that on the 
high-risk list for Congress so that it receives congressional 
attention. We have issued reports. It is very important for us 
to continue to help the Congress modernize the financial 
regulatory system so we address the root causes of how we got 
into this situation in the first place and make sure it doesn't 
happen again.
    Part of our request for additional resources is directed 
toward helping us bolster our capability to help Congress 
decide what system should be put in place, but also that it 
works effectively and that there is adequate monitoring going 
forward. So, that is a very important role for us.
    Also, on the American Recovery and Reinvestment Act, we 
have a range of responsibilities that the Congress has assigned 
to us, including bimonthly reviews of the use of the funds by 
selected States and localities. We have picked 16 States and 
the District of Columbia, which will receive over two-thirds of 
the funds being provided to State and local governments. We 
will be doing a longitudinal study over the next 2 or 3 years, 
as the Recovery Act funds are distributed to the States and 
localities, to assess how they use the money and whether or not 
the act is achieving its objectives over time.
    Our request is also intended to support a wide range of 
other issues, ranging from the U.S. efforts in Iraq, 
Afghanistan, and Pakistan to the 2010 census to healthcare 
issues to energy issues and across the full breadth of the 
Federal Government's activities going forward.

                <greek-l>GAO deg.SUMMARY OF GAO REQUEST

    As you mentioned, Mr. Chairman, we are asking for a 6.9 
percent increase. This would allow us to increase our staffing 
by 109 FTEs, or 3.5 percent, in order to help respond to the 
estimated 1,200 requests that we receive from the Congress 
every year. The Congress was very kind to us last year. We were 
able to increase our staffing a bit, but we are still near the 
lowest level we have ever been in GAO's history at a time where 
our services are being required more and more.

                           PREPARED STATEMENT

    We believe our request is a prudent one. We have carefully 
thought about it. I understand perfectly the situation that you 
are in. I know you will give careful attention to our request. 
I appreciate that very much, and I look forward to responding 
to any questions that you may have.
    [The statement follows:]

                  Prepared Statement of Gene L. Dodaro

    Mr. Chairman, Ranking Member Senator Murkowski, and Members of the 
Subcommittee, I appreciate the opportunity to be here today to discuss 
the U.S. Government Accountability Office's (GAO) budget request for 
fiscal year 2010. At the outset, I want to thank the subcommittee for 
its support of GAO. We appreciated your efforts in appropriating a 
fiscal year 2009 amount that provides GAO with the resources to better 
allow us to assist the Congress in a timely way to address the many 
difficult challenges facing the Nation. I also want to acknowledge the 
professionalism, talents, and dedication of our GAO workforce in 
supporting the Congress and improving government for the American 
people.
    In fiscal year 2008, GAO delivered advice and analyses to the 
Congress in response to requests from all of the standing committees of 
the House and the Senate, as well as over 80 percent of their 
subcommittees. The hard work of our staff yielded significant results 
across the government, including expert testimony at over 300 
congressional hearings, hundreds of improvements in government 
operations, and billions in financial benefits.
    I submit for your consideration a request for a fiscal year 2010 
appropriation of $567.5 million to support 3,250 full-time equivalent 
(FTE) staff. This request represents an increase of $36.5 million, or 
6.9 percent, over our fiscal year 2009 funding level, which would 
support a 3.5 percent increase over our 2009 FTE level. Importantly, 
almost 70 percent of our requested increase is needed for mandatory pay 
and uncontrollable cost increases. While our fiscal year 2009 funding 
level allows us to make progress in responding to new congressional 
requests sooner, our fiscal year 2010 request would enable GAO to make 
greater progress in addressing the issues of greatest interest to the 
Congress and the American public during these challenging times, which 
is our highest priority. I am also requesting authority to use $15.2 
million in offsetting collections, as detailed in our budget 
submission.

    GAO DELIVERS RESULTS ON AN INCREASING RANGE OF FEDERAL PROGRAMS

    The Congress continues to rely on GAO's nonpartisan, objective 
analysis and recommendations and has given us new responsibilities and 
opportunities to play key roles in addressing a number of emerging 
issues. We are addressing challenges in the financial markets and 
broader economy through our work overseeing the Troubled Asset Relief 
Program (TARP), created in 2008. We continue to monitor and report, 
every 60 days, on the status of the implementation of TARP, and we plan 
to conduct an annual financial audit of the $700 billion authorized for 
the program.
    Additionally, GAO is carrying out a range of responsibilities 
overseeing spending related to the 2009 American Recovery and 
Reinvestment Act (ARRA)--including bimonthly reviews of how selected 
States and localities across the country are using the billions of 
dollars of funds provided to them--and providing targeted studies in 
several areas, such as small business lending, education, and expanded 
trade adjustment assistance.
    Over the next several years, our work will encompass critical 
areas, including
  --reviewing progress in implementing key activities for the 2010 
        Census;
  --helping to support the Congress's consideration of changes in the 
        regulatory structure for financial markets and institutions, 
        including the establishment and implementation of controls to 
        help avoid a future financial crisis of the magnitude the 
        Nation faces today;
  --reviewing the revised governance structure for the housing market 
        and providing targeted analyses to inform decision makers 
        working to restore the functioning of the mortgage market and 
        resolve the ultimate disposition of Fannie Mae and Freddie Mac;
  --supporting health care reform efforts and control of health care 
        costs through analysis of expenditures and payment structures 
        in Medicare, Medicaid, the State Children's Health Insurance 
        Program, and other health programs;
  --reviewing the impact of drawing down our resources in Iraq, 
        providing more resources in Afghanistan, and retooling our 
        operations in Pakistan;
  --providing balanced and objective assessments of the use of emerging 
        technologies in the context of Federal programs and public 
        policy issues, such as green energy, energy efficiency, health 
        information technology, homeland security technologies, climate 
        change, science and math education programs, as well as the 
        technical challenges of developing sophisticated space and 
        defense systems;
  --reviewing initiatives to enhance protection of cyber assets;
  --assessing contractor management, sourcing strategies, and 
        contracting reforms; and
  --helping the Congress tackle both new and continuing high-risk 
        areas, such as protecting public health through enhanced 
        oversight over medical products, food safety, and toxic 
        chemicals.
    Finally, as part of fulfilling our commitments under the 
Presidential Transition Act, as amended, GAO is serving as a key 
resource for the Congress and the administration on major challenges 
needing the attention of the 28 largest departments and agencies across 
government, as well as 13 other issues facing our Nation that require 
urgent attention and continuing oversight. In addition to those already 
mentioned, these include
  --preparing for public health emergencies,
  --improving the U.S. image abroad,
  --protecting the homeland,
  --caring for service members, and
  --defense spending and readiness.
    Our work receives great interest not only from the Congress but 
from the American people. For example, while our reports routinely 
receive media and public interest, in the first half of fiscal year 
2009, 12 GAO reports were downloaded over 10,000 times each from our 
external Web site, www.gao.gov. These reports covered an array of 
important issues, including
  --veterans' health care and the challenges of recruiting and 
        retaining inpatient nurses,
  --Medicaid outpatient drug reimbursements and comparisons with retail 
        pharmacy acquisition costs,
  --private equity and the risk of leveraged buyouts,
  --the outdated financial regulatory system and the need for a 
        modernized framework, and
  --defense logistics and the need for better analyses and cost data to 
        support performance-based decisions.
    In addition to our work in response to congressional requests, GAO 
also issues products that provide agencies with guidance and best 
practices, or that otherwise support greater accountability and 
oversight in government. In the first half of fiscal year 2009, 13 of 
these products were downloaded over 10,000 times each from our external 
Web site. The top five picks were (1) special publications on the 
principles of appropriations law, (2) the 2009 high-risk update, (3) 
updated guidance on government auditing standards, (4) the GAO cost 
estimating and assessment guide, and (5) highlights of our May 2007 
health care forum focusing on steps needed to meet future challenges.
    I am pleased by the recognition GAO receives from ordinary 
Americans and civil servants alike as a continuing source of reliable, 
unbiased information about how government operations can be improved.

               HIGH CONGRESSIONAL DEMAND FOR GAO SERVICES

    GAO is an invaluable resource for helping the Congress provide 
oversight, accountability, and transparency in government. The demand 
for GAO services continues to remain high as a direct result of the 
high quality of our work, and this high demand is an indication of the 
Congress's desire for timely and objective analyses and professional 
advice. In each of fiscal years 2007 and 2008, GAO received over 1,200 
requests and mandates. The number of congressional mandates, our 
highest-priority work, more than doubled from fiscal year 2007 to 2008. 
In addition, as evidenced above, our work covers more and more complex 
issues across a broad range of Federal programs, requiring more in-
depth analysis to complete.
    This congressional demand for GAO studies also has affected our 
ability to respond promptly to congressional requests. For instance, in 
fiscal year 2008, GAO delayed starting work on 21 percent of our 
accepted requests due to staff unavailability. The average time we took 
to initiate congressionally requested engagements was almost 5 months 
in the first half of 2009, compared with less than 3 months in fiscal 
year 2005.
    In addition, GAO is providing testimony at an increased number of 
congressional hearings. We testified at 304 hearings in fiscal year 
2008. This was the second highest number for GAO in the last 25 years.
    We expect to continue receiving a high volume of requests related 
to either the Nation's new challenges, such as the recent developments 
in the financial markets and economy, or to the many emerging 
initiatives of the Congress and the administration. Moreover, all 
Senate committees are required to review programs within their 
jurisdiction to root out fraud, waste, and abuse in program spending--
giving particular scrutiny to issues raised in GAO reports--and develop 
recommendations for improved government performance. Also, recent 
changes to House rules require each standing committee or subcommittee 
to hold at least one hearing on any issue raised by GAO that indicates 
that Federal programs or operations authorized by that committee or 
subcommittee are at high risk for fraud, waste, abuse, or 
mismanagement.
    Our January 2009 issuance of the biennial, High-Risk Series: An 
Update, which identifies Federal areas and programs at risk of fraud, 
waste, abuse, and mismanagement, as well as those in need of broad-
based transformations, identified 30 at-risk Federal programs. Issued 
to coincide with the start of each new Congress, our high-risk updates 
have continued to help to focus and sustain attention to these programs 
so that executive branch officials who are accountable for each 
program's performance, as well as members of the Congress, have the 
information needed to complete their oversight responsibilities. The 
high-risk update report is available on our Web site at http://
www.gao.gov.

                 GAO'S FISCAL YEAR 2010 BUDGET REQUEST

    With the increased capacity included in our fiscal year 2010 
appropriation request, we can continue to assist the Congress with 
oversight over a broad range of Federal programs. As a knowledge-based 
organization, about 80 percent of GAO's budget funds staff compensation 
and benefits, with much of the balance of our budget funding mandatory 
operating expenses, such as security services and other critical 
infrastructure services necessary to support our ongoing operations. 
For this reason, a significant portion of our requested funding 
increase is not discretionary.
    Our requested increase for fiscal year 2010 of $36.5 million seeks 
funds to cover
  --mandatory pay increases resulting primarily from annual across-the-
        board and performance-based increases, as well as pay raises 
        required by the GAO Act, including the annualization of prior 
        fiscal year compensation costs;
  --uncontrollable inflationary increases imposed by vendors as part of 
        the cost of doing business;
  --nonrecurring fiscal year 2009 costs resulting from program 
        improvements, which can offset about one-third of our mandatory 
        and inflationary changes;
  --strengthening our staff capacity to provide timely support to the 
        Congress in confronting the broad array of critical challenges 
        facing the Nation, including
    --helping to support the Congress's consideration of changes in the 
            regulatory structure of financial markets and institutions,
    --providing targeted analyses to inform decision makers working to 
            restore the functioning of the mortgage market,
    --supporting health care reform efforts and the control of health 
            care costs, and
    --providing assessments of technologies in the context of Federal 
            programs and public policy issues, and
  --program changes supporting critical investments to (1) provide 
        employee development and benefits, (2) implement technological 
        improvements, and (3) strengthen our infrastructure.

                             TABLE 1.--FISCAL YEAR 2010 SUMMARY OF REQUESTED CHANGES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Cumulative
                                                                                                   percentage of
                                                                                                   change fiscal
                        Budget category                               FTEs            Amount       year 2009 to
                                                                                                    fiscal year
                                                                                                       2010
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008 actual........................................           3,081        $498,548   ..............
Fiscal year 2009 revised estimate..............................           3,141         531,000   ..............
Fiscal year 2010 requested changes.............................  ..............  ...............  ..............
    Mandatory pay..............................................  ..............          19,475              3.7
    Inflationary cost increases................................  ..............           5,714              4.7
    Nonrecurring fiscal year 2009 costs........................  ..............          (8,338)             3.2
    Staff capacity.............................................             109          16,826              6.3
    Program changes............................................  ..............          10,407              8.3
    Increase in offsetting collections.........................  ..............          (7,587)             6.9
                                                                ------------------------------------------------
      Subtotal--requested changes..............................             109          36,497   ..............
                                                                ================================================
Appropriation..................................................           3,250         567,497              6.9
----------------------------------------------------------------------------------------------------------------
Source: GAO.

                           CONCLUDING REMARKS

    I believe that you will find our budget request well-justified as 
it will ensure that GAO has the necessary staff and resources to 
strengthen our capacity to provide timely assistance to the Congress to 
confront the difficult challenges facing the Nation and help improve 
government for the American people.
    With your support of our 2010 budget request, we will continue 
rewarding the confidence you place in us by maintaining a strong return 
on this appropriation investment as we help to improve services to the 
public, change laws, and improve government operations.
    We are grateful for the Congress's continued support of our efforts 
to help improve government performance, accountability, and 
transparency. GAO remains committed to providing accurate, objective, 
nonpartisan, and constructive information to the Congress to help 
conduct effective oversight and fulfill its constitutional 
responsibilities.
    Mr. Chairman and Ranking Member Senator Murkowski, this concludes 
my prepared statement. I would be pleased to respond to any questions 
that you or other Members of the subcommittee might have.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF ROBERT C. TAPELLA, PUBLIC PRINTER
    Mr. Tapella. Mr. Chairman, Senator Murkowski, thank you for 
inviting me today to discuss GPO's appropriation for fiscal 
year 2010. And I will take your advice and speak very briefly.
    First, I would like to express my deep appreciation to the 
subcommittee for the support we received for GPO's fiscal year 
2009 appropriations request. More specifically, I would like to 
commend your staff, Nancy Olkewicz and Carrie Apostolou, for 
the time they took to really understand GPO's needs. They asked 
a lot of tough questions, but at the end of the day, they 
really helped us to move forward.
    The fiscal year 2009 funding eliminates the shortfall in 
congressional printing and binding, allows us to undertake a 
number of valuable projects supporting electronic information 
dissemination to depository libraries and other users, brings 
FDsys closer to completion, repairs our roof, and begins to 
renovate our elevators.
    Second, now that the shortfall has been repaid, for fiscal 
year 2010 we are able to request a reduction in appropriations 
for congressional printing and binding of approximately $3.5 
million. For the salaries and expenses of the Superintendent of 
Documents, we are seeking a modest increase of $2.2 million to 
continue transforming the program to a predominantly electronic 
basis.
    For our revolving fund, we are seeking an increase of $18.5 
million to complete the development of FDsys and to carry out a 
number of critically important information technology (IT) 
infrastructure projects. We are also seeking $13.6 million for 
necessary building maintenance and repairs. I understand there 
will be limitations on what the subcommittee can recommend for 
us, and so I am happy to discuss our priorities.
    Finally, like many other agencies and many businesses these 
days, GPO is facing a very different business climate this 
year, in our case as a direct result of the significant 
reduction in demand for passports from the Department of State. 
We are tightening our belt, evaluating all costs and proposed 
projects, and taking all available measures to ensure we stay 
within our budget.
    I won't kid you. This is going to be a tough year for us. 
With your understanding and support, our objective is to 
complete the year on a sound financial basis.

                           PREPARED STATEMENT

    Mr. Chairman, Senator Murkowski, this concludes my remarks, 
and I am happy to answer any questions you may have.
    [The statement follows:]

                Prepared Statement of Robert C. Tapella
    Chairman Nelson, Senator Murkowski, and Members of the Subcommittee 
on Legislative Branch Appropriations, it is an honor to be here today 
to discuss the appropriations request of the Government Printing Office 
(GPO) for fiscal year 2010.

                      RESULTS OF FISCAL YEAR 2008

    Building on our continuing transformation, GPO recorded another 
year of positive performance in fiscal year 2008. Much of this was 
attributable to the production of passports. The State Department's 
requirement for these documents grew significantly during the year, 
rising by nearly a third--from an estimated 18 million to approximately 
24 million--by year's end. By mid-year fiscal year 2009, however, 
passport production had decreased significantly due to reduced demand 
from the State Department.
    GPO's support for Congress during fiscal year 2008 was highlighted 
by work on products required for the Joint Congressional Committee on 
Inaugural Ceremonies, including invitations, maps, signs, programs, 
tickets, and other products, most notably secure credentials for law 
enforcement personnel associated with this event. During the year GPO 
also began producing the new edition of the U.S. Code, and delivered a 
number of other important congressional products, including Black 
Americans in Congress, 1807-2007. For Federal agencies, GPO began 
procuring work to support the upcoming 2010 Census, built its smart 
card business to help support State Department and Homeland Security 
travel documents, and with the Office of Management and Budget GPO 
coordinated the electronic delivery to Congress of the official version 
of the Budget of the United States Government for fiscal year 2009, 
which we authenticated by digital signature.
    GPO's electronic transition efforts proceeded apace as we readied 
our Federal Digital System (FDsys) for its first public release, which 
occurred in January 2009. This system will replace and improve on the 
services of GPO Access, which has provided the public with online 
access to Government information since 1994; funding for FDsys 
operating costs in the future will be derived from the appropriated 
funding sources currently supporting GPO Access. FDsys will also serve 
as GPO's digital platform, with a planned capability to provide for the 
intake, storage, processing, and output of Government publication 
content in a variety of forms and formats. With a state-of-the-art 
search and retrieval capability, FDsys is uniquely positioned to 
support the new Administration's commitment to providing greater 
openness and transparency in Government information. During the year 
GPO also expanded its authentication capabilities. In addition to the 
Budget, GPO completed work on authenticating selected congressional 
bills for the 110th Congress and is extending this capability to all 
bills in the 111th Congress.
    Over the past several years, GPO has implemented a variety of green 
initiatives in its operations: for more than a decade, for example, 
printing papers used by GPO have met the requirements for recycled 
content contained in the Resource Conservation and Recovery Act of 
1989, as amended, and corresponding Executive Orders. The printing inks 
used by GPO and its contractors comply with the requirements of the 
Vegetable Ink Printing Act of 1994. GPO works with the Environmental 
Protection Agency and the District of Columbia to meet the standards 
for emissions of volatile organic compounds established by the Clean 
Air Act.
    However, there is more that GPO can do in this field, and during 
fiscal year 2008 sustainable environmental stewardship was the focus of 
a concentrated effort at GPO. In my view, the future of sustainable 
environmental stewardship means being proactive and making changes so 
that GPO becomes a more efficient operation that makes better use of 
the resources under our control. During fiscal year 2008, we 
articulated a vision for the entire lifecycle of what GPO produces, 
from how we source the raw materials to how we produce our products, to 
what happens to the products when consumers are done with them.
    For GPO, this means a variety initiatives, including development of 
a plan for moving from web offset presses to digital equipment to 
reduce paper consumption; accelerating the re-engineering of business 
processes in production, procurement, documents dissemination, and 
administration to take advantage of the efficiencies offered by digital 
technology; conducting energy audits throughout our facilities to 
reduce our energy demand; using more environmentally responsible paper; 
reducing hazardous waste through solvent recovery systems, and reducing 
the total amount of waste generated by our operations; and installing a 
``green'' roof on our building, in targeted areas, to double the life 
expectancy of the roof and reduce heating demands in the building. 
During fiscal year 2008, GPO made significant progress in these fields 
and laid the groundwork for continued sustainability improvements in 
the coming year.
                fiscal year 2010 appropriations request
    For fiscal year 2010, we are requesting a total of $166,307,000, to 
enable us to:
  --Meet projected requirements for GPO's congressional printing and 
        binding and information dissemination operations during fiscal 
        year 2010;
  --Provide investment funds for necessary information dissemination 
        projects in the Federal Depository Library Program;
  --Complete the development of FDsys and implement other improvements 
        to GPO's information technology infrastructure; and
  --Perform essential maintenance and repairs on GPO's buildings.

                   CONGRESSIONAL PRINTING AND BINDING
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009 Approved..............................     $96,828,000
Fiscal year 2010 Request...............................      93,296,000
Change.................................................      (3,532,000)
Change includes:
    Price level changes................................       2,362,000
    Volume changes.....................................       3,273,000
    Elimination of shortfall...........................      (9,167,000)
------------------------------------------------------------------------

    We are requesting $93,296,000 for this account, representing a 
decrease of $3,532,000 from the level approved for fiscal year 2009.
    Funding for fiscal year 2010 congressional printing and binding 
requirements includes price level changes averaging 2.7 percent that 
are attributable primarily to existing wage contracts, as well as 
estimated volume changes in certain workload categories based on 
historical data. GPO projects an increased volume for the daily 
Congressional Record, business and committee calendars, miscellaneous 
printing and binding, hearings, document envelopes and document franks, 
and Congressional Record indexers. These workload increases will be 
offset by reductions in volume for committee prints, miscellaneous 
publications, bills, resolutions, and amendments, committee reports, 
and other workload categories. The funding provided for fiscal year 
2009 eliminated the shortfall in this appropriation that was 
accumulated in fiscal year 2007 and fiscal year 2008.

        SALARIES AND EXPENSES OF THE SUPERINTENDENT OF DOCUMENTS
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009 Approved...............................     $38,744,000
Fiscal year 2010 Request................................      40,911,000
Change..................................................       2,167,000
Change includes:
    Mandatory Requirements..............................       1,094,000
    Investment Requirements.............................       1,073,000
------------------------------------------------------------------------

    We are requesting $40,911,000 for this account, representing an 
increase of $2,167,000 over the level approved for fiscal year 2009. 
The increase is to cover mandatory pay and price level changes, and to 
continue improving public access to Government information in 
electronic formats by implementing a series of projects and hiring 
additional program specialists.
    As GPO continues to perform information dissemination through the 
Federal Depository Library Program (FDLP) on a predominately electronic 
basis, as mandated by the conference report accompanying the 
Legislative Branch Appropriations Act for Fiscal Year 1996, we need to 
make continuing investments in this program's technology infrastructure 
and supporting systems. Included in our request for fiscal year 2010 is 
funding to cover additional data storage, the migration of legacy 
applications to updated service functions, miscellaneous materials for 
digitization projects, survey and data analysis, legacy application 
integration for the FDLP desktop, and hiring 10 additional full-time 
equivalents to perform acquisitions, classification, cataloging and 
indexing, and related requirements.

                             REVOLVING FUND
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009 Approved...............................      $4,995,000
Fiscal year 2010 Request................................      32,100,000
Change..................................................      27,105,000
Change includes:
    Investments in information technology infrastructure      18,500,000
     and systems development............................
    Building maintenance and repairs....................      13,600,000
------------------------------------------------------------------------

    We are requesting $32,100,000 for this account, to remain available 
until expended, to fund essential investments in information technology 
infrastructure and systems development, as well as needed maintenance 
and repairs to GPO's buildings.
    Our request includes $18,500,000 for investments in information 
technology infrastructure and systems development. The key projects 
covered under this heading are $8 million to complete the development 
of FDsys; $9.5 million to replace GPO's automated composition system, 
implement an automated manufacturing workflow system, continue 
implementing GPO's Oracle business systems, and fund related projects; 
and $1 million for continuity-of-operations (COOP) improvements to 
GPO's presence at the legislative branch alternate computing facility.
    The balance of our request is $13,600,000 for necessary repairs and 
maintenance to GPO's buildings, including continuing elevator 
replacement and renovation, window replacement for energy conservation, 
and related projects. Our request includes $1.7 million for various 
green and environmental initiatives. The funding provided for fiscal 
year 2009 will pay for a new roof as well as contribute to elevator 
repairs and FDsys development.
    Chairman Nelson, Senator Murkowski, and Members of the 
Subcommittee, we look forward to working with you, and with your 
support we can continue GPO's record of achievement. This concludes my 
prepared statement, and I would be pleased to answer any questions the 
Subcommittee may have.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, DIRECTOR
    Dr. Elmendorf. Thank you, Chairman Nelson, Senator 
Murkowski. I appreciate the opportunity to testify today about 
the CBO's budget request for fiscal year 2010.
    As you know, I became CBO Director just 4 months ago. I am 
honored to have been appointed to that position and to be 
making the case today for CBO's proposed budget. As you said, 
Mr. Chairman, our total request is about $46 million, which is 
a $2 million, or 5.2 percent increase over funding for the 
current year.

                        <greek-l>CBO deg.MISSION

    Since CBO's launch in 1975, our mission has been to provide 
Members of Congress and their staffs with the information you 
need to make effective budget and economic policy. We are 
committed to providing information that is objective, 
insightful, timely, and clearly presented and explained.

                         <greek-l>CBO deg.STAFF

    In providing this information, CBO's most important asset 
has always been its staff. We have about 240 people, mostly 
with Ph.D.s in economics or master's degrees in public policy. 
And I can't resist noting that in the competition for good 
places to work, among the small agency category in which CBO 
competes--not with our friends and colleagues at GAO, but in 
the small agency category--CBO was tied for third place among 
Federal agencies.
    And that is important, as Gene Dodaro noted, it helps us to 
serve you. It helps us to attract the best people and to create 
an environment in which the people are doing their best work.

                    <greek-l>CBO deg.PHASED INCREASE

    CBO has operated with about 235 people for the past decade, 
has increased only a little in size since its founding more 
than 30 years ago. Last year, my predecessor as Director, Peter 
Orszag, proposed to you a 2-year plan to increase the CBO staff 
from 235 to about 260, a phased increase of 10 percent.
    Peter quantified the increased number of testimonies and 
the cost estimates that CBO has been asked to provide, as well 
as the growing amount of informal communication between CBO 
staff and Hill staff, and he argued in particular that CBO 
needed to increase its capacity to analyze policy changes 
regarding healthcare delivery and financing. We are very 
grateful that you and your colleagues approved the first leg of 
that increase, and our budget for next year requests additional 
funding to move closer to that goal.

             <greek-l>CBO deg.ADDITIONAL FUNDING FOR HEALTH

    As you know, we also have been asked to identify the steps 
we might take if additional funds were provided immediately to 
shorten the timetable for providing cost estimates of major 
health legislation. We have identified several steps, including 
acquiring additional high-speed computer hardware and software, 
purchasing actuarial and other expert consulting services, 
purchasing additional data on prescription drugs, providing 
additional compensation to certain CBO staff, and increasing 
the size of CBO staff.
    The analysts that we have previously hired in the health 
area are playing a critical role in our current work. Of 
course, faced with very intricate proposals to make fundamental 
changes to one-sixth of the U.S. economy, we are working very 
hard to analyze the proposals, provide the information that 
Members of Congress need to make decisions about what to do.
    As a result, all of our health analysts are working flat 
out to meet the demands we face, and still we are always adding 
to the list of crucial questions that we need to address. 
Therefore, our budget includes funding for additional staff 
members in the health area.

             <greek-l>CBO deg.FINANCIAL AND HOUSING MARKETS

    Our budget also asks for funding for additional staff to 
analyze the financial system and housing market. The financial 
crisis and the Government's responses to it have greatly 
boosted demand for our work. The legislation authorizing the 
Troubled Asset Relief Program (TARP) requires CBO to review the 
administration's reports on the TARP.
    In addition, our budget projections must include 
assessments of the cost of the TARP of dealing with Fannie Mae 
and Freddie Mac and of the dramatically expanded activities of 
the Federal Deposit Insurance Corporation (FDIC) and the 
Federal Reserve. More generally, our evaluation of the impact 
and cost of alternative financial and housing policies requires 
us to monitor and model the financial system to a degree we 
have not done before.

                 <greek-l>CBO deg.SUPPORT REQUIREMENTS

    Beyond the health and financial areas, we are also 
requesting several additional staff in the editorial and 
information technology functions, which are critical to our 
ability to produce and disseminate our findings.
    I should mention, too, that the additional people will need 
someplace to sit, as Peter Orszag discussed last year. And we 
have begun discussions about how to meet that need.
    I also want to emphasize that CBO has been responding to 
rising demands in some areas by shifting positions away from 
topics that become less central for the Congress. However, our 
scope for doing so is limited by the breadth of Congress' 
interests in climate change, in energy policy, in national 
defense, in discretionary appropriations, in monitoring 
economic conditions, and much more.

                           PREPARED STATEMENT

    In closing, let me thank the members of the subcommittee 
for your strong support of CBO's work in the past. Your support 
of our budget request for next year would help us continue to 
do our job to the high standard that you and we expect.
    Thank you. We will be happy to answer any questions you 
have.
    [The statement follows:]

               Prepared Statement of Douglas W. Elmendorf

    Mr. Chairman, Senator Murkowski, and Members of the Subcommittee, 
thank you for the opportunity to present the fiscal year 2010 budget 
request for the Congressional Budget Office (CBO).
    CBO's mission is to provide the Congress with timely, objective, 
nonpartisan analyses of the budget, the economy, and other policy 
issues and to furnish the information and cost estimates required for 
the Congressional budget process. In fulfilling that mission, CBO 
depends on a highly skilled workforce. Approximately 88 percent of the 
agency's appropriation is devoted to personnel, with the remaining 12 
percent for information technology (IT) and other equipment, supplies, 
and purchases of other items.
    The proposed budget for fiscal year 2010 totals $46,365,000, a $2.3 
million or 5.2 percent increase over the funding for fiscal year 2009. 
The net increase is the result of offsetting factors:
  --An additional $2.2 million for rising mandatory pay and related 
        costs for existing staff;
  --An additional $1.4 million to expand CBO's staff by 12 full-time-
        equivalent positions (FTEs), from 242 to 254; and
  --A reduction of $1.3 million in nonpay resources, partly because CBO 
        plans to use some of its additional FTEs instead of contractors 
        to analyze the Troubled Asset Relief Program and other 
        government actions in response to turmoil in the financial 
        markets.

                   GROWING DEMAND FOR CBO'S ANALYSES

    The substantial budgetary and economic challenges facing the 
Nation, both short-term and long-term, and the major policy issues 
currently before the Congress have created a growing demand for CBO's 
analyses. Some of the issues--like health care and climate change--are 
very complicated and require intensive analysis involving many staff 
members. Often, committees and Members seek CBO's analyses very early 
in the process of developing legislation and then engage in an 
iterative process to refine the legislation in light of its projected 
budgetary impact. For significant legislation, simultaneous work may be 
required on multiple proposals--for example, ones by both the majority 
and the minority, the House and the Senate, or multiple committees of 
jurisdiction.
    The 12 additional FTEs (representing a 5 percent increase) that CBO 
requests for fiscal year 2010 would be used to help meet increased 
demand for analyses in several areas:
Health Care Issues
    Growing costs for health care continue to be a key contributor to 
the Nation's fiscal imbalance, and major health care legislation is on 
the agenda for the 111th Congress. However, the agency's current 
staffing in this area is insufficient to provide all of the analyses 
sought by the Congress, which are often needed on a very compressed 
schedule. CBO is increasing its work on options to expand health 
insurance coverage, long-term trends in the growth of health care 
costs, and potential areas of cost savings. It anticipates substantial 
work analyzing the impact on the Federal budget and on health care 
spending generally of several broad proposals to modify Federal health 
care programs and the broader health care system--a process that is 
well under way already. (The CBO staff is currently engaged in an 
intensive effort in support of the Senate Committees on Finance and on 
Health, Education, Labor, and Pensions as they begin the process of 
developing broad health legislation.)
    Four of the additional FTEs would continue an expansion of the 
agency's capabilities to analyze health care issues. That expansion 
began in fiscal year 2009, but because of the duration of the 
continuing resolution, CBO was not able to increase its staffing at the 
rate originally anticipated in the fiscal year 2009 budget request. As 
a result, CBO is reflecting these FTEs as new in the fiscal year 2010 
budget request.
    A number of Members of Congress have inquired as to what steps CBO 
might take to improve its ability to provide timely and accurate 
estimates to the Congress on major health legislation if additional 
funding was made available in fiscal year 2009. In response to those 
inquiries, CBO identified several steps that could be taken to 
accomplish that objective: acquiring additional high-speed computer 
hardware and software; purchasing actuarial and other expert consulting 
services; purchasing additional data on prescription drugs; providing 
additional compensation to certain CBO staff; and increasing the size 
of CBO's full-time staff by six more people than the number currently 
planned. In total, implementing those steps would cost about $2.5 
million over fiscal years 2009 and 2010. If such supplemental funding 
was provided and made available through 2010, there would be no impact 
on the agency's fiscal year 2010 budget request. If additional funding 
was provided but made available only through September 30, 2009, the 
cost of additional staff (about $1 million) would need to be added to 
the fiscal year 2010 budget request.
Financial and Housing Markets
    CBO will continue efforts begun in fiscal year 2009 to analyze the 
financial and housing markets, including analysis to meet requirements 
under the Economic Stabilization Act. That law authorizes the Treasury, 
through the Troubled Asset Relief Program, to acquire or insure up to 
$700 billion in financial assets. The law stipulates that CBO report 
semiannually to the Congress with the agency's assessment of reports 
compiled by the Office of Management and Budget, including a discussion 
of the costs of purchases and guarantees of troubled assets; the 
information and valuation methods used to calculate such costs; and the 
impact on the Federal budget deficit and the debt. In addition, the 
Federal Reserve, the Treasury, the Federal Deposit Insurance 
Corporation, Fannie Mae, and Freddie Mac are engaged in a variety of 
complex financial transactions aimed at stabilizing the financial 
markets, the banking system, and the housing market. Those transactions 
involve trillions of dollars, and CBO does not currently have the 
capacity to fully monitor and assess the impact of those activities.
    Analyzing complex financial transactions with a sufficient degree 
of rigor requires supplementing the agency's current staff with several 
analysts with expertise in financial modeling, some of whom will 
probably also have previous experience with institutions in the 
financial sector. Given the wide array of assets that may ultimately be 
purchased or guaranteed by the government and the difficulty of 
attracting highly skilled financial market analysts at government 
salaries, specialized outside consultants with experience in particular 
financial markets may also be necessary.
    Five FTEs would be devoted to this additional work on the financial 
and housing markets, including the requirements associated with the 
Economic Stabilization Act. Some of that work was, of necessity, done 
by contractors in fiscal year 2009 because of the lead time that it 
takes to hire experts in the financial arena.
Related Mission Support
    CBO's editorial and publications staff are important in making the 
results of the agency's analyses readily usable by the Congress and the 
public. With more output, additional staff in this area will be 
required to maintain the timely production of reports, testimonies, and 
other published materials. In addition, with the expansion of the 
agency, additional IT resources are required to meet greater needs for 
operational support.
    Therefore, to support the expanding analytic staff and mission, 
three additional FTEs would be devoted to providing editorial and 
publishing services and meeting IT requirements.

                               CBO'S WORK

    CBO assists the Congress in exercising its responsibilities for the 
budget of the U.S. Government and for other legislation. Under the 1974 
Congressional Budget Act, the agency's primary duty is to support the 
Committees on the Budget of both Houses. The agency also supports the 
Congressional budget process by providing analyses requested by those 
committees; the Committees on Appropriations; the House Committee on 
Ways and Means; the Senate Committee on Finance; other committees; and, 
to the extent that resources permit, individual Members. In particular, 
CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year;
  --Constructs baseline budget projections to serve as neutral 
        benchmarks for gauging the effects of spending and revenue 
        proposals;
  --Prepares long-term projections of Federal spending and revenues to 
        help the Congress assess the impact of rising health care costs 
        and an aging population;
  --Assists the Committees on the Budget in developing the 
        Congressional budget resolution by providing alternative 
        spending and revenue paths and estimating the effects of 
        various policy options;
  --Analyzes the likely direct effects that the President's budgetary 
        proposals will have on outlays and revenues, their economic 
        implications, and any effects that those economic changes will 
        have on the budget;
  --Provides estimates of the cost of all appropriation bills at each 
        stage of the legislative process, including estimates for 
        numerous amendments considered during that process;
  --Reports on all programs and activities for which authorizations for 
        appropriations were not enacted or are scheduled to expire;
  --Provides estimates of the cost of many legislative proposals, 
        including formal cost estimates for all bills reported by 
        committees of the House and Senate and detailed explanations of 
        components of cost estimates and the estimating methodology;
  --Estimates the cost of intergovernmental and private-sector mandates 
        in reported bills and other legislative proposals;
  --Conducts policy studies of governmental activities having major 
        economic and budgetary impacts;
  --Provides testimonies on a broad range of budget and economic 
        issues, addressing the agency's budget projections as well as 
        specific issues related to national security, health care and 
        climate change policy, alternative means of financing 
        infrastructure spending, economic and financial conditions, and 
        numerous other program areas;
  --Helps the Congress make budgetary choices by providing policy 
        options, but not policy recommendations, for how it might alter 
        Federal outlays and revenues in the near term and over the 
        longer term;
  --Analyzes Federal spending and revenue totals each month; and
  --Constructs statistical, behavioral, and computational models to 
        project short- and long-term costs and revenues of government 
        programs.
         some details of cbo's fiscal year 2010 budget request
CBO's request would allow the agency to build on current efforts. 
        Specifically, the request would fund the following:
  --A workload of roughly 700 formal cost estimates (most of which 
        include both estimates of Federal costs of legislation and 
        assessments of the cost of mandates included in the legislation 
        that would affect state and local governments, Indian tribes, 
        or the private sector) and hundreds of informal estimates, 
        approximately 100 analytical reports along with other 
        publications, and a heavy schedule of Congressional testimony;
  --254 FTEs, an increase of 12 (4 to continue the expansion of the 
        agency's capabilities to analyze health care issues; 5 to 
        devote to CBO's additional analyses of the financial and 
        housing markets, including new requirements under the Economic 
        Stabilization Act; and 3 to support the expanded mission of the 
        agency);
  --A projected 8 percent (or $2.3 million) increase in base pay, of 
        which $1.1 million would support the 12 new FTEs and the 
        balance of $1.2 million, a combination of across-the-board 
        increases, promotions, performance bonuses, and merit increases 
        for current staff (the across-the-board increase is budgeted at 
        2.9 percent for staff earning a salary less than $100,000, 
        which is consistent with the pay adjustment requested by other 
        legislative branch agencies);
  --A projected 14.7 percent (or $1.3 million) increase in the cost of 
        benefits, of which $0.4 million would go toward the 12 new FTEs 
        and the balance ($0.9 million), toward existing staff and 
        employees who will fill vacant positions;
  --The replacement of obsolete office equipment, desktop computers, 
        and network servers, at $0.9 million--a decrease of $154,000, 
        made possible because start-up requirements for the new staff 
        are funded in fiscal year 2009 and do not recur;
  --Expert consulting, at $0.7 million--a decrease of $1.3 million, 
        which is made possible in part by shifting from contractor 
        support to full-time staff to meet new requirements under the 
        Economic Stabilization Act and to conduct other analyses in the 
        financial and housing markets;
  --Purchases of office supplies and subscriptions, at $0.6 million--a 
        decrease of $138,000, made possible because some costs in 
        fiscal year 2009 are nonrecurring;
  --A contribution toward the activities of the Federal Accounting 
        Standards Advisory Board at a normal operating level of $0.5 
        million--an increase of $58,600 based on inflation, as 
        projected by the Government Accountability Office;
  --The acquisition of commercial data necessary for CBO's analyses, at 
        $352,000--an increase of $7,000;
  --Financial management services, including support for payroll and 
        financial systems, at $318,000--an increase of $39,900, 
        primarily because of anticipated price hikes when renewing 
        option-year contracts;
  --IT system development, at $304,000--a decrease of $10,500 based on 
        anticipated requirements;
  --Essential software purchases, at $268,000--an increase of $8,000;
  --Equipment maintenance, at $237,200--an increase of $2,000 based on 
        current contracting data;
  --Travel, at $229,800--an increase of $56,000, including costs to 
        support new FTEs and added training;
  --Telecommunications and telephone services, at $203,600--an increase 
        of $8,100;
  --Management and professional training, at $170,000--an increase of 
        $21,500, of which $14,000 would be for the new FTEs, with the 
        balance restoring training to roughly the fiscal year 2006 
        funding level;
  --The completion of the redesign of the agency's Web-based 
        information services and platforms, at $125,000--a project to 
        update the agency's obsolete external and internal Web sites to 
        enhance their usefulness, with improvements in content, 
        functionality, and the timely delivery of various work products 
        to the Congress; and
  --Independent audit services, at $102,900--an increase of $4,900, 
        which is based on contract award data.
    I am pleased to report that CBO received its fifth consecutive 
clean opinion in the latest audit of its financial statements. The 
agency's sixth audit (of fiscal year 2008 financial statements) is 
ongoing.
    Finally, I would like to thank the Committee for the funding 
provided this year, enabling CBO to carry out its responsibilities to 
provide information and analysis to the Congress as it grapples with 
the critical issues facing the Nation.

    Senator Nelson. Thank you.
    Should we do 5 minutes first round here?

    <greek-l>GAO deg.LEGISLATIVE BRANCH OSHA ENFORCEMENT PROVISIONS

    Mr. Dodaro, at our hearing a couple of weeks ago, we 
discussed the Office of Compliance's Occupational Safety and 
Health Administration (OSHA) oversight of the legislative 
branch as set forth in the Congressional Accountability Act, 
and we found that perhaps the legislative branch was being held 
to a higher standard than the executive branch. And while I 
don't want to be in competition with a race to the bottom, or 
anything of that sort, it does seem that some parity might make 
some sense.
    Could you explain what you think about the legislative 
branch enforcement provisions for the OSHA, why they are 
different from the executive branch? I mean, if there is some 
justification we don't understand, we would certainly like to 
pick it up.
    Mr. Dodaro. My understanding, based on the work that we 
have done for the legislative branch over the years, is that 
one of the areas we were asked to look into a few years ago was 
the Office of Compliance and its management practices. With 
regard to the OSHA provisions, my understanding is that while 
the provisions about the type of safety requirements are on par 
with the executive branch and the private sector standards, the 
Congressional Accountability Act required a specific timeframe 
for violations to be fixed and funded that is different and, if 
you will, a little bit tougher standard than what applies to 
the executive branch and the private sector.
    And I am sure, without speaking for the congressional 
intent here, it was intended to make sure that the identified 
deficiencies were rectified over a certain period of time. But 
it does not provide a lot of flexibility that is provided in 
the executive branch and the private sector.
    So, if you would like, we could look at how to make it on a 
par with the executive branch and suggest some legislative 
language for you to consider.
    Senator Nelson. That is where I was going to go, and I 
appreciate your anticipating that because, clearly, we ought 
not to have tied our hands more than others have tied their 
hands. Because when addressing the requirements for fixing the 
defects that the citations reflect, we ought to do it in a 
rational, reasonable, and appropriate fashion. And so, I would 
be very anxious to see what kind of language you might 
recommend for us to consider.
    Mr. Dodaro. Yes, we will do that.
    Senator Nelson. And I think it might also be helpful for us 
to have some evaluation of the kind of requirements that are 
being imposed with open staircases in the old, historic 
buildings, and not just as to the cost, but what this can do to 
the structure that represents the history of our country.
    I don't want us to start seeing fire doors in the middle of 
these buildings, particularly where we understand in some cases 
there is a considerable amount of sprinkler systems in place. 
That if one of our buildings was being treated differently than 
it would have been treated under the executive branch. We will 
get you some information on that as well.
    Mr. Dodaro. Okay. Yes, we would be happy to take a look at 
that issue. Certainly, the historical character of the Capitol 
and buildings is a very important issue, and that needs to be 
balanced with safety issues in place and some creative thinking 
about how to achieve both within a reasonable cost. We would be 
happy to take a look at that.
    Senator Nelson. Well, we are certainly on the same page, 
and I appreciate that very much.

 <greek-l>GAO deg.GAO'S STRATEGY TO MEET RECOVERY ACT RESPONSIBILITIES

    On the stimulus funding, you received $25 million in the 
stimulus funding to be able to do your oversight. Can you 
update the subcommittee on what you are doing with those funds 
and how you are spending them? What you are doing to gear up to 
provide the oversight?
    Mr. Dodaro. Yes. The $25 million was provided to us, and it 
is available through September 30, 2010. There are timeframe 
parameters on it. We are hiring additional people to help us. 
We have employed, I believe, a very creative approach to do 
this because you are never sure that you have the money to 
sustain those people after that period of time when the funding 
is available.
    So two-thirds of the people we are going to hire are going 
to be people who have retired from GAO that we are bringing 
back for specific periods of time. Some of them live in the 
States that we are evaluating which will save us a lot of 
travel cost.
    We are also bringing back or hiring people on term 
appointment, so they will be here for a limited period of time. 
And then the other one-third of the people we are going to hire 
at the entry level, and we will be able to absorb those people 
likely through normal attrition over the next couple of years.
    So we believe this serves the intent for the limited amount 
of funding that is available. Our work, given the spend-out 
rates for the stimulus bill, will extend beyond 2010. We will 
build that into our normal budget request going forward because 
most of the money will be outlayed to the localities in 2010, 
2011, and some of it goes out a little bit further. But the 
bulk of the money is in those periods of time.
    We think we have got a very good plan to meet our 
responsibilities under the act and appreciate Congress' 
support.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Let me follow up on that. The 
individuals that you have indicated that you are going to be 
bringing on to be responsive to oversight with the Reinvestment 
Act, how many of the 109 additional staff that you are looking 
for in this budget are actually going to be focused on this 
aspect, on the American Recovery and Reinvestment Act?

                   <greek-l>GAO deg.GAO'S FTE REQUEST

    Mr. Dodaro. Very few, if any of the 109 additional FTEs in 
our 2010 budget request would be for the Recovery Act purposes. 
Now we might have to supplement the proposed staffing as things 
progress and new requirements come up because we are beginning 
to receive requests on the Recovery Act beyond the current 
statutory requirements. So the additional staff requested could 
help support those, but it is not intended to do that, Senator 
Murkowski.
    The 109 FTEs are intended to help us in several key areas. 
First is in the areas of financial markets and community 
development. As Doug Elmendorf mentioned, the financial system 
and the housing markets really need a lot of attention. And so, 
we think we can help Congress tackle some difficult issues 
there and bring about some needed reforms. But we need 
additional people.
    Also, in the science and technology area, we are being 
asked to look at more sophisticated weapon systems, satellite 
systems, and a lot of, as you are well aware, solutions to our 
environment and energy issues, require the application of 
technologies. Congress has asked us to do technology 
assessments in the past. So we plan to bolster staff in these 
as well as help in a range of other areas. But it is not for 
the Recovery and Reinvestment Act primarily.
    Senator Murkowski. It seemed, as you were going through 
earlier, you mentioned that it would be to help monitor and 
follow and produce the reports that are requested under TARP, 
auditors for Fannie and Freddie for the Bank Insurance Fund, 
and then the Recovery and Reinvestment Act, and the 2010 
census. All of these are, hopefully, short-term initiatives.
    You are asking for 109 additional staff. What is the magic 
in that number? You have indicated that you are at the lowest 
staffing level that you have been in some time. How much of 
what you are asking for now is to provide for these very 
targeted focuses? Will this 109 be here for a period of a 
couple of years while we work on these projects, or do they 
become part of the base of the staffing level?
    Mr. Dodaro. Right. I mentioned the TARP initiatives and the 
American Recovery and Reinvestment Act as areas of new 
responsibilities for GAO. They will be limited over time, 
although I don't know how long the TARP program would be, 
particularly if the Government procures the toxic assets and 
holds them to maturity over a period of time. That could go on 
for an extended period of time, and the American Recovery and 
Reinvestment Act will be several years.
    However, those areas are still relatively a small part of 
GAO's overall service to the Congress among the 1,200 requests 
we have. So the 109 FTEs are really intended to be part of the 
base to address the wide range of issues from all committees in 
the Congress that we receive, including a lot of the work we do 
in the defense area on defense capabilities and management and 
acquisition reform. We do work in cyber security. So everything 
the Federal Government is involved in, we are doing work on.
    The 109 FTEs are intended to help in that work because we 
can't get to all the requests we receive from the Congress in 
as timely a fashion as I would like and that many of the 
committees would like.
    Senator Murkowski. Is 1,200 requests from Congress about 
average? Are we seeing an ever-increasing number of requests?
    Mr. Dodaro. It has increased since 2005 by about 15 
percent, and it has held steady at 1,200. We work with each 
committee to reprioritize those requests to make sure that we 
are working on the top priorities.

              <greek-l>GAO deg.GAO'S STAFFING LEVEL TRENDS

    Senator Murkowski. So if, in fact, you have seen an 
increase of 15 percent since 2005, what has your staffing level 
been since 2005?
    Mr. Dodaro. For 2009, it has only increased by 60 full-time 
equivalents (FTEs). It actually had been going down. And so, we 
had a situation where the requests were going up in 2006 and 
2007, and the staffing usage was going down. Last year, I asked 
for a 150 FTE increase. We got about one-third of that, and are 
now coming back to ask for more.
    I firmly believe if the 109 FTEs are addressed, that will 
be the right size for GAO--assuming there are no further 
unusual events in our economy, and let us hope not.
    Senator Murkowski. Everything is unusual.
    Mr. Dodaro. Yes, but at this time, I think that is the 
right level for us to serve the Congress. So I don't see us 
coming back every year and asking for additional funding. I 
think this will get us up to a level that we can provide 
quality service to the Congress across the breadth of 
committees in a timely fashion.
    Senator Nelson. They did call the vote. So we will take 
about a 10-minute break. Be right back.
    The vote has been accomplished. And with any luck and good 
fortune, we won't have another interruption for a while. So 
appreciate your forbearance.

                 <greek-l>GAO deg.GAO'S HIRING STRATEGY

    Mr. Dodaro, on the 109 new FTEs, is that a number that is 
easily absorbed within a year? In other words, within 12 
months, or would it be safe to say that you could do it over a 
2-year period if you had 50 and 50 or roughly some number?
    But is it doable to bring on 109 people conceivably on the 
first day of the budget if you have an annualized appropriation 
rather than feathering them in over a period of time?
    Mr. Dodaro. Mr. Chairman, we have an ongoing recruiting 
process. Each year, we replace about 10 percent of our 
organization, which is over 300 people, just to replace normal 
attrition. That has held pretty steady, although we are down a 
little bit this year due to the economy. Not everybody is 
retiring as what they originally planned.
    But in the past we have brought in over 400 people in a 
year. If the Congress acts before the end of the fiscal year 
and we have a budget going into the fiscal year, rather than 
have a continuing resolution, we believe we can do that. We can 
bring in staff to replace attrition, and increase 109 FTEs.
    Senator Nelson. And absorb it all at the same time?
    Mr. Dodaro. Yes, with qualified people.
    Senator Nelson. Of course. Of course.

                <greek-l>GPO deg.GPO'S BUILDING REPAIRS

    Mr. Tapella, you are asking for $13.6 million in fiscal 
year 2010 to maintain and repair your buildings, but it is my 
understanding that you are also pursuing the idea of relocating 
to a smaller building in the near future. And is there an 
inconsistency in wanting to spend money on a facility that you 
may be leaving, or is this a facility other than the one that 
you would be leaving?
    Mr. Tapella. Thank you for the question, Mr. Chairman.
    GPO would like to build a new, modern manufacturing 
facility on our back lot. We have approximately 7 acres, 5 
blocks here from the Capitol, and we have enough land to build 
a new facility immediately behind our current facility. That is 
our goal.
    And in doing so, we would not only free up the 1.5 million 
square feet that is currently in our existing facilities, but 
we would be able to create a modern manufacturing facility on 
one level. We would be able to meet all of our needs in terms 
of office space and be able to build an additional 1 million 
square feet of space that could be available to the legislative 
branch should it need it, in addition to the 1.5 million square 
feet that we would be vacating.
    In answer to your question about whether it is 
inconsistent, I don't believe it is, sir. We have been trying 
to get a new building for 5 years. Prior to my time at GPO, 
there was a decade where there was a lot of deferred 
maintenance, and we are now dealing with safety and health 
issues.
    We have got elevators in particular--we are moving material 
and people up and down eight stories all day long. My highest 
priority item is elevator repair within that $13.6 million.
    Senator Nelson. You have been optimistic in the past with a 
little bit of deferred maintenance, and now you may not be 
quite as optimistic about the new building, and so let us take 
care of the old building, just in case. Is that fair?
    Mr. Tapella. Well, I don't know that it is necessarily 
whether it is optimistic or----
    Senator Nelson. Oh, I was just having a little fun.
    Mr. Tapella. Oh, okay. Quite honestly, you can only defer 
maintenance for so long, and then things die. And at this 
point, I have got three elevators that are completely out of 
service because they are not safe to be operated.

                     <greek-l>GPO deg.GPO SECURITY

    Senator Nelson. I understand. I also understand that GPO 
does some rather complicated security work for us, and you rely 
on your own police force, and you have contract guards as well. 
What are the differences in responsibilities of the contract 
guards versus your own employees who serve as your security?
    Mr. Tapella. Thank you for that question as well.
    We have 52 uniformed police officers, or we are budgeted 
for 52 uniformed police officers and currently have 8 
vacancies. We also run anywhere between 46 and 44 special 
police officers (SPOs), which are contract officers.
    Now, the mission of our police force and the combined 
security force is actually twofold--one, access control and the 
other protecting GPO's assets, such as the United States 
passport and other work in progress.
    We are looking at our total security posture, and it is a 
mixture of the two. The special police officers handle just 
access control. They are standing at magnetometers, working 
employee entrances, and greeting employees and visitors.
    Our uniformed police force, with the exception of 
protecting the asset of the United States passport, is there to 
respond to incidents and other issues. So when an alarm goes 
off, the uniformed police officers respond.
    Senator Nelson. Would there be much difference in the 
training of these individuals?
    Mr. Tapella. There is a difference in training. All of our 
uniformed police officers, which are the Federal officers, go 
down to Glynco, the law enforcement training center facility 
down in Georgia, to be fully trained. And they are full police 
officers.
    The special police officers have less training. They have 
firearms training. They have access control training, crowd 
control training, and the basic needs that fit what they do.
    Senator Nelson. And what about a differential in the cost? 
Is there a differential? Do you save money by having the two 
different security forces?
    Mr. Tapella. Yes. The SPOs are anywhere between one-third 
and one-half the cost of somebody of the uniformed police 
branch by the time that we include all of the benefits for the 
Federal officers.
    Senator Nelson. Have you had a study to establish that the 
level of security that you get from these two security forces 
is the kind that you truly want? In other words, that there is 
no diminution of security because some are contracted out 
versus some are employed?
    Mr. Tapella. Any time you are talking security, you are 
looking at two things--cost and risk. And you can always have 
more security, but you will have an intended cost, and you have 
to look at what that risk is of an incident occurring.
    In fact, GAO just completed a study of GPO's security, and 
briefed the Appropriations Legislative Branch Subcommittee on 
the House side as well as our oversight committee. In their 
report, they said, ``GPO generally conforms to key practices in 
Government facility protection.''
    I believe that we have the right mix. I am not a security 
expert. However, I do have security experts on staff that are 
running our entire security systems. It involves not just our 
officers. It involves alarms. It involves intrusion detection. 
It involves cameras and a general presence.
    In fact, just last week, the District of Columbia 
recognized the GPO police force and our security services. They 
did a 500-foot radius around 732 North Capitol Street, and the 
amount of crime in that area has been reduced significantly 
over the last 3 years since we have implemented the combination 
of uniformed police officers and special police officers.
    Senator Nelson. Well, it is hard to believe that the House 
got ahead of us, but they did. Because I was going to suggest 
Mr. Dodaro do that very thing in evaluating your police, but 
for once, the House has gotten ahead of the Senate. So we won't 
have to ask for that.
    Thank you.

           <greek-l>CBO deg.SUPPLEMENTAL APPROPRIATIONS BILL

    Dr. Elmendorf, the Senate version of the fiscal year 2009 
supplemental appropriations bill--we talked about this earlier, 
but I would like to get it for the record--includes that $2 
million for CBO to address Congress' growing demand for work. 
Would you explain to us how that is going to happen?
    And let me say that what my colleague was bringing out, it 
seems like Congress asked you to do more work and then gives 
you fits because you want to charge and put in your budget for 
that work. It doesn't seem quite fair that you get squeezed at 
both ends. ``Give us more. We want to give you less.'' But 
maybe you can tell us a little bit about the $2 million?
    Dr. Elmendorf. We appreciate your concern, Mr. Chairman, 
for that position. When we formulated our budget request for 
fiscal year 2010 a few months ago, we put forth what we viewed 
as an important, but modest request for additional funding.
    Starting a few weeks ago, some of your colleagues in the 
Senate became concerned that CBO might be unable to deliver 
estimates of the effects of health reform proposals as quickly 
as was desirable. I want to be clear we have delivered a 
tremendous amount of analysis. We have delivered preliminary 
estimates of more than 100 specific health reform items to the 
relevant committees, and we have delivered preliminary 
estimates of several full-scale reform proposals, overhauls of 
the insurance system to several committees.
    So we have done a tremendous amount. And as I mentioned in 
my remarks, our health staff is working around the clock. But 
it is undoubtedly the case that the committees would like more 
analysis faster. The complexity of the proposals they are 
considering and the variance on the proposals and the variance 
on the variance will, indeed, overwhelm our ability to do that.
    So we were asked what we might do, if funds were provided 
immediately, to accelerate the process of providing analysis. I 
tried to be clear to everybody who has asked or who has to sit 
and listen, that doing more health analysis does not amount to 
going down to the temp agency and just checking the box on 12 
new people and bringing them back to the office and lining them 
up, and then new results come out.
    On the other hand, we do understand the urgency that 
Congress feels for these analyses. So we put together a 
collection of steps we might take with additional funding.

                 <greek-l>CBO deg.HIGH SPEED COMPUTERS

    The supplemental has $2 million for us in it, and the 
purposes to which we have said we would put that are, first, to 
acquire high-speed computer equipment, a very basic point. But 
the proposals we are now analyzing are much more complicated 
than the ones we have done in the past, and just the computing 
time is slowing us down. And new computers that we could have 
in place within weeks of getting the money would accelerate 
that process. We would spend $300,000 on new computer 
equipment.

             <greek-l>CBO deg.ACTUARIAL AND EXPERT SERVICES

    We also propose spending $400,000 to purchase actuarial and 
other expert services from private agencies. When we estimate, 
for example, the cost of various health reform proposals, 
judging the health and, thus, the likely health spending for 
people in certain pools is an important part of the estimate. 
And we have some of those skills in-house and can do that 
ourselves with time, but could do it much more accurately and 
quickly with outside services.

                <greek-l>CBO deg.PRESCRIPTION DRUG DATA

    We propose spending $300,000 on data on prescription drugs, 
so we can better gauge the cost of plans that would provide 
drug benefits or would change the way Government purchases drug 
benefits for individuals.

                <greek-l>CBO deg.ADDITIONAL COMPENSATION

    We would spend $250,000 in additional compensation to CBO 
staff, people who are working around the clock and, I think, 
show a great commitment to public service. But I am concerned 
that weeks and months of this process will drive them into the 
ground and that we will ultimately lose their services in the 
future, and this is a way of trying to make up for some of the 
dislocation of their lives.

                   <greek-l>CBO deg.ADDITIONAL STAFF

    And then we would spend $750,000 to further increase the 
size of CBO staff, to hire four additional people to work in 
the health area. As you know, we have hired very aggressively 
in this area, I think appropriately so. We, of course, need to 
hire the right sorts of people, and other places in the world 
are also demanding people with expertise in health. So it is 
not straightforward, but we have been able to hire.
    I think we have been very pleased at our ability to put the 
people we have hired over the past year to effective work. 
Obviously, people come with a lot of knowledge, but not with 
all of the knowledge they need. And we have been concerned 
about our ability to integrate them. But that has worked out, I 
think, quite well that we have actually--we are getting 
immediate value out of or nearly immediate value out of the 
people we have hired.
    And we think with additional funding, we could bring on 
board more people, and that would enable us to do our jobs more 
effectively and more quickly.
    Senator Nelson. I am sure it must seem like the Finance 
Committee has its foot on your accelerator, and this committee 
has its foot on your brake.
    Dr. Elmendorf. No, Senator. A number of committees have 
their feet on our accelerator, but we do not view you as the 
brake. We appreciate your support very much.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Well, I appreciate the explanation that 
you have given, Dr. Elmendorf. I will admit that I looked at 
the request and the supplemental and said why does this have to 
be in the supplemental? Why the urgency? But I think you have 
related it does appear that what has been requested in the supp 
will be spent within this next year.
    Dr. Elmendorf. As I understand the supplemental, the money 
is available to us for the rest of this fiscal year and through 
fiscal year 2010. That is important because we can't hire 
people in August and not pay them in October. But we do expect 
to spend the money over that period, and I think we will put it 
to good use.
    Of course, it is your choice whether that is the best 
available use of the money. But we will put it to use for you, 
no doubt.
    Senator Murkowski. Appreciate you responding to that.

     <greek-l>GAO deg.PRIVATE SECTOR REPORTING ON THE RECOVERY ACT

    Mr. Dodaro, I had one more question for you. There was an 
article in the Post this morning about the review, the online 
review of the spending of the stimulus dollars under the 
Recovery Act, and it made reference to a Web site that 
apparently was not the Government's Web site but was actually 
doing more of what we had hoped than our Web site. Can you give 
me a little more background on that?
    Mr. Dodaro. My understanding is that, and I read the 
article that you talked about, and it is recovery.org rather 
than dot gov.
    Senator Murkowski. Right.
    Mr. Dodaro. And it seemed to indicate that they were paying 
people to go through contract documents and public records and 
things that were done across the country and then taking that 
information and populating their database with it, as opposed 
to the approach that will be used by the executive branch, 
which is to have reports provided by the Federal agencies and 
then have reports come back from all the recipients that have 
received Recovery Act funds. They are required to submit 
quarterly reports.
    Now the quarterly reports are not estimated to begin coming 
into the Federal Government until October. They may have some 
pilot reports in July. One of the recommendations we made in 
our first report was to better define the data collection 
requirements because some of those reports are supposed to 
outline the number of jobs preserved or created, along with the 
status of the additional funding.
    But the basic difference is that you have a private sector 
entity that is combing through public records at all levels of 
Government and putting information together from those sources 
versus the Federal Government building a Web site from the 
Federal agencies and then collecting information from State and 
local and other recipients of the funds.
    We have not evaluated the accuracy or completeness of a 
private sector data source, and we would not have the authority 
to do that. We do plan to evaluate the Federal Government's Web 
site.
    Senator Murkowski. Which I think is appropriate, and you 
should be doing. It does make for kind of an awkward 
comparison, if you will, that, as the Government, we have 
tasked you to do this and, thus far, there is not much to 
report, and yet you see that out there in the private sector, 
they are thumbing through reports and gathering information. It 
does all come down to the accuracy of it.
    Mr. Dodaro. Right.
    Senator Murkowski. I don't know anything more than what I 
read in the paper this morning. I hate to get all of my 
information from the Post, but it is something that I wanted to 
raise because that question will be asked. Well, why is the 
Government so slow in responding if private guys can get this 
information, why are we so slow?

          <greek-l>GAO deg.GAO'S INITIAL RECOVERY ACT FINDINGS

    Mr. Dodaro. Part of the problem is the number of funding 
streams that are occurring at this level, involving many 
different Federal agencies and programs. Some of them are 
flowing directly to localities, bypassing the States. Some are 
going through the States and then allocated down.
    And one of our efforts is to focus at the State and local 
level and to provide that information. So we are tracking that. 
The programs have different requirements. Some of the money, 
for example the Medicaid money, paid States retroactively to 
October 2008. So some of that funding got out a little earlier 
than the funding for transportation highways.
    The 16 States that we looked at had been allocated about 
$15 billion. There is only $3.3 billion that was obligated. In 
that case, the Federal Government and the States had agreed on 
about 950 projects. Most of them are still in the bidding 
process. So in April and May, a couple of States, Mississippi 
and Iowa, had actually awarded contracts and put them in place. 
And then the State stabilization fund is even more complicated 
because most of that goes to education, but 18 percent they can 
use for a wide range of public services.
    So we are trying to track this, and it is in varying stages 
of development. But I think the real question is the accuracy 
and the completeness of whatever information is collected. And 
hopefully, we will be in a position for the localities we are 
at to provide insight into that.
    Senator Murkowski. And we appreciate the complexity, most 
definitely appreciate the complexity. I feel my job, as a 
legislator, now that that money is either out on the street or 
getting out there, we are charged with making sure that there 
is that level of accountability. There is that level of 
transparency. So we do rely on you for that accurate 
information.
    Mr. Dodaro. One of the things I might point out is that one 
of the recommendations that we made is that the administration 
clarify the amount of money that the States could use to ensure 
adequate oversight and accountability of the funds. A number of 
States, as I am sure you are aware, have cut back, because of 
their own financial stress, on some of the management functions 
and the auditing functions that they normally have in place to 
do that, and that was a concern to us.
    And so, we made that recommendation, and hopefully, the 
administration will act on that. They are beginning to clarify 
that issue. But I think that is a very important point that 
needs attention.
    Senator Murkowski. Mr. Chairman.
    Senator Nelson. Thank you.

                 <greek-l>GPO deg.GPO'S REVOLVING FUND

    Mr. Tapella, GPO is requesting over $32 million in fiscal 
year 2010 for the so-called revolving fund. Could you explain 
how the revolving fund works, and which items in this request 
are the most critical for the success of your agency? If you 
could, just give us some idea of how this works.
    Mr. Tapella. Thank you, Mr. Chairman.
    Our revolving fund is like a business checking account. 
This year our budget was originally set at $1.02 billion, of 
which roughly 12 to 13 percent is direct appropriations from 
Congress. The remainder we earn by selling products and 
services to all three branches of the Government, as well as 
products to the public through the GPO bookstore.
    Like any business, we have a checking account, and money 
comes in and money goes out. For example, the congressional 
printing and binding fund, when we complete work for Congress, 
we then bill the appropriation, and the money gets moved from 
the appropriation account into the GPO revolving fund. And like 
any business, we keep reserves in our accounts.
    In terms of our priorities for our request for the 
revolving fund, our highest priority is the completion of 
FDsys, the Federal Digital System, which we released earlier 
this year, and that is an $8 million request.
    The second priority is the composition systems replacement 
project, which is $2 million. And this project is to replace 
the system that we use to create all congressional work, plus 
the work we do for the Office of Federal Register and some 
other customers.
    The total cost of that project is roughly, we are 
guesstimating, around $5 million. Last year, GPO allocated out 
of our retained earnings $2 million. We are asking Congress for 
$2 million to cover the congressional proportion of it, and 
anything beyond that we will deal with it as we move forward in 
the project. But we are thinking it could be as much as $1 
million or so beyond the $4 million, the $2 million we have 
allocated and the $2 million we are asking for.
    The third item is what we call GBIS, which is our financial 
system, and it is an Oracle-based financial system. And we are 
asking for a $3 million investment there. Like any business, we 
have to bill customers, and that is what we do with the Oracle 
system.
    We also have to phase out our R-22 air-conditioning 
coolants, and that is a requirement from the EPA this year, and 
we need to fund that at $200,000. And finally, there is $3 
million for elevator repairs. So out of that money we are 
requesting for the revolving fund for the projects that are a 
priority is $16.2 million.

         <greek-l>GPO deg.PUBLIC PRINTER'S REPRESENTATION FUND

    Senator Nelson. What is the Public Printer's representation 
fund?
    Mr. Tapella. Most Federal agencies have what is called a 
``rep fund,'' which is a representation and reception 
allowance. And in GPO's case, it is not new appropriated money. 
In GPO's case, it is an authorization to use up to $5,000 in 
our revolving fund. We have a limitation by law that we can 
only spend up to $5,000 in our revolving fund for 
representation and reception expenses, subject to restrictions 
on what these funds can be used for.
    Now, unlike most other agencies, we are basically a wholly 
owned Government business, and we have to sell products and 
services to other agencies. That is our complete marketing 
budget for representation and receptions. So it is $1 billion 
enterprise, and our complete marketing budget for these costs 
is $5,000.
    I would like to see, if possible, permission to have that 
increased up to $7,500. And basically, this past year--I have 
been Public Printer now 18 months. In the last calendar year, 
the $5,000 was not enough to meet the needs of the business. 
And personally, I contributed a little over $20,000 to make 
certain that GPO could meet its representation and reception 
needs.
    Senator Nelson. If you doubled that or you tripled that, 
what would it do to your revenues?
    Mr. Tapella. Well, one, I hope it would help us to continue 
in new business development. We have seen a revenue line--our 
revenue trend has been going upward for the last 7 years. We 
got a significant spike because of the increase in both the 
type of passport, the new electronic passport, and the number 
of passports produced.
    But all of our other businesses are growing as well. And 
when we look at the total cost for the Government Printing 
Office, we have a lot of overhead, which is our IT, our 
infrastructure, our buildings. If we do not have business 
opportunities with other agencies, the demands on our 
appropriations are going to be significantly greater.
    I would like to see us put a significant emphasis into new 
business development. That is mostly in the areas of security 
and intelligent documents. For example, we now produce for 
Customs and Border Patrol, the NEXUS and SENTRI cards, which 
are the cards that are used for border crossings to Canada and 
Mexico. We also do the FAST card. We just got a contract with 
the Department of Health and Human Services (HHS) to do the 
Medicare card for Puerto Rico.
    We have these significant capabilities, but we need to be 
able to make sure we are marketing them as much as we can, 
including through our representation and reception fund. And in 
my view, these items are inherently governmental. Security IDs 
and other secure documents ought to be in a Government-owed, 
Government-controlled facility rather than sent to a private 
contractor in the private sector.
    Senator Nelson. Thank you.

                    <greek-l>GPO deg.CHANGES AT GPO

    Senator Murkowski. Mr. Chairman?
    I appreciate your comments, Mr. Tapella, about kind of 
where or how the GPO is actually changing in terms of what it 
is dealing with and basically staying current and looking for 
those business opportunities. You have mentioned security and 
intelligent ID. What additional changes might you envision 
within the next, say, 5 to 10 years in terms of what it is that 
you are doing?
    Mr. Tapella. I think it really falls into two buckets. One 
bucket is in electronic information. GPO currently operates a 
traditional bookstore. It is on North Capitol Street. We sell 
tangible books. We also have the authority to sell electronic 
information products and have had that authority since 
approximately 1987.
    With the release of FDsys, which is our Federal Digital 
System, which is a repository of authentic Government 
information and electronic forms, I believe that there are some 
business opportunities there, particularly in the area of print 
on demand, as well as in the area of distributing that 
information in a slightly different way. That is one bucket.
    The second bucket is really in the area of secure ID cards. 
Right now, we produce the passport for the State Department. It 
has an electronic chip embedded in it. To date, GPO is the 
single largest chip buyer in the Federal Government. So we have 
economies of scale.
    We are producing and did produce on behalf of the JCCIC, 
the Joint Congressional Committee on Inaugural Ceremonies, the 
secure credential card used by 10,000 police officers on the 
day of the inaugural. And it was a high-tech ID card.
    We are in the process of doing the NEXUS and SENTRI cards. 
We are looking at becoming the backup supplier for the CAC, 
which is the central access card used by the military, or 
common access card used by the military.
    It also takes advantage of the skilled labor we have at 
GPO. We are not only a traditional paper and ink manufacturer, 
we also are in the electronics business. And I would like to 
see those skills and talents of our employees maximized.

                 <greek-l>GPO deg.DEMAND FOR PASSPORTS

    Senator Murkowski. You have mentioned a couple of different 
times the collaboration between GPO and the State Department as 
it relates to the passports with the electronic chip. I 
understand that we have seen a drop-off in demand in terms of 
the passports quite noticeably. How has this fluctuation in 
demand impacted GPO, and are we at the point where the demand 
for passports has stabilized? Do you see that changing at all? 
What do you consider there?
    Mr. Tapella. Last year, because of the significant demand, 
we produced 24.5 million passports. The State Department 
originally anticipated this year that the request was going to 
be 16.5 million passports, and we built a budget around 16.5 
million passports.
    We got a surprise the week before Christmas, which was at 
the end of the first quarter of the fiscal year, where they 
said, ``No, no, this year we will only need 10.5 million 
passports.'' That represented roughly a $75 million decrease in 
revenue to the Government Printing Office.
    When we originally set our budget, we set roughly $2 
million in net income. And that is the money that we use to 
reinvest in our business. Obviously, we don't have that this 
year.
    And in fact, in December, we were facing a roughly $36 
million budget gap between anticipated revenues and what our 
expenses were for the year. We have now got that cap down to 
roughly $10 million to $13 million, and over the course of this 
year, we will end the year, I believe, in the black. But we 
will probably be lucky if we make $2 or $3 million in net 
income by the end of this year.
    We are at the mercy of our customers, just as we are at the 
mercy of Congress in terms of what Congress does. In last 
year's appropriation, we had revenue to pay back GPO's 
revolving fund from money expended to do congressional work 
because there wasn't enough money previously allocated for such 
purposes.
    And so, we are at the mercy of our customers. So we make 
the best guesstimates that we can, like any other business, and 
we run into that difficulty every now and then.
    Senator Murkowski. So what is your forecast for the 
passports for next year?
    Mr. Tapella. We have not yet received the forecast from the 
State Department. I am hoping that it will be larger than this 
year's. It would be nice if it would get up in the 15 million, 
16 million range. We have dedicated nearly 150 employees just 
to passports, and we have a facility here in Washington, DC. We 
have a facility in Stennis, Mississippi. I think a lot will 
have to do with this next deadline for the western hemisphere 
travel initiative, which goes into effect June 1. That may have 
an effect.
    What we are trying to do is get into new businesses, such 
as Customs and Border Patrol, the NEXUS, SENTRI cards, to try 
to make up for potentially less revenue in the passport 
business.
    Senator Murkowski. We have been pushing--we share a border 
with Canada, and we have been urging Alaskans for the past 18 
months to aggressively get your passport now. I think we 
contributed to some of your business.
    But I would imagine that we are probably on that downhill, 
and I don't know whether it is a stabilization, but I wouldn't 
expect that we would see a continued increase in requests for 
passports. I think that the message that we, as lawmakers, were 
trying to get out, I think they finally got it. And people 
really did get out, and we saw that bump up. But I wonder 
whether it is going to continue at that.
    Mr. Chairman, I had a question about the facilities issues 
and the police force, but I understand that you had an 
opportunity to already ask Mr. Tapella that when I was walking 
back over here. So I don't have any further questions.

             <greek-l>GPO deg.BUSINESS APPLICATIONS AT GPO

    Senator Nelson. I don't know that I have any further 
questions. I guess I would make a comment that maybe that 
representation fund should be expanded because any business 
that would be looking at a downturn on one side of their 
business would be looking for ways to create an upswing on the 
other side of their business.
    And it seems to me that in a day and age when we are 
looking for more transparency, the data, the information, 
everything that you have is valuable to countless numbers of 
groups and others. And it would seem unless you have saturated 
the market out there already, which I rather doubt it, not with 
a $5,000 representation fund, that there would be a market that 
you could go after.
    I don't want to turn the United States Government into a 
business, but certainly there are business applications that 
would be appropriate for what you are doing. So I certainly 
wouldn't be against seeing that fund or that number increasing, 
if you had any thoughts?
    Mr. Tapella. Well, I would agree with you completely. 
Essentially, we are a business or we operate like a business. 
And I actually think it is a good thing. I am not opposed to 
it.
    I think it is important that we be lean and mean like other 
businesses. And there are a lot of opportunities. There are a 
number of things that I believe are inherently governmental 
that are currently being done by private sector vendors that 
are better served in a Government-owned, Government-controlled 
facility, particularly as it relates to security and 
credentials.
    One of the areas that if we had the authority to do, which 
we presently do not have, I would love to be able to use our 
excess capacity in passport production to produce passports for 
other countries. In order to do that, we would have to have 
specific authority or have the State Department host the other 
countries. But that is an area where, for example, we could 
provide some great value, and it would keep our folks gainfully 
employed and fully enabled.
    Senator Nelson. Well, if you have got excess capacity, one 
of the best things that you can do is find a use for it. And 
perhaps you might think about putting a plan of that sort 
together. I am more than happy to continue to talk to you about 
it, and perhaps there is something that could be established to 
do that very thing.
    I don't know whether you--Mr. Dodaro would want to take a 
look at that as well. Certainly, we ought to maximize whatever 
capacity we have, particularly in a down economy.

                  <greek-l>GAO deg.GAO'S PASSPORT WORK

    Mr. Dodaro. We would be happy to take a look at that. We 
have looked at the security surrounding the passports, both in 
terms of being able to get them with falsified documents, as 
well as the securities of the chips that Bob has been talking 
about. So we will be happy to look at the demand issue as well 
for you.
    Senator Nelson. And come up with maybe some path forward on 
what kind of authority would be required. We could take a look 
at it at the very least.
    So, well, I want to thank the witnesses.
    Yes, Senator Murkowski?

              <greek-l>GPO deg.GPO INFORMATION TECHNOLOGY

    Senator Murkowski. I just realized there was one final 
question that I had not----
    Senator Nelson. Sure.
    Senator Murkowski [continuing]. Yet asked. I apologize. And 
this relates, Mr. Tapella, to the information technology 
request, the $18.5 million. It is my understanding that these 
initiatives that are contained in this IT request have been 
requested in prior years, but they haven't been funded.
    Can you let me know why is it important that we do them 
now? What the impact of continuing to defer some or all of 
these to a future year might be? I just want to understand 
because $18.5 million is not unreasonable in terms of a 
technology request. But if you have been able to get by without 
it, what would be the impact of continued deferral?
    Mr. Tapella. Number one, as we have looked at prior year 
requests, we requested typically the amount for the entire 
project. And what we have done is we have broken those down, 
and in many ways, we have funded the first phases of these 
through retained earnings when we didn't receive direct 
appropriations for the purposes.
    As we look at FDsys, the subcommittee previously had been 
very supportive by allowing us to use prior year unobligated 
congressional printing and binding funds and salaries and 
expenses to fund FDsys. And that is the whole reason that we 
were able to release it this year.
    The remaining $8 million we need to complete the 
functionality of FDsys, to take it from where it is today to 
the complete functionality, we still have a 2-year roadmap of 
releases for FDsys. And if we don't have the funding, and 
particularly in GPO's current financial state, we will not have 
the retained earnings to fund it out of our revolving fund, as 
we had in some prior years. So FDsys would probably stop with 
its existing functionality should we not get the funding levels 
we need.
    As it relates to composition replacement system, that is 
something that we use for both Congress and for the Federal 
Register. Those are our prime areas. We have already committed 
the first $2 million for it from our revolving fund, and it was 
retained earnings from the products and services we sell to 
other agencies. We expect the total project to cost $5 million.
    Since we use it significantly for congressional products, 
or at least 50-50, we believe the Congress should be paying for 
their share of it. And actually under the law, they really 
should as well because it falls into the Anti-Deficiency Act in 
terms of using funds for its intended purpose.
    That is going to be done in three releases. The first 
release will be completed about 1 year after the initial award. 
And we are ready to go out with an RFP probably within the next 
month or so. And we have got enough money for this first phase. 
If we don't get the money this year to continue it, it is going 
to go on hold.
    As we look at the Oracle system, we are in an interesting 
situation for our transformation. The transformation began in 
2003 really. We are now 6 years into it, and we have had to 
replace all of our systems. We were on old mainframe systems. 
They are legacy systems. They are no longer supported. And this 
year, we are running in duality. We have our new Oracle system. 
We are still running some mainframe systems. We have the new 
FDsys. We are still running GPO Access.
    When it relates to our financial systems, if we do not have 
the funding to continue Oracle, we are going to have to 
continue basically paying double for our overhead in those 
related areas, and we will not see the benefits of such a 
system. And I think that is really critical.
    As it is, we are probably looking another year or two in 
duality just with where we are in funding levels. And if we 
don't get the funding, it is going to be 4, 5, 6 years, which 
means at the end of the day, you are still paying for it 
because we are going to have to charge more for congressional 
printing and binding if we have significantly greater overhead.
    And so, it is sort of a win-win, lose-lose, you pay one way 
or the other.
    Senator Murkowski. Thank you. Appreciate that, Mr. 
Chairman.
    Senator Nelson. Thank you.
    I want to thank the witnesses today for attending our 
hearing.

                          SUBCOMMITTEE RECESS

    The subcommittee will stand in recess until 2:30 p.m. on 
June 4, 2009, when we will meet to take testimony on the fiscal 
year 2010 budget requests of the Library of Congress and the 
Open World Leadership Center.
    We are recessed.
    [Whereupon, at 4:01 p.m., Thursday, May 21, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Thursday, 
June 4.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        JO ANN JENKINS, CHIEF OPERATING OFFICER
        DR. DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND 
            AND PHYSICALLY HANDICAPPED

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Good afternoon, everybody, and welcome. We 
meet this afternoon for our fourth and final legislative branch 
budget hearing for fiscal year 2010. Today, we will hear from 
the Library of Congress and the Open World Leadership Center.
    It is my pleasure to welcome my ranking member--my 
recovering ranking member here--and good friend, Senator 
Murkowski. It has been a real pleasure working with her 
throughout this process this year, as well as with the other 
members of the subcommittee, Senator Pryor and Senator Tester. 
And we hope that perhaps they will be able to join us today as 
well.
    And I want to welcome our witnesses today--Dr. James 
Billington, the Librarian of Congress, and Ambassador John 
O'Keefe, Executive Director of the Open World Leadership 
Center. It is good to have both of you gentlemen here this 
afternoon, and we are looking forward to hearing from you.
    We would hope that perhaps you would keep your opening 
statements as brief as possible, perhaps around 5 minutes, and 
submit the rest of your testimony for the record.
    One thing that we have established at our first three 
hearings, and I hope it bears repeating, is that we are not 
eager to increase the overall legislative branch budget this 
year. And so, we are looking for your guidance in helping us to 
address your agency's needs in fiscal year 2010, but this is 
not the year for the ``nice to haves.''
    Senator Murkowski and I look forward to working with you in 
this regard, and we have been working with the other members of 
the legislative branch in that regard as well.
    First of all, Dr. Billington, I want to welcome you and 
your Chief Operating Officer, Jo Ann Jenkins. It is an honor to 
have you here today. On behalf of the subcommittee, I want to 
wish you heartfelt congratulations on your 80th birthday.
    And thank you for your service as Librarian of Congress for 
these last 22 years, very important years in the development 
not only of the Library for Members of Congress, but for your 
efforts to reach out to world leaders and to bring them into 
the kind of librarian finesse that you have been able to 
continue to provide for all of us, and we appreciate that.
    I know personally, having been with you in Moscow and your 
close association with Mr. Putin and Mrs. Putin, and what you 
have been able to do to help them with their library efforts is 
commendable and makes us all very, very proud. Your service in 
this capacity is both highly commendable and greatly 
appreciated, and we can't express enough our appreciation for 
those efforts.
    The Library's fiscal year 2010 request totals $658 million, 
an increase of $51 million, or 8.5 percent over fiscal year 
2009. And I note that a large portion of your increase, about 
$20 million, has to do with upgrades to the Library's 
information technology systems. I look forward to hearing from 
you and discussing this with you just a little later on.
    I also want to welcome Ambassador O'Keefe of the Open World 
Leadership Center. Your budget total is $14.456 million, an 
increase of $556,000, or 4 percent above the current year.
    I want you to know that I strongly support the work of Open 
World. We are very proud of what you are doing in reaching out 
and bringing others into the kind of relationship with our 
country that we all want and we know that the others respect 
and want to continue.
    Your leadership in that area, your role has been 
tremendous. We are both proud and very supportive of your 
efforts, and we want those efforts to be able to continue. And 
we want to work with you in order to make sure that that, in 
fact, does happen.
    And now I would like to turn it over to my friend and 
ranking member, Senator Murkowski, for her opening remarks.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    I appreciate how this series of hearings has gone. This is 
our fourth and our last, as you have noted. But as a new member 
to the Appropriations Committee and certainly a new member here 
with this Legislative Branch Subcommittee, there has been a 
great deal of focus and attention to the real workings of what 
goes on within the legislative branch, and I appreciate that.
    Sometimes this is one of those appropriations subcommittees 
where things just kind of move forward on status quo, and I 
think the level of inquiry that we have had in subcommittee 
with your leadership, it has been appreciated on all ends. And 
I just wanted to make that comment.
    I want to welcome the witnesses before us today. I had an 
opportunity to do a little sit-down with Dr. Billington and 
Ambassador O'Keefe. I appreciate that a great deal.
    Ms. Jenkins, it is a pleasure to welcome you back, and I 
know you have got a full team behind you as well. We certainly 
welcome you to the subcommittee.
    There is also an Alaskan today that I want to acknowledge. 
The Library brings to Washington every year a teacher to work 
with its Educational Outreach Division. And for the 2008-2009 
school year, the Library selected David Miller, who is the 
library media specialist from Ketchikan High School.
    I didn't go to Ketchikan High. I was born there. My parents 
both went there. So it is nice to have a hometown person 
associated with our Library. He has worked on several different 
projects, including an online professional development project, 
facilitating educator workshops, and developing teacher 
materials for the Library's Learning Page, which is great.
    The Library has had some important events in the last year, 
including the opening of its new visitor's experience in the 
Jefferson Building, the launching of the World Digital Library 
in Paris with partners from 21 countries, and the first full 
year of operating the state-of-the-art National Audio-Visual 
Conservation Center in Culpeper, Virginia.
    And Dr. Billington, Senator Nelson mentioned your work with 
Russia, and we know your involvement, very instrumental 
involvement with the opening of the Yeltsin Presidential 
Library in St. Petersburg, Russia. These are truly important 
accomplishments.
    Mr. Chairman, you have noted that for fiscal year 2010, the 
Library of Congress is requesting a budget of $699 million, 
offset by collections of $41 million, and this is primarily 
from copyright fees, which is an increase of 8 percent over 
fiscal year 2009.
    There are some large new initiatives included in the 
budget, such as multiyear information technology enhancements, 
which total about $15 million annually. This is an area that 
hasn't received budgetary increases in some time. So I look 
forward to hearing why an increase of this magnitude is 
justified, how it ties to an agencywide digital strategy.
    As far as the Open World program, Mr. Chairman, you have 
clearly noted your support for that program. They are 
suggesting an increase by 4 percent. I will ask in my questions 
to you, Ambassador O'Keefe, how and why a foreign exchange 
program belongs in the legislative branch bill.
    I am not questioning whether or not it should continue, but 
whether this is the right spot for it. I think you have 
probably had that question before. So I will look forward to 
your response with that.
    With that, Mr. Chairman, I am anxious to hear the comments 
from those who are here today to present.
    Senator Nelson. Well, at the risk of further embarrassing 
Dr. Billington, I certainly would like to say, Dr. Billington, 
that so many of us consider you a national treasure in your 
role in the Library and what you have done to reach out to 
others in the world.
    And certainly, Ambassador O'Keefe, you embody the same 
spirit. So, with that, Dr. Billington, we would love to receive 
your testimony.

                SUMMARY STATEMENT OF JAMES H. BILLINGTON

    Dr. Billington. Thank you, Mr. Chairman and Senator 
Murkowski, members of the subcommittee.
    It is really an honor to be here to represent the Library 
of Congress fiscal 2010 budget request.
    The Library has been honored to bring our outstanding 
recent exhibit, Mr. Chairman, commemorating the 200th 
anniversary of Abraham Lincoln's birth to Omaha as its last 
stop. Actually, it began in Omaha because Union Pacific funded 
it and made it possible. So it is only fitting that it had its 
last stop in that city.
    Senator Murkowski, we really appreciated your staff touring 
the exhibit with Library curators while it was still in the 
Jefferson Building, and we look forward to your coming to the 
Library this summer to look at our holdings on Alaska.
    It happens that right now a member of our staff, in 
addition to Mr. Miller, who is with us this year with our 
Teaching with Primary Sources Program that the Congress has 
supported so well, is running a teacher training workshop in 
Anchorage, and she just reported to us that every school 
district in the State is represented, except for Juneau, where 
the schools are still in session.
    So, anyhow, we look forward to working with you both and 
with all the members of this subcommittee, and we appreciate 
your cordial words.
    In fiscal 2010, we are requesting a net increase of 8.1 
percent, of which 4.6 percent represents funding for mandatory 
pay and price level increases; 0.4 percent is to sustain 
continuing projects, and the remaining 3.1 percent--the only 
major increase this year--is to support a critical investment 
in updating and enhancing the Library's technical 
infrastructure.

                 TECHNOLOGY INFRASTRUCTURE REQUIREMENT

    We are, in effect, superimposing a digital world on top of 
the traditional print world, moving from traditional business 
systems of personnel, finance, cataloguing, and management of 
information systems, to taking in and managing the very fast-
changing digital formats that include eJournals, eBooks, 
digital TV, Web sites, digital images, digital audio and 
visual, and so forth.
    Each of our major program areas, the Congressional Research 
Service, Library Services, the Law Library, the Office of 
Strategic Initiatives, and the Copyright Office, must now deal 
with all aspects of digital works--acquiring them, preserving 
them, and providing access to them.
    Over the past 15 years, we have built separate systems, 
successfully meeting individual program needs as they have been 
identified to deliver the new services that Congress and the 
American people have asked of us. Some of these systems are 
new, like the Copyright Office's online registration system. 
Others rely on what has now become very dated technology.
    The Library has not sought any increase in base funding for 
the technological infrastructure for all of this for a decade. 
We now have a pressing need to modernize this infrastructure so 
that we support our diverse and vastly increased digital 
activity more efficiently. We must do so with more unified 
Library-wide systems that can be adjusted and scaled up 
economically to sustain services and meet new user demands as 
the technology changes.

                   SUPPORT FOR DIGITAL TRANSFORMATION

    We are now providing far more services and with 1,000 fewer 
full-time equivalents (FTEs) than we had in 1992, when we had 
barely begun the Library's digital transformation. Our entire 
technology request builds upon successful services that we have 
built incrementally, and unique experiences and feedback that 
we have gained through a variety of these initiatives.
    We are now poised to develop core infrastructure that can 
be used by all parts of the Library. We recently launched with 
UNESCO our World Digital Library, which has received 
extraordinary international acclaim with something online from 
all 192 members of UNESCO. It attracted 20 million page views 
in its first 4 days and is proving to be an effective catalyst 
for building the new technological platform with reusable, 
scalable, and multimedia components.

                               FORT MEADE

    In conclusion, let me just highlight our Fort Meade 
request. Having the space to store so much of America's 
creativity and the world's knowledge in environmentally 
controlled facilities is critical to sustaining the historic 
mission of the Library. Publication continues to grow 
worldwide; has increased by approximately 40 percent since 
2000, even as online digital information is expanding. The Fort 
Meade program has achieved 100 percent retrievability, and is 
essential for preserving and making accessible our uniquely 
comprehensive collections for Congress.
    Amazon has recently stated that no meaningful solutions for 
effective long-term collection management can be implemented 
until more space is created, after inspecting the collections 
in a recent pro bono visit to the Library. The Library is a 
unique treasure trove of information, knowledge, and 
creativity, much of which is not available anywhere else.

                          PREPARED STATEMENTS

    Today, when technology is transforming the way we deliver 
our services to Congress and the Nation, the Library is 
renewing and expanding its role in our knowledge-based 
democracy. We look forward to working with this subcommittee to 
craft a budget for fiscal 2010, and we thank you and the 
Congress as a whole for continuing to be the greatest patron of 
a library in the history of the world.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Dr. Billington.
    [The statements follow:]

               Prepared Statement of James H. Billington

    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee, I am pleased to present the Library of Congress fiscal 
2010 budget request.
    Mr. Chairman, I am deeply grateful to you and the subcommittee for 
your full support of our fiscal 2009 request. It has heartened and 
strengthened us at what we know is a time of extraordinary fiscal 
pressures on the Federal Government. In such a time, I feel a special 
obligation to stress the importance of what the Library of Congress is 
doing for America's future.
    The Congress of the United States has been, quite simply, the 
greatest patron of a library in the history of the world. Its creation, 
the Library of Congress, is the largest and most diverse collection in 
human history of the world's knowledge in all languages and of the 
intellectual and artistic creativity of the American people in all its 
major recorded formats.
    The Library's historic mission has been to serve the Congress and 
the American people by acquiring, preserving and making accessible its 
unique material and human resources. Its major challenge--and 
opportunity--in recent years has been to sustain and extend that 
mission amidst one of the greatest revolutions in history in how 
knowledge is generated and communicated.
    Our task has been, in effect, to superimpose new digital processes 
and services onto those of traditional artifactual library processes--
while preserving and exemplifying the human values of the older book 
culture that helped create the free, open and knowledge-based democracy 
that we serve. In the course of meeting this challenge, we have 
undertaken a far greater range and volume of innovative processes and 
services than ever before with one thousand less FTEs than in our peak 
pre-digital year of 1992.
    Congressional vision and support has made it possible to continue 
to add important new acquisitions and to sustain unique preservation 
activities. Thanks to the Congress' building a direct passageway from 
the Capitol Visitor Center into the Thomas Jefferson Building, we have 
greatly increased numbers of visitors to see an entire new series of 
interactive exhibits culminating in the centerpiece of the Lincoln 
bicentennial that displays for the first time in 50 years the key 
original documents of Lincoln's presidency in his own hand. We were 
glad to welcome the creation of a Library of Congress Caucus in the 
course of 2008. And we are pleased to note the steady increase of the 
use of the Members Room and other Library facilities now that the 
tunnel directly connects the Library to the Capitol Visitor Center and 
to the Capitol itself.
    Thanks to Congressional support and the unprecedented generosity of 
David Packard and the Packard Humanities Institute, the magnificent new 
Packard Campus for Audio Visual Conservation in Culpeper, Virginia is 
now up and running under its outstanding new director, Patrick 
Loughney. The Packard Campus is, in essence, a high-capacity digital 
preservation facility for our massive and largely perishable audio and 
film collections. We are now able to save many collections that would 
otherwise have deteriorated and been lost forever.
    We are now in the process of hiring 39 new staff, and the Packard 
Campus is well-launched. The film preservation lab is operational and 
digital preservation of sound recordings, television, and radio 
broadcasts preservation work has started.
    I am pleased to report that our National Library Service for the 
Blind and Physically Handicapped is on schedule with the Digital 
Talking Book program. We have received the first 5,000 machines and are 
sending them to eight regional libraries for user testing. We will also 
send the first book cartridges to these regional libraries next week.
    On April 21, 2009, the Library, in cooperation with UNESCO, 
launched our new World Digital Library. Within hours of going online, 
this multilingual and multi-medial site had attracted 600,000 visits 
and more than 7 million page views. Our National Digital Library/
American Memory site also began with a relatively small number of high 
quality, one-of-a-kind cultural treasures but has now steadily grown to 
more than 15 million online primary source files with educational 
enhancements.

                       FISCAL 2010 BUDGET REQUEST

    We are requesting a total fiscal 2010 budget of $699.4 million, 
representing a $52.6 million or 8.1 percent increase over fiscal 2009 
funding levels. The majority of this increase represents funding for 
mandatory pay and price level increases totaling $29.8 million or 4.6 
percent. Funding adjustments to support ongoing projects, totaling 
$16.6 million, and non-recurring funding for projects that are ending 
(-$13.7 million), represent a total of $2.9 million or 0.4 percent. The 
remaining 3.1 percent or $20 million represents the focus of our fiscal 
2010 budget request, seeking support for investment in the Library's 
technical infrastructure.

      MODERNIZING THE AGING TECHNOLOGY INFRASTRUCTURE--$20 MILLION

Infrastructure--$15.4 million
    The mandatory pay and price level increases are critical for 
keeping the Library whole, but our highest programmatic funding 
priority in fiscal 2010 is an increase in base funding to update and 
enhance the Library's technology infrastructure, upon which the 
progress of all service units of the Library depends. The Library 
requests $15.4 million to modernize our technology. This investment 
will fund: core technology, content management, and content delivery--
three areas that are inextricably linked. We need an updated technology 
infrastructure before we can construct a foundation for bringing 
digital content into the Library, managing it so that it can be used by 
the Congress and the American people, and preserving it for future 
generations.
    Up until now, the Library has benefited from a centralized catalog 
of print holdings, but the digital projects have been designed and 
maintained separately. This is entirely understandable in a time of 
experimentation and transition, but at this stage of our digital 
maturation, we are now poised to develop core infrastructure that is 
used by all parts of the Library, and to implement flexible, scalable 
systems that meet the broad needs of the institution. The launch of the 
World Digital Library has proven to be a useful catalyst for the 
development of a new technology platform with reusable and scalable 
components. This modern form of technical infrastructure will allow us 
to streamline and make more efficient our workflows and processes 
throughout the Library.
    The 21st century Library is increasingly multi-medial. Our budget 
request will allow the Library to build sustainable systems to manage 
digital content of many varieties: video, audio, text, and images. Such 
technical systems will allow us to manage all of these formats in more 
cost-efficient, integrated ways. The funding we are requesting will 
also allow us to make these multi-media materials available to the 
Congress and other users in the ways they now expect: fast, convenient, 
and easy-to-use.
Legislative Information System--$1.6 million
    One of the Library's key means of providing information to the 
Congress is through the Legislative Information System (LIS), which was 
first made available in the 105th Congress. This system provides 
Members and their staff with online access to the most current and 
comprehensive legislative information. The LIS has been developed under 
the direction of the House Committee on House Administration and the 
Senate Committee on Rules and Administration. It has been a 
collaborative project of several legislative branch offices and 
agencies. CRS has responsibility for overall coordination of the 
retrieval system. The Library is responsible for its technical 
development and operation.
    We are requesting a one-time investment of $1.6 million to update 
the current LIS so that it can meet growing demands. The new concept of 
operations will be based on a thorough assessment of the current system 
and develop an architecture that provides enhancements for users to 
better perform discovery, navigation, and retrieval across the entire 
spectrum of legislative content. The new system will take a modular 
approach to functions such as search and storage, so that they can be 
independently improved in the future. The Library will reconfigure LIS 
in consultation with House, Senate, Government Printing Office and CRS 
data providers.
Targeted User Interactivity--$3 million
    Finally, we request an investment of $3 million to support the 
broad expansion of public access to the Library's collections and 
services on-site and online through the testing, evaluation, and 
adoption of emerging new technologies for the K-12 and teacher 
communities. Successful implementation of the Library of Congress 
Experience in the Thomas Jefferson Building has dramatically increased 
public awareness and unleashed the educational potential of the Library 
and its collections through the creative application of new interactive 
programs. Visitorship is up nearly 30 percent since its initial launch 
in April of 2008.

              IMPROVING ACCESS, CAPABILITIES, AND SERVICES

    Over the past 6 months, the Congressional Research Service has 
shown its exceptional capacity to serve the Congress under 
extraordinary and time-sensitive conditions. It provided comprehensive 
analysis and legislative support during the financial crisis, the auto 
industry crisis, the fiscal 2009 appropriations bill and the fiscal 
2010 budget resolution. It produced more than 100 reports for the 
American Recovery and Reinvestment Act of 2009 alone. This year it has 
identified more than 170 active issues for which it will support 
Congress in every step of the legislative process.
    We ask for $1.8 million to enhance access to Congressional Research 
Service (CRS) expertise by modernizing the technical environment that 
supports it. These systems govern how CRS manages and supports its 
research operations, personnel systems, and the systems used to run, 
maintain, and update the CRS web site for Congress. An additional 
$500,000 is requested to purchase network storage and switch hardware 
to improve the IT and emergency backup capability of CRS.
    The renewed LIS will also benefit the public THOMAS system. To 
continue to meet the public's need for legislative information, we 
request $138,000 to hire a web site manager who will develop a user 
interface and an improved navigation system for THOMAS users. The 
THOMAS site has seen a steady increase of inquiries from your 
constituents, and it is important that we make this web site more user 
friendly.
    We request a one-time $1.1 million increase in offsetting 
collections authority for the Copyright Licensing Division so that we 
can secure consulting services to help us convert from a manual to an 
electronic filing process. Electronic filing is needed to maintain 
reasonable operating costs in future years and to minimize increases 
that would be unacceptable to the Congress, copyright owners, and cable 
system operators.
    The Library is requesting $2.7 million to expand the availability 
and usefulness of legal materials collected and stored in the Global 
Legal Information Network (GLIN), a database of more than 160,000 laws 
and related legal materials from 51 jurisdictions in Africa, Asia, 
Europe, and the Americas. In fiscal 2005, the Law Library launched a 
major upgrade of the GLIN system that vastly improved functionality and 
usability, including providing access in 13 different languages. GLIN 
has since attracted a global audience that has increased tenfold, 
exceeding its performance target by 800 percent. As the system has 
improved, new jurisdictions have become members, the size of the 
database has increased, and the level of use continues to expand. This 
funding is specifically requested over a 5-year period, to upgrade and 
refresh the hardware and software to sustain GLIN operations as the 
program continues to expand in content, usage, and membership. This 
funding will also further the Law Library's mission to support the 
foreign law research needs of the Congress, promote the rule of law 
between and among nations, and support the legal information needs of 
emerging democracies. The Law Library has created a private GLIN 
Foundation and will work to attract private financing over the long 
term. This request will cover the hosting and maintenance of GLIN to 
ensure the continuity of operations as new members join.

            REENGINEERING WORK PROCESSES IN LIBRARY SERVICES

    The Library staff increasingly relies on more current technologies 
to perform the new tasks that are required of them. We are assessing 
all of the workflows and processes to make the most effective use of 
present and emerging technologies. For Library Services (LS), where our 
core library functions are carried out, we are requesting $1 million in 
contractual support for a 3-year project to document and evaluate 
operational procedures and information technologies (IT) currently used 
in the 52 divisions of LS. We anticipate many opportunities to 
consolidate technology services within LS to create a more robust and 
integrated architecture and workflows. We will determine which data 
systems and services should be provided within LS and which should be 
provided centrally by the Library's Information Technology Services 
(ITS).

                   MANAGING AND SECURING COLLECTIONS

    We request $1 million to continue the inventory management program 
that was initiated in fiscal 2002 as a cornerstone of the Library's 
Strategic Collections Security Plan, when Congress directed the Library 
to conduct an item-level inventory of its general collections. We have 
made reasonably good progress with that inventory; however, when we 
began moving general collections to Fort Meade, we quickly recognized 
that our most important inventory goal had to be the effective 
retrieval of materials moved there. Happily, we have achieved a 100 
percent success rate in retrieving requested items from that location. 
Now, as we return to the original objective of conducting an item-level 
inventory of our general collections, we are working with the 
commercial sector to explore new technology options for this process. 
Some of these practices are already in place at Fort Meade. The scope 
of this effort is unprecedented. We are grateful for Congressional 
attention and support for this large and complex endeavor.
    To ensure that the Library's heritage assets are preserved for use 
by current and future generations, we are asking for $3.6 million in 
start up and new operational costs for Fort Meade Storage Modules 3 and 
4, which will house our special collections. This kind of housing for 
the Library's special collections is crucial to the Library's long-term 
strategy to provide for their security and preservation, as well as to 
provide sound space management and inventory management. This 
relocation will dramatically increase the life expectancy of these 
vulnerable collections.
    The operation of Modules 3 and 4 will be more intensive and 
expensive than the implementation of Modules 1 and 2, involving the 
expense of new hardware and software, collections protection and 
preservation, moving, on-site support staff, and facility management, 
largely because we are moving special format materials to Modules 3 and 
4, while Modules 1 and 2 house general collections. This year the 
Library is absorbing some costs associated with the opening of Modules 
3 and 4. Base funding is needed in fiscal 2010 for start-up and 
operational costs that will allow the Library to meet requirements in 
the areas of security, preservation, space management, and inventory 
management. With your support, we also will be able to conduct 
construction planning for Module 5 and prepare facility designs for 
Modules 6 and 7. The Architect of the Capitol has included $16 million 
in fiscal 2010 request for construction of Storage Module 5, which will 
help alleviate overcrowding on Capitol Hill and address serious 
concerns about safety, retrieval, and preservation.
    The construction of storage modules at Fort Meade has been one of 
the more significant preservation advances for the Library in decades. 
In short, this program has ensured that the Library of Congress remains 
the mint record of America's creativity by allowing continued 
acquisition of America's creative output and providing optimal storage 
conditions for our existing works.

                        ADDITIONAL REQUIREMENTS

    We are also asking for $238,000 for collections security on Capitol 
Hill, for extended reading room security guard services. Other 
requested funding includes $2 million for the final increment of 
mandated funding for Capital Security Cost Sharing, $2 million for 
modernized, environmentally friendly custodial services, $300,000 for 
facility design services for more complex renovations, and $334,000 for 
escape hoods for the visiting public.

                               CONCLUSION

    Mr. Chairman, I recognize that difficult choices are necessary in 
this economic climate. The Library has already recognized the need to 
sustain our core functions with level or reduced resources. We believe 
that the key to continued success is to make more effective use of 
technology. The $52.6 million we are requesting is an investment to 
ensure that the Library stays current with the new technology in 
today's Internet-based world while we continue to maintain traditional 
services. With your support, the Library will continue to perform its 
historic mission to make its resources available and useful to the 
Congress and the American people and to sustain and preserve the 
world's most extensive collection of knowledge and creativity for 
future generations. I believe that, with the careful investments I have 
outlined, the Library will continue, renew, and expand its role in our 
knowledge-based democracy--today and in the days to come. Thank you.
                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service

    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: Thank you for the opportunity to present the fiscal year 
2010 budget request for the Congressional Research Service (CRS). I 
would also like to highlight some of the actions and new initiatives 
undertaken recently that we consider essential elements in fulfilling 
the mission that Congress established for this agency. But before I 
discuss our request for next year, I would like to spend a few minutes 
on the importance of the mission of CRS and to relate that mission to 
the current challenges facing the Congress.
    You, as Members of Congress, are required to resolve issues that 
are growing more complex and technical and that are becoming 
increasingly interrelated in both expected and unforeseen ways. This 
complexity necessitates increased reliance on technical competence, 
which in turn demands predictability and coherence in issue areas from 
disciplines that traditionally have been more reliant on projections 
and probability. But whether determining the impact of changes in 
financial market regulations, ascertaining a method for equitable State 
allocations for Federal Medicaid payments, or examining a proposal to 
balance interests in a contentious region of the world, the well-being 
of millions of Americans is at stake if data and analysis do not 
accurately predict actual outcomes.
    The elected representatives of the people are able to rely on the 
expertise of CRS to assess options and anticipate consequences as they 
undertake critical deliberations. Our work must be authoritative, 
objective and confidential, and we must offer just what our charter 
statute instructs us to do, namely, to anticipate the consequences of 
alternative proposals and in doing so, foresee unintended consequences.
    Anticipating the consequences of proposals is becoming ever more 
difficult. The increased complexity of the problems facing Congress is 
obvious. Just look at the array of financial instruments that Members 
must understand and grasp with sufficient confidence to create a 
regulatory regime that maximizes the benefits of innovation and market 
competition while curtailing fraud and abuse. Members must rely on 
specialists in the financial markets, just as they must rely on foreign 
relations specialists with regional expertise to recognize the 
political and cultural forces at work in the world today, and health 
finance experts and health care specialists to understand the factors 
contributing to growing health care costs.
    Congress's reliance on the expertise of others presents a potential 
risk to representative democracy. Citizens elect Members of the House 
and Senate to represent their interests and the interests of the Nation 
as a whole. In effect, your constituents ask you to make decisions on 
the merits of one form of weaponry over another; on the fairest and 
most economically sound way to allocate broadband width; on the balance 
of economic, human rights, labor and environmental interests in a 
bilateral trade agreement; and on the best investment in alternative 
energy technologies. No matter how brilliant and wide-ranging the 
experience of each Member of Congress, he or she must perforce rely on 
the expertise of others on a whole range of issues to ascertain the 
best policy course given his or her values and priorities.
    Democratic theorists have raised the specter of the polity being 
run by technocrats and elite bureaucracies that supplant the people's 
voice and choice in determining the best course in an increasingly 
complex world. I would submit that an important protection against that 
vision is the expertise resident within CRS. The Congress has placed a 
significant investment in the competency and integrity of CRS staff. 
Members of Congress have all sorts of experts approaching them daily, 
and they have, of course, hired personal and committee staff with 
selected expertise or experience. Nonetheless, Members know and rely on 
Service expertise, not only to assess independently the outside expert 
opinions advocated before them, but also to complement their own 
experience and knowledge, and that of their staff, to ensure that the 
judgments they make are as well informed as possible.
    When Members turn to CRS, they can be assured that analysis they 
receive is authoritative, objective, and confidential. We do not 
advocate. We make methodologies and sources clear, and we hold 
legislative needs paramount, including the role of each individual 
Member in the deliberative processes of the Congress. The Congress's 
continued investment in CRS is tacit recognition of the need for 
expertise skilled in multiple disciplines in order that they understand 
the interactions and consequences of complex issues. The Congress also 
recognizes its need to have access to expertise that is solely devoted 
to creating sound underpinnings to inform judgments within the 
legislative branch.

                    FISCAL YEAR 2010 BUDGET REQUEST

    The CRS budget request for fiscal year 2010 is $115,136,000, with 
almost 90 percent devoted to pay and benefits for our staff. 
Significant cost-cutting measures were required in the last fiscal year 
because the enacted budget was over $6 million less than requested. 
This necessitated a reduction in our workforce from the previous FTE 
level of 705 to the current level of 675. This is the lowest staff 
level in three decades, and CRS will continue to operate with a reduced 
level of internal support staff and services to sustain our analytic 
capacity. The lower budget also required reductions in the access to 
research materials and in the investment in information technology. The 
current budget constrains funding to support basic operational needs. 
Therefore it is necessary to request additional funding for enhanced 
means of accessing CRS analysis and information.
    The budget request for fiscal year 2010 includes the mandatory pay 
increases ($5.2 million) and price-level increases due to inflation 
($.3 million) that will maintain the existing level of service. It also 
requests two program increases totaling $2.3 million that will enhance 
the analysis available to Congress and the capabilities of the 
supporting information technology. Included in the $2.3 million request 
is $1.8 million for a modernization effort to achieve three objectives: 
(1) improve the quality and usability of the CRS website; (2) 
reconstruct and standardize Service-wide systems and information 
resources to form an integrated, interrelated, and interoperable 
research environment; and (3) revise the way CRS procures, stores, 
updates, retrieves, and shares the large, multiple, and complex data 
sets and information systems used in the creation of its analysis. The 
remaining $500,000 will support three other objectives: (1) provide 
real-time computer network fault tolerance, data redundancy, and 
automated fail-over capability in the event the computer network in the 
James Madison Building is inoperative; (2) increase network speeds to 
the Alternative Computer Facility and improve performance of critical 
applications and file transfers, which will reduce the time required to 
save files and run applications; and (3) increase computer storage 
capacity to help meet the growing demand to store CRS work products and 
research information, encompassing the full range of multimedia formats 
such as video, audio, and podcasts.

                      ALIGNMENT WITH THE CONGRESS

    CRS takes full advantage of its close relationship with the 
Congress to align its work with evolving congressional needs across the 
full spectrum of policy concerns that are on the legislative agenda, or 
are likely to arise.
    CRS works in a consultative relationship with Congress so that 
specific congressional needs are recognized as they relate to evolving 
circumstances, including changes in world events, advances in 
government operations, and developments in legislative processes. 
Members and committees of Congress and their staffs maintain 
continuing, on-demand access to CRS experts through phone calls, e-
mails, personal briefings, confidential CRS memoranda, and by 
consulting actively maintained CRS research products on our website.
    Based on its daily work with the Congress, CRS identifies and 
analyzes the policy areas in which Congress is actively engaged or is 
very likely to become engaged. CRS typically identifies between 150 and 
175 such issue areas. CRS ensures that it has identified all major 
issues that might receive legislative attention through discussions 
with leadership on both sides of the aisle in both chambers. CRS 
support for these policy areas entails formation of teams of experts 
who develop common understandings of major policy questions and 
concerns to ensure that our service for the Congress is fully informed 
by the most appropriate CRS expertise across disciplines and subject 
areas. The CRS website provides ready access to key research products 
and services in each of these policy areas.

                        SUPPORT FOR THE CONGRESS

    Over the past year, the Congress has consistently turned to CRS 
when in need of expert, objective assistance as it has addressed 
extraordinarily challenging and enduring problems.
    The financial and economic crisis that still dominates domestic and 
global settings has been the focus of intensive, continuing CRS support 
for Congress. In this area, congressional concerns that have driven the 
work of CRS experts include: limiting damage from the disorder in 
housing markets; restoring functionality to mortgage markets and credit 
markets generally; ensuring viability of financial institutions and 
their return to standard business operations; assessing impacts on 
other credit-sensitive sectors such as autos, home furnishings, and the 
pursuit of higher education; recognizing structural shifts in the 
economy accelerated by the downturn; as well as assisting victims of 
the recession, and mitigating the downturn through oversight and 
regulatory provisions that will limit the recurrence of destabilizing 
financial excesses. CRS economists, legislative attorneys, and 
specialists in American national government, among others, have 
analyzed a range of proposals from the previous and current 
administrations, examined actions in other countries, and assisted in 
assessing evolving economic developments and in identifying and 
evaluating legislative options. Questions CRS has addressed relate to 
concerns such as feasibility, effectiveness, constitutionality, 
unintended consequences, separation of powers, and federalism issues--
all in a context of largely unprecedented circumstances.
    Other major policy areas facing Congress have also commanded multi-
disciplinary support from CRS experts, often on a confidential basis, 
and with the need for objectivity and independence from executive 
branch and outside interests. Notable examples of continuing, expert 
support relate to congressional efforts to ensure appropriate and 
effective U.S. engagement in Iraq, Afghanistan, Iran, and the broader 
Middle East; provide for emergency responses to Midwest flooding and 
Gulf-coast and Mid-Atlantic hurricanes and mitigate needs for future 
disaster responses; meet energy needs of the Nation with due 
consideration for both environmental imperatives and ongoing functions 
of the economy; improve the safety of food, drugs, and other products 
for American consumers; and limit undue influence of special interests 
in making and executing policy.

                         MANAGEMENT INITIATIVES

    The past year saw several successful initiatives aimed at making 
CRS a more efficient and effective organization and enhancing its value 
to the Congress.
Section Research Managers
    During the past year, CRS revamped its first-line management 
structure, hiring section research managers and integrating them into 
the management of the organization. They are working to ensure that the 
Service stays aligned to the legislative challenges facing the Congress 
through collaboration, multi-disciplinary research and analysis, and by 
fostering an energetic work environment. They have already succeeded in 
breaking down barriers that had at times impeded our ability to 
collaborate and effectively marshal our expertise. Their new thinking 
on ways to address issues on the legislative agenda and convey CRS's 
expertise to the Congress brings both immediate and long-term benefits. 
This corps of section research managers will also serve as a resource 
for management succession in CRS.
Professional Development Enhancement
    CRS developed enhanced performance standards for each position in 
the Service, as well as performance plans and individual development 
plans. This large undertaking involved a Service-wide coordinated 
effort and is part of a commitment to developing a continuous learning 
culture and to engage fully every individual in his or her own 
professional development. At the end of 2008, 76 percent of the staff 
had created and received supervisor approval of their individual 
development plans for the year.
Authoring and Publishing Reports
    CRS has implemented a new process for production and formatting of 
CRS research products, streamlining preparation, display, and 
maintenance of these products. CRS undertook this complex effort to 
create research products for the Congress that more efficiently support 
PDF and HTML distribution through the CRS website, standardize the 
presentation format using a uniform and consistent new product design, 
and facilitate more sophisticated use of graphics.
Tracking Inquiries from Congress
    CRS is in the final stages of configuring a new system to track and 
manage congressional requests from entry to completion. This entails 
customizing an off-the-shelf customer relations management tool. This 
system, known as Mercury, will replace the outdated Inquiry Status and 
Information System (ISIS) and includes additional features to increase 
responsiveness to congressional needs; support research management; 
foster collaboration among researchers; and identify Service-wide 
activity by issue area.
Redesign of the CRS Website
    CRS has developed a multiyear, phased plan to make CRS.gov more 
user-friendly and ensure that Congress has ready access to the full 
breadth and depth of our analytical and other services. Many 
congressional and CRS staff provided their views on the strengths and 
weaknesses of the current site and ideas for enhancements. These views 
helped to shape our final design. The initial effort this year will 
begin to provide better organization of material and a more intuitive 
navigation of the website.

                               CONCLUSION

    In making our fiscal year 2010 budget request of $115,136,000, we 
are mindful of the formidable challenge you face in weighing budget 
requests in this period of difficult economic conditions. My managers 
and I have and will continue to examine every activity and program for 
efficiencies and eliminate costs where the return on investment is in 
question. This budget request will provide the resources needed for the 
talented and dedicated staff of CRS to continue to build on the unique 
tradition of providing comprehensive, non-partisan, confidential, 
authoritative, and objective analysis to the Congress. We are proud of 
our role, and we thank you for your support.
                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office

    Mr. Chairman, Ms. Murkowski, and other Members of the Subcommittee: 
Thank you for the opportunity to present the Copyright Office's fiscal 
2010 budget request. Today I would like speak with you about some of 
the work and challenges the Copyright Office faced in fiscal 2008. In 
addition, I would like to talk about the Office's Historic Records 
Project that was funded as part of the fiscal 2009 Budget and our 
request for additional offsetting authority to complete our Licensing 
Reengineering effort, which is part of the Copyright Office's portion 
of the Library's fiscal 2010 budget request.

                  HIGHLIGHTS OF COPYRIGHT OFFICE WORK

Policy and Legal Activities
    On June 30, 2008, the Office presented its Report to Congress on 
the statutory licenses (Sections 111, 119, and 122 of the Copyright 
Act) that allow cable operators and satellite carriers to retransmit 
programming carried on over-the-broadcast television signals. The 
Report, which Congress requested as part of the Satellite Home Viewer 
Extension and Reauthorization Act of 2004, analyzed the differences in 
the terms and conditions of these statutory licenses and considered 
their continued necessity in light of changes in the marketplace over 
the last 30 years. The Report has served as the starting point for 
continuing discussions on legislation to extend the Section 119 
statutory license, which is set to expire on December 31, 2009, unless 
reauthorized by Congress. The Office is working with Senate Judiciary 
staff and stakeholders on proposed amendments to these licenses.
    The Office has worked closely with the Senate Judiciary Committee 
on other pressing copyright matters. One significant issue has been 
orphan works, i.e., the situation where a potential user cannot 
identify or locate the owner of copyrighted works (including literary 
works, photographs, motion pictures, sound recordings and other 
creative works). In April 2008, the Senate introduced the Shawn Bentley 
Orphan Works Act of 2008 (S. 2913) was introduced in the Senate, passed 
by unanimous consent on September 26, 2008. Due to several unresolved 
issues in the House, the Office expects to assist the House Judiciary 
staff on this subject in 2009.
    The Office has also worked with Judiciary Committee staff to 
develop legislation relating to the public performance right for sound 
recordings in Section 106 of the Copyright Act. The Performance Rights 
Act (S. 379), introduced in the 111th Congress, would amend the 
copyright law to expand the public performance right of sound recording 
copyright owners to include analog audio transmissions. This change 
would, for the first time, require over-the-air radio stations to make 
royalty payments to record companies and recording artists.
    Another issue that the Office will address in 2009 concerns the 
copyright treatment of pre-1972 sound recordings. The issue is 
complicated because these works were not eligible for Federal copyright 
protection before February 15, 1972; rather, they were governed by 
State law which, in many cases, is not well-defined. Pursuant to the 
Omnibus Appropriations Act of 2009, the Office has been directed by 
Congress to conduct a study on the desirability of, and means for, 
bringing sound recordings fixed before February 15, 1972, under Federal 
jurisdiction. The Office's report is due in March 2011.
    In 2008, the Copyright Office assisted Federal Government agencies 
with a number of multilateral, regional and bilateral negotiations and 
served on many U.S. delegations. Notable among these were meetings of 
the World Intellectual Property Organization's (WIPO's) General 
Assemblies and its Standing Committee on Copyright and Related Rights, 
negotiations regarding a proposed Anti-Counterfeiting Trade Agreement, 
and negotiations and meetings relating to intellectual property 
provisions of existing and proposed Free Trade Agreements. The Office 
also was a key advisor to the United States Trade Representative in a 
successful World Trade Organization (WTO) dispute settlement proceeding 
against China relating to intellectual property protection and 
enforcement in China. The Office expects to continue to play a leading 
role in the United States delegations to WIPO and in other multilateral 
and bilateral meetings and to advise other Federal agencies on 
international and domestic copyright law and policy matters.
    Last year, the Office assisted the Justice Department in a number 
of important court cases, including some involving constitutional 
challenges to various provisions of the Copyright Act.
    In addition to the Office's work on legal and policy issues, fiscal 
2008 was an exciting and challenging year for Copyright Office 
operations.
Reengineering Program
    At the end of fiscal 2007, the Copyright Office implemented its 
reengineering project: redesigned processes, initiation of hands-on 
training in new operations for the entire staff, established new 
organizations, launched a new integrated IT system to process 
registrations, and renovated facilities. In addition, on July 1, 2008, 
the online registration system Copyright Office (eCO) was released to 
the public through the Copyright Office website.
    The May 19, 2009 Washington Post article containing substantial 
errors, did highlight the paper application registration backlog issue 
we are facing. The article did not choose to discuss our continuing 
efforts to improve operations through staff retraining and realignment, 
technology system enhancements and reallocation of tasks.
    In February 2009 we completed the retraining for all Copyright 
Registration Specialists, and when compared to May 2008, their 
productivity per specialist has doubled. In April 2009, we completed 
the hiring of our first class of new Registration Specialists in over 2 
years. The new Specialists are in training and are already productive. 
Looking ahead we will maintain a continuous improvement initiative 
focused on identifying and implementing workflow and IT system 
improvements.
            Organization
    At the beginning of fiscal 2008, all staff had been reassigned or 
selected for new positions. Honoring the Register's commitment to 
ensure all Copyright staff had positions after reengineering, the 
Office continued its major program to retrain former examiners and 
catalogers to work in a combined position, Copyright Registration 
Specialist. The registration specialists use eCO and the redesigned 
registration process to: examine claims including any related 
correspondence, complete a registration record, and in many cases, make 
selections for the Library's collections. Training was conducted in 
house by Senior Registration Specialists. To date all Registration 
Specialists with us in August 2007 have received at least 1 full year 
of appropriate training and a full year of related experience in eCO. 
Training began in fiscal 2007, extended through 2008, and concluded in 
February 2009. Targeted training to meet individual employee needs is 
still provided. As more Registration Specialists completed training and 
achieved independence, the senior Registration Specialists who served 
as trainers were able to return to full time registration duties.
    During the initial implementation of reengineering, Copyright 
Office management announced a 1-year suspension of performance 
requirements, permitting staff sufficient time to gain the requisite 
training, familiarity, and experience with the new processes and IT 
system. In August, 2008, Office management and AFSCME Local 2910 (the 
Guild) representing the affected employees signed an agreement 
regarding implementation and impact of the new performance requirements 
As agreed, written performance requirements for individual employees 
went into effect October 1, 2008. Phased in following a 90-day grace 
period after each registration specialist reached his/her 1-year 
anniversary working in the new system, the performance requirements 
included a productivity rate of 2.5 claims opened per hour and 
qualitative benchmarks.
    With the implementation of new performance requirements, 
productivity rose in the second quarter of fiscal 2009. For 
Registration Specialists who are still within the 90-day grace period 
before the performance requirements take effect, the overall group 
average is 2.6 per hour. For Registration Specialists who have 
completed training and for whom the performance requirement is in 
force, the overall group average is approximately 3.0 per hour. This is 
double our hourly productivity from where we were in May 2008.
            Processes
    Through its continuous improvement initiative, the Office further 
refined the reengineered processes by examining workflows and support 
systems. On occasion, we adjusted and improved work processes or 
systems to enhance efficiencies. Throughout the year, we identified 
issues, developed alternative processes, and tested and implemented the 
best options. For example, realizing that missing or incorrect fees 
were slowing workflow in the Registration division, we shifted the fee 
resolution process to RAC, a much earlier step in the workflow. This 
improved the registration process time and resulted in a better balance 
of the staff's workload.
    We also examined how to improve eCO's responsiveness. By analyzing 
how eCO processed data, we were able to implement basic system 
redesigns, reducing user wait times.
            Information Technology
    The electronic Copyright Office system has two components: eCO 
Service, which supports online registration (e-Service) and enables 
processing of both electronic and hardcopy claim submissions; and eCO 
Search, which permits searching of more than 20 million registration 
records dating to 1978.
    The Office applies the continuous improvement concept to the 
ongoing refinement of eCO. Earlier this year the Copyright Technology 
Office restructured the Copyright Office's systems internal oversight 
board. The new board is comprised of Office processing divisions' 
supervisors and staff. The board is responsible for reviewing, 
evaluating, prioritizing and recommending proposed eCO system 
improvements. The board gives the employees directly involved with eCO 
a voice to suggest system improvements to enhance operations. To date, 
the Office has implemented a large number of incremental enhancements 
to improve system performance and functionality. As we continue to move 
into 2009, we expect the process will continue to be effective.
    In fiscal 2008, the Office initiated an eCO system Performance 
Improvement Project (eCO PIP) designed to optimize eCO performance and 
to develop short-and long-term recommendations for additional system 
improvements. Following the first round of optimization efforts, system 
performance improved by 50 percent.
    Electronic Submissions.--On July 1, 2008 the Office opened to the 
public eCO e-Service for basic claims, enabling users to submit via the 
Internet, copyright applications and certain classes of copyright 
deposits. Prior to July 2008, e-Service was opened under a limited-
access beta test. During the last quarter of fiscal 2008, the Office 
created 46,118 e-Service user accounts and processed 59,850 e-Service 
claims. Approximately 43,000 users charged copyright application fees 
to credit cards or bank accounts and the rest charged fees to existing 
deposit accounts. Users submitted approximately 35,000 electronic 
deposit copies; the remaining claims were submitted with hard copy 
deposits sent in by regular mail. By the end of fiscal 2008, 
approximately 72,500 individuals and organizations were registered e-
Service users. Electronic claims through e-Service now account for well 
over 50 percent of weekly copyright applications received.
    Form CO with 2-D Barcode.--On July 1, 2008, the Office released the 
new Form CO that incorporates two dimensional (2-D) barcode technology. 
The first Form CO submissions were received and processed in September. 
The forms, which are completed online, are intended for applicants who 
prefer not to transact business over the Internet. When printed out, 
each form has scannable 2-D barcodes which encode all the data entered 
in the form. When the Office scans the 2-D barcodes, all fields of the 
eCO record are populated automatically without the need for manual data 
entry.
Registration of Copyright Claims, Recordation of Documents, and Deposit 
        of Copies of Copyrighted Works
    During fiscal 2008, the Copyright Office received 561,428 copyright 
claims covering more than 1 million works. Of the claims received, 
232,907 were registered and 526,508 copies of registered and 
unregistered works valued at $24 million were transferred to the 
Library of Congress for its collections and exchange programs. The 
Office recorded 11,341 documents which included more than 330,000 
titles of works.
    There were 231,000 claims in process in eCO 1 year ago; today there 
are approximately 500,000. The number of copyright claims received in 
fiscal 2008 is comparable to previous years, but the Office registered 
fewer than half the number of claims compared to previous years and 
transferred fewer than half the typical annual number of deposit copies 
to the Library. These reductions are reflective of the significant 
challenges the Office faced in the wake of reengineering 
implementation. There were a number of contributing factors.
  --As mentioned earlier, Registration Specialists required extensive 
        training in new processes and the use of eCO. This training 
        impacted productivity in multiple ways: first senior 
        registration specialist needed to learn the system then the 
        senior specialists needed to train junior staff. In effect, the 
        first few months of fiscal 2008, production was significantly 
        limited.
  --The Office implemented eCO in August 2007, with electronic claims 
        processing officially opening almost a year later. Processing 
        paper claims electronically proved to be more difficult than 
        originally anticipated, with Optical Character Recognition 
        (OCR) technology being less successful than expected. The paper 
        claims became labor intensive requiring manual data entry into 
        the eCO system before the claim could be examined. Combined 
        with staff retraining, slow processing of paper claims was a 
        contributing factor to the build-up of claims on hand in fiscal 
        2008. Public acceptance of e-Service filing, 2-D barcode 
        technology and a fully-trained staff have helped us overcome 
        these issues.
  --Some large submitters have been slow to adopt electronic filing; 
        however, there is a strong indication that in the very near 
        future more will move to e-Service.
  --As with any large-scale IT implementation, eCO underwent 
        adjustments for usability, efficiency, and stability. The 
        Office has largely resolved the issues.
  --Although the Office lost registration specialists through normal 
        attrition, to focus training efforts on existing staff, 
        management made the decision to hold new hiring until 2009. 
        While the decision was necessary, it lead to a temporary 
        staffing shortage, adversely affected production. As April 
        2009, all Registration Specialists positions are filled.
    The Office has taken a number of steps to improve processing time 
and reduce the number of claims on hand. Subsequently, the production 
trends are very positive in a number of areas.
  --Large bottlenecks of unprocessed works received in the mail have 
        been reduced, by more than 65 percent.
  --Paper applications awaiting data entry into eCO have been reduced 
        by more than 85 percent: from a high of 34,000 to under 5,000.
  --Unprocessed check batches were reduced from a 6-week lag to real-
        time processing.
  --During fiscal 2008, we closed approximately 40 percent of submitted 
        claims. To date through fiscal 2009, we are at 60 percent 
        closed claims.
  --As mentioned earlier, training has concluded for all Registration 
        Specialists who were on board as of August 2007. As a result, 
        registration specialist productivity increased across the board 
        to double that of 1 year ago.
  --As more Registration Specialists become fully independent, the 
        number of staff requiring quality assurance reviews of their 
        work declines, allowing Senior Registration Specialists, 
        currently responsible for quality assurance reviews, to focus 
        more time on processing claims.
  --The Office recently appointed two new registration specialists in 
        the Visual Arts and Recordation Division and seven new 
        registration specialists in the Performing Arts Division. On 
        April 27, eight new registration specialists started in the 
        Literary Division. These actions address the short staffing 
        situation that contributed to low production and growth in the 
        volume of claims in process.
  --The eCO e-Service online registration system was released to the 
        public on July 1, 2008. By the end of fiscal 2008, e-filings 
        reached almost 50 percent of all claims entered. The percentage 
        for fiscal 2009 thus far has been 53 percent. As the volume of 
        e-Service claims increases the volume of paper claims 
        decreases, which has a favorable effect on productivity.
  --Registration Specialists have been freed from activities that 
        detracted from reducing the number of claims in process:
    --The Office established a quality assurance program targeting data 
            entry errors during the process of manually keying data 
            from scanned paper applications into electronic records. 
            This action reduced the time spent by Registration 
            Specialists correcting data entry errors.
    --The Office began identifying and routing claims with fee problems 
            to the Accounts Section earlier in the production process. 
            This action dramatically reduced the volume of 
            correspondence that Registration Specialists were required 
            to generate in response to short fees and other fee-related 
            problems.
    The volume of paper claims on hand will continue to affect 
processing times until actions already taken or planned by the Office--
eliminating the short staffing in the Registration Divisions, achieving 
a fully trained staff, implementing strategies to attract more filers 
to eCO, and upgrading to the newest version of the software application 
that powers eCO--have taken full effect.
    Thus far in fiscal 2009 the Office is experiencing a downturn in 
the number of claims received, which we believe is related to the 
current economic environment. At this time, projections indicate a 
possible fiscal 2009 decline in copyright claims of somewhat over 5 
percent compared with fiscal 2008. The Office is taking a cautious 
approach to managing the fiscal 2009 budget to ensure that we remain 
within the forecasted revenue base.
Copyright Records Digitization Project
    In July 2008, the Copyright Office initiated a study to determine 
how to approach the digitization of its 70 million pre-1978 copyright 
records, many of which are sole copy records. The Office is now ready 
to move beyond the initial planning stages of the project. The 
objectives of the project are to:
  --Provide online access to records of copyright ownership for the 
        years from 1923 to 1977 inclusive.
  --Provide online indexes as a finding aid to these records.
  --Create preservation copies of the paper records of copyright 
        ownership dating back to 1870.
  --Move from microfilm to online digital records.
    Earlier this year the Office issued a Request for Information (RFI) 
targeting vendors with expertise in records digitization. The Office 
received and reviewed 21 responses to the RFI. In fiscal 2009, we 
intend to initiate a pilot test of several options for digitization 
across a representative sample of the copyright record types and 
formats. Based on the pilot test, we will determine the best 
alternative and begin full production digitization in fiscal 2010. The 
project's duration may extend over several years as necessary based on 
funding availability. However, the plan also calls for flexibility 
allowing us to seek out partnering opportunities that may both reduce 
the digitization cost and shorten the project's duration.
Licensing Reengineering
    In fiscal 2009, the Licensing Division resumed its reengineering 
efforts, reviewing its current administrative practices and underlying 
technology, performing a needs analysis for future operations, and 
beginning to design its re-engineered systems. The goals of this 
reengineering effort are to decrease statement of account processing 
times by 30 percent or more and to improve public access to Office 
records. The estimated $1.1 million cost of re-engineering will be 
assessed against royalty funds as soon as the Office is granted the 
authority to do so. Fiscal 2010 will be challenging for the Licensing 
Division. The IT system design and implementation must go forward even 
as changes to the copyright law, particularly 111 and 119, are being 
considered. Licensing Division staff may also be forced to work through 
statements of account using the old processing system as the new system 
is piloted.
Conclusion
    Mr. Chairman, I ask you to support the fiscal 2010 budget request 
including the request for additional offsetting authority to complete 
the Licensing Reengineering efforts. Fiscal 2008 was a transitional 
year for the Office; we are hopeful that the measures we implement in 
fiscal 2009 will help us to overcome many of the reengineering 
challenges.
    I also want to thank the Congress for its past support of the 
Copyright Office reengineering efforts and our budget requests.

    Senator Nelson. Ambassador O'Keefe.

STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you, sir.
    Mr. Chairman, Ranking Member Murkowski, thank you for the 
opportunity to testify on the Open World Leadership Center's 
fiscal year 2010 budget.
    As the Center's Open World program matures, we see its 
growing significance for both the American communities and 
organizations that make it successful and for the participating 
young leaders from countries of strategic interest to the 
United States.
    With me today is our chairman, Dr. Billington, who, 10 
years ago, proposed what Under Secretary of State for Political 
Affairs William Burns has said is the most effective exchange 
program of the many he was involved with. In 1999, with strong 
bipartisan support from Congress, Dr. Billington, Russian 
academician Dmitry Likhachev, and then-Ambassador to Russia 
James Collins brought forward a leadership exchange program 
that has benefited both the United States and new countries 
born from the breakup of the Soviet Union.
    Thanks to Open World, there are scores of Russian 
nonproliferation experts who now know their American 
counterparts and have a greater sense of joint purpose. There 
are anti-human trafficking advocates and officials in Ukraine 
who have a better understanding of how to track down 
perpetrators of this crime and assist their victims. And there 
are mayors and city councilors in Moldova and Azerbaijan who 
are making local governments more open and responsive to 
ordinary citizens.
    In reviewing this legislative branch agency's effectiveness 
over the years and our successful expansion beyond our original 
focus country of Russia to Ukraine, Moldova, the Caucasus, and 
central Asia, I must give credit to our dedicated staff, the 
partner host organizations, and volunteer experts and home 
hosts across the United States. I am honored to serve a program 
with such broad support in U.S. communities and in countries 
where we operate.

                BROAD DISTRIBUTION OF HOSTING IN U.S.A.

    In 2008, we have sent delegates to 355 communities in 44 
States. Seven hundred fifty American families home hosted these 
first-time visitors to the United States. We will attain that 
same broad geographic distribution in our hosting program this 
year.
    My main disappointment lies in not accommodating all those 
in the United States who wish to be part of Open World. We have 
more than twice the number of organizations that want to engage 
with us than we have participant slots available.
    Our request this year reflects the revised strategic goals 
approved by our board recently. The original plan called for a 
20 percent expansion between fiscal years 2007 and 2011.
    Even with economies of scale, gifts, and our cost 
reductions, such a goal would require a substantial budget 
increase, which the board believed was not feasible at this 
time. Therefore, our request of $14.456 million is a modest 4 
percent increase. This amount will support expansion to Armenia 
in 2010, as well as other programs.
    We have been good stewards of the funds you have given us. 
Our overhead is 7.1 percent, and for 3 consecutive years, we 
have received clean audits. This year, the auditor had no 
comments, no findings, and no discussion points, which is 
amazing, for those of you who are familiar with audits.

                           PREPARED STATEMENT

    Open World's board and its hosting partners throughout the 
United States have created a powerful tool for Congress and our 
Nation to forge human links to the vast and strategically 
important heartland of Eurasia. I seek your support to continue 
our efforts in the next fiscal year.
    Thank you for your attention.
    Senator Nelson. Thank you very much.
    [The statement follows:]

                   Prepared Statement of John O'Keefe

    Mr. Chairman, Ranking Member Murkowski, Senator Pryor, and Senator 
Tester, I appreciate the opportunity to present testimony on the Open 
World Leadership Center's budget request for fiscal year 2010. The Open 
World Leadership Center, of which I am the Executive Director, conducts 
one of the largest U.S. exchange programs for Eurasia, through which 
some 6,100 volunteer American families in all 50 States have hosted 
thousands of emerging leaders from former Soviet countries. All of us 
at Open World are very grateful for Congress's continued support and 
for Congressional participation in the Program and on our governing 
board. We look forward to working with you on the future of Open World.
    Last year, American volunteers in 44 States and 202 Congressional 
Districts home hosted Open World participants, contributing a large 
portion of the approximately $1.8 million given to the Program in the 
form of cost shares--an amount equal to 20 percent of the Center's 
fiscal year 2008 appropriation. Even though Open World is an 
international exchange program, more than 75 percent of Open World's 
fiscal year 2008 appropriated funds were expended on U.S. goods and 
services through contracts and grants.
    More than 14,000 emerging leaders from Russia, Ukraine, Azerbaijan, 
Georgia, Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, Lithuania, and 
Uzbekistan have participated in Open World. Significantly, more than 48 
million Muslims reside in countries where Open World is active, and 
these countries have approximately 2,000 miles of shared borders with 
Iran and Afghanistan.
    In fiscal year 2008, Open World had a 35 percent reduction in 
appropriated funds, which would have translated into an estimated 37 
percent reduction in grants to U.S. organizations. However, through 
cost shares, staff cuts, contract terminations, an interagency 
transfer, and withdrawals from Open World trust fund reserves, the 
Center was able to maintain the quality of the Program and the number 
of participants at levels consistent with prior-year averages.
    The Center's budget request of $14.456 million for fiscal year 2010 
is a modest 4 percent increase over the fiscal year 2009 level of $13.9 
million, even though the cost of the logistical services contract will 
rise 6 percent. We will close this gap and maintain a participant 
hosting level of 1,400 through additional cost shares, with a portion 
coming from our partners abroad. We estimate that, as occurred with our 
fiscal year 2008 appropriation, more than 75 percent of the 
appropriated funds will be spent on U.S. goods and services, including 
$4.16 million in direct grants to American host organizations. The 
funds will allow thousands of Americans throughout the United States 
and their counterparts abroad to generate hundreds of new projects and 
partnerships and other concrete results.

                     OPEN WORLD COST-SHARE EFFORTS

    The Center actively seeks a wide range of partners to diversify 
funding and strengthen the Open World Program. In 2008, the Center 
received interagency funding and direct contributions totaling over 
$900,000. Cost shares, mainly from American grantees and hosts, added 
an estimated $1.8 million. We received pledges of $950,000 as gifts 
(for a 3-year period) directed to programs not supported by 
appropriated funds. These pledges include a $500,000 commitment (to be 
spent over 3 years) for our alumni program from Open World Trustee 
George Argyros, and $450,000 (to be spent over 3 years to host health 
and education leaders from the Republic of Buryatia) from Senator 
Vitaliy Malkin of the Russian Parliament. To date, we have received 
$482,000 of the $950,000 pledged.
    An interagency transfer of $530,000 from the National Endowment for 
the Arts (NEA) to support all the hosting costs of the Russian Cultural 
Leaders Program represented a 6 percent increase over NEA transfers in 
previous years.
    In 2007, the Center initiated a cost-share reporting requirement 
for all grantees in an effort to track the generous in-kind support 
that they and local hosts provide to the Open World Program. The 
Program received an estimated $1.75 million in donated goods and 
services from hosts and grantees in 2007--equal to 13 percent of the 
Center's fiscal year 2007 appropriation. We expect to see a higher 
share for 2008 when the cumulative figures become available later this 
spring.
    The Open World alumni program is paid for exclusively with 
nonappropriated funds. Open World has actively sought in-kind 
opportunities and cost shares in this area as well.
    Numerous U.S. judges and legal professionals involved with Open 
World exchanges make independently financed reciprocal trips to meet 
with program alumni. In 2008, 61 American jurists involved with Open 
World's rule of law program made such reciprocal working visits to Open 
World program countries. Reciprocal visits with alumni help fulfill 
Open World's mission of strengthening peer-to-peer ties and 
partnerships.

                        OPEN WORLD AND CONGRESS

    As a U.S. Legislative Branch entity, the Open World Leadership 
Center seeks to link Congress's foreign policy interests with citizen 
diplomacy. The Program proactively involves Members of Congress in its 
programming and strives to make this programming responsive to 
Congressional priorities. In 2008, nearly one out of four (353) Open 
World participants met with Members of Congress and Congressional 
staff, either in Washington, D.C., or in the Members' constituencies.
    A majority of the trustees on the Center's governing board are 
current or former Members of Congress. The Center also regularly 
consults with the House Democracy Assistance Commission (HDAC), the 
Commission on Security and Cooperation in Europe, the Congressional 
Georgia Caucus, the Congressional Ukrainian Caucus, other Congressional 
entities, and individual Members with specific interests in Open World 
countries or thematic areas. Moreover, in 2008, for the first time, the 
Center partnered with HDAC to provide Open World programming to three 
Ukrainian and six Georgian parliamentary staffers. The Center hopes to 
build on this partnership and to continue its success in the coming 
years.

                          MEASURES OF SUCCESS

    The Open World Leadership Center tracks the results of the Open 
World Program using eight categories, or ``bins,'' such as partnerships 
with Americans, alumni projects inspired by the Open World experience, 
and benefits to Americans. Since launching a results database in August 
2007, Open World has identified more than 2,000 results (see attached 
Results Chart). Some representative results are:
  --A Russian alumna was one of seven recipients of the Secretary of 
        State's 2009 International Women of Courage Awards. Accompanied 
        by First Lady Michelle Obama, Secretary Clinton praised the 
        alumna for her ``stalwart leadership in seeking justice for the 
        families of bereaved [military] service members.''
  --Ukrainian alumna Anzhela Lytvenenko and her organization Successful 
        Woman won a $15,000 Democracy Grant for a project to improve 
        government/NGO cooperation on human-trafficking prevention in 
        Ukraine's Kherson Region.
  --An Azerbaijani alumnus designed a brochure for recruiting citizen 
        election monitors based on a form for enlisting campaign 
        volunteers that he obtained from Representative John Sarbanes 
        (MD) during an April 2008 Open World visit to the Baltimore 
        area.
  --Open World host and Atlanta-Tbilisi (Georgia) Sister City Committee 
        Chairman John Hall partnered with alumni in Tbilisi to organize 
        an economic summit in Atlanta in December 2008.

               OPEN WORLD 2010 PLANS AND 2009 ACTIVITIES

    In 2010, Open World will carry out the goals of the recently 
revised Strategic Plan (2007-2011) as approved by the Board of 
Trustees, focusing on quality control of nominations and U.S. programs. 
We plan to expand to at least one additional country (Armenia), and we 
will continue our effort to diversify our funding. We will add more 
delegates from Central Asia and the Caucasus while proportionally 
reducing the number of Russian delegates.
    We will host additional members of the national legislatures of 
Open World countries located in Central Asia and the Caucasus, based on 
reports of the effectiveness of Open World parliamentary hosting 
received from the U.S. Embassies. The Center will also continue the 
rule of law programs for participating countries where we are finding 
substantial cooperation and movement toward an independent judiciary. 
We will foster sister states/sister cities programs in many locations 
in the United States, and broaden efforts in the cultural field, where, 
through our Russian Cultural Leaders Program, we have, for example, 
benefited museums in the Midwest thanks to our partnerships with the 
Likhachev Foundation and the American-Russian Cultural Cooperation 
Foundation.
    In cooperation with the Department of State, we plan to intensify 
our work with women leaders. With funding in 2010 at the requested 
level, Open World will continue to share America's democratic processes 
and institutions, send about 1,400 participants to homes throughout the 
United States, and spread a wealth of American experiences to borders 
beyond our own.
    For 2009, Open World continues to host in thematic areas that 
advance U.S. national interests, generate concrete results, and support 
U.S. organizations and communities engaged in these thematic areas. 
This programming emphasizes and builds on Open World's incremental 
successes in the fields of governance (emphasizing the legislative 
branch's role in helping to bring about good governance and affecting 
public policy), the rule of law, human-trafficking prevention and 
prosecution, environmental issues, and ecotourism. This year Open World 
will also increase its non-Russian programming to approximately 45 
percent of its total programming (up from 36 percent in 2008 and 23 
percent in 2007).
    Demonstrating Open World's commitment to supporting existing 
partnerships and initiatives, an estimated 70 Open World hosting 
programs (31 percent of all 2009 programming) will be conducted by 
Americans with established partnerships in Open World countries. For 
example:
  --Freedom House, a nonprofit, nonpartisan organization that serves as 
        a voice for democracy and freedom, will host accountable 
        governance delegates from Kharkiv, Ukraine, in their U.S. 
        sister city of Cincinnati.
  --Building on a 15-year-old relationship between Maryland and 
        Russia's Leningrad Region, the Office of the Secretary of State 
        of Maryland will host an accountable governance delegation from 
        the Leningrad/St. Petersburg area in 2009.
  --In the area of human trafficking, one of Open World's veteran 
        grantees, the Terrorism, Transnational Crime and Corruption 
        Center, will be hosting some of their Russian partners and 
        colleagues on a program focused on combating child exploitation 
        and trafficking.
    Turning to post-visit initiatives for alumni, the Center plans, 
using private funds, to host two results-oriented 1- or 2-day thematic 
workshops in Russia, one of which will highlight Open World's 
nonproliferation program. Another 23 or so half-day events will be held 
in Russia and other Open World countries on topics proposed by alumni.

                     OPEN WORLD AND SHARED FUNDING

    In response to the language of the Omnibus Appropriations Act, 2009 
(Public Law 111-8), Chairman Billington and I have met twice with 
senior officials of the Department of State and with officials from the 
Administrative Office of the U.S. Courts to discuss shared funding. The 
Center has also discussed cost-share arrangements with the Russian 
Supreme Commercial Court. The Court has tentatively agreed to share the 
cost of bringing Russian commercial court judges to the United States 
on Open World for hosting by American judges. We remain committed to 
working with the Subcommittee and our Board of Trustees to pursue any 
alternative sources of funding, and we will report back on our findings 
by no later than May 30, 2009.

                    FISCAL YEAR 2010 BUDGET REQUEST

    The Center's budget request of $14.456 million for fiscal year 2010 
is a 4 percent increase over the fiscal year 2009 request of $13.9 
million. Funding at this level will enable the Center to continue its 
proven mission of hosting young political, civic, and cultural leaders 
from Russia; maintain its important program for Ukraine; and continue 
smaller but growing programs in the Caucasus and Central Asia. The 
Board of Trustees believes that maintaining a robust grassroots-based 
Open World presence in Russia is necessary and important for future 
U.S.-Russia relations, but programs in expansion countries continue to 
account for a larger percentage of hosting than in the past.
    The budget request maintains hosting and other programmatic 
activities at a level of approximately 1,400 total participants, which 
remains far below the limit of 3,000 set in the Center's authorizing 
legislation. Actual allocations of participant slots to individual 
countries will be based on Board of Trustees recommendations and 
consultations with the Subcommittee and U.S. Embassies. The requested 
funding support is also needed for higher salary costs in fiscal year 
2010, as well as for increased logistical costs due to higher airfares 
and less favorable exchange rates
    Major categories of requested funding are:
  --Personnel Compensation and Benefits and other operating expenses 
        ($1.43 million)
  --Contracts ($8.86 million--awarded to U.S.-based entities)
  --Grants ($4.16 million--awarded to U.S. host organizations)
    The Center also requests Subcommittee approval of an amendment to 
its statute. This proposed amendment will enable the Center to improve 
the Open World Program's administration and to build upon its 
successful civic and cultural exchange programs by encouraging 
interaction with and among program alumni, and by extending the 
cultural program to new countries if approved by the Board.

                               CONCLUSION

    State Department Under Secretary for Political Affairs William 
Burns said that Open World is the most effective exchange program of 
the many he was involved with while serving as ambassador to Russia 
and, earlier, as assistant secretary in the Bureau of Near Eastern 
Affairs. While Open World's results are often measured in quantitative 
terms, the Program has a profound impact that is captured in anecdotes 
and qualitative feedback from participants. The editor of a major 
Russian regional newspaper told his readers in a post-visit article 
that, after his Open World program in New Hampshire, he saw no basis 
for any future U.S.-Russia conflict (Volna, January 29, 2008). An 
alumna who sits on a Russian regional supreme court wrote an e-mail to 
Open World organizers stating: ``I can say unequivocally that the [Open 
World] visit not only changed my view of the Russian Federation's 
judicial system, but also brought about an overall change in my 
worldview as a whole.''
    Funding the 2010 Open World Program at the requested level will 
allow Americans in hundreds of Congressional Districts throughout the 
United States to engage up-and-coming Eurasian political and civic 
leaders--such as parliamentarians, environmentalists, and anti-human 
trafficking activists--in projects and ongoing partnerships. Americans 
will, once again, open their doors and give generously to help sustain 
this successful Congressional program that focuses on a region of 
renewed interest to U.S. foreign policy.
    The fiscal year 2010 budget request will enable the Open World 
Leadership Center to continue making major contributions to an 
understanding of democracy, civil society, and free enterprise in 
countries of vital importance to the Congress and the Nation. The 
Subcommittee's interest and support have been essential ingredients in 
Open World's success.
   open world proposed amendments for fiscal year 2010 budget request

SEC. ____. OPEN WORLD LEADERSHIP CENTER UPDATE.

    (a) Short Title.--This section may be cited as the ``Open World 
Leadership Center Update Act of 2009''.
    (b) ``Act'' Defined.--In this section, the ``Act'' means section 
313 of the Legislative Branch Appropriations Act, 2001 (Pub. L. 106-554 
1(a)(2) [H.R. 5657], 2 U.S.C. 1151) as amended by the Legislative 
Branch Appropriations Act, 2003 (Pub. L. 108-7, div. H, title I, 
Sec. 1401(a)), the Legislative Branch Appropriations Act, 2005 (Pub. L. 
108-447, div. G, title I, Sec. 1501) and the Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror and Tsunami 
Relief, 2005 (Pub. L. 109-13, div. A, title III, Sec. 3402(b)).
    (c) Board Membership.--The Act is amended in subsection (a)--
            (1) in paragraph (2)(A) by striking ``members'' and 
        inserting ``Members of the House of Representatives''; and
            (2) in paragraph (2)(B) by striking ``members'' and 
        inserting ``Senators''.
    (d) Extension of the Cultural Program to Eligible Foreign States, 
and Alumni Program.--The Act is amended in subsection (b) in paragraph 
(1)--
            (1) by striking ``cultural leaders of Russia'' and 
        inserting ``cultural leaders of eligible foreign states''; and
            (2) by adding the following sentence at the end: ``The 
        Center may also engage with program alumni in educational and 
        professional development activities in eligible foreign 
        states.''
    (e) Grant Program.--The Act is amended in subsection (b) in 
paragraph (2)--
            (1) by inserting ``and in eligible foreign states'' after 
        ``United States''; and
            (2) by adding the following new sentence at the end: ``The 
        Center may also award grants to program alumni in eligible 
        foreign states to carry out activities directly related to 
        their experience during their Open World visits to the United 
        States.''
    (f) Use of Funds.--The Act is amended in subsection (b) in 
paragraph (3)(C)--
            (1) by striking ``Grant funds'' and inserting ``Funds'';
            (2) by striking ``and'' at the end of item (ii);
            (3) by adding a new item (iii): ``the costs of program 
        activities conducted with program alumni in eligible foreign 
        states; and''; and
            (4) by renumbering item (iii) to ``(iv)''.
    (g) Executive Director.--The Act is amended in subsection (d) in 
the first sentence by striking ``The Board shall appoint'' and 
inserting ``On behalf of the Board, the Librarian of Congress shall 
appoint''.
    (h) Reemployment of Annuitants.--The Act is amended in subsection 
(e) by adding the following new paragraph (3)--
            ''(3) Notwithstanding the provisions of section 4064 of 
        title 22, United States Code, at the direction of the Board and 
        consistent with the authority provided to legislative branch 
        officials under sections 8344 and 8468 of title 5, United 
        States Code, the Librarian may grant waivers of annuity 
        restrictions upon reemployment of annuitants in Center 
        positions.''
    (i) Effective Date.--The amendment made by this section shall be 
effective on the date of enactment of this Act and shall remain in 
effect for fiscal year 2010 and fiscal years thereafter.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           COPYRIGHT BACKLOG

    Senator Nelson. Dr. Billington, regarding copyright, I 
understand that after a fairly significant investment of 
taxpayer dollars, the new $52 million electronic copyright 
registration system is experiencing some challenges and that 
there is a significant backlog in requests for copyrights. In 
fact, according to a May 19 Washington Post article, since 
implementing the new system, the time to process a copyright 
has tripled, growing from 6 to 18 months with further delays 
expected.
    First of all, do we know what our current backlog is and 
what we might be doing and what we can do to overcome this 
situation?
    Dr. Billington. Well, Mr. Chairman, we realize that there 
is an ignorant truth regarding this issue. We are, of course, 
in the process of transforming from a paper-based system to an 
electronic system. And already 53 percent of the claims come in 
the electronic mode. We expect that to increase by about 80 
percent by fiscal 2011, so the time required to complete a 
copyright claim will diminish.
    We have thoroughly briefed the subcommittee staff on the 
extensive program that the Register has developed to deal with 
the 8-month delay in the paper claims. Part of the problem is 
the time required to track new registration specialists. They 
have now accelerated that. They have taken other steps to 
improve operations, including key entry quality assurance.
    In the last 4 months they have hired 17 new people. In the 
last 2 years they retrained the entire staff. But it isn't 
simply a simple matter of retraining. It is a matter of 
retraining both on a new system and new processes. That has 
been completed. Seventeen new registration specialists are 
already processing registrations. We expect some improvement.
    Perhaps the Register--if you want more detail, we could 
give it to you now, or we could provide you with detailed 
account from the Register herself, Marybeth Peters, who is I 
believe----
    Ms. Peters. Right here.
    Dr. Billington. Yes. Would you like more detail on this? We 
are certainly conscious of it, and it is a serious problem. The 
total reengineering of the copyright processes was accomplished 
on time and was as we had scheduled it. But as with other 
reengineering projects of massive scope, it comes with 
challenges.
    We could provide you a detailed plan how we are doing with 
this and the progress that has been made for the record, if 
that would----
    Senator Nelson. That would be helpful. And as part of that 
for the record, if you would help us understand how you might 
keep from incurring additional costs in smoothing the process 
to get on track?
    Dr. Billington. All right. Do you want to hear that now, or 
should we provide that for the record?
    Senator Nelson. Oh, no. For the record.
    Dr. Billington. Yes, sir. We would be glad to.
    Senator Nelson. Thank you.
    [The information follows:]

    The total cost of the Copyright Office's business process 
reengineering project was approximately $48.8 million, of which $15.5 
million was spent on the development of a new electronic Copyright 
Office registration system, or eCO. As of June 14, 2009, the number of 
claims in various stages of processing in eCO (including an estimated 
count of the most recently received unopened/unprocessed mail receipts) 
was 535,288. The accumulation of such a large number of claims in 
process is a result of relatively low production following 
reengineering implementation. Low production was caused by there being 
insufficient staffing in the key areas of registration, information 
technology, and in-processing; a massive training effort involving the 
majority of staff necessitated by the substantially new positions that 
were created as part of the reengineering effort and implementation of 
the new IT system; and processing bottlenecks caused by new operations 
needing further refinement.
    In response to these issues, the Office has taken the following 
actions:
  --From late 2008 through the end of April 2009, the Office hired a 
        total of 17 new Registration Specialists (a nearly 20 percent 
        increase in the number of Registration Specialists on staff), 
        and the new hires are already reviewing claims as part of an 
        accelerated training program. In addition, the Copyright 
        Technology Office is preparing to fill several new positions, 
        to bring in the expertise needed for its expanded role in the 
        Office's processing operations; and the Receipt, Analysis and 
        Control Division is also preparing to hire additional staff in 
        the In-Processing Section.
  --In accordance with an agreement negotiated with AFSCME Local 2910, 
        the union representing employees in professional job series, 
        all registration employees were given 1 year of training and an 
        additional 90 days to reach written performance requirements. 
        As of February 2009, all employees completed a minimum of 1 
        year of hands-on training working in the reengineered 
        processing environment, and the additional 90 day period pushed 
        the effective date of the performance requirements into May 
        2009. In cases where employees are still operating below the 
        minimum performance level, additional training continues.
  --Through a continuous improvement program, the Office has initiated 
        workflow adjustments to achieve more efficient processing. For 
        instance, a change to the dispatch procedures whereby the time-
        consuming task of wanding deposit copies to portable 
        receptacles was dropped, resulting in a significant increase in 
        the volume of copyright deposits dispatched each week and 
        freeing Registration Specialists to spend more time registering 
        claims.
  --Incremental enhancements to the IT system, based on feedback from 
        internal and external users, have also improved productivity in 
        the registration area and provided for a better eCO experience 
        for remitters. Examples of enhancements to the IT system 
        include developing better sorting and searching capability in 
        the Registration Specialist's active cases queue so that staff 
        can better organize and monitor pending cases; and extending 
        the maximum time available for uploading electronic files from 
        30 to 60 minutes for a single session, which provides remitters 
        greater capability to submit large digital files.

                   TECHNOLOGY INFRASTRUCTURE UPGRADES

    Senator Nelson. In your opening statement, you mentioned 
your fiscal year 2010 request includes approximately a total of 
$20 million for technology infrastructure upgrades for the 
Library, and a $20 million increase is very difficult to 
accomplish in the current fiscal environment. So my question is 
could this project be funded incrementally over the next, say, 
3 to 4 years to flatten down the cost expense of any particular 
1 year so as not to bust the budget, if you will?
    Dr. Billington. Well, I think probably some adjustment 
could be made there, but this is not just a one-time 
investment.
    Senator Nelson. No, no. I know that.
    Dr. Billington. I think in terms of stretching it out a 
little bit, sure, we would be happy to discuss that with you. 
By taking an incremental approach, we have been able to learn 
from our experience. We haven't invested in the technology 
infrastructure for 10 years now, but at this point, we have 
really a lot of deferred maintenance, a lot of catch-up to do 
with the systems.

                  THE CHALLENGE OF RISING EXPECTATIONS

    We are somewhat the victims of our own success, having put 
15.3 million items--primary documents of American history--
online, mostly with private money that we were able to raise 
for that purpose. We now find that with the World Digital 
Library there are enormous expectations, and the educational 
impact and usage also are multiplying. The number of States 
that are setting up programs through the Library for training 
teachers and the educational use of the Internet is increasing.
    So the burden is very, very heavy, and we really have, I 
think, enhanced our programs with the addition of the new 
electronic offerings. By the way, 10 days ago I was in Russia. 
The new library system that they have opened in St. Petersburg, 
which has considerable promise, has borrowed many of the 
electronic features that we now offer, even working with the 
same American contractors that we have used.
    This system will greatly increase the demands made by 
Americans all over the country to use Library of Congress 
content for educational purposes. We have to address our search 
and discovery capabilities, which were established a long time 
ago but need to be updated.
    Anyhow, we could certainly discuss this matter with your 
staff and with you.
    Ms. Jenkins. I was just going to say that same thing.
    Dr. Billington. Does anybody want to add to that? I think 
the point is to have an integrated information architecture 
that can be upgraded, can be developed to accommodate the 
unpredictable new demands that will be made.
    Incidentally, in addition to this, there is a request for 
GLIN funding, for the Global Library Information Network, whose 
usage has increased 400 percent just this last year. There are 
also requests for the legislative information system, involving 
all of the legislative branch agencies for which we have 
special responsibility, as well as to enhance the Congressional 
Research Service (CRS) capacity.
    So this is a Library-wide business, and it is a question of 
establishing a platform for the whole thing now that we have 
pretty much a full picture of what we are going to do. We see 
the demand for it. But we would be happy to work with you to 
try to stretch this out a little bit. I do want to caution that 
it can't be stretched out too much because we have already 
stretched programs out for 10 years.
    We financed a lot of this because we were saving money by 
downgrading our mainframe legacy system, and we diverted funds 
that might have been used for that as we went along. But that 
really wasn't adequate, and we now think we have done a 
definitive analysis of needs. And we will follow through in 
various organizational ways to make sure that this does deliver 
an integrated system, which will make it possible for us to 
upgrade with efficiency. There is another approach that many 
Government agencies and others use, and that is to come up with 
an ideal system that addresses specific requirements.
    But when you have an ideal system, things keep changing. We 
are now trying to fix it so that we are on a solid basis for 
future growth and won't have to keep coming back periodically 
for anything quite as dramatic as this.
    Senator Nelson. We appreciate that, and we will be happy to 
work with you, see what we can do over a rational, reasonable, 
appropriate period of time.
    Thank you very much.
    Dr. Billington. Thank you.

                         OVERSEAS FIELD OFFICES

    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Billington, let me ask you about the overseas field 
offices. I understand that there are six different field 
offices located in our U.S. Embassies in Jakarta, Rio de 
Janeiro, Cairo, New Delhi, Nairobi, and Islamabad. And it is my 
understanding that they were originally established to acquire 
materials in parts of the world that lacked a mature and 
reliable book trade.
    The annual cost of operating these field offices is about 
$15 million, and I know that there have been questions directed 
to you as to whether there may be more cost-effective ways of 
acquiring the publications that the Library gets through these 
field offices. I understand that there is a study under way 
that GAO had recommended to look specifically at this.
    Can you give me an update as to where that study is and to 
what extent the study is looking at other means that we might 
be able to acquire this type of information short of funding 
additional field offices?
    Dr. Billington. Well, the study that I think you are 
referring to was begun in January of this year. The Associate 
Librarian for Library Services, Dr. Marcum--Dr. Deanna Marcum, 
who controls the 52 different units within Library Services, a 
very broad span of responsibilities, she formed a small working 
group to analyze this whole problem of the overseas offices. It 
is not really a problem. I think it is more an opportunity.
    The working group was charged with addressing whether they 
were acquiring and processing materials that are otherwise 
unobtainable. Are they being collected? Is what we are 
collecting the most desirable? Are the overseas operations 
conducted in a cost-effective manner? And the current 
operations, are they sustainable over the long and short run?

                  BREADTH OF INTERNATIONAL COLLECTIONS

    The working group will address this in a final report to be 
delivered to GAO on July 22. In fiscal 2008, our overseas 
offices acquired almost 300,000 items for the Library's 
collection. This compares to 443,000 items acquired for the 
Library's collection from other foreign sources.

              SUBSTANTIAL ADDITIONS TO FOREIGN COLLECTIONS

    So it is roughly two-thirds of what we have acquired in the 
continuing quest dating back to Jefferson's Library, which had 
books in 16 languages and set the precedent for the 
universality of these collections. Items from the overseas 
offices are well more than one-half of what we collect from 
other foreign sources, a total of about 750,000 items from 
foreign sources acquired for the Library's collections overall.
    Now the differential between what the Library of Congress 
has and what any other institution has is going to increase 
because in the other major research libraries around America, 
there has been a sharp reduction in foreign acquisitions 
because of the economic crisis and endowments and so forth. And 
it has always been very large.
    If you look where the overseas offices are, they happen to 
be almost uniformly in places where the book trade is not 
developed. So you don't really have alternative modes of 
gathering things, for instance, in Islamabad, Pakistan; New 
Delhi, India; Jakarta, Indonesia; Cairo in Egypt; and Nairobi 
in Kenya; and then Rio de Janeiro.
    It really is a unique source of published material that you 
won't get anywhere else. No book dealer would have discovered 
the mimeographed copy in an obscure Afghan town of the 
autobiography of Osama bin Laden. Nobody even knew that such a 
thing existed. It was a mimeographed form from the early 1990s, 
from a very obscure village in Afghanistan.
    So these offices have many native employees who fan out and 
have regular sweeps through precise areas of the world that are 
of particular concern to us. And so, I think it is a unique 
resource.

                      OVERSEAS OFFICE SUBSCRIBERS

    Seventy-five other research libraries across America, in 32 
States, participate in the program. Anybody who wants to 
collect foreign language materials from those parts of the 
world will depend on this source. So it not only benefits the 
Library of Congress, it benefits other institutions across the 
country.
    We will give you the full report, though, in answer to your 
question, on July 22.
    Senator Murkowski. Do you get any contribution from any 
other countries? You just noted how everyone else benefits. Is 
anybody else a participant financially?
    Dr. Billington. There are, I think, some Canadian libraries 
who are subscribers. Maybe Dr. Marcum would like to fill in a 
few details on that?
    Dr. Marcum. Oh, I will just speak loud enough for you to 
hear. There are 75 libraries in 32 States that are 
participating. These are mostly United States research 
libraries, but also there are other national libraries that 
participate. The British library, for example, is one of the 
participants.
    They cover the cost of the materials, and they pay an 
overhead fee as well that helps us----
    Senator Murkowski. The amount that is in this year's budget 
request is $15 million. What would you anticipate you get from 
the other participating countries? And I won't hold you to a 
figure, of course, just off the top.
    Dr. Marcum. Roughly, they cover the costs of the materials, 
plus about 10 percent overhead.
    Senator Murkowski. So what would you anticipate that to be?
    Dr. Marcum. I could get that and get back to you.
    Senator Murkowski. If you could, I would appreciate that.
    Thank you.
    Thank you, Mr. Chairman.
    [The information follows:]

    Fiscal 2008 receipts from the sale of collection materials by the 
overseas offices were $3.346 million. Fiscal 2009 receipts are 
projected to be $3.019 million.

    Dr. Billington. It is an interesting phenomenon that the 
amount of published material continues to grow. You read things 
in the popular press about how digitization is going to replace 
published material and particularly ephemera, things like this 
essentially mimeographed book by Osama bin Laden. Forms of 
communication like this, which you would never get from an 
organized book dealer, but which represent the opinions of 
smaller groups, groups that may become of great importance.
    It was very important that we had collected audiotapes on 
the Left Bank in Paris because that was the only record we had 
when the radical Islamist revolution occurred in Iran, and the 
speeches by the new regime that was coming in, they were first 
rehearsed there. But more and more, there are more 
participants, and we are getting access to them and having 
fruitful conversations as everyone wants to join this World 
Digital Library and demonstrate the cultural treasures of their 
own countries around the world.
    So the international collection, I think, of the Library of 
Congress is very unique. It helps everybody else in the 
country, encourages them, and gives them a reasonable 
alternative. But we will give a full report to the Government 
Accountability Office (GAO) on July 22. And any specific 
questions, further questions Dr. Marcum will be happy to answer 
for the record on this. As you can see, I am rather positive 
about these offices overseas. I have visited quite a number of 
them, and they have very good relations.

                     CAPITAL SECURITY COST SHARING

    One of the reasons that they are costing more is because we 
have to pay--the State Department now levies a rather 
substantial charge that is unfortunate, but perhaps necessary, 
and that is for running them because they have run historically 
through the Embassies, and they are now charging a substantial 
fee, which they didn't a few years ago.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

                       FORT MEADE MODULES 3 AND 4

    I want to thank the panel for being here, and it is good to 
see everybody again.
    I would like to start, if I may, with a storage issue, and 
that is you requested $3.5 million to implement Fort Meade 
Modules 3 and 4. And as I understand it, the budget also 
requests $16 million in funding to begin construction of Module 
5.
    Tell us, if you can, about this idea of storage when, 
again, the popular perception is that things are going digital, 
and we are investing more and more to store physical books at 
the same time you are asking for money to do more digital. Tell 
us how that works.

            RETRIEVAL, PRESERVATION, AND COLLECTION SECURITY

    Dr. Billington. Well, it isn't solely storage. It is a 
question of efficient retrieval. It is a question of 
preservation. It is a question of security.
    The two modules that we have fully operational at Fort 
Meade attained 100 percent retrievability, which is absolutely 
amazing. So that you can work in the 21 reading rooms we have 
here on Capitol Hill, you can get in a short space of time, 
with 100 percent certainty, delivery from these very scientific 
kinds of semi-automated storage modules--and they are 
controlled for preservation of these materials.
    Most people don't realize that books produced since 1850 in 
the United States and in most of the world are perishable. 
Everything on which knowledge and creativity is recorded is 
degrading, and the Library of Congress has a unique 
responsibility to preserve a lot of this material.
    Now we had Amazon in for a pro bono inspection not long ago 
to see if there are any alternatives to storage because they 
have a huge storage and inventory management program, and they 
said there is no alternative but additional space. You cannot 
simply put books on the floor. There is no way of retrieving 
them, and a new plan is being developed.
    Modules 3 and 4 will be up and running by July. So there is 
a request for making them operational. Once we get the building 
built, it is essential that we move the collections there, and 
make these modules fully operational. We are 8 years behind on 
this project, but Modules 1 and 2, which are fully functional, 
have been extraordinarily successful. To get 100 percent 
retrieval in any huge library system is amazing.
    We get 2, 2.5 million new physical objects and I don't know 
how many terabytes of digital material every year to add to the 
inventory. And you have to store this, but you have to be able 
to preserve it, and you have to do this in environmentally safe 
and defensible facilities. I have said at times that you have 
to have Fort Knox to pay for it. But this is Fort Meade.
    Now as audio-visual materials have been taken care of with 
the support of the Congress at our new facility in Culpeper, 
that whole facility was created by the Packard Humanities 
Institute at a cost of at least $150 million, more likely at 
full valuation close to a $200 million donation. So the big 
capital expense was made by them in partnership with the 
Congress.

                SPECIAL COLLECTION STORAGE REQUIREMENTS

    Implementing Modules 3 and 4 is particularly tricky because 
these are for special collections, not just for books that can 
be nicely stacked and easily, almost robotically, retrieved in 
a large facility. These are, for example, maps, many of which 
require special cases. But this should be the final rounding 
out of facilities for preserving the special collections, which 
in the Library include unique and enormous manuscripts, and 
many kinds of nonprint things. They are all unique formats, but 
have to be stored properly--so that is rather expensive.

                          FORT MEADE MODULE 5

    Module 5 is in the Architect of the Capitol's budget, of 
course. But we strongly support that investment. To preserve a 
comprehensive collection of the world's knowledge is a very 
expensive and complex undertaking.
    We have a network. It is not just the overseas offices that 
purchase things. It is also exchanges. We exchange Government 
publications of the United States for important materials. We 
have exchanges with hundreds, even thousands of institutions 
internationally.
    Senator Pryor. Dr. Billington, let me interrupt there and 
just ask one quick follow-up, and then I have another question.
    Dr. Billington. Yes.

                     STORAGE CAPACITY AT FORT MEADE

    Senator Pryor. And the quick follow-up is how long before 
you are at capacity with units 4 and 5? How long into the 
future is that going to carry us?
    Dr. Billington. Well, and I asked----
    Senator Pryor. I am sorry. I said 4 and 5. I mean 3 and 4.
    Dr. Marcum. Modules 3 and 4 will be for special collections 
materials. These are the maps, the photographs, the 
manuscripts, rare books, and so on. Those modules will be 
filled as quickly as we can move materials into them because we 
are already well beyond capacity here on Capitol Hill. So every 
square foot is accounted for already in those two modules.
    Module 1 is completely filled. Module 2 will be filled with 
books from the general collections in the next few months.
    Senator Pryor. So it will be at capacity in the next few 
months?
    Dr. Marcum. Yes, Modules 1 and 2. So it is very important 
that we have Module 5 to proceed with the books from the 
general collections. We have books stacked up on the floors. 
There is no more expansion space here on Capitol Hill.
    Senator Pryor. So if you get I think you said 2, 2.5 
million books a year, how long will it take you to fill Module 
5?
    Dr. Marcum. It will take--we take in about 1,200 items a 
day into our collections. That includes both books and special 
collections. So we could fill modules fairly quickly. It would 
probably take a couple of years to move things from the 
collections to modules.
    Senator Pryor. I guess part of what I am asking is does 
that mean in 2 years you will come back and say we need a new 
Module 6? Is that----
    Dr. Marcum. We already have a plan for 13 modules over a 
long period of time. But it is important, I think, for us to 
say, too, that global book publishing is increasing quite a lot 
every year. Even though digital is a very important part of our 
world, book publishing continues to increase. And we are 
collecting internationally. We have a lot of materials----

                           LAW LIBRARY, GLIN

    Senator Pryor. And the last question I had--and I am sorry, 
Mr. Chairman--I did have this one question about the Law 
Library. There is a budget of $19.9 million, which is a $4 
million increase. Some of this is for the Global Legal 
Information Network. And as I understand it, there is also some 
interest in the private sector to help pay for some of this, 
but there may be some legal barriers. Could you tell us about 
that?
    Dr. Billington. Well, we hope very much that that will 
develop. We have been working with committees of the American 
Bar Association and others to discuss this. The Law Library has 
had a dramatic increase in the use of its global information 
network.
    For instance, the President is just today or just yesterday 
in Saudi Arabia. The only online resource for information about 
the laws of Saudi Arabia is in the Global Legal Information 
Network, that now has 36 member nations. It covers the laws of 
51 jurisdictions worldwide. We have to sustain the underlying 
GLIN technology.
    There are other challenges. You have to move, change the 
classification of a large amount of legal material to make it 
more easily accessible. We are working on that.
    And we are in the process of hiring a new law librarian. We 
have excellent interim leadership with Ms. Scheeder. Is she 
there? Oh, right. And she may want to add something to this 
from the Law Library.
    Senator Pryor. Well, just----
    Dr. Billington. But there are no legal barriers. There have 
never been legal barriers to receiving funds from private users 
of the Law Library. We are working closely with the House 
Administration Committee to add additional gift language to 
encourage this, and we are also working with some committees, 
particularly of the American Bar Association, to see if they 
have often expressed desire to beef up various things in the 
Law Library, if they might contribute something.
    I think there is no question that the world's best 
collection of international law contributes a great deal to the 
private practice of law, as well as to the Congress and the 
judiciary and to the executive branch of our own Government. So 
we are working as aggressively as we can on that. I can't 
report sensational results. But we hope this will be a part of 
what happens in the next year or two.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Pryor.

                      DIGITAL TALKING BOOK PROGRAM

    I have something that might be a little bit different for 
you to talk about. Can you tell us a little bit about the 
digital talking book project? I can get you away from talking 
about numbers and percentages and things like that. It might be 
something you might be anxious to tell us about.
    Dr. Billington. Well, I think that the digital talking book 
program is making pretty good progress. We have already, I 
think, received the first 5,000 machines, and we are going to 
get a lot of feedback on their use. But we are proceeding 
according to schedule.
    It is a very important program. As you know, blind people 
read a lot more than sighted people, and this is a service that 
is very central to the long-term mission. And I think it is 
proceeding well. Maybe Dr. Marcum would want to add a word or 
two about it, but I think it seems to be going well.
    We are moving from a traditional analog universe to a 
digital universe, but it seems to be going well within the 
multiyear development program. This is another example of how 
we are moving into the digital universe for one of our most 
important constituencies.
    And of course, this is administered through local libraries 
everywhere. So it is not something that is dispensed here in 
Washington. It is a really unique national service.
    Dr. Marcum. I think that is the story. Everything is on 
schedule. The players are being produced and the books are 
being produced, and it is exactly as we had planned it.
    Senator Nelson. Can you give us some idea of the scale or 
the size of the project? Is this like everything else that you 
do there? I am sure it is big. The question is how big?
    Dr. Billington. Well, do you want to----
    Dr. Marcum. Kurt Cylke is here. We are going to have Kurt 
Cylke answer.
    Senator Nelson. We have an awful lot of help going on here. 
That is okay.
    Mr. Cylke. This project is a $100 million project 
approximately. There are 800,000 blind and visually handicapped 
people that are using the program now. Dr. Billington and Dr. 
Marcum are correct. We shipped the first 5,000 machines out to 
nine individual libraries and designed a final test to make 
sure that the machines were working well.
    We gave permission to begin production, mass production, to 
the Shinano/Plextor Company in Japan. Production started on 
Monday of this week. They will be producing 23,000 machines a 
month for the first 3 months, 20,000 machines a month after 
that, and the initial run-up will begin the first week of 
August.
    Senator Nelson. Thank you.
    I don't want to leave Ambassador O'Keefe out here now.
    Ambassador O'Keefe. Thank you, sir.
    Senator Nelson. I was interested--after you visited my home 
State and Lincoln in the State of Nebraska with the Open World 
delegates, apparently they were inspired to start up a program 
back in their own countries like the 4-H program that we enjoy 
in America. And yesterday, I must have had my picture taken 
with 100 or more 4-H-ers from Nebraska.
    So I am proud of that program, and it is not limited to our 
State, but maybe you can explain a little bit how you bring 
delegates to the various locations in our country and where 
they come from and how this works?

            NOMINATION OF PARTICIPANTS AND PROGRAM PROCESSES

    Ambassador O'Keefe. Yes, sir. Thank you for that question.
    We work very closely with host organizations and the hosts 
themselves. We often follow the enthusiasm. The thing that I am 
most surprised about--as I mentioned, we went to 44 States in 
fiscal year 2008--is how broad this enthusiasm is.
    In the nomination process, we draw from several sources. We 
draw from the host countries organizations from the U.S. 
Embassies and some of the host country institutions: For 
example, councils of judges. But a substantial number of 
delegates, over one-third, come from organizations in the 
States and cities in the United States themselves.
    The particular group that came to Lincoln was actually 
nominated in Russia. And what we look for is shared interests. 
The individual who came to Lincoln was at a university, and 
very interested in organizing young people. And not only did he 
get the 4-H idea, but he also noticed the ramps for people with 
physical handicaps during his trip to the United States, which 
were not at his university. On his return, he installed a 
similar ramp. This is a small thing. But little by little, if 
you are bringing more than 14,000, it has a cumulative effect.
    What we tell our delegates and what I told 50 Russians who 
came here this morning was that their journey begins when they 
get back home. What we want to see and what we hope they do is 
form partnerships. This is what often happens. The person who 
visited Lincoln could implement the concept of a 4-H-type club 
because he has people back in the United States with whom he 
can discuss ideas.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ambassador, I would like to go back to the issue that I 
raised in my opening remarks, and that is why a foreign 
exchange program belongs in the legislative branch bill. I 
understand that our House counterparts have been encouraging 
you to seek either some or all funding from the State 
Department and that there has apparently been some kind of a 
report underway.
    Can you give me just an update on what is going on with 
that report, what you are finding? And just kind of help me 
understand how you ended up in this particular part of the 
legislative branch budget.

         OPEN WORLD'S PLACEMENT AND ROLE IN LEGISLATIVE BRANCH

    Ambassador O'Keefe. Senator, thank you.
    I will just start with saying when I was first approached 
about becoming Executive Director of Open World, I had the same 
question you did. Why is this in the legislative branch? And I 
think, like many converts, I became very enthusiastic.
    The board of trustees submitted a report last year around 
this time addressing that particular question. I don't want to 
take up too much time, but, in essence, what the board found 
was that by not being any part of an administration policy, 
Open World is uniquely placed to operate in all of these 
countries where relations may go up and down, but we, as part 
of the legislative branch, are not constrained.
    And we also find that by being associated with the 
legislative branch, we can draw a much broader range of 
individuals who might not otherwise want to go on an executive 
branch program.
    I think the second thing is that we--as Senator Nelson 
alluded to, are driven by constituent interests. And so what we 
try to do is link to people in your States and determine what 
they are interested in, then find counterparts so we can create 
these partnerships.
    For example, in Alaska, Carolyn Jones, who is in Rotary in 
Alaska, was our person of the year last year because of her 
extensive work in working with people from Russia coming to 
Alaska, especially for those in the Dal'nii Vostok, in the 
regions that are on the Pacific Rim as is Alaska.
    The report which we submitted on May 30 asked us to 
determine the feasibility of funding from the State Department 
and from the judiciary. Dr. Billington and I went to the State 
Department as soon as we saw the portion of the appropriation 
for 2009 and discussed possibilities with Under Secretary 
Burns.

           FUNDING OPTIONS AND ALTERNATIVE SOURCES OF FUNDING

    I had several follow-up meetings and presented a proposal. 
The proposal was for 50 percent funding from the State 
Department foreign operations appropriation. I have to be very 
honest, and I was honest in the report. The feasibility of the 
State Department funding for fiscal year 2010 is unlikely. It 
is not completely out of the question, but unlikely.
    One of the things that I sought also from the State 
Department and something which is in process, which might help, 
is that the Georgia supplemental is moving forward right now. 
It is $240 million in the House, $200 million in the Senate, I 
believe. Twenty million dollars of that is designated for 
democracy programs. We could fit in there.
    And should we have our Georgia program funded from that, 
that would be able to reduce our budget by a like amount for 
this year. And that decision comes, I presume, in a month or 
so.
    Just so I am clear, we are constantly looking for cost 
shares. We receive $1.5 million in in-kind contributions, and 
we received another, let us see, $330,000 in gifts, and a 
$530,000 grant from the NEA, appropriated money given to us to 
run a cultural program. We do seek these other sources.
    In addition to those sources, as part of the May 30 report, 
I said that we would submit an action plan on our fundraising 
external to the appropriation process--in other words, 
foundations and other donors.
    Senator Murkowski. What might you anticipate in, say, 2009 
and 2010 then?
    Ambassador O'Keefe. I am no expert in this field, which in 
a way makes the process a little longer. But in talking to the 
individuals and then starting to put this together, what we 
would expect is that whatever we get in 2010, when I come here 
next spring or next June, those funds would be backed out of 
our 2011 appropriation.
    We have requested $1.3 million from the United States-
Russia Foundation. I don't know whether we will get that. I 
think we may get a portion of it. Should they provide some 
funding, we will reduce our fiscal year 2011 request.
    We will be approaching other foundations. We have a member 
of our board, former Representative Bud Cramer from Alabama, 
who has agreed to walk through the door with us. But what he 
said was before we do anything, whoever we are asking has to be 
warmed up. He said very warm. We are doing our due diligence 
because we only have one chance, and we have to do it right 
when approaching these foundations, especially at a time when 
their endowments have dropped 30 to 50 percent. It appears 
that, in general, they are only funding their ongoing 
commitments, not new ones.
    Senator Murkowski. Yes, it is a tough landscape out there. 
I think we all appreciate that. But I think we also recognize 
that if you want to do any further expansion that the key is 
going to be in these partnerships and in these cost-sharing 
efforts that it sounds like you are pursuing very aggressively 
already.
    Ambassador O'Keefe. Yes, ma'am. And I will keep you and the 
chairman informed of the progress. And as I say, I understand 
that this kind of activity is a long process.
    Dr. Billington, of course, is a master at it. So I am 
trying to learn at his knee.
    Senator Murkowski. Thank you, Mr. Chairman.

             CHAIRMAN BILLINGTON ON OUTLOOK FOR OPEN WORLD

    Dr. Billington. No one is a master of the financial 
problems that we are in, but I was going to say I might just 
add, on behalf of the board, that there is, I think, a feeling 
that there has been a certain hesitancy of the business 
community to themselves invest very heavily. But there have 
been some pioneers and that is including some from Nebraska who 
have been very imaginative and consistent on this.
    And I think the opinion generally is that there is a 
reasonably good chance that with new presidents in both 
countries--and I mean, I had a conversation with the president 
of Russia on this, and he didn't make any promises. But he 
expressed great appreciation for this program, and it seems to 
me that just 10 days ago there have been indications that they 
are thinking about and, at one point, planning to do a parallel 
program to bring Americans over.
    Whether that will materialize or not is not clear. But I 
certainly think that there is a good chance that more people 
will be thinking of this as a possible area in which they 
should become re-interested. So I think this year is rather 
crucial if we can continue to validate the program.
    I think another point about being in the legislative branch 
is that if you are dealing with countries that are struggling 
one way or another with the rule of law, which is the main big 
program in this Open World program, and are legitimizing the 
importance, independent importance of legislatures and 
judiciaries, that having something directly approved by the 
legislative branch of Government is itself something that helps 
make a kind of statement.
    People, I think, understand also the fact that this is not 
just Russia. We actually--the board increased, at the Congress' 
recommendation, the allocation to Georgia when they were in 
some difficulty. And I think, for instance, if it were possible 
to include part of the Georgia program in this special 
supplemental, that money would be--that would lower the amount 
that we would need for this program since the board has voted 
to double the amount in Georgia to sort of help them out at the 
same time that we are continuing with the Russian program.
    So I think this is kind of a crucial year to try to sustain 
the program. And I think it is beginning to register seriously 
that this has been a direct program of the American people and, 
in fact, through their elected representatives, many of whom 
have involved themselves one way or another, have been 
hospitable to and received these delegations when they come 
through.

               OPEN WORLD ALUMNI--TRANSFORMING EXPERIENCE

    I have been in Russia to speak at the dedication of this 
new library system. And it is amazing. I met a great many 
alumni of the program. They have all been very much impressed. 
But at the same time, they have all gone back, all 13,000 
Russians that have come have gone back. That has never before 
happened. These are average age 38, one-half of them women. 
That has never before happened in Russian history.
    And this is a transformative thing, and you have 10 percent 
of the duma, 15 percent of the Supreme Court are alumni of this 
program. You have a really transformative initiative within the 
legislative branch, and that, in itself, is something that 
people comment on.
    And that it is a statement of fact that the knowledge-based 
democracy, if you want to have an accountable, participatory 
government, they have to have access to knowledge. And so, you 
have permitted us and sustained us in this digital age to 
establish a kind of facilitative leadership role without being 
a dominant overbearing force, and I think this kind of program 
is separate now from the Library. It is only accidentally 
linked with me.
    But it was conceived and signed in the legislative branch 
of Government, and it has been sustained. I think it has now 
registered even at the highest levels in Russia that this is 
something rather remarkable that the Congress has done. And so, 
just a thought.
    Ambassador O'Keefe. Madam Senator, if I could just add two 
quotes, which I think exemplify what we do?
    This is from the chairman of the Atlanta-Tbilisi Sister 
City Committee. And he says, ``Through my involvement in the 
Open World program, I have come to see that in these tough 
economic times, we must make special effort to nurture personal 
ties. Personal ties with foreign emerging leaders also 
strengthen business ties, and business ties strengthen 
democracies. Open World makes our country and countries like 
Georgia stronger in many ways. I am grateful to Congress and 
Open World for fostering such relationships.''
    And the co-chairman of the Helsinki Commission from the 
House side noted that Open World has been both ``important for 
and responsive to Congress.'' We have other quotes, but I just 
wanted to give you a flavor for what we do for the Congress.
    Senator Nelson. Well, I want to thank both of you, and Ms. 
Jenkins as well and Dr. Marcum for your contributions, and for 
others who suggested things from back in the audience as well.
    It has been very helpful for us to understand the budgetary 
requests and to understand the programs that you are engaged 
in, that you are expanding. We appreciate the enlightenment, 
and we look forward to continuing to work with you. And we want 
to thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I want to thank my colleague and ranking member, 
Senator Murkowski. We found that we are both very fiscally 
responsible and at the same time want to make sure that we do 
the appropriate work in recognizing the needs, but also the 
limitations that we have. So thank you so very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
              Questions Submitted by Senator Lisa Murkowski
    Question. Last year, GAO recommended that the Library develop a 
digital strategy. Does the Library have a digital strategy that GAO has 
concurred in? In developing the strategy, how did the Library assess 
the needs of its stakeholders for the different types of digital 
content planned? How does the digital strategy support the $15 million 
investment LOC proposes for fiscal year 2010 and future years?
    Answer. The Executive Committee of the Library prepared one digital 
strategy for the Library, taking into consideration the guidance GAO 
had given us. Each of the Service Unit heads is responsible for 
bringing the needs of their stakeholders to bear in developing the 
digital strategic plan. The $15 million budget request for 2010 is to 
support this digital strategic plan and is outlined in the last chapter 
of the plan.
    Question. Library Services is proposing $1 million to undertake a 
study of the current use of technology as a first step to developing an 
enterprise architecture. Yet LOC requests a base increase of $15 
million for the Office of Strategic Initiatives to redesign and 
reconfigure the Library's online delivery infrastructure, among other 
things. How will the Library Services study will be used and why should 
the Library proceed with information technology infrastructure 
investments before the study is completed?
    Answer. Library Services is a large and diverse operation with 
unique requirements. As such, a thorough understanding of the workflow 
and current use of technology is a part of developing the future IT 
environment for LS and LC. Documenting the current LS environment feeds 
into the documentation of future requirements for new software and 
hardware solutions. This is a typical step in the systems life cycle 
development methodology.
    The requirements gathering work has already started with the 
initial ten divisions that are currently under review. The $1 million 
would allow us to complete this stage for the remaining Library 
Services' Divisions and to start the next phase in the areas that 
pertain to LS and its Divisions. This work will create the integrated 
administrative and operational workflow and the standardization of our 
databases that is unique to LS.
    A common architecture is needed for the institution. We do not 
recommend stopping the work on IT infrastructure improvements while 
waiting for the completed requirements document. In this way the 
underlying architecture can be in place and will allow faster progress 
once the SU requirements are documented. During the ITS refreshment, 
the ITS staff will be meeting with the Service Units about their plans 
thereby guaranteeing institutional continuity and integration.
    Question. How will the Library use technology improvements to 
achieve greater efficiencies and potentially less need for physical 
storage?
    Answer. The Library is collecting and creating an increasing amount 
of digital content, and at some point we fully expect the majority of 
materials will come to us in electronic forms. The reality currently is 
that the production of physical materials has not slowed; it has 
continued to increase. Moreover, there is very little overlap between 
the physical and the digital. It is not a matter of selecting one over 
the other. The Library, with funding from the Alfred P. Sloan 
Foundation, has established a book digitization center, which can 
create digital copies of physical books at the rate of 1,000 volumes 
per week. Once digitized, the physical objects are sent to Fort Meade 
for long term preservation, thus freeing up some space in the stacks. 
The reality, though, is that the Library receives 1,000 new volumes per 
day, so digitizing 1,000 older materials each week will not keep pace 
with the demand. The Library has a unique responsibility as the 
national library to collect materials in the formats in which they are 
produced, and we cannot continue to do so without sufficient storage 
for both physical and digital materials.
    Question. What skills are needed to accept, manage, and make 
available an increasing volume of digital content? Has the Library 
undertaken workforce planning that would address the changing skill 
sets needed?
    Answer. The Library identified an initial set of basic digital 
proficiencies that are needed for librarians and curatorial staff 
across the agency. These include navigating the online public access 
catalog (OPAC) and staff subscription databases, adapting to the 
changing role of libraries and librarians, and understanding the 
increased role of digital resources in the Library. Further, basic 
digital proficiencies for subject specialist positions were identified 
and include advanced web searching, working within the various modules 
of the Integrated Library System (Voyager), understanding emerging 
licensing issues, and metadata. In addition, the Library's Federal 
Library Information Center, in consultation with other federal 
libraries, library associations, and the Office of Personnel 
Management, developed the ``Federal Librarian Competencies.'' These 
competencies define the knowledge, skills, and abilities needed in 
areas such as data preservation and long term access, data authenticity 
and authorship, and intellectual property. As the Library hires new 
staff, it reviews existing position descriptions and determines the 
knowledge, skills and abilities needed for these jobs through a 
structured job analysis process. Digital competencies and other needed 
skills are analyzed and reflected in each vacancy posted and drive the 
selection process. Also, Library Services is developing a ``Knowledge 
Navigators'' plan to train staff to work in the 21st century library 
using their expertise, skills, and talents in a digital environment.
    Question. LOC has requested $7 million to continue the Teaching 
with Primary Sources program. Can this program be used to improve 
distance learning opportunities for educators in rural areas?
    Answer. The Library has requested no additional funding for the 
Teaching with Primary Sources (TPS) program in 2010. The Library is 
launching an online database, TPS Direct, on June 30, 2009. TPS Direct 
will offer any educator, at any time, the ability to customize 
professional development activities from the TPS program for use at the 
school, district or state level for delivery in a face-to-face, online 
or blended format.
    Distance learning outreach is already taking place in Alaska 
through a TPS Regional Grant. Following the TPS workshops that were 
held in Anchorage the week of June 1, a series of webinars and 
asynchronous discussion forums will be led by Elizabeth James, 
Assistant Professor of History, University of Alaska Anchorage 
professor, and Peggy O'Neill-Jones, who manages TPS regional activity 
in the Western part of the United States.
    Question. CRS is requesting $1.8 million for ``enhanced access to 
CRS expertise'' in fiscal year 2010. Please prioritize the elements 
within the $1.8 million request and the amount of funding that will 
allow a staged implementation of CRS's enhanced access.
    Answer. The $1.8 million in fiscal 2010 would accomplish the 
following elements:
  --$0.9 million to design a framework for CRS information systems and 
        data sets that can provide an integrated, interrelated, and 
        interoperable research environment;
  --$0.6 million to procure the software needed to implement the new 
        framework; and
  --$0.3 million to customize the software and begin implementation of 
        the plan.
    If the software procurement and implementation was delayed 1 year:
  --$0.9 million would be required in fiscal 2010.
  --The cost in fiscal 2011 would increase from $1.3 million to $1.8 
        million
    --$0.6 million added for cost of software.
    --$0.1 million in software maintenance costs avoided.
  --The cost in fiscal 2012 would increase from $1.0 million to $1.3 
        million to complete the initial deployment actions.
  --The cost of continued services, maintenance, and enhancements would 
        be $1.0 million in fiscal 2013 and beyond.
    Question. Please describe the process you use to ensure the quality 
of your work products, and specifically the process you use to validate 
the factual accuracy of the information in your reports.
    Answer. CRS makes every effort to ensure that its work meets 
several critical quality criteria: it must be accurate and clearly 
articulated; authoritative; objective, non-advocative, non-partisan, 
and without political bias; and must be in conformance with Service 
standards and client expectations of confidentiality. At the same time, 
CRS responses to congressional needs must be timely. Requests are often 
accompanied by tight deadlines that must be met if the information 
provided is to be of value to the client.
    For product quality assurance CRS relies first and foremost on the 
professional competence of its analysts and researchers. CRS experts 
form the ``first line of defense'' against error, but are then backed 
up by a multi-level review process that is designed to ensure product 
quality and adherence to CRS standards and policies. This multi-level 
review starts with scrutiny by Section Research Managers who oversee 
the work of sections of approximately a dozen analysts assigned by 
subject matter expertise. Following that review, a research division 
review (by one of five research divisions) is conducted that ``clears'' 
the document to be sent to the Office of Review, overseen by an 
associate director, for final clearance and delivery to the client. 
This final review stage addresses primarily matters of policy (focusing 
on objectivity and balance) but is also a ``fail safe'' for matters of 
accuracy, clarity, and authoritativeness. Throughout the process, 
starting with the author and through the Office of Review examination, 
emphasis is also placed on peer review and inter-divisional review. 
Given the multi-faceted and inter-disciplinary nature of CRS work, 
every effort is made to bring all relevant CRS expertise to bear on the 
issues addressed. This is in keeping with CRS collaborative research 
methodologies that start with the author, and is critical to the 
production of appropriately integrated and comprehensive products for 
the Congress.
    As you know, the high volume of congressional demands places 
significant pressure on CRS analysts and information specialists. While 
we believe that the process outlined above minimizes the risk of 
mistakes, the challenge of avoiding human error is ever-present. When 
we learn of any errors it is Service policy to respond immediately to 
any concerns and to take swift action to make any appropriate 
corrections.

                         CONCLUSION OF HEARINGS

    Senator Nelson. The hearing is recessed.
    [Whereupon, at 3:42 p.m., Thursday, June 4, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Ayers, Stephen T., Acting Architect of the Capitol, Architect of 
  the Capitol....................................................   157
    Prepared Statement of........................................   161
    Questions Submitted to.......................................   195
    Summary Statement of.........................................   159

Billington, Hon. James H., Librarian of Congress, Library of 
  Congress.......................................................   261
    Prepared Statement of........................................   265
    Summary Statement of.........................................   264

Chrisler, Tamara E., Esq., Executive Director, Office of 
  Compliance.....................................................   170
    Prepared Statement of........................................   172
    Questions Submitted to.......................................   202
Cylke, Kurt, Director, National Library Service for the Blind and 
  Physically Handicapped, Library of Congress....................   261

Doby, Chris, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................     1
    Prepared Statement of........................................    70
Dodaro, Gene L., Acting Comptroller General, Government 
  Accountability Office..........................................   227
    Prepared Statement of........................................   231
    Summary Statement of.........................................   229
Dwyer, Sheila, Assistant Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................     1

Elmendorf, Douglas W., Director, Congressional Budget Office.....   239
    Prepared Statement of........................................   241
Erickson, Hon. Nancy, Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................     1
    Prepared Statement of........................................     6
    Summary Statement of.........................................     4

Gainer, Hon. Terry, Sergeant at Arms, Sergeant at Arms and 
  Doorkeeper, U.S. Senate........................................    71
    Prepared Statement of the....................................    74
    Questions Submitted to.......................................   130

Jarmon, Gloria, Chief Administrative Officer, United States 
  Capitol Police.................................................   100
Jenkins, Jo Ann, Chief Operating Officer, Library of Congress....   261

Marcum, Dr. Deanna, Associate Librarian for Library Services, 
  Library of Congress............................................   261
Morse, Phillip D., Sr., Chief, United States Capitol Police......   100
    Prepared Statement of........................................   101
    Questions Submitted to.......................................   132
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress, Prepared Statement of.....................   269
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by...........................137, 200, 218, 298
    Statements of......................................2, 158, 228, 262

Nelson, Senator Ben, U.S. Senator From Nebraska:
    Opening Statements of..............................1, 157, 227, 261
    Questions Submitted by...........................130, 132, 195, 202
Nichols, Dan, Chief of Operations and Assistant Chief of Police, 
  United States Capitol Police...................................   100

O'Keefe, Ambassador John, Executive Director, Open World 
  Leadership Center, Library of Congress.........................   277
    Prepared Statement of........................................   278

Peters, Marybeth, Register of Copyrights, Copyright Office, 
  Library of Congress, Prepared Statement of.....................   273
Pryor, Senator Mark, U.S. Senator From Arkansas, Prepared 
  Statement of...................................................     4

Tapella, Robert C., Public Printer, Government Printing Office...   235
    Prepared Statement of........................................   236

Willison, Drew, Deputy Sergeant at Arms, Sergeant at Arms and 
  Doorkeeper, U.S. Senate........................................    71

 
                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page

Additional Committee Questions...................................   195
AOC:
    Accomplishments..............................................   167
    Appreciation.................................................   158
    Budget Representation........................................   159
    Challenges--Needs vs. Resources..............................   160
AOC's Fiscal Year 2010 Project Requests..........................   160
Annual Operating Budget Request..................................   166
Architect of the Capitol/Government Printing Office Similarities.   187
Bartholdi Fountain...............................................   194
Benefit/Risk Assessment..........................................   187
Cannon Stairwell Renovation......................................   183
Capitol:
    Complex's Environmental Footprint............................   161
    Power Plant................................................179, 195
    Visitor Center:
        FTE Staffing Request.....................................   189
        Operating Budget Request.................................   166
        Staff Management.........................................   189
Citation-Related Projects........................................   180
EISA Reduction Goals.............................................   192
Energy:
    Conservation.................................................   181
        And Sustainability Programs..............................   164
    Projects.....................................................   186
    Requirements.................................................   197
Government Printing Office Shared Resources......................   199
House Buildings Versus Senate Buildings..........................   186
Life Safety Projects.............................................   196
Natural Gas Versus Coal..........................................   193
Operating Budget.................................................   198
Planning and Prioritizing........................................   199
Possible Available Options.......................................   180
Project:
    Prioritization...............................................   160
    Recommendation Timeline......................................   188
Renewable Energy.................................................   192
Staff-led Tours..................................................   188
Utility Reduction Costs..........................................   193
Visitor Assistants/Guides FTE Increase...........................   194

                      CONGRESSIONAL BUDGET OFFICE

Actuarial and Expert Services....................................   251
Additional:
    Compensation.................................................   251
    Funding for Health...........................................   240
    Staff........................................................   251
CBO's Work.......................................................   242
Financial and Housing Markets....................................   240
Growing Demand for CBO's Analyses................................   241
High Speed Computers.............................................   251
Mission..........................................................   239
Phased Increase..................................................   239
Prescription Drug Data...........................................   251
Some Details of CBO's Fiscal Year 2010 Budget Request............   243
Staff............................................................   239
Supplemental Appropriations Bill.................................   250
Support Requirements.............................................   240

                    GOVERNMENT ACCOUNTABILITY OFFICE

GAO Delivers Results on an Increasing Range of Federal Programs..   231
GAO's:
    Fiscal Year 2010 Budget Request..............................   233
    FTE Request..................................................   246
    Hiring Strategy..............................................   248
    Initial Recovery Act Findings................................   253
    Passport Work................................................   258
    Staffing Level Trends........................................   247
    Strategy to Meet Recovery Act Responsibilities...............   245
High Congressional Demand for GAO Services.......................   232
Legislative Branch OSHA Enforcement Provisions...................   244
Private Sector Reporting on the Recovery Act.....................   252
Summary of GAO:
    Request......................................................   230
    Workload.....................................................   229

                       GOVERNMENT PRINTING OFFICE

Business Applications at GPO.....................................   258
Changes at GPO...................................................   256
Demand for Passports.............................................   256
Fiscal Year 2010 Appropriations Request..........................   237
GPO:
    Information Technology.......................................   259
    Security.....................................................   249
GPO's:
    Building Repairs.............................................   248
    Revolving Fund...............................................   254
Public Printer's Representation Fund.............................   255
Results of Fiscal Year 2008......................................   236

                          LIBRARY OF CONGRESS

Additional:
    Committee Questions..........................................   297
    Requirements.................................................   269
Alignment With the Congress......................................   271
Breadth of International Collections.............................   287
Broad Distribution of Hosting in U.S.A...........................   278
Capital Security Cost Sharing....................................   289
Chairman Billington on Outlook for Open World....................   296
Copyright Backlog................................................   283
Digital Talking Book Program.....................................   292
Fiscal Year 2010 Budget Request...........................266, 270, 281
Fort Meade.......................................................   265
    Module 5.....................................................   290
    Modules 3 and 4..............................................   289
Funding Options and Alternative Sources of Funding...............   295
Highlights of Copyright Office Work..............................   273
Improving Access, Capabilities, and Services.....................   267
Law Library, GLIN................................................   291
Management Initiatives...........................................   272
Managing and Securing Collections................................   268
Measures of Success..............................................   280
Modernizing the Aging Technology Infrastructure--$20 Million.....   267
Nomination of Participants and Program Processes.................   293
Open World:
    Alumni--Transforming Experience..............................   297
    And:
        Congress.................................................   279
        Shared Funding...........................................   281
    Cost-Share Efforts...........................................   279
    Proposed Amendments for Fiscal Year 2010 Budget Request......   282
    2010 Plans and 2009 Activities...............................   280
Open World's Placement and Role in Legislative Branch............   294
Overseas:
    Field Offices................................................   287
    Office Subscribers...........................................   288
Reengineering Work Processes in Library Services.................   268
Retrieval, Preservation, and Collection Security.................   289
Special Collection Storage Requirements..........................   290
Storage Capacity at Fort Meade...................................   291
Substantial Additions to Foreign Collections.....................   287
Support for:
    Digital Transformation.......................................   265
    The Congress.................................................   271
Technology Infrastructure:
    Requirement..................................................   264
    Upgrades.....................................................   285
The Challenge of Rising Expectations.............................   285

                          OFFICE OF COMPLIANCE

A Heartfelt Thanks...............................................   170
Abatement Clarification..........................................   178
Additional Committee Questions...................................   195
Biennial Inspections...........................................174, 218
Cannon:
    Building Stairwell Hazard....................................   178
    Hazard Abatement.............................................   183
    Versus Russell Stairwell Comparison..........................   185
Categorized Item Breakdown.......................................   179
Citation Flexibility.............................................   185
Citations........................................................   220
Contract Services................................................   171
Design Abatement Resolution......................................   183
FTE Funding Authorization........................................   171
Government Branch Comparability..................................   175
Hazard:
    Abatement....................................................   177
    Funding--Notification Progress...............................   176
High Priority Project Funding....................................   176
Historical Authenticity..........................................   176
Issued Citation Notifications....................................   177
OOC:
    FTE Staffing:
        Justification............................................   191
        Request..................................................   191
    Fiscal Year 2010 Budget Request..............................   170
Risk-based Approach to Safety Work...............................   225
Stairwell Citation Ranking.......................................   184

                      UNITED STATES CAPITOL POLICE

Additional:
    Committee Questions..........................................   130
    Personnel Request............................................   119
Civilian Staffing..............................................125, 136
Counter-intelligence.............................................   137
Encryption.......................................................   119
Enrollment and Wait List Information.............................   116
Funding Efficiencies and Addressing Deficiencies.................   100
Increase in Staff and Effect on Overtime.........................   121
Management of the Radio Project..................................   123
Ongoing Administrative Issues....................................   124
Overtime.........................................................   133
    And Additional Staffing......................................   127
    Staffing.....................................................   103
Radio:
    Funding in Supplemental Bill.................................   117
    Modernization:
        Program..................................................   113
        Project..................................................   102
Radios...........................................................   132
Specifications of the Radio System...............................   118

                              U.S. SENATE

                        Office of the Secretary

Bill Clerk.......................................................     9
Captioning Services..............................................    11
Chief Counsel for Employment.....................................    31
Conservation and Preservation....................................    33
Curator..........................................................    33
Daily Digest.....................................................    11
Disbursing Office................................................    17
Education and Training...........................................    39
Enrolling Clerk..................................................    14
Executive Clerk..................................................    15
Financial Operations.............................................    17
Gift Shop........................................................    40
Historical Office................................................    42
Human Resources..................................................    45
Implementing Mandated Systems....................................     7
Information Systems..............................................    46
Interparliamentary Services......................................    48
Journal Clerk....................................................    15
Legislative:
    Information System (LIS) Project.............................    48
    Offices......................................................     8
Library..........................................................    50
Official Reporters of Debates....................................    16
Page School......................................................    59
Parliamentarian..................................................    16
Presenting the Fiscal Year 2010 Budget Request...................     6
Printing and Document Services...................................    60
Public Records...................................................    62
Stationery Room..................................................    63
Web Technology...................................................    64

                    Sergeant at Arms and Doorkeeper

Enhancing Service to the Senate..................................    82
Fiscal Year 2010 Budget Request..................................   130
Information Technology...........................................    81
Operations and Support...........................................    93
Security and Preparedness........................................    76

                                   - 

</pre></body></html>
